                        SIGTARP: Quarterly Report to Congress | April 28, 2011
                                                                                                            CT
                                                                                                       INSPE OR GE
                                                                                                AL                        N
                                                                                              CI




                                                                                                                          ER
                                                                                         E
                                                                                        SP




                                                                                                                             A L
                                                                                       TRO




                                                                                                                               M
                                                                                                                               RA
                                                                                        UB
                                                                                             LE




                                                                                                                          OG
                                                                                                  D
                                                                                                      ASS                 PR
                                                                                                            E T R ELIEF




SIGTARP
SIG-QR-11-02
                         Q2
                        2011
                                                                                 SIGTARP                                            Office of the Special Inspector General
                                                                                                                                    for the Troubled Asset Relief Program
                                                                                 Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                                April 28, 2011
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
Contents


Executive Summary 	                                                         3
	   Program Updates and Financial Overview	                                11
	   Oversight Activities of SIGTARP	                                       12
	   SIGTARP Recommendations on the Operation of TARP	                      13
	   Report Organization	                                                   13

Section 1
The Office of the Special Inspector General for the
	Troubled asset relief program	                                            15
	 SIGTARP Creation and Statutory Authority	                                17
	 SIGTARP Oversight Activities Since the January 2011 Quarterly Report	    18
	 The SIGTARP Organization	                                                30
	
Section 2 	
TARP overview	                                                             33
	 TARP Funds Update	                                                       35
	 Financial Overview of TARP	                                              38
	 Homeowner Support Programs 	                                             57
	 Financial Institution Support Programs	                                 102
	 Asset Support Programs	                                                 140
	 Automotive Industry Support Programs	                                   156
	 Executive Compensation	                                                 166
	
Section 3 	
tarp operations and administration	                                       169
	 TARP Administrative and Program Expenditures	                           171
	 Current Contractors and Financial Agents	                               172	

Section 4     	
SIGTARP Recommendations	                                                  179
	 Update on SIGTARP’s Recommendations Regarding Capital
  	 Purchase Program Restructurings and Recapitalizations and
  	 Small Business Lending Fund Refinancings	                             181
	 Recommendations Regarding Treasury’s Process for Contracting for
  	 Professional Services Under TARP	                                     182

		     Endnotes	                                                          196
appendices
A. 	 Glossary	                                                         219
B. 	 Acronyms and Abbreviations	                                       224
C. 	 Reporting Requirements	                                           226
D.	 Transaction Detail	                                                230
E. 	 Cross-Reference of Report to the Inspector General Act of 1978	   306
F. 	 Public Announcements of Audits	                                   307
G. 	 Key Oversight Reports and Testimonies	                            308
H.	 Correspondence	                                                    313
I. 	 Organizational Chart	                                             320
	
 investigations
EXECUTIVE SUMMARY
4   special inspector general I troubled asset relief program
                                                                                 quarterly report to congress I april 28, 2011   5




The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) is committed to vigorous oversight of the Troubled Asset Relief
Program’s (“TARP”) unprecedented commitment of billions of taxpayer dollars.
Recent events, including the expiration of Treasury’s authority to initiate new TARP
investments, the continued repayment of TARP funds by larger banks, and the
issuance by the Congressional Oversight Panel (“COP”) of its final TARP report,
have contributed to the perception that TARP is drawing to a close. This is simply
not the case. TARP may have entered a new phase, but it is far from over. As of
March 31, 2011, approximately $146.8 billion in TARP funds was still outstanding,
and there is close to $60 billion obligated and available to be spent. TARP
programs, extraordinary in their scope, scale and complexity, were designed to
last years. For example, TARP’s almost $30 billion Public Private Investment
Program is scheduled to last at least seven more years. Congress understood that
TARP might last for many years, and that oversight would be essential throughout
TARP’s existence. In the Emergency Economic Stabilization Act of 2008 (“EESA”),
Congress created SIGTARP to provide vital oversight and law enforcement for as
long as Treasury holds an asset under TARP. In other words, SIGTARP will remain
“on watch” as long as TARP assets remain outstanding. With the closure this
month of COP — a key TARP oversight body — and the public perception that
TARP is ending, it is now more critical than ever that SIGTARP remain vigilant in
protecting taxpayers.
     TARP’s financial outlook is improving, with more institutions repaying TARP
and cost estimates continuing to decline. Nevertheless, it bears repeating that
Treasury’s ultimate return on its TARP investments depends on many variables that
are largely unknowable at this time, including the ability to sell certain securities
in the market (such as American International Group, Inc. and General Motors
Company), the ability of many banks to repay (over 550 banks have yet to repay
TARP’s Capital Purchase Program investment), and the extent to which Treasury
will spend funds allocated to its housing programs.
    TARP’s costs, of course, involve more than just dollars and cents. It will take
many years to assess the full extent of all costs associated with TARP. As SIGTARP
and others have documented, the non-financial costs include TARP’s contribution
to the moral hazard associated with massive infusions of Government funds into
some of the very institutions that engaged in risky behavior that contributed to the
financial crisis. Many of those institutions remain “too big to fail.” Today, the
biggest banks are bigger than ever. These banks continue to enjoy unwarranted
advantages over their smaller competitors such as better access to capital and
cheaper credit. These advantages exist just by virtue of the pervasive belief —
shared by their executives, counterparties, creditors, and the credit rating agencies —
that the Government will bail them out if necessary. While the underlying problem
may have pre-dated TARP, it is now more severe than ever. And in terms of market
perception, it has not yet been solved by the Dodd-Frank Wall Street Reform and
6   special inspector general I troubled asset relief program




                                           Consumer Protection Act (“Dodd-Frank Act”). As regulators work to implement the
                                           Dodd-Frank Act’s reforms, continued oversight will be critical in determining the
                                           extent to which the Act ultimately meets its promise of ending the concept of “too
                                           big to fail.” The integrity of our financial system is still at risk. Indeed, the stakes
                                           could not be higher.
                                               Further evidence that TARP’s end remains distant lies in recent activity related
                                           to TARP housing programs. Unfortunately, Treasury’s signature program — the
                                           Home Affordable Modification Program (“HAMP”) — has been beset by problems
                                           from the outset. Many of these problems relate to the structure of the program,
                                           which puts the ultimate decision to modify a mortgage in the hands of mortgage
                                           servicers, whose performance has been extraordinarily poor. SIGTARP, through its
                                           Hotline, continues to receive a substantial number of complaints from the public
                                           regarding HAMP servicer performance. These complaints include loss of paper-
                                           work by the servicer, a lack of servicer communication or contradictory informa-
                                           tion, trial modification periods that extend six months or more, and negative credit
                                           reporting for homeowners enrolled in a trial modification. SIGTARP, along with
                                           TARP’s other oversight bodies, has long urged Treasury to get tougher on servicers.
                                           Treasury noted recently that it will start requiring all HAMP servicers to assign a
                                           single point of contact for homeowners, that it will start grading the largest HAMP
                                           servicers on “key performance metrics,” and will begin withholding financial incen-
                                           tives for servicers receiving an unsatisfactory grade. These may be encouraging first
                                           steps. However, it is too early to tell whether these steps will have a meaningful
                                           impact. Treasury’s other housing programs and subprograms are in earlier stages of
                                           development. These include, for example, the Hardest-Hit Fund, the 2MP Second
                                           Lien Modification program, and the FHA Short Refinance program, all of which
                                           have yet to produce substantial results. As these programs develop, SIGTARP will
                                           continue to conduct strong oversight and make recommendations for improvement
                                           where appropriate.
                                               SIGTARP is the only agency whose primary law enforcement mission is the
                                           swift and robust detection and investigation of those who seek to profit crimi-
                                           nally from TARP. When Congress created SIGTARP, it understood that TARP’s
                                           extraordinary expenditure of taxpayer funds would inevitably attract criminal and
                                           other unlawful conduct. In 2009, FBI Director Robert Mueller predicted that
                                           fraud related to bailout money would be the “next wave of financial fraud cases.”
                                           Congress assigned SIGTARP with primary responsibility for policing TARP to
                                           minimize losses to fraud and to bring to justice those who attempt to profit from
                                           TARP unlawfully. SIGTARP takes this mandate seriously, working hard to deliver
                                           the accountability the American people demand and deserve. SIGTARP’s inves-
                                           tigative staff is comprised of dedicated and highly experienced special agents and
                                           attorneys who hail from a wide range of Federal agencies. SIGTARP co-chairs the
                                                                                quarterly report to congress I april 28, 2011   7




Rescue Fraud Working Group of the President’s Financial Fraud Enforcement Task
Force (“FFETF”). SIGTARP also leverages its resources through partnerships with
other Federal, state, and local law enforcement agencies to ensure that justice is
done. Similar to the FBI, SIGTARP has the authority to investigate crime, but not
to prosecute crime.
    SIGTARP’s investigations are making a difference with substantial results in a
remarkably short time frame. As of the drafting of this report, 61 individuals and 18
entities had been charged in criminal or civil actions related to SIGTARP investiga-
tions, with 22 individuals criminally convicted. SIGTARP helped prevent over
$550 million in taxpayer funds from being lost to fraud, and has assisted in the
recovery of over $151 million. With more than 150 ongoing investigations,
SIGTARP is committed to stopping ongoing fraud, deterring criminal behavior,
and bringing criminals to justice.
    Statistics, of course, never tell the whole story. While SIGTARP’s investiga-
tions remain confidential, and not all investigations lead to the filing of charges,
SIGTARP has uncovered and will continue to investigate a variety of familiar white
collar fraud schemes that have been “repackaged” into TARP-related fraud. Some
of these are perpetrated by con artists looking to exploit vulnerable victims, as with
the rash of mortgage modification schemes directed at struggling homeowners or
ponzi-like schemes directed at investors. Others are complex accounting and
securities fraud perpetrated by bank executives seeking funding under TARP’s
Capital Purchase Program (“CPP”). There are also a variety of fraud schemes
against TARP recipients who count the American taxpayers as investors. All of
these schemes have real victims, be they homeowners turning over their scarce
resources, or American taxpayers whose dollars funded TARP and who have the
right to see their investment protected against fraud. Like other sophisticated white
collar crime, the more complex of these schemes are difficult to detect and take
time to investigate, with complicated, opaque, and often-convoluted transactions
carefully constructed to hide the truth. That is why prosecution of these cases
often follows behind the programs that attract the criminal behavior. SIGTARP’s
investigative activities will increasingly become public with the filing of charges
against more and more criminals.
     Several recent convictions and criminal charges illustrate the most common
types of fraud SIGTARP has uncovered and is investigating. SIGTARP is describ-
ing these fraud schemes to warn those who may fall prey to these schemes and to
deter those who may be contemplating or engaged in fraud. Criminals are naturally
opportunistic and will always follow the money. Lore has it that infamous bank
robber Willie Sutton, when asked why he robbed banks, replied, “Because that’s
where the money is.” TARP was where the money was, and still is, and we have
seen that criminals soon followed.
8   special inspector general I troubled asset relief program




                                           Schemes to Steal Money from TARP’s Capital Purchase
                                           Program
                                           Close to 3,000 banks and other financial institutions applied for TARP capital
                                           through CPP. The CPP application rested largely on the institution’s books and
                                           records. Given the breadth and depth of the financial crisis, it is hardly surprising
                                           that some of these applications were contaminated by fraud. Many banks faced
                                           gaping holes in their balance sheets — holes often created by fraud or excessive
                                           risk-taking that contributed to the financial crisis. SIGTARP is investigating whether
                                           executives at some of those banks schemed to solve their problems through theft
                                           or attempted theft of millions of TARP dollars to fill the holes created by their bad
                                           acts. Hallmarks of the schemes include the maintenance of two sets of books,
                                           roundtrip transactions (described below), insider self-dealing, and the use of other
                                           opaque transactions and sophisticated accounting fraud.
                                               At the heart of these schemes is an abuse of power by key bank insiders who
                                           defraud bank regulators as a means to enrich themselves at the expense of their
                                           targeted victims, the very taxpayers who funded TARP. Charles Antonucci, the
                                           former president and CEO of The Park Avenue Bank became the first defendant
                                           convicted of directly attempting to steal money from CPP. Antonucci pled guilty
                                           in Federal court in New York to a number of offenses including making fraudulent
                                           claims that he contributed $6.5 million to the bank when in fact it was a roundtrip
                                           transaction — in which he borrowed the bank’s funds and reinvested them back in
                                           the bank. This fraudulently inflated the bank’s capital in its $11 million unsuccessful
                                           CPP application. In a separate case, a Federal grand jury in Georgia indicted Mark
                                           Conner, Chairman and CEO of FirstCity Bank (“FirstCity”) and Clayton Coe, Vice
                                           President, for allegedly misrepresenting loans on the bank’s books and falsifying
                                           documents and information presented to the loan committee and the Board of
                                           Directors, including that some of the loans were for borrowers purchasing property
                                           owned by Conner and Coe personally. To cover their tracks, Conner, Coe and their
                                           co-conspirators allegedly misled bank regulators. They attempted to obtain
                                           $6.1 million in FirstCity’s unsuccessful CPP application.
                                               Given that TARP was originally envisioned to deal with “toxic assets,” —
                                           primarily troubled mortgages and mortgage-backed securities — it is no surprise
                                           that SIGTARP has found fraud related to those assets. Such is the case with
                                           the fraud scheme perpetrated by senior executives of Taylor, Bean & Whitaker
                                           Mortgage (“TBW”), once the largest non-depository mortgage lender in the country,
                                           and senior executives of TBW’s lender, The Colonial BancGroup, Inc. (“Colonial”),
                                           which applied for CPP funds. On April 19, 2011, Lee Bentley Farkas, the former
                                           chairman of TBW, was convicted after a 10-day jury trial in connection with the
                                           largest and longest running bank and TARP fraud scheme in the United States
                                           which ultimately led to the failures of TBW and Colonial’s subsidiary Colonial
                                           Bank. Six individuals from Colonial and TBW had entered guilty pleas for their
                                                                               quarterly report to congress I april 28, 2011   9




roles in these $2.9 billion schemes. The SEC also filed civil charges against several
of these individuals.
    This is the most significant criminal prosecution to date rising out of the
financial crisis. Investigators working for SIGTARP originally identified the massive
fraud scheme in connection with Colonial’s application for $570 million in tax-
payer funding through TARP’s CPP. Colonial’s TARP application was conditionally
approved for $553 million contingent on the bank raising $300 million in private
capital. SIGTARP uncovered that Farkas and his co-conspirators caused Colonial
to falsely represent to Treasury that Colonial Bank had secured $300 million in
private investor funding. SIGTARP quickly determined that the private capital sup-
posedly raised by Colonial Bank, by and through Farkas and his co-conspirators,
did not originate from private investors but instead appeared to be money that the
co-conspirators had improperly diverted from Ocala Funding, a mortgage lending
facility controlled by TBW. Evidence at trial established that in connection with
the TARP application, Colonial submitted financial data and filings that included
materially false information related to mortgage loans and securities held by
Colonial Bank as a result of the fraudulent scheme perpetrated by Farkas and his
co-conspirators. As part of their guilty pleas, TBW and Colonial senior executives
admitted to concealing TBW’s overdrawn account at Colonial through a pattern
of sweeping overnight money from one TBW account to another, and through
fictitious “sales” of mortgages to Colonial, a fraud scheme dubbed “Plan B.” They
knew that the mortgages either did not exist or that TBW had already committed or
sold them to others. The convictions in this case are a result of the dedicated and
selfless work of the staff of SIGTARP and its law enforcement partners through the
FFETF including DOJ, the United States Attorney’s Office in the Eastern District
of Virginia, the FBI and many others.



Fraud Schemes by Those who Claim to be Affiliated with or
Have Expertise in TARP
Con artists are exploiting TARP’s very existence by claiming affiliation with or
expertise in TARP programs. These fraudsters take advantage of the publicity sur-
rounding TARP programs such as HAMP. The most common scheme is the mort-
gage modification advance-fee scheme in which fraudsters steal from struggling
homeowners by falsely promising that they can navigate the often murky waters
of the modification process, for a fee of $1,500 or more paid in advance. These
schemes have devastating consequences for their victims, who often use their
last dollars to pay con artists who then take the money and run. Hallmarks of this
scheme include the perpetrators holding themselves out as experts in HAMP, and
providing “advice” that their victims will have a better chance of getting a HAMP
10   special inspector general I troubled asset relief program




                                            modification if they stop making mortgage payments and cease all communication
                                            with their mortgage servicer. To further lure their victims, they make money-back
                                            guarantees that they have no intention of keeping.
                                                SIGTARP is putting a stop to these schemes. A SIGTARP investigation led to
                                            the conviction in a California Federal court of Glenn Rosofsky, Michael Trap, and
                                            Roger Jones. These defendants mailed solicitation letters to individuals who were
                                            behind on their mortgage payments. Their letters were designed to mimic official
                                            Federal Government correspondence. The letters contained false statements that
                                            induced thousands of homeowners to pay $2,500 to $3,000 each to purchase loan
                                            modification services that were never delivered. Howard Shmuckler has also been
                                            charged in a state indictment in Maryland in connection with an alleged mortgage
                                            modification scheme. Shmuckler and his partners allegedly advertised through
                                            Spanish-speaking radio stations and targeted struggling homeowners with delin-
                                            quent subprime mortgages. Shmuckler allegedly guaranteed success or their money
                                            back and directed homeowners to stop making mortgage payments and not to con-
                                            tact their lenders. In another type of fraud scheme, Lori Macakanja, who worked
                                            for a HUD-approved housing counseling agency, was charged in a Federal criminal
                                            complaint in New York based on her alleged false claims to homeowners that the
                                            money they gave her would be used for trial payments in modifications. Instead,
                                            Macakanja allegedly spent the money at casinos and on her own mortgage.
                                                 SIGTARP has also uncovered ponzi schemes and unregistered securities
                                            offering fraud that take unlawful advantage of the publicity and complexity
                                            surrounding the whole TARP program. The perpetrators of these schemes falsely
                                            represent to their victims that the investment in question is connected to TARP
                                            and is therefore particularly safe. Gordon Grigg, a financial advisor, is currently
                                            serving a 10-year prison term for his role in a ponzi scheme investigated by
                                            SIGTARP in which, during the height of the financial crisis, he embezzled nearly
                                            $11 million from investors through false statements that he had access to “TARP-
                                            backed securities.” There is no such thing as a “TARP-backed security.” In January
                                            2010, the SEC, working with SIGTARP, filed a civil complaint against Newpoint
                                            Financial Services, Inc., its co-owners John Farahi and Gissou Rastegar Farahi,
                                            and its controller Elaheh Amouei, charging them with a $20 million unregistered
                                            offering fraud aimed at Iranian-Americans, many of whom were falsely told that
                                            they were investing in FDIC-insured certificates of deposit, Government bonds,
                                            or corporate bonds issued by companies backed by TARP funds. The defendants
                                            allegedly lured victims through John Farahi’s daily finance radio show on a Farsi-
                                            language radio station with false promises that they were guaranteed to get their
                                            money back, when in reality, the money went to Farahi’s multi-million dollar
                                            personal residence in Beverly Hills and Farahi’s risky options futures trading, in
                                            which he lost more than $18 million.
                                                Those who may fall prey to these types of schemes should beware. Struggling
                                            homeowners paying for assistance to navigate HAMP modifications should be wary
                                                                                 quarterly report to congress I april 28, 2011   11




of promises that seem too good to be true. Potential investors who are guaranteed
safe investments that promise TARP backing should perform due diligence to
understand the security and the risk of loss of their investment.

Schemes to Steal Money from TARP Recipients
Through TARP, Treasury, and by extension the American people, became share-
holders in hundreds of financial institutions. Just as any investor, the taxpayers
suffer from crimes committed against TARP recipients. SIGTARP is committed to
protecting those investments. Fraud against a TARP recipient can take any number
of forms. Robert Egan and Bernard McGarry, the president and chief operating
officer of Mount Vernon Money Center, a New York ATM and payroll cash
management business, pled guilty for misappropriating client money, which
included the funds of several TARP recipients. In another case, Thomas Fu and
Cheri Shyu, owners of Galleria USA, Inc., a California home décor importer, were
indicted by a Federal grand jury with allegedly defrauding a consortium of eight
banks, including TARP recipients. According to the indictment, the defendants
allegedly exaggerated — as much as 100 times — the company’s in-transit
inventory and accounts receivables. Fu and Shyu also allegedly fabricated bills of
lading and invoices to support the exaggerated numbers and hide Galleria’s true
financial status.
    The TARP-related fraud schemes uncovered, and being investigated, by
SIGTARP cause serious harm to real victims, as criminals preyed on the vulnerability
we faced as a nation. Fortunately, the efforts of SIGTARP and its law enforcement
partners have stopped many of these schemes dead in their tracks, preventing
greater harm. SIGTARP will continue to work to bring to justice those criminals —
including those in positions of power and responsibility — who seek to profit from
the financial crisis by exploiting TARP through fraud.


PROGRAM UPDATES AND FINANCIAL OVERVIEW
TARP consists of 13 programs. Because TARP investment authority expired on
October 3, 2010, no new obligations may be made with TARP funds. However,
dollars that have already been obligated to existing programs may still be expended.
As of October 3, 2010, $474.8 billion had been obligated across TARP to provide
support for U.S. financial institutions, the automobile industry, the markets in
certain types of asset-backed securities, and homeowners. Of the obligated amount,
$410.5 billion had been spent as of March 31, 2011, leaving $58.9 billion in five
programs remaining as obligated and available to spend after accounting for a
$5 billion reduction in exposure to possible future liabilities. According to Treasury,
through March 31, 2011, 143 TARP recipients — including 10 with the largest
CPP investments — had paid back all of their principal or repurchased shares,
and 22 TARP recipients had made partial repayments by paying back some of their
principal or repurchasing from Treasury some of their preferred shares, for a total
12   special inspector general I troubled asset relief program




                                            of $263.7 billion of repayments and reductions in exposure. As of March 31, 2011,
                                            this left $146.8 billion in TARP funds outstanding.
                                                In addition to the principal repayments, Treasury has received interest and divi-
                                            dend payments on its investments, as well as revenue from the sale of its warrants.
                                            According to Treasury, as of March 31, 2011, the Government had received
                                            $37.0 billion in interest, dividends, and other income, including $8.9 billion in
                                            proceeds that had been received from the sale of warrants and stock received as a
                                            result of exercised warrants. At the same time, some TARP participants have missed
                                            dividend payments. Among CPP participants, 173 missed dividend or interest
                                            payments to the Government as of March 31, 2011, for a total of $277.3 million in
                                            unpaid CPP dividends.


                                            OVERSIGHT ACTIVITIES OF SIGTARP
                                            SIGTARP has issued 14 audit reports, including two that have been issued since
                                            the end of last quarter. In addition to “Extraordinary Financial Assistance Provided
                                            to Citigroup, Inc.,” discussed in SIGTARP’s January 2011 Quarterly Report,
                                            SIGTARP also issued “Treasury’s Process for Contracting for Professional Services
                                            under the Troubled Asset Relief Program.” This report, released on April 14, 2011,
                                            discussed the results of SIGTARP’s audit of the contracting processes of Treasury’s
                                            Office of Financial Stability (“OFS”) related to legal fee billing and SIGTARP’s
                                            audit of fee bills submitted by the law firm Venable LLP. For a more detailed
                                            discussion of this audit and Treasury’s responses thereto, see Section 4: “SIGTARP
                                            Recommendations” of this report. Section 1: “The Office of the Special Inspector
                                            General for the Troubled Asset Relief Program” of this report discusses SIGTARP’s
                                            announcement of two new audit projects during the past quarter, as well as 12
                                            other previously announced audits in process.
                                                SIGTARP’s Investigations Division has developed into a highly sophisticated
                                            white collar investigative agency. As of March 31, 2011, SIGTARP had more than
                                            150 ongoing criminal and civil investigations, many in partnership with other law
                                            enforcement agencies. Although much of SIGTARP’s investigative activity remains
                                            confidential, over the past quarter there have been significant public developments
                                            in a number of SIGTARP’s investigations. For a description of recent develop-
                                            ments, including those relating to SIGTARP investigations into The Colonial
                                            BancGroup, Inc. / Taylor, Bean & Whitaker, FirstCity Bank, Orion Bank, Nations
                                            Housing Modification Center, HomeFront, Inc., Galleria USA, Inc., Karl Rodney
                                            (New York Carib News, Inc.), Residential Relief Foundation, The Park Avenue
                                            Bank, and Omni National Bank, see Section 1 of this report.
                                                                               quarterly report to congress I april 28, 2011   13




SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury so that TARP programs can be designed or modified to facilitate effec-
tive oversight and transparency and to prevent fraud, waste, and abuse. Section 4
“SIGTARP Recommendations” provides updates on existing recommendations and
summarizes implementation measures for previous recommendations.
    This quarter, Section 4 includes a follow-up discussion of recommendations
related to the restructuring or recapitalization of Treasury’s CPP investments, or
their refinancing into the Small Business Lending Fund (“SBLF”), that were first
published in SIGTARP’s January 2011 Quarterly Report. Section 4 reviews the
recommendations as well as Treasury’s adoption of those recommendations.
    Additionally, Section 4 addresses four new SIGTARP recommendations
contained in the audit report “Treasury’s Process for Contracting for Professional
Services under the Troubled Asset Relief Program,” released on April 14, 2011. The
recommendations are designed to address weaknesses in OFS contracts for legal
services as well as in OFS procedures for the review of legal fee bills. Treasury has
stated its intent to adopt the four recommendations and has already taken steps to
implement them.



REPORT ORGANIZATION
The report is organized as follows:

•	 Section 1 discusses the activities of SIGTARP.
•	 Section 2 details how Treasury has spent TARP funds thus far and contains an
   explanation or update of each program.
•	 Section 3 describes the operations and administration of the Office of Financial
   Stability, the office within Treasury that manages TARP.
•	 Section 4 discusses SIGTARP’s recommendations to Treasury with respect to
   the operation of TARP.

    The report also includes numerous appendices containing, among other things,
figures and tables detailing all TARP investments through March 31, 2011, except
where otherwise noted.
14   special inspector general I troubled asset relief program
            The Office of the Special
section 1
               investigations
            Inspector General for the
            Troubled Asset Relief Program
16   special inspector general I troubled asset relief program
                                                                                quarterly report to congress I april 28, 2011   17




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in Section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside the Government.
    TARP investment authority expired on October 3, 2010. As a result, Treasury
cannot make new purchases or guarantees of troubled assets. This termination of
authority, however, does not affect Treasury’s ability to administer existing troubled
asset purchases and guarantees. In accordance with Section 106(e) of EESA,
Treasury may expend TARP funds after October 3, 2010, as long as it does so pur-
suant to obligations entered into before that date. SIGTARP’s oversight mandate
did not end with the expiration of Treasury’s authorization for new TARP funding.
Rather, under the authorizing provisions of EESA, SIGTARP is to carry out its
duties until the Government has sold or transferred all assets and terminated all
insurance contracts acquired under TARP. In other words, SIGTARP will remain
“on watch” as long as TARP assets remain outstanding.
18   special inspector general I troubled asset relief program




                                            SIGTARP OVERSIGHT ACTIVITIES SINCE THE
                                            JANUARY 2011 QUARTERLY REPORT
                                            SIGTARP has continued to fulfill its oversight role on multiple parallel tracks:
                                            investigating allegations of fraud, waste, and abuse in TARP programs; auditing
                                            various aspects of TARP and TARP-related programs and activities; coordinating
                                            closely with other oversight bodies; and striving to promote transparency in TARP
                                            programs.

                                            SIGTARP Investigations Activity
                                            SIGTARP’s Investigations Division has developed into a highly sophisticated white-
                                            collar investigative agency. As of March 31, 2011, SIGTARP had more than 150
                                            ongoing criminal and civil investigations, many in partnership with other law
                                            enforcement agencies. From SIGTARP’s inception through the drafting of this
                                            report, its investigations have delivered substantial results, including:

                                            •	 asset recoveries of $151 million, with an additional estimated savings of
                                               $555.2 million through fraud prevention
                                            •	 civil or criminal actions against 61 individuals, including 41 senior officers
                                               (CEOs, owners, founders, or senior executives) of their organizations
                                            •	 criminal convictions of 22 defendants
                                            •	 civil cases naming 18 corporate or other legal entities as defendants

                                                SIGTARP’s investigations concern suspected TARP fraud, accounting fraud,
                                            securities fraud, insider trading, bank fraud, mortgage fraud, mortgage-servicer
                                            misconduct, fraudulent advance-fee schemes, public corruption, false statements,
                                            obstruction of justice, theft of trade secrets, money laundering, and tax-related mat-
                                            ters. Although the majority of SIGTARP’s investigative activity remains confidential,
                                            over the past quarter there have been significant public developments in several
                                            SIGTARP investigations.

                                            The Colonial BancGroup, Inc./Taylor, Bean & Whitaker
                                            On April 19, 2011, Lee Bentley Farkas, the former chairman of Taylor, Bean
                                            & Whitaker Mortgage Corporation (“TBW”), was convicted in a jury trial of 14
                                            counts of bank, wire and securities fraud that included charges relating to his role
                                            in attempting to steal $553 million from TARP through the fraudulent application
                                            of The Colonial BancGroup, Inc. (“Colonial”) to the Capital Purchase Program
                                            (“CPP”). Notwithstanding Colonial’s conditional approval to receive TARP funds,
                                            SIGTARP notified Treasury of its investigation, thereby ensuring that no TARP
                                            funds were disbursed to Colonial. Farkas was also convicted in a fraud scheme
                                            involving more than $2.9 billion that contributed to the failures of Colonial and
                                            TBW and that victimized numerous other public and private institutions. Farkas
                                                                               quarterly report to congress I april 28, 2011   19




is scheduled to be sentenced on July 1, 2011, and faces a maximum prison term
of anywhere from 20 to 30 years for each count of conviction. In August 2009,
Colonial Bank (a subsidiary of Colonial) was seized by its regulator, which
appointed the Federal Deposit Insurance Corporation (“FDIC”) as receiver.
Colonial BancGroup filed for bankruptcy in August 2009.
    To date, six individuals from Colonial Bank and TBW have entered guilty pleas
in the U.S. District Court for the Eastern District of Virginia for their roles in
various aspects of the bank and TARP-fraud schemes.
    Paul Allen, the former chief executive officer (“CEO”) of TBW, pled guilty
on April 1, 2011, to one count of conspiracy to commit bank and wire fraud and
one count of making false statements to the Department of Housing and Urban
Development (“HUD”). Allen admitted that he and others engaged in a scheme
to defraud financial institutions that had invested in TBW’s wholly owned lending
facility, Ocala Funding. Shortly after Ocala Funding was established, Allen learned
that inadequate assets were backing its commercial paper — a deficiency referred
to within TBW as a “hole” in Ocala Funding. Allen admitted that he kept the chair-
man of TBW, Farkas, informed of the collateral shortfall, and that Farkas told him
that the “hole” had been moved from Ocala Funding to Colonial Bank. Allen was
later directed to approach a private equity investor to secure capital to help meet a
$300 million private capital requirement that Treasury had set for Colonial Bank to
receive $553 million from TARP. Although Allen failed to secure the funding from
the investor, he admitted in court that TBW Chairman Farkas represented to others
that the investor was a $50 million participant and that the chairman diverted
$5 million from Ocala Funding to an escrow account in the investor’s name. This
deception caused Colonial Bank to falsely announce that it had met its $300 mil-
lion capital contingency and to send a letter to the FDIC stating that all investors
had met a 10% escrow deposit requirement. Allen also admitted to making false
statements in a letter he sent to HUD, through Ginnie Mae, regarding TBW’s
audited financial statements for the fiscal year ended March 31, 2009. Allen is
scheduled to be sentenced on June 21, 2011.
    Sean W. Ragland, the former senior financial analyst at TBW, pled guilty on
March 31, 2011, to conspiring to commit bank and wire fraud for his role in the
scheme to defraud financial investors in Ocala Funding. Ragland learned of the
Ocala Funding “hole” and reported its status to senior TBW executives. Ragland
was also aware that TBW co-conspirators were improperly transferring hundreds of
millions of dollars from Ocala Funding to TBW accounts. Ragland admitted that,
at the direction of other co-conspirators, he prepared fraudulent documents that
inflated the aggregate value of the loans held in Ocala Funding. He sent this false
information to the financial institution’s investors, other third parties, and to an
outside auditing firm. Ragland is scheduled to be sentenced on June 21, 2011.
20   special inspector general I troubled asset relief program




                                                Teresa Kelly, the former operations supervisor in Colonial Bank’s Mortgage
                                            Warehouse Lending Division, pled guilty on March 16, 2011, to conspiracy to
                                            commit bank, wire, and securities fraud. According to court records, Kelly and
                                            her co-conspirators caused TBW to engage in sales to Colonial Bank of fictitious
                                            securities that were not backed by collateral and had no value. Kelly and others
                                            caused the false information to be entered into Colonial Bank’s books and records,
                                            giving the appearance that Colonial Bank owned a 99% interest in legitimate
                                            securities serviced by TBW, when in fact the securities had no value and could not
                                            be sold. Kelly is scheduled for sentencing on June 17, 2011. In a related action, the
                                            Securities and Exchange Commission (“SEC”) filed an enforcement action against
                                            Kelly on March 16, 2011, in the U.S. District Court for the Eastern District of
                                            Virginia.
                                                Raymond Bowman, the former president of TBW, pled guilty on March 14,
                                            2011, to conspiracy to commit bank, wire, and securities fraud, and to lying to
                                            SIGTARP and Federal Bureau of Investigation (“FBI”) agents. Bowman admitted
                                            that from 2003 through August 2009 he and his co-conspirators, including former
                                            TBW Chairman Farkas, engaged in a fraud scheme that caused Colonial Bank and
                                            Colonial BancGroup to purchase tens of millions of dollars of worthless assets.
                                            They also caused Colonial BancGroup to report false information in its financial
                                            statements and to artificially inflate the value of TBW’s mortgage-servicing rights.
                                            Bowman is scheduled to be sentenced on June 10, 2011.
                                                Catherine Kissick, the former senior vice president of Colonial Bank and head
                                            of its Mortgage Warehouse Lending Division, pled guilty on March 2, 2011, to
                                            conspiracy to commit bank, wire, and securities fraud. According to court docu-
                                            ments, Kissick admitted that from 2002 through August 2009, she and her co-con-
                                            spirators, including former TBW Chairman Farkas, engaged in a scheme to defraud
                                            various entities and individuals, including Colonial Bank, Colonial BancGroup,
                                            TARP, and the investing public. In connection with the TARP application, Colonial
                                            BancGroup submitted materially false financial data and filings as a result of the
                                            fraudulent scheme perpetrated by Kissick and her co-conspirators. Further, Kissick
                                            admitted that she deleted and instructed members of her staff to delete electronic
                                            communications on their Blackberry hand-held devices to evade SIGTARP subpoe-
                                            nas. Kissick is scheduled to be sentenced on June 17, 2011. The SEC also filed an
                                            enforcement action against Kissick on March 2, 2011, in the U.S. District Court
                                            for the Eastern District of Virginia.
                                                Desiree Brown, the former treasurer of TBW, pled guilty on February 24, 2011,
                                            to conspiracy to commit bank, wire, and securities fraud. Brown admitted to
                                            participating in a fraud scheme that included generating money for TBW through
                                            fictitious “sales” of mortgage loans to Colonial Bank by sending the bank mort-
                                            gage data for loans that did not exist or that TBW had already committed or sold
                                            to other third-party investors. The scheme also included the fraudulent effort to
                                                                               quarterly report to congress I april 28, 2011   21




obtain TARP funding through the materially false Colonial BancGroup CPP appli-
cation. Brown is scheduled to be sentenced on June 10, 2011. The SEC also filed
an enforcement action against Brown on February 24, 2011, in the U.S. District
Court for the Eastern District of Virginia.
    The cases, brought in coordination with the President’s Financial Fraud
Enforcement Task Force (“FFETF”), are being investigated by SIGTARP, FBI,
the Office of the Inspector General of the FDIC (“FDIC OIG”), the Office of the
Inspector General of HUD (“HUD OIG”), the Office of the Inspector General of
the Federal Housing Finance Agency (“FHFA OIG”), and the Internal Revenue
Service Criminal Investigation Division (“IRS-CI”). The Financial Crimes
Enforcement Network (“FinCEN”) of the Department of the Treasury also pro-
vided support.

FirstCity Bank
On March 16, 2011, a Federal grand jury sitting in the Northern District of
Georgia indicted Mark A. Conner and Clayton A. Coe, two former top officers of
FirstCity Bank (“FirstCity”) in Stockbridge, Georgia, with conspiracy to commit
bank fraud and substantive counts of bank fraud. Additionally, Coe was charged
with making false statements to a financial institution and Conner was charged
with conducting a continuing financial crimes enterprise for two years that generat-
ed more than $5 million in unlawful proceeds. Conner served in a variety of senior
positions at FirstCity between 2004 and 2009, including president, vice chairman
of the board of directors, and acting chairman and CEO. Coe served as a vice presi-
dent and as FirstCity’s senior commercial loan officer.
    The indictment alleges that Conner, Coe, and others conspired to defraud
FirstCity’s loan committee and board of directors into approving multiple, multi-
million dollar commercial loans to borrowers who, unbeknownst to FirstCity, were
actually purchasing property owned by Conner or Coe personally. Their actions
then caused at least 10 other federally insured banks to invest in the fraudulent
loans — in effect shifting all or part of the risk of default to the other banks. To
cover their tracks, and as part of the alleged scheme, Conner, Coe, and their
co-conspirators routinely misled federal and state bank regulators and examiners;
attempted to obtain federal government assistance through TARP; and engaged
in other misconduct in an attempt to avoid seizure by regulators and prevent the
discovery of their fraud scheme. FirstCity was seized by state and federal authori-
ties on March 20, 2009.
    On the morning of March 20, 2011, the two-year anniversary of FirstCity’s
failure, Conner was arrested at Miami International Airport upon his arrival from the
Turks and Caicos Islands. On the morning of March 27, 2011, Coe was also arrested
at Miami International Airport upon his return from the Turks and Caicos Islands.
The case continues to be investigated by SIGTARP, FBI, IRS-CI, and FDIC OIG.
22   special inspector general I troubled asset relief program




                                            Orion Bank
                                            On March 30, 2011, a Federal grand jury sitting in the Middle District of Florida
                                            returned an indictment against Jerry J. Williams, former president, CEO, and
                                            board chairman of Orion Bancorp, Inc., and Orion Bank (“Orion”), for conspiracy
                                            to commit bank fraud and to deceive federal and state bank examiners. Williams
                                            was also charged with two counts of misapplication of bank funds; two counts of
                                            making false entries in Orion’s reports; mail fraud; wire fraud; and money launder-
                                            ing. In October 2008, Orion Bancorp, Inc., filed an application for $64 million of
                                            TARP money through CPP. According to the indictment, Williams orchestrated a
                                            complex conspiracy to fraudulently raise $100 million in capital and falsify bank re-
                                            cords in order to mislead state and federal regulators as to the bank’s true financial
                                            condition. This was accomplished by two “round-trip” transactions through which
                                            Orion’s own funds were used to create the illusion of genuine capital infusions,
                                            creating the false impression to regulators that Orion’s capital position had
                                            improved considerably.
                                                On March 30, 2011, criminal informations were filed in the U.S. District Court
                                            for the Middle District of Florida, separately charging Francesco Mileto, Thomas
                                            Hebble, and Angel Guerzon for their involvement in the scheme. Mileto was
                                            charged with conspiracy to commit bank fraud. Hebble and Guerzon were charged
                                            with conspiracy to commit bank fraud and obstruction of a Federal bank examina-
                                            tion. Florida’s Office of Financial Regulation closed Orion Bank on November 13,
                                            2009, and named the FDIC as receiver. The FDIC estimates that Orion’s failure
                                            will cost the Deposit Insurance Fund more than $600 million.
                                                The case is being investigated by SIGTARP, FBI, IRS-CI, the Office of the
                                            Inspector General of the Federal Reserve Board (“FRB OIG”), and FDIC OIG.

                                            Nations Housing Modification Center
                                            As discussed in previous SIGTARP reports, Glenn Rosofsky, Roger Jones, and
                                            Michael Trap pled guilty to their involvement in a fraudulent loan-modification
                                            scheme. The conspiracy sold loan-modification services to homeowners who
                                            were delinquent on their monthly mortgage payments. Using the names “Nations
                                            Housing Modification Center” (“NHMC”) and “Federal Housing Modification
                                            Department,” the conspiracy used false and fraudulent statements and representa-
                                            tions to induce customers to pay advance fees of $2,500 - $3,000 each to purchase
                                            loan-modification services from NHMC. The fraud grossed at least $900,000 from
                                            more than 300 homeowners.
                                                On January 24, 2011, Rosofsky was sentenced by the U.S. District Court for
                                            the Southern District of California to 63 months incarceration and 36 months of
                                            supervised release and ordered to pay restitution of $456,749 following his previous
                                            guilty plea to one count of conspiracy to commit wire fraud and money laundering;
                                            one count of money laundering; and one count of filing a false tax return.
                                                                                    quarterly report to congress I april 28, 2011   23




    On January 18, 2011, Jones was sentenced in the same court to 33 months
incarceration and 36 months of supervised release, and ordered to pay restitution
of $456,749 following his previous guilty plea to one count of conspiracy to commit
wire fraud and money laundering; one count of money laundering; and one count
of filing a false tax return. At his guilty plea, Jones admitted not only to participating
in the conspiracy, but also to making material false statements to SIGTARP agents
that significantly obstructed or impeded an aspect of the SIGTARP investigation.
    Trap, who pled guilty to conspiracy to commit wire fraud and money laundering,
is expected to be sentenced later this spring.
    This case was jointly investigated by SIGTARP, IRS-CI, the Federal Trade
Commission (“FTC”), the San Diego District Attorney’s Office, and the U.S.
Attorney’s Office for the Southern District of California, with the support of
FinCEN and the New York High Intensity Financial Crime Area.

HomeFront, Inc.
On January 29, 2011, a criminal complaint was filed in U.S. District Court for the
Western District of New York charging Lori J. Macakanja with mail fraud and fal-
sifying documents in connection with a scheme to defraud struggling homeowners
seeking mortgage modifications. Macakanja was employed as a housing counselor
by HomeFront, Inc. (“HomeFront”), a HUD-approved housing counseling agency
in western New York. According to the complaint, Macakanja unlawfully solicited
and received money from HomeFront clients by falsely claiming that the money
would be used for loan modifications designed to prevent foreclosure on their
homes. Instead, it is alleged that Macakanja spent the money at casinos and on
her own mortgage. The complaint alleges that more than 100 HomeFront clients
were collectively defrauded of more than $200,000. The complaint is the result of
an investigation by SIGTARP and the Mortgage Fraud Task Force of Western New
York, which includes agents and personnel from the U.S. Postal Inspection Service
(“USPIS”), HUD OIG, IRS-CI, U.S. Secret Service (“Secret Service”), and FBI.

Galleria USA, Inc.
On March 9, 2011, a Federal grand jury sitting in the Central District of California
returned an indictment against Thomas Chia Fu and his wife, Cheri L. Shyu, own-
ers of Galleria USA, Inc. (“Galleria”) for defrauding a consortium of eight banks,
including several TARP recipients. According to the indictment, the defendants
fraudulently obtained and drew on a $130 million line of credit by exaggerating
Galleria’s in-transit inventory and accounts receivables and by fabricating bills of
lading and invoices to hide the company’s true financial status. The defendants
were arrested on March 10, 2011. The case was investigated by SIGTARP, FBI,
and Secret Service.
24   special inspector general I troubled asset relief program




                                            Karl Rodney (New York Carib News, Inc.)
                                            On February 11, 2011, a criminal information was filed in the U.S. District Court
                                            for the District of Columbia by prosecutors with Department of Justice’s Public
                                            Integrity Section charging Karl Rodney, co-founder of Carib News, Inc., and the
                                            Carib News Foundation, with one count of making a false statement within the
                                            jurisdiction of a Committee of the U.S. House of Representatives in seeking
                                            approval for a privately funded trip to the “Carib News Foundation Multi-National
                                            Business Conference” in Antigua and Barbuda in November 2007. Several key
                                            sponsors of the conference were TARP recipient banks. The information charges
                                            Rodney with violating the Federal false statement statute for failing to “identify [in
                                            the travel certification form submitted to the Committee] all the sponsors of the
                                            trip” and for failing “to disclose [in the certification form] all the sources that had
                                            earmarked funds and other support to finance aspects of the trip.” The case was
                                            investigated by SIGTARP and FBI. Rodney pled guilty to the charges in the infor-
                                            mation on April 14, 2011.

                                            Residential Relief Foundation 
                                            As previously reported, pursuant to a November 17, 2010, order of the U.S.
                                            District Court for the District of Maryland, the FTC halted the operations of
                                            the Residential Relief Foundation and affiliated companies and individuals. On
                                            February 7, 2011, the court ordered the continuation of the temporary restraining
                                            order and further ordered that the temporary receiver begin liquidation of stipulated
                                            property. These actions were based on a civil complaint filed by the FTC alleging
                                            that the defendants violated Federal law by falsely claiming that they would obtain
                                            loan modifications and significantly lower mortgage payments for consumers in
                                            return for upfront fees. The complaint also charged the defendants with misrepre-
                                            senting an affiliation with the Federal Government, falsely claiming to have taken
                                            reasonable and appropriate measures to protect consumers’ personal information
                                            from unauthorized access, and improperly disposing of consumers’ information in
                                            unsecured dumpsters, in violation of the FTC Act. SIGTARP provided investigative
                                            support for the FTC action.

                                            The Park Avenue Bank
                                            On January 4, 2011, Carlos Peralta pled guilty in the U.S. District Court for the
                                            Southern District of New York to one count of wire fraud. Peralta participated in
                                            a fraudulent investment scheme through which he caused the pastors of a church
                                            in Coral Springs, Florida, to wire $103,940 from a Florida bank account to one at
                                            The Park Avenue Bank (“Park Avenue Bank”) in New York.
                                                As previously reported, on October 8, 2010, Charles Antonucci, former presi-
                                            dent and CEO of Park Avenue Bank, pled guilty in the U.S. District Court for the
                                                                              quarterly report to congress I april 28, 2011   25




Southern District of New York to offenses including securities fraud, making false
statements to bank regulators, bank bribery, and embezzlement of bank funds.
Antonucci had previously been arrested in March 2010 after attempting to steal
$11 million of TARP funds by, among other things, making fraudulent claims
about the bank’s capital position. With his guilty plea Antonucci became the first
defendant convicted of attempting to steal from the taxpayers’ investment in TARP.
The ongoing investigation is being conducted by SIGTARP, FBI, U.S. Immigration
and Customs Enforcement, the New York State Banking Department Criminal
Investigations Bureau, and FDIC OIG.

Omni National Bank
On January 5, 2011, Karim Lawrence pled guilty in the U.S. District Court for
the Northern District of Georgia to one count of corruptly accepting hundreds of
thousands of dollars in cash and other things of value in exchange for the award-
ing of Omni National Bank (“Omni”)-funded renovation contracts on foreclosed
properties owned by Omni. Omni was a national bank headquartered in Atlanta
with branch offices in Birmingham, Alabama; Tampa, Florida; Fayetteville,
North Carolina; Houston and Dallas, Texas; Chicago, Illinois; and Philadelphia,
Pennsylvania. Omni failed and was taken over by the FDIC on March 27, 2009.
Prior to its failure, Omni applied for, but did not receive, TARP funding under
CPP. This ongoing investigation is being conducted by SIGTARP, FDIC OIG,
USPIS, and FBI.

SIGTARP Audit Activity
SIGTARP has initiated a total of 28 audits and two evaluations since its inception.
SIGTARP has issued a total of 14 audit reports, including two since the close of
the quarter ended December 31, 2010. In the past quarter, SIGTARP also an-
nounced two new audit projects. In addition, 12 other previously announced audits
and evaluations are in progress; SIGTARP anticipates releasing reports on those
audits in the coming months.
    On January 13, 2011, SIGTARP released the audit report, “Extraordinary
Financial Assistance Provided to Citigroup, Inc.” Details were discussed in
SIGTARP’s Quarterly Report to Congress dated January 26, 2011 (the “January
2011 Quarterly Report”).
    On April 14, 2011, SIGTARP released the audit report, “Treasury’s Process for
Contracting for Professional Services under the Troubled Asset Relief Program.”
See Section 4: “SIGTARP Recommendations” in this report for SIGTARP’s recom-
mendations to Treasury to address weaknesses in Treasury’s Office of Financial
Stability (“OFS”) contracts for legal services as well as OFS procedures for the
review of legal bills.
26   special inspector general I troubled asset relief program




                                            Audits and Evaluations Underway
                                            SIGTARP has ongoing audits and evaluations on 12 previously announced topics
                                            and expects to issue those reports in the coming months.

                                            Office of the Special Master Decisions on Executive Compensation
                                            This audit is examining the decisions of the Office of the Special Master for TARP
                                            Executive Compensation on executive compensation at firms receiving exceptional
                                            TARP assistance. This audit assesses the criteria used by the Special Master to
                                            evaluate executive compensation and whether the criteria were applied consistently.

                                            CPP Applications Receiving Conditional Approval
                                            This audit is examining those CPP applications that received preliminary ap-
                                            proval from Treasury’s Investment Committee conditioned upon the institutions
                                            meeting certain requirements before funds were disbursed. One example was
                                            Colonial, which received CPP approval conditioned on its raising $300 million
                                            in private capital, but was later the center of a major fraud investigation initiated
                                            by SIGTARP that led to the conviction of Farkas on charges that he attempted to
                                            defraud Treasury of more than $550 million in connection with its conditional ap-
                                            proval of Colonial’s application for TARP funds. The audit assesses the basis for the
                                            decision granting such conditional approvals and the bank regulators’ roles in such
                                            decisions; whether and how timeframes were established for meeting such condi-
                                            tions; and whether internal controls were in place to ensure that the conditions
                                            were met before funds were disbursed.

                                            Term Asset-Backed Securities Loan Facility (“TALF”) Collateral
                                            Monitors’ Valuation
                                            This audit is examining the Federal Reserve’s basis for hiring collateral monitors for
                                            the TALF program; the role of the collateral monitors; and the appropriateness of
                                            the approved loan amounts.

                                            CPP Exit Strategy
                                            This audit is examining the process that Treasury and Federal banking regulators
                                            established for banks to repay Treasury and exit CPP.

                                            Home Affordable Modification Program (“HAMP”) Internal Controls
                                            Building on SIGTARP’s other audit work regarding HAMP, this audit is examin-
                                            ing the extent to which Treasury has established a system of internal controls for
                                            HAMP.1 This audit is also reviewing the reasons Treasury reported erroneous re-
                                            default rates through June 2010 in its “Servicer Performance Report” and the cor-
                                            rective actions Treasury is taking to help assure that its future performance reports
                                            are accurate.
                                                                                quarterly report to congress I april 28, 2011   27




Application of the HAMP Net Present Value (“NPV”) Test
This audit, conducted in response to a request from Senator Jeff Merkley and eight
other Senators, is examining the following issues: (i) whether participating loan
servicers are correctly applying the NPV test under the program; (ii) the extent to
which Treasury ensures that servicers are appropriately applying the NPV test per
HAMP guidelines when assessing borrowers for program eligibility; and (iii) the
procedures servicers follow to communicate to borrowers the reasons for NPV test
failure, as well as to identify the full range of loss mitigation options available to
such borrowers.

Hardest-Hit Fund (“HHF”)
Undertaken at the request of Representative Darrell Issa, this audit is examining (i)
the extent to which Treasury applied consistent and transparent criteria, including
applicable provisions of EESA, in selecting the states and programs to receive mon-
ey under HHF; (ii) the extent to which Treasury has determined the programs to be
funded by HHF are innovative as compared to existing Federal and state programs;
(iii) whether Treasury has put sufficient mechanisms in place to prevent waste,
fraud, and abuse in HHF; and (iv) the goals and metrics Treasury has adopted and
reported to the public for the operation of HHF.

Decision-Making Process Regarding Citigroup Inc. Deferred Tax
Assets
Undertaken at the request of Representative Dennis Kucinich, this evaluation is
examining (i) the rationale behind Treasury’s decision to issue Notice 2010-2 (the
“Notice”) regarding Internal Revenue Code Section 382, which limits the amount
of net operating losses a corporation experiencing a change of ownership may use
to offset future taxable income; (ii) whether Treasury was aware of the tax effect
that may result from the Notice’s issuance; (iii) the identity of principal decision
makers involved in issuing the Notice; and (iv) the extent to which Treasury’s policy
to timely dispose of TARP investments factored into the issuance decision.

Assessment of American International Group, Inc. (“AIG”) Severance
Payments
At the request of Senator Charles Grassley, SIGTARP is conducting an evaluation
and review of executive compensation regulations issued by Treasury in relation to
severance payments to certain former executives at AIG. Additionally, this evalu-
ation is examining the circumstances of an alleged conflict of interest within the
Office of the Special Master.
28   special inspector general I troubled asset relief program




                                            Review of Treasury’s Investment in General Motors Company (“GM”)
                                            This audit is examining Treasury’s decision-making process relating to its substan-
                                            tial investment in GM, specifically (i) Treasury’s process and plans, and its support-
                                            ing analyses, for its actual and/or planned disposal of its investments in GM, and
                                            (ii) the role Treasury played in reviewing, approving, or otherwise participating in
                                            GM’s decision to acquire AmeriCredit (now GM Financial).

                                            Review of GM’s Decision to “Top Up” the Pension Plan for Hourly
                                            Workers of Delphi Automotive LLP (“Delphi”)
                                            This audit is examining GM’s decision to “top up” Delphi’s pension plan for hourly
                                            workers, including (i) Treasury’s role in GM’s decision to top up the pension plan
                                            and (ii) whether the Administration or the Automotive Task Force pressured GM to
                                            provide additional funding for the plan.

                                            PPIP Internal Controls
                                            Undertaken at the request of Senator Claire McCaskill, this audit is examining
                                            (i) the extent and effectiveness of Treasury’s oversight and monitoring for each
                                            PPIF; (ii) the extent to which each PPIF manager’s internal controls address the
                                            compliance requirements of the limited partnership agreement and other applica-
                                            ble laws and regulations; and (iii) the extent to which Treasury and PPIF managers
                                            have implemented controls to identify, mitigate, and resolve potential conflicts of
                                            interest.

                                            New Audits Underway
                                            Over the past quarter SIGTARP announced the following two new audit projects:

                                            Review of the Process for Refinancing Treasury’s TARP Investments to
                                            the Small Business Lending Fund (“SBLF”)
                                            In conjunction with our ongoing review of the process through which institutions
                                            exit TARP, this audit is examining Treasury’s process for refinancing TARP invest-
                                            ments to SBLF.

                                            Review of Treasury’s Investment under TARP’s CPP
                                            This audit is examining how selected financial institutions used CPP funds and the
                                            effectiveness of management controls over their use. Specifically, we will exam-
                                            ine: (i) Treasury’s oversight of financial institutions’ management of CPP funds,
                                            including whether allowing CPP-recipient banks to purchase failed banks meets
                                            the objectives of CPP, and whether financial restructuring agreements were in the
                                            Government’s best interest; (ii) whether the expenses incurred with CPP funds were
                                            reasonable and consistent with law, including restrictions on executive compensa-
                                            tion; and (iii) the effectiveness of risk management of loans made with CPP funds.
                                                                                  quarterly report to congress I april 28, 2011   29




SIGTARP Hotline
One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
Hotline and thus provide a simple, accessible way for the American public to report
concerns, allegations, information, and evidence of violations of criminal and civil
laws in connection with TARP. From its inception in February 2009 through March
31, 2011, the SIGTARP Hotline has received and analyzed more than 26,000
Hotline contacts. These contacts run the gamut from expressions of concern over
the economy to serious allegations of fraud involving TARP, and a substantial num-
ber of SIGTARP’s investigations were generated in connection with Hotline tips.
The SIGTARP Hotline can receive information anonymously. SIGTARP honors all
applicable whistleblower protections and will provide confidentiality to the fullest
extent possible. SIGTARP urges anyone aware of waste, fraud or abuse involving
TARP programs or funds, whether it involves the Federal Government, state and
local entities, private firms or individuals, to contact its representatives at 877-SIG-
2009 or www.sigtarp.gov.

Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives and
of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
and staff meet regularly with and brief members and Congressional staff:

•	 On January 21 and 24, 2011, SIGTARP Deputy Special Inspector General
   Christy Romero presented open briefings for House and Senate staff, respective-
   ly. The focus of each briefing was SIGTARP’s January 2011 Quarterly Report.
•	 On January 26, 2011, then Special Inspector General Neil Barofsky testified
   before the House Committee on Oversight and Government Reform. The
   title of the hearing was “Bailouts and the Foreclosure Crisis: Report of the
   Special Inspector General for the Troubled Asset Relief Program.” Then Special
   Inspector General Barofsky’s testimony included an overview of SIGTARP’s
   January 2011 Quarterly Report, which was released at the hearing.
•	 On March 2, 2011, then Special Inspector General Barofsky testified before the
   House Committee on Financial Services, Subcommittee on Insurance, Housing
   and Community Opportunity. The title of the hearing was “Legislative Proposals
   to End Taxpayer Funding for Ineffective Foreclosure Mitigation Programs.”
   Then Special Inspector General Barofsky’s testimony included a discussion of
   SIGTARP’s audit work and recommendations related to TARP’s foreclosure-
   mitigation programs.
•	 On March 17, 2011, then Special Inspector General Barofsky testified before
   the Senate Committee on Banking, Housing and Urban Affairs. The title of the
   hearing was “TARP Oversight: Evaluating Returns on Taxpayer Investments.”
   Then Special Inspector General Barofsky’s testimony focused on a review of the
   TARP program to date.
30   special inspector general I troubled asset relief program




                                            •	 On March 24, 2011, Deputy Special Inspector General Romero presented an
                                               open briefing on “SIGTARP 101” for the new staff members of the House com-
                                               mittees of jurisdiction.
                                            •	 On March 30, 2011, then Special Inspector General Barofsky testified before
                                               the House Committee on Oversight and Government Reform, Subcommittee
                                               on TARP, Financial Services and Bailouts of Public and Private Programs. The
                                               title of the hearing was “Has Dodd-Frank Ended Too Big to Fail?” Then Special
                                               Inspector General Barofsky’s testimony focused on the impact of TARP and the
                                               Dodd-Frank Wall Street Reform and Consumer Protection Act on the problems
                                               related to the continued existence of institutions deemed “too big to fail.”

                                                Copies of the written testimony, hearing transcripts, and a variety of other mate-
                                            rials associated with Congressional hearings since SIGTARP’s inception are posted
                                            at www.sigtarp.gov/reports.shtml.


                                            THE SIGTARP ORGANIZATION
                                            SIGTARP has worked to build its organization through various complementary
                                            strategies, leveraging the resources of other agencies, and, where appropriate
                                            and cost-effective, obtaining services through SIGTARP’s authority to contract.
                                            SIGTARP continues to make substantial progress in building its operation.

                                            Hiring
                                            As of March 31, 2011, SIGTARP had 136 personnel, including one detailee
                                            from FBI. SIGTARP’s employees hail from many Federal agencies, including
                                            the Justice Department, FBI, IRS-CI, Air Force Office of Special Investigations,
                                            the Government Accountability Office (“GAO”), the Congressional Oversight
                                            Panel for TARP, the Transportation Department, the Energy Department, the
                                            SEC, the Secret Service, USPS, U.S. Army Criminal Investigation Command,
                                            Naval Criminal Investigative Service, Treasury-Office of the Inspector General,
                                            Department of Energy-Office of the Inspector General, Department of
                                            Transportation-Office of the Inspector General, Department of Homeland
                                            Security-Office of the Inspector General, FDIC OIG, Office of the Special
                                            Inspector General for Iraq Reconstruction, and HUD OIG. SIGTARP employees
                                            also hail from various private-sector businesses and law firms. Hiring is ongo-
                                            ing. The SIGTARP organizational chart, as of March 31, 2011, can be found in
                                            Appendix I: “Organizational Chart.”
                                                                                 quarterly report to congress I april 28, 2011               31




                                                                                            Figure 1.1
Budget                                                                                      SIGTARP FY 2011
On February 2, 2010, the Administration submitted to Congress Treasury’s fiscal             PROPOSED BUDGET
                                                                                            ($ MILLIONS, PERCENTAGE OF $44.4 MILLION)
year 2011 budget request, which includes SIGTARP’s full initial request for $49.6
million. Adjusting for the fiscal year 2011 pay-raise reduction, the annual amount                        Other Services
                                                                                                               $2.1, 5%
has been revised to $49.4 million. Public Law 111-242, Public Law 111-322,
Public Law 112-4 and Public Law 112-6, the Continuing Appropriations Act of                 Advisory Services
                                                                                                        $8.1
2011 as amended and extended through April 8, 2011, provides $18.9 million based
                                                                                                                18%
on an annual estimate of $36.3 million. Figure 1.1 provides a detailed breakdown
of SIGTARP’s fiscal year 2011 budget, which reflects an adjusted total spending                                               49% Salaries
                                                                                                              25%                 and
plan of $44.4 million, which includes, among other things, portions of SIGTARP’s             Interagency
                                                                                                                                  Benefits
                                                                                             Agreements
                                                                                                                                  $22.0
initial funding that have not yet been spent.                                                      $11.0
    On February 14, 2011, the Administration submitted to Congress Treasury’s
                                                                                                                  Travel/
fiscal year 2012 budget request, which includes SIGTARP’s funding request for                              Transportation
$47.4 million. Figure 1.2 provides a detailed breakdown of SIGTARP’s fiscal year                                $1.2, 3%

2012 budget, which reflects a total of $49.1 million.                                       Figure 1.2
                                                                                            SIGTARP FY 2012
Physical and Technical SIGTARP Infrastructure                                               PROPOSED BUDGET
SIGTARP occupies office space at 1801 L Street, NW, in Washington, D.C., the                ($ MILLIONS, PERCENTAGE OF $49.1 MILLION)

same office building in which most Treasury officials managing TARP are located.                           Other Services
To facilitate more efficient and effective investigative activities across the nation,                              $3.5

SIGTARP has also opened regional offices in New York City, Los Angeles, San                 Advisory Services
                                                                                                        $6.1          7%
Francisco, and Atlanta.
                                                                                                                12%
    SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its reports,
testimony, audits, contracts, and more. Since its inception, SIGTARP’s website has                                            57% Salaries
                                                                                            Interagency      21%                  and
had more than 50.7 million web “hits,” and there have been more than 3.6 million            Agreements                            Benefits
downloads of SIGTARP’s quarterly reports, which are available on the site.2                       $10.2                           $28.0


                                                                                                        Travel/
                                                                                                 Transportation
                                                                                                      $1.3, 3%
32   special inspector general I troubled asset relief program
s ection 2   tarp overview
34   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I april 28, 2011            35




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances, provides updates on established TARP component pro-
grams, and gives the status of TARP executive compensation restrictions.



TARP FUNDS UPDATE
Because TARP investment authority expired on October 3, 2010, no new
obligations may be made with TARP funds. However, dollars that have already
been obligated to existing programs may still be expended. As of October 3, 2010,
$474.8 billion had been obligated to 13 announced programs. Of the obligated                Obligations: Definite commitments that
amount, as of March 31, 2011, $410.5 billion had been spent and $58.9 billion               create a legal liability for the Govern-
remained obligated and available to be spent. Also, $5 billion was obligated under          ment to pay funds.
the Asset Guarantee Program (“AGP”) but was not expended; those dollars are not
available for further use.3
    Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.4 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”5 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.6 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.7
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.8 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion available.
    With the expiration of TARP funding authorization, no new expenditures may
be made through the Capital Purchase Program (“CPP”), the Capital Assistance
Program (“CAP”), the Targeted Investment Program (“TIP”), AGP, the Auto
Supplier Support Program (“ASSP”), the Auto Warranty Commitment Program
(“AWCP”), the Unlocking Credit for Small Businesses (“UCSB”) initiative, or the
Community Development Capital Initiative (“CDCI”), because all obligated dollars
have been spent. For five programs — the Making Home Affordable (“MHA”) pro-
gram, the Systemically Significant Failing Institutions (“SSFI”) program, the Term
Asset-Backed Securities Loan Facility (“TALF”), the Public-Private Investment
Program (“PPIP”), and the Automotive Industry Financing Program (“AIFP”) —
dollars that were obligated but unspent as of October 3, 2010, are available to be
expended up to the obligated amount. No new obligations may be made for TARP
programs. Table 2.1 provides a breakdown of program obligations, expenditures,
36   special inspector general I troubled asset relief program




                                            and obligations available to be spent as of March 31, 2011. Table 2.1 lists 10 TARP
                                            subprograms, instead of all 13, because it excludes CAP (which was never funded)
                                            and summarizes three programs under “Automotive Industry Support Programs.”

                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”),
                                            the Congressional Budget Office (“CBO”), and Treasury, whose estimated costs are
                                            audited each year by the Government Accountability Office (“GAO”). Beginning
                                            with OMB’s August 2009 cost estimate of a $341 billion loss, the cost estimates
                                            have continued to decrease.9
                                                On November 15, 2010, Treasury issued its fiscal year 2010 audited agency
                                            financial statements for TARP, which contained its cost estimate as of September
                                            30, 2010.10 Treasury estimated that the ultimate cost of TARP would be



                                            Table 2.1

                                             Obligations, Expenditures, and Obligations Available
                                             to Be Spent ($ Billions)
                                                                                                                                                 Available to
                                            Program                                           Obligation                Expenditure                Be Spent
                                            Housing Programs
                                                                                                     $45.6                          $1.4                   $44.3
                                            under TARP
                                            CPP                                                      204.9                        204.9                        0.0
                                            CDCIa                                                        0.6                          0.2                      0.0
                                            SSFI                                                       69.8                         67.8                       2.0
                                            TIP                                                        40.0                         40.0                       0.0
                                            AGP                                                          5.0                          0.0                      0.0
                                            TALF                                                         4.3                          0.1                      4.2
                                            PPIP                                                       22.4                         16.0                      6.4b
                                            UCSB                                                         0.4                          0.4                      0.0
                                            Automotive Industry
                                            Support Programs                                           81.8                         79.7                       2.1
                                            (AIFP, ASSP, and AWCP)c
                                            Total                                                 $474.8                       $410.5                    $58.9d

                                            Notes: Numbers may not total due to rounding. Obligation figures are as of 10/3/2010 and expenditure figures
                                            are as of 3/31/2011.
                                            a
                                              CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total
                                            obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was expended and
                                            $100.7 million was for new CDCI expenditures for previous CPP participants. Of the total obligation, only $106.0
                                            million went to non-CPP institutions.
                                            b
                                              Total obligation of $22.4 billion and expenditure of $16.0 billion for PPIP includes $356.3 million of the initial ob-
                                            ligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested
                                            in its PPIF; however, these dollars are not included in the amount available to be spent.
                                            c
                                              Includes $80.7 billion for AIFP, $0.6 billion for AWCP, and $0.4 billion for ASSP.
                                            d
                                              The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was
                                            not an actual cash outlay.
                                            Sources: Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/6/2011.
                                                                                                                                  quarterly report to congress I april 28, 2011   37




$78 billion, down from its previous cost estimates of $101 billion on May 31, 2010,
and $105 billion on March 31, 2010.
     On February 14, 2011, OMB issued the Administration’s fiscal year 2012 bud-
get proposal, which contained an estimated lifetime cost estimate for TARP of $48
billion. In calculating the estimate, OMB used data as of November 30, 2010.11
Postings on Treasury’s website indicate that Treasury appears to have adopted the
$48 billion estimate in the Administration’s fiscal year 2012 budget.12 The $48 bil-
lion estimate assumes that all housing funds will be spent.
     On March 29, 2011, CBO issued an updated TARP cost estimate based on its
evaluation as of March 3, 2011.13 CBO estimated that the ultimate cost of TARP
would be $19 billion.14
     The most recent TARP program cost estimates from each agency are listed in
Table 2.2.
     According to Treasury, the highest losses from TARP are expected to come
primarily from housing programs and assistance to the automotive industry.15 A no-
table difference exists between CBO’s estimate for TARP housing programs, which

Table 2.2

Cost (gain) of TARP Programs                               ($ Billions)
                                                  OMB Estimate,                                             Treasury Estimate,
                                                  President’s FY                        CBO               TARP Audited Agency
Program Name                                       2012 Budget                      Estimate               Financial Statement
   Report issued:                                   2/14/2011                     3/29/2011                       11/15/2010
   Data as of:                                     11/30/2010                      3/3/2011                        9/30/2010
Housing Programs under TARP                                  $46                         $13                               $46
CPP                                                                 (6)                       (16)                                   (11)
SSFI                                                                12                          14                                        37
TIP and AGP                                                         (7)                         (7)                                       (8)
TALF                                                                  0                          0                                         0
PPIP                                                                  0                          0                                        (1)
Automotive Industry Support
                                                                    20                          14                                        15
Programsa
Otherb                                                                *                           *                                        *
Total                                                             $64                       $19   c
                                                                                                                                   $78d
Interest on Reestimates        e
                                                                  (16)
Adjusted Total                                                   $48d
Notes: Numbers may not total due to rounding.
a
  Includes AIFP, ASSP, and AWCP.
b
  Consists of CDCI and UCSB, both of which have estimated costs between –$500 million and $500 million.
c
  The estimate is before administrative costs and interest effects.
d
  The estimate includes interest on reestimates but excludes administrative costs.
e
  Cumulative interest on reestimates is an adjustment for interest effects of changes in TARP subsidy costs from original subsidy esti-
mates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.
Sources: OMB Estimate—OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2012,” 2/14/2011,
www.whitehouse.gov/sites/default/files/omb/budget/fy2012/assets/spec.pdf, accessed 3/21/2011; CBO Estimate—CBO, “Report
on the Troubled Asset Relief Program–March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf, accessed
3/30/2011; CBO, response to SIGTARP data call, 3/31/2011; Treasury Estimate—Treasury, “Office of Financial Stability Agency
Financial Report–Fiscal Year 2010,” 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 4/12/2011.
38                special inspector general I troubled asset relief program




      Figure 2.1

      CUMULATIVE TARP OBLIGATIONS,
      EXPENDITURES, REPAYMENTS, AND                                         assumes that only $13 billion of the $46 billion obligated will be spent,
      REDUCTIONS IN EXPOSURE                                                and Treasury’s and OMB’s continued assertions that all of the obligated funds
      ($ BILLIONS)
                                                                            will be expended.16
     $500

                $474.8
      400
                                     $410.5                                 FINANCIAL OVERVIEW OF TARP
      300                                                                   The enactment of the Dodd-Frank Act reduced TARP’s maximum investment
                                                                            authority from $698.8 billion to $475.0 billion.17 The $698.8 billion represented
      200                                                  $263.7
                                                                            the initial $700.0 billion authorized for TARP by EESA less a $1.2 billion reduction
      100
                                                                            as a result of the Helping Families Save Their Homes Act of 2009.18 Treasury
                                                                            has obligated $474.8 billion of the $475.0 billion. Of the total obligations,
          0                                                                 $410.5 billion was expended as of March 31, 2011, through 13 announced pro-
              TARP                 TARP                  TARP
              Obligationsa         Expendituresb         Repayments         grams intended to support U.S. financial institutions, companies, and individual
                                                         and                mortgage borrowers.19
                                                         Reductions
                                                         in Exposurec           According to Treasury, as of March 31, 2011, 143 TARP recipients had
      Notes: Numbers may not total due to rounding. Obligations             paid back all of their principal or repurchased shares and 22 TARP recipients
      reported as of 10/3/2010. Expenditures and repayments and
      reductions in exposure reported as of 3/31/2011.                      had partially repaid their principal or repurchased their shares, for a total of
      a
        Treasury experienced a $2.6 billion loss on some investments
        under CPP.                                                          $263.7 billion including a $5.0 billion reduction in Government exposure under
      b
        Expenditure total does not include $5.0 billion for AGP as this
        amount was not an actual cash outlay.                               AGP.20 As of March 31, 2011, $146.8 billion of TARP funds remained outstanding,
      c
        Repayments include $179.1 billion for CPP, $40.0 billion for
        TIP, $29.6 billion for Auto Programs, $0.8 billion for PPIP, $9.1   and $58.9 billion was still available to be spent.21 Figure 2.1 provides a snapshot
        billion for SSFI, and a $5 billion reduction in exposure for
        AGP. The $9.1 billion payment for SSFI includes amounts             of the cumulative obligations, expenditures, repayments, and exposure reductions
        applied to (i) pay accrued preferred returns and (ii) redeem
        the outstanding liquidation amount.                                 as of March 31, 2011. As of March 31, 2011, the Government had also collected
      Sources: Treasury, Transactions Report, 3/31/2011; Treasury,          $37.0 billion in interest, dividends, and other income, including approximately
      response to SIGTARP data call, 4/6/2011.
                                                                            $8.9 billion in proceeds from the sale of warrants and stock received as a result of
                                                                            exercised warrants.22
                                                                                Most of the outstanding TARP money is in the form of equity ownership in
                                                                            troubled, or previously troubled, companies. Treasury (and therefore the tax-
                                                                            payer) remains a shareholder in companies that have not repaid the Government.
                                                                            Treasury’s equity ownership is largely in two forms — common and preferred stock
                                                                            — although it also has received debt in the form of senior subordinated debentures.



     Common Stock: Equity ownership entitling                               Preferred Stock: Equity ownership that         Senior Subordinated Debentures: Debt
     an individual to share in corporate earn-                              usually pays a fixed dividend before distri-   instrument ranking below senior debt but
     ings and voting rights.                                                butions for common stock owners but only       above equity with regard to investors’
                                                                            after payments due to debt holders and         claims on company assets or earnings.
                                                                            depositors. It typically confers no voting     Senior debt holders are paid in full before
                                                                            rights. Preferred stock also has priority      subordinated debt holders are paid. There
                                                                            over common stock in the distribution          may be additional distinctions of priority
                                                                            of assets when a bankrupt company is           among subordinated debt holders.
                                                                            liquidated.
                                                                                quarterly report to congress I april 28, 2011                                      39




    As of March 31, 2011, obligated funds totaling $58.9 billion were still available
to be drawn down by TARP recipients under five of TARP’s 13 announced pro-
grams.23 TARP’s component programs fall into four categories, depending on the
type of assistance offered:

•	 Homeowner Support Programs — These programs are intended to help
   homeowners who are having trouble making their mortgage payments by
   subsidizing loan modifications, loan servicer costs, potential equity declines,
   and incentives for foreclosure alternatives.
•	 Financial Institution Support Programs — These programs share a common
   stated goal of stabilizing financial markets and improving the economy.
•	 Asset Support Programs — These programs attempt to support asset values and
   market liquidity by providing funding to certain holders or purchasers of assets.
•	 Automotive Industry Support Programs — These programs are intended to                   Figure 2.2
   stabilize the U.S. automotive industry and promote market stability.
                                                                                           TARP OBLIGATIONS OUTSTANDING,
                                                                                           REPAYMENTS, AND REDUCTIONS IN
   Figure 2.2 shows how TARP funding is distributed among the four program                 EXPOSURE BY SUPPORT CATEGORY
                                                                                           ($ BILLIONS)
categories.
                                                                                          $300
Homeowner Support Programs                                                                 250
The stated purpose of TARP’s homeowner support programs is to help homeown-
                                                                                           200
                                                                                                                   $233.2
ers and financial institutions that hold troubled housing-related assets. Although
                                                                                           150
Treasury originally committed to use $50.0 billion in TARP funds for these pro-
                                                                                           100
grams, it obligated only $45.6 billion.24
                                                                                             50                                                    $29.6
                                                                                                                    $87.1            $0.8
                                                                                                    $45.6                                          $52.2
•	 Making Home Affordable (“MHA”) Program — According to Treasury, this                       0                                     $26.2
                                                                                                   Homeowner Financial   Asset                    Automotive
   foreclosure mitigation effort is intended to “help bring relief to responsible                  Support   Institution Support                  Industry
   homeowners struggling to make their mortgage payments, while preventing                         Programs Support
                                                                                                           a
                                                                                                                         Programsc                Support
                                                                                                             Programsb                            Programsd
   neighborhoods and communities from suffering the negative spillover effects of
                                                                                                       Repayments and Reductions in Exposure
   foreclosure, such as lower housing prices, increased crime, and higher taxes.”25                    Obligations Outstanding
   MHA, for which Treasury has obligated $29.9 billion, has many components,
                                                                                           Notes: Numbers may not total due to rounding. Obligations
   including several funded through TARP: the Home Affordable Modification                 reported as of 10/3/2010. Expenditures, repayments, and
                                                                                           reductions in exposure reported as of 3/31/2011.
   Program (“HAMP”), the Federal Housing Administration (“FHA”) HAMP loan                  a
                                                                                             Includes MHA.
                                                                                           b
                                                                                             CPP, CDCI, SSFI, TIP, and AGP. Repayments are composed of
   modification option for FHA-insured mortgages (“Treasury FHA-HAMP”), the                  $179.1 billion for CPP, $40.0 billion for TIP, $9.1 billion for
                                                                                             SSFI, and a $5.0 billion reduction in exposure under AGP. The
   U.S. Department of Agriculture Rural Housing Service’s Rural Development                  $9.1 billion repayment for SSIF includes amounts applied to (i)
                                                                                             pay accrued preferred returns and (ii) redeem the outstanding
   (“RD”) HAMP (“RD-HAMP”), and the Second Lien Modification Program                         liquidation amount.
                                                                                           c
                                                                                             TALF, PPIP, and UCSB. Repayments are composed of
   (“2MP”).26 HAMP in turn encompasses various initiatives in addition to the                $0.8 billion for PPIP.
                                                                                           d
                                                                                             AIFP, ASSP, and AWCP. Repayments are composed of
   modification of first-lien mortgages, including the Home Affordable Foreclosure           $28.5 billion for AIFP, $0.4 billion for ASSP, and $0.6 billion for
                                                                                             AWCP.
   Alternatives (“HAFA”) program, the Home Price Decline Protection (“HPDP”)
                                                                                           Sources: Treasury, Transactions Report, 3/31/2011; Treasury,
   program, the Home Affordable Unemployment Program (“UP”), and the                       response to SIGTARP data call, 4/6/2011.

   Principal Reduction Alternative (“PRA”) program. HAMP is intended to help
40   special inspector general I troubled asset relief program




                                               homeowners with mortgage modifications and foreclosure-prevention efforts.27
                                               Additionally, part of the overall MHA obligation of $29.9 billion includes
                                               $2.7 billion to support the Treasury/FHA Second Lien Program (“FHA2LP”),
                                               which complements the FHA Short Refinance program and is intended to sup-
                                               port the extinguishment of second-lien loans.28
                                               	      As of March 31, 2011, HAMP had expended $1.1 billion of TARP
                                               money.29 Total expenditures in incentives and payments for HAFA were
                                               $19.1 million in connection with 5,253 deed-in-lieu and short sale transac-
                                               tions. Expenditures in incentives and payments for 2MP were $14.4 million
                                               in connection with 1,125 full extinguishments, 1,013 partial extinguishments,
                                               and 19,091 permanent modifications of second liens.30 As of March 31, 2011,
                                               there were 266,454 active permanent first-lien modifications under the com-
                                               pleted TARP-funded portion of HAMP, an increase of 28,938 active permanent
                                               modifications over the past quarter.31 In addition, the Government-sponsored
                                               enterprises (“GSEs”) have provided 320,462 active permanent modifications,
                                               an increase of 36,348 over the past quarter.32 For more detailed information, in-
                                               cluding participation numbers for each of the MHA programs and subprograms,
                                               see the “Making Home Affordable Programs” discussion in this section.
                                            •	 Housing Finance Agency (“HFA”) Hardest-Hit Fund — The stated purpose
                                               of this program was to provide TARP funds to create “measures to help fami-
                                               lies in the states that have been hit the hardest by the aftermath of the burst
                                               of the housing bubble.”33 Treasury obligated $7.6 billion for this program in
                                               four increments: an initial amount of $1.5 billion made available on June 23,
                                               2010; a second amount of $600.0 million made available on August 3, 2010; a
                                               third amount of $2.0 billion made available on September 23, 2010; and a final
                                               amount of $3.5 billion made available on September 29, 2010.34 As of March
                                               31, 2011, $166.1 million had been drawn down by the states from the Hardest-
                                               Hit Fund.35 See the “Making Home Affordable Programs” discussion in this
                                               section for more detailed information.
                                            •	 FHA Short Refinance — Treasury estimates that this program will use
                                               $10.8 billion of TARP funding, which includes approximately $8.1 billion to
                                               purchase a letter of credit to provide loss protection on refinanced first liens.
                                               Additionally, to facilitate the refinancing of new FHA-insured loans under this
                                               program, Treasury has allocated approximately $2.7 billion in TARP funds for
                                               incentive payments to servicers and holders of existing second liens for full
                                               or partial principal extinguishments under the related FHA2LP; these funds
                                               are part of the overall HAMP funding of $29.9 billion, as noted above.36 As of
                                               March 31, 2011, there had been 107 refinancings under the program.37 For
                                               more detailed information, see the “Making Home Affordable Programs” discus-
                                               sion in this section.
                                                                                quarterly report to congress I april 28, 2011               41




Financial Institution Support Programs
Treasury primarily invests capital directly into the financial institutions it aids.
For TARP purposes, financial institutions included banks, bank holding compa-                 Systemically Significant Institutions:
nies, and, if deemed critical to the financial system, some systemically significant          Term referring to financial institutions
institutions.38                                                                               whose failure would impose significant
                                                                                              losses on creditors and counterpar-
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly pur-
                                                                                              ties, call into question the financial
   chased preferred stock or subordinated debentures in qualifying financial insti-
                                                                                              strength of similar institutions, disrupt
   tutions (“QFIs”).39 CPP was intended to provide funds to “stabilize and strengthen
                                                                                              financial markets, raise borrowing
   the U.S. financial system by increasing the capital base of an array of healthy,
                                                                                              costs for households and businesses,
   viable institutions, enabling them [to] lend to consumers and business[es].”40             and reduce household wealth (also
   Treasury invested $204.9 billion in 707 institutions through CPP. According to             commonly used to describe institutions
   Treasury, $179.1 billion in principal (or 87.4%) had been repaid as of March 31,           considered “too big to fail”).
   2011, leaving an outstanding balance of $25.9 billion.41 Of the repaid amount,
   $363.3 million was converted from CPP investments into CDCI and therefore                  Qualifying Financial Institutions (“QFIs”):
   still represents outstanding obligations to TARP.42 CPP closed on December 29,             Private and public U.S.-controlled
   2009.43 Treasury continues to manage its portfolio of CPP investments, includ-             banks, savings associations, bank
   ing, for certain struggling institutions, converting its preferred equity ownership        holding companies, certain savings and
   into a more junior form of equity ownership, often at a discount to par value              loan holding companies, and mutual
                                                                                              organizations.
   (which may result in a loss) in an attempt to preserve some value that might
   be lost if these institutions were to fail. For more detailed information, see the
                                                                                              Community Development Financial
   “Capital Purchase Program” discussion in this section.
                                                                                              Institutions (“CDFIs”): Financial institu-
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
                                                                                              tions eligible for Treasury funding to
   Treasury used TARP money to buy preferred stock in or subordinated debt from               serve urban and rural low-income
   Community Development Financial Institutions (“CDFIs”). Treasury intended                  communities through the CDFI Fund.
   for CDCI to “improve access to credit for small businesses in the country’s                CDFIs were created in 1994 by the
   hardest-hit communities.”44 Under CDCI, TARP made capital investments in                   Riegle Community Development and
   the preferred stock or subordinated debt of eligible banks, bank holding                   Regulatory Improvement Act. These
   companies, thrifts, and credit unions.45 Eighty-four institutions have received            entities must be certified by Treasury;
   $570.1 million in funding under CDCI.46 However, 28 of these institutions                  certification confirms that they target
   converted their existing CPP investment into CDCI ($363.3 million of the                   at least 60% of their lending and other
   $570.1 million) and 10 of those that converted received combined additional                economic development activities to ar-
                                                                                              eas underserved by traditional financial
   funding of $100.7 million under CDCI.47 Only $106 million of CDCI money
                                                                                              institutions.
   went to institutions that were not already TARP recipients.
•	 Small Business Lending Fund (“SBLF”) — On September 27, 2010, the
   President signed into law the Small Business Jobs Act of 2010, which created
   the SBLF with a $30 billion authorization. The Administration intends for
   the fund to stimulate small-business lending.48 Under SBLF, Treasury invests
   capital in banks with less than $10 billion in assets in return for preferred
   shares or debt instruments, in a manner similar to that followed under CPP
   and CDCI, albeit with incentives to increase certain types of lending and with
   fewer governance provisions.49 On December 20, 2010, Treasury published
42            special inspector general I troubled asset relief program




                                                        terms under which CPP and CDCI recipients are permitted to refinance into
                                                        SBLF.50 Although this program operates outside of TARP, many TARP recipients
                                                        will likely convert their investments from CPP to SBLF and thus could benefit
                                                        from lower dividend rates, non-cumulative dividends, and the removal of rules
                                                        on executive compensation and luxury expenditures.51 As of March 31, 2011,
                                                        the original application deadline for banks, Treasury had received 542 applica-
                                                        tions, of which 250 were from existing TARP recipients (including one current
                                                        CDCI participant) that had applied to refinance their investments under SBLF.
                                                        Treasury has extended the application deadline for banks to May 16, 2011. For
                                                        more detailed information, see the “Small-Business Lending Initiatives” discus-
                                                        sion in this section.
                                                     •	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI en-
                                                        abled Treasury to invest in systemically significant institutions to prevent them
                                                        from failing.52 Only one firm received SSFI assistance: American International
                                                        Group, Inc. (“AIG”). There were two TARP investments in AIG. On November
                                                        25, 2008, Treasury bought $40 billion of AIG’s preferred stock, the proceeds of
                                                        which were used to repay a portion of AIG’s debt to the Federal Reserve Bank
                                                        of New York (“FRBNY”). Then, on April 17, 2009, Treasury obligated approxi-
                                                        mately $29.8 billion to an equity capital facility that AIG has been allowed to
                                                        draw on as needed.53
                                                        	 On January 14, 2011, AIG executed its previously announced
                                                        Recapitalization Plan with Treasury, FRBNY, and the AIG Credit Facility Trust
     Special Purpose Vehicle (“SPV”):
                                                        (“AIG Trust”). According to Treasury, the intent of the restructuring was to fa-
     Off-balance-sheet legal entity that holds          cilitate the repayment of AIG’s government loans and investments.54 In carrying
     transferred assets presumptively                   out the Recapitalization Plan:
     beyond the reach of the entities
     providing the assets, and is legally                0	 AIG repaid and terminated its revolving credit facility with FRBNY with cash
     isolated.                                              proceeds that it had received from sales of equity interests in two compa-
                                                            nies: American International Assurance Co., Ltd. (“AIA”) and American Life
                                                            Insurance Company (“ALICO”).55
                                                         0	 AIG redeemed FRBNY’s remaining $6.1 billion interest in the special
                                                            purpose vehicles (“SPVs”) that hold AIA and ALICO.56 AIG next drew down
                                                            an additional $20.3 billion in available TARP funds from the equity capital
                                                            facility and purchased an equivalent amount of FRBNY’s preferred interest
                                                            in the SPVs; AIG then provided the preferred interest to Treasury. AIG desig-
                                                            nated its remaining $2 billion TARP equity capital facility to a new Series G
                                                            standby equity commitment available for general corporate purposes.57
                                                         0	 AIG issued common stock in exchange for the preferred shares held by
                                                            Treasury and the AIG Trust. The conversion of the TARP preferred stock
                                                            increased the Government’s total common equity ownership in AIG from
                                                            79.8% to approximately 92.1%.58
                                                                                quarterly report to congress I april 28, 2011           43




   	 On March 8, 2011, AIG sold its equity interests in MetLife, Inc., for
   $9.6 billion, repaying Treasury $6.9 billion from the proceeds, which included
   a $300.0 million expense reserve related to the sale of ALICO to MetLife. The
   remaining $3.0 billion was placed in escrow for obligations that may be owed to
   MetLife as required by the terms of the ALICO sale.59 This transaction repaid
   the ALICO SPV balance and, according to Treasury, reduced Treasury’s re-
   maining preferred interest in the AIA SPV to $11.3 billion.60 For more detailed
   information, see the “Systemically Significant Failing Institutions Program”
   discussion in this section.
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
   financial institutions it deemed critical to the financial system.61 There were two
   expenditures under this program, totaling $40 billion — the purchases of
   $20 billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and
   Bank of America Corp. (“Bank of America”).62 Treasury also accepted com-                   Senior Preferred Stock: Shares that
   mon stock warrants from each, as required by EESA. Both banks fully repaid                 give the stockholder priority dividend
   Treasury for its TIP investments.63 Treasury auctioned its Bank of America                 and liquidation claims over junior pre-
   warrants on March 3, 2010, and auctioned its Citigroup warrants on January                 ferred and common stockholders.
   25, 2011.64 For more information on these two transactions, see the “Targeted
   Investment Program and Asset Guarantee Program” discussion in this section.                Illiquid Assets: Assets that cannot be
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide insur-                       quickly converted to cash.
   ance-like protection for a select pool of mortgage-related or similar assets
   held by participants whose portfolios of distressed or illiquid assets threatened          Trust Preferred Securities (“TRUPS”):
                                                                                              Securities that have both equity and
   market confidence.65 Treasury, the Federal Deposit Insurance Corporation
                                                                                              debt characteristics, created by estab-
   (“FDIC”), and the Federal Reserve offered certain loss protections in connec-
                                                                                              lishing a trust and issuing debt to it.
   tion with $301 billion in troubled Citigroup assets.66 In exchange for providing
   the loss protection, Treasury received $4 billion of preferred stock that was
   later converted to trust preferred securities (“TRUPS”) on a dollar-for-dollar
   basis. The FDIC received $3 billion of preferred stock that was similarly con-
   verted.67 On December 23, 2009, in connection with Citigroup’s TIP repay-
   ment, Citigroup and the Government terminated the AGP agreement. Under
   the agreement, Treasury’s guarantee commitment was terminated with no
   loss to the Government. In addition, Treasury agreed to cancel $1.8 billion of
   the TRUPS issued by Citigroup, reducing the amount of preferred stock from
   $4.0 billion to $2.2 billion, in exchange for early termination of the guarantee.
   Additionally, the FDIC and Treasury agreed that at the close of Citigroup’s
   participation in the FDIC’s Temporary Liquidity Guarantee Program, the FDIC
   will transfer to Treasury $800 million of TRUPS that it retained as a premium,
   if no loss is suffered.68 On September 30, 2010, Treasury announced the sale of
   all of its TRUPS for $2.2 billion in gross proceeds, which represents a profit to
   taxpayers.69 On January 25, 2011, Treasury auctioned for $67.2 million the war-
   rants it had received from Citigroup under AGP.70 For more information on this
44             special inspector general I troubled asset relief program




                                                         program, see the “Targeted Investment Program and Asset Guarantee Program”
                                                         discussion in this section.

                                                      Asset Support Programs
                                                      The stated purpose of these programs was to support the liquidity and market value
                                                      of assets owned by financial institutions. These assets included various classes of
     Asset-Backed Securities (“ABS”): Bonds           asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
     backed by a portfolio of consumer                programs sought to bolster the balance sheets of financial firms and help free capi-
     or corporate loans, e.g., credit card,           tal so that these firms could extend more credit to support the economy.
     auto, or small-business loans. Financial         	
     companies typically issue ABS backed             •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was origi-
     by existing loans in order to fund new               nally designed to increase credit availability for consumers and small businesses
     loans for their customers.                           through a $200 billion Federal Reserve loan program. TALF provided inves-
                                                          tors with non-recourse loans secured by certain types of ABS, including credit
     Commercial Mortgage-Backed Securi-
                                                          card receivables, auto loans, equipment loans, student loans, floor plan loans,
     ties (“CMBS”): Bonds backed by one
                                                          insurance-premium finance loans, loans guaranteed by the Small Business
     or more mortgages on commercial
     real estate (e.g., office buildings, rental
                                                          Administration (“SBA”), residential mortgage servicing advances, and commer-
     apartments, hotels).                                 cial mortgage-backed securities (“CMBS”).71 The last subscription for newly is-
                                                          sued CMBS was settled on June 28, 2010; this marked the program’s closure to
     Legacy Securities: Real estate-related               new loans.72 TALF ultimately provided $71.1 billion in Federal Reserve financ-
     securities originally issued before                  ing. Of that amount, as of March 31, 2011, $19.2 billion remained outstand-
     2009 that remained on the balance                    ing.73 FRBNY facilitated 13 TALF subscriptions of non-mortgage-related ABS
     sheets of financial institutions because             over the life of the program totaling approximately $59.0 billion, with $15.5 billion
     of pricing difficulties that resulted from           of TALF borrowings outstanding as of March 31, 2011.74 FRBNY also con-
     market disruption.                                   ducted 13 CMBS subscriptions totaling $12.1 billion, with $3.7 billion in loans
                                                          outstanding as of March 31, 2011.75 Treasury originally obligated $20 billion of
     Non-Agency Residential Mortgage-
                                                          TARP funds to support this program by providing loss protection to the loans
     Backed Securities (“non-agency
                                                          extended by FRBNY in the event that a borrower surrendered the ABS collateral
     RMBS”): Financial instruments backed
                                                          and walked away from the loan.76 As of March 31, 2011, there had been no
     by a group of residential real estate
     mortgages (i.e., home mortgages for
                                                          surrender of collateral.77 Treasury reduced its obligation for TALF to $4.3 billion
     residences with up to four dwelling                  based on the amount of loans outstanding at the end of the active lending phase
     units) not guaranteed or owned by                    of the program in June 2010. As of March 31, 2011, $15.8 million in TARP
     a Government-sponsored enterprise                    funds had been allocated under TALF for administrative expenses.78 For more
     (“GSE”) or a Government agency.                      information on these activities, see the “TALF” discussion in this section.
                                                      •	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
                                                          credit markets by using a combination of private equity, matching Government
                                                          equity, and Government debt to purchase legacy securities, i.e., CMBS and
                                                          non-agency residential mortgage-backed securities (“non-agency RMBS”).79
                                                          Under the program, eight Public-Private Investment Funds (“PPIFs”) managed
                                                          by private asset managers invested in non-agency RMBS and CMBS. Although
                                                          Treasury initially pledged up to $30.0 billion for PPIP, the obligation is now
                                                                              quarterly report to congress I april 28, 2011         45




   limited to $22.4 billion.80 As of March 31, 2011, the PPIFs had drawn down
   $16.0 billion in debt and equity financing from Treasury funding out of the total
   obligation, which includes $840.5 million that has been repaid.81 As the PPIFs
   continue to make purchases, they will continue to have access to draw down
   the remaining funding through the end of their respective investment periods,
   the last of which will close in December 2012.82 For details about the program
   structure and fund-manager terms, see the “Public-Private Investment Program”
   discussion in this section.
•	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
   Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
   officials announced that Treasury would buy up to $15 billion in securities
   backed by SBA loans under UCSB.83 Treasury entered into agreements with
   two pool assemblers, Coastal Securities, Inc. (“Coastal Securities”), and Shay
   Financial Services, Inc. (“Shay Financial”).84 Under the agreements, Treasury’s
   agent, Earnest Partners, purchased SBA pool certificates from Coastal                    SBA Pool Certificates: Ownership
   Securities and Shay Financial without confirming to the counterparties that              interest in bonds backed by SBA-guar-
   Treasury was the buyer.85 Treasury obligated a total of $400.0 million for UCSB          anteed loans.
   and made purchases of $368.1 million in securities under the program. For
   more information on the program, see the discussion of “Unlocking Credit for
   Small Businesses/Small Business Administration Loan Support” in this section.

Automotive Industry Financing Program (“AIFP”)
TARP’s automotive industry support through AIFP aimed to “prevent a significant
disruption of the American automotive industry, which would pose a systemic
risk to financial market stability and have a negative effect on the economy of the
United States.”86
    Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
(“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”), and
General Motors Company (“GM”). Additionally, Treasury bought senior preferred
stock from GMAC Inc. (“GMAC”), which was later renamed Ally Financial Inc.
(“Ally Financial”), and assisted Chrysler and GM during their bankruptcy restruc-
turings. Treasury initially allocated $84.8 billion to AIFP, then reduced the total
obligation to $81.8 billion.87 As of March 31, 2011, $79.7 billion had been
disbursed through AIFP and $29.6 billion in principal had been repaid. These
investments paid an additional $3.8 billion in dividends, interest, and fees.88
These figures include the amounts related to AIFP, ASSP, and AWCP.
    With respect to AIFP support to GM, in return for a total of $49.5 billion
in loans, Treasury received $6.7 billion in debt in GM (which was subsequently
repaid), in addition to $2.1 billion in preferred stock and a 60.8% common eq-
uity stake.89 On December 2, 2010, GM closed an initial public offering in which
Treasury sold a portion of its ownership stake for $13.5 billion in net proceeds,
46   special inspector general I troubled asset relief program




                                            reducing its ownership percentage to 33.3% (an amount that could be diluted
                                            should GM’s bondholders or the United Auto Workers Retiree Medical Benefits
                                            Trust exercise warrants they received).90 On December 15, 2010, GM repurchased
                                            the $2.1 billion in preferred stock from Treasury. On March 31, 2011, GM made a
                                            debt payment of $50 million. Treasury’s remaining investment in GM as of March
                                            31, 2011, was approximately $27.1 billion.91 On April 5, 2011, GM made a debt
                                            payment of $45 million; Treasury’s investment in GM remains approximately
                                            $27.1 billion.
                                                With respect to AIFP support to Chrysler, Treasury provided $12.5 billion in
                                            loan commitments to Chrysler, Inc. (“Old Chrysler”), and Chrysler Group LLC
                                            (“New Chrysler”), of which $2.1 billion remains available to be drawn down.
                                            Treasury also received a 9.9% equity stake, which was diluted to 9.2% on January
                                            10, 2011, when Fiat increased its ownership interest by meeting certain perfor-
                                            mance metrics.92 Fiat further increased its ownership in New Chrysler to 30% on
                                            April 12, 2011, after New Chrysler surpassed an international sales and revenue
                                            target and reached a pact to expand its presence through 90% of Fiat dealerships in
                                            Latin America. Following this increase in Fiat’s ownership stake in New Chrysler,
                                            Treasury’s equity ownership interest in New Chrysler’s common equity decreased
                                            from 9.2% to 8.6% and may be diluted further.93
                                                With respect to AIFP support to Ally Financial, Treasury invested a total of
                                            $17.2 billion. On December 30, 2010, Treasury’s investment was restructured
                                            to provide for a 73.8% common equity stake, $2.7 billion in TRUPS (including
                                            amounts received in warrants that were immediately converted into additional
                                            securities), and $5.9 billion in mandatorily convertible preferred shares.94 Treasury
                                            sold the $2.7 billion in TRUPS on March 2, 2011.95 On March 31, 2011, Ally
                                            Financial announced that it had filed a registration statement with the Securities
                                            and Exchange Commission (“SEC”) for a proposed initial public offering of com-
                                            mon stock owned by Treasury. The timing of the offering, the number of shares to
                                            be offered, and the price range had yet to be determined.96
                                                Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
                                            repaid with interest in July 2009.97
                                                For details on assistance to these companies, see the “Automotive Industry
                                            Support Programs” discussion in this section.
                                                AIFP also included two subprograms:

                                            •	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
                                               program was intended to provide auto suppliers “with the confidence they need
                                               to continue shipping their parts and the support they need to help access loans
                                               to pay their employees and continue their operations.”98 The original alloca-
                                               tion of $5.0 billion was reduced to $3.5 billion — $1.0 billion for Chrysler and
                                               $2.5 billion for GM.99 Of the $3.5 billion available, only $413.1 million was
                                                                                 quarterly report to congress I april 28, 2011   47




   borrowed.100 After purchasing substantially all of the assets of Old GM and
   Old Chrysler, New GM and New Chrysler assumed the debts associated with
   ASSP.101 After repayment of all funds expended under ASSP, along with
   $115.9 million in interest, fees, and other income, ASSP ended on April 5, 2010,
   for GM and on April 7, 2010, for Chrysler.102 For more information, see the
   “Auto Supplier Support Program” discussion in this section.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
   vehicle warranties during the companies’ restructuring through bankruptcy. It
   ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million with
   interest and GM repaid just the principal — $360.6 million — of its loan.103

    The following tables and figures summarize the status of TARP and TARP-
related initiatives:

•	 Table 2.3 — total funds subject to SIGTARP oversight as of March 31, 2011
•	 Table 2.4 — obligations/expenditures by program as of March 31, 2011
•	 Table 2.5 and Table 2.6 — summary of TARP terms and agreements
•	 Table 2.7 — summary of largest warrant positions held by Treasury, by program,
   as of March 31, 2011
•	 Table 2.8 — summary of dividends, interest payments, and fees received, by
   program, as of March 31, 2011

   For a report of all TARP purchases, obligations, expenditures, and revenues, see
Appendix C: “Reporting Requirements.”
48                 special inspector general I troubled asset relief program




     Table 2.3

     TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 3/31/2011 ($ BILLIONS)

     Program                                                     Brief Description or Participant                                                            Total Funding ($)                   TARP Funding ($)
     Capital Purchase Program (“CPP”)                            Investments in 707 banks; received $179.1 billion in                                                       $204.9                              $204.9
     CLOSED                                                      principal repayments                                                                                      ($179.1)                            ($179.1)
     Automotive Industry Financing Program                       GM, Chrysler, GMAC, Chrysler Financial; received                                                              80.7                                 80.7
     (“AIFP”)                                                    $28.5 billion in loan repayments                                                                             (28.5)                               (28.5)
     Auto Supplier Support Program (“ASSP”)                      Government-backed protection for auto parts suppliers;                                                          0.4a                                0.4a
     CLOSED                                                      received $0.4 billion in loan repayments                                                                       (0.4)                               (0.4)
     Auto Warranty Commitment Program                            Government-backed protection for warranties of cars
                                                                                                                                                                                 0.6                                 0.6
     (“AWCP”)                                                    sold during the GM and Chrysler bankruptcy restructuring
                                                                                                                                                                                (0.6)                               (0.6)
     CLOSED                                                      periods
     Unlocking Credit for Small Businesses
                                                                 Purchase of securities backed by SBA loans                                                                      0.4b                                0.4b
     (“UCSB”)
     Systemically Significant Failing Institutions                                                                                                                              69.8                                69.8
                                                                 AIG Investment; received $9.1 billion in repayments
     (“SSFI”)                                                                                                                                                                  (9.1)c                              (9.1)c
     Targeted Investment Program (“TIP”)                                                                                                                                       40.0                                 40.0
                                                                 Citigroup, Bank of America investments
     CLOSED                                                                                                                                                                   (40.0)                               (40.0)
     Asset Guarantee Program (“AGP”)                                                                                                                                          301.0                                  5.0
                                                                 Citigroup, ring-fence asset guarantee
     CLOSED                                                                                                                                                                  (301.0)                                (5.0)
     Term Asset-Backed Securities Loan Facility FRBNY non-recourse loans for purchase of asset-backed                                                                          71.1                                  4.3d
     (“TALF”)                                   securities                                                                                                                    (51.9)                                (0.0)
     Housing Programs under TARP                                 Modification of mortgage loans                                                                                70.6e                                45.6f
     Community Development Capital Initiative                    Investments in Community Development Financial
                                                                                                                                                                                  0.6                                 0.6
     (“CDCI”) CLOSED                                             Institutions (“CDFIs”)
                                                                                                                                                                               29.8g                               22.4h
     Public-Private Investment Program (“PPIP”) Disposition of legacy assets; Legacy Securities Program
                                                                                                                                                                                (0.8)                               (0.8)
     Total Obligations                                                                                                                                                      $869.9                              $474.8
     Notes: Numbers may not total due to rounding. Numbers in red represent repayments and reductions in exposure as of 3/31/2011.
     a
       Treasury’s original commitment under this program was $5 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.
     b
       Treasury reduced commitment from $15 billion to an obligation of $400 million.
     c
       The $9.1 billion repayment for SSFI includes amounts applied to (i) pay accrued preferred returns and (ii) redeem the outstanding liquidation amount.
     d
       Treasury reduced obligation from $20 billion to $4.3 billion.
     e
       Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25
       billion estimated to be spent by the Government-sponsored Enterprises (“GSEs”), the total program amount is $70.6 billion.
     f
       Treasury reduced commitment from $50 billion to an obligation of $45.6 billion.
     g
       PPIP funding includes $7.4 billion of private-sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
     h
       Treasury reduced commitment from $30 billion to approximately $22.4 billion in debt and equity obligations to the Public-Private Investment Funds.

     Sources: Treasury, Transactions Report, 3/31/2011; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.treasury.gov/press-center/press-
     releases/Pages/hp1358.aspx, accessed 6/8/2009; FRBNY, response to SIGTARP data call, 4/6/2011; Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.treasury.
     gov/press-center/press-releases/Documents/housing_fact_sheet.pdf, accessed 7/2/2010; Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended September 30,
     2010,” 10/20/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/Documents/External%20Report%20-%2009-10%20vFinal.pdf, accessed 1/13/2011.
                                                                                              quarterly report to congress I april 28, 2011               49




Table 2.4

obligation/EXPENDITURE LEVELS BY PROGRAM, AS OF 3/31/2011                             ($ BILLIONS)

                                                                    Amount     Percent (%)
Authorized Under EESA                                  $700.0
Released Immediately                                                  250.0          52.6%
Released Under Presidential Certificate of Need                       100.0          21.1%
Released Under Presidential Certificate of Need &
                                                                      350.0          73.7%
Resolution to Disapprove Failed
Helping Families Save Their Home Act of 2009                           (1.2)         -0.3%
The Dodd-Frank Act                                                   (223.8)        -47.1%
Total Released                                                      $475.0         100.0%

                                                                                 Obligation        Repaid/
                                                                               as Percent         Reduced         Obligation
Less: Obligations by Treasury under TARPa                         Obligation   of Released        Exposure       Outstanding Section Reference
Capital Purchase Program (“CPP”):                                    $204.9          43.1%           ($179.1)                “Financial Institution
CPP Total Gross                                                     $204.9          43.1%            ($179.1)          $25.9 Support Programs”
Community Development Capital Initiative (“CDCI”):                     $0.6                                 —                 “Financial Institution
CDCI Total                                                             $0.6          0.1%                   —            $0.6 Support Programs”
Systemically Significant Failing Institutions (“SSFI”) Program:
                                                                                                                                “Financial Institution
   American International Group, Inc. (“AIG”)b                        $69.8          14.7%              ($9.1)
                                                                                                                                 Support Programs”
SSFI Total   b
                                                                      $69.8         14.7%              ($9.1)          $60.7
Targeted Investment Program (“TIP”):
   Bank of America Corporation                                        $20.0           4.2%            ($20.0)                   “Financial Institution
   Citigroup, Inc.                                                     20.0           4.2%              (20.0)                   Support Programs”

TIP Total                                                             $40.0          8.4%             ($40.0)               —
Asset Guarantee Program (“AGP”):
                                                                                                                                “Financial Institution
   Citigroup, Inc.c                                                    $5.0           1.1%              ($5.0)                   Support Programs”
AGP Total                                                              $5.0          1.1%              ($5.0)               —
Term Asset-Backed Securities Loan Facility (“TALF”):
                                                                                                                                “Asset Support
   TALF LLC                                                            $4.3           0.9%                  —                    Programs”
TALF Total                                                             $4.3          0.9%                   —            $4.3

Unlocking Credit for Small Businesses (“UCSB”):                        $0.4           0.1%                                      “Asset Support
                                                                                                                                 Programs”
UCSB Total                                                             $0.4          0.1%                   —            $0.4
Automotive Industry Financing Program (“AIFP”):
   General Motors Corporation (“GM”)                                  $49.5          10.4%            ($22.4)
   General Motors Acceptance Corporation LLC (“GMAC”)                  17.2           3.6%               (2.7)                  “Automotive Industry
   Chrysler Holding LLC                                                12.5           2.6%               (1.9)                   Support Programs”
   Chrysler Financial Services Americas LLCd                             1.5          0.3%               (1.5)
AIFP Total                                                            $80.7         17.0%              (28.5)          $52.2
                                                                                                                                Continued on next page.
50            special inspector general I troubled asset relief program




      obligation/Expenditure Levels by Program, as of 03/31/2011 (Billions) (Continued)
                                                                                Obligation    Repaid/
                                                                               as Percent    Reduced      Obligation Section
     Less: Obligations by Treasury under TARPa                   Obligation   of Released    Exposure    Outstanding Reference

     Automotive Supplier Support Program (“ASSP”):
        GM Suppliers Receivables LLCe                                 $0.3           0.1%       ($0.3)
                                                                                                                      “Automotive Industry
        Chrysler Holding LLC   e
                                                                        0.1          0.0%        (0.1)                 Support Programs”

     ASSP Total                                                       $0.4          0.1%       ($0.4)            —
     Automotive Warranty Commitment Program (“AWCP”):
        General Motors Corporation (“GM”)                             $0.4           0.1%       ($0.4)                “Automotive Industry
        Chrysler Holding LLC                                           0.3           0.1%        (0.3)                 Support Programs”

     AWCP Total                                                       $0.6          0.1%       ($0.6)            —
     Legacy Securities Public-Private Investment Program
     (“PPIP”)
        Invesco Legacy Securities Master Fund, L.P.                   $2.6           0.5%       ($0.5)
        Wellington Management Legacy Securities PPIF Master
                                                                       3.4           0.7%           —
        Fund, LP
        AllianceBernstein Legacy Securities Master Fund, L.P.          3.5           0.7%           —
        Blackrock PPIF, L.P.                                            2.1          0.4%           —                 “Asset Support
        AG GECC PPIF Master Fund, L.P.                                  3.7          0.8%           —                  Programs”
        RLJ Western Asset Public/Private Master Fund, L.P.             1.9           0.4%           —
        Marathon Legacy Securities Public-Private Investment
                                                                       1.4           0.3%           —
        Partnership, L.P.
        Oaktree PPIP Fund, L.P.                                        3.5           0.7%           —
        UST/TCW Senior Mortgage Securities Fund, L.P.   f
                                                                       0.4           0.1%       ($0.4)
     PPIP Total                                                     $22.4           4.7%       ($0.8)         $21.6
     Making Home Affordable (“MHA”):
        Home Affordable Modification Program (“HAMP”)
        Countrywide Home Loans Servicing LP                           $6.3           1.3%           —
        Wells Fargo Bank, NA                                            5.1          1.1%           —
        J.P.Morgan Chase Bank, NA                                      3.2           1.3%           —
        OneWest Bank                                                   1.8           0.4%           —
        Bank of America, N.A.                                          1.6           0.3%           —
                                                                                                                      “Homeowner Support
        GMAC Mortgage, Inc.                                            1.5           0.3%           —
                                                                                                                       Programs”
        American Home Mortgage Servicing, Inc                          1.3           0.3%           —
        CitiMortgage, Inc.                                              1.1          0.2%           —
        Litton Loan Servicing LP                                        1.1          0.2%           —
              Other Financial Institutions                             6.8           1.4%           —
     Housing Finance Agency: Hardest Hit Funds Program (“HFA”)         7.6           1.6%           —
     Treasury FHA Refinance                                             8.1          1.7%           —
     MHA Total                                                      $45.6           9.6%            —         $45.6
     TARP Obligations Subtotal                                     $474.8        100.0%
     TARP Repayments/Reductions in Exposure Subtotal                                         ($263.7)
     TARP Obligations Outstanding Subtotal                                                                  $211.2
                                                                                                                              quarterly report to congress I april 28, 2011                                      51




    obligation/Expenditure Levels by Program, as of 03/31/2011 (Billions) (Continued)

Notes: Numbers may not total due to rounding.
a
  	From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
b
  	The $9.1 billion repayment for SSFI includes amounts applied to (i) pay accrued preferred returns and (ii) redeem the outstanding liquidation amount.
c
  	Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not an
   actual outlay of cash.
d
  	Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
e
  	Represents an SPV created by the manufacturer. Balance represents the maxiumum loan amount, which will be funded incrementally. Treasury’s original commitment under this program was $5 billion, but
   subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.
f
 	Treasury selected nine fund management firms to establish PPIFs. One PPIF manager, The TCW Group, Inc., subsequently withdrew. According to Treasury, the current PPIP obligation is $22.4 billion; this
   includes $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds that were invested in their PPIF.

Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization Act
of 2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 3/31/2011; Treasury, Transac-
tions Report — Housing Programs, 3/30/2011; Treasury, response to SIGTARP data call, 4/6/2011; Treasury, Section 105(a) Report, 8/10/2010.
52               special inspector general I troubled asset relief program




     Table 2.5

     DEBT AGREEMENTS
     TARP                   Date of   Cost               Description of           Investment                               Interest /             Term of
     Program Company        Agreement Assigned           Investment               Information                              Dividends              Agreement
                                                         Senior Subordinated      Each QFI may issue senior securities 7.7% for first 5 years;    30 years
                                                         Securities               with an aggregate principal amount of 13.8% thereafter
                                                                                  1% – 3% of its risk-weighted assets,
     CPP –                                                                        but not to exceed $25 billion.
             52 QFIs        1/14/2009a $0.5 billion
     S Corps                                             Senior Subordinated      Treasury will receive warrants to      13.8%                    30 years
                                                         Security Warrants        purchase an amount equal to 5% of
                                                         that are exercised im-   the senior securities purchased on the
                                                         mediately                date of investment.
                                                                                  This loan was funded incrementally;
                                                                                  $4 billion funded on 12/31/2008,         For General Advances—
                                                                                  $5.4 billion funded on 1/21/2009,        (i) the greater of (a)
                                                                                  and $4 billion funded on 2/17/2009.      3-month LIBOR or (b) 2%
                                                      Debt Obligation with        Subsequently, this loan was then         plus (ii) 3%; For Warrant
             General
     AIFP                   12/31/2008 $19.8 billionb Warrants and                amended; $2 billion on 4/22/2009         Advances (i) the greater 12/29/2011
             Motors
                                                      Additional Note             and $4 billion on 5/20/2009              of (a) 3-month LIBOR
                                                                                  (General Advances). In addition,         for the related interest
                                                                                  on 5/27/2009, $361 million was           period or (b) 2% plus
                                                                                  set aside in an SPV for the AWCP         (ii) 3.5%
                                                                                  (Warranty Advances).
                                                                                  This loan was exchanged for a portion
                                                                                  of GM’s common equity interest
             General
     AIFP                   1/16/2009    $0.9 billion    Debt Obligation          in GMAC LLC on 5/29/2009. See         3-month LIBOR + 3%        1/16/2012
             Motors
                                                                                  “Equity Agreement” table for more
                                                                                  information.
                                                                                  Loan of $4 billion; Additional note of
                                                                                  $267 million (6.67% of the maximum       For General Advances—
                                                                                  loan amount). Subsequently, this loan    (i) the greater of (a)
                                                                                  was then amended; $500 million on        3-month LIBOR or (b) 2%
                                                                                  4/29/2009, this amount was never         plus (ii) 3%; For Warrant
                                                         Debt Obligation with
     AIFP    Chrysler       1/2/2009c    $4.8 billionb                            drawn and subsequently de-obligated      Advances (i) the greater 1/2/2012
                                                         Additional Note
                                                                                  (General Advances). In addition,         of (a) 3-month LIBOR
                                                                                  on 4/29/2009, $280 million was           for the related interest
                                                                                  set aside in an SPV for the AWCP,        period or (b) 2% plus
                                                                                  this advance was repaid (Warrant         (ii) 3.5%
                                                                                  Advances).
                                                                                  Loan was funded incrementally at
                                                                                  $100 million per week until it reached
                                                                                  the maximum amount of $1.5 billion LIBOR + 1% for first
             Chrysler                                    Debt Obligation with
     AIFP                   1/16/2009    $1.5 billion                             on 4/9/2009. Additional note is $75 year LIBOR + 1.5% for 1/16/2014
             Financial                                   Additional Note
                                                                                  million (5% of total loan size), which remaining years
                                                                                  vests 20% on closing and 20% on
                                                                                  each anniversary of closing.
                                                                                  Loan of $3.0 billion committed
                                                                                  to Chrysler for its bankruptcy
                                                                                                                                                  9/30/2009,
                                                                                  period. Subsequently, this loan was    (i) the greater of (a)
                                                         Debt Obligation with                                                                     subject
     AIFP    Chrysler       5/1/2009     $3.8 billion                             amended; $757 million was added on 3-month Eurodollar or
                                                         Additional Note                                                                          to certain
                                                                                  5/20/2009. Treasury funded $1.9        (b) 2% plus (ii) 3.0%
                                                                                                                                                  conditions
                                                                                  billion during bankruptcy period. The
                                                                                  remaining amount will be de-obligated.
                                                                                                                                          Continued on next page.
                                                                                                                          quarterly report to congress I april 28, 2011                                   53




DEBT AGREEMENTS                   (CONTINued)

TARP                          Date of   Cost                       Description of                Investment                                        Interest /                      Term of
Program Company               Agreement Assigned                   Investment                    Information                                       Dividends                       Agreement
                                                                                           Commitment to New CarCo                                 For $2 billion: (i) The
                                                                                                                                                                                   For $2
                                                                                           Acquisition LLC (renamed Chrysler                       3-month Eurodollar rate,
                                                                                                                                                                                   billion note:
                                                                                           Group LLC on or about 6/10/2009)                        plus (ii) (a) 5% or, on
                                                                                                                                                                                   12/10/2011;
                                                                                           of up to $6.6 billion. The total loan                   loans extended past
                                                                                                                                                                                   provided that
                                                                                           amount is up to $7.1 billion including                  the original maturity
                                                                                                                                                                                   issuer may
                                                                                           $500 million of debt assumed                            date, (b) 6.5%. For $5.1
                                                                   Debt Obligation with                                                                                            extend maturity
                                                                                           from Treasury’s 1/2/2009 credit                         billion note: (i) The
AIFP         Chrysler         5/27/2009         $6.6 billion       Additional Note, Equity                                                                                         for up to
                                                                                           agreement with Chrysler Holding LLC.                    3-month Eurodollar Rate
                                                                   Interest                                                                                                        $400 million
                                                                                           The debt obligations are secured by a                   plus 7.91% and (ii) an
                                                                                                                                                                                   of principal to
                                                                                           first priority lien on the assets of New                additional $17 million
                                                                                                                                                                                   6/10/2017.
                                                                                           CarCo Acquisition LLC (the company                      in PIK interest per
                                                                                                                                                                                   For other
                                                                                           that purchased Chrysler LLC’s assets                    quarter. For other notes:
                                                                                                                                                                                   notes:
                                                                                           in a sale pursuant to Section 363 of                    3-month Eurodollar rate
                                                                                                                                                                                   6/10/2017.
                                                                                           the Bankruptcy Code).                                   plus 7.91%.
                                                                                                                                                   Originally, (i) the greater
                                                                                                 Original $30.1 billion funded.                                                    Originally
                                                                                                                                                   of (a) 3-Month Eurodollar
                                                                                                 Amended loan documents provided                                                   10/31/2009,
                                                                                                                                                   or (b) 2% plus (ii) 3.0%.
                                                                                                 that $986 million of the original                                                 for amounts
                              6/3/2009,                                                                                                            For amounts assumed
             General                                               Debt Obligation with          DIP loan was left for the old GM. In                                              assumed by
AIFP                          amended           $30.1 billion                                                                                      by New GM, the interest
             Motors                                                Additional Note               addition $7.1 billion was assumed                                                 New GM, June
                              7/10/2009                                                                                                            rates became (i) the
                                                                                                 by New GM of which $0.4 billion                                                   10, 2015,
                                                                                                                                                   greater of (a) 3-month
                                                                                                 was repaid resulting in $6.7 billion                                              subject to
                                                                                                                                                   Eurodollar or (b) 2% plus
                                                                                                 remaining outstanding.                                                            acceleration.
                                                                                                                                                   (ii) 5%.
                                                                                                                                                                                   The debt
                                                                                                                                                                                   obligation for
                                                                                                                                                                                   each fund
                                                                   Debt Obligation with          Each of the loans will be funded
                              9/30/2009                                                                                                                                            matures at the
PPIP         All                                $20 billion        Contingent Interest           incrementally, upon demand by the                 LIBOR + 1%
                              and later                                                                                                                                            earlier of the
                                                                   Promissory Note               fund manager.
                                                                                                                                                                                   dissolution of
                                                                                                                                                                                   the fund or 10
                                                                                                                                                                                   years.
                                                                                         Each QCU may issue CDCI Senior
                                                                                         Securities with an aggregate principal
CDCI –
                                                                   Subordinated Debt for amount equal to not more than 3.5% 2% for first 8 years, 9%
Credit       All
                                                                   Credit Unions         of its total assets and not more than thereafter
Unions
                                                                                         50% of the capital and surplus of the
                                                                                         QCU.
                                                                                         Each QFI may issue CDCI Senior
                                                                                         Securities with an aggregate principal
                                                                                         amount equal to not more than 5% of
                                                                                         (i), if the QFI is a Certified Entity the
                                                                                         risk-weighted assets of the QFI, or
CDCI –                                                             Subordinated Debt for                                             3.1% for first 8 years,
        All                                                                              (ii), if the QFI is not a Certified Entity,
S Corps                                                            S Corps                                                           13.8% thereafter
                                                                                         the sum of the RWAs of each of the
                                                                                         Certified Entities, in each case less the
                                                                                         aggregate capital or, as the case may
                                                                                         be, principal amount of any outstanding
                                                                                         TARP assistance of the QFI.

Notes: Numbers affected by rounding.
a
  Announcement date of CPP S-Corporation Term Sheet.
b
  Amount includes AWCP commitments.
c
  Date from Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 12/31/2008.

Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
12/31/2008; Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/08; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury, “Loan and
Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.” 12/31/2008, Treasury, “Chrysler, Indicative
Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of Terms,” 1/16/2009; OFS,
response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community Development Capital Initiative
Program Agreement, CDFI Bank / Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital Initiative CDFI Credit Unions Senior
Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI
Senior Securities,” 4/26/2010.
54             special inspector general I troubled asset relief program




     Table 2.6

     Equity Agreements
     TARP                      Date           Cost             Description of                                                                   Term of
     Program Company           of Agreement   Assigned         Investment           Investment Information                 Dividends            Agreement
                                                               Senior Preferred     1-3% of risk-weighted assets, not to   5% for first 5 years,
                                                                                                                                                 Perpetual
     CPP –                     10/14/2008a                     Equity               exceed $25 billion for each QFI        9% thereafter
               286 QFIs                       $200.1 billion
     Public                    and later                       Common Stock
                                                                                    15% of senior preferred amount         —                    Up to 10 years
                                                               Purchase Warrants
                                                                                    1-3% of risk-weighted assets, not to   5% for first 5 years,
                                                               Preferred Equity                                                                  Perpetual
                                                                                    exceed $25 billion for each QFI        9% thereafter
     CPP –                     11/17/2008b                     Preferred Stock
               369 QFIs                       $4 billion
     Private                   and later                       Purchase Warrants
                                                                                    5% of preferred amount                 9%                   Perpetual
                                                               that are exercised
                                                               immediately
                                                               Non-Cumulative       $41.6 billion aggregate liquidation
                                                                                                                           10%                  Perpetual
                                                               Preferred Equity     preference
                                                                                    2% of issued and outstanding
               American                                                             common stock on investment date
     SSFI      International   4/17/2009      $41.6 billionc                        of 11/25/2008; the warrant was
               Group, Inc.                                     Common Stock         originally for 53,798,766 shares
                                                                                                                           —                    Up to 10 years
                                                               Purchase Warrants    and had a $2.50 exercise price, but
                                                                                    after the 6/30/2009 split, it is for
                                                                                    2,689,938.30 shares and has an
                                                                                    exercise price of $50.
                                                                                    Up to $29.8 billion aggregate
                                                                                                                                                Perpetual (life
                                                               Non-Cumulative       liquidation preference. As of
               American                                                                                                  10%                    of the facility is
                                                               Preferred Equity     9/30/2009, the aggregate liquidation
     SSFI      International   4/17/2009      $29.8 billiond                                                                                    5 years)
                                                                                    preference was $3.2 billion.
               Group, Inc.
                                                               Common Stock         150 common stock warrants
                                                                                                                         —                      Up to 10 years
                                                               Purchase Warrants    outstanding; $0.00002 exercise price
                                                               Trust Preferred
                                                                                    $20 billion                            10%                  Perpetual
                                                               Securities
     TIP       Citigroup Inc. 12/31/2008      $20.0 billione
                                                                                    10% of total preferred stock issued;
                                                               Warrants                                                    —                    Up to 10 years
                                                                                    $10.61 exercise price
                                                                                                                                                Converts to
                                                               Mandatorily
                                                                                                                                                common equity
                                                               Convertible          $5 billion                             9%
                                                                                                                                                interest after 7
                                                               Preferred Stockf
                                                                                                                                                years
     AIFP      GMAC Inc.       12/29/2008     $5.0 billion
                                                               Preferred Stock                                                                  Converts to
                                                               Purchase Warrants                                                                common equity
                                                                                    5% of original preferred amount        9%
                                                               that are exercised                                                               interest after 7
                                                               immediately                                                                      years
                                                                                                                                                Converts to
                                                               Mandatorily
                                                                                                                                                common equity
                                                               Convertible          $4.5 billion                           9%
                                                                                                                                                interest after 7
                                                               Preferred Stockg
                                                                                                                                                years
                                                               Preferred Stock                                                                  Converts to
     AIFP      GMAC Inc.       5/21/2009      $7.5 billion
                                                               Purchase Warrants                                                                common equity
                                                                                    5% of original preferred amount        9%
                                                               that are exercised                                                               interest after 7
                                                               immediately                                                                      years
                                                               Common Equity
                                                                                    $3.0 billion                           —                    Perpetual
                                                               Interestg
                                                                                                                                       Continued on next page.
                                                                                                                               quarterly report to congress I april 28, 2011                                 55




Equity Agreements                      (CONTINued)

TARP                             Date                   Cost                  Description of                                                                                              Term of
Program Company                  of Agreement           Assigned              Investment                   Investment Information                             Dividends                   Agreement
                                                                                                           This equity interest was obtained by
                                                                                                           exchanging a prior debt obligation
                                                                              Common Equity
AIFP         GMAC Inc.           5/29/2009              $0.9 billion                                       with General Motors. See “Debt                     —                           Perpetual
                                                                              Interest
                                                                                                           Agreements” table for more
                                                                                                           information.
                                                                                                                                                                                          Redeemable
                                                                              Trust Preferred                                                                                             upon the repay-
                                                                                                           $2.5 billion                                       8%
                                                                              Securities                                                                                                  ment of the
                                                                                                                                                                                          debenture
AIFP         GMAC Inc.           12/30/2009             $2.5 billion
                                                                              Trust Preferred
                                                                              purchase warrants
                                                                                                           5% of trust preferred amount
                                                                              that are exercised
                                                                              immediately
                                                                                                                                                                                          Converts to
                                                                              Mandatorily
                                                                                                                                                                                          common equity
                                                                              Convertible                  $1.3 billion                                       9%
                                                                                                                                                                                          interest after 7
                                                                              Preferred Stock
                                                                                                                                                                                          years
AIFP         GMAC Inc.           12/30/2009             $1.3 billion
                                                                              Preferred Stock
                                                                              Purchase Warrants
                                                                                                           5% of preferred amount
                                                                              that are exercised
                                                                              immediately
                                                                              Common Equity
AIFP         GMAC Inc.           12/30/2009             $5.5 billion                                       $5.5 billion                                                                   Perpetual
                                                                              Interesth
                                                                              Trust Preferred
AGP          Citigroup Inc. 12/23/2009                  $2.2 billion          Securities with
                                                                              warrants
                                                                                                                                                                                          8 years with
                                                                                                  Each of the membership interest                                                         the possibility
                                 9/30/2009 and                                Membership interest
PPIP         All                               $10 billion                                        will be funded upon demand from                             —                           of extension
                                 later                                        in a partnership
                                                                                                  the fund manager.                                                                       for 2 additional
                                                                                                                                                                                          years.
                                                                              Preferred Equity
                                                                                                           5% of risk-weighted assets for banks 2% for first eight
CDCI         All                                        $780.2 million        for banks & thrift                                                                     Perpetual
                                                                                                           and bank holding companies.          years, 9% thereafter
                                                                              institutions

Notes: Numbers affected by rounding.
a
  Announcement date of CPP Public Term Sheet.
b
  Announcement date of CPP Private Term Sheet.
c
  AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
d
  The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
e
  Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
f
  On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
g
  On 12/31/2009, Treasury converted $3.0 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of GMAC increased from 35% to 56% due to this
  conversion.
h
  On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of GMAC increased from 56% to 74% due to this
  conversion.

Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program Agree-
ment, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of November 25,
2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant, Summary of Senior Pre-
ferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc.
Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation and United States Department of Treasury,”
1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of
Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP Community Development Capital Initiative Program Agree-
ment, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development Capital Initiative CDFI Credit Unions Senior Securities Summary
of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,”
4/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally Financial Inc. (GOM ), 8-K, 12/30/2010.
56                 special inspector general I troubled asset relief program




     Table 2.7

     LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 3/31/2011
                                                                                                                                                                                                 Amount “In
                                                                                                                  Current                                                                       the Money”
                                                                                                               Number of                                     Stock                  “In” or   or “Out of the
                                                                             Transaction                        Warrants                Strike          Price as of                “Out” of   Money” as of
     Participant                                                             Date                             Outstanding                Price         3/31/2011             “the Money?”a      3/31/2011
     Capital Purchase Program (“CPP”):
         Regions Financial Corporation                                       11/14/2008                        48,253,677              $10.88                   $7.26                   OUT            ($3.62)
         KeyCorp                                                             11/14/2008                        35,244,361              $10.64                   $8.88                   OUT            ($1.76)
         Huntington Bancshares                                               11/14/2008                        23,562,994                $8.90                  $6.64                   OUT            ($2.26)
         Popular, Inc.                                                       12/05/2008                        20,932,836                $6.70                  $2.92                   OUT            ($3.78)
         Citizens Republic Bancorp, Inc.                                     12/12/2008                        17,578,125                $2.56                  $0.89                   OUT            ($1.67)
         Synovus Financial Corp.                                             12/19/2008                        15,510,737                $9.36                  $2.40                   OUT            ($6.96)
         Marshall & Ilsley Corporation                                        11/14/2008                       13,815,789              $18.62                   $7.99                   OUT          ($10.63)
         SunTrust Banks, Inc.                                                 11/14/2008                       11,891,280              $44.15                  $28.84                   OUT          ($15.31)
     Systemically Significant Failing Institutions (“SSFI”) Program:
         AIGb                                                                11/25/2008                          2,689,938             $50.00                  $35.14                   OUT          ($14.86)
         AIG  b
                                                                             4/17/2009                                    150           $0.00   c
                                                                                                                                                               $35.14                    IN           $35.14

     Notes: Numbers affected by rounding.
     a
       When a stock’s current price rises above the warrant’s strike price, it is considered “in the money;” otherwise, it is considered “out of the money.”
     b
       All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.
     c
       Strike price is $0.00002.

     Sources: Treasury, Transactions Report, 3/31/2011; Treasury, Dividends and Interest Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/6/2011; Market Data: Capital IQ, Inc. (a division of
     Standard & Poor’s), www.capitaliq.com, accessed 4/4/2011.




                          Table 2.8

                           DIVIDENDS, INTEREST, DISTRIBUTION, AND OTHER INCOME PAYMENTS
                                                   Dividends                       Interest           Distributiona              Other Incomeb                                  Total
                          AGP                $442,964,764                                $—                        $—          $2,589,197,045                  $3,032,161,809
                          AIFPc             2,472,988,301               1,187,782,368                                —                15,000,000                 3,675,770,669
                          ASSP                                —              31,949,931                              —                84,000,000                    115,949,931
                          CDCI                     3,328,967                   1,615,147                             —                              —                   4,944,114
                          CPPd            10,653,485,550                     67,611,724                              —         14,285,560,948                  25,006,658,222
                          PPIP                                —            116,424,927               537,664,761                      20,644,319                    674,734,007
                          TIP               3,004,444,444                                  —                         —           1,446,025,527                   4,450,469,972
                          UCSB                                —                6,059,958                             —                              —                   6,059,958
                          Total       $16,577,212,027 $1,411,444,055                              $537,664,761 $18,440,427,840                             $36,966,748,682

                          Note: Data as of 3/31/2011.
                          a
                            	Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not later than 30 days after the
                             end of each quarter.
                          b
                            	Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, additional note proceeds from the auto programs and the
                             Consumer and Business Lending Initiative/SBA 7(a) programs, and repayments associated with the termination of the TCW fund for PPIP.
                          c
                            	Includes AWCP.
                          d
                            	Includes $13 million fee received as part of the Popular exchange.

                          Source: Treasury, Transactions Report, 3/31/2011; Treasury, Section 105(a) Report, 12/10/2010; Treasury, Dividends and Interest Report,
                          3/31/2011; Treasury, response to SIGTARP data call, 10/18/2010.
                                                                                quarterly report to congress I april 28, 2011             57




HOMEOWNER SUPPORT PROGRAMS
The Administration announced the Making Home Affordable (“MHA”) program on
February 18, 2009.104 As initially announced, the program was intended “to help as
many as three to four million financially struggling homeowners avoid foreclosure
by modifying loans to a level that is affordable for borrowers now and sustainable
over the long term.”105 MHA and related programs include four initiatives funded
by the Troubled Asset Relief Program (“TARP”): a loan modification program
(which includes distinct subprograms), a Federal Housing Administration (“FHA”)-
Treasury refinancing program, a program to support state-funded foreclosure pre-
vention programs, and a program that offers homeowners an opportunity to modify
their second mortgages to make them more affordable when their first mortgages
have already been modified. These programs, along with parallel programs at the
Government-sponsored enterprises (“GSEs”), make up what was originally
announced as a $75 billion initiative.106
    Of the anticipated $75 billion cost for MHA, $50 billion was originally to be
funded through TARP. Treasury has since reduced this amount to a final program
obligation of $45.6 billion for MHA and its related programs.107 TARP funds
support the Home Affordable Modification Program (“HAMP”), the Second Lien
Modification Program (“2MP”), the Hardest-Hit Fund (“HHF”), and the FHA
Short Refinance programs, along with efforts at FHA and the U.S. Department of                Loan Servicers: Companies that
Agriculture’s (“USDA”) Rural Housing Service (“RHS”) to use HAMP to modify                    perform administrative tasks on
mortgages that those agencies insure or guarantee.108                                         monthly mortgage payments until the
    TARP funds are not used for incentive payments for modifications related                  loan is repaid. These tasks include
to loans owned or guaranteed by the GSEs — the Federal National Mortgage                      billing, tracking, and collecting monthly
Association (“Fannie Mae”) and the Federal Home Loan Mortgage Corporation                     payments; maintaining records of
                                                                                              payments and balances; allocating
(“Freddie Mac”). Fannie Mae and Freddie Mac pay those incentives from their
                                                                                              and distributing payment collections
operating funds. Servicers of loans owned or securitized by a GSE are required
                                                                                              to investors in accordance with each
to participate in that specific GSE’s HAMP for their entire portfolio of loans.
                                                                                              mortgage loan’s governing documenta-
Modifications of GSE loans are covered by servicers’ contracts with the GSEs and              tion; following up on delinquencies; and
the GSEs’ servicing guides. When HAMP was announced, the Administration esti-                 initiating foreclosures.
mated that the GSEs would contribute up to $25 billion to modify mortgages that
they own or guarantee.109                                                                     Investors: Owners of mortgage loans
    MHA and related programs include the following initiatives:                               or bonds backed by mortgage loans
                                                                                              who receive interest and principal
•	 HAMP — HAMP is intended to encourage loan servicers (“servicers”) and                      payments from monthly mortgage
   investors, through incentive payments, to modify eligible first-lien mortgages             payments. Servicers manage the cash
   so that the monthly payments of homeowners who are currently in default or                 flows from borrowers’ monthly pay-
   at imminent risk of default will be reduced to affordable and sustainable levels.          ments and distribute them to investors
                                                                                              according to Pooling and Servicing
   HAMP also includes the following subprograms:
                                                                                              Agreements (“PSAs”).
   çç Home Price Decline Protection (“HPDP”) — HPDP is intended to en-
       courage additional investor participation and HAMP modifications in areas
       with recent price declines by providing TARP-funded incentives to offset
       potential losses in home values.110
58            special inspector general I troubled asset relief program




                                                          çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
                                                               the use of principal reduction in modifications for eligible borrowers whose
                                                               homes are worth significantly less than the remaining outstanding balances
                                                               of their first-lien mortgage loans. It provides TARP-funded incentives to
                                                               offset a portion of the principal reduction provided by the investor.111
                                                          çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                               offer assistance to unemployed homeowners through temporary forbearance
                                                               of a portion of their payments.112
                                                          çç Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
     Short Sales: Sales of a home for less                     to provide incentives to servicers and borrowers to pursue short sales and
     than the unpaid mortgage balance. A                       deeds-in-lieu of foreclosure for HAMP-eligible borrowers in cases in which
     borrower sells the home and the lender                    the borrower is unable or unwilling to enter into a modification.113
     collects the proceeds as full satisfac-         •	   2MP — 2MP is intended to modify second-lien mortgages when a correspond-
     tion of the unpaid mortgage balance,                 ing first lien is modified under HAMP. However, the requirement to modify
     thus avoiding the foreclosure process.               second liens applies only to servicers that executed a Servicer Participation
                                                          Agreement (“SPA”) to participate in 2MP prior to October 3, 2010.114 As of
     Deeds-in-Lieu of Foreclosure: Instead
                                                          March 31, 2011, 17 servicers are participating in 2MP. These servicers repre-
     of going through foreclosure, the bor-
                                                          sent approximately 55% to 60% of the second-lien servicing market.115
     rower voluntarily surrenders the deed
     to the home lender as satisfaction of
                                                     •	   Agency-Insured Programs — Like their TARP counterparts, these initiatives
     the unpaid mortgage balance.                         for home loans insured by FHA or guaranteed by RHS and the Department of
                                                          Veterans Affairs (“VA”) offer assistance to eligible borrowers whose mortgages
     Underwater Mortgage: Mortgage loan                   are backed by these Government agencies to reduce payments on their first-lien
     on which a homeowner owes more                       mortgages to more affordable levels.116 Treasury is providing TARP incentives to
     than the home is worth, typically as a               encourage modifications under the FHA and RHS modification programs.
     result of a decline in the home’s value.        •	   FHA Short Refinance — This initiative, which is partially supported by TARP
                                                          funds, is intended to encourage FHA refinancing of existing underwater mort-
                                                          gage loans that are not presently insured by FHA. To facilitate the refinancing of
                                                          new FHA-insured loans under this program, TARP funds will provide incentives
                                                          to existing second-lien holders of participating servicers who agree to partial
                                                          or full extinguishment of second liens under the Treasury/FHA Second-Lien
                                                          Program (“FHA2LP”). The initiative also provides that Treasury, through TARP,
                                                          will provide up to $8 billion in loss coverage on newly originated FHA first-lien
                                                          loans.117
                                                     •	   Housing Finance Agency (“HFA”) HHF — A TARP-funded program, HHF is
                                                          intended to fund state-run foreclosure prevention programs in states hit hard-
                                                          est by the decrease in home prices and in states with high unemployment rates.
                                                          Eighteen states and the District of Columbia have received approval for aid
                                                          through the program.118
                                                                                 quarterly report to congress I april 28, 2011           59




Status of TARP Funds Obligated to MHA and Related
Programs
Treasury obligated $45.6 billion to support MHA and its related programs, of
which $1.4 billion, or 3.0%, has been expended as of March 31, 2011.119 Effective
October 1, 2010, Treasury established that the aggregate amount available to pay
servicer, borrower, and investor incentives under MHA-related programs would be
capped at $29.9 billion.120 The remaining $15.7 billion is allocated to funding the
FHA Short Refinance and HFA HHF programs. The amount obligated to each
MHA-participating servicer is established pursuant to its Program Participation
Cap under its SPA with Treasury.121 Treasury set each servicer’s initial cap by
estimating the number of services expected to be performed by each servicer across
all MHA and MHA-related programs in which it participates during the term of
the SPA. According to Treasury, a servicer’s cap will be adjusted based on several
factors: (1) upward or downward, pursuant to a Servicer Cap Model that aims to
reallocate funds from servicers that have a relatively large amount of unused funds
under their cap to servicers with a relatively small amount of unused funds under
their cap, or (2) downward, based on Treasury’s analysis of the servicer’s eligible
loan portfolio.122
    Treasury announced the following program-specific cost estimates for MHA
and its related programs:

•	 Treasury has indicated that the $29.9 billion obligated to making incentive pay-
   ments is apportioned among the different programs as follows:123
   çç $21.4 billion will be allocated to pay borrower, servicer, and investor incen-
        tives for first-lien modifications under HAMP, including approximately
        $2.0 billion that will be allocated to pay investor incentives under PRA.
   çç $1.3 billion will be allocated to pay investor incentives under HPDP.
   çç $4.1 billion will be allocated to pay incentives in connection with fore-
        closure alternatives under HAFA, such as short sales or deeds-in-lieu of
        foreclosure.
   çç $132.6 million will be allocated to second-lien holders to modify or extin-
        guish second liens under 2MP.
   çç $234.4 million will be allocated under Treasury FHA-HAMP.
   çç $17.8 million will be allocated under the USDA RHS’s Rural Development
                                                                                               Letter of Credit: Letter from a bank
        HAMP (“RD-HAMP”).                                                                      guaranteeing that a specified loan pay-
   çç $2.7 billion will be allocated to pay servicer and investor incentive payments           ment will be received on time and for
        to modify or extinguish second liens as part of FHA2LP.                                the correct amount. In the event that
•	 Treasury and the U.S. Department of Housing and Urban Development                           the payment is not made, the issuing
   (“HUD”) have announced that TARP will fund up to $8.1 billion to purchase a                 bank is required to cover the full or
   letter of credit providing up to $8.0 billion in potential loss coverage and pay an         remaining amount of the obligation.
   additional $117 million in fees under FHA Short Refinance.124
•	 Treasury has obligated a total of $7.6 billion in TARP funding for HFA HHF.125
60   special inspector general I troubled asset relief program




                                            Table 2.9

                                            TARP allocations by homeowner Support programs,
                                            AS OF 3/31/2011 ($ BILLIONS)
                                            HAMP 1st Lien (Standard Modification)                                                                                                   $19.4
                                            HAMP 1st Lien (PRA Modification)                                                                                                            2.0
                                            HAMP 1st Lien (HPDP)                                                                                                                        1.3
                                            HAFA                                                                                                                                        4.1
                                            UP                                                                                                                                          —a
                                            2MP                                                                                                                                         0.1
                                            Treasury FHA-HAMP                                                                                                                           0.2
                                            RD-HAMP                                                                                                                                    0.0b
                                            FHA2LP                                                                                                                                      2.7
                                            FHA Short Refinance (Loss-Coverage)                                                                                                        8.1c
                                            HHF                                                                                                                                         7.6
                                            Total Allocations                                                                                                                      $45.6

                                            Note: Numbers may not total due to rounding.
                                            a
                                              Treasury does not allocate TARP funds to UP.
                                            b
                                              Treasury estimates that $17.8 million will be allocated to RD-HAMP.
                                            c
                                              This amount includes the up to $117 million in fees Treasury will incur for the availability and usage of the $8.0 billion letter of credit.

                                            Source: Treasury, response to SIGTARP data call, 4/13/2011.




                                                Table 2.9 shows the breakdown in estimated funding allocations for these
                                            programs.
                                                As of March 31, 2011, Treasury has maintained SPAs with 125 of the 145
                                            servicers that originally agreed to participate in MHA and its related programs.126
                                            According to Treasury, of the $29.9 billion obligated to participating servicers under
                                            their SPAs, as of March 31, 2011, $1.1 billion was spent on completing perma-
                                            nent modifications of first liens (266,454 of which remain active); $14.4 million on
                                            completing 1,125 full extinguishments, 1,013 partial extinguishments, and 19,091
                                            permanent modifications of second liens under the 2MP; and $19.1 million on
                                            incentives for 5,253 short sales or deeds-in-lieu of foreclosure under HAFA.127 Of
                                            the combined amount of incentive payments, according to Treasury, approximately
                                            $486.0 million went to pay servicer incentives, $482.1 million went to pay inves-
                                            tor incentives, and $168.9 million went to pay borrower incentives.128 According
                                            to Treasury, TARP has obligated $7.6 billion to state Housing Finance Agencies
                                            participating in HHF. As of March 31, 2011, Treasury has disbursed approxi-
                                            mately $166.1 million of this amount to participating states, most of which has
                                            been allocated to administrative expenses.129 The remaining $8.1 billion has been
                                            obligated under FHA Short Refinance to purchase a letter of credit to provide up
                                            to $8.0 billion in first loss coverage and to pay $117 million in fees. According to
                                            Treasury, there have been no defaults on the 107 loans refinanced into FHA Short
                                            Refinance.130 Therefore, TARP has not incurred any losses under the program and
                                            the line of credit has not yet been accessed.
                                                                                       quarterly report to congress I april 28, 2011   61




    The breakdown of incentive payments for TARP (non-GSE) is shown in
Table 2.10.




Table 2.10

Breakdown of tarp (non-GSE) incentive payments,
As of 3/31/2011 ($ MILLIONs)
First-Lien Modification Incentives                                                  Non-GSEs
Servicer Incentive Payment ($1,000)                                                   $293.0
Servicer Current Borrower Incentive Payment ($500)                                      11.3
Annual Servicer Pay for Success                                                        167.2
Investor Current Borrower Incentive Payment ($1,500)                                    32.3
Investor Monthly Reduction Cost Sharea                                                 328.7
HPDP                                                                                   113.5
Annual Borrower Pay for Success                                                        156.9
FHA2LP                                                                                    —
PRA 1 Lien
        st
                                                                                          —
PRA 2nd Lien                                                                              —
RD-HAMP                                                                                   —b
Treasury FHA HAMP                                                                        0.6
Total                                                                               $1,103.5
Second-Lien Modification Incentives
2MP Servicer Incentive Payment                                                           8.3
2MP Servicer Pay for Success                                                              —
2MP Borrower Pay for Success                                                              —
2MP Investor Cost Share                                                                  1.4
2MP Investor Full Extinguishment                                                         4.2
2MP Investor Partial Extinguishment                                                      0.5
Total                                                                                  $14.4
HAFA Incentives
Servicer Incentive Payment                                                               5.9
Investor Reimbursement                                                                   1.5
Borrower Relocation                                                                     11.7
Total                                                                                  $19.1

Notes: Numbers affected by rounding.
a
  Investor Monthly Reduction Cost Share is considered an incentive payment.
b
  Treasury could not provide SIGTARP with RD-HAMP incentive data as of 3/31/2011.

Sources: Treasury, response to SIGTARP data call, 4/14/2011.
62   special inspector general I troubled asset relief program




                                            HAMP
                                            According to Treasury, HAMP was intended “to help as many as three to four mil-
                                            lion financially struggling homeowners avoid foreclosure by modifying loans to a
                                            level that is affordable for borrowers now and sustainable over the long term.”131
                                            The Administration envisioned a “shared partnership” between the Government
                                            and investors to bring distressed borrowers’ first-lien monthly payments down to an
                                            “affordable” level — defined as 31% of the borrower’s monthly gross income.132
                                                Under the program, investors are responsible for all payment reductions neces-
                                            sary to bring a borrower’s monthly payment down to 38% of their monthly gross
                                            income. The additional reductions needed to bring the monthly payment down
                                            to a 31% ratio are shared between investors and the Government.133 Treasury
                                            will also compensate investors for reducing the principal on certain underwater
                                            mortgages.134
                                                Borrowers may be solicited for participation by their servicers or they may
                                            request participation in HAMP by sending their servicers the following documents,
                                            referred to as the “Initial Package”:135

                                            •	 a “request for modification and affidavit” (“RMA”) form
                                            •	 signed and completed requests for Federal tax return transcripts using IRS
                                               Forms 4506-T and 4506T-EZ (including all schedules and forms)
                                            •	 evidence of income (employment income, rental income, etc.)

                                               The RMA provides the servicer with the borrower’s financial information, in-
                                            cluding the cause of the borrower’s hardship, defined as any of the following:136

                                            •	 reduction in or loss of income that was supporting the mortgage payment
                                            •	 change in household financial circumstances
                                            •	 recent or upcoming increase in the monthly mortgage payment
                                            •	 increase in other expenses
                                            •	 lack of sufficient cash reserves to maintain payment on the mortgage and cover
                                               basic living expenses
                                            •	 excessive monthly debt payments and overextension with creditors

                                            Trial Plan Evaluation
                                            Before offering the borrower a trial modification plan, the servicer must verify the
                                            accuracy of the borrower’s income and other eligibility criteria, including certifica-
                                            tion required by the Dodd-Frank Wall Street Reform and Consumer Protection Act
                                            (the “Dodd-Frank Act”) that any person receiving assistance under MHA has not
                                            been convicted, in connection with a mortgage or real estate transaction, of fraud,
                                            money laundering, theft, tax evasion, or felony larceny within the preceding 10
                                            years.137 Borrowers offered or enrolled in MHA trial period plans and permanent
                                                                                  quarterly report to congress I april 28, 2011            63




modifications prior to September 21, 2010, are not affected by the Dodd-Frank
Act certification requirement.138 A servicer is not required to send an initial pack-
age if, as a result of discussions with the borrower, the servicer determines that the
borrower’s monthly first-lien mortgage obligation is less than 26% of the borrower’s
monthly gross income.139
    On February 17, 2011, Treasury clarified its guidance to servicers on verifying a
borrower’s monthly gross income. Participating servicers will be required to develop
and adhere to written policy and procedures (“Verification Policy”) by May 1, 2011.
The Verification Policy must detail the methodology that the servicer will use to
calculate and verify monthly gross income for the borrower and the borrower’s
household. Treasury provided a sample HAMP Income Calculation worksheet that
servicers can opt to use to document monthly gross income and to note any calcu-
lations or assumptions used by the servicer.140 The Verification Policy must also ad-
dress how the servicer will treat income in such categories as seasonal or sporadic
income, overtime, recent employment, and underemployment. The servicer must                     Underemployment: The condition in
also describe in the Verification Policy how and when it will use alternative forms             which people in a labor force are em-
of income documentation if traditional forms such as recent pay stubs are not                   ployed at less than full-time or regular
available.141                                                                                   jobs or at jobs inadequate with respect
    After verifying eligibility and income, the servicer follows the modification steps         to their training or economic needs.
prescribed by HAMP guidelines to calculate a reduction in the borrower’s monthly
mortgage payment to 31% of his or her gross monthly income.142
    In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds        For more information on the borrower
                                                                                                certification process required by the
them to the outstanding principal balance). Second, the servicer reduces the inter-
                                                                                                Dodd-Frank Act, see SIGTARP’s October
est rate in incremental steps to as low as 2%. If the 31% threshold has still not               2010 Quarterly Report, page 83.
been reached, in the third step the servicer extends the term of the mortgage to a
maximum of 40 years from the modification date. If these steps are still insufficient
to reach the 31% threshold, the servicer may forbear principal (defer its due date),
subject to certain limits.143 The forbearance amount is not interest bearing and re-
sults in a lump-sum payment due upon the earliest of the sale date of the property,
the payoff date of the interest-bearing mortgage balance, or the maturity date of the
mortgage.144
    Servicers are not required to forgive principal under HAMP. However, servicers
may forgive principal in order to lower the borrower’s monthly payment to achieve
the debt-to-income (“DTI”) ratio goal of 31% on a stand-alone basis or before any
of the other HAMP modification steps described above.145 Finally, after engaging in
the modification calculations, “all loans that meet HAMP eligibility criteria and are           Net Present Value (“NPV”) Test: Com-
either deemed to be in imminent default or delinquent [by] two or more payments                 pares the money generated by modify-
must be evaluated using a standardized NPV test that compares the NPV result for                ing the terms of the mortgage with
a modification to the NPV result for no modification.”146 The NPV test uses a series            the amount an investor can reasonably
of inputs that compares the expected cash flow from a modified loan with the cash               expect to recover in a foreclosure sale.
flow from the same loan with no modifications, based on certain assumptions. A
64            special inspector general I troubled asset relief program




                                                     positive NPV test result indicates that a modified loan is more valuable to the inves-
                                                     tor than if the loan is not modified. In that case, under HAMP rules, the servicer
                                                     must offer the borrower a mortgage modification. If the test generates a negative
                                                     result, modification is optional.147 In reviewing a borrower’s application, servicers
                                                     cannot refuse to evaluate a borrower for a modification simply because the out-
     Loan-to-Value (“LTV ”) Ratio: Lending           standing loan currently has a low loan-to-value (“LTV”) ratio. (The lower the LTV
     risk assessment ratio that mortgage             ratio is, the higher the probability that a foreclosure will be more profitable to an
     lenders examine before approving a              investor than a modification, because of the proceeds that would be realized from a
     mortgage; calculated by dividing the            foreclosure sale.) The servicer is required to perform and document the evaluation
     outstanding amount of the loan by the           in a manner consistent with program guidelines.148
     value of the collateral backing the loan.           With respect to loans owned or guaranteed by the GSEs, servicers are required
     Loans with high LTV ratios are gener-           to offer a trial modification if the NPV test results are equal to or greater than
     ally seen as higher risk because the
                                                     negative $5,000. In other words, even if the NPV test indicates that a modified
     borrower has less of an equity stake in
                                                     mortgage would cost the GSE up to $5,000 more than foreclosure would, the ser-
     the property.
                                                     vicer still must offer the modification.149
     Trial Modification: Under HAMP, a
     period of at least three months during          How Trial Modifications Work
     which a borrower is given a chance              Treasury originally intended that HAMP trial period modifications would last three
     to establish that he or she can make            months; however, according to Treasury, as of March 31, 2011, of a combined total
     lower monthly mortgage payments and             of 137,363 (non-GSE and GSE) active trials, 26,362, or 19.2%, had lasted more
     qualify for a permanent modification.           than six months.150
                                                         During a trial period, the borrower must make at least three modified pay-
                                                     ments.151 Under a “trial period plan” (“TPP”), borrowers may qualify for a perma-
                                                     nent modification as long as they make all required payments on time, are eligible,
                                                     and provide proper documentation, including a modification agreement.152 The
                                                     terms of these permanent modifications remain fixed for at least five years.153 After
                                                     five years, the loan’s interest rate can increase if the modified interest rate had been
                                                     reduced below the current 30-year conforming fixed interest rate on the date of the
                                                     initial modification. The interest rate can rise incrementally by up to 1% per year
                                                     until it reaches that rate.154 Otherwise, the modified interest rate remains perma-
                                                     nent. Beginning May 1, 2011, if a borrower is denied a permanent modification
                                                     because of missed trial payments, the servicer must, within 30 days of the missed
                                                     payment, re-calculate the borrower’s income using the original income documenta-
                                                     tion to ensure that the trial payment was correctly calculated. The servicer is not
                                                     required to re-run the calculation if the borrower missed a trial payment because
                                                     of a significant change in circumstances resulting in a reduction in income. To per-
                                                     form the re-calculation, the servicer must use an employee who was not involved
                                                     in the original calculation. If the re-calculation shows that the borrower’s trial
                                                     payment exceeded the proper payment by 10% or more, the servicer must offer the
                                                     borrower a new trial period with the correct payment.155
                                                                                 quarterly report to congress I april 28, 2011   65




     If the borrower misses a payment during the trial or is denied a permanent
modification for any other reason, the borrower is, in effect, left with the original
terms of the mortgage. The borrower is responsible for the difference between
the original mortgage payment amount and the reduced trial payments that were
made during the trial. In addition, the borrower may be liable for late fees that were
generated during the trial. In other words, a borrower can be assessed late fees for
failing to make the original pre-modification scheduled payments during the trial
period, even though under the trial modification the borrower is not required to
make these payments. Late fees are waived only for borrowers who receive a per-
manent modification.156

Modification Incentives
Servicers receive a one-time payment of $1,000 for each permanent modification
completed under HAMP. They receive additional compensation of $500 if the bor-
rower was current but at imminent risk of default before enrolling in the trial plan.
For borrowers whose monthly mortgage payment was reduced through HAMP by
6% or more, servicers also receive “pay for success” payments of up to $1,000 an-
nually for three years if the borrower remains in good standing (defined as less than
90 days delinquent).157
    Borrowers whose monthly mortgage payment is reduced through HAMP by
6% or more and who make monthly payments on time earn an annual “pay for
performance” principal balance reduction.158 The annual reduction amount is up
to $1,000. The servicer receives this payment and applies it toward reducing the
interest-bearing mortgage loan balance. The principal balance reduction accrues
monthly and is payable for each of the first five years as long as the borrower re-
mains current on his or her monthly payments.159
    An investor is entitled to compensation, for up to five years, equal to one-half of
the dollar difference between the borrower’s monthly payment (principal and inter-
est) under the modification, based on 31% of gross monthly income, and the lesser
of (1) the borrower’s monthly principal and interest at 38% and (2) the borrower’s
pre-modification monthly principal and interest payment.160 If applicable, inves-
tors also earn an extra one-time, up-front payment of $1,500 for modifying a loan
that was current before the trial period (i.e., at risk of imminent default) and whose
monthly payment was reduced by at least 6%.161
    Investors are entitled to additional compensation through HPDP. HPDP is
intended to address the fears of investors who may withhold their consent to loan
modifications because of potential future declines in the value of the homes that
secure the mortgages, should the modification fail and the loan go into foreclosure.
In such a circumstance, the investor could suffer greater losses for offering modi-
fications than under an immediate foreclosure. By providing incentive payments
66                 special inspector general I troubled asset relief program




                                                                  to mitigate that potential loss for a 24-month period, Treasury hopes to encourage
                                                                  more lenders and investors to modify loans.
                                                                      Under HPDP, Treasury has published a standard formula, based on the unpaid
                                                                  principal balance (“UPB”) of the mortgage, the recent decline in area home prices,
                                                                  and the LTV ratio, that will determine the size of the incentive payment. The pro-
                                                                  jected home price decline is determined by the change in surrounding-area home
                                                                  prices during the six months before the start of the HAMP modification.162 The
                                                                  HPDP incentive payments accrue monthly over a 24-month period and are paid
                                                                  out annually on the first and second anniversaries of the initial HAMP trial period
                                                                  mortgage payment. Accruals are discontinued if the borrower loses good standing
                                                                  under HAMP by missing three mortgage payments or if the mortgage loan is paid
                                                                  in full. If mortgage payments are discontinued, investors are entitled to receive
                                                                  all previously accrued but unpaid incentive payments.163 Under HPDP, whether a
                                                                  particular area suffers further declines in home prices is irrelevant. The amount
                                                                  of the incentive depends entirely on the estimated decline in home prices in the
     Home Price Index: An index of price
     projections in 110 local housing                             market over the next year, based on changes in the related home price index during
     markets that is used for all HPDP                            the six months preceding the modification.164 As of March 31, 2011, according to
     calculations related to home price. The                      Treasury, approximately $113.5 million in TARP funds had been paid to investors.
     projections are updated quarterly with                       Treasury was unable to identify the number of modifications for HPDP associated
     new data and based on both long-term                         with this expenditure of funds.165
     and short-term trends, adjusted for                              As of March 31, 2011, of the $29.9 billion in TARP funds allocated to the 125
     seasonal effects.                                            servicers participating in HAMP SPAs, approximately 81% is allocated to only 10
                                                                  servicers.166 Table 2.11 outlines these servicers’ relative progress in implementing
                                                                  the HAMP modification programs.
      Table 2.11

     tarp (Non-GSE) INCENTIVE PAYMENTS BY 10 LARGEST SPA SERVICERS, AS OF 3/31/2011
                                                                           Incentive Payments    Incentive Payments Incentive Payments     Total Incentive
                                                           SPA Cap Limit          to Borrowers           to Investors       to Servicers        Payments
     Countrywide Home Loans Servicing LP                  $6,349,655,436         $20,250,620           $56,852,231          $54,663,143    $131,765,994
     Wells Fargo Bank, NA                                  5,138,750,914           14,314,746           57,004,340           53,200,035      124,519,121
     J.P. Morgan Chase Bank, NA                            3,223,317,901           30,096,090           48,693,378           72,233,401      151,022,869
     OneWest Bank                                          1,836,253,881            7,730,462           26,968,402           20,623,676       55,322,540
     Bank of America, N.A.                                 1,555,136,337            2,385,888             9,359,162           7,779,094       19,524,144
     GMAC Mortgage, Inc.                                   1,517,794,381            7,747,806           32,160,958           26,231,652       66,140,416
     American Home Mortgage Servicing, Inc                 1,305,487,935            8,579,747           39,336,123           31,984,506       79,900,376
     Ocwen Financial Corporation, Inc.                     1,144,150,606           11,825,475           34,276,406           30,818,265       76,920,146
     CitiMortgage, Inc.                                    1,073,475,472           14,356,611           37,965,429           38,221,808       90,543,847
     Litton Loan Servicing LP                              1,059,580,008            6,625,051           19,184,782           17,200,572       43,010,405
     Total                                              $24,203,602,871        $123,912,496          $361,801,212        $352,956,152      $838,669,860

     Note: Numbers may not total due to rounding.

     Source: Treasury, Transactions Report, 4/1/2011.
                                                                                                         quarterly report to congress I april 28, 2011   67




Table 2.12

HAMP SNAPSHOT, as of 3/31/2011
Number of HAMP Trials Started since Program Inception                             1,559,023
Number of Trial Modifications Cancelled                                            751,474
Number of Permanent Modifications Cancelled                                         83,270

Source: Treasury, response to SIGTARP data call, 4/22/2011.




Table 2.13
HAMP modification activity by GSE/TARP (Non-GSE), as of 3/31/2011
                                                         Trials                    Trials Converted to      Permanents      Permanents
                       Trials Started                Cancelled    Trials Active            Permanent          Cancelled         Active
GSE                            843,017                 417,871         63,987                 361,159            40,697         320,462
Non-GSE                        716,006                 333,603         73,376                 309,027            42,573         266,454
Total                      1,559,023                  751,474        137,363                  670,186            83,270         586,916

Sources: Treasury, response to SIGTARP data call, 4/22/2011.




Modification Statistics
As of March 31, 2011, a total of 586,916 mortgages were in active permanent
modifications and 137,363 were in active trial modifications. For borrowers receiv-
ing permanent modifications, 100% received an interest rate reduction, 59.5% re-
ceived a term extension, 30.5% received principal forebearance, and 2.4% received
principal forgiveness.167 A snapshot of HAMP modifications is shown in Table 2.12.
HAMP modification activity, broken out by GSE and TARP (non-GSE) loans, is
shown in Table 2.13.

What Happens When a HAMP Modification Is Denied: Summary of Servicer
Obligations and Borrower Rights
Treasury has issued several directives governing both the obligations of servicers
and the rights of borrowers in connection with the denial of loan modification re-
quests. The most recent guidance, effective February 1, 2011, governs the actions
of participating HAMP servicers of non-GSE mortgages and loans not insured by
a Federal agency. The new guidance reviews and updates participating servicers’
obligations in addressing inquiries and disputes from prospective or participating
borrowers. It also discusses the requirements for servicers concerning the content
and timing of mandatory notices for borrowers applying to HAMP.168 As of March
31, 2011, the GSEs have not adopted any of the revisions with respect to borrower
requests for reconsideration of loans that are guaranteed by the GSE servicers.
GSE program updates in this area remain under consideration.169
68   special inspector general I troubled asset relief program




                                            Non-Approval Notices
                                            According to Treasury, if a borrower applying to HAMP is not approved for a modi-
                                            fication, the servicer must send the borrower a Non-Approval Notice explaining the
                                            reasons for the decision in clear, non-technical language, with acronyms and indus-
                                            try terms explained in a manner that is easily understandable. The notice must con-
                                            tain a description of other foreclosure alternatives and the steps necessary for the
                                            borrower to be considered for such alternatives. If the servicer has already approved
                                            the borrower for a foreclosure alternative, the notice must also include information
                                            necessary for the borrower to participate in or complete the alternative.170
                                                In cases where an NPV evaluation was performed, the Non-Approval Notice
                                            must also include the NPV input values used to evaluate the borrower’s eligibility.171
                                            The servicer must provide the borrower with an opportunity to correct the NPV
                                            input values or any other information identified in the notice that the borrower
                                            believes is in error. The servicer may not conduct a foreclosure sale for 30 calendar
                                            days from the date of the Non-Approval Notice or a longer period, if required, to
                                            review supplemental material provided by the borrower in response to the notice,
                                            although the servicer may continue with all other steps in the foreclosure process
                                            short of an actual sale. This foreclosure sale prohibition does not apply when the
                                            non-approval is due to an ineligible mortgage or property, the borrower declines a
                                            HAMP modification, or the loan was previously modified under HAMP.172
                                                The Non-Approval Notice must also contain a toll-free number, email address,
                                            and mailing address of a servicer representative to contact if the borrower wishes to
                                            dispute the reasons for non-approval. For larger servicers, the servicer representa-
                                            tive listed in the notice must be independent from the servicing staff who made
                                            the underwriting decision.173 Additionally, the Non-Approval Notice must include a
                                            telephone number for the HOPE™ Hotline, a 24-hour telephone hotline that pro-
                                            vides assistance to borrowers at no charge.174 The notice must specifically encour-
                                            age borrowers to ask for MHA Help if they have any reason to dispute the contents
                                            of the Non-Approval Notice.175
                                                The HOPE Hotline is operated by a non-profit group called the
                                            Homeownership Preservation Foundation (“HPF”), which was contracted by
                                            Fannie Mae in its capacity as HAMP administrator. The Foundation is largely an
                                            outgrowth of the mortgage servicers themselves. It started as an in-house entity
                                            within Residential Capital, LLC, a unit of Ally Financial Inc. (the former GMAC
                                            Inc.). Several of its board members have ties to Residential Capital, LLC, and the
                                            group is supported by donations from large servicers. In a December 2010 press
                                            interview, the HPF chairman suggested that HPF does not view itself as a home-
                                            owner advocate, stating “Because we’re supported by the industry, are we really
                                            working for the homeowner? Maintaining this neutral ground is hard to do, but
                                            we work very hard to keep our advice neutral.”176 Of the more than 2.1 million
                                                                               quarterly report to congress I april 28, 2011   69




borrowers who had called the HOPE Hotline as of March 31, 2011, 16,585, or
nearly 0.8%, called claiming they had been wrongfully denied for an MHA pro-
gram. Additionally, about 1.0 million callers had received free counseling.177
    According to Treasury, the HOPE Hotline provides homeowners with free
foreclosure prevention information and housing counseling referrals. It assists bor-
rowers with a preliminary assessment of their eligibility for MHA programs. It also
connects borrowers who have detailed questions about the program or a denial to
MHA Help, “a team of specialists dedicated exclusively to working with borrowers
and servicers to resolve escalated MHA cases. Treasury established a similar resolu-
tion resource, the HAMP Solution Center (“HSC”), to manage escalated cases
received from housing counselors, Government offices, and other third parties act-
ing on behalf of a borrower.”178 Beginning February 1, 2011, staff at both of these
escalation offices were directed to re-run the HAMP NPV test upon request by the
borrower, housing counselor, or other permissible third party, when the borrower
believes that the inputs used by the servicers were inappropriate.179

Requests for Reconsideration or Re-Evaluation
If a homeowner who applies to participate in HAMP is not approved for a loan
modification because the servicer’s analysis indicates a negative result from the
HAMP NPV test, the Non-Approval Notice sent to that borrower must include
an explanation of the NPV analysis and the following list of NPV inputs for that
borrower:180

•	   unpaid principal balance on the loan
•	   interest rate
•	   months delinquent
•	   next reset date and interest rate (for adjustable rate mortgages)
•	   current principal and interest payment (before modification)
•	   monthly insurance payment
•	   monthly real estate taxes
•	   monthly homeowners’ association fees (if applicable)
•	   borrower’s monthly gross income
•	   borrower’s total monthly obligations
•	   borrower’s credit score
•	   co-borrower’s credit score (if applicable)
•	   zip code
•	   state

    Since February 1, 2011, the program has required the servicer to provide
the borrower with additional inputs into the NPV calculation, including the
following:181
70   special inspector general I troubled asset relief program




                                            •	   value of the property the servicer used in the NPV test
                                            •	   type of property valuation
                                            •	   data collection date
                                            •	   imminent default status indicator
                                            •	   investor code
                                            •	   UPB at origination
                                            •	   first payment date at origination
                                            •	   mortgage type
                                            •	   remaining term
                                            •	   mortgage coverage insurance percentage
                                            •	   date NPV evaluation was conducted
                                            •	   UPB of the proposed HAMP modification (net of forbearance and principal
                                                 reduction)
                                            •	   interest rate of the proposed HAMP modification
                                            •	   amortization term of the proposed HAMP modification
                                            •	   principal and interest payment of the proposed HAMP modification
                                            •	   principal forbearance amount of the proposed HAMP modification
                                            •	   principal forgiveness amount of the proposed HAMP modification
                                            •	   modification fees paid by the investor
                                            •	   mortgage insurance partial claim amount

                                                According to Treasury, the purpose of providing this information is to allow the
                                            borrower the opportunity to correct values that may affect the analysis of his or her
                                            eligibility. If the borrower believes one or more NPV analysis inputs is incorrect, the
                                            borrower has 30 days from the date of the Non-Approval Notice to provide written
                                            evidence thereof to the servicer. If the borrower wishes to submit corrections for
                                            more than one input, the borrower must provide all such corrections at one time.
                                            Effective no later than June 1, 2011, if a borrower submits written evidence for
                                            some, but not all, of the NPV inputs that the borrower is disputing, the servicer
                                            must notify the borrower promptly that all of the necessary written evidence has
                                            not been received and that it must be received within the 30-day calendar period
                                            provided for borrower disputes of a Non-Approval Notice.182 However, the servicer
                                            is not required to perform an NPV re-evaluation if the borrower’s corrected income
                                            documentation shows that the borrower’s monthly mortgage payment is less than
                                            31% of monthly gross income.183 HSC or MHA Help can provide borrowers and
                                            their advocates with assistance in evaluating disputed NPV inputs, including pre-
                                            liminary NPV re-evaluations that the borrower may provide the borrower’s servicer
                                            in requesting a formal re-evaluation.184
                                                According to Treasury, if the evidence submitted by the borrower is “valid and
                                            material” (terms undefined by Treasury) to the outcome of the NPV analysis, the
                                            servicer must perform the NPV analysis again using the corrected inputs. If the
                                                                                quarterly report to congress I april 28, 2011   71




borrower identifies such “material inaccuracies” in the NPV input values, the
servicer may proceed with intermediate steps in the foreclosure process but may
not conduct a foreclosure sale until the inaccuracies are resolved. If the borrower’s
corrected information is verified and the outcome of the new NPV analysis is posi-
tive, the servicer must offer a HAMP modification in accordance with the program
guidelines.185
    A borrower who has been evaluated for HAMP but deemed ineligible may
request reconsideration for HAMP if the borrower experiences a change in circum-
stance. According to Treasury, examples of such changes in circumstance include
illness, divorce, and material changes to the borrower’s income.186

Disputed Property Valuations
Treasury guidance states that if the borrower believes the NPV test result is incor-
rect because the property valuation used by the servicer differed from the actual
market value of the property as of the date the NPV test was run, the borrower may
submit corrected valuation information and request an NPV re-evaluation. This
process includes the following steps:187

•	 The borrower provides the servicer a recent estimate of the property value with
   a reasonable basis, such as a broker’s evaluation, sales prices of comparable
   homes from the newspaper, or a Web pricing service, within 30 days from the
   date of the Non-Approval Notice.
•	 Upon receipt of the borrower’s request, the servicer performs a preliminary NPV
   re-evaluation using the borrower’s estimate (along with any other material dis-
   puted inputs). If the preliminary re-evaluation generates a positive NPV result,
   the servicer must offer the borrower an opportunity to request that the servicer
   arrange for an independent appraisal of the property, unless the servicer is will-
   ing to accept as accurate the property value estimate provided by the borrower.
   According to Treasury, the appraisal will establish the fair market value of the
   property as of the date the NPV test was run.
•	 The new appraisal must be performed by an independent third party not affiliat-
   ed with the servicer, in accordance with the Uniform Standards of Professional
   Appraisal Practice. A new appraisal is not required if the original NPV property
   value input was based on an appraisal conforming to these standards, but the
   servicer must provide a copy of that appraisal to the borrower.
•	 Within 15 days of being notified of a positive NPV result from the servicer’s
   preliminary re-evaluation, the borrower must make a $200 deposit against the
   cost of the requested re-appraisal (if necessary), with any balance of the cost of
   the appraisal either added to the borrower’s outstanding amounts due under the
   mortgage or repaid in equal installments — regardless of whether the new ap-
   praisal results in an offer for a modification.
72   special inspector general I troubled asset relief program




                                            •	 The servicer performs a final NPV re-evaluation using the appraisal value.
                                            •	 The servicer provides the final NPV outcome and a list of input values to the
                                               borrower.

                                                If a borrower disputes one or more NPV inputs in addition to the property value
                                            input, servicers may choose to validate the other disputed inputs and perform the
                                            NPV re-evaluation using changes from those validated inputs while holding the
                                            original property values constant.188 If the re-evaluation leads to a positive NPV
                                            result, the servicer may approve the borrower for a trial period plan without using
                                            a new property value or obtaining a new appraisal. If the re-evaluation renders a
                                            negative NPV result, the servicer is required to use the borrower’s property value
                                            estimate.189

                                            Escalated Case Management
                                            Treasury guidance requires participating MHA servicers to have written procedures
                                            and personnel in place to respond to borrower inquiries and disputes that consti-
                                            tute “escalated cases.” MHA Help and HSC manage such cases and assist bor-
                                            rowers or their advocates with making preliminary assessments of MHA program
                                            eligibility and resolving disputes with servicers.
                                                Examples of escalated cases include:190

                                            •	 allegations that the servicer did not assess the borrower for the applicable MHA
                                               program(s) according to program guidelines
                                            •	 inquiries regarding inappropriate program denials
                                            •	 initiation or continuance of foreclosure actions in violation of program guidelines
                                            •	 cases referred to the servicer by the HSC and MHA Help

                                               Borrowers have three options for bringing escalated cases to a servicer’s at-
                                            tention. First, a borrower may go directly to a servicer. Second, a borrower may
                                            reach a servicer through MHA Help. Third, authorized advisors, Treasury, other
                                            Federal agencies, or elected officials may escalate a case to HSC on the borrower’s
                                            behalf.191 In guidance issued on March 30, 2011, Treasury provided that general
                                            inquiries about the content of a Non-Approval Notice or the status of a borrower’s
                                            evaluation in cases where the servicer is in compliance with program timelines
                                            should not be considered escalated cases.192
                                               With respect to addressing escalated cases, servicers participating in MHA are
                                            subject to a number of requirements:193

                                            •	 Servicers must have written procedures and personnel must be in place to
                                               respond to escalated cases, and escalated cases must be handled in accordance
                                               with the timeliness requirements discussed below.
                                                                                 quarterly report to congress I april 28, 2011   73




•	 Staff must be accessible directly by telephone and email, have access to all
   relevant borrower documentation, be trained on the servicer’s case escalation
   procedures, be knowledgeable about MHA program guidelines, possess the
   necessary authority to resolve escalated cases, and be capable of sending and
   receiving documents and information in the servicing system and/or mortgage
   file to support their resolution.
•	 For those servicers required to report weekly data to the MHA Program
   Administrator, all personnel handling escalated cases must be independent of
   those who made the initial MHA-eligibility determination.
•	 They must report to HSC and MHA Help the status of referred escalated cases
   and, upon request, provide all information necessary to evaluate a borrower’s
   case. This information includes the following:194
   çç debt and income inputs, assumptions, and calculations used to evaluate the
        borrower
   çç investor/guarantor name and loan pool identification code if the reason for
        denial is “investor/guarantor not participating,” subject to mortgage trust
        disclosure laws
   çç borrower or servicer correspondence about the applicable MHA program
        evaluation
   çç servicer-constructed timeline of events in the applicable MHA program
        evaluation
•	 Effective no later than June 1, 2011, servicers must ensure they comply with
   applicable laws to protect the privacy of borrowers.195

   When a servicer receives an escalated case, MHA’s “escalation resolution pro-
cess” requires the servicer to review it against its own records and the data reported
to HAMP in order to determine the merits of the inquiry and come to a resolution.
As necessary, the servicer must review the steps taken to determine the HAMP
modification payment and NPV testing.
   The timing of each review is subject to the following requirements:196

•	 Escalated cases must be date stamped upon receipt.
•	 The servicer must acknowledge its receipt of the inquiry to the borrower in writ-
   ing within five business days.
•	 The servicer must provide the borrower a case reference name or number and
   a toll-free “escalation contact” phone number, as well as the date by which the
   servicer “will resolve the case.” This date may not exceed 30 calendar days from
   the later of the date the inquiry was received or the receipt of any required third-
   party authorizations.
74   special inspector general I troubled asset relief program




                                            •	 In the event the case is not resolved within 30 days, the servicer must send an
                                               updated status in writing via email, fax or mail at the end of the first 30 days
                                               and every 15 days thereafter until the case is resolved. There is no limit to the
                                               number of 15-day extensions the servicer may authorize.
                                            •	 The servicer may not conduct a scheduled foreclosure sale until the case is re-
                                               solved in accordance with all MHA program guidelines, but it may proceed with
                                               all other steps in the foreclosure process.

                                               Escalated cases directed to a servicer are considered to be resolved when the
                                            inquiry has been reviewed in accordance with MHA guidelines and the servicer
                                            has taken the following actions:197


                                            •	 determined in writing whether there should be any change in the original deter-
                                               mination and identified a proposed resolution within one of the existing MHA
                                               program categories
                                            •	 documented both whether any change in the original determination is required
                                               and the proposed resolution in the servicing system and/or mortgage file, includ-
                                               ing the date upon which the servicer reached the proposed resolution and the
                                               basis of said resolution
                                            •	 within 10 business days of identifying the proposed resolution, communicated to
                                               the borrower, in writing, the determination of whether any change in the original
                                               determination is appropriate and the proposed resolution and next steps (e.g., trial
                                               period plan notice, modification agreement, short sale, or deed-in-lieu agreement)
                                            •	 initiated action to implement the resolution

                                                If the case was referred to the servicer by either HSC or MHA Help, the case
                                            may not be considered resolved unless HSC or MHA Help documents its concur-
                                            rence with the proposed resolution or the confirmation of the original determina-
                                            tion.198 Current HSC and MHA Help procedures state that they target a response
                                            within two business days. According to Treasury, effective February 1, 2011, if
                                            HSC or MHA Help do not concur with the servicers’ proposed resolution and the
                                            servicer declines to change its initial decision, the case is referred directly to an on-
                                            call Treasury staff person from the Office of Financial Stability’s Homeownership
                                            Preservation Office.199 The Treasury employee will review the case notes and, if
                                            appropriate, escalate the case to a more senior point of contact at the servicer for
                                            reconsideration. There is no further avenue of appeal; ultimately the decision re-
                                            mains within the discretion of the servicer. Although Treasury maintains an ability
                                            to deny or recapture incentives due or previously paid to servicers who violate pro-
                                            gram rules, as of March 31, 2011, Treasury had not done so as a result of disagree-
                                            ment with borrower denials.200
                                                                                 quarterly report to congress I april 28, 2011   75




Borrower NPV Calculator
As required by the Dodd-Frank Act, Treasury has announced that it is developing a
publicly available web-based NPV calculator based on the HAMP NPV model (the
“Borrower NPV Calculator”). According to Treasury, the Borrower NPV Calculator
will assist borrowers in evaluating their potential eligibility for HAMP before apply-
ing as well as in reviewing the servicer’s NPV evaluation after a denial. According
to Treasury, the tool is scheduled to be available in spring 2011.201 As of March
31, 2011, it was not yet available. In the interim, borrowers or their advocates may
request that MHA Help or HSC complete the NPV analysis on their behalf.202

Ensuring Effective Servicer Compliance with MHA Programs
On February 17, 2011, Treasury provided new guidance related to servicers’ inter-
nal quality assurance (“QA”) processes. Servicers will be required by May 1, 2011,
to develop, document, and execute an effective QA program that includes indepen-
dent reviews of each MHA program in which the servicer participates. The purpose
of these reviews is to ensure that the servicer is following the SPA and program
guidelines.203
    The servicer must establish a QA team that is independent of the servicer’s
MHA management team.204 The QA team must be capable of assessing the impact
and consequences of identified risks and weaknesses in the servicer’s implementa-
tion of MHA programs (e.g., non-approvals, foreclosures, broad-based exclusions,
fraud identification). The QA review process must evaluate all components of the
servicer’s participation in an applicable MHA program, including:205

•	 availability and responsiveness of servicing personnel to borrower inquiries,
   questions, and complaints
•	 solicitation and outreach to potentially eligible borrowers
•	 determination of borrower eligibility for any MHA program
•	 pre-screening practices — verbal borrower evaluation based on income and/or
   known eligibility failures
•	 tracking and retention of borrower documentation
•	 documentation and application of servicer-specific HAFA and PRA policies
•	 compliance with the requirements concerning Borrower Notices
•	 reporting of reason codes for each loan that is evaluated and not offered a TPP
•	 adherence to prohibitions on referral of loans to foreclosure and conducting of
   scheduled foreclosure sales
•	 underwriting, including assessment of imminent default and hardship circum-
   stances, and calculation of borrower income, debt and escrow analysis, property
   valuations, and modification waterfalls
•	 assurance of the accuracy of NPV model inputs and outputs and use, manage-
   ment, and storage of NPV data
76            special inspector general I troubled asset relief program




                                                     •	 conduct of TPPs, including documentation and application of payments, credit
                                                        reporting, and conversion to permanent modifications
                                                     •	 management of escalated cases
                                                     •	 timely consideration of alternative loss mitigation options, including foreclosure
                                                        alternatives
                                                     •	 maintenance of documentation appropriate to support MHA requirements and
                                                        decisions
                                                     •	 timely and accurate reporting of MHA data, including data related to incentive
                                                        payments
                                                     •	 matching of the terms of second-lien modifications with the terms of the bor-
                                                        rower’s first-lien modification

                                                         The QA team must conduct reviews at least quarterly and distribute a report
                                                     to senior management that includes recommendations for remediation actions.206
                                                     The QA plan must include a follow-up process that ensures that management
                                                     takes necessary actions to address identified issues, including re-evaluating loans
                                                     not properly considered for MHA programs, if appropriate. These reports must be
                                                     retained by senior management and made available to Treasury’s compliance agent,
                                                     MHA-C, upon request.207

                                                     HAFA
                                                     According to Treasury, HAFA is intended to encourage servicers to provide borrow-
                                                     ers with an alternative to foreclosure by offering financial incentives to servicers
                                                     and borrowers utilizing a streamlined process for conducting short sales or deeds-
                                                     in-lieu of foreclosure as an alternative to foreclosure.208 Under HAFA, the servicer
                                                     forfeits the ability to pursue a deficiency judgment against a borrower who uses
                                                     a short sale or deed-in-lieu when the property is worth less than the outstanding
                                                     amount on the mortgage.209 HAFA provides financial incentives and reimburse-
                                                     ments for a successful short sale or deed-in-lieu of foreclosure, including a $3,000
                                                     “relocation” incentive payment to borrowers, a $1,500 incentive payment to
     Deficiency Judgment: Court order                servicers, and incentive payments to subordinate mortgage lien holders in exchange
     authorizing a lender to collect all or          for a release of the lien and the borrower’s liability.210 The program was announced
     part of an unpaid and outstanding debt          on November 30, 2009, and went into effect on April 5, 2010.211
     resulting from the borrower’s default               On December 28, 2010, Treasury loosened the provisions requiring HAFA ap-
     on the mortgage note securing a debt.           plicants to meet HAMP eligibility requirements related to monthly gross income
     A deficiency judgment is rendered               limitations and that the borrower reside in the home as a primary residence.212 As
     after the foreclosed or repossessed             a result, effective February 1, 2011, servicers are no longer required by Treasury
     property is sold when the proceeds are          to verify a borrower’s financial information or determine whether the borrower’s
     insufficient to repay the full mortgage
                                                     total monthly payment exceeds 31% of his or her gross monthly income, unless
     debt.
                                                     this verification is required by the investor. Under this program change, a borrower
                                                     must still provide sufficient evidence of hardship by completing and executing a
                                                                                  quarterly report to congress I april 28, 2011   77




Hardship Affidavit or RMA, and servicers must continue to independently verify
a borrower’s hardship. Notwithstanding these updates, servicers retain the discre-
tion to require borrowers to provide additional financial information or evidence of
hardship.213 According to Treasury’s guidance issued on March 30, 2011, servicers
must send written confirmation acknowledging a borrower’s request no later than
10 business days from the date of the request. As part of the confirmation, the
servicer must include a decision timeline, which must be no later than 45 calendar
days from the date of the request.214
    Prior to February 1, 2011, HAFA required that the property be the borrower’s
primary residence. Vacant properties were not eligible unless the borrower had
vacated the property less than 90 days before seeking HAFA assistance and the
borrower provided documentation that the borrower was required to relocate at
least 100 miles from the property to accept new employment or was transferred by
a current employer. To receive the $3,000 relocation incentive under the program,
beginning February 1, 2011, a borrower is required only to provide documenta-
tion that the property was used as the primary residence at some point within the
12 months preceding the request for assistance.215 Servicers are required to obtain
third-party verification that the property was the borrower’s primary residence at
some point within the prior 12 months, and may not rely exclusively on an affidavit
provided by the borrower. Each servicer is required to state in its HAFA policy the
materials that it will accept to validate the residency requirement.216 The property
can be vacant or even rented to a non-borrower. A borrower’s reason for relocation
and the distance of that relocation from the property are no longer relevant.217
    Also beginning February 1, 2011, borrowers no longer have to move out of their
homes in order to receive the $3,000 “relocation” incentive payment. With these
changes, after a borrower relinquishes title, the servicer can allow the borrower to
remain in the home on a rental basis (referred to as a “deed-for-lease”) or to repur-
chase the property later without affecting the borrower’s right to receive the incentive
payment.218 Servicers have the option to pay the incentive either upon successful sur-
render of the title or when the borrower vacates or repurchases the property.219
    Effective February 1, 2011, Treasury removed the individual cap of 6% of the
UPB of each subordinate lien that could be paid to subordinate lien holders; it re-
tained the cap of $6,000 on the maximum allowable aggregate payoff to those lien
holders.220 Investors will continue to receive a maximum of $2,000 for securing the
release of subordinate liens. This reimbursement will be earned on a one-for-three
matching basis. In other words, for every $3 in short sale or deed-in-lieu of foreclo-
sure proceeds that an investor pays to secure the release of a subordinate lien, the
investor will be entitled to receive $1 in reimbursement incentive payments, up to
the maximum of $2,000 per lien.221
    As of March 31, 2011, according to Treasury, approximately $19.1 million
from TARP had been paid to investors, borrowers, and servicers in connection
78   special inspector general I troubled asset relief program




                                            with 5,253 short sales or deeds-in-lieu of foreclosure transfers completed under
                                            HAFA.222 As of March 31, 2011, Treasury reported that the eight largest servicers
                                            alone had completed 123,298 short sales and deeds-in-lieu outside HAMP for bor-
                                            rowers whose HAMP trial modifications had failed, borrowers who had chosen not
                                            to participate, or were ineligible for the program.223 The greater volume of activity
                                            outside HAMP may be explained, in part, by the fees and deficiency judgments that
                                            servicers are able to collect from the borrower in non-HAFA transactions, fees, and
                                            judgments that are not available within HAFA.

                                            2MP
                                            According to Treasury, 2MP is designed to work in tandem with HAMP and to help
                                            provide relief for borrowers with second mortgages that are serviced by a participat-
                                            ing 2MP servicer. The same servicer does not have to service both liens in order
                                            for the second lien to be eligible for modification under 2MP. Under the program,
                                            when a borrower’s first lien is modified under HAMP and the servicer of the second
                                            lien is a 2MP participant, that servicer must offer to modify the borrower’s second
                                            lien. The servicer modifies the borrower’s second lien according to “a defined pro-
                                            tocol,” accepting a lump-sum payment from Treasury for full extinguishment of the
                                            second-lien principal or in exchange for a partial extinguishment and the modifica-
                                            tion of the remainder of the second lien.224 Lender Processing Services’ (“LPS”)
                                            Applied Analytics Division has been contracted by the participating servicers to
                                            match HAMP first liens with second liens.225 According to Treasury, recent en-
                                            hancements to its data matching process will allow LPS to provide 2MP servicers
                                            with additional information regarding probable matches between HAMP-modified
                                            first liens and second liens. 2MP servicers are responsible for reviewing the prob-
                                            able match data to determine whether a true match exists, and if so, confirm the
                                            match to LPS via the “confirmed lien match” process.226 Under this process, a 2MP
                                            servicer can direct LPS to match a second lien using the probable lien matches
                                            provided by LPS or sources independent of LPS (e.g., from the 2MP servicer itself
                                            when it services both the first and second liens, information provided by the bor-
                                            rower, or direct communications with the HAMP first lien servicer).227
                                                2MP relies on existing first-lien data and any additional information obtained
                                            from HAMP’s administrator. Second-lien servicers are not required to verify any of
                                            the borrower’s financial information and do not perform a separate NPV analysis in
                                            order to modify the second lien. Effective no later than June 1, 2011, 2MP ser-
                                            vicers cannot offer a 2MP trial period, permanent modification, or extinguishment
                                            without verifying that the borrower has completed and submitted the Dodd-Frank
                                            Act certification, as previously discussed.228
                                                To be eligible for a 2MP modification or partial extinguishment, the second
                                            lien must have a UPB of at least $5,000 and a pre-modification mortgage pay-
                                            ment of at least $100 as of the date of its initial evaluation for the program.229 For
                                                                                  quarterly report to congress I april 28, 2011                               79




a second-lien modification under 2MP, the servicer first capitalizes any accrued
interest and servicing advances, then reduces the interest rate, which is determined            Servicing Advances: If borrowers’
by the nature of the loan. The interest rate for amortizing second liens (those that            payments are not made promptly and
require payments of both interest and principal) decreases to 1% for the first five             in full, servicers are contractually obli-
years of the loan. If the loan is interest-only (non-amortizing), the servicer can              gated to advance the required monthly
either convert the interest-only payment to an interest-bearing equivalent at 1% or             payment amount in full to the investor.
retain the interest-only schedule and reduce the rate to 2% for the first five years.           Once a borrower becomes current
                                                                                                or the property is sold or acquired
In both cases, after the five-year period the rate increases to match the rate on the
                                                                                                through foreclosure, the servicer is
HAMP-modified first lien. When modifying the second lien, the servicer must,
                                                                                                repaid all advanced funds.
at a minimum, extend the term to match the term of the first lien but can extend
the term up to a maximum of 40 years. To the extent that there is forbearance or
principal reduction for the modified first lien, the second-lien holder must forbear
or forgive at least the same percentage on the second lien.230
    The servicer receives a $500 incentive payment upon modification of a sec-
ond lien. If a borrower’s monthly second-lien payment is reduced by 6% or more,
the servicer is eligible for an annual “pay for success” incentive payment of $250
per year for up to three years, and the borrower is eligible for an annual “pay for
performance” principal balance reduction payment of up to $250 per year for up to
five years.231 Investors receive modification incentive payments equal to an annual-
ized amount of 1.6% of the unmodified UPB, paid on a monthly basis for up to five
years. If the borrower misses three consecutive payments on the modified second
lien or if the associated first lien is no longer in good standing, no further incentive
payments are typically made to the servicer or the borrower.232 However, accord-
ing to Treasury guidance issued on March 30, 2011, the incentives can be paid
under certain conditions.233 If the second lien is fully or partially extinguished, the       Table 2.14
investor receives a payment of a percentage of the amount extinguished, using the
                                                                                               2mp compensation per dollar of
schedule shown in Table 2.14. This schedule applies only to loans that have been
                                                                                               loan principal extinguished
six months delinquent or less within the previous year. For loans that have been              Combined
                                                                                                                                      115%
more than six months delinquent within the previous 12 months, investors are paid             Loan-to-Value
                                                                                                             < 115%                   to            > 140%
                                                                                              Ratio (“CLTV”)
$0.06 per dollar of the UPB of second liens being extinguished, regardless of the                                                     140%
                                                                                              Range  a

combined LTV ratio.234 As of March 31, 2011, according to Treasury, approximately             Incentive
                                                                                                                   $0.21              $0.15         $0.10
$14.4 million in TARP funds had been paid to servicers and investors in connec-               Amounts
tion with 21,229 loan extinguishments and modifications under 2MP.235
                                                                                              Notes: Loans less than or equal to six months past due. For loans
                                                                                              that were more than six months delinquent within the previous
                                                                                              year, investors receive $0.06 per dollar of UPB extinguished in
Agency-Insured Loan Programs                                                                  compensation, regardless of the CLTV ratio.
                                                                                              a	
                                                                                                 The CLTV is the ratio of the sum of the current total UPB of the
Some mortgage loans insured or guaranteed by Federal Government agencies                         HAMP-modified first lien and the unmodified second lien divided
                                                                                                 by the property value determined in making the permanent
(FHA, VA, and RHS) are eligible for modification. Similar to HAMP, Treasury                      HAMP modification.

FHA-HAMP and RD-HAMP reduce borrowers’ monthly mortgage payments to                           Source: Treasury, “Making Home Affordable Program Handbook
                                                                                              for Servicer of Non-GSE Mortgages, Version 3.0,” 12/2/2010,
31% of their gross monthly income and require borrowers to complete trial pay-                https://www.hmpadmin.com/portal/programs/docs/hamp_
                                                                                              servicer/mhahandbook_30.pdf, accessed 12/6/2010.
ment plans before their loans are permanently modified. Subject to meeting
Treasury’s eligibility criteria, borrowers are eligible to receive a maximum $1,000
80   special inspector general I troubled asset relief program




                                            pay-for-performance compensation incentive and servicers are eligible to receive a
                                            maximum $1,000 pay-for-success compensation incentive from Treasury on mort-
                                            gages in which the monthly payment was reduced by at least 6%.236 Incentive pay-
                                            ments to servicers are paid annually for the first three years after the first anniver-
                                            sary of the first trial payment due date, as long as the loan remains in good standing
                                            and has not been fully repaid at the time the incentive is paid. Incentive payments
                                            to borrowers are paid over five years.237 Unlike HAMP, no payments are made to
                                            investors because they already have the benefit of a Government loan guarantee.238
                                            In order to participate in these programs, servicers that previously executed a SPA
                                            were required to execute — by October 3, 2010 — an Amended and Restated SPA
                                            or an additional Service Schedule that includes Treasury FHA-HAMP or RD-
                                            HAMP.239 As of March 31, 2011, according to Treasury, approximately $585,418
                                            in TARP funds had been paid to servicers and borrowers in connection with 2,174
                                            permanent FHA-HAMP modifications. Treasury stated that it could not provide
                                            SIGTARP with the amount of incentive payments and modifications completed
                                            under RD-HAMP.240
                                                VA-HAMP follows the typical HAMP modification procedure, aiming to reduce
                                            monthly mortgage payments to 31% of a borrower’s gross monthly income.241
                                            However, VA-HAMP modifications do not have a trial period. The modification
                                            agreement immediately changes the installment amount of the mortgage pay-
                                            ment.242 Treasury does not provide incentive compensation related to VA-HAMP.243
                                            VA-HAMP also does not require servicers to sign a SPA.244

                                            Home Affordable Unemployment Program (“UP”)
                                            UP, which was announced on March 26, 2010, provides temporary assistance
                                            to borrowers whose hardship is related to unemployment.245 Under the program,
                                            borrowers who meet certain qualifications can receive unemployment forbearance
                                            for a portion of their mortgage payments for at least three months, unless they find
                                            work. According to Treasury, “[s]ervicers may extend the minimum forbearance
                                            period in increments at the servicer’s discretion, in accordance with investor and
                                            regulatory guidelines.”246 As of March 31, 2011, according to Treasury, 7,397 bor-
                                            rowers were actively participating in UP.247

                                            Who Is Eligible
                                            HAMP servicers are required to offer an UP forbearance plan of at least three
                                            months to a borrower who meets minimum eligibility criteria for HAMP. In addi-
                                            tion, a borrower must:248

                                            •	 have a mortgage secured by a one- to four-unit property, one unit of which must
                                               be the borrower’s principal residence
                                            •	 have a first-lien mortgage originated on or before January 1, 2009
                                                                                 quarterly report to congress I april 28, 2011   81




•	 have a UPB for a one-unit property that is equal to or less than $729,750
   (multi-unit limits are higher)
•	 have a mortgage that was not permanently modified under HAMP
•	 have not received a previous UP forbearance
•	 have requested an UP forbearance plan before the first-lien mortgage loan was
   seriously delinquent; i.e., three months or more overdue
•	 have received unemployment benefits for up to three months before the forbear-
   ance period begins, if required by investor or regulatory guidelines (servicers
   may extend the minimum period in increments at their discretion, according to
   investor or regulatory guidelines)
•	 be unemployed and receive unemployment benefits in the month the UP for-
   bearance period becomes effective

    Borrowers enrolled in HAMP trials who lose their jobs may seek consider-
ation under UP if their mortgage loan was not seriously delinquent (i.e., before
three monthly payments are due and unpaid on the last day of the third month)
as of the due date for the first trial period payment. If an unemployed borrower in
bankruptcy proceedings requests consideration for HAMP, the servicer must first
evaluate the borrower for UP, subject to any required bankruptcy court approv-
als.249 Servicers are required to send the borrower a notice listing all the documen-
tation required for consideration for UP. Borrowers must have at least two weeks
from the date on the notice to return the documentation. Upon receipt of the
documentation, the servicer must complete the evaluation within 30 days.250 If the
borrower becomes eligible for the UP forbearance plan and accepts the plan offer,
the servicer must cancel the HAMP trial period plan. Eligible borrowers may re-
quest a new HAMP trial period plan after the UP forbearance plan is completed. A
borrower who has been determined to be ineligible for HAMP may request assess-
ment for an UP forbearance plan if he or she meets all the eligibility criteria.251 If
a borrower who is eligible for UP declines an offer for an UP forbearance plan, the
servicer is not required to offer the borrower a modification under HAMP or 2MP
while the borrower remains eligible for an UP forbearance plan.252

How UP Works
For qualifying homeowners, the mortgage payments during the forbearance period
are lowered to no more than 31% of gross monthly income, which includes unem-
ployment benefits.253 According to Treasury, “[a]t the discretion of the servicer, the
borrower’s monthly mortgage payments may be suspended in full.”254 The UP for-
bearance plan is required to last a minimum of three months, unless the borrower
becomes employed within that time.255
    If the borrower regains employment but because of reduced income still has a
hardship, the borrower must be considered for HAMP. If the borrower is eligible,
82   special inspector general I troubled asset relief program




                                            any payments missed prior to and during the period of the UP forbearance plan are
                                            capitalized as part of the normal HAMP modification process.256 If the UP forbear-
                                            ance period expires and the borrower is ineligible for HAMP, the borrower may be
                                            eligible for HAMP foreclosure alternatives, such as HAFA.257

                                            PRA	
                                            On June 3, 2010, Treasury announced that it would implement a program intended
                                            to provide investors with incentive payments to encourage them to forgive principal
                                            for significantly underwater mortgages. Although PRA did not officially take effect
                                            until October 1, 2010, servicers were permitted to begin offering PRA assistance
                                            immediately.258 PRA is applicable only to non-GSE loans and therefore does not
                                            cover loans owned, guaranteed, or insured by Freddie Mac or Fannie Mae, which
                                            have refused to participate in the program.259 Treasury reported to SIGTARP that it
                                            was unable to report any information about homeowner participation in PRA as of
                                            March 31, 2011, and that it anticipates releasing validated homeowner participa-
                                            tion totals beginning this summer.260
                                                Before PRA started, servicers were allowed to forgive principal to achieve the
                                            DTI ratio goal of 31% on a stand-alone basis or before any of the other HAMP
                                            modification steps but did not receive additional incentive payments for doing
                                            so.261 PRA gave servicers new flexibility in applying waterfall steps if they forgave at
                                            least 5% of a borrower’s UPB in conjunction with a PRA modification and added
                                            incentives for investors.262 In contrast to other HAMP programs, PRA does not
                                            require servicers to forgive principal under any circumstances, even when doing so
                                            is deemed to offer greater financial benefit to the investor.263

                                            Who Is Eligible
                                            Borrowers who meet all HAMP eligibility requirements and who owe more than
                                            115% of their home’s value are eligible for PRA.264 According to Treasury, servicers
                                            may but are not required to evaluate for PRA assistance those existing HAMP
                                            borrowers who were in HAMP permanent modifications or existing second-lien
                                            mortgage loans modified through 2MP retroactively.265 Servicers that choose to do
                                            so must develop written policies and procedures to identify existing loans that are
                                            eligible and treat them in a consistent manner.266 If a servicer chose to consider ex-
                                            isting HAMP borrowers for retroactive application of PRA, it had to evaluate those
                                            loans by January 31, 2011.267

                                            How PRA Works
                                            Principal forbearance divides a mortgage loan into two segments, one interest-
                                            bearing and the other not. The borrower continues to make regular principal and
                                            interest payments on the interest-bearing segment, but no monthly payments are
                                            due on the non-interest-bearing segment. Rather, that segment, which represents
                                                                                quarterly report to congress I april 28, 2011                                83




the principal forbearance amount, is due as an additional lump-sum or “balloon”
payment at the earlier of the sale of the property or the maturity date of the mort-
gage. Under PRA, if the borrower remains in good standing on the first, second,
and third anniversaries of the modification, the servicer reduces the principal bal-
ance in the separate forbearance account on each anniversary in installments equal
to one-third of the initial PRA forbearance amount.268
     Participating servicers must evaluate for PRA assistance every HAMP-eligible
loan that has an outstanding LTV greater than 115%. A servicer does so by running
two NPV tests — one with and one without principal forgiveness — using method-
ologies prescribed by Treasury.269 If the standard waterfall produces a positive NPV
result, the servicer must modify the loan.270 However, servicers are not required to
offer principal reduction, even when the NPV result under the alternative water-
fall using principal forgiveness is positive and exceeds the NPV result under the
standard waterfall; they are required simply to consider PRA-eligible borrowers for
such assistance.271
     The two versions of the NPV test differ in the following manner. The origi-
nal NPV test calculates investor return if the mortgage is modified according to
the standard HAMP procedures: reducing the mortgage interest rate, extending
the term of the loan, and forbearing principal. The alternative NPV test begins
by reducing the outstanding principal balance to 115% of the property’s value; if
that alone is insufficient to bring the monthly payment to 31% of the borrower’s
monthly income, then the NPV test continues with the standard HAMP modifica-
tion steps.272 This NPV test then uses the reduced outstanding principal balance
to calculate the return to investors, taking into account incentive payments and
the annual PRA principal reductions.273 Servicers that forgive at least 5% of the
borrower’s UPB have additional discretion in setting the terms of the modification
because they are permitted to extend the loan’s maturity date before reducing the
interest rate when determining the modified payment.274
                                                                                           Table 2.15
Who Gets Paid
                                                                                           PRA incentives to investors per
According to Treasury, in addition to the other incentives paid for first-lien modi-
                                                                                           dollar of loan principal
fications, investors are entitled to receive a percentage of each dollar of principal      reduced
forgiven under PRA. Incentive payments are received on the first, second, and             Mark-to-Market      105%                 115%         > 140%
third anniversaries of the modification date and are paid at the same time that the       Loan-to-Value Ratio to                   to
                                                                                          (“LTV”) Rangea      115%                 140%
previously forborne principal is forgiven.275 According to Treasury, as of March 31,
                                                                                          Incentive Amounts          $0.21         $0.15        $0.10
2011, there have been no expenditures of PRA incentives because no homeown-
ers have reached the incentive payment anniversary timeline.276 Table 2.15 shows          Notes: Loans less than or equal to six months past due. For loans
                                                                                          that were more than six months delinquent within the previous
the schedule under which investors are compensated for forgiving principal. The           year, investors receive $0.06 per dollar of UPB forgiven in com-
                                                                                          pensation, regardless of the LTV ratio.
incentive payments range from $0.06 to $0.21 per dollar of UPB forgiven, depend-          a	
                                                                                             The mark-to-market LTV is based on the pre-modified UPB of the
                                                                                             first-lien mortgage divided by the value of the property.
ing on the level to which the outstanding LTV ratio was reduced and the period of         Source: Treasury, “Modification of Loan with Principal Reduction
delinquency.277                                                                           Alternative,” 6/3/2010, https://www.hmpadmin.com/[portal/
                                                                                          docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
84             special inspector general I troubled asset relief program




                                                          The schedule provides increasing incentive payments for the additional amount
                                                      by which investors are willing to reduce a mortgage’s UPB compared with the
                                                      property’s value. This schedule is applicable only to those loans that have been
                                                      delinquent for six months or less within the previous year. For loans that have been
     Equity Share Agreement: Agreement
                                                      delinquent for longer than that period, investors are paid $0.06 per dollar of princi-
     that a homeowner will share future
                                                      pal reduction, regardless of the LTV ratio.278 Treasury states that although servicers
     increases in home value with a mort-
                                                      may reduce the mortgage principal balance below the floor of a 105% LTV ratio, no
     gage investor or other party. In the
     context of mortgage loan modifications,          PRA incentives will be paid for that portion of the principal reduction amount.279
     the investor may reduce the borrower’s               As an additional incentive, an investor may agree to reduce a borrower’s UPB as
     UPB in return for the right to share in a        part of an equity share agreement under which the borrower and investor agree to
     portion of any future rise in the home’s         share in the increase of the value of the property, under certain conditions. These
     value. An equity share agreement thus            include:280
     may provide the mortgage investor
     with a prospect of recovering its full           •	 The agreement may not require the borrower to make any equity share pay-
     investment, even if it provides a principal         ments until the loan is fully satisfied. Thus, even if the home increases in value,
     reduction to the borrower. The agree-               the borrower need not make any payments to the investor based on that in-
     ment may also provide an immediate
                                                         crease in the home’s value until the mortgage loan is repaid.
     benefit to an “underwater” borrower, yet
                                                      •	 The agreement may not include a prepayment penalty, meaning that the bor-
     still offer that borrower some prospect
                                                         rower may not be assessed fees for repaying the loan ahead of its scheduled
     of benefiting from future home price
                                                         maturity.
     appreciation.
                                                      •	 The agreement must include reasonable provisions permitting the borrower to
     For example, Dick and Jane have a                   recoup costs from improvements (for example, renovations) that increase the
     mortgage loan UPB of $115,000 on a                  home’s value.
     home that is currently worth $100,000.           •	 The investor may not receive more than 50% of any increase in property value
     Dick and Jane enter into an equity share            (after credit for improvements made by the borrower) between the date of the
     agreement with their mortgage investor              permanent modification and the date when the loan is fully satisfied. In addi-
     that reduces the UPB on their mortgage              tion, the investor may not recover more than the amount of principal reduction
     loan by $10,000, to $105,000. The                   minus the PRA investor incentive. Thus, the investor may not recover more
     investor receives a principal reduc-                than half of any future increase in the value of the home, subject to a cap
     tion incentive of $2,100. A few years
                                                         equal to the initial reduction in UPB minus incentives received by the investor
     later, Dick and Jane sell their home for
                                                         through PRA.
     $120,000, which represents $15,000
                                                      •	 The agreement must incorporate a method for independently assessing the
     over the balance from the equity share
                                                         value of the property when the loan is fully satisfied that is acceptable to both
     agreement. If the agreement calls for
     an equal division of home price gains               the investor and the borrower. In addition, the assessment of the property value
     between borrower and investor, the                  at the time of the permanent modification must be that obtained as part of the
     investor would receive half that amount,            borrower’s evaluation for a HAMP modification. Thus, the initial property valu-
     less the $2,100 in compensation                     ation must be the same as that used for the borrower’s HAMP evaluation, and
     already received ($7,500 – $2,100 =                 there must be an independent method, acceptable to both the borrower and the
     $5,400). Dick and Jane would receive                investor, to determine any increase in the home’s value when the loan is repaid.
     the balance, or $9,600.
                                                                                   quarterly report to congress I april 28, 2011          85




FHA Short Refinance/FHA2LP
On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
program, which gives borrowers the option of refinancing an underwater, non-FHA-
insured mortgage into an FHA-insured mortgage at 97.75% of the home’s value.
The original program announcement estimated TARP support for the program at up
to $14 billion.281 This amount has been revised downward to an estimate of $10.8
billion. This amount consists of (1) up to $8.0 billion to provide loss protection to
FHA on the refinanced first liens through the purchase of a letter of credit; (2) up
to $117 million in fees Treasury will incur for the availability and use of the letter of
credit; and (3) an estimated allocation of $2.7 billion to make incentive payments to
servicers and holders of existing second liens for full or partial principal extinguish-
ments under the related FHA2LP.282 FHA Short Refinance is voluntary for servicers;
therefore, not all underwater borrowers who qualify may be able to participate in the
program.283 The program was launched on September 7, 2010; FHA2LP went into
effect on September 27, 2010.284 As of March 31, 2011, according to Treasury and
HUD, 17 servicers had agreed to participate in FHA Short Refinance and 107 loans
had been refinanced under the program.285 As of that date, there had not been any
defaults on loans refinanced into FHA Short Refinance, and therefore, no losses had
been incurred and the line of credit had not been accessed.286 According to Treasury,
it had not made incentive payments and no second liens had been extinguished
under FHA2LP through March 31, 2011.287

Who Is Eligible
To be eligible for FHA Short Refinance, a homeowner must meet the following
criteria:288

•	 be current on the existing first-lien mortgage
•	 be in a negative equity position
•	 occupy the home as a primary residence
•	 qualify for the new loan under standard FHA underwriting requirements and
   have a FICO credit score of at least 500                                                      FICO Credit Score: Used by lenders to
                                                                                                 assess an applicant’s credit risk and
•	 have an existing loan that is not insured by FHA
                                                                                                 whether to extend a loan. It is deter-
•	 fully document his or her income
                                                                                                 mined by the Fair Isaac Corporation
                                                                                                 (“FICO”) using mathematical models
   According to HUD, applications are evaluated using FHA’s TOTAL Scorecard                      based on an applicant’s payment his-
(“TOTAL”). TOTAL evaluates the credit risk of FHA loans that are submitted to                    tory, level of indebtedness, types of
an automated underwriting system. It is FHA’s policy that no borrower be denied                  credit used, length of credit history,
an FHA-insured mortgage solely on the basis of a risk assessment generated by                    and newly extended credit.
TOTAL. The lender must conduct a manual underwriting review under FHA
86   special inspector general I troubled asset relief program




                                            requirements for all loan applications that receive a “Refer” rating, to assess wheth-
                                            er the borrower can be approved. If the loan information is submitted to TOTAL
                                            and scored “Refer,” the loan must be manually underwritten and the borrower must
                                            meet the following additional conditions:289

                                            •	 have a total DTI, including all recurring debt, of less than 50%
                                            •	 have a DTI for all housing-related debt (including second liens) of less than 31%
                                               after refinancing

                                                 The FHA-refinanced loan has the following characteristics:290

                                            •	 The aggregate FHA insurance and TARP-supported loss coverage for the refi-
                                               nanced loan is a maximum of 97.75% of the current value of the home.
                                            •	 The borrower’s combined mortgage debt (including all liens) is written down to
                                               a maximum of 115% of the current value of the home.
                                            •	 The existing first-lien holder must write off at least 10% of the borrower’s UPB.
                                            •	 The existing first-lien investor has the option of converting any amount of the
                                               original mortgage that is greater than 97.75% of the value of the home to a
                                               subordinated second lien for up to 115% of the current value of the home. The
                                               balance of the mortgage above 115% is extinguished. If a second lien exists, the
                                               total combined mortgage amount after the refinance does not exceed 115% of
                                               the home’s value.

                                                Additionally, to be eligible under FHA2LP, second liens must meet the follow-
                                            ing conditions:291

                                            •	   have originated on or before January 1, 2009
                                            •	   be immediately subordinate to the first lien before the FHA refinance
                                            •	   require the borrower to make a monthly payment
                                            •	   not be GSE owned or guaranteed
                                            •	   have a UPB of $2,500 or more on the day before the FHA refinance closing
                                                 date

                                            How FHA Short Refinance Works
                                            Servicers must first determine the current value of the home pursuant to FHA
                                            underwriting standards, which require a third-party appraisal by a HUD-approved
                                            appraiser. The borrower is then reviewed through TOTAL and, if necessary,
                                            referred for a manual underwriting review to confirm that the borrower’s total
                                            monthly mortgage payment (including all payments on subordinate liens) after the
                                                                                 quarterly report to congress I april 28, 2011                                  87




refinance is not greater than 31% of the borrower’s gross monthly income and the
total debt service, including all forms of household debt, is not greater than 50%.292
Next, the lien holders must forgive principal that is more than 115% of the value of
the home. Although the first-lien investors must recognize a loss as a result of the
mortgage write-down, they receive a cash payment for 97.75% of the current home
value from the proceeds of the refinance and may maintain a subordinate sec-
ond lien for up to 17.25% of that value (for a total balance of 115% of the home’s
value).293
    The 115% cap applies to all liens on the property. Under FHA2LP, existing               Table 2.16
second-lien holders may receive incentive payments to extinguish their debts in             treasury fha2lp compensation
accordance with the schedule set forth in Table 2.16, or they may negotiate with            per dollar of loan principal
the first-lien holder for a portion of the new subordinate lien loan.294 Regardless         extinguished
of which choice second-lien holders make, the total of all liens cannot exceed the          Combined Loan-            105%         115%         > 140%
                                                                                            to-Value Ratio            to           to
115% cap. By obtaining a new FHA-guaranteed loan for an amount that is closer to            (“CLTV”) Rangea           115%         140%
the current home value than their previous loan, homeowners receive the benefits            Incentive Amounts $0.21                $0.15        $0.10
of a lower monthly mortgage payment and reduction in the principal balance, im-
                                                                                            Notes: Loans less than or equal to six months past due. For
proving their opportunity to achieve positive equity in their homes.295                     loans that were more than six months delinquent within the
                                                                                            previous year, investors will receive $0.06 per dollar of loan
    If a borrower defaults on a loan refinanced under FHA Short Refinance and               principal extinguished in compensation, regardless of the CLTV
                                                                                            ratio.
submits a claim, the letter of credit purchased by TARP compensates the refinanc-           a	
                                                                                               The CLTV is the ratio of all mortgage debt to the current FHA-
                                                                                               appraised value of the property.
ing investor for a first percentage (originally announced as 7.75%, but currently
                                                                                            Source: Treasury, “Supplemental Directive 10-08: Making
approximately 13.4%) of losses on each defaulted mortgage, up to the maximum                Home Affordable Program Treasury/FHA Second Lien Program
                                                                                            (FHA2LP) to Support FHA Refinance of Borrowers in Negative
amount specified by the program guidelines.296 This percentage varies from year to          Equity Positions,” 8/6/2010, www.hmpadmin.com/[portal/
                                                                                            docs/hamp_servicer /sd1008.pdf, accessed 8/20/2010.
year and is set according to a formula derived by the Office of Management and
Budget.297 FHA thus is potentially responsible for the remaining approximately
86.6% of potential losses on each mortgage, until the earlier of either (1) the time
that the $8.0 billion letter of credit posted by Treasury is exhausted, or (2) 10 years
from the issuance of the letter of credit (October 2020), at which point FHA will
bear all of the remaining losses.298 TARP has also made an estimated allocation of
$2.7 billion under its existing servicer caps to make incentive payments, subject to
certain limitations, to (1) investors for pre-existing second-lien balances that are
partially or fully extinguished under FHA2LP and (2) servicers, in the amount of
$500 for each second-lien mortgage placed into the program.299

HFA HHF
On February 19, 2010, the Administration announced a new housing support
program, HHF, which was intended to promote “innovative” measures to protect
home values, preserve homeownership, and promote jobs and economic growth in
the states that have been hit the hardest by the housing crisis.300 The first round
of HHF was allocated $1.5 billion of the amount designated for MHA initiatives.
88   special inspector general I troubled asset relief program




                                            According to Treasury, these funds were designated for five states where the aver-
                                            age home price, determined using the FHFA Purchase Only Seasonally Adjusted
                                            Index, had decreased more than 20% from its peak. The five states were Arizona,
                                            California, Florida, Michigan, and Nevada.301 Plans to use these funds were ap-
                                            proved on June 23, 2010.302
                                                On March 29, 2010, Treasury expanded HHF to include five additional states
                                            and increased the program’s potential funding by $600 million, bringing total
                                            funding to $2.1 billion. The additional $600 million was designated for North
                                            Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
                                            these states were selected because of their high concentrations of people living in
                                            economically distressed areas, defined as counties in which the unemployment rate
                                            exceeded 12%, on average, in 2009.303 Plans to use these funds were approved on
                                            August 3, 2010.304
                                                On August 11, 2010, the Government pledged a third round of HHF funding of
                                            $2 billion in additional assistance to state HFA programs that focus on unemployed
                                            homeowners who are struggling to make their payments.305 According to Treasury,
                                            the third funding round was limited to states that have experienced unemploy-
                                            ment rates at or above the national average during the preceding 12 months.306
                                            The states designated to receive funding were Alabama, California, Florida,
                                            Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
                                            North Carolina, Ohio, Oregon, Rhode Island, South Carolina, and Tennessee.
                                            Washington, D.C. will also receive funding.307 States already covered by the first
                                            two HHF rounds of funding may use the additional resources “to support the
                                            unemployment programs previously approved by Treasury or they may opt to imple-
                                            ment a new unemployment program.”308 States seeking to tap HHF for the first
                                            time were required to submit need-specific proposals that met program guidelines
                                            to Treasury by September 1, 2010.309 Plans to use to these funds were approved on
                                            September 23, 2010.310
                                                Finally, on September 29, 2010, an additional $3.5 billion was made available
                                            to existing HHF participants, weighted by population, to be used in previously an-
                                            nounced programs.311 Table 2.17 shows the obligation of funds and funds drawn
                                            for states participating in the four rounds of HHF as of March 31, 2011. As of that
                                            date, the states had drawn down $166.1 million under the program. According to
                                            Treasury, the states had only spent a small portion of that amount, the majority of
                                            which has been for permitted expenses and costs associated with setting up their
                                            programs, not only assistance to borrowers.312
                                                                                            quarterly report to congress I april 28, 2011   89




Table 2.17

HHF Funding Allocations by State, as of 3/31/2011
Recipient                                                          Amount Obligated   Amount Drawn
Alabama                                                               $162,521,345      $8,000,000
Arizona                                                                267,766,006       6,255,000
California                                                            1,975,334,096     17,490,000
Florida                                                               1,057,839,136     10,450,000
Georgia                                                                339,255,819       8,500,000
Illinois                                                               445,603,557      11,500,000
Indiana                                                                221,694,139      22,000,000
Kentucky                                                               148,901,875       4,000,000
Michigan                                                               498,605,738       7,725,000
Mississippi                                                            101,888,323             —a
Nevada                                                                 194,026,240       2,600,000
New Jersey                                                             300,548,144       7,513,704
North Carolina                                                         482,781,786      15,000,000
Ohio                                                                   570,395,099      11,600,000
Oregon                                                                 220,042,786      15,501,070
Rhode Island                                                             79,351,573      3,000,000
South Carolina                                                         295,431,547       7,500,000
Tennessee                                                              217,315,593       6,315,593
Washington, D.C.                                                         20,697,198      1,117,430
Total                                                               $7,600,000,000    $166,067,797

Note:
a
  Mississippi had not drawn upon HHF funds as of March 31, 2011.

Source: Treasury, response to SIGTARP data call, 4/6/2011.
90               special inspector general I troubled asset relief program




                                                                            The HFAs of the eligible 18 states and Washington, D.C. each submitted
                                                                        proposals to Treasury. The purpose of these proposals, according to Treasury, was
                                                                        to “meet the unique challenges facing struggling homeowners in their respective
                                                                        housing markets.”313 Treasury required each state to estimate in its proposal the
                                                                        number of borrowers to be helped. According to Treasury, each state’s HFA will
                                                                        report program results (i.e., number of applications approved or denied and as-
                                                                        sistance provided) on a quarterly basis and post the reports on its website. Some
                                                                        states will initiate pilot programs to assess program performance before full imple-
                                                                        mentation. Treasury indicated that states can reallocate funds between programs
                                                                        and modify existing programs as needed, with Treasury approval, until funds are
                                                                        expended or returned to Treasury after December 31, 2017. Since December 16,
                                                                        2010, several states have reallocated funds and modified existing programs with
                                                                        Treasury approval. Treasury informed SIGTARP that it was unable to report on the
                                                                        number of homeowners assisted under this program or the number of applications
                                                                        approved or denied as of March 31, 2011, because Treasury did not require the
                                                                        states to report this data until April 30, 2011.314
                                                                            HHF program specifics and funding details for the participating states and the
                                                                        District of Columbia are shown in the following tables.

     HHF – State-by-State Description


     alabama
                                                                                                                                                                      Number of Borrowers
                                                                                                                                                                 to Be Helped As Estimated
     Description                                                                                                                                      Allocation          in State Proposal
     Alabama’s HFA will administer HHF funds to subsidize 100% of an eligible unemployed or underemployed
     homeowner’s current mortgage payments and all other mortgage-related expenses up to a total of 12
     consecutive months or $15,000 per household. Alabama’s HHF will provide a payment (not to exceed the
     lesser of six monthly payments or $7,500) to a participating homeowner’s servicer to bring the home-
     owner current on his or her delinquent mortgage. Eligibility will be based upon homeowner recertification                                   $135,497,105                            9,033–13,500
     and residence in the home on a monthly basis as well as continued eligibility to receive unemployment
     compensation. Assistance will cease two months after the homeowner returns to work or the property
     ceases to be the homeowner’s primary residence. Assistance will be in the form of a zero-interest loan
     that will be forgiven in equal annual increments based on the term of the loan.
     Administrative Costs                                                                                                                        $27,024,240                                          N/A
     Total                                                                                                                                     $162,521,345                            9,033–13,500

     Source: Treasury, “Fourth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/31/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/4th%20Amendment%20Alabama%20Redacted.pdf, accessed 4/6/2011.
                                                                                                                           quarterly report to congress I april 28, 2011                                 91




Arizona
                                                                                                                                                                  Number of Borrowers
                                                                                                                                                             to Be Helped As Estimated
Description                                                                                                                                       Allocation          in State Proposal
The Permanent Modification Component is designed to help homeowners avoid foreclosure by perma-
nently modifying a borrower’s primary mortgage to achieve a monthly payment that does not exceed 31-
32% of the borrower’s monthly income. Loan modifications may include principal reduction (the amount
of any principal reduction provided by HHF funds must be matched by a borrower’s lender/servicer and
will be limited to homeowners whose UPB exceeds 120% of the present market value of the property),                                           $204,800,000                              4,336–7,227
interest rate reduction, and/or term extension. Depending on the agreement with the servicer, principal
reduction may occur using a five-year forgivable loan up to $50,000 or up to $50,000 in assistance
may be provided in equal installments over a three-year period. The Permanent Modification Component
aspires to achieve a 90% success rate in modifying loans with the borrowers’ lenders/servicers.
The Second Mortgage Assistance Component is designed to help homeowners avoid foreclosure by
eliminating a second mortgage if necessary to modify the terms of the primary loan, and to reduce the
likelihood that a borrower will re-default under the primary loan as a result of the burden of a second                                         $7,500,000                             1,500–1,875
mortgage. Assistance will be limited to a maximum of $5,000 in the form of a forgivable five-year second-
lien loan. The amount of any principal reduction must be matched by a borrower’s lender/servicer.
The Unemployment Mortgage Assistance Component is designed to provide temporary mortgage relief
for qualified unemployed borrowers. Borrowers will receive assistance for a set amount of time while the
borrower searches for work or obtains job training. The funds will bring the first mortgage due by curing all
past-due payments. Additional benefits will be used to pay the full monthly mortgage payment on the first
                                                                                                                                               $36,000,000                                      1,440
lien for any amount above 31% of household monthly gross income. Assistance will be subject to a per
household cap of $50,000 or until the borrower can obtain sufficient income to resume making payments.
Funds available under the Unemployment Mortgage Assistance Component may also be applied to extin-
guish a second mortgage. Assistance will be provided in a forgivable, non-interest bearing five-year loan.
Administrative Costs                                                                                                                         $19,466,006                                          N/A
Total                                                                                                                                      $267,766,006                            7,276–10,542

Source: Treasury, “Fifth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/31/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/5th%20Amendment%20Arizona%20Redacted.pdf, accessed 4/6/2011.



california
                                                                                                                                                                  Number of Borrowers
                                                                                                                                                             to Be Helped As Estimated
Description                                                                                                                                       Allocation          in State Proposal
The Unemployment Mortgage Assistance Program is designed to help homeowners remain in their homes
and prevent avoidable foreclosures despite loss of income due to unemployment. The program subsi-
dizes mortgage payments for up to six months, paying 100% of the monthly payment up to $3,000. The
program is designed to assist borrowers who are currently eligible to receive unemployment benefits.
                                                                                                                                             $874,995,915                                     60,531
The funds will minimize past due payments and provide a borrower with additional time to find alternate
employment and replace income needed to make their mortgage payment. The program also comple-
ments other loss mitigation programs, including increasing a borrower’s eligibility for an extended written
forbearance plan and/or loan modification.
The Mortgage Reinstatement Assistance Program pays past-due first mortgage amounts up to $15,000.
Assistance will be provided as a non-interest subordinate loan secured by a junior lien against the prop-                                    $129,400,000                                       9,211
erty to be released after three years.
The Principal Reduction Program pays up to $50,000 on a one-time only basis to reduce principal owed
on qualifying properties with negative equity. The goal of the program is for the applicable lender/servicer                                 $790,488,124                                     25,135
to match the funds.
The Transition Assistance Program funds would be available on a one-time-only basis up to $5,000 per
household and could be used or layered with other CalHFA Mortgage Assistance Corporation HHF programs.
All funds will be sent to the servicer, subject to servicer/investor approval of short sale or deed-in-lieu of fore-                           $32,300,000                                      6,460
closure. Funds are intended to help the borrower pay the costs of securing new housing (e.g., rent, moving
expenses, and security deposits) and will be available for transition assistance counseling services.
Administrative Costs                                                                                                                       $148,150,057                                           N/A
Total                                                                                                                                   $1,975,334,096                                      101,337

Source: Treasury, “Fourth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/31/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/4th%20Amendment%20California%20Redacted.pdf, accessed 4/6/2011.
92               special inspector general I troubled asset relief program




     florida
                                                                                                                                                                      Number of Borrowers
                                                                                                                                                                 to Be Helped As Estimated
     Description                                                                                                                                      Allocation          in State Proposal
     The Unemployment Mortgage Assistance Program focuses on the creation of a sustainable solution to
     keep unemployed or underemployed Florida homeowners in their current homes by helping those who
     are struggling to make their current mortgage payments because of hardships sustained since purchas-
     ing their homes. Florida Housing will use HHF funds to pay up to six months of a portion of the mortgage
     payments on behalf of a qualified homeowner based on the criteria and requirements of each servicer.
     Homeowners will be required to pay 25% (or a minimum of $70) of their monthly income toward their                                           $634,938,257                                     53,000
     mortgage payment. This partnership will potentially extend the time period for homeowners to become
     re-employed at a salary that is sufficient to allow them either to resume making full mortgage payments
     or to qualify for a mortgage modification that will lower the payments and terms of the mortgage to an af-
     fordable level. Assistance will be provided in the form of a zero-interest loan forgiven in equal increments
     over a five-year period.
     The Mortgage Loan Reinstatement Program (“MLRP”) focuses on the creation of a sustainable solution
     to keep Florida homeowners in their current homes by helping those who are behind on their mortgage
     payments because of financial hardship sustained since purchasing the home, such as unemployment,
     substantial underemployment, death, divorce, or disability. HHF funds will only be used to pay, directly to
                                                                                                                                                 $317,469,129                                     53,000
     the first mortgage loan servicer, up to 180 days of arrearage payments, to include principal and interest
     plus any required escrow payments (such as taxes and insurance), late fees, and insufficient fund fees.
     The borrower must be able to resume current payments or qualify for a mortgage modification that will
     lower the payments and terms of the mortgage to an affordable level, based upon the current income.
     Administrative Costs                                                                                                                      $105,431,750                                           N/A
     Total                                                                                                                                   $1,057,839,136                                     106,000

     Source: Treasury, “Fourth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/31/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/4th%20Amendment%20Florida%20Redacted.pdf, accessed 4/6/2011.



     georgia

                                                                                                                                                                      Number of Borrowers
                                                                                                                                                                 to Be Helped As Estimated
     Description                                                                                                                                      Allocation          in State Proposal
     The Mortgage Payment Assistance (“MPA”) Program will provide loans to unemployed and substantially
     underemployed homeowners to help them remain in their homes and avoid preventable foreclosures, de-
     spite loss of income due to involuntary job loss. Loan proceeds will be used to pay mortgage payments
     to assist unemployed and underemployed homeowners while they look for new jobs or complete training
     for new careers as well as provide a one-time payment to homeowners who have found new jobs in order                                        $311,972,813                                     18,300
     to bring them current on their mortgage. Assistance will be in the form of zero-interest, nonrecourse,
     deferred-payment subordinate loans that will be forgiven 20% per year over the five-year loan. Assistance
     will last the lesser of 18 months or two months beyond the date on which the homeowner secures
     adequate employment.
     Administrative Costs                                                                                                                        $27,283,006                                          N/A
     Total                                                                                                                                     $339,255,819                                       18,300

     Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
     hhf/DocumentsContracts_Agreements/Georgia%202nd%20Amendment.pdf, accessed 4/7/2011.
                                                                                                                           quarterly report to congress I april 28, 2011                                93




illinois
                                                                                                                                                                  Number of Borrowers
                                                                                                                                                             to Be Helped As Estimated
Description                                                                                                                                       Allocation          in State Proposal
The Homeowner Emergency Loan Program (“HELP”) will assist unemployed or substantially underem-
ployed homeowners by paying their mortgages for up to 18 months while they search for employment
and/or participate in job training. Homeowners must pay the Illinois Housing Development Authority at
least 31% of household income to remain eligible. Assistance is limited to 18 months or until one month                                     $381,396,200                          16,000–27,000
after borrowers regain employment, whichever is sooner. This assistance will be in the form of a zero-
interest, non-recourse, non-amortizing 10-year loan. Total assistance per homeowner will be capped at
$25,000 in hardest-hit counties and $20,000 in all others.
Administrative Costs                                                                                                                         $64,207,357                                          N/A
Total                                                                                                                                      $445,603,557                          16,000–27,000

Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
hhf/DocumentsContracts_Agreements/Illinois%202nd%20Amendment.pdf, accessed 4/7/2011.



indiana
                                                                                                                                                                  Number of Borrowers
                                                                                                                                                             to Be Helped As Estimated
Description                                                                                                                                       Allocation          in State Proposal
The Unemployment Bridge Program (“UBP”) will provide a monthly benefit to cover a portion of first-mort-
gage payments for homeowners who are unemployed through no fault or neglect of their own, while they
seek new employment. The program will also provide assistance to homeowners who became delinquent
while unemployed and still cannot bring their mortgage current with income from their new jobs. Program                                     $182,652,552                                      16,257
assistance will be capped at 18 months in hardest-hit counties and 12 months in all others. Assistance
will be provided in the form of a forgivable, non-recourse, non-amortizing loan, secured by a junior lien on
the property. The loan will be forgiven at a rate of 20% per year in years 6 through 10 of the loan.
Administrative Costs                                                                                                                         $39,041,587                                          N/A
Total                                                                                                                                      $221,694,139                                      16,257

Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/9/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/Redacted%20-%202nd%20Amendment%20to%20HPA%20-%20Indiana.pdf, accessed 3/30/2011.



Kentucky
                                                                                                                                                                  Number of Borrowers
                                                                                                                                                             to Be Helped As Estimated
Description                                                                                                                                       Allocation          in State Proposal
The Kentucky Unemployment Bridge Program (“UBP”) will provide funds to lenders and servicers on
behalf of qualified homeowners who are delinquent on their mortgages or anticipate default due to
unemployment or substantial underemployment. Funds will be used to make 100% of the homeowner’s
monthly mortgage payment up to a limit of 12 months or $20,000. Homeowners can use the funds for                                            $133,550,000                            6,250–13,000
100 percent of the monthly payment and up to $7,500 to bring the mortgage current. Assistance will be
structured as a zero-interest, non-recourse, non-amortizing loan that will be forgiven 20% each year over
five years.
Administrative Costs                                                                                                                         $15,351,875                                          N/A
Total                                                                                                                                      $148,901,875                            6,250–13,000

Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/31/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/3rd%20Amendment%20Kentucky%20Redacted.pdf, accessed 4/6/2011.
94               special inspector general I troubled asset relief program




     michigan
                                                                                                                                                                       Number of Borrowers
                                                                                                                                                                  to Be Helped As Estimated
     Description                                                                                                                                       Allocation          in State Proposal
     The Principal Curtailment Program will provide a one-time matching fund of up to $10,000 to homeown-
     ers seeking to modify their loans. The lender/servicer must agree to provide matching forgiveness of
                                                                                                                                                   $30,400,000                                      3,044
     principal overhang and to modify the reduced loan balance. Borrowers can receive HAMP assistance prior
     to or after receiving program assistance.
     The Loan Rescue Program will provide up to $5,000 in assistance to households who can now sustain
     homeownership, catch up on delinquent payments and avoid foreclosure. The program will provide a one-                                       $108,800,000                                     21,760
     time award that will be paid directly to the lender/servicer.
     The Unemployment Mortgage Subsidy Program will assist the eligible borrower in retaining homeowner-
     ship by subsidizing the lesser of 100% or $1,500 of the first mortgage payment due after the borrower
     is approved for the program, and the lesser of 50% or $750 of the subsequent 11 mortgage payments.
     The assistance will not exceed a total of 12 consecutive months or $9,750. Homeowners will continue to                                      $313,874,464                                     24,618
     be responsible for the remaining unsubsidized portion of their monthly payment. Borrowers will also be
     eligible for up to an additional $3,000 in assistance to correct a mortgage delinquency that accumulated
     during a period of unemployment prior to receiving monthly mortgage assistance.
     Administrative Costs                                                                                                                         $45,531,274                                         N/A
     Total                                                                                                                                      $498,605,738                                      49,422

     Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/Michigan%203rd%20Amendment%20(Redacted)%20v2.pdf, accessed 1/20/2011.



     MISSISSIPPI
                                                                                                                                                                       Number of Borrowers
                                                                                                                                                                  to Be Helped As Estimated
     Description                                                                                                                                       Allocation          in State Proposal
     The Home Saver Program is offered to borrowers who are unemployed or substantially underemployed.
     The program will pay 100% of the monthly mortgage payment for up to 12 months and up to an ad-
     ditional 12 months contingent upon the borrower entering an educational program at his or her own
     expense that leads to a certification or degree from one of the state’s community colleges or a four-year
     institution if the program can be completed within 24 months. Borrowers in designated distressed coun-
                                                                                                                                                   $89,123,115                                      3,800
     ties will receive support for up to six additional months to find a job after completing their educational
     training. Assistance may also be provided to pay up to six months of arrears accumulated during a
     period of unemployment or substantial underemployment. Total assistance per borrower will be limited
     to $44,000. Borrowers with income that is 120% or more of the state’s average income and mortgages
     above $271,000 will not be eligible for the program.
     Administrative Costs                                                                                                                         $12,765,208                                         N/A
     Total                                                                                                                                      $101,888,323                                        3,800

     Source: Treasury, “Second Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/Mississippi%202nd%20Amendment.pdf, accessed 4/7/2011.
                                                                                                                           quarterly report to congress I april 28, 2011                                95




nevAda
                                                                                                                                                                  Number of Borrowers
                                                                                                                                                             to Be Helped As Estimated
Description                                                                                                                                       Allocation          in State Proposal
The goal of the First Mortgage Principal Reduction Program is to reduce first-mortgage principal balances
throughout the state of Nevada such that the loan-to-value ratios are reduced to 115% or less and, cor-
respondingly, the Principal, Interest, Taxes, and Insurance (“PITI”) payment is reduced to 31% or less of
                                                                                                                                              $75,412,387                             3,016–5,000
the homeowner’s gross income. The program will provide a principal reduction of up to $25,000, with a
1:1 match from the note holder if possible. The First Mortgage Principal Reduction Program will assist
the underemployed and income-restricted homeowner candidates.
The Second Mortgage Reduction Program is aimed at assisting borrowers with removing the impediment
of a second lien on their property such that either a refinancing or first-mortgage modification can be car-
                                                                                                                                              $36,552,962                                      2,200
ried out, thus preventing foreclosure. The maximum amount of the program will be $16,500 per dwelling
and will be a one-time payment.
The Short Sale Acceleration Program is aimed at assisting borrowers who are beginning or need to
initiate the short-sale process to relieve themselves of unsustainable mortgage burdens — even with a
material loan principal reduction. The program is expected to last for up to 24 months and will pay out
                                                                                                                                                $6,175,464                                     1,371
a maximum of $8,025 to a qualified family. The candidates for the Short Sale Acceleration program will
have been through a HAMP or similar private or GSE loan modification process and “failed” by a suf-
ficiently material level to not even qualify for Nevada’s Principal Reduction Program for first mortgages.
The Mortgage Assistance Program (“MAP”) is designed to keep first mortgages current for families with an
unemployed or underemployed wage earner. The program will provide up to the lesser of one-third of the
principal and interest payments or a $500 supplement to the family’s monthly principal and interest pay-
ments on the first-lien mortgage. For qualifying families, MAP payments may extend up to six months or up
                                                                                                                                              $50,906,871                                     16,969
to two months after employment. The payments are intended to serve as a financial bridge to unemployed
or underemployed homeowners while they attempt to upgrade their work skills. All MAP assistance will be
structured as a zero-interest, forgivable nonrecourse loan. Borrowers who sustain homeownership for 60
successive months following the end of the MAP payments will have their payment amounts forgiven.
Administrative Costs                                                                                                                         $24,978,556                                          N/A
Total                                                                                                                                      $194,026,240                          23,556–25,540

Source: Treasury, “Fourth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 4/5/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/4th%20Amendment%20Nevada%20Redacted.pdf, accessed 4/7/2011.



NEW JERSEY
                                                                                                                                                                  Number of Borrowers
                                                                                                                                                             to Be Helped As Estimated
Description                                                                                                                                       Allocation          in State Proposal
The New Jersey HomeKeeper Program will provide zero-interest mortgage loans to unemployed and
substantially underemployed homeowners unable to make their mortgage payments and in danger of los-
ing their homes through no fault of their own. Loan proceeds will be used to cover mortgage arrearages
and/or portions of monthly mortgage payments while the homeowner looks for work or trains for a new                                         $261,933,144                                       6,900
career. The maximum loan is $48,000 and may be available for up to 24 months. Assistance will be a
zero-interest, deferred-payment, nonrecourse loan forgivable at a rate of 20% per year after the 5th year
and in full at the end of the 10th year.
Administrative Costs                                                                                                                         $38,615,000                                          N/A
Total                                                                                                                                      $300,548,144                                        6,900

Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
hhf/DocumentsContracts_Agreements/New%20Jersey%202nd%20Amendment.pdf, accessed 4/7/2011.
96               special inspector general I troubled asset relief program




     NORTH CAROLINA
                                                                                                                                                                      Number of Borrowers
                                                                                                                                                                 to Be Helped As Estimated
     Description                                                                                                                                      Allocation          in State Proposal
     The Mortgage Payment Program (“MPP-1”) will provide zero-interest, nonrecourse, deferred-payment
     subordinate loans that will be forgiven after 10 years to homeowners who are unemployed or dealing
     with a temporary program-eligible hardship. Loan proceeds will be used to pay monthly mortgage and
                                                                                                                                                   $99,400,000                                      5,750
     mortgage-related expenses while homeowners seek or train for new jobs. Homeowners in hardest-hit
     counties will receive up to $36,000 (not to exceed 36 months of assistance). Homeowners in other coun-
     ties will receive up to $24,000 (not to exceed 24 months of assistance).
     The Mortgage Payment Program (“MPP-2”) will provide zero-interest, nonrecourse, deferred-payment,
     subordinate loans that will be forgiven after 10 years to homeowners who are unemployed or substan-
     tially underemployed, or in danger of losing their homes to foreclosure. Loan proceeds will be used to
     pay mortgage and mortgage-related expenses until the homeowner secures employment or completes                                              $297,381,786                                     14,090
     training for a new career. Homeowners in counties where the unemployment rate is higher than 11.3%
     will receive up to $36,000 (not to exceed 36 months of assistance). Homeowners in other counties will
     receive up to $24,000 (not to exceed 24 months of assistance).
     The Second Mortgage Refinance Program (“SMRP”) will provide zero-interest, nonrecourse, deferred-
     payment subordinate loans that will be forgiven after 10 years to homeowners who can no longer afford
                                                                                                                                                   $15,000,000                                      1,000
     their second mortgages because of recent unemployment, reduction in income, or other demonstrated
     financial hardships. The program will be offered only in hardest-hit counties.
     The Permanent Loan Modification Program (“PMLP”) will provide zero-interest, nonrecourse, deferred-
     payment subordinate loans that will be forgiven after 10 years. The goal of the program is to streamline
     methods of modifying homeowners’ loans whose mortgages have become unsustainable as a result of
                                                                                                                                                     $8,800,000                                        440
     a program-eligible hardship. The program will provide for a principal reduction with the added option of a
     rate decrease and/or term extension by the lender to achieve a monthly mortgage payment of not more
     than 31% of the homeowner’s monthly gross income.
     Administrative Costs                                                                                                                        $62,200,000                                          N/A
     Total                                                                                                                                      $482,781,786                                      21,280

     Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/North%20Carolina%203rd%20Amendment.pdf, accessed 4/7/2011.
                                                                                                                          quarterly report to congress I april 28, 2011                                  97




OHIO
                                                                                                                                                                 Number of Borrowers
                                                                                                                                                            to Be Helped As Estimated
Description                                                                                                                                      Allocation          in State Proposal
The Rescue Payment Assistance Program will provide funds to lenders/servicers on behalf of homeown-
ers who are delinquent on their mortgage payments due to a delay in receiving unemployment benefits,
insufficient income, or other unforeseen circumstances, by bringing them current on delinquent mortgage
obligations. The program will be available to eligible unemployed low- and moderate-income homeowners
                                                                                                                                            $106,904,903                                     17,835
throughout Ohio, up to $15,000. Rescue Payment Assistance will be structured as a zero-interest, non-
recourse, non-amortizing five-year loan secured by the property and repayable only from equity proceeds
of a refinance or sale. Twenty percent of the loan balance will be forgiven each year on the anniversary of
the closing, and any remaining balance will be forgiven on December 31, 2017.
The Partial Mortgage Payment Assistance Program supports unemployed homeowners by assisting
them with their mortgage payments for up to 15 months while they search for a job and/or participate
in job training. To remain eligible for the program, homeowners must pay the greater of 20% of current
household income or 25% of the homeowner’s monthly mortgage Principal, Interest, Taxes, and Insur-
ance (“PITI”) payment. The program will be available to eligible unemployed low- and moderate-income                                        $299,540,000                                     31,900
homeowners throughout Ohio, for up to $15,000. Assistance will be a zero-interest, non-recourse, non-
amortizing five-year loan secured by the property and repayable only from equity proceeds of a refinance
or sale. Twenty percent of the loan balance will be forgiven each year on the anniversary of the closing,
and any remaining balance will be forgiven on December 31, 2017.
The Mortgage Modification with Principal Reduction Program will provide assistance to homeowners who
do not qualify for existing loan modification programs due to severe negative equity. Funds will be used
to incentivize servicers/lenders to reduce a participating underwater homeowner’s mortgage principal to
the level necessary to achieve a target of a 115% LTV ratio or less and to achieve an affordable monthly
payment equal to 31% or less of household income. Servicers will provide principal forbearance or
                                                                                                                                              $22,717,635                                      2,350
forgiveness equal to or greater than the program payment. Assistance will be a five-year loan secured
by the property and repayable only from equity proceeds of a refinance or sale. Twenty percent of the
loan balance will be forgiven each year on the anniversary of the closing, and any remaining balance will
be forgiven on December 31, 2017. The program will be available to eligible low and moderate income
homeowners, up to a maximum benefit amount of $15,000 per household.
The Transition Assistance Program will assist homeowners whose mortgage payment exceeds the Af-
fordable Monthly Payment, and/or must relocate to gain meaningful employment. The program requires
lenders/servicers to consider a short sale or deed-in-lieu of foreclosure option. Borrowers willing to
                                                                                                                                              $18,013,462                                      4,900
relocate while leaving the property in sellable condition can receive a stipend. The program will be avail-
able to eligible low- and moderate-income homeowners throughout Ohio, for up to the maximum benefit of
$15,000.
The Short Refinance Program will provide up to $15,000 in funds to lenders/servicers on behalf of home-
owners who wish to refinance to a new mortgage loan in order to lower their monthly payment. Funds will
be used to reduce the principal balance of the homeowner’s mortgage, which will incentivize lenders/ser-
vicers to match the program payment in the form of principal forgiveness to, in the aggregate, reduce the                                     $50,000,000                                      6,500
homeowner’s mortgage principal balance to the level necessary to qualify for a refinance, with a target
of 95% to 100% combined LTV ratio. The program will be available to eligible low- and moderate-income
homeowners throughout Ohio, for up to the maximum benefit of $15,000.
Administrative Costs                                                                                                                        $73,219,099                                          N/A
Total                                                                                                                                     $570,395,099                                       63,485

Source: Treasury, “Fourth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/31/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/4th%20Amendment%20Ohio%20Redacted.pdf, accessed 4/6/2011.
98               special inspector general I troubled asset relief program




     OREGON
                                                                                                                                                                      Number of Borrowers
                                                                                                                                                                 to Be Helped As Estimated
     Description                                                                                                                                      Allocation          in State Proposal
     The Loan Modification Assistance Program will provide funds to assist financially distressed borrowers
     who are in the process of modifying their home loans. A one-time payment will be made to lenders/ser-
     vicers to fill a financial gap limiting the homeowner’s eligibility for a loan modification. Funds may be used
     to reduce outstanding principal, pay delinquent escrow, or strategically apply resources to ensure an
     NPV test is positive. Modification must result in a LTV ratio of not more than 125%, a total debt-to-income                                   $26,000,000                                      2,600
     ratio of up to 50%, and a mortgage payment of no more than 31% including principal, interest, taxes,
     and insurance. Program assistance will be a zero-interest, non-recourse, non-amortizing five-year loan in
     which a second lien is recorded on the property. Twenty percent of the loan will be forgiven each year it is
     outstanding. The maximum benefit per homeowner is $10,000.
     The Mortgage Payment Assistance Program will provide up to 12 months or $20,000 of mortgage pay-
     ment assistance, whichever is used first, for unemployed or substantially underemployed homeowners.
     The program aims to assist borrowers until they can obtain sufficient income to resume scheduled mort-
     gage payments, or qualify for a modified mortgage payment. Program assistance will be a zero-interest,                                      $100,000,000                                       5,000
     non-recourse, non-amortizing five-year loan in which a second lien is recorded on the property. Twenty
     percent of the loan will be forgiven each year it is outstanding. The program will provide a maximum
     benefit of $20,000 per borrower.
     The Loan Preservation Assistance Program will benefit homeowners who have regained employment or
     recovered from financial distress to ensure their loans become, or remain, affordable. Program assis-
     tance may be used to ensure successful loan modification, pay arrearages, bring a delinquent borrower                                         $57,000,000                                      2,850
     current, cure delinquent escrow, or pay other fees. Recipients may receive up to $20,000. Lenders/ser-
     vicers will receive a one-time payment on behalf of the borrower and will waive administrative fees.
     The Transition Assistance Program will be offered to homeowners at imminent risk of foreclosure. This
     program will be an alternative exit point for Mortgage Payment Subsidy Program participants who do not
     get new jobs or recover from financial distress to the extent that they would benefit from loan preserva-
                                                                                                                                                     $7,552,038                                     2,515
     tion assistance. This program will work with lender/servicer short sale and deed-in-lieu of foreclosure
     programs to help homeowners transition to affordable housing. Funds will be available on a one-time
     basis up to $3,000.
     The Loan Refinancing Assistance Pilot Program will purchase loans on behalf of homeowners with nega-
     tive equity mortgages, who have recovered from unemployment, underemployment or financial distress
     and show the capability to pay a mortgage payment based on a principal balance reflecting the market
                                                                                                                                                   $10,000,000                                         330
     value of the property. All loans will be purchased at or below the appraised value of the home and at least
     10% below the current UPB. After the loan purchase, these mortgages will be refinanced at the home’s
     current appraised value.
     Administrative Costs                                                                                                                        $19,490,748                                          N/A
     Total                                                                                                                                     $220,042,786                                       13,295

     Source: Treasury, “Fourth Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/31/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
     DocumentsContracts_Agreements/4th%20Amendment%20Oregon%20Redacted.pdf, accessed 4/6/2011.
                                                                                                                          quarterly report to congress I april 28, 2011                                  99




RHODE ISLAND
                                                                                                                                                                 Number of Borrowers
                                                                                                                                                            to Be Helped As Estimated
Description                                                                                                                                      Allocation          in State Proposal
The Loan Modification Assistance for HAMP Customers (“LMA-HAMP”) will provide up to $6,000 to allow
homeowners to qualify for HAMP modifications. Lenders/servicers must first exhaust all steps required
under the HAMP waterfall process and still not be able to modify the mortgage. Borrowers must have
monthly mortgage payments greater than 31% of their gross monthly income and must be able to docu-
ment financial hardship putting them at risk of foreclosure. Program assistance will be a zero-interest five-                                 $10,000,000                                      1,750
year loan secured by the property and forgivable at 20% per year over five years. Lenders must agree
to provide a one-to-one match and a HAMP modification agreement must be signed by the borrower and
lender. In addition, up to $30,000 in total assistance may be available through the Temporary and Imme-
diate Homeowner Assistance (“TIHA”) Program for targeted homeowners at risk of foreclosure.
The Loan Modification Assistance for non-HAMP Customers (“LMA Non-HAMP”) will provide up to $6,000
to allow homeowners to qualify for a modification. All borrowers must be able to document their financial
hardship. Program assistance will be a zero-interest five-year loan secured by the property and forgivable                                    $10,000,000                                      1,750
at 20% per year over five years. In addition, up to $30,000 in total assistance may be available through
the TIHA Program for targeted homeowners who are at risk of foreclosure.
The Temporary and Immediate Homeowner Assistance Program (“TIHA”) aims to help homeowners who
can document financial hardship caused by uncontrollable increases in housing expenses or uncontrol-
lable decreases in incomes that put them at risk of foreclosure. To qualify, these income changes must
meet a specified percentage on a sliding income scale. Assistance is capped at $6,000 from TIHA                                               $10,000,000                                      2,750
per household and limits assistance to $12,000 when combined with LMA-HAMP or LMA-Non-HAMP. In
special circumstances, up to $30,000 in aid may be available to targeted homeowners who are at risk of
foreclosure.
The Moving Forward Assistance Program (“MFA”) will offer eligible homeowners a one-time payment, up to
$4,000, to help them stay in their homes and to facilitate a short sale or deed-in-lieu of foreclosure and/
or to assist the homeowner with relocation. In special circumstances, up to $30,000 may be available                                            $3,500,000                                        875
through TIHA to facilitate a short sale or deed-in-lieu of foreclosure for homeowners of targeted affordable
properties that are at risk of foreclosure.
The Mortgage Payment Assistance–Unemployment Program will provide up to $6,000 to help unem-
ployed homeowners make partial mortgage payments while they search for a new job or participate in a
job-training program. Homeowners will be required to contribute the greater of $250 or 31% of their total
gross monthly household income toward their mortgage obligation. Homeowners can receive up to two
                                                                                                                                              $34,282,743                                      6,000
months of assistance after securing a job as long as the household limit has not been reached. Program
assistance will be a zero-interest loan secured by the property and forgivable at 20% per year over five
years. When used in combination with LMA programs and TIHA, household assistance will be capped at
$14,500. When combined with MFA, household assistance is capped at $10,000.
Administrative Costs                                                                                                                        $11,568,830                                          N/A
Total                                                                                                                                       $79,351,573                                      13,125

Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/Rhode%20Island%203rd%20Amendment.pdf, accessed 4/7/2011.
100               special inspector general I troubled asset relief program




      SOUTH CAROLINA
                                                                                                                                                                       Number of Borrowers
                                                                                                                                                                  to Be Helped As Estimated
      Description                                                                                                                                      Allocation          in State Proposal
      The Monthly Payment Assistance Program will help eligible homeowners make all of their monthly mort-
      gage payments. The goal of the program is to bridge borrowers across a gap in employment, thus giving
      them time to become self-sustaining and avoid delinquency or foreclosure. Program assistance will be                                        $157,305,000                            8,500–13,000
      capped at 24 months or $36,000, depending on the unemployment rate in the county in which the prop-
      erty is located. Assistance will be a zero-interest loan forgiven over five years at a rate of 20% per year.
      The Direct Loan Assistance Program will assist homeowners who may have fallen behind on their mort-
      gage payments, but later regained the ability to make their full payments. In many cases, arrears may
      have accrued that — until paid — place a hardship on the borrower because of the accumulation of late
                                                                                                                                                    $49,980,000                           7,000–11,000
      fees and other charges. This program aims to make these mortgages current, through a one-time pay-
      ment, so the homeowner can avoid delinquency or foreclosure. Assistance is a one-time payment and will
      be capped at $10,000 per household, depending on county unemployment.
      The HAMP Assistance Program provides funding to homeowners applying for HAMP modifications, but
      falling just short of qualifying. Program assistance will bridge the gap so that homeowners can modify
      their mortgages to affordable levels, thus helping them avoid foreclosure. The goal of this program is to                                       $5,000,000                            1,000–1,500
      help borrowers become eligible for HAMP. Assistance is a one-time payment per borrower household and
      will be capped at $5,000.
      The Second Mortgage Assistance Program offers incentives to investors or, in some cases, funding
      to acquire second liens from investors unable or unwilling to modify these liens so that homeowners
                                                                                                                                                    $11,140,563                             1,600–2,600
      can qualify for HAMP. Assistance is a one-time payment per borrower household and will be capped at
      $10,000, depending on the county’s rate of unemployment.
      The Property Disposition Assistance Program is intended to facilitate short sales and deeds-in-lieu of
      foreclosure for homeowners who are unable to stay in their homes. Funds will also be used to transition
                                                                                                                                                    $18,000,000                             3,000–6,000
      families from homeownership to renting. Assistance is a one-time payment per borrower household and
      will be capped at $5,000.
      Administrative Costs                                                                                                                        $54,005,984                                          N/A
      Total                                                                                                                                      $295,431,547                          21,100–34,100

      Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
      DocumentsContracts_Agreements/South%20Carolina%203rd%20Amendment.pdf, accessed 4/7/2011.



      TENNESSEE
                                                                                                                                                                       Number of Borrowers
                                                                                                                                                                  to Be Helped As Estimated
      Description                                                                                                                                      Allocation          in State Proposal
      The Hardest Hit Fund Program will provide loans to unemployed or substantially underemployed home-
      owners who are unable to make their payments and in danger of losing their homes to foreclosure.
      Homeowners may receive assistance for up to a maximum of 12 or18 months (depending on county).
                                                                                                                                                  $191,827,012                                     11,211
      Loans will be provided to homeowners until they secure employment or while they complete job training
      for a new career. Assistance will be capped at $20,000 for up to 18 months in targeted areas and
      $15,000 for up to 12 months in standard benefit counties.
      Administrative Costs                                                                                                                        $25,488,581                                          N/A
      Total                                                                                                                                      $217,315,593                                      11,211

      Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 12/16/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
      hhf/DocumentsContracts_Agreements/Tennessee%202nd%20Amendment.pdf, accessed 4/7/2011.
                                                                                                                           quarterly report to congress I april 28, 2011                                101




WASHINGTON, D.C.
                                                                                                                                                                  Number of Borrowers
                                                                                                                                                             to Be Helped As Estimated
Description                                                                                                                                       Allocation          in State Proposal
The HomeSaver Program will offer lump-sum or ongoing monthly payments to Unemployment Insurance
(“UI”) claimants or those who have received UI payments in the last six months. Assistance is capped at
15 months. The Lifeline component will offer a one-time payment of up to three months’ worth of mort-
gage payments to make the mortgage current. The Mortgage Assistance component will offer up to 15                                             $17,316,704                                540–1,000
months’ worth of mortgage payments. The Restore component will be available for participants needing a
one-time “catch up” payment. This will be capped at six months’ worth of mortgage payments. Maximum
assistance is capped at $32,385 per household.
Administrative Costs                                                                                                                           $3,380,494                                         N/A
Total                                                                                                                                        $20,697,198                                540–1,000

Source: Treasury, “Third Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 3/31/2011, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/
DocumentsContracts_Agreements/3rd%20Amendment%20Washington%20DC%20Redacted.pdf, accessed 4/6/2011.
102   special inspector general I troubled asset relief program




                                             FINANCIAL INSTITUTION SUPPORT PROGRAMS
                                             Treasury created six TARP programs through which it made capital investments
                                             or asset guarantees in exchange for equity in participating financial institutions.
                                             Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                             Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                             (“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
                                             three, the Systemically Significant Failing Institutions (“SSFI”) program, the
                                             Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),
                                             were available on a case-by-case basis to institutions that needed assistance beyond
                                             that available through CPP. With the expiration of TARP funding authorization, no
                                             new investments can be made through CPP, CAP, TIP, AGP, and CDCI, but dollars
                                             that are already obligated may still be expended through SSFI.
                                                 To help improve the capital structure of some struggling TARP recipients,
                                             Treasury has agreed to modify its investment by converting the preferred stock it
                                             originally received into other forms of equity, such as common stock or mandatorily
                                             convertible preferred stock.315

                                             CPP
                                             Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
                                             way to promote financial stability, maintain confidence in the financial system, and
                                             enable lenders to meet the nation’s credit needs.316 CPP was a voluntary program
                                             open to all QFIs through an application process. QFIs included U.S.-controlled
                                             banks, savings associations, and certain bank and savings and loan holding
                                             companies.317
                                                 Under CPP, Treasury used TARP funds predominantly to purchase preferred
                                             equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
                                             a 5% annual dividend for the first five years and a 9% annual dividend thereafter. In
                                             addition to the senior preferred shares, publicly traded QFIs issued Treasury war-
                                             rants to purchase common stock with an aggregate market price equal to 15% of
                                             the senior preferred share investment. Privately held QFIs issued Treasury warrants
                                             to purchase additional senior preferred stock worth 5% of Treasury’s initial pre-
                                             ferred stock investment.318 In total, Treasury invested $204.9 billion of TARP funds
                                             in 707 QFIs through CPP.319
                                                                                               quarterly report to congress I april 28, 2011   103




    According to Treasury, through March 31, 2011, CPP recipients had repaid
$179.1 billion of the principal (or 87.4%) leaving $25.9 billion outstanding. In
addition, Treasury had received from CPP recipients approximately $10.7 billion in
interest and dividends. Treasury also had received $7.4 billion through the sale of
CPP warrants that were obtained from TARP recipients.320 For a snapshot of CPP
funds outstanding and associated repayments, see Figure 2.3.

Status of Funds
Through CPP, Treasury purchased $204.9 billion in preferred stock and subordi-
nated debentures from 707 QFIs in 48 states, the District of Columbia, and Puerto
Rico. Although the 10 largest investments accounted for $142.6 billion of the
program, CPP made many smaller investments: 331 of 707 recipients received
$10.0 million or less.321 Table 2.18 and Table 2.19 show the distribution of invest-
ments by amount.




  Figure 2.3
 SNAPSHOT OF CPP FUNDS OUTSTANDING AND REPAID,
 BY QUARTER
 ($ BILLIONS)

                      198.8
                       0.4 203.2 204.6 204.9 204.9 204.9 204.9 204.9 204.9
$200
                177.5       70.1 70.7 121.9 135.8 146.9 152.8 167.9 179.1
                      198.4
                177.5
 150
     115.0                       133.1 133.9
 100 115.0
                                                     83.0
  50                                                        69.1
                                                                   58.0   52.1
                                                                                 37.0
    0                                                                                   25.9
         Q308 Q408 Q109 Q209 Q309 Q409 Q110 Q210 Q310 Q410 Q111


            CPP Funds Outstanding at Quarter’s End
            CPP Funds Repaid at Quarter’s End

 Note: Numbers affected by rounding.

 Source: Treasury, Transactions Report, 3/31/2011.
104   special inspector general I troubled asset relief program




                                             Table 2.18

                                             CPP investment summary BY TRANSACTION
                                                                                                                  Originala                   Currentb
                                             Total Investment                                               $204.9 billion                $25.9 billion
                                             Largest Capital Investment                                            25 billion                 3.5 billion
                                             Smallest Capital Investment                                    301 thousand                301 thousand
                                             Average Capital Investment                                      277.3 million                 43.5 million
                                             Median Capital Investment                                       $10.3 million                 $9.0 million

                                             Notes: Numbers affected by rounding. Data as of 3/31/2011.
                                             a
                                               These numbers are based on total Treasury CPP investment since 10/28/2008.
                                             b
                                               Amount does not include those investments that have already been repaid or are related to institutions that
                                               filed for bankruptcy protection, and is based on total investments outstanding. Treasury does not include
                                               in the number of banks with outstanding CPP investments those institutions that have repaid their CPP
                                               principal but still have warrants outstanding.

                                             Source: Treasury, Transactions Report, 3/31/2011.




                                             Table 2.19

                                             CPP investment size by institution
                                                                                                                  Originala            Outstandingb
                                             $10 billion or more                                                             6                          0
                                             $1 billion to $10 billion                                                     19                           4
                                             $100 million to $1 billion                                                    57                         33
                                             Less than $100 million                                                      625                        529
                                             Total                                                                      707                         566

                                             Notes: Data as of 3/31/2011. Data is based on the institutions’ total CPP investments. There are more than
                                             30 institutions that have received multiple investments through CPP.
                                             a
                                               These numbers are based on total Treasury CPP investment since 10/28/2008.
                                             b
                                               Amount does not include those investments that have already been repaid or are related to institutions that
                                               filed for bankruptcy protection, and is based on total investments outstanding. Treasury does not include
                                               in the number of banks with outstanding CPP investments those institutions that have repaid their CPP
                                               principal but still have warrants outstanding.


                                             Source: Treasury, Transactions Report, 3/31/2011.
                                                                                 quarterly report to congress I april 28, 2011                                105




Repayment of Funds
Through March 31, 2011, 141 banks — including 10 with the largest CPP invest-
ments — had fully repaid CPP by repurchasing all of the banks’ preferred shares.
In addition, 17 banks have partially repaid by purchasing from Treasury some of
the banks’ preferred shares.322 As of that date, Treasury had received approximately
$179.1 billion in principal repayments, leaving approximately $25.9 billion out-
standing.323 Of the repaid amount, $363.3 million was converted from CPP invest-
ments into CDCI and therefore still represents outstanding obligations to TARP.324
For a complete list of CPP share repurchases, see Appendix D: “Transaction
Detail.”                                                                                    Table 2.20

                                                                                             Missed dividend/interest
Program Administration                                                                       payments by qfis, 9/30/2009
Although Treasury’s investment authority for CPP has ended, Treasury still has               to 3/31/2011 ($ millions)
significant responsibilities for managing the existing CPP portfolio, including the                                                       Value of
                                                                                            Quarter                    Number              Unpaid
following:                                                                                  End                         of QFIs         Amountsa,b,c
                                                                                            9/30/2009                           38                75.7
•	 collecting dividends and interest payments on outstanding investments                    12/31/2009                          43              137.4
•	 monitoring the performance of outstanding investments                                    3/31/2010                           67              182.0
•	 disposing of warrants as investments are repaid                                          6/30/2010        d
                                                                                                                              109               209.7
•	 selling or restructuring Treasury’s investment in some troubled financial                9/30/2010                         137               211.3
   institutions                                                                             12/31/2010                        155               276.4
•	 selecting observers for recipients that have missed five quarterly dividend              3/31/2011                         173               277.3
   payments
                                                                                            Notes:
•	 potentially selecting directors for recipients that have missed six or more quar-        a
                                                                                              Includes unpaid cumulative dividends, non-cumulative
                                                                                            dividends, and Subchapter S interest payments but
   terly dividend payments                                                                  does not include interest accrued on unpaid cumulative
                                                                                            dividends.
                                                                                            b
                                                                                              Excludes institutions that missed payments but (i) had
                                                                                            fully “caught up” on missed payments at the end of the
Dividends and Interest                                                                      quarter reported in column 1, or (ii) had repaid their
                                                                                            investment amounts and exited CPP.
As of March 31, 2011, Treasury had received $10.7 billion in dividends and inter-           c
                                                                                               Includes institutions that missed payments and
                                                                                            (i) entered into a recapitalization or restructuring plan
est on its CPP investments.325 However, as of that date, 173 QFIs had unpaid divi-          with Treasury; (ii) Treasury sold the CPP investment to a
                                                                                            third party, or otherwise disposed of the investment to
dend or interest payments to Treasury totaling approximately $277.3 million, an in-         facilitate the sale of the institution to a third party without
                                                                                            receiving full repayment of unpaid dividends; (iii) filed for
crease from the 155 QFIs that had unpaid dividend (or interest) payments totaling           bankruptcy relief; or (iv) had a subsidiary bank fail.
                                                                                            d
                                                                                               Includes four QFIs and their missed payments not
approximately $276.4 million as of December 31, 2010. Approximately $11.6 mil-              reported in Treasury’s “Capital Purchase Program Missed
                                                                                            Dividends & Interest Payments” as of 6/30/2010 but
lion of the unpaid amounts are non-cumulative, meaning that the institution has             reported in Treasury’s “Cumulative Dividends, Interest and
                                                                                            Distributions Report” as of the same date. The four QFIs
no legal obligation to pay Treasury unless the institution declares a dividend.326          are CIT, Pacific Coast National Bancorp, UCBH Holdings,
                                                                                            Inc., and Midwest Banc Holdings, Inc.
Table 2.20 shows the number of QFIs and total unpaid amount of dividend and
                                                                                            Sources: Treasury, “Capital Purchase Program Missed
interest payments by quarter from September 30, 2009, to March 31, 2011.                    Dividends & Interest Payments,” 12/31/2010; Treasury,
                                                                                            “Cumulative Dividends, Interest and Distributions Report,”
                                                                                            6/30/2010; Treasury, responses to SIGTARP data call,
                                                                                            10/7/2009, 1/12/2010, 4/8/2010, and 6/30/2010;
                                                                                            SIGTARP, January 2010 Quarterly Report, 1/30/2010;
                                                                                            SIGTARP, April 2010 Quarterly Report, 4/20/2010;
                                                                                            SIGTARP, July 2010 Quarterly Report, 7/21/2010;
                                                                                            SIGTARP, October 2010 Quarterly Report, 10/26/2010;
                                                                                            Treasury, “Capital Purchase Program Missed Dividends &
                                                                                            Interest Payments,” 3/31/2011.
106   special inspector general I troubled asset relief program




                                             Treasury’s Policy on Missed Dividend and Interest Payments
                                             According to Treasury, it “evaluates its CPP investments on an ongoing basis with
                                             the help of outside advisors, including external asset managers. The external asset
                                             managers provide a valuation for each CPP investment” that results in Treasury
                                             assigning the institution a credit score.327 For those that have unfavorable credit
                                             scores, including any institution that has missed more than three dividend (or
                                             interest) payments, Treasury has stated that the “asset manager dedicates more
                                             resources to monitoring the institution and may talk to the institution on a more
                                             frequent basis.”328
                                                 Under the terms of the preferred shares or subordinated debentures held by
                                             Treasury as a result of its CPP investments, in certain circumstances, such as
                                             when a participant misses six dividend (or interest) payments, Treasury has the
                                             right to appoint up to two additional members to the institution’s board of direc-
                                             tors.329 Treasury has stated that it will prioritize the institutions for which it ap-
                                             points directors based on “the size of its investment, Treasury’s assessment of
                                             the extent to which new directors may make a contribution and Treasury’s ability
                                             to find appropriate directors for a given institution.”330 These directors will not
                                             represent Treasury but have the same fiduciary duties to shareholders as all other
                                             directors. They will be compensated by the institution in a manner similar to
                                             other directors.331 Treasury has engaged an executive search firm to identify suit-
                                             able candidates for board of directors positions and has begun interviewing such
                                             candidates.332
                                                 According to Treasury, it continues to prioritize institutions for nominating
                                             directors in part based on whether its investment exceeds $25 million. When
                                             Treasury’s right to nominate a new board member becomes effective, it evaluates
                                             the institution’s condition and health and the functioning of its board, including
                                             the information gathered by observers, to determine whether additional directors
                                             are necessary.333 As of March 31, 2011, Treasury had not yet appointed board mem-
                                             bers to any CPP institution’s board of directors.334
                                                 For institutions that miss five or more dividend payments, Treasury has stated
                                             that it would seek consent from such institutions to send observers to the institu-
                                             tions’ board meetings.335 According to Treasury, the observers would be selected
                                             from the Office of Financial Stability (“OFS”) and assigned to “gain a better under-
                                             standing of the institution’s condition and challenges and to observe how the board
                                             is addressing the situation.”336 Their participation would be limited to inquiring
                                             about distributed materials, presentations, and actions proposed or taken during
                                                                                     quarterly report to congress I april 28, 2011   107




the meetings, as well as addressing any questions concerning their role.337 As of
March 31, 2011, Treasury had sent observers to 38 CPP recipients.338
     SIGTARP and Treasury do not use the same methodology to report unpaid
dividend and interest payments. For example, Treasury generally excludes institu-
tions from its “non-current” reporting: (i) that have completed a recapitalization,
restructuring, or exchange with Treasury (though Treasury does report such institu-
tions as non-current during the pendency of negotiations); (ii) for which Treasury
sold the CPP investment to a third party, or otherwise disposed of the investment
to facilitate the sale of the institution to a third party; (iii) that filed for bankruptcy
relief; or (iv) that had a subsidiary bank fail.339 SIGTARP generally includes such
activity in Table 2.21 under “Value of Unpaid Amounts” with the value set as of
the date of the bankruptcy, restructuring, or other event that relieves the institu-
tion of the legal obligation to continue to make dividend and interest payments. If
a completed transaction resulted in payment to Treasury for all unpaid dividends
and interest, SIGTARP does not include the institution’s obligations under unpaid
amounts. SIGTARP, unlike Treasury, does not include in its table institutions that
have “caught up” by making previously missed dividend and interest payments.340
    According to Treasury, as of March 31, 2011, 33 QFIs had missed at least six
dividend payments (up from 19 last quarter) and 27 banks had missed five dividend
(or interest) payments totaling $137.7 million.341 Table 2.21 lists CPP recipients
that had unpaid dividend (or interest) payments as of March 31, 2011. For a com-
plete list of CPP recipients and institutions making dividend or interest payments,
see Appendix D: “Transaction Detail.”
108    special inspector general I troubled asset relief program                                                                    108



      Table 2.21

      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2011 (Continued)
                                                                               Observer
                                                                               Assigned to     Value of             Value of
                                                Dividend or        Number of   Board of         Missed               Unpaid
      Institution Name                          Payment Type        Payments   Directors1    Payments2           Amounts2, 3, 4
      Saigon National Bank                      Non-Cumulative            9                   $180,948               $180,948
      Anchor BanCorp Wisconsin, Inc.            Cumulative                8       ü          11,229,167            11,229,167
      Blue Valley Ban Corp                      Cumulative                8       ü           2,175,000              2,175,000
      Lone Star Bank                            Non-Cumulative            8       ü            339,107                 339,107
      OneUnited Bank                            Non-Cumulative            8       ü           1,206,300              1,206,300
      Seacoast Banking Corporation of Florida   Cumulative                8       ü           5,000,000              5,000,000
      United American Bank                      Non-Cumulative            8       ü            941,715                 941,715
      Centrue Financial Corporation             Cumulative                7       ü           2,858,450              2,858,450
      Citizens Bancorp                          Cumulative                7       ü            991,900                 991,900
      Dickinson Financial Corporation II        Cumulative                7       ü          13,929,860            13,929,860
      First Banks, Inc.                         Cumulative                7       ü          28,173,775            28,173,775
      Georgia Primary Bank                      Non-Cumulative            7       ü            438,725                 438,725
      Grand Mountain Bancshares, Inc.           Cumulative                7       ü            286,885                 286,885
      Idaho Bancorp                             Cumulative                7       ü            658,088                 658,088
      One Georgia Bank                          Non-Cumulative            7       ü            530,391                 530,391
      Pacific City Financial Corporation        Cumulative                7       ü           1,545,075              1,545,075
      Premier Service Bank                      Non-Cumulative            7       ü            378,472                 378,472
      Royal Bancshares of Pennsylvania, Inc.    Cumulative                7       ü           2,660,613              2,660,613
      Cascade Financial Corporation             Cumulative                6       ü           2,922,750              2,922,750
      Citizens Commerce Bancshares, Inc.        Cumulative                6       ü            515,025                 515,025
      FC Holdings, Inc.                         Cumulative                6       ü           1,720,170              1,720,170
      Heritage Commerce Corp                    Cumulative                6       ü           3,000,000              3,000,000
      Integra Bank Corporation                  Cumulative                6       ü           6,268,950              6,268,950
      Northern States Financial Corporation     Cumulative                6       ü           1,290,825              1,290,825
      Omega Capital Corp.                       Cumulative                6                    230,235                 230,235
      Pathway Bancorp                           Cumulative                6       ü            304,635                 304,635
      Premierwest Bancorp                       Cumulative                6       ü           3,105,000              3,105,000
      Ridgestone Financial Services, Inc.       Cumulative                6       ü            891,075                 891,075
      Rising Sun Bancorp                        Cumulative                6                    489,090                 489,090
      Rogers Bancshares, Inc.                   Cumulative                6       ü           2,043,750              2,043,750
      Syringa Bancorp                           Cumulative                6       ü            654,000                 654,000
      The Freeport State Bank                   Non-Cumulative            6                     24,600                  24,600
      Alliance Financial Services, Inc.*        Interest                  5                   1,006,800              1,006,800
      BNCCORP, Inc.                             Cumulative                5                   1,368,875              1,368,875
      Cecil Bancorp, Inc.                       Cumulative                5       ü            722,500                 722,500
      Central Virginia Bankshares, Inc.         Cumulative                5                    711,563                 711,563
      Citizens Bancshares Co. (MO)              Cumulative                5       ü           1,702,500              1,702,500
      Citizens Bank & Trust Company             Non-Cumulative            5                    163,500                 163,500
      Citizens Republic Bancorp, Inc.           Cumulative                5       ü          18,750,000            18,750,000
                                                                                                          Continued on next page.
109                                                                                  quarterly report to congress I april 28, 2011       109




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2011 (Continued)
                                                                                Observer
                                                                                Assigned to         Value of             Value of
                                                   Dividend or      Number of   Board of             Missed               Unpaid
      Institution Name                             Payment Type      Payments   Directors1        Payments2           Amounts2, 3, 4
      City National Bancshares Corporation         Cumulative              5                       $589,938               $589,938
      Commonwealth Business Bank                   Non-Cumulative          5                        524,625                 524,625
      Community 1st Bank                           Non-Cumulative          5                        150,219                 150,219
      Congaree Bancshares, Inc.**                  Cumulative              5                        268,515                 223,763
      Duke Financial Group, Inc.*                  Interest                5       ü              1,258,500               1,258,500
      Fidelity Federal Bancorp                     Cumulative              5                        440,512                 440,512
      First Federal Bancshares of Arkansas, Inc.   Cumulative              5       ü              1,031,250               1,031,250
      First Security Group, Inc.                   Cumulative              5                      2,062,500               2,062,500
      First Sound Bank                             Non-Cumulative          5                        462,500                 462,500
      First Southwest Bancorporation, Inc.         Cumulative              5                        374,688                 374,688
      FPB Bancorp, Inc. (FL)                       Cumulative              5                        362,500                 362,500
      Intermountain Community Bancorp              Cumulative              5                      1,687,500               1,687,500
      Intervest Bancshares Corporation             Cumulative              5       ü              1,562,500               1,562,500
      Investors Financial Corporation of Pettis
                                                   Interest                5                        419,500                 419,500
      County, Inc.*
      Monarch Community Bancorp, Inc.              Cumulative              5                        424,063                 424,063
      Pacific International Bancorp Inc            Cumulative              5                        406,250                 406,250
      Presidio Bank                                Non-Cumulative          5       ü                703,656                 703,656
      Tennessee Valley Financial Holdings, Inc.    Cumulative              5                        204,375                 204,375
      U.S. Century Bank                            Non-Cumulative          5       ü              3,422,350               3,422,350
      Bankers’ Bank of the West Bancorp, Inc.      Cumulative              4                        688,830                 688,830
      Bridgeview Bancorp, Inc.                     Cumulative              4                      2,071,000               2,071,000
      First Community Bancshares, Inc (KS)         Cumulative              4                        806,600                 806,600
      First Trust Corporation*                     Interest                4                      1,507,537               1,507,537
      FNB United Corp.                             Cumulative              4                      2,575,000               2,575,000
      Gold Canyon Bank                             Non-Cumulative          4                         84,670                  84,670
      Goldwater Bank, N.A.                         Non-Cumulative          4                        209,880                 139,920
      Gregg Bancshares, Inc.                       Cumulative              4                         44,940                  44,940
      Heritage Oaks Bancorp                        Cumulative              4                      1,050,000               1,050,000
      Madison Financial Corporation                Cumulative              4                        183,710                 183,710
      Maryland Financial Bank                      Non-Cumulative          4                         92,650                  92,650
      Midtown Bank & Trust Company**               Non-Cumulative          4                        355,738                 284,590

      Midwest Banc Holdings, Inc. ****    ,5
                                                   Cumulative              4                      4,239,200               4,239,200

      Millennium Bancorp, Inc.**                   Cumulative              4                        494,588                 395,670
                                                                                                               Continued on next page.
110     special inspector general I troubled asset relief program                                                                    110




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2011 (Continued)
                                                                                Observer
                                                                                Assigned to     Value of             Value of
                                               Dividend or          Number of   Board of         Missed               Unpaid
      Institution Name                         Payment Type          Payments   Directors1    Payments2           Amounts2, 3, 4
      Northwest Bancorporation, Inc.           Cumulative                  4                   $572,250               $572,250
      Patapsco Bancorp, Inc.                   Cumulative                  4                    327,000                 327,000
      Patterson Bancshares, Inc                Cumulative                  4                    201,150                 201,150
      Pierce County Bancorp****                Cumulative                  4                    370,600                 370,600
      Plumas Bancorp                           Cumulative                  4                    597,450                 597,450
      Prairie Star Bancshares, Inc.            Cumulative                  4                    152,600                 152,600
      Premier Bank Holding Company             Cumulative                  4                    517,750                 517,750
      Santa Clara Valley Bank, N.A.            Non-Cumulative              4                    158,050                 158,050
      Stonebridge Financial Corp.              Cumulative                  4                    598,060                 598,060
      TCB Holding Company                      Cumulative                  4                    639,330                 639,330
      The Bank of Currituck*****               Non-Cumulative              4                    219,140                 219,140
      Timberland Bancorp, Inc.                 Cumulative                  4                    832,050                 832,050
      Valley Financial Corporation             Cumulative                  4                    800,950                 800,950
      Community Bank of the Bay      6
                                               Non-Cumulative              4                     72,549                  72,549
      TIB Financial Corp*****,7                Cumulative                  4                  1,850,000               1,850,000
      1st FS Corporation                       Cumulative                  3                    613,838                 613,838
      Berkshire Bancorp, Inc.                  Cumulative                  3                    118,238                 118,238
      BNB Financial Services Corporation       Cumulative                  3                    306,563                 306,563
      Boscobel Bancorp, Inc*                   Interest                    3                    351,468                 351,468
      Broadway Financial Corporation           Cumulative                  3                    562,500                 562,500
      Capital Commerce Bancorp, Inc.           Cumulative                  3                    208,463                 208,463
      CBS Banc-Corp                            Cumulative                  3                    993,263                 993,263
      Community Bankers Trust Corporation      Cumulative                  3                    663,000                 663,000
      Covenant Financial Corporation           Cumulative                  3                    204,375                 204,375
      First Community Bank Corporation of
                                               Cumulative                  3                    400,688                 400,688
      America*****
      Harbor Bankshares Corporation**          Cumulative                  3                    425,000                 255,000
      HomeTown Bankshares Corporation          Cumulative                  3                    400,245                 400,245
      Legacy Bancorp, Inc.****                 Cumulative                  3                    206,175                 206,175
      Market Bancorporation, Inc.              Cumulative                  3                     84,203                  84,203
      Mercantile Bank Corporation              Cumulative                  3                    787,500                 787,500
      MS Financial, Inc.                       Cumulative                  3                    315,662                 315,662
      Pinnacle Bank Holding Company            Cumulative                  3                    179,370                 179,370
      Premier Financial Corp*                  Interest                    3                    399,464                 399,464
      Provident Community Bancshares, Inc.     Cumulative                  3                    347,475                 347,475
      Sonoma Valley Bancorp****                Cumulative                  3                    353,715                 353,715
      The Connecticut Bank and Trust Company   Non-Cumulative              3                    178,573                 178,573
      The Queensborough Company                Cumulative                  3                    490,500                 490,500
                                                                                                           Continued on next page.
111                                                                                 quarterly report to congress I april 28, 2011       111




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2011 (Continued)
                                                                               Observer
                                                                               Assigned to         Value of             Value of
                                                  Dividend or      Number of   Board of             Missed               Unpaid
      Institution Name                            Payment Type      Payments   Directors1        Payments2           Amounts2, 3, 4
      Treaty Oak Bancorp, Inc.*****               Cumulative              3                       $135,340               $135,340
      Trinity Capital Corporation                 Cumulative              3                      1,452,660               1,452,660
      Western Community Bancshares, Inc.          Cumulative              3                        298,013                 298,013

      The South Financial Group, Inc.*****   ,7
                                                  Cumulative              3                     13,012,500             13,012,500

      Blue Ridge Bancshares, Inc.                 Cumulative              2                        327,000                 327,000
      Cadence Financial Corporation*****          Cumulative              2                      1,650,000               1,650,000
      CalWest Bancorp                             Cumulative              2                        126,885                 126,885
      CB Holding Corp.                            Cumulative              2                        112,120                 112,120
      Central Federal Corporation                 Cumulative              2                        180,625                 180,625

      CIT Group Inc. ****    ,8
                                                  Cumulative              2                     29,125,000             29,125,000

      Colonial American Bank                      Non-Cumulative          2                          15,655                 15,655
      CSRA Bank Corp.                             Cumulative              2                          65,400                 65,400

      FBHC Holding Company*, *****                Interest                2                        123,127                 123,127

      First Financial Service Corporation         Cumulative              2                        500,000                 500,000
      First United Corporation                    Cumulative              2                        750,000                 750,000
      Florida Bank Group, Inc.                    Cumulative              2                        557,855                 557,855
      Fort Lee Federal Savings Bank               Non-Cumulative          2                          35,425                 35,425
      Fresno First Bank                           Non-Cumulative          2                          33,357                 33,357
      Great River Holding Company*                Interest                2                        352,380                 352,380
      Green Bankshares, Inc.                      Cumulative              2                      1,806,950               1,806,950
      Liberty Shares, Inc.                        Cumulative              2                        470,880                 470,880
      Marine Bank & Trust Company                 Non-Cumulative          2                          81,750                 81,750
      Old Second Bancorp, Inc.                    Cumulative              2                      1,825,000               1,825,000
      Pacific Coast National Bancorp****          Cumulative              2                        112,270                 112,270
      Pacific Commerce Bank**                     Non-Cumulative          2                        142,596                  87,279
      Premier Financial Bancorp, Inc.             Cumulative              2                        556,300                 556,300
      Regent Bancorp, Inc**                       Cumulative              2                        408,008                 272,005
      Santa Lucia Bancorp                         Cumulative              2                        100,000                 100,000
      Spirit BankCorp, Inc.                       Cumulative              2                        817,500                 817,500
      Tidelands Bancshares, Inc                   Cumulative              2                        361,200                 361,200
      Alpine Banks of Colorado                    Cumulative              1                        953,750                 953,750
      Bank of the Carolinas Corporation           Cumulative              1                        164,738                 164,738
      Carolina Bank Holdings, Inc.                Cumulative              1                        200,000                 200,000
      Clover Community Bankshares, Inc.           Cumulative              1                          40,875                 40,875
      Coastal Banking Company, Inc.               Cumulative              1                        124,375                 124,375
      Community Financial Shares, Inc.            Cumulative              1                          94,978                 94,978
                                                                                                              Continued on next page.
112             special inspector general I troubled asset relief program




      CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2011 (Continued)
                                                                                 Observer
                                                                                 Assigned to        Value of             Value of
                                               Dividend or           Number of   Board of            Missed               Unpaid
      Institution Name                         Payment Type           Payments   Directors1       Payments2           Amounts2, 3, 4
      Crescent Financial Corporation           Cumulative                   1                      $311,250               $311,250
      Eastern Virginia Bankshares, Inc.        Cumulative                   1                       300,000                 300,000
      Exchange Bank                            Non-Cumulative               1                       585,875                 585,875
      Greer Bancshares Incorporated            Cumulative                   1                       136,163                 136,163
      HCSB Financial Corporation               Cumulative                   1                       161,188                 161,188
      Highlands Independent Bancshares, Inc.   Cumulative                   1                        91,288                  91,288
      HMN Financial, Inc.                      Cumulative                   1                       325,000                 325,000
      MetroCorp Bancshares, Inc.**             Cumulative                   1                     2,250,000                 562,500
      Monadnock Bancorp, Inc.                  Cumulative                   1                        24,995                  24,995
      Naples Bancorp, Inc.                     Cumulative                   1                        54,500                  54,500
      National Bancshares, Inc.                Cumulative                   1                       336,043                 336,043
      Ojai Community Bank                      Non-Cumulative               1                        28,340                  28,340
      Patriot Bancshares, Inc.                 Cumulative                   1                       354,770                 354,770
      Princeton National Bancorp, Inc.         Cumulative                   1                       313,538                 313,538
      Private Bancorporation, Inc.             Cumulative                   1                       108,335                 108,335
      Reliance Bancshares, Inc.                Cumulative                   1                       545,000                 545,000

      Security State Bank Holding-Company*, ** Interest                     1                       901,994                 225,499

      SouthCrest Financial Group, Inc.         Cumulative                   1                       175,763                 175,763
      Southern Community Financial Corp.       Cumulative                   1                       534,375                 534,375
      Tifton Banking Company****               Non-Cumulative               1                        51,775                  51,775
      UCBH Holdings, Inc.****                  Cumulative                   1                     3,734,213               3,734,213
      United Community Banks, Inc.             Cumulative                   1                     2,250,000               2,250,000
      White River Bancshares Company           Cumulative                   1                       228,900                 228,900


      Exchanges

      Central Pacific Financial Corp.***,9     Cumulative                   6                    10,125,000

      Pacific Capital Bancorp***,9             Cumulative                   5       ü            13,547,550

      Sterling Financial
                                               Cumulative                   4                    18,937,500             18,937,500
      Corporation (WA) ***,9

      Hampton Roads Bankshares, Inc.***,9      Cumulative                   4                     4,017,350               4,017,350

      Independent Bank
                                               Cumulative                   4                     4,890,746               3,090,746
      Corporation***, **

      First BanCorp (PR)**, ***                Cumulative                   3       ü            32,077,176             12,077,176

      Superior Bancorp Inc.***                 Cumulative                   3                     2,587,500               2,587,500


      Total                                                                                    $325,770,431         $277,287,787
                                                                                                               Continued on next page.
                                                                                                                               quarterly report to congress I april 28, 2011                 113




CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2011 (Continued)
                                                         Observer
                                                         Assigned to         Value of                                                                                     Value of
                              Dividend or    Number of   Board of             Missed                                                                                       Unpaid
CPP-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2011   (Continued)
Institution Name              Payment Type    Payments   Directors1       Payments2                                                                                    Amounts2, 3, 4
Notes: Numbers may not total due to rounding. Approximately $11.6 million of the $277.3 million in unpaid CPP dividend/interest payments are non-cumulative, and Treasury has no legal
right to missed dividends that are non-cumulative.

* Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
** Partial payments made after the due date.
*** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For
an exchange of mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
**** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For
bank failures, Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the
contrary.
1
  For First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the
institution to assign an observer to the board of directors.
2
  Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
3
  Excludes institutions that missed payments but (i) have fully caught up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the
Capital Purchase Program.
4
  Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party
purchase its CPP investment from Treasury, or (iii) are in, or have completed, bankruptcy proceedings or its subsidiary bank failed.
5
  For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed
payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
6
  Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed pay-
ments to zero.
7
  For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
8
  For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed
payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
9
  Completed exchanges:
- The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial, did not account for unpaid dividends. The number of missed payments
and unpaid amounts reflect the figures Treasury reported prior to the exchange.
- The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp, did account for unpaid dividends, thereby eliminat-
ing any unpaid amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

Sources: Treasury, “Capital Purchase Program Missed Dividends & Interest Payments,” 3/31/2011; Treasury, responses to SIGTARP data call, 1/7/2011 and 4/6/2011; SIGTARP
Quarterly Report to Congress 1/30/2010; SIGTARP Quarterly Report to Congress 4/20/2010.




Warrant Disposition
As required by EESA, Treasury receives warrants when it invests in troubled assets
from financial institutions, with an exception for certain small institutions. With
                                                                                                                                                    Exercise Price: Preset price at which
respect to financial institutions with publicly traded securities, these warrants give
                                                                                                                                                    a warrant holder may purchase each
Treasury the right, but not the obligation, to purchase a certain number of shares of                                                               share. For warrants in publicly traded
common stock at a predetermined price.342 Because the warrants rise in value as a                                                                   institutions issued through CPP, this
company’s share price rises, they permit Treasury (and the taxpayer) to benefit from                                                                was based on the average stock price
a firm’s potential recovery.343 For publicly traded institutions, the warrants received                                                             during the 20 days before the date
by Treasury under CPP allowed Treasury to purchase additional shares of common                                                                      that Treasury granted preliminary CPP
stock in a number equal to 15% of the value of the original CPP investment at a                                                                     participation approval.
specified exercise price.344 Treasury’s warrants constitute assets with a fair market
value that Treasury estimates using relevant market quotes, financial models, and/
                                                                                                                                                For more information on warrant disposi-
or third-party valuations.345
                                                                                                                                                tion, see SIGTARP’s audit report of May
    For publicly traded participants, Treasury received warrants to purchase com-
                                                                                                                                                10, 2010, “Assessing Treasury’s Process
mon stock that expire 10 years from the date of the CPP investment. As of March                                                                 to Sell Warrants Received from TARP
31, 2011, Treasury had not exercised any of these warrants.346 For privately held                                                               Recipients.”
institutions, Treasury received warrants to purchase additional preferred stock or
debt in an amount equal to 5% of the CPP investment. Treasury exercised these
warrants immediately.347
114   special inspector general I troubled asset relief program                                                                             114




                                             Repurchase of Warrants by Financial Institutions
                                             Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
                                             to buy back its warrants. As of March 31, 2011, 57 publicly traded institutions had
                                             bought back $3.6 billion worth of warrants, of which $439.4 million was purchased
                                             this quarter. As of that same date, 35 privately held institutions, the warrants of
                                             which had been immediately exercised, bought back the resulting additional pre-
                                             ferred shares for a total of $14.3 million, of which $1.6 million was bought back
                                             this quarter.348 Table 2.22 lists publicly traded institutions that have repaid TARP
                                             and repurchased warrants as of March 31, 2011. Table 2.23 lists privately held
                                             institutions that had done so as of the same date.349



                               Table 2.22

                               CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 3/31/2011
                                                                                                                             Amount of
                                                                                            Number of Warrants             Repurchase
                               Repurchase Date         Institution                               Repurchased                ($ Thousands)

                               7/22/2009               The Goldman Sachs Group, Inc.                12,205,045            $1,100,000.0
                               8/12/2009               Morgan Stanley                               65,245,759               950,000.0
                               7/29/2009               American Express Company                     24,264,129               340,000.0
                               3/16/2011               Fifth Third Bancorp                          43,617,747               280,025.9
                               7/7/2010                Discover Financial Services                  20,500,413               172,000.0
                               7/15/2009               U.S. Bancorp                                 32,679,102               139,000.0
                               8/5/2009                BNYM                                         14,516,129               136,000.0
                               8/26/2009               Northern Trust Corporation                    3,824,624                 87,000.0
                               3/9/2011                First Horizon National Corporation           14,842,321                 79,700.0
                               7/22/2009               BB&T Corp.                                   13,902,573                 67,010.4
                               7/8/2009                State Street Corporationa                     2,788,104                 60,000.0
                               1/19/2011               Huntington Bancshares                        23,562,994                 49,100.0
                               4/7/2010                City National Corporation                     1,128,668                 18,500.0
                               1/26/2011               East West Bancorp, Inc.                       1,517,555                 14,500.0
                               9/8/2010                Fulton Financial Corporation                  5,509,756                 10,800.0
                               12/30/2009              Trustmark Corporation                         1,647,931                 10,000.0
                               6/16/2010               SVB Financial Group                            354,058                   6,820.0
                               1/19/2011               Susquehanna Bancshares, Inc.                  3,028,264                  5,269.2
                               5/27/2009               FirstMerit Corporation                         952,260                   5,025.0
                               9/8/2010                The Bancorp, Inc.                              980,203                   4,754.0
                               3/31/2010               Umpqua Holdings Corp.                         1,110,898                  4,500.0
                               2/23/2011               Sandy Spring Bancorp, Inc.                     651,547                   4,450.0
                               3/9/2011                1st Source Corporation                         837,947                   3,750.0
                               9/1/2010                Columbia Banking System, Inc.                  398,023                   3,301.6
                                                                                                                 Continued on next page.
115                                                                                                                quarterly report to congress I april 28, 2011   115




      CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 3/31/2011                                                             (continued)
                                                                                                                                                Amount of
                                                                                          Number of Warrants                                  Repurchase
      Repurchase Date                  Institution                                             Repurchased                                     ($ Thousands)

      6/24/2009                        First Niagara Financial Group                                       953,096                                $2,700.0
      11/24/2009                       Bank of the Ozarks, Inc.                                            379,811                                  2,650.0
      5/27/2009                        Independent Bank Corp.                                              481,664                                  2,200.0
      5/27/2009                        Sun Bancorp, Inc.                                                 1,620,545                                  2,100.0
      3/2/2011                         Washington Banking Company                                          246,082                                  1,625.0
      4/7/2010                         First Litchfield Financial Corporation                              199,203                                  1,488.0
      9/30/2009                        Bancorp Rhode Island, Inc.                                          303,083                                  1,400.0
      6/24/2009                        SCBT Financial Corporation                                          192,967                                  1,400.0
      10/28/2009                       CVB Financial Corp                                                  834,761                                  1,307.0
      5/20/2009                        Iberiabank Corporation                                              813,008                                  1,200.0
      5/08/2009                        Old National Bancorp                                                138,490                                  1,200.0
      6/24/2009                        Berkshire Hills Bancorp, Inc.                                       226,330                                  1,040.0
      1/5/2011                         First PacTrust Bancorp, Inc.                                        280,795                                  1,003.2
      12/23/2009                       WesBanco, Inc.                                                      439,282                                     950.0
      6/17/2009                        Alliance Financial Corporation                                      173,069                                     900.0
      12/30/2009                       Flushing Financial Corporation                                      375,806                                     900.0
      6/30/2009                        HF Financial Corp., Sioux Falls                                     302,419                                     650.0
      12/16/2009                       Wainwright Bank & Trust Company                                     390,071                                     568.7
      12/16/2009                       LSB Corporation                                                     209,497                                     560.0
                                       Union First Market Bankshares Corpo-
      12/23/2009                                                                                           211,318                                     450.0
                                       ration (Union Bankshares Corporation)
      2/3/2010                         OceanFirst Financial Corp.                                          190,427                                     430.8
      9/1/2010                         Citizens & Northern Corporation                                     194,794                                     400.0
      9/30/2010                        South Financial Group Inc.b                                     10,106,796                                      400.0
      12/1/2010                        Central Jersey Bancorp                                              268,621                                     319.7
      6/24/2009                        Somerset Hills Bancorp                                              163,065                                     275.0
      2/10/2010                        Monarch Financial Holdings, Inc.                                    132,353                                     260.0
      7/28/2010                        Bar Harbor Bankshares                                                 52,455                                    250.0
      9/2/2009                         Old Line Bancshares, Inc.                                           141,892                                     225.0
      10/28/2009                       Centerstate Banks of Florida Inc.                                   125,413                                     212.0
      10/14/2009                       Manhattan Bancorp                                                     29,480                                      63.4
      9/30/2010                        TIB Financialb                                                    1,106,389                                       40.0
      3/4/2011                         Cadence Financial Corporationc                                    1,145,833                                           —
      1/28/2011                        Capital Bank Corporation         c
                                                                                                           749,619                                           —
      Total                                                                                         313,244,484                            $3,580,673.9

      Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients.
      Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
      a
        State Street Corporation reduced its original amount of warrants issued through a qualified equity offering.
      b
        Warrant sales to third parties.
      c
        Treasury sold its TARP investment to a third party and assigned a value of zero to the warrant portion.

      Sources: Treasury, Transactions Report, 1/4/2011 and 3/31/2011; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, and 4/6/2011.
116   special inspector general I troubled asset relief program                                                                                                                         116



                                             Table 2.23

                                             CPP REPURCHASES OF PREFERRED SHARES RESULTING FROM IMMEDIATE
                                             EXERCISE OF WARRANTS (PRIVATE), AS OF 3/31/2011
                                                                                                                                         Number of                  Amount of
                                             Repurchase                                                                                   Warrants                Repurchase
                                             Date                   Institution                                                        Repurchased              ($ Thousands)
                                             9/29/2010              Community Bancshares of Mississippi, Inc.a                             2,600,000                    $2,600.0
                                             9/29/2010              BancPlus Corporation        a
                                                                                                                                           2,400,000                      2,400.0
                                             3/16/2011              Stockmens Financial Corporation                                           778,000                        778.0
                                             9/29/2010              State Capital Corporation           a
                                                                                                                                              750,000                        750.0
                                             4/15/2009              Centra Financial Holdings, Inc.                                           750,000                        750.0
                                             5/27/2009              First Manitowoc Bancorp, Inc.                                             600,000                        600.0
                                             6/16/2010              First Southern Bancorp, Inc.                                              545,000                        545.0
                                             9/29/2010              Security Capital Corporationa                                             522,000                        522.0
                                             12/23/2009             Midland States Bancorp, Inc.                                              509,000                        509.0
                                             11/18/2009             1st United Bancorp, Inc.                                                  500,000                        500.0
                                             9/29/2010              PSB Financial Corporationa                                                464,000                        464.0
                                             2/16/2011              Georgia Commerce Bancshares, Inc.                                         435,000                        435.0
                                             9/17/2010              First Eagle Bancshares, Inc.a, b                                          375,000                        375.0
                                             11/24/2010             Leader Bancorp, Inc.                                                      292,000                        292.0
                                             4/22/2009              First ULB Corp.                                                           245,000                        245.0
                                             9/29/2010              First Vemon Bankshares, Inc.a                                             245,000                        245.0
                                             12/23/2008             Capital Bancorp, Inc.                                                     235,000                        235.0
                                             2/6/2009               The Bank of Currituckc                                                    201,000                        201.0
                                             4/21/2010              Hilltop Community Bancorp, Inc.                                           200,000                        200.0
                                             5/19/2010              Texas National Bancorporation                                             199,000                        199.0
                                             1/23/2009              California Oaks State Bank                                                165,000                        165.0
                                             2/15/2011              Treaty Oak Bancorp, Inc.                                                  163,000                        163.0
                                             6/16/2010              FPB Financial Corp.                                                       162,000                        162.0
                                             10/6/2010              Frontier Bancshares, Inc.b                                                150,000                        150.0
                                             9/24/2010              First Choice Bank      a
                                                                                                                                              110,000                        110.0
                                             12/29/2009             Surrey Bancorp/ Surrey Bank & Trust                                       100,000                        100.0
                                             12/11/2009             Nationwide Bankshares, Inc.b                                              100,000                        100.0
                                             9/29/2010              Lafayettea                                                                100,000                        100.0
                                             3/9/2011               FBHC Holding Company            b
                                                                                                                                                91,000                         91.0
                                             1/26/2011              American Premier Bancorp                                                    90,000                         90.0
                                             6/26/2009              Signature Bancshares, Inc.b                                                 85,000                         85.0
                                             4/14/2010              First State Bank of Mobeetie                                                37,000                         37.0
                                             11/10/2009             Midwest Regional Bancorp, Inc.                                              35,000                         35.0
                                             7/14/2010              Green City Bancshares, Inc.                                                 33,000                         33.0
                                             3/13/2009              Haviland Bancshares, Inc.                                                   21,000                         21.0
                                                                    Total                                                               14,287.000                   $14,287.0

                                             Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of
                                             warrants issued by non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury
                                             may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
                                             a
                                               	Transferred to CDCI.
                                             b
                                               	S-Corporation Institution: issued subordinated debt instead of preferred stock.
                                             c
                                               	For The Bank of Currituck, the Transaction Report listed “N/A” for the final disposition date, description, and proceeds.

                                             Sources: Treasury, Transactions Report, 1/4/2011 and 3/31/2011; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011,
                                             and 4/6/2011.
117                                                                                      quarterly report to congress I april 28, 2011           117




      Treasury Warrant Auctions
      If Treasury and the repaying QFI cannot agree upon the price for the institution
      to repurchase its warrants, Treasury may conduct a public offering to auction the
      warrants.350 In November 2009, Treasury began using a “modified Dutch auction”                  Dutch Auction: For a Treasury warrant
      to sell the warrants publicly.351 On the announced auction date, potential investors            auction (which has multiple bidders bid-
                                                                                                      ding for different quantities of the asset)
      (which may include the CPP recipient) submit bids to the auction agent that man-
                                                                                                      the accepted price is set at the lowest
      ages the sale (for CPP-related warrants, Deutsche Bank) at specified increments
                                                                                                      bid of the group of high bidders whose
      above a minimum price set by Treasury.352 Once the auction agent receives all bids,
                                                                                                      collective bids fulfill the amount of shares
      it determines the final price and distributes the warrants to the winning bidders.353
                                                                                                      offered by Treasury. As an example, three
          Treasury conducted four warrant auctions this quarter, two for Citigroup and                investors place bids to own a portion of
      one each for Boston Private Financial Holdings, Inc., and Wintrust Financial                    100 shares offered by the issuer:
      Corporation, raising $257.6 million, $54.6 million, $6.4 million, and $26.0 million,
      respectively, for total gross proceeds of $344.6 million.354 The auction of Citigroup           Bidder A wants 50 shares at $4/share.
      A warrants was for the warrants Treasury received for its investment in Citigroup               Bidder B wants 50 shares at $3/share.
      under TIP and its asset guarantee under AGP, and the B warrant auction was for                  Bidder C wants 50 shares at $2/share.
      the warrants it received under CPP.355 Through March 31, 2011, Treasury had held
      20 public auctions for warrants it received under CPP, TIP, and AGP, raising a total            The seller selects Bidders A and B as the
      of approximately $5.4 billion.356 Final closing information for all auctions is shown           two highest bidders, and their collective
                                                                                                      bids consume the 100 shares offered.
      in Table 2.24.
                                                                                                      The winning price is $3, which is what
                                                                                                      both bidders pay per share. Bidder C’s
      Restructurings, Recapitalizations, Exchanges, and Sales of CPP Investments
                                                                                                      bid is not filled.
      Certain CPP institutions continue to experience high losses and financial difficul-
      ties, resulting in inadequate capital or liquidity. To avoid insolvency or improve the          Auction Agent: Firm (such as an invest-
      quality of capital, these institutions may ask Treasury to convert its CPP preferred            ment bank) that buys a series of securi-
      shares into a more junior form of equity or accept a lower valuation, resulting in              ties from an institution for resale.
      Treasury taking a discount or loss. If a CPP institution is undercapitalized and/
      or in danger of becoming insolvent, it may propose to Treasury a restructuring (or              Undercapitalized: Condition in which a
      recapitalization) plan to avoid failure (or to attract private capital) and to “attempt         financial institution does not meet its
      to preserve value” for Treasury’s investment.357 Treasury may also sell its invest-             regulator’s requirements for sufficient
      ment in a troubled institution to a third party at a discount in order to facilitate that       capital to operate under a defined level of
      party’s acquisition of a troubled institution. Treasury has explained to SIGTARP                adverse conditions.
      that although it may incur partial losses on its investment in the course of these
      transactions, such an outcome may be deemed necessary to avoid the total loss of
      Treasury’s investment that would occur if the institution failed.358
          Under these circumstances, the CPP participant asks Treasury for a formal re-
      view of its proposal. The proposal details the institution’s recapitalization plan and
      may estimate how much capital the institution plans to raise from private investors
      and whether Treasury and other preferred shareholders will convert their preferred
      stock to common stock. The proposal may also involve a proposed discount on the
      conversion to common stock, although Treasury would not realize any loss until it
      disposes of the stock.359 In other words, Treasury would not know whether a loss
118             special inspector general I troubled asset relief program                                                                                                                            118




      Table 2.24

      treasury warrant auctions, as of 3/31/2011
                                                                                                                                                                                      Proceeds to
                                                                                                       Number of                   Minimum                        Selling                Treasury
      Auction Date                  Institution                                                   Warrants Offered                 Bid Price                       Price               ($ Millions)
                                    Bank of America A Auction (TIP)a                                  150,375,940                       $7.00                      $8.35                   $1,255.6
      3/3/2010
                                    Bank of America B Auction (CPP)a                                  121,792,790                         1.50                       2.55                      310.6
      12/10/2009                    JPMorgan Chase                                                     88,401,697                         8.00                     10.75                       950.3
      5/20/2010                     Wells Fargo and Company                                           110,261,688                         6.50                       7.70                      849.0
      9/21/2010                     Hartford Financial Services Group                                  52,093,973                       10.50                      13.70                       713.7
      4/29/2010                     PNC Financial Service Group, Inc.                                  16,885,192                       15.00                      19.20                       324.2
                                    Citigroup A Auction (TIP & AGP)a                                  255,033,142                         0.60                       1.01                      257.6
      1/25/2011
                                    Citigroup B Auction (CPP)         a
                                                                                                      210,084,034                         0.15                       0.26                        54.6
      9/16/2010                     Lincoln National Corporation                                       13,049,451                       13.50                      16.60                       216.6
      5/6/2010                      Comerica Inc.                                                      11,479,592                       15.00                      16.00                       183.7
      12/3/2009                     Capital One                                                        12,657,960                         7.50                     11.75                       148.7
      2/8/2011                      Wintrust Financial Corporation                                      1,643,295                       13.50                      15.80                         26.0
      3/9/2010                      Washington Federal, Inc.                                            1,707,456                         5.00                       5.00                        15.6
      3/10/2010                     Signature Bank                                                        595,829                       16.00                      19.00                         11.3
      12/15/2009                    TCF Financial                                                       3,199,988                         1.50                       3.00                          9.6
      3/11/2010                     Texas Capital Bancshares, Inc.                                        758,086                         6.50                       6.50                          6.7
      2/1/2011                      Boston Private Financial Holdings, Inc.                             2,887,500                         1.40                       2.20                          6.4
      5/18/2010                     Valley National Bancorp                                             2,532,542                         1.70                       2.20                          5.6
      6/2/2010                      First Financial Bancorp                                               465,117                         4.00                       6.70                          3.1
      6/9/2010                      Sterling Bancshares Inc.                                            2,615,557                         0.85                       1.15                          3.0
      TOTAL                                                                                        1,058,520,829                                                                          $5,351.9

      Note: Numbers affected by rounding.
      a
        Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.

      Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed 6/30/2010;
      Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 6/30/2010; Comerica Incorporated,
      “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 6/30/2010; Wells Fargo and Company, “Definitive Prospectus
      Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 6/30/2010; First Financial Bancorp, “Prospectus Supplement,” 6/2/2010,
      www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 6/30/2010; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
      www.sec.gov/Archives/edgar/data/891098/000119312510137258/d424b5.htm, accessed 6/30/2010; Signature Bank, “Prospectus Supplement,” 3/10/2010, http://files.shareholder.com/down-
      loads/SBNY/865263367x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 3/11/2010; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
      3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 3/12/2010; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
      data/70858/000119312510051260/d8k.htm, accessed 3/4/2010; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044940/d424b7.
      htm, accessed 3/4/2010; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510044945/d424b7.htm, accessed 3/4/2010; Washington
      Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed 3/10/2010; TCF Financial, “Prospectus Supplement,”
      12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 12/29/2009; JPMorgan Chase, “Prospectus Supplement,” 12/11/2009,
      www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 12/29/2009; Capital One Financial, “Prospectus Supplement,” 12/3/2009,
      www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 12/4/2009; Treasury, Transactions Report, 6/30/2010; Hartford Financial Services Group, Prospec-
      tus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 10/7/2010; Hartford Financial
      Services Group, 8-K, 9/27/2010, www.sec.gov/Archives/edgar/data/874766/000095012310089083/y86713e8vk.htm, accessed 10/7/2010; Hartford Financial Services Group, Underwriting
      Agreement, 8/21/2010, www.sec.gov/Archives/edgar/data/874766/000095012310089083/y86713exv1w1.htm, accessed 10/7/2010; Treasury, Transactions Report, 9/27/2010; Treasury,
      “Treasury Announces Pricing of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.financialstability.gov/latest/pr_09222010.html, accessed
      9/22/2010; Lincoln National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/d424b5.htm, ac-
      cessed 10/7/2010; Lincoln National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 10/7/2010; Treasury, Transactions Report,
      2/8/2010; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/
      press-center/press-releases/Pages/tg1033.aspx, accessed 2/15/2011; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.
      htm, accessed 3/22/2011; Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 3/22/2011; Boston Private
      Financial Holdings, Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/data/821127/000119312511021392/d424b5.htm, accessed 3/22/2011; Boston Private Financial Holdings, Inc.
      8-K, 2/7/2011, www.sec.gov/Archives/edgar/data/821127/000144530511000189/tarpwarrant020711.htm, accessed 3/22/2011; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.
      sec.gov/Archives/edgar/data/1015328/000095012311011007/c62806b5e424b5.htm, accessed 3/22/2011; Wintrust Financial Corporation, 8-K, 2/8/2011, www.sec.gov/Archives/edgar/
      data/1015328/000095012311013436/c62955e8vk.htm, accessed 3/22/2011; Treasury, Transactions Report, 2/8/2011; Treasury, Section 105(a) Report, 1/31/2011; Treasury, “Treasury Announces
      Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 1/15/2011; Treasury, Citigroup Pre-
      liminary Prospectus – CPP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.htm, accessed 3/3/2011; Citigroup, Preliminary Prospectus – TIP
      & AGP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 3/3/2011. Treasury, response to SIGTARP data call, 4/6/2011.
                                                                                  quarterly report to congress I april 28, 2011               119




will occur, or the extent of such a loss, until it sells the common stock it receives as
part of such an exchange. According to Treasury, when it receives such a request, it
asks one of the external asset managers that it has hired to analyze the proposal and           Due Diligence: Appropriate level of
perform due diligence on the institution.360 The external asset manager interviews              attention or care a reasonable person
                                                                                                should take before entering into an
the institution’s managers, gathers non-public information, and conducts loan-loss
                                                                                                agreement or a transaction with an-
estimates and capital structure analysis. The manager submits its evaluation to
                                                                                                other party. In finance, it often refers to
Treasury, which then decides whether to restructure its CPP investment.361
                                                                                                the process of conducting an audit or
    Table 2.25 shows all restructurings, recapitalizations, exchanges, and sales of
                                                                                                review of the institution before initiating
CPP investments through March 31, 2011.                                                         a transaction.

Citigroup Update
On October 28, 2008, Treasury made a $25.0 billion investment in preferred
shares of Citigroup Inc. (“Citigroup”) under CPP.362 On June 9, 2009, at the
request of Citigroup, Treasury agreed to an exchange in which Treasury converted
its preferred shares to 7.7 billion shares of Citigroup common stock, with a market
price of $3.25 per share.363
    On March 16, 2010, Treasury announced that it would sell the Citigroup
common stock it held as a result of its CPP investment.364 On March 29, 2010,
Treasury stated that, under a prearranged written trading plan, it would sell its
Citigroup common shares in an “orderly and measured fashion” over the course
of 2010, subject to market conditions.365 From April 26, 2010, through December
10, 2010, Treasury sold all of its 7.7 billion shares of Citigroup common stock
for approximately $31.85 billion, which represents a gain of $6.85 billion.366 As of
December 31, 2010, Treasury no longer owned Citigroup common stock but did
hold 465.1 million warrants to purchase Citigroup common stock that it received
from Citigroup’s participation in CPP, TIP, and AGP.367 On January 25, 2011,
Treasury held two public auctions of its Citigroup warrants and received gross
                                                                                              For a discussion of the basis of the decision
proceeds of $312.2 million.368
                                                                                              to provide Federal assistance to Citigroup,
    According to Treasury, it has realized a gain of approximately $12.3 billion over         see SIGTARP’s audit “Extraordinary
the course of Citigroup’s participation in CPP, AGP, and TIP, including amounts               Financial Assistance Provided to Citigroup,
received from interest, dividends, other income, and warrant sales.369                        Inc.,” dated January 13, 2011.


Recent Exchanges and Sales
Metropolitan Bank Group, Inc. and NC Bancorp, Inc.
On June 26, 2009, Treasury invested $71.5 million in Metropolitan Bank Group,
Inc., Chicago, Illinois (“Metropolitan”) and $6.9 million in NC Bancorp, Inc.,
Chicago, Illinois (“NC Bancorp”), respectively, through CPP in return for preferred
stock and a warrant to purchase additional shares of preferred stocks in each insti-
tution, which Treasury exercised immediately.370
    On March 30, 2011, Treasury exchanged its preferred stock in Metropolitan
and NC Bancorp plus the right to $3.5 million of unpaid dividends, for $81.9 million
120               special inspector general I troubled asset relief program                                                                                                                                   120




      Table 2.25

      Treasury Restructurings, Recapitalizations, exchanges, & Sales, as of 3/31/2011 ($ millions)
                                                                                          Original          Combined
                                                            Date of                    Investment           Investment
      Institution                                           Investment                 ($ Millions)         ($ Millions) Investment Status
      Citigroup Inc.                                        10/28/2008                  $25,000.0                              Exchanged for common stock/warrants and sold
      Popular, Inc.                                         12/5/2008                          935.0                           Exchanged for trust preferred securities
      First BanCorp                                         1/6/2009                           400.0                           Exchanged for mandatorily convertible preferred stock
      South Financial Group, Inc.                           12/5/2008                          347.0                           Sold
      Sterling Financial Corporation                        12/5/2008                          303.0                           Exchanged for common stock
      Pacific Capital Bancorp                               11/21/2008                         180.6                           Exchanged for common stock
      Central Pacific Financial Corp                        1/9/2009                           135.0                           Exchanged for common stock
      First Merchants                                       2/20/2009                          116.0                           Exchanged for trust preferred securities and preferred stock
      Hampton Roads Bankshares                              12/31/2008                           80.3                          Exchanged for common stock

      Metropolitan Bank Group Inc.                          6/26/2009                            71.5                          Exchanged for new preferred stock in Metropolitan Bank Group,
                                                                                                             81.9 a
      NC Bank Group, Inc.                                   6/26/2009                              6.9                         Inc. upon Metropolitan’s acquisition of NC Bank Group.

      Independent Bank Corporation                          12/12/2008                           72.0                          Exchanged for mandatorily convertible preferred stock
      Superior Bancorp, Inc.                                12/5/2008                            69.0                          Exchanged for trust preferred securities
      Cadence Financial Corporation                         1/9/2009                             44.0                          Sold
      Capital Bank Corporation                              12/12/2008                           41.3                          Sold
      TIB Financial Corp.                                   12/5/2008                            37.0                          Sold
      First Community Bank Corporation of
                                                            12/23/2008                           10.7                          Sale Pending
      America
      Bank of Currituck                                     2/6/2009                               4.0                         Sold
      Treaty Oak Bancorp, Inc.                              1/16/2009                              3.3                         Sold
      FBHC Holding Company                                  12/29/2009                             3.0                         Sold
      Fidelity Resources Company                            6/26/2009                              3.0                         Exchanged for preferred stock in Veritex Holding
      Note:
      a	
         The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or
         $6.9 million plus unpaid dividends of $3.5 million.

      Sources: Treasury, Transactions Report, 12/31/2010; Treasury response to SIGTARP data call, 10/14/2010; SIGTARP, October Quarterly Report, 10/26/2010; Treasury, Section 105(a) Report,
      9/30/2010; Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock,” www.Treasury.gov/press-center/
      press-releases/Pages/tg1000.aspx, 12/10/2010; Treasury Press Release, “Treasury Announces Pricing of Citigroup Common Stock Offering,” www.Treasury.gov/press-center/press-releases/
      Pages/tg995.aspx, 12/6/2010; Treasury, Transactions Report, 12/31/2010; Treasury, Section 105(a) Report, 1/31/2011; Treasury Press Release, “Treasury Announces Intent to Sell Warrant
      Positions in Public Dutch Auctions,” www.Treasury.gov/press-center/press-releases/Pages/tg1023.aspx, 1/14/2011; Treasury, Transactions Report, 3/2/2011; Broadway Financial Corpora-
      tion, 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/1001171/000119312511039152/d8k.htm, accessed 2/25/2011; FDIC and Texas Department of Banking, In the Matter of Treaty
      Oak Bank, Consent Order, 2/5/2010, www.fdic.gov/bank/individual/enforcement/2010-02-34.pdf, accessed 2/24/2011; Fort Worth Business Press, “Shareholders Approve Sale of Treaty Bank
      to Fort Worth Investors,” www.timesleader.com/FwBp/news/breaking/Shareholders-approve-sale-of-Treaty-Oak-bank-to-Fort-Worth-investors.html, accessed 2/23/2011; Central Pacific Financial
      Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000055/form8-k.htm, accessed 12/21/2010; Central Pacific Financial Corp., 8-K, 2/17/2011, www.
      sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 2/22/2011; Central Pacific Financial Corp., 8-K, 2/22/2011, www.sec.gov/Archives/edgar/
      data/701347/000110465911008879/a11-6350_18k.htm, accessed 2/22/2011; Scottrade, Central Pacific Financial Corp., 2/18/2011, http://research.scottrade.com/qnr/Public/Stocks/
      Snapshot?symbol=cpf, accessed 2/22/2011; Cadence Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm, accessed
      3/8/2011; Treasury, Transactions Report, 3/2/2011; Federal Reserve, “Actions Taken By the Federal Reserve Bank of Dallas Under Delegated Authority,” 3/7/2011, www.federalreserve.gov/
      infoletters/list.cfm?whichdistrict=11&whichyear=2011, accessed 3/28/2011; Treasury, Transactions Report, 3/24/2011; Treasury, Transactions Report, 3/24/2011; Treasury, Transactions Report,
      3/30/2011; Treasury, Transactions Report, 4/4/2011; Federal Reserve, Institutions Acquired by Metropolitan Bank Group, Inc., www.ffiec.gov/nicpubweb/nicweb/AcquisitionForm.aspx?parID_
      RSSD=1204627&parDT_END=99991231[4/4/2011 12:14:10 PM], accessed 4/4/2011; Treasury, Transactions Report, 3/31/2011; Federal Reserve, “Actions Taken By the Federal Reserve Bank
      of Atlanta Under Delegated Authority,” 1/13/2011, www.federalreserve.gov/Releases/H2/20110115/delactions.htm, accessed 4/8/2011.
                                                                             quarterly report to congress I april 28, 2011   121




of a new series preferred stock in Metropolitan.371 On March 31, 2011, NC
Bancorp was acquired by Metropolitan.372

Fidelity Resources Company
On June 26, 2009, Treasury invested $3 million in Fidelity Resources Company,
Plano, Texas (“Fidelity”) through CPP in return for preferred stock and a war-
rant to purchase additional shares of preferred stocks, which Treasury exercised
immediately.373 On March 7, 2011, the Federal Reserve approved the acquisition
of Fidelity by Veritex Holdings, Dallas, Texas (“Veritex”).374 On March 23, 2011,
Treasury exchanged its TARP investment for “a like amount of securities” issued by
Veritex.375

First Community Bank Corporation of America
On December 23, 2008, Treasury invested $10.7 million in First Community Bank
Corporation of America, Pinellas Park, Florida (“FCBA”) through CPP in return
for preferred stock and warrants.376 According to an SEC filing on January 6, 2011,
the Office of Thrift Supervision proposed a cease and desist to FCBA based on its
subsidiary bank, First Community Bank of America, Pinellas Park, Florida (“FCB”),
operating “with an inadequate level of capital.”377 On February 10, 2011, FCBA
agreed to merge FCB with Community Bank of Manatee, Bradenton, Florida
(“Community Bank”).378
    On March 11, 2011, Treasury agreed to sell its TARP investment to FCBA for
$7.2 million plus the right to receive additional funds. The agreement was con-
tingent upon the merger of FCB with Community Bank, and FCBA entering into
definitive documentation that is acceptable to Treasury.379

FBHC Holding Company
On December 29, 2009, Treasury invested $3 million in FBHC Holding Company,
Boulder, Colorado (“FBHC”) through CPP in return for subordinated debentures
and a warrant to purchase additional debentures, which Treasury exercised im-
mediately.380 On August 19, 2010, the Colorado State Banking Board suspended
FBHC’s chairman, Mark Yost, from participating in the affairs of an FBHC subsid-
iary, Flatirons Bank, Boulder, Colorado (“Flatirons”), and, on September 8, 2010,
a complaint was filed in Colorado state court alleging that Mr. Yost had commit-
ted fraud in connection with investment activity funded in part by loans arranged
through Flatirons.381
    On March 9, 2011, Treasury sold all of its FBHC debentures to FBHC for
$650,000.382 This resulted in a loss to Treasury of approximately $2.4 million.
122            special inspector general I troubled asset relief program




                                                      Broadway Financial Corporation
      For more information on CDFIs, see
      “Small-Business Lending Initiatives” in this
                                                      On November 14, 2008, and December 4, 2009, Treasury invested a total of
      section.                                        $15 million in Broadway Financial Corporation, Los Angeles, California
                                                      (“Broadway”) through CPP in return for preferred stock and warrants.383 On
                                                      November 24, 2009, Treasury canceled the warrants because Broadway’s subsid-
                                                      iary, Broadway Federal Bank, F.S.B., Los Angeles, California (“Broadway Bank”),
                                                      was designated a Community Development Financial Institution (“CDFI”) and
                                                      Treasury does not require warrants for investments in a certified CDFI of $50 mil-
                                                      lion or less.384
                                                          On February 16, 2011, Broadway announced in an SEC form 8-K filing that
                                                      Treasury had consented to exchange its entire CPP investment ($15 million) for
                                                      common stock at 50% of the preferred equity’s par value and to exchange the
                                                      amount of accumulated, unpaid dividends for common stock at 100% of the ac-
                                                      crued amount. However, according to Broadway, before it receives final approval
                                                      for the exchange from Treasury it needs to meet certain conditions, which include
                                                      raising at least $5 million in new common shares, exchanging the series B preferred
                                                      stock held by a private investor to common stock at 50% of par value, and entering
                                                      into definitive documentation that is acceptable to Treasury.385 As of the drafting of
                                                      this report, Treasury has made no public disclosure of the arrangement.

                                                      Treaty Oak Bancorp, Inc.
                                                      On January 16, 2009, Treasury invested $3.3 million in Treaty Oak Bancorp, Inc.,
                                                      Austin, Texas (“Treaty Oak”) through CPP in return for preferred stock and a war-
                                                      rant to purchase 163 additional shares of preferred stock, which Treasury exercised
                                                      immediately.386 On February 5, 2010, the Federal Deposit Insurance Corporation
                                                      (“FDIC”) and the Texas Department of Banking issued a consent order to Treaty
                                                      Oak’s subsidiary bank, Treaty Oak Bank, Austin, Texas (“Treaty Oak Bank”),
                                                      regarding the bank’s management, board participation, capital, asset quality, loan
                                                      concentration, liquidity, lending and collection policies, and violations of law.387 On
                                                      February 10, 2011, Treaty Oak Bank was acquired by Carlile Bancshares Inc., Fort
                                                      Worth, Texas (“Carlile”).388
                                                          On February 15, 2011, pursuant to an agreement with Treaty Oak, Treasury
                                                      sold all of its Treaty Oak preferred stock to Treaty Oak for (1) $500,000, (2) the
                                                      right to receive up to $150,000 in principal payments on a note payable by Carlile
                                                      in favor of Treaty Oak, and (3) newly issued warrants to purchase approximately
                                                      3.1 million shares of Treaty Oak common stock.389 The final gain or loss on
                                                      Treasury’s TARP investment will depend on the amount of proceeds Treasury
                                                      recovers from these non-cash assets.
                                                                              quarterly report to congress I april 28, 2011   123




Capital Bank Corporation
On December 12, 2008, Treasury invested $41.3 million in Capital Bank
Corporation, Raleigh, North Carolina (“Capital Bank”) through CPP in return for
preferred stock and warrants.390 On January 13, 2011, the Federal Reserve ap-
proved the acquisition of Capital Bank by North American Financial Holdings,
Inc., Charlotte, North Carolina (“North American”).391
   On January 28, 2011, Treasury sold its TARP investment to North American for
$41.3 million, which resulted in no gain or loss to Treasury.392

Update on Previously Announced Exchanges
Cadence Financial Corporation
On January 9, 2009, Treasury invested $44 million in Cadence Financial
Corporation, Starkville, Mississippi (“Cadence”) through CPP in return for
preferred stock and warrants.393 Cadence agreed to be acquired by Community
Bancorp LLC, Houston, Texas (“Community”), pursuant to a merger agreement
dated October 6, 2010.394 In connection with the merger agreement, Community
signed an agreement with Treasury dated October 29, 2010, to purchase its pre-
ferred stock and warrants. On March 4, 2011, pursuant to the agreement, Treasury
sold all of its Cadence preferred stock and warrants to Community for approxi-
mately $39 million. This resulted in a loss to Treasury of approximately
$5 million.395

Central Pacific Financial Corp.
On January 9, 2009, Treasury invested $135 million in Central Pacific Financial
Corp., Honolulu, Hawaii (“Central Pacific”) through CPP in return for preferred
stock and warrants.396 On November 4, 2010, Central Pacific entered into two sep-
arate investment agreements with an affiliate of the Carlyle Group and an affiliate
of Anchorage Capital Group, L.L.C., pursuant to which each affiliate would invest
approximately $98 million in common stock. Both investment commitments were
subject to certain conditions, including the exchange of Treasury’s preferred stock
for common stock at a discount, plus 100% of the amount of unpaid dividends.
The investment agreements are part of an overall plan to raise at least
$325 million of new capital.397
124   special inspector general I troubled asset relief program




                                                 On February 17, 2011, Treasury agreed to exchange its preferred stock and
                                             unpaid dividends for newly issued common shares in Central Pacific and amended
                                             warrants. On February 18, 2011, Central Pacific announced it had successfully
                                             raised $325 million in new capital in a direct private placement and, on the same
                                             date, Treasury exchanged its preferred stock in Central Pacific and unpaid divi-
                                             dends for approximately 5.6 million common shares and amended warrants.398 The
                                             final loss or gain from this exchange will depend on the market price of the com-
                                             mon stock at the time Treasury disposes of its interests.

                                             CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                             Despite Treasury’s stated goal of limiting CPP investments to “healthy and viable
                                             institutions,” a number of CPP participants went bankrupt or had a subsidiary bank
                                             fail, as indicated in Table 2.26.399

                                             Closure of Legacy Bank
                                             On January 30, 2009, Treasury invested $5.5 million in Legacy Bancorp, Inc.,
                                             Milwaukee, Wisconsin (“Legacy”) through CPP in return for preferred stock.
                                             Treasury does not require warrants for investments in a certified CDFI of $50 mil-
                                             lion or less; therefore no warrants were received.400 On April 27, 2010, Legacy and
                                             its subsidiary bank (Legacy Bank) agreed in writing with federal and state regula-
                                             tors to strengthen credit risk management practices, comply with laws and regula-
                                             tions, and improve capital and liquidity.401 On November 16, 2010, the Federal
                                             Reserve issued a “prompt corrective action directive” to Legacy Bank because the
                                             bank was significantly undercapitalized.402
                                                  On March 11, 2011, the State of Wisconsin Department of Financial
                                             Institutions closed Legacy Bank and the FDIC was named receiver.403 The FDIC
                                             entered into a purchase and assumption agreement with Seaway Bank and Trust
                                             Company, Chicago, Illinois, to assume all the deposits of Legacy Bank.404 The
                                             FDIC estimates that the cost to the Deposit Insurance Fund will be $43.5 mil-
                                             lion.405 While the amount of Treasury’s recovery is not clear, all of Treasury’s TARP
                                             investment in Legacy may be lost.406
125                                                                                                                 quarterly report to congress I april 28, 2011     125




      Table 2.26

       CPP recipients: Bankrupt oR with failed subsidiary banks                                                      ($ Millions)
                                         Initial
                                      Invested          Investment                                            Bankruptcy/                            Subsidiary
      Institution Name                 Amount                 Date                                Status      Failure Datea                               Bank
                                                                  Bankruptcy proceedings
                                                                 completed with no recov-
      CIT Group Inc., New                                                                                                                         CIT Bank, Salt
                                      $2,330.0        12/31/2008   ery of Treasury’s invest-                      11/1/2009
      York, NY                                                                                                                                     Lake City, UT
                                                                    ment; subsidiary bank
                                                                             remains active
      UCBH Holdings Inc.,                                                             In bankruptcy;                               United Commercial Bank,
                                          298.7       11/14/2008                                                  11/6/2009
      San Francisco, CA                                                        subsidiary bank failed                                     San Francisco, CA
                                                                                Bankruptcy proceed-
      Pacific Coast Na-                                                      ings completed with no
                                                                                                                                      Pacific Coast National
      tional Bancorp, San                     4.1       1/16/2009             recovery to Treasury’s            11/13/2009
                                                                                                                                    Bank, San Clemente, CA
      Clemente, CA                                                            investment; subsidiary
                                                                                         bank failed
      Midwest Banc                                                                                                                   Midwest Bank and Trust
                                                                                      In bankruptcy;              5/14/2010
      Holdings, Inc.,                     89.4 b        12/5/2008                                                                       Company, Elmwood
                                                                               subsidiary bank failed
      Melrose Park, IL                                                                                                                             Park, IL
      Sonoma Valley                                                                   Winding down
                                                                                                                                               Sonoma Valley
      Bancorp, Sonoma,                        8.7       2/20/2009             operations; subsidiary              8/20/2010
                                                                                                                                            Bank, Sonoma, CA
      CA                                                                                 bank failed
      Pierce County
                                                                                                                                   Pierce Commercial Bank,
      Bancorp,                                6.8       1/23/2009              Subsidiary bank failed             11/5/2010
                                                                                                                                              Tacoma, WA
      Tacoma, WA
      Tifton Banking
      Company,                                3.8       4/17/2009                                  Failed       11/12/2010                                     N/A
      Tifton, GA

      Legacy Bancorp,                                                                                                                              Legacy Bank
                                              5.5       1/30/2009              Subsidiary bank failed             3/11/2011
      Inc. Milwaukee, WI                                                                                                                          Milwaukee, WI

      TOTAL                          $2,747.0

      Notes: Numbers may not total due to rounding.
      a
        Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
      b
        The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest
      Banc Holdings, Inc. (MBHI) for $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previ-
      ously accrued and unpaid dividends.

      Sources: Treasury, Transactions Report, 12/31/2010; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed 9/15/2010;
      FDIC, “Institution Directory,” no date, www2.fdic.gov/idasp/main.asp, accessed 9/15/2010; CIT, “CIT Board of Directors Approves Proceeding with Prepackaged
      Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009, www.cit.com/media-room/press-releases/index.htm, accessed 12/10/2009;
      Pacific Coast National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/pcnb-8k122209.htm, accessed
      9/15/2010; Sonoma Valley Bancorp, 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm,
      accessed 9/15/2010; Midwest Banc Holdings, Inc., 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1051379/000095012310081020/c60029e8vk.
      htm, accessed 9/22/2010; UCBH Holdings, Inc., 8-K, 11/6/2009, www.sec.gov/Archives/edgar/data/1061580/000095012309062531/f54084e8vk.htm,
      accessed 9/15/2010; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank, Tacoma, Washington,”
      11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 11/20/2010; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of
      the Deposits of Two Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/press/2010/pr10249.html, accessed 11/21/2010; Treasury, Transactions
      Report, 3/11/2011; Federal Reserve Board Press Release, 5/10/2010, www.federalreserve.gov/newsevents/press/enforcement/20100505b.htm, accessed
      3/14/2011; Board of Governors of the Federal Reserve System, Written Agreement by and among Legacy Bancorp, Inc., Legacy Bank, Federal Reserve
      Bank of Chicago, and State of Wisconsin Department of Financial Institutions, Madison, Wisconsin, www.federalreserve.gov/newsevents/press/enforcement/
      enf20100505b1.pdf, accessed 3/14/2011; FDIC Press Release, “Seaway Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank,
      Milwaukee, Wisconsin,” 3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.htm, accessed 3/14/2011.
126             special inspector general I troubled asset relief program




                                                       Small-Business Lending Initiatives
      Subordinated Debt: Loan (or security)
                                                       Treasury has taken steps to launch two programs that it describes as small-business
      that ranks below other loans (or securi-
      ties) with regard to claims on assets or         lending initiatives. Both are similar to TARP’s CPP in that they involve Treasury
      earnings.                                        purchases of preferred shares or subordinated debt in certain qualifying financial
                                                       institutions (“QFIs”). The first, CDCI, uses TARP money. The second, a Small
      Qualifying Financial Institutions (“QFIs”):
                                                       Business Lending Fund (“SBLF”), authorized by statute on September 27, 2010,
      Private and public U.S.-controlled banks,
                                                       operates outside TARP but will likely involve many current TARP recipients.407 On
      savings associations, bank holding
                                                       December 20, 2010, Treasury released SBLF terms for insured depository institu-
      companies, certain savings and loan
      companies, and mutual organizations.             tions, bank holding companies, and savings and loan holding companies. The terms
                                                       include additional requirements for those institutions seeking to refinance existing
      Community Development Financial Insti-
                                                       TARP investments under CPP and CDCI into SBLF.408
      tutions (“CDFIs”): Financial institutions
      eligible for Treasury funding to serve
                                                       CDCI
      urban and rural low-income communi-
                                                       The Administration announced CDCI on October 21, 2009. According to Treasury,
      ties through the CDFI Fund. CDFIs were
      created in 1994 by the Riegle Com-               it was intended to help small businesses obtain credit.409 Under CDCI, TARP
      munity Development and Regulatory                made capital investments in the preferred stock or subordinated debt of eligible
      Improvement Act. These entities must             banks, bank holding companies, thrifts, and credit unions certified as Community
      be certified by Treasury; certification          Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,
      confirms they target at least 60% of             these lower-cost capital investments were intended to strengthen the capital base
      their lending and other economic devel-          of CDFIs and enable them to make more loans in low and moderate-income
      opment activities to areas underserved           communities.410
      by traditional financial institutions.               CDCI was open to certified, qualifying CDFIs or financial institutions that
      Risk-Weighted Assets: Risk-based mea-            applied for CDFI status by April 30, 2010.411 According to Treasury, CPP-
      sure of total assets held by a financial         participating CDFIs that were in good standing could exchange their CPP invest-
      institution. Assets are assigned broad           ments for CDCI investments.412 Each application for new or incremental funds had
      risk categories. The amount in each              to be reviewed by the institution’s Federal regulator and approved by Treasury.413
      risk category is multiplied by a risk fac-       CDCI closed to new investments on September 30, 2010.414
      tor associated with that category. The
      sum of the resulting weighted values             Terms for Senior Securities and Dividends
      from each of the risk categories is the
                                                       An eligible bank, bank holding company, or thrift could apply to receive capital in
      bank’s total risk-weighted assets.
                                                       an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
      Subchapter S Corporations (“S Corpo-             owned, nonprofit financial institution with a capital and governance structure
      rations”): Corporate form that passes            different from that of for-profit banks) could apply for Government funding of up
      corporate income, losses, deductions,            to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted assets
      and credit through to shareholders for           for banks.415 Participating credit unions and subchapter S corporations (“S corpora-
      Federal tax purposes. Shareholders
                                                       tions”) issued subordinated debt to Treasury in lieu of the preferred stock issued by
      of an S corporation report the flow-
                                                       other CDFI participants.416 Many CDFI investments have an initial dividend rate
      through of income and losses on their
                                                       of 2%, which increases to 9% after eight years. Participating S corporations pay an
      personal tax returns and are taxed at
                                                       initial rate of 3.1%, which increases to 13.8% after eight years.417
      their individual income tax rates.
                                                           A CDFI participating in CPP had the opportunity to request to convert those
                                                       shares into CDCI shares, thereby reducing the annual dividend rate it pays the
                                                                                   quarterly report to congress I april 28, 2011     127




Government from 5% to as low as 2%.418 According to Treasury, CDFIs were not
required to issue warrants because of the de minimis exception in EESA, which
grants Treasury the authority to waive the warrant requirement for qualifying insti-
tutions in which Treasury invested $100 million or less.419
    If during the application process a CDFI’s primary regulator deemed it to be un-
dercapitalized or to have “quality of capital issues,” the CDFI had the opportunity
to raise private capital to achieve adequate capital levels. Treasury would match the
private capital raised on a dollar-for-dollar basis, up to a total of 5% of the financial
institution’s risk-weighted assets. In such cases, private investors had to agree to
assume any losses before Treasury.420

CDCI Investment Update
Treasury invested $570.1 million of the $780.2 million it originally allocated for
CDCI.421 Treasury made investments in 84 institutions under the program — 36
banks or bank holding companies and 48 credit unions.422 Of these 84 invest-
ments, 28 were conversions from CPP (representing $363.3 million of the total
$570.1 million); the remaining 56 were not CPP participants. For the 28 CPP
banks, Treasury provided an additional $100.7 million in CDCI funds in addition
to converting the CPP investments. Only $106 million of the total CDCI funds
went to institutions that were not in CPP. As of March 31, 2011, Treasury had re-
ceived $3.3 million in dividends and $1.6 million in interest from CDCI recipients.
However, as of that date, three institutions (Carver Bancorp, Inc., First Vernon
Bancshares, Inc., and Premier Bancorp, Inc.) had unpaid dividend or interest pay-
ments to Treasury totaling $231,277.423 A list of all CDCI investments is included
in Appendix D: “Transaction Detail.”

Small Business Lending Fund (“SBLF”)
On September 27, 2010, the President signed into law the Small Business Jobs
Act of 2010, which created the SBLF with a $30 billion authorization.424 SBLF is
intended to allow Treasury “to make capital investments in eligible institutions in
order to increase the availability of credit for small businesses.”425
    Under SBLF, an eligible financial institution can receive a capital investment
totaling up to 3% or 5% of its risk-weighted assets, depending on its size. To be
eligible, the institution must have had less than $10 billion in total assets as of              Bank Holding Company (“BHC”):
December 31, 2009.426 Bank holding companies (“BHCs”) must contribute at                         Company that owns and/or controls
least 90% of any SBLF funding they receive to their insured depository institution               one or more U.S. banks.
subsidiaries that originate small-business loans.427 A bank is not eligible if it is on
the FDIC’s problem bank list or if it has been removed from that list in the 90 days
preceding its application to SBLF.428 Treasury consults with Federal and, where
applicable, state regulators about the bank’s financial condition and whether it is
eligible to receive funding from SBLF.429
128            special inspector general I troubled asset relief program




                                                           The initial 5% annual dividend drops 1% for every 2.5% increase over two years
                                                      in the institution’s Qualified Small Business Lending, as defined by SBLF, subject
                                                      to a minimum rate of 1%.430 If an institution achieves this lending increase during
                                                      an initial two-year adjustment period, the decreased dividend holds until four and
                                                      a half years from Treasury’s investment date.431 If the institution does not increase
                                                      its small-business lending during the first two years, the rate later rises to 7%.432 In
                                                      addition, CPP banks that refinance into SBLF and fail to increase small-business
                                                      lending after two years following their entry into SBLF are subject to an additional
                                                      2% annual fee from the fifth anniversary of their CPP investment date until four
                                                      and a half years after Treasury’s SBLF investment, at which time the dividend rate
                                                      for all SBLF participants becomes 9%.433
      Call Reports: Reports of condition                   SBLF participants are required to supplement their quarterly call reports
      and income that are required to be              with additional reporting on their Qualified Small Business Lending.434 In addi-
      filed quarterly with financial regula-          tion, SBLF participants must certify their adherence to anti-money-laundering
      tory authorities by insured depository          requirements before receiving their investment and must submit annual certifica-
      institutions operating in the United
                                                      tions from their auditors regarding their supplemental reports on Qualified Small
      States. These reports generally contain
                                                      Business Lending and their adherence to required borrower certifications.435
      a balance sheet, an income statement,
                                                           Qualified Small Business Lending under SBLF includes:436
      and supporting schedules.

                                                      •	   commercial and industrial loans to small businesses
                                                      •	   loans secured by owner-occupied nonfarm, nonresidential real estate
                                                      •	   loans to finance agricultural production and other loans to farmers
                                                      •	   loans secured by farmland

                                                           So long as:437

                                                      •	 the original loan amount is $10 million or less and
                                                      •	 the business receiving the loan does not exceed $50 million in annual revenues

                                                          These criteria differ from the call report categories of “loans to small business-
                                                      es” and “loans to small farms.” According to Treasury, the SBLF criteria include
                                                      many of the business loans made by many community banks.438 In addition, no por-
                                                      tion of lending guaranteed or assumed by the Government or third party is deemed
                                                      Qualified Small Business Lending, including the insured portions of SBA loans.439
                                                          According to the governing provisions of the Small Business Jobs Act, increases
                                                      in Qualified Small Business Lending are compared with a “baseline” equal to
                                                      the average amount of such lending that an SBLF participant had outstanding
                                                      for the four calendar quarters ending June 30, 2010 (adjustments are made to
                                                      exclude loans obtained through “mergers, acquisitions, and loan purchases”).440
                                                      Participating banks qualify for reduced dividend rates to the extent that their
                                                      Qualified Small Business Lending outstanding exceeds baseline levels. The
                                                                                quarterly report to congress I april 28, 2011            129




dividend rate for any quarter is determined according to a bank’s lending levels
measured during the preceding two calendar quarters. As a result, a bank may
receive a reduced dividend rate based on increases in lending that occurred before
it received any SBLF funding.441
     SBLF capital investments in institutions organized as C Corporations are in the
form of senior perpetual, non-cumulative, preferred stock — meaning that partici-
pants have no obligation to make quarterly payments as scheduled or to catch up               C Corporation: “For-profit” corporate
on missed payments.442 SBLF does specify some requirements for participants that              form organized under subsection C
miss dividend payments:443                                                                    of the Internal Revenue Code and
                                                                                              recognized as a separate taxpaying
•	 The participant’s senior management must provide Treasury written notice,                  entity. The C corporation pays federal
   including the rationale of the board of directors for not declaring a dividend.            and state income taxes on earnings
•	 No share repurchases or dividends on securities equal to or lower than the                 prior to any distribution of earnings to
   SBLF preferred stock in seniority are permitted during the quarter of the missed           shareholders. Dividends paid to share-
                                                                                              holders by the corporation are taxed to
   payment and for three quarters thereafter. (SBLF participating banks may other-
                                                                                              each shareholder individually.
   wise repurchase shares or increase dividends subject to certain capital adequacy
   restrictions.)
•	 After a participant has missed four dividend payments (consecutive or not),
   unless its regulator prohibited dividend payments, the bank’s board of directors
   must certify in writing that the bank used its best efforts to declare and pay its
   quarterly dividends in a manner consistent with safe and sound banking prac-
   tices and the directors’ fiduciary obligation.
•	 After a participant has missed five dividend payments (consecutive or not),
   Treasury has the right to appoint a representative to the participant’s board of
   directors, to serve as an observer.
•	 After a participant has missed six dividend payments (consecutive or not), if the
   SBLF investment is $25 million or more, Treasury has the right to elect two
   directors to the bank’s board of directors. This right expires after full dividends
   have been paid for four consecutive dividend periods.

    Although this program operates outside TARP, as of March 31, 2011, 250
TARP recipients under either CPP or CDCI had applied to refinance their invest-             See SIGTARP’s January 2011
ments and, thus, potentially benefit from lower dividend rates, non-cumulative              Quarterly Report, pages 185-192,
dividends, and the removal of rules on executive compensation and luxury expendi-           for SIGTARP’s recommendations to
                                                                                            Treasury about how SBLF is applied
tures.444 On December 20, 2010, Treasury issued guidance under which CPP and
                                                                                            to current TARP recipients and, in
CDCI recipients can refinance into SBLF.445                                                 particular, Treasury’s rejection of two
                                                                                            important taxpayer-protecting recom-
                                                                                            mendations advanced by SIGTARP.
130            special inspector general I troubled asset relief program




                                                      SBLF Program Implementation for Banks
                                                      On December 20, 2010, Treasury announced terms under which insured deposi-
      Mutual Depository Institution: Any bank,
                                                      tory institutions, bank holding companies, and savings and loan holding companies
      savings association, bank holding               (hereinafter “banks”) may request funds under SBLF.446 As of March 31, 2011,
      company, or savings and loan hold-              terms for mutual depository institutions, S corporations, and community develop-
      ing company organized in a mutual               ment loan funds had not been released.447
      form. Savings associations organized                The deadline for banks to apply to participate in SBLF is May 16, 2011.448
      as mutual institutions issue no capital         According to Treasury, the total number of SBLF applications Treasury received as
      stock and therefore have no stockhold-          of March 31, 2011, was 542 — of which 249 were existing CPP participants and
      ers. Mutual savings associations build          one of which was an existing CDCI participant.449 Prospective participants in SBLF
      capital almost exclusively through              were required to submit an application and a “small business lending plan” of ap-
      retained earnings.                              proximately two pages to their primary Federal regulator and to their state regulator,
                                                      if applicable.450 The plan had to address the following points:451

                                                      •	 how the bank will use the funds to increase small-business lending in the com-
                                                         munity in which it does business
                                                      •	 the anticipated increase in small-business lending as a result of the receipt of
                                                         funds
                                                      •	 proposed outreach and advertising efforts to inform members of the community
                                                         about the availability of the loans and how to apply

                                                          In evaluating an SBLF application, Treasury is required to coordinate with the
                                                      bank’s primary Federal regulator as well as the state banking regulator, for state-
                                                      chartered banks. In particular, according to Treasury, the views of these regulators
                                                      are taken into account when determining whether a bank is eligible to participate
                                                      in SBLF.452
                                                          Additional eligibility restrictions pertain to institutions refinancing from CPP
                                                      or CDCI. According to Treasury, the applications of current CPP or CDCI par-
                                                      ticipants are evaluated under the same processes used for other applicants.453
                                                      However, Treasury has outlined additional terms for banks that have received
                                                      investments under CPP or CDCI and seek to refinance into SBLF:454

                                                      •	 Banks that participate in SBLF cannot continue to participate in CPP or CDCI.
                                                      •	 Banks that use SBLF to refinance their CPP or CDCI investments must redeem
                                                         all outstanding preferred stock issued under those programs on or before the
                                                         date of Treasury’s SBLF investment. Banks may use the SBLF funding to meet
                                                         this requirement.
                                                      •	 Banks must be in material compliance with all the terms, conditions, and cov-
                                                         enants of CPP or CDCI in order to refinance through SBLF.
                                                                                quarterly report to congress I april 28, 2011   131




•	 Banks must be current in their dividend payments and must pay any accrued
   and unpaid dividends due to Treasury under CPP or CDCI. In addition, banks
   cannot have missed more than one previous dividend payment under CPP or
   CDCI (defined as a payment submitted more than 60 days late).
•	 Banks’ matching funds from private sources are not considered in the prelimi-
   nary approval process.

   Additional specific terms apply to banks that previously received investments
under CPP:

•	 Two years after refinancing to SBLF funding, a CPP-recipient bank must have
   increased its small-business lending relative to the baseline level of small-
   business lending as defined in the Small Business Jobs Act. If it has not, then in
   addition to its SBLF dividends (which reset to 7%) the bank must pay Treasury
   an additional “lending incentive fee” equal to 2% per annum of its then out-
   standing SBLF investment, starting on the fifth anniversary of Treasury’s CPP
   investment. The lending incentive fee will be in effect until four and a half years
   after the SBLF investment (i.e., the time at which the SBLF dividend rate for
   all participants rises to 9%). This fee does not apply to a bank that redeemed, or
   applied to redeem, its CPP investment as of December 16, 2010.
•	 Banks are not required to repurchase warrants from Treasury that were provided
   as a condition of receiving funds under CPP. Treasury does not require banks to
   issue warrants for participation in SBLF.
132            special inspector general I troubled asset relief program




                                                      Systemically Significant Failing Institutions Program
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                      program was established to “provide stability and prevent disruptions to financial
                                                      markets from the failure of institutions that are critical to the functioning of the
                                                      nation’s financial system.”455 Through SSFI, Treasury obligated $69.8 billion to
                                                      American International Group, Inc. (“AIG”), the program’s sole participant.456

                                                      Status of SSFI Funds
                                                      On November 25, 2008, Treasury made an initial $40 billion investment in AIG.
      Cumulative Preferred Stock: Stock               In return, Treasury received AIG Series D cumulative preferred stock and warrants
      requiring a defined dividend payment. If        to purchase AIG common stock.457 On April 17, 2009, AIG and Treasury signed a
      the company does not pay the dividend           securities exchange agreement under which Treasury exchanged the Series D cu-
      on schedule, it still owes the missed           mulative preferred stock, which required AIG to make quarterly dividend payments,
      dividend to the stock’s owner.                  for less valuable and less liquid Series E non-cumulative preferred stock, which did
                                                      not require AIG to make quarterly dividend payments. Additionally, on April 17,
      Non-Cumulative Preferred Stock: Pre-
                                                      2009, Treasury committed to fund an equity capital facility under which AIG could
      ferred stock with a defined dividend,
                                                      draw down up to $29.8 billion in exchange for Series F non-cumulative preferred
      without the obligation to pay missed
                                                      stock and additional warrants.458 According to Treasury, through January 14, 2011,
      dividends.
                                                      AIG had drawn down all but $2 billion of the Series F equity capital facility; the re-
      Equity Capital Facility: Commitment to          maining $2 billion of available credit was then converted to a new $2 billion Series
      invest equity capital in a firm under cer-      G standby equity commitment.459
      tain future conditions. An equity facility          On January 14, 2011, AIG executed its previously announced Recapitalization
      when drawn down is an investment                Plan, which resulted in the conversion of the Series E and F preferred shares to
      that increases the provider’s ownership         common stock.460 See the “AIG Recapitalization Plan” discussion below for more
      stake in the company. Investors may             detailed information.
      be able to recover the amounts invest-
      ed by selling their ownership stakes to         Dividend Payments
      other investors at a later date.                Before the recapitalization, for the period November 25, 2008, to January 14,
                                                      2011, AIG had failed to pay any dividends. As of December 31, 2010, AIG had not
                                                      paid or had failed to declare dividends for eight consecutive quarters, for a total of
                                                      $7.9 billion in missed or undeclared dividend payments.461 When AIG failed to pay
                                                      dividends for four consecutive quarters on the Series E preferred stock, this gave
                                                      Treasury the right to appoint to AIG’s board the greater of either two directors or
                                                      a number (rounded upward) of directors equal to 20% of all AIG directors.462 On
                                                      April 1, 2010, Treasury appointed Donald H. Layton and Ronald A. Rittenmeyer
                                                      as directors of AIG.463 After the Recapitalization Plan was executed, AIG no longer
                                                      had an obligation to pay dividends.
                                                                                 quarterly report to congress I april 28, 2011             133




Federal Reserve Credit Facility and Maiden Lane Special Purpose
                                                                                               Revolving Credit Facility: Line of credit
Vehicles
                                                                                               for which borrowers pay a commit-
In September 2008, the Federal Reserve Bank of New York (“FRBNY”) extended
                                                                                               ment fee, allowing them to repeatedly
an $85 billion revolving credit facility to AIG in an effort to stabilize the company.         draw down funds up to a guaranteed
In return, AIG committed 79.8% of its voting equity to a trust for the sole benefit            maximum amount. The amount of avail-
of Treasury.464 The terms of the credit facility included a high interest rate and             able credit decreases and increases as
increased AIG’s debt ratios significantly. Servicing this debt contributed to AIG’s            funds are borrowed and then repaid.
financial troubles and put downward pressure on its credit rating.465 Federal offi-
cials feared that future downgrades in AIG’s credit rating could have “catastrophic”           Special Purpose Vehicle (“SPV”): Off-
effects on the company, forcing it into bankruptcy.466                                         balance--sheet legal entity that holds
    FRBNY and Treasury determined that this possibility posed a threat to the                  transferred assets presumptively
nation’s financial system and decided that additional transactions were necessary              beyond the reach of the entities that
                                                                                               provide the assets, and that is legally
to modify the revolving credit facility.467 In November 2008, FRBNY and Treasury
                                                                                               isolated.
took the following actions to stabilize AIG’s operations:468

•	 Treasury purchased $40 billion in AIG preferred shares under TARP, the pro-
   ceeds of which went directly to FRBNY to pay down a portion of the existing
   revolving credit facility. After that payment, the total amount available to AIG
   under FRBNY’s revolving credit facility was reduced from $85 billion to $60
   billion.
•	 FRBNY created Maiden Lane II, a special purpose vehicle (“SPV”), to which
   FRBNY lent $19.5 billion to fund the purchase of residential mortgage-backed
   securities from the securities-lending portfolios of several of AIG’s U.S.-
   regulated insurance subsidiaries, in order to help relieve liquidity pressures
   stemming from their security-lending programs.
•	 FRBNY created Maiden Lane III, another SPV, to which FRBNY lent $24.3 bil-                 For more on the creation of the Maiden
   lion to buy from AIG’s counterparties collateralized debt obligations underlying           Lane III SPV, see SIGTARP’s audit report,
                                                                                              “Factors Affecting Payments to AIG’s
   credit default swap contracts written by AIG.
                                                                                              Counterparties,” dated November 17,
                                                                                              2009.
    On March 30, 2011, FRBNY announced that it will dispose of the securities
in Maiden Lane II over time using a competitive sales process through its invest-
ment manager BlackRock Solutions. According to FRBNY, there will be no fixed
timeframe for the sales.469 According to FRBNY, the fair value of the Maiden Lane
II assets was $15.9 billion as of March 30, 2011.470 As of April 15, 2011, FRBNY
had completed three sales of a total of 87 bonds from the Maiden Lane II portfolio
with a face value totaling $2.5 billion. The first sale occurred on April 6, 2011, for
42 bonds with a face value of $1.3 billion. The second sale occurred on April 13,
2011, for 37 bonds with a face value of $626 million. The third sale occurred on
April 14, 2011, for 8 bonds with a face value of $534 million. To date, FRBNY has
not identified the purchasers or the sale prices of the securities sold. On March
30, 2011, FRBNY announced that, along with providing quarterly updates on total
134          special inspector general I troubled asset relief program




                                                    proceeds from sales and the total amount purchased by each counterparty, it will
                                                    publish the identity of the purchasers and sale price for each individual security
                                                    three months after the last asset is sold.471
                                                         Treasury and the Federal Reserve on March 2, 2009, announced a restructur-
                                                    ing of Government assistance to AIG that, according to Treasury, was designed to
                                                    strengthen the company’s capital position.472 The measures included an autho-
                                                    rization for FRBNY to acquire up to $26 billion of preferred equity interests in
                                                    two SPVs formed to hold two of AIG’s largest foreign life insurance subsidiaries
                                                    (American International Assurance Co., Ltd. [“AIA”], and American Life Insurance
                                                    Company [“ALICO”]). The SPVs’ creation also facilitated the independence of
                                                    these two subsidiaries in anticipation of a sale or initial public offering (“IPO”).473
                                                         On December 1, 2009, FRBNY received $16 billion in preferred equity inter-
                                                    ests in AIA Aurora LLC (“AIA SPV”) and $9 billion in the ALICO Holdings LLC
                                                    (“ALICO SPV”). This action decreased the outstanding principal balance of AIG’s
                                                    revolving credit facility by $25 billion and reduced its total facility borrowing capac-
                                                    ity from $60 billion to $35 billion.474 Under the transaction’s original terms, with
                                                    limited exceptions, all proceeds from the voluntary sale, public offering, or other
                                                    liquidation of the assets or businesses held by the SPVs had to be used first to
                                                    fully redeem FRBNY’s interests in the SPVs and then to reduce the outstanding
                                                    revolving credit facility.475 After a series of additional payments, from March 12,
                                                    2010, to December 31, 2010, the borrowing capacity was reduced to approximately
                                                    $25.1 billion and AIG’s total outstanding principal and interest balance under the
                                                    revolving credit facility was $20.3 billion.476 As of January 14, 2011, that total,
                                                    including fees, had grown to $20.7 billion.477
      For more on AIG’s Federal Reserve
                                                         Upon closing the Recapitalization Plan on January 14, 2011, AIG repaid the
      credit facility reduction transaction,
      see SIGTARP’s January 2010 Quarterly          remaining balance of the FRBNY revolving credit facility with proceeds from the
      Report, page 73.                              AIA IPO and the ALICO sale, and the facility was terminated.478

                                                    Sale of Business Assets
                                                    AIG announced on September 30, 2010, that it had entered into a definitive
                                                    sale agreement with Prudential Financial, Inc., for the sale of its two Japanese-
                                                    based life insurance subsidiaries, AIG Star Life Insurance Co., Ltd. (“Star”), and
                                                    AIG Edison Life Insurance Company (“Edison”), for a total of $4.8 billion.479
                                                    On February 1, 2011, AIG completed the sale of Star and Edison to Prudential
                                                    Financial, Inc., for $4.8 billion, consisting of $4.2 billion in cash and $0.6 billion
                                                    in the assumption of third-party debt.480 Under the terms of the Recapitalization
                                                    Plan, AIG was required to use all net cash proceeds from the Star and Edison sales
                                                    to repay a portion of Treasury’s preferred interests in the AIA and ALICO SPVs.481
                                                    Instead, on February 8, 2011, AIG entered into a letter agreement with Treasury
                                                    permitting AIG to retain $2 billion of net cash proceeds from the sale of Star and
                                                    Edison to strengthen loss reserves and support the capital of one of AIG’s operating
                                                                                                                       quarterly report to congress I april 28, 2011   135




companies, Chartis, Inc., which had taken a charge of more than $4 billion to its
reserves.482 On February 14, 2011, the remaining $2.2 billion in cash proceeds went
to repay a portion of Treasury’s preferred interests in the AIA and ALICO SPVs.483
     On October 29, 2010, AIG completed an IPO of 8.1 billion shares of AIA
Group Limited (“AIA”).484 According to AIG, the gross proceeds from the IPO
were $20.5 billion. Upon completion of the IPO, AIG owned approximately 33%
of AIA’s outstanding shares, which will continue to be held in the AIA SPV. AIG is
precluded from selling or hedging any of its remaining shares in AIA until October
18, 2011, and from selling or hedging more than half of its remaining shares of AIA
until April 18, 2012.485
     On November 1, 2010, AIG finalized the sale of ALICO to MetLife, Inc. AIG
received $16.2 billion through the sale of ALICO, $7.2 billion of which was paid in
cash and $9.0 billion in equity interests in MetLife. These equity interests were ini-
tially held in the ALICO SPV, then were sold on March 8, 2011, for $9.6 billion.486
     On January 12, 2011, AIG accepted a $2.2 billion cash offer for 97.6% of its
Taiwan life insurance unit, Nan Shan Life Insurance Company, Ltd. (“Nan Shan”),
from Ruen Chen Investment Holding Co., Ltd., subject to regulatory approval.487
     Effective January 14, 2011, the cash proceeds from the AIA IPO and ALICO
sale were disbursed to FRBNY as part of the Recapitalization Plan. For a summary
of AIG asset sales in excess of $1 billion, see Table 2.27.

 Table 2.27

 AIG ASSET SALES IN EXCESS of $1 Billion
 AIG Asset                       Gross Proceeds             Date             Buyer or Public
 AIA (sold 67%)                  $20.5 billion              10/29/2010 Public: Initial Public Offering
                                 $7.2 billion cash
 ALICO                           $9 billion MetLife         11/1/2010 Buyer: MetLife, Inc.
                                 equity interests
 MetLife equity interests        $9.6 billion               3/8/2011         Buyer: MetLife, Inc.
 AIG Star Life Insurance
 and AIG Edison Life             $4.8 billion               2/1/2011         Buyer: Prudential Financial, Inc.
 Insurance
                                                            Subject to
 Nan Shan Life Insurance                                                     Buyer: Ruen Chen Investment
                            $2.2 billion                    regulatory
 Co. (agreed to sell 97.6%)                                                  Holding Co., Ltd.
                                                            approval
 Note: Numbers affected by rounding.
 Sources: AIG, “AIG Enters Into Agreement To Sell Star and Edison Life Companies,” 9/30/2010, www.aigcorpo-
 rate.com/newsroom/index.html, accessed 12/9/2010; AIG, 8-K, 10/22/2010, www.sec.gov/Archives/edgar/
 data/5272/000095012310095032/y87334e8vk.htm, accessed 12/22/2010; AIG, “AIG Raises Nearly $37 Billion In Two
 Transactions To Repay Government,” 11/1/2010, http://ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UA
 mrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 12/9/2010;
 AIG, 10-Q, 10/29/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, ac-
 cessed 1/18/2011; AIG, “AIG Raises Nearly $37 Billion In Two Transactions To Repay Government,” 11/1/2010, http://
 ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMEr-
 V4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 1/18/2011; AIG, “AIG Enters Into Agreement To Sell Nan Shan To
 Taiwan-Based Consortium Led By The Ruentex Group,” 1/12/2011, http://ir.aigcorporate.com/External.File?t=2&item=g7r
 qBLVLuv81UAmrh20Mp2GDwAh4Ju2qNKZiaQ+LC4eLA/wD8wJ898T+OGLtuOD53u0EV2e/b6wq8HGwkVuaVQ==, accessed
 1/18/2011; AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/data/5272/000104746911001283/a2202141z10-k.
 htm, accessed 3/31/2011; AIG, 13G, 3/08/2011, www.sec.gov/Archives/edgar/data/5272/000095012311023024/
 y90152sc13gza.htm, accessed 3/11/2011.
136   special inspector general I troubled asset relief program




                                             AIG Recapitalization Plan
                                             On January 14, 2011, AIG completed its Recapitalization Plan, which consisted
                                             of a series of integrated transactions that were outlined in a Master Transaction
                                             Agreement dated December 8, 2010. The Recapitalization Plan was based
                                             on a plan originally announced on September 30, 2010.488 AIG executed the
                                             Recapitalization Plan with Treasury, FRBNY, the AIG Credit Facility Trust (“AIG
                                             Trust”) (the entity in which FRBNY placed the management of the 79.8% equity
                                             interest in AIG that was issued as a condition of the FRBNY credit facility), ALICO
                                             SPV, and AIA SPV to recapitalize itself, with the intent to repay the Government’s
                                             loans and investments in AIG.489
                                                 Execution of the Recapitalization Plan entailed three main steps. First, AIG
                                             terminated its revolving credit facility with FRBNY by repaying the $20.7 billion
                                             balance in full using a portion of the cash proceeds from the AIA IPO and the sale
                                             of ALICO.490
                                                 Second, the remaining amount of FRBNY’s holdings in the AIA and ALICO
                                             SPVs, $6.1 billion, was redeemed by AIG with cash proceeds from the AIA IPO and
                                             the ALICO sale.491 AIG then drew $20.3 billion of the remaining funds available
                                             under the TARP Series F equity capital facility (which had $22.3 billion still avail-
                                             able as of December 31, 2010) to repurchase an equivalent amount of FRBNY’s
                                             preferred interests in the AIA and ALICO SPVs, and then transferred those inter-
                                             ests to Treasury.492 The remaining available TARP funds, approximately $2 billion,
                                             were used to create a new standby equity commitment through the issuance of
                                             Series G preferred stock, which will be available for future drawdown by AIG.493
                                                 Treasury’s preferred SPV interests are secured by the following:494

                                             •	 AIG’s remaining shares in AIA post-IPO (approximately 33% of AIA’s outstand-
                                                ing shares)
                                             •	 AIG’s equity and residual interests in Maiden Lane II and III
                                             •	 the proceeds of the sale of Nan Shan
                                             •	 AIG’s ownership interest in International Lease Finance Corporation (“ILFC”)

                                                 The remaining preferred SPV interests were also secured by AIG’s ownership
                                             interest in Star and Edison and the equity interests in MetLife, Inc., received
                                             from the sale of ALICO to MetLife, Inc. On February 14, 2011, AIG used part of
                                             the proceeds from the sales of Star and Edison to repay $2.2 billion of Treasury’s
                                             preferred interests in the AIA and ALICO SPVs.495 On March 8, 2011, AIG sold
                                             its equity interests in MetLife for $9.6 billion. AIG reserved $3 billion in escrow
                                             for obligations that may be owed to MetLife under the terms of the ALICO sale
                                             and paid Treasury $6.9 billion, which included $300 million held in an expense
                                             reserve related to the sale of ALICO to MetLife. According to Treasury, this
                                                                                quarterly report to congress I april 28, 2011          137




transaction completely repaid Treasury’s preferred interest in the ALICO SPV and
reduced Treasury’s preferred interests in the AIA SPV.496 The $3 billion in escrowed
funds will be released to Treasury over a 30-month period, if they are not paid to
MetLife.497 According to Treasury, the outstanding balance of Treasury’s preferred
interest in the AIA SPV as of March 31, 2011, was $11.3 billion. AIG expects to
continue to repay Treasury for its preferred interest in the SPVs through proceeds
from future asset sales.498 If the proceeds from the sales of all the remaining assets
securing the SPVs are insufficient to fully redeem Treasury’s interest in the AIA
SPV, Treasury will recognize a loss in the amount of the shortfall.
    In the third and final step of the Recapitalization Plan, AIG extinguished all
prior outstanding preferred shares (including a $1.6 billion obligation for unpaid
dividends) held by the Government and issued 1.655 billion shares of common
stock, representing 92.1% of the common stock of AIG.499 The AIG Trust was then
terminated. Before the execution of the Recapitalization Plan, AIG had 143 million
common shares outstanding, which represented a 20% ownership interest. The
shares were owned by non-Government common shareholders. The 20% owner-
ship interest of these shares was diluted to approximately 8% after the closing.500 To
its existing non-Government common shareholders, AIG issued 10-year warrants to           For a more detailed description of the AIG
                                                                                          Recapitalization Plan, see SIGTARP’s
purchase up to a cumulative total of 75 million shares of common stock at a strike
                                                                                          January 2011 Quarterly Report, pages
price of approximately $45 per share.501                                                  135-139.

Treasury’s Rights under the Exchange Plan
As part of the exchange, AIG entered into an agreement with Treasury that grants
Treasury registration rights with respect to the shares of AIG common stock. Under
the rights agreement, until Treasury’s ownership of AIG’s voting securities falls
below 33%, AIG will have to obtain Treasury’s consent to the terms, conditions, and
pricing of any equity offering, including any primary offering by AIG. Additionally,
AIG is required to pay Treasury’s expenses for the registration of shares and under-
writing fees, up to 1% of the amount offered by Treasury.502

Recent AIG Credit Developments
On January 31, 2011, ILFC, AIG’s aircraft leasing subsidiary, entered into a three-
year unsecured $2 billion revolving credit agreement with various financial insti-
tutions for general corporate purposes.503 On March 31, 2011, ILFC announced
that a group of 15 banks had made a commitment for a $1.3 billion secured term
loan; the company can borrow an additional $200 million under the facility if more
banks participate. According to ILFC, proceeds from the loan will prepay existing
bank facilities that were scheduled to mature in October 2011 and 2012. ILFC
will draw down the new term loan over the next year, with final maturity scheduled
for 2018.504
138   special inspector general I troubled asset relief program




                                             Loss Estimates
                                             Treasury has multiple investments in AIG, and potential losses (or gains) will
                                             depend on market conditions. First, Treasury has the 92.1% equity stake in AIG
                                             (composed of the exchanged $40 billion of Series E preferred shares, $1.6 billion in
                                             unpaid Series D dividends, and $7.5 billion drawn from the Series F equity capital
                                             facility). Second, according to Treasury, it has $11.3 billion in preferred interests
                                             in the AIA SPV. Third, Treasury allocated $2 billion to fund the Series G standby
                                             equity commitment, which, as of March 31, 2011, had not been drawn down.505
                                             Under the Series G commitment, AIG may draw up to $2 billion in funds for
                                             general corporate purposes until March 31, 2012. At that time, Series G shares will
                                             automatically convert into a number of shares of common stock, which Treasury
                                             will have the right to sell.506
                                                 According to Treasury, it must sell the shares at or above $28.72 per share in
                                             order to recoup its investment. Treasury calculated this break-even price by divid-
                                             ing the $47.5 billion in cash invested in AIG by the 1.655 billion common shares
                                             Treasury received.507
                                                 The Recapitalization Plan states that AIG will use the proceeds from sales of
                                             Nan Shan, AIG Star, AIG Edison, ILFC, and its subsidiaries’ interests in Maiden
                                             Lane II and Maiden Lane III to pay down Treasury’s preferred interests in the AIA
                                             SPV after the closing.508 If Treasury holds any SPV preferred interests after May 1,
                                             2013, Treasury will have the right to compel the sale of all or a portion of one or
                                             more of the entities that secure the SPV.509
                                                 In the President’s Fiscal Year 2012 budget, released on February 14, 2011,
                                             OMB estimated that Treasury’s losses from its investments in AIG would total
                                             $11.7 billion. (OMB valued the shares Treasury received from the AIG Trust,
                                             which is separate from TARP, at $20 billion at the end of November 2010.) In
                                             order to calculate the value of Treasury’s AIG common stock, OMB adjusted the
                                             November 30, 2010, share price of $41.29 downward to $35.84, to reflect the
                                             value of the 75 million warrants that AIG issued to existing shareholders as part of
                                             the Recapitalization Plan that closed on January 14, 2011.510 On March 29, 2011,
                                             the CBO put its loss estimate for AIG at $14 billion.511

                                             Targeted Investment Program and Asset Guarantee Program
                                             Treasury invested a total of $40 billion in two financial institutions, Citigroup
                                             Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
                                             Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
                                             on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
                                             in return for preferred shares paying quarterly dividends at an annual rate of 8%
                                             and warrants from each institution.512 According to Treasury, TIP’s goal was to
                                             “strengthen the economy and protect American jobs, savings, and retirement
                                             security [where] the loss of confidence in a financial institution could result in
                                                                                quarterly report to congress I april 28, 2011           139




significant market disruptions that threaten the financial strength of similarly situ-
                                                                                           For a discussion of the basis of the
ated financial institutions.”513 Both banks repaid TIP in December 2009.514 On             decision to provide Federal assistance to
March 3, 2010, Treasury auctioned the Bank of America warrants it received under           Citigroup, see SIGTARP’s audit report,
TIP for $1.26 billion.515 On January 25, 2011, Treasury auctioned the Citigroup            “Extraordinary Financial Assistance
                                                                                           Provided to Citigroup, Inc.,” dated
warrants it had received under TIP for $190.4 million.516
                                                                                           January 13, 2011.
    Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately
$301 billion. In return, as a premium, the Government received warrants to
purchase Citigroup common stock and $7 billion in preferred stock. The preferred
stock was subsequently exchanged for trust preferred securities (“TRUPS”).517
    Treasury received $4 billion of the TRUPS and the FDIC received $3 billion.518
Although Treasury’s asset guarantee was not a direct cash investment, it exposed              Trust Preferred Securities (“TRUPS”):
taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in con-               Securities that have both equity and
nection with Citigroup’s TIP repayment, Citigroup and Treasury terminated the                 debt characteristics created by estab-
AGP agreement. Although at the time of termination the asset pool suffered a                  lishing a trust and issuing debt to it.
$10.2 billion loss, this number was below the agreed-upon deductible and the
Government suffered no loss.519
    Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,
reducing the premium it received from $4.0 billion to $2.2 billion, in exchange for
the early termination of the loss protection. The FDIC retained all of its $3 billion
in securities.520 Under the termination agreement, however, the FDIC will transfer
up to $800 million of those securities to Treasury if Citigroup’s participation in the
FDIC’s Temporary Liquidity Guarantee Program closes without a loss.521
    On September 29, 2010, Treasury entered into an agreement with Citigroup
to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for
new TRUPS. Because the interest rate necessary to receive par value was below
the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
amount of the securities sold by Treasury by an additional $12.0 million, thereby
enabling Treasury to receive an additional $12.0 million in proceeds from the
$2.2 billion sale of the Citigroup TRUPS, which occurred on September 30,
2010.522 On January 25, 2011, Treasury auctioned the Citigroup warrants it had
received under AGP for $67.2 million.523 According to Treasury, it has realized a
gain of approximately $12.3 billion over the course of Citigroup’s participation in
AGP, TIP, and CPP, including dividends, other income, and warrant sales.524
    Bank of America announced a similar asset guarantee agreement with respect to
approximately $118 billion in Bank of America assets, but the final agreement was
never executed. Bank of America paid $425 million to the Government as a termina-
tion fee.525 Of this $425 million, $276 million was paid to Treasury, $92 million was
paid to the FDIC, and $57 million was paid to the Federal Reserve.526
140            special inspector general I troubled asset relief program




                                                      ASSET SUPPORT PROGRAMS
                                                      Three TARP programs have focused on supporting markets for specific asset class-
                                                      es: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-Private
                                                      Investment Program (“PPIP”), and the Unlocking Credit for Small Businesses
                                                      (“UCSB”) program.
                                                          As initially announced, TALF was designed to support asset-backed securities
                                                      (“ABS”) transactions by providing investors up to $200 billion in non-recourse
      Non-Recourse Loan: Secured loan in
                                                      loans through the Federal Reserve Bank of New York (“FRBNY”) to purchase non-
      which the borrower is relieved of the
                                                      mortgage-backed ABS and commercial mortgage‑backed securities (“CMBS”). The
      obligation to repay the loan upon sur-
      rendering the collateral.
                                                      program was supported by up to $20 billion in TARP funds to be used if borrowers
                                                      surrendered the ABS purchased through the program and walked away from their
                                                      loans. The TARP obligation was subsequently reduced to $4.3 billion.527 TALF
                                                      ultimately provided $71.1 billion in Federal Reserve financing by the time the pro-
                                                      gram closed to new loans.528 Of that amount, as of March 31, 2011, $19.2 billion
                                                      remains outstanding.529
                                                          PPIP uses a combination of private equity, Government equity, and
                                                      Government debt through TARP to facilitate purchases of legacy mortgage-backed
                                                      securities (“MBS”) held by financial institutions. In July 2009, Treasury announced
                                                      the selection of nine Public-Private Investment Fund (“PPIF”) managers and a
                                                      total potential commitment of $30 billion in TARP funds.530 The actual funding
                                                      of that commitment depended on how much private capital the PPIF managers
                                                      raised. After the fund-raising period was completed, Treasury’s PPIP obligation was
                                                      capped at $22.4 billion.531 The PPIF managers are currently purchasing invest-
                                                      ments and managing their portfolios.
                                                          Through the UCSB loan support initiative, Treasury launched a program to
                                                      purchase SBA 7(a) securities, which are securitized small-business loans. Treasury
                                                      originally committed $15 billion to the program; the commitment was subsequently
                                                      lowered several times. By the time the program closed, it had made a total of ap-
                                                      proximately $368.1 million in purchases.532

                                                      TALF
                                                      TALF, which was announced in November 2008, issued loans collateralized by
                                                      eligible ABS.533 According to FRBNY, “The ABS markets historically have funded a
                                                      substantial share of credit to consumers and businesses,” and TALF was “designed
                                                      to increase credit availability and support economic activity by facilitating renewed
                                                      issuance of consumer and business ABS.”534 The program was extended to eligible
                                                      newly issued CMBS in June 2009 and to eligible legacy CMBS in July 2009.535
                                                      TALF closed to new lending in June 2010.536
                                                                                quarterly report to congress I april 28, 2011             141




   TALF is divided into two parts:537

•	 a lending program, TALF, that originated non-recourse loans to eligible borrow-            Collateral: Asset pledged by a bor-
   ers using eligible ABS and CMBS as collateral                                              rower to a lender until a loan is repaid.
•	 an asset disposition facility, TALF LLC, that purchases the collateral from                Generally, if the borrower defaults on
   FRBNY if borrowers choose to surrender it and walk away from their loans or if             the loan, the lender gains ownership
   the collateral is seized in the event of default                                           of the pledged asset and may sell it to
                                                                                              satisfy the debt. In TALF, the ABS or
     TALF, which was managed and substantially funded by FRBNY, closed its lend-              CMBS purchased with the proceeds
ing program in 2010, with the last non-mortgage-backed ABS and legacy CMBS                    from the TALF loan is the collateral that
subscriptions closing on March 11, 2010, and March 29, 2010, respectively, and                is posted with FRBNY.
the last subscription for newly issued CMBS closing on June 28, 2010.538
     The asset disposition facility, TALF LLC, is managed by FRBNY and remains
in operation.539 TALF LLC charges FRBNY a fee for the commitment to purchase
any collateral surrendered by the borrowers. TALF LLC’s funding comes first from
that fee, which is derived from the principal balance of each outstanding TALF
program loan.540 In the event that such funding proves insufficient, funding would
then come from TARP, which is obligated to lend up to the authorized limit in
subordinated debt from TALF LLC.541 TARP’s original TALF obligation was $20
billion, to support up to $200 billion in TALF loans. However, when TALF’s lend-
ing phase ended in June 2010 with $42.5 billion in loans outstanding, Treasury and
the Federal Reserve agreed to reduce the TARP obligation to $4.3 billion.542 The
TARP money is available for TALF LLC to use to purchase surrendered assets from
FRBNY and may offset losses associated with disposing of the surrendered assets.
As of March 31, 2011, $19.2 billion in TALF loans were outstanding.543 No TALF
loans have been in default and consequently no collateral has been purchased by               Synthetic ABS: Security deriving its
TALF LLC since its inception.544                                                              value and cash flow from sources other
                                                                                              than conventional debt, equities, or
Lending Program                                                                               commodities — for example, credit
TALF’s lending program made secured loans to eligible borrowers.545 The loans                 derivatives.

were issued with terms of three or five years and were available for non-mortgage-
                                                                                              Nationally Recognized Statistical Rating
backed ABS, newly issued CMBS, and legacy CMBS.546
                                                                                              Organization (“NRSRO”): Credit rating
    To be eligible for TALF, the non-mortgage-backed ABS had to meet certain
                                                                                              agency registered with the SEC. Credit
criteria, including the following:547                                                         rating agencies provide their opinion of
                                                                                              the creditworthiness of companies and
•	 be U.S.-dollar-denominated cash (not synthetic ABS)                                        the financial obligations issued by com-
•	 bear short-term and long-term credit ratings of the highest investment grade               panies. The ratings distinguish between
   (i.e., AAA) from two or more major nationally recognized statistical rating orga-          investment grade and non‑investment
   nizations (“NRSROs”) identified by FRBNY as eligible to rate non-mortgage-                 grade equity and debt obligations.
   backed ABS collateral for TALF loans
142           special inspector general I troubled asset relief program




                                                     •	 not bear a long-term credit rating less than the highest rating by a major
                                                        NRSRO
                                                     •	 have all or substantially all of the underlying loans originate in the United States
                                                     •	 have any one of the following types of underlying loans: automobile, stu-
                                                        dent, credit card, equipment, dealer floor plan, insurance premium finance,
      For a discussion of the credit rating agency      small business with principal and interest fully guaranteed by SBA, or receiv-
      industry and an analysis of the impact of         ables related to residential mortgage servicing advances (“servicing advance
      NRSROs on TARP and the overall finan-             receivables”)
      cial market, see SIGTARP’s October 2009
                                                     •	 not have collateral backed by loans originated or securitized by the TALF bor-
      Quarterly Report, pages 113-148.
                                                        rower or one of its affiliates

                                                        To qualify as TALF collateral, newly issued CMBS and legacy CMBS had
                                                     to meet numerous requirements, some of which were the same for both CMBS
                                                     types:548

                                                     •	 evidence an interest in a trust fund that consists of fully funded mortgage loans
                                                        and not other CMBS, other securities or interest rate swap or cap instruments
                                                        or other hedging instruments
                                                     •	 possess a credit rating of the highest long-term investment grade from at least
                                                        two rating agencies identified by FRBNY as eligible to rate CMBS collateral for
                                                        TALF loans, and not possess a credit rating below the highest investment grade
                                                        from any of those rating agencies
                                                     •	 offer principal and interest payments
                                                     •	 have been issued by any institution other than a Government-sponsored enter-
                                                        prise (“GSE”) or an agency or instrumentality of the U.S. Government
                                                     •	 include a mortgage or similar instrument on a fee or lease-hold interest in one
                                                        or more income-generating commercial properties

                                                         Some differences existed between requirements for eligible newly issued CMBS
                                                     and eligible legacy CMBS. Newly issued CMBS had to meet the following addi-
                                                     tional requirements:549
                                                     •	 be issued on or after January 1, 2009
                                                     •	 evidence first-priority mortgage loans that were current in payment at the time
                                                        of securitization
                                                     •	 not be junior to other securities with claims on the same pool of loans
                                                     •	 have 95% or more of the dollar amount of the underlying credit exposures origi-
                                                        nated by a U.S.-organized entity or a U.S. branch or agency of a foreign bank
                                                     •	 have each property located in the United States or its territories
                                                                               quarterly report to congress I april 28, 2011            143




   Legacy CMBS had to meet the following additional requirements:550

•	 be issued before January 1, 2009
•	 not have been junior to other securities with claims on the same pool of loans at
   the time the CMBS was issued
•	 have 95% or more of the underlying properties, in terms of the related loan
   principal balance, located in the United States or its territories

    The final maturity date of loans in the TALF portfolio is March 30, 2015.551
TALF loans are non-recourse (unless the borrower has made any misrepresenta-
tions or breaches warranties or covenants), which means that FRBNY cannot hold
the borrower liable for any losses beyond the surrender of any assets pledged as
collateral.552

Loan Terms
TALF participants were required to use a TALF agent to apply for a TALF loan.553
                                                                                             TALF Agent: Financial institution that
After the collateral (the particular asset-backed security financed by the TALF loan)
                                                                                             is party to the TALF Master Loan and
was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,
                                                                                             Security Agreement and that occasion-
which represents the amount of money put up by the borrower (the borrower’s
                                                                                             ally acts as an agent for the borrower.
“skin in the game”), was required for each TALF loan.554 Haircuts for non-mort-
                                                                                             TALF agents include primary and non-
gage-backed ABS varied based on the riskiness and maturity of the collateral, and            primary broker-dealers.
generally ranged between 5% and 16% for non-mortgage-backed ABS with average
lives of five years or less.555 The haircut for legacy and newly issued CMBS was             Haircut: Difference between the value
generally 15% but increased above that amount if the average life of the CMBS was            of the collateral and the amount of the
greater than five years.556                                                                  loan (the loan amount is less than the
    FRBNY lent each borrower the amount of the market price of the pledged col-              collateral value).
lateral minus the haircut, subject to certain limitations.557 The borrower delivered
the collateral to the custodian bank, which collects payments generated by the               Skin in the Game: Equity stake in an in-
collateral and distributes them to FRBNY (representing the borrower’s payment of             vestment; down payment; the amount
                                                                                             an investor can lose.
interest on the TALF loan).558 Any excess payments from the collateral above the
interest due and payable to FRBNY on the loan go to the TALF borrower.559
                                                                                             Custodian Bank: Bank holding the
    Because the loans are non-recourse, the risk for any borrower is limited to the
                                                                                             collateral and managing accounts for
haircut and any additional principal that may be paid down on the TALF loan. If
                                                                                             FRBNY; for TALF the custodian is Bank
the securities pledged as collateral are worth less than the loan balance when the           of New York Mellon.
loan is due, the borrower would likely surrender the collateral rather than pay the
loan balance. The Government would then be at risk for potential losses equal to
the difference between the loan balance and the value of the collateral.560
144   special inspector general I troubled asset relief program




                                             TALF Loan Subscriptions
                                             The final TALF loans collateralized by non-mortgage-backed ABS were settled on
                                             March 11, 2010.561 TALF provided $59 billion of loans to purchase non-mortgage-
                                             backed ABS during the lending phase of the program. Of all such loans settled,
                                             $15.5 billion was outstanding as of March 31, 2011.562 Table 2.28 lists all settled
                                             TALF loans collateralized by non-mortgage-backed ABS, by ABS sector.
                                                 The final subscription for TALF CMBS loans was settled on June 28, 2010.
                                             TALF provided $12.1 billion of loans to purchase CMBS during the lending phase
                                             of the program; approximately 99% of the loan amount was used to purchase legacy
                                             securities.563 Of all such loans settled, $3.7 billion was outstanding as of March 31,
                                             2011.564 Table 2.29 includes all TALF CMBS loans that have been settled.


                                             Table 2.28

                                              TALF Loans Settled by ABS Sector
                                              (Non-mortgage-backed Collateral)                                   ($ Billions)
                                                                                      1st              2nd              3rd               4th              1st
                                                                                  Quarter           Quarter          Quarter          Quarter          Quarter
                                             ABS Sector                             2009              2009             2009             2009             2010               Total
                                             Auto Loans                                $1.9              $6.1             $4.5             $0.2             $0.1        $12.8
                                             Credit Card Receivables                     2.8             12.4               8.4              1.8             0.9            26.3
                                             Equipment Loans                              —               1.0               0.1              0.3             0.2             1.6
                                             Floor Plan Loans                             —                 —               1.0              1.5             1.4             3.9
                                             Premium Finance                              —               0.5               0.5               —              1.0             2.0
                                             Servicing Advance
                                                                                          —               0.4               0.1              0.6             0.1             1.3
                                             Receivables
                                             Small-Business Loans                         —               0.1               0.4              0.9             0.7             2.2
                                             Student Loans                                —               2.5               3.6              1.0             1.8             8.9
                                             Total                                     $4.7           $23.0             $18.7              $6.4            $6.1        $59.0

                                             Notes: Numbers may not total due to rounding. Data as of 3/31/2011. The first subscription in the program was in March 2009;
                                             therefore, the first quarter of 2009 represents one subscription while the remaining quarters represent three subscriptions.

                                             Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
                                             html, accessed 4/3/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/
                                             TALF_recent_operations.html, accessed 4/3/2011.



                                             Table 2.29

                                              TALF LOANS SETTLED (CMBS COLLATERAL)                                   ($ Billions)
                                                                                      2nd              3rd               4th               1st             2nd
                                             Type of Collateral                    Quarter          Quarter          Quarter           Quarter          Quarter
                                             Assets                                  2009             2009             2009              2010             2010              Total
                                             Newly Issued CMBS                           $—               $—              $0.1               $—               $—            $ 0.1
                                             Legacy CMBS                                   —               4.1             4.5               3.3                —           12.0
                                             Total                                       $—             $4.1             $4.6              $3.3               $—        $12.1

                                             Notes: Numbers may not total due to rounding. Data as of 3/31/2011. The second quarter of 2009 was only for legacy CMBS, while
                                             the second quarter of 2010 was only for newly issued CMBS.

                                             Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html,
                                             accessed 4/3/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_re-
                                             cent_operations.html, accessed 4/3/2011.
                                                                              quarterly report to congress I april 28, 2011    145




  The Federal Reserve posted on its website detailed information on the 177
TALF borrowers, including: 565

•	 the names of all the borrowers from TALF (some of which share a parent company)
•	 each borrower’s city, state, and country
•	 the name of any material investor in the borrower (defined as a 10% or greater
   beneficial ownership interest in any class of security of a borrower)
•	 the amount of the loan
•	 outstanding loan amount as of September 30, 2010
•	 the loan date
•	 the loan maturity date
•	 the date of full repayment (if applicable)
•	 the date of loan assignment (if applicable)
•	 the loan rate (fixed or floating)
•	 the market value of the collateral associated with the loan at the time the loan
   was extended
•	 the name of the issuer of the ABS collateral associated with the loan
•	 the collateral asset class and subclass

    As of March 31, 2011, $51.9 billion in TALF loans had been repaid. According         For the complete list of TALF bor-
to FRBNY, the borrowers of the $19.2 billion in TALF loans that had not been             rowers, refer to the FRBNY website:
repaid in full were current in their payments.566                                        www.federalreserve.gov/newsevents/
                                                                                         reform_talf.htm.

Asset Disposition Facility
When FRBNY created TALF LLC, the facility that is used to purchase collateral
received by FRBNY if TALF borrowers walk away from their loans, TARP loaned
the facility $100 million. Of this initial funding, $15.8 million was allocated to
cover administrative costs.567 TARP will continue to fund TALF LLC, as needed,
until TARP’s entire $4.3 billion obligation has been funded, all TALF loans are
retired, or the loan commitment term expires. Any additional funds, if needed, will
be provided by a loan from FRBNY that will be collateralized by the assets of TALF
LLC and will be senior to the TARP loan.568 Payments by TALF LLC from the
proceeds of its holdings will be made in the following order:569

•	   operating expenses of TALF LLC
•	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
•	   principal due to Treasury
•	   interest due to FRBNY
•	   interest due to Treasury
•	   other secured obligations

     Any remaining money will be shared by Treasury (90%) and FRBNY (10%).570
146           special inspector general I troubled asset relief program




                                                     Current Status
                                                     As of March 31, 2011, no collateral had been surrendered or purchased by TALF
                                                     LLC.571 As of the same date, TALF LLC had assets of $718 million.572 That amount
                                                     included the $100 million in initial TARP funding.573 The remainder consisted of
                                                     interest payments and interest income earned from permitted investments. From
                                                     its February 4, 2009, formation through March 31, 2011, TALF LLC had spent
                                                     approximately $1.5 million on administration.574
                                                         When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
                                                     the program shifted primarily to portfolio management, which includes the follow-
                                                     ing duties:575

                                                     •	 maintaining documentation
                                                     •	 overseeing the custodian that is responsible for holding ABS collateral
                                                     •	 calculating and collecting principal and interest on TALF loans
                                                     •	 disbursing excess spread to TALF borrowers in accordance with the governing
      Excess Spread: Funds left over after
                                                        documents
      required payments and other con-
      tractual obligations have been met. In
                                                     •	 monitoring the TALF portfolio
      TALF it is the difference between the          •	 collecting and managing collateral assets if a borrower defaults or surrenders the
      periodic amount of interest paid out              collateral in lieu of repayment
      by the collateral and the amount of            •	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
      interest charged by FRBNY on the non-             of FRBNY’s cost of funding
      recourse loan provided to the borrower
      to purchase the collateral.
                                                                               quarterly report to congress I april 28, 2011              147




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program
(“PPIP”) is to purchase legacy securities from financial institutions through Public-        Legacy Securities: Real estate-related
Private Investment Funds (“PPIFs”). PPIFs are partnerships, formed specifically              securities originally issued before
for this program, that invest in mortgage-backed securities using equity capital             2009 that remained on the balance
                                                                                             sheets of financial institutions because
from private-sector investors combined with TARP equity and debt. A private-sector
                                                                                             of pricing difficulties that resulted from
fund management firm oversees each PPIF on behalf of these investors. According
                                                                                             market disruption.
to Treasury, the aim of PPIP was to “restart the market for legacy securities, al-
lowing banks and other financial institutions to free up capital and stimulate the
                                                                                             Equity: Investment that represents an
extension of new credit.”576                                                                 ownership interest in a business.
    Treasury selected nine fund management firms to establish PPIFs. One PPIF
manager, The TCW Group, Inc. (“TCW”), subsequently withdrew. Private investors               Debt: Investment in a business that is
and Treasury co-invested in the PPIFs to purchase legacy securities from financial           required to be paid back to the inves-
institutions. The fund managers raised private-sector capital. Treasury matched the          tor, usually with interest.
private-sector equity dollar for dollar and provided debt financing in the amount
of the total combined equity. Each PPIF manager was also required to invest at
least $20 million of its own money in the PPIF.577 Each PPIF is approximately 75%
                                                                                             For more information on the selection of
TARP funded. PPIP was designed as an eight-year program but, under certain                   PPIF managers, see SIGTARP’s October
circumstances, Treasury can terminate it early or extend it for up to two additional         7, 2010, audit entitled “Selecting Fund
years.578                                                                                    Managers for the Legacy Securities
    The intent of the program is for the PPIFs to purchase securities from banks,            Public-Private Investment Program.”
insurance companies, mutual funds, pension funds, and other eligible financial
                                                                                             For more information on the with-
institutions, as defined in EESA.579 Treasury, the PPIF managers, and the private
                                                                                             drawal of TCW as a PPIF manager, see
investors share PPIF profits on a pro rata basis based on their limited partnership          SIGTARP’s January 2010 Quarterly
interests. PPIF losses are also shared on a pro rata basis, up to each participant’s         Report, page 88.
investment amount.580 In addition to its pro rata share, Treasury received warrants
in each PPIF, as mandated by EESA.581

                                                                                             Pro Rata: Refers to dividing something
                                                                                             among a group of participants accord-
                                                                                             ing to the proportionate share that
                                                                                             each participant holds as a part of the
                                                                                             whole.

                                                                                             Limited Partnership: Partnership in
                                                                                             which there is at least one partner
                                                                                             whose liability is limited to the amount
                                                                                             invested (limited partner) and at least
                                                                                             one partner whose liability extends
                                                                                             beyond monetary investment (general
                                                                                             partner).
148            special inspector general I troubled asset relief program




                                                           The securities eligible for purchase by PPIFs (“eligible assets”) are supported by
      Non-Agency Residential Mortgage-                real estate-related loans, including non-agency residential mortgage-backed securi-
      Backed Securities (“non-agency                  ties (“non-agency RMBS”) and commercial mortgage-backed securities (“CMBS”)
      RMBS”): Financial instrument backed             that meet the following criteria:582
      by a group of residential real estate           •	 issued before January 1, 2009 (legacy)
      mortgages (i.e., home mortgages for             •	 rated when issued AAA or equivalent by two or more credit rating agencies des-
      residences with up to four dwelling
                                                          ignated as nationally recognized statistical rating organizations (“NRSROs”)
      units) not guaranteed or owned by
                                                      •	 secured directly by actual mortgages, leases, or other assets, not other securities
      a Government-sponsored enterprise
                                                          (other than certain swap positions, as determined by Treasury)
      (“GSE”) (Fannie Mae, Freddie Mac, or a
                                                      •	 located primarily in the United States (the loans and other assets that secure the
      Government agency).
                                                          non-agency RMBS and CMBS)
                                                      •	 purchased from financial institutions that are eligible for TARP participation

                                                      Legacy Securities Program Process
                                                      The following steps describe the process by which funds participate in the Legacy
                                                      Securities Program:583

                                                      1.	 Fund managers applied to Treasury to participate in the program.
                                                      2.	 Pre-qualified fund managers raised the necessary private capital for the PPIFs.
                                                      3.	 Treasury matched the capital raised, dollar for dollar, up to a preset maximum.
                                                          Treasury also received warrants so that it could benefit further if the PPIFs turn
                                                          a profit.
                                                      4.	 Fund managers may borrow additional funds from Treasury up to 100% of the
                                                          total equity investment (including the amount invested by Treasury).
                                                      5.	 Each fund manager purchases and manages the legacy securities and provides
                                                          monthly reports to its investors, including Treasury.

                                                          Obligated funds are not given immediately to PPIF managers. Instead, PPIF
                                                      managers send a notice to Treasury and the private investors requesting portions of
                                                      obligated contributions in order to purchase specific investments or to pay certain
                                                      expenses and debts of the partnerships.584 When the funds are delivered, the PPIF
                                                      is said to have “drawn down” on the obligation.585

                                                      PPIF Purchasing Power
                                                      During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                                      of private-sector equity capital, which Treasury matched with a dollar-for-dollar
                                                      obligation for a total of $14.7 billion in equity capital. Treasury also obligated $14.7
                                                      billion of debt financing, resulting in $29.4 billion of PPIF purchasing power. As
                                                      of March 31, 2011, the current PPIFs have drawn down a total of approximately
                                                      $20.9 billion, of which $0.5 billion was repaid by PPIP manager Invesco. The
                                                      $20.9 billion ($5.3 billion from private-sector equity capital and $15.7 billion
                                                                                                                                quarterly report to congress I april 28, 2011   149




from TARP funding ($5.3 billion in equity and $10.4 billion in debt)) was used to
purchase PPIP-eligible assets.586 The assets purchased have been valued accord-
ing to a process administered by Bank of New York Mellon, operating as valuation
agent, at $22.1 billion as of March 31, 2011.587 Treasury has disbursed a total of
$16.0 billion for PPIP, $15.7 billion for the eight active PPIFs, and $356.3 million
for TCW.588
     The fund-raising stage for PPIFs is now complete. PPIF managers had six
months from the closing date of their first private-sector fund raising to raise
additional private-sector equity.589 Although Treasury initially pledged up to $30
billion for PPIP, the fund managers did not raise enough private-sector capital
for Treasury’s combination of matching funds and debt financing to reach that
amount. Treasury’s total obligation is now limited to $22.4 billion, which includes
$22.1 billion for active PPIFs, and $356.3 million disbursed to TCW, which TCW
repaid.590
     Notwithstanding the expiration of TARP’s purchasing authority on October 3,
2010, each active PPIF manager has up to three years from closing its first private-
sector equity contribution (the investment period) to draw upon the TARP funds
obligated for the PPIF.591 The last of the three-year investment periods expires in
December 2012. Table 2.30 shows all equity and debt obligated for active PPIFs
under the program.

Table 2.30

 Public-private investment program, AS OF 3/31/2011                                                     ($ Billions)
                                                          Private-
                                                           Sector                                                            Total
                                                           Equity            Treasury                Treasury           Purchasing
                                                          Capital              Equity                    Debt               Power
AG GECC PPIF Master Fund, L.P.                                $1.2                  $1.2                   $2.5                   $5.0
AllianceBernstein Legacy Securi-
                                                                1.2                  1.2                     2.3                       4.6
ties Master Fund, L.P.
BlackRock PPIF, L.P.                                            0.7                   0.7                    1.4                       2.8
Invesco Legacy Securities Master
                                                                0.9                  0.9                     1.7                       3.4
Fund, L.P.
Marathon Legacy Securities Public-
                                                                0.5                  0.5                     0.9                       1.9
Private Investment Partnership, L.P.
Oaktree PPIP Fund, Inc.                                         1.2                  1.2                     2.3                       4.6
RLJ Western Asset Public/
                                                                0.6                  0.6                     1.2                       2.5
Private Master Fund, L.P.
Wellington Management Legacy
                                                                1.1                   1.1                    2.3                       4.6
Securities PPIF Master Fund, LP
Current Totals                                                $7.4                 $7.4                  $14.7                 $29.4a

Notes: Numbers affected by rounding.
 Treasury initially obligated $0.4 billion to TCW. The $0.4 billion was paid to TCW, and TCW subsequently repaid the funds that were
a	

 invested in its PPIF. Because this PPIF has closed, the amount is not included in the total purchasing power.

Source: PPIF Monthly Performance Reports submitted by each PPIF manager, March 2011, received 4/15/2011.
150   special inspector general I troubled asset relief program




                                             Fund Performance
                                             Each PPIF’s performance — its gross and net returns since inception — as re-
                                             ported by PPIF managers, is listed in Table 2.31. The returns are calculated based
                                             on a methodology requested by Treasury. Each PPIF has three years to buy legacy
                                             securities on behalf of its private and Government investors. The program strives to
                                             maintain “predominantly a long-term buy and hold strategy.”592
                                                The data in Table 2.31 constitutes a snapshot of the funds’ performance during
                                             the quarter ended March 31, 2011, and may not predict the funds’ performance
                                             over the long term. According to some PPIF managers, it would be premature to
                                             draw any long-term conclusions because, among other reasons, some managers
                                             have not fully executed their investment strategies or fully drawn down Treasury’s
                                             capital or debt obligations.


                                             Table 2.31

                                              PPIF INVESTMENT STATUS, AS OF 3/31/2011
                                                                                                                                     Cumulative         Net Internal Rate
                                                                                                    1-Month          3-Month               Since         of Return Since
                                                                                                     Return           Return           Inception                Inception
                                              Manager                                             (percent)a       (percent)a         (percent)a               (percent)b

                                              AG GECC PPIF Master                    Gross              (2.72)             6.71              76.97                       51.78
                                              Fund, L.P.                             Net                (2.75)             6.64              74.49                       51.12

                                              AllianceBernstein Legacy               Gross              (1.56)             4.12              43.51                       34.25
                                              Securities Master Fund, L.P.           Net                (1.69)             3.83              40.15                       32.49
                                                                                     Gross              (1.12)             5.60              51.93                       34.56
                                              BlackRock PPIF, L.P.
                                                                                     Net                (1.24)             5.36              49.19                       32.94

                                              Invesco Legacy Securities              Gross              (2.24)             5.53              45.54                       31.73
                                              Master Fund, L.P.                      Net                (2.41)             5.23              41.88                       29.96
                                              Marathon Legacy Securities             Gross              (1.44)             5.24              48.31                       38.31
                                              Public-Private Investment
                                                                                     Net                (1.55)             4.99              44.07                       36.49
                                              Partnership, L.P.
                                                                                     Gross                0.94             6.65              34.49                       31.20
                                              Oaktree PPIP Fund, Inc.
                                                                                     Net                  0.73             6.11              27.25                       27.65

                                              RLJ Western Asset Public/              Gross              (1.22)             6.78              47.56                       35.17
                                              Private Master Fund, L.P.              Net                (1.34)             6.53              45.07                       33.63
                                              Wellington Management                  Gross              (2.11)             4.62              32.27                       23.96
                                              Legacy Securities PPIF
                                                                                     Net                (2.24)             4.32              29.72                       22.44
                                              Master Fund, LP
                                              Notes: The performance indicators are listed as reported by the PPIF managers without further analysis by SIGTARP. The net returns
                                              include the deduction of management fees and partnership expenses attributable to Treasury.
                                              a
                                                Time-weighted, geometrically linked returns.
                                              b
                                                Dollar-weighted rate of return.

                                              Sources: PPIF Monthly Performance Reports submitted by each PPIF manager, March 2011, received 4/15/2011.
                                                                               quarterly report to congress I april 28, 2011                           151




    According to their agreements with Treasury, PPIF managers may trade in both            Figure 2.4

RMBS and CMBS, except for Oaktree PPIP Fund, Inc., which may purchase                       AGGREGATE COMPOSITION OF PPIF
only CMBS.593 Figure 2.4 shows the collective value of securities purchased by all          PURCHASES, AS OF 3/31/2011
                                                                                            Percentage of $22.1 Billion
PPIFs as of March 31, 2011, broken down by RMBS and CMBS.
    PPIF investments can be classified by underlying asset type. All non-agency                     CMBS

RMBS investments are considered residential. The underlying assets are mortgages                             20%
for residences with up to four dwelling units. For CMBS, the assets are commercial
real estate mortgages: office, retail, multi-family, hotel, industrial (such as ware-                                        80%         RMBS
houses), mobile home parks, mixed-use (combination of commercial and residen-
tial), and self-storage. Figure 2.5 breaks down CMBS investment distribution by
sector. The aggregate CMBS portfolio had large concentrations in office (29%) and
retail (25%) loans as of March 31, 2011.
                                                                                            Notes: Numbers affected by rounding. Calculated based on
    Non-agency RMBS and CMBS can be classified by the degree of estimated                   monthly data supplied by the PPIF managers.

default risk (sometimes referred to as “quality”). Investors are most concerned             Source: PPIF Monthly Performance Reports, March 2011.

about whether borrowers will default and the underlying collateral will be sold at a
loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
                                                                                            Figure 2.5
There are no universal standards for ranking mortgage quality, and the designations
vary depending on context. In general, the highest-quality rankings are granted to          AGGREGATE CMBS PURCHASES BY
                                                                                            SECTOR, AS OF 3/31/2011
mortgages that have the strictest requirements regarding borrower credit, com-              Percentage of $4.4 Billion
pleteness of documentation, and underwriting standards. Treasury characterizes                                     Other
these investment-quality levels of risk for the types of mortgage loans that support
                                                                                                                   12%
non-agency RMBS as follows:594
                                                                                            Lodging/
                                                                                               Hotel         15%                  29%       Office
•	 Prime — mortgage loan made to a borrower with good credit that generally
   meets the lender’s strictest underwriting criteria. Non-agency prime loans gener-         Industrial 5%

   ally exceed the dollar amount eligible for purchase by GSEs (jumbo loans) but              Multi-family    14%
                                                                                                                           25%
   may include lower-balance loans as well.
                                                                                                                               Retail
•	 Alt-A — mortgage loan made to a borrower with good credit but with limited
                                                                                            Notes: Numbers affected by rounding. Calculated based on
   documentation or other characteristics that do not meet the standards for prime          monthly data supplied by the PPIF managers.
   loans. An Alt-A loan may have a borrower with a lower credit rating, a higher            Source: PPIF Monthly Performance Reports, March 2011.
   loan-to-value ratio, or limited or no documentation, compared with a prime
   loan.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.
•	 Option Adjustable Rate Mortgage (“ARM”) — mortgage loan that gives the
   borrower a set of choices about how much interest and principal to pay each
   month. This may result in negative amortization (an increasing loan principal
   balance over time).
•	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
   subprime, or option ARM but meet the definition of “eligible assets” above.
152   special inspector general I troubled asset relief program




                                                Treasury characterizes CMBS according to the degree of “credit enhancement”
                                             supporting them:595

                                             •	 Super Senior — most senior originally rated AAA bonds in a CMBS securitiza-
                                                tion with the highest level of credit enhancement. Credit enhancement refers to
                                                the percentage of the underlying mortgage pool by balance that must be written
                                                down before the bond suffers any losses. Super senior bonds often compose
                                                approximately 70% of a securitization and, therefore, have approximately 30%
                                                credit enhancement at issuance.
                                             •	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
                                                receive interest and principal payments after super senior creditors but before
                                                junior creditors.596 AM bonds often compose approximately 10% of a CMBS
                                                securitization.
                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
                                                AAA rating at issuance.
                                             •	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
                                                AM, or AJ but meet the definition of “eligible assets” above.

                                               Figure 2.6 and Figure 2.7 show the distribution of non-agency RMBS and
                                             CMBS investments held in PPIP by respective risk levels, as reported by PPIF
                                             managers.


                                             Figure 2.6                                                 Figure 2.7

                                             AGGREGATE RMBS PURCHASES BY                                AGGREGATE CMBS PURCHASES BY
                                             QUALITY, AS OF 3/31/2011                                   QUALITY, AS OF 3/31/2011
                                             Percentage of $17.7 Billion                                Percentage of $4.4 Billion

                                                    Other RMBSa <1%

                                                            Option ARM                                                                Super Senior

                                                                                                           Other                      13%
                                               Subprime              8%                                    (CMBS)        21%
                                                              11%

                                                                                    34% Prime

                                                                                                                                             39% AM (Mezzanine)
                                                    Alt-A      47%                                      AJ (Junior)   27%




                                             Notes: Numbers affected by rounding. Calculated based on   Notes: Numbers affected by rounding. Calculated based on
                                             monthly data supplied by the PPIF managers.                monthly data supplied by the PPIF managers.
                                             a
                                               The actual percentage for “Other RMBS” is 0.24%.
                                                                                                        Source: PPIF Monthly Performance Reports, March 2011.
                                             Source: PPIF Monthly Performance Reports, March 2011.
                                                                                                                        quarterly report to congress I april 28, 2011   153




   Non-agency RMBS and CMBS can be classified geographically, according to
the states where the underlying mortgages are held. Figure 2.8 and Figure 2.10
show the states with the greatest representation in the underlying non-agency
RMBS and CMBS investments in PPIFs, as reported by PPIF managers.
   Non-agency RMBS and CMBS can also be classified by the delinquency of
the underlying mortgages. Figure 2.9 and Figure 2.11 show the distribution of
non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
reported by PPIF managers.
Figure 2.8                                                     Figure 2.10

AGGREGATE GEOGRAPHICAL                                         AGGREGATE GEOGRAPHICAL
DISTRIBUTION — PERCENT OF                                      DISTRIBUTION — PERCENT OF
TOTAL RMBS, AS OF 3/31/2011                                    TOTAL CMBS, AS OF 3/31/2011
     40%      43%                                                   15%
                                                                             16%

     30
                                                                    10
                                                                                          10%
     20                                                                                                9%
                                                                                                                   8%
                                                                      5
     10
                           9%
                                        5%                            0
       0                                           3%
                                                                              CA          NY           FL          TX
              CA           FL           NY          VA
                                                               Notes: Only states with largest representation shown. Calculated
Notes: Only states with the largest representation shown.
                                                               based on monthly data supplied by the PPIF managers.
Calculated based on monthly data supplied by PPIF managers.
                                                               Source: PPIF Monthly Performance Reports, March 2011.
Source: PPIF Monthly Performance Reports, March 2011.



Figure 2.9                                                     Figure 2.11

AGGREGATE AVERAGE RMBS                                         AGGREGATE AVERAGE CMBS
DELINQUENCIES BY MARKET VALUE,                                 DELINQUENCIES BY MARKET VALUE,
AS OF 3/31/2011                                                AS OF 3/31/2011
Percentage of $17.7 Billion                                    Percentage of $4.4 Billion

60+ Days                                                                               60+ Days
(FCL/REO included)a                                            1% 30 − 59 Days
                                                                                       10%
                   29%




30 − 59      3%                       68%       Current
Days
                                                                                               89%           Current



Notes: Numbers affected by rounding. Calculated based on       Notes: Numbers affected by rounding. Calculated based on
monthly data supplied by the PPIF managers.                    monthly data supplied by the PPIF managers.
a
  “REO” means Real Estate Owned and “FCL” means Foreclosure.
                                                               Source: PPIF Monthly Performance Reports, March 2011.
Source: PPIF Monthly Performance Reports, March 2011.
154            special inspector general I troubled asset relief program




                                                      Unlocking Credit for Small Businesses/Small Business
                                                      Administration Loan Support Initiative
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
      7(a) Loan Program: SBA loan program
                                                      Businesses (“UCSB”) program, designed to encourage banks to increase lend-
      guaranteeing a percentage of loans for          ing to small businesses. Treasury stated that, through UCSB, it would purchase
      small businesses that cannot otherwise          up to $15 billion in securities backed by pools of loans from two Small Business
      obtain conventional loans at reasonable         Administration (“SBA”) programs: the 7(a) Loan Program and the 504 Community
      terms.                                          Development Loan Program.597 Treasury never purchased any 504 Community
                                                      Development Loan-backed securities through UCSB.598 Treasury later lowered the
      504 Community Development Loan                  amount available to purchase securities under UCSB to $400 million.599
      Program: SBA program combining                       Treasury initiated the 7(a) portion of the program and signed contracts with two
      Government-guaranteed loans with                pool assemblers, Coastal Securities, Inc. (“Coastal Securities”), and Shay Financial
      private-sector mortgages to provide             Services, Inc. (“Shay Financial”), on March 2, 2010, and August 27, 2010, respec-
      loans of up to $10 million for commu-
                                                      tively.600 Under the governing agreement, Earnest Partners, on behalf of Treasury,
      nity development.
                                                      purchased SBA pool certificates from Coastal Securities and Shay Financial with-
                                                      out confirming to the counterparties that Treasury was the buyer.601
      Pool Assemblers: Firms authorized
      to create and market pools of SBA-
                                                           From March 19, 2010, to September 28, 2010, Treasury purchased 31 floating-
      guaranteed loans.                               rate 7(a) securities from Coastal Securities and Shay Financial for a total of ap-
                                                      proximately $368.1 million.602 As of March 31, 2011, Treasury had received
      SBA Pool Certificates: Ownership                $14.2 million and $6.1 million in amortizing principal and interest payments,
      interest in a bond backed by SBA-               respectively.603 Table 2.32 shows the CUSIPs and investment amounts for the secu-
      guaranteed loans.                               rities Treasury bought.
                                                                                                                 quarterly report to congress I april 28, 2011   155




Table 2.32

Floating-rate sba 7(A) securitIes ($ millions)
                                                                                              Investment
Trade Date                      CUSIP                        Pool Assembler                      Amounta
3/19/2010                       83164KYN7                    Coastal Securities                           $4.4
3/19/2010                       83165ADC5                    Coastal Securities                            8.3
3/19/2010                       83165ADE1                    Coastal Securities                            8.7
4/8/2010                        83165AD84                    Coastal Securities                           26.0
4/8/2010                        83164KZH9                    Coastal Securities                            9.6
5/11/2010                       83165AEE0                    Coastal Securities                           11.5
5/11/2010                       83164K2Q5                    Coastal Securities                           14.2
5/11/2010                       83165AED2                    Coastal Securities                            9.7
5/25/2010                       83164K3B7                    Coastal Securities                            9.3
5/25/2010                       83165AEK6                    Coastal Securities                           18.8
6/17/2010                       83165AEQ3                    Coastal Securities                           38.3
6/17/2010                       83165AEP5                    Coastal Securities                           31.7
7/14/2010                       83164K3Y7                    Coastal Securities                            6.4
7/14/2010                       83164K4J9                    Coastal Securities                            7.5
7/14/2010                       83165AE42                    Coastal Securities                           14.8
7/29/2010                       83164K4E0                    Coastal Securities                            2.8
7/29/2010                       83164K4M2                    Coastal Securities                           10.4
8/17/2010                       83165AEZ3                    Coastal Securities                            9.2
8/17/2010                       83165AFB5                    Coastal Securities                            5.5
8/17/2010                       83165AE91                    Coastal Securities                           11.1
8/31/2010                       83165AEW0                    Shay Financial                               10.3
8/31/2010                       83165AFA7                    Shay Financial                               11.7
8/31/2010                       83164K5H2                    Coastal Securities                            7.3
9/14/2010                       83165AFC3                    Shay Financial                               10.0
9/14/2010                       83165AFK5                    Shay Financial                                8.9
9/14/2010                       83164K5F6                    Coastal Securities                            6.1
9/14/2010                       83164K5L3                    Coastal Securities                            6.4
9/28/2010                       83164K5M1                    Coastal Securities                            3.8
9/28/2010                       83165AFT6                    Coastal Securities                           13.1
9/28/2010                       83165AFM1                    Shay Financial                               15.3
9/28/2010                       83165AFQ2                    Shay Financial                               17.1
Total Investment Amount                                                                            $368.1

Notes: Numbers affected by rounding.
a
  Investment amounts may include accrued principal and interest.

Sources: Treasury, Transactions Report, 4/4/2011; Treasury, responses to SIGTARP data call, 12/16/2010,
1/14/2011, and 4/6/2011.
156   special inspector general I troubled asset relief program




                                             AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
                                             During the financial crisis, Treasury, through TARP, launched three automotive
                                             industry support programs: the Automotive Industry Financing Program (“AIFP”),
                                             the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
                                             Program (“AWCP”). According to Treasury, these programs were established “to
                                             prevent a significant disruption of the American automotive industry that poses
                                             a systemic risk to financial market stability and will have a negative effect on the
                                             economy of the United States.”604
                                                 AIFP has not expended any TARP funds for the automotive industry since
                                             December 30, 2009, when GMAC Inc. (“GMAC”), now Ally Financial Inc. (“Ally
                                             Financial”), received a $3.8 billion capital infusion.605 ASSP, designed to “ensure
                                             that automotive suppliers receive compensation for their services and products,”
                                             was terminated in April 2010 after all $413.1 million in loans made through it were
                                             fully repaid.606 AWCP, a $640.7 million program, was designed to assure car buyers
                                             that the warranties on any vehicles purchased during the bankruptcies of General
                                             Motors Corp. (“Old GM”) and Chrysler LLC (“Old Chrysler”) would be guaran-
                                             teed by the Government. It was terminated in July 2009 after all loans under the
                                             program were fully repaid upon the companies’ emergence from bankruptcy.607
                                                 Treasury initially obligated approximately $84.8 billion through these three
                                             programs to Old GM and General Motors Company (“New GM” or “GM”), Ally
                                             Financial, the Chrysler entities (Chrysler Holding LLC [now called CGI Holding
                                             LLC], Chrysler LLC [collectively, “Old Chrysler”], and Chrysler Group LLC
                                             [“New Chrysler”]), and Chrysler Financial Services Americas LLC (“Chrysler
                                             Financial”).608 Treasury originally obligated $5.0 billion under ASSP but adjusted
                                             this amount to $413.1 million to reflect actual borrowings, thereby reducing the
                                             total obligation for all automotive industry support programs to approximately
                                             $81.8 billion (including approximately $2.1 billion in loan commitments to New
                                             Chrysler that remain available to be drawn down).609 As of March 31, 2011,
                                             Treasury had received approximately $29.6 billion in principal and $3.8 billion in
                                             dividends, interest, and fees.610 As a result of these payments, old loan conversions
                                             (into common equity), and post-bankruptcy restructurings, Treasury now holds
                                             32.0% of the common equity in New GM; a debt instrument of approximately
                                             $985.8 million from Old GM (for which Treasury was granted an allowed admin-
                                             istrative expense pursuant to Old GM’s bankruptcy liquidation plan); a loan of ap-
                                             proximately $7.1 billion to New Chrysler and 8.6% of the common equity in New
                                             Chrysler; and $5.9 billion in mandatorily convertible preferred shares (“MCP”)
                                             and 73.8% of the common equity in Ally Financial.611 On March 31, 2011, and
                                             April 5, 2011, GM made debt payments of $50 million and $45 million,
                                             respectively.612
                                                                                                                                 quarterly report to congress I april 28, 2011   157




Table 2.33

TARP Automotive programs expenditures and payments,
AS OF 3/31/2011 ($ BILLIONS)
                                                                                                                Ally
                                                                                        Chrysler          Financial/
                                                   Chrysler                 GMa         Financial             GMAC                 Total
Pre-Bankruptcy
    AIFP                                                 $4.0             $19.4                $1.5              $17.2            $42.1
    ASSPb                                                  0.1               0.3                                                        0.4
    AWCP                                                   0.3               0.4                                                        0.6
    Subtotal                                             $4.4            $20.1                $1.5              $17.2            $43.1
In-Bankruptcy (DIP Financing)
    AIFP                                                 $1.9             $30.1                                                   $32.0
    Subtotal                                             $1.9            $30.1                                                   $32.0
Post-Bankruptcy (Working Capital)
    AIFP                                                $4.6c                                                                          $4.6
    Subtotal                                             $4.6                                                                      $4.6
Subtotals by Program:
    AIFP                                                                                                                          $78.6
    ASSP                                                                                                                                0.4
    AWCP                                                                                                                                0.6
Total Expenditures                                     $10.9             $50.2                $1.5              $17.2            $79.7
Principal Repaid to Treasury                            ($2.4)          ($23.1)              ($1.5)             ($2.7)d         ($29.6)
Net Expenditures                                         $8.5            $27.1                $ —e              $14.5            $50.1

Notes: Numbers may not total due to rounding.
a	
   Includes GM’s debt payments of $50 million on March 31, 2011, and $45 million on April 5, 2011.
b	
   The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated
   $5.0 billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
c	
   Chrysler has not drawn down approximately $2.07 billion of its $6.642 billion post-bankruptcy working capital loan from Treasury.
d	
   On March 2, 2011, Treasury entered into an underwriting offering of its Ally Financial TRUPS, which resulted in approximately
   $2.7 billion in total proceeds to Treasury.
e	
   This symbol indicates a value of zero.

Source: Treasury, Transactions Report, 3/31/2011; Treasury, Transactions Report, 4/4/2011.




    Treasury’s investments in these three programs and the companies’ payments of
principal are summarized in Table 2.33 and categorized by the timing of the invest-
ment in relation to the companies’ progressions through bankruptcy.

Automotive Industry Financing Program
Treasury provided $80.7 billion through AIFP to support automakers and
their financing arms in order to “avoid a disorderly bankruptcy of one or more
auto[motive] companies.”613 As of March 31, 2011, Treasury had received approxi-
mately $3.7 billion in dividends, interest, and fees from participating companies.614
Of AIFP-related loan principal repayments and share sale proceeds, Treasury has
received approximately $22.4 billion from the GM entities, $1.9 billion from the
158            special inspector general I troubled asset relief program




                                                      Chrysler entities, $2.7 billion from Ally Financial/GMAC, and $1.5 billion from
                                                      Chrysler Financial.615 As discussed below, additional payments of $640.7 million
                                                      and $413.1 million, respectively, were received under AWCP and ASSP.616

                                                      GM
                                                      Through March 31, 2011, Treasury had provided approximately $49.5 billion to
                                                      GM through AIFP. Of that amount, $19.4 billion was provided before bankruptcy
      Debtor-in-Possession (“DIP”): Company           and $30.1 billion was provided as debtor-in-possession (“DIP”) financing during
      operating under Chapter 11 bank-                bankruptcy. During bankruptcy proceedings, most of Treasury’s pre-bankruptcy and
      ruptcy protection that technically still        DIP financing loans to Old GM were converted into common or preferred stock in
      owns its assets but is operating them           New GM (the company that purchased substantially all of the assets of Old GM
      to maximize the benefit to its creditors.       pursuant to Section 363 of the Bankruptcy Code) or debt assumed by New GM. As
                                                      a result, after Old GM’s bankruptcy, Treasury’s investment in Old GM was con-
                                                      verted to a 60.8% common equity stake in New GM, $2.1 billion in preferred stock
                                                      in New GM, and a $7.1 billion loan to New GM ($6.7 billion through AIFP and
                                                      $360.6 million through AWCP). As part of a credit agreement with Treasury, $16.4
                                                      billion of the DIP money was set in an escrow account that GM could access only
                                                      with Treasury’s permission. Separately, approximately $985.8 million in loans was
                                                      left as an obligation of Old GM to facilitate the orderly wind-down and liquidation
                                                      of Old GM.617 On March 31, 2011, Old GM’s Plan of Liquidation became effec-
                                                      tive and Treasury was granted an allowed administrative expense with respect to
                                                      Treasury’s $985.8 million loan to Old GM. According to Treasury, under the Plan
                                                      of Liquidation, Treasury retained the right to receive additional proceeds; however,
                                                      any additional recovery is dependent on actual liquidation proceeds and pending
                                                      litigation.618

                                                      Debt Repayments
                                                      New GM repaid the $6.7 billion loan provided through AIFP with interest, us-
                                                      ing a portion of the previously mentioned $16.4 billion escrow account that had
                                                      been funded originally with TARP funds provided to GM during its bankruptcy.
                                                      What remained in escrow was released to New GM without restrictions with the
                                                      final debt payment in April 2010.619 A separate $985.8 million loan was left behind
                                                      with Old GM for wind-down costs associated with its liquidation.620 As previously
                                                      discussed, Treasury was granted an allowed administrative expense with respect to
                                                      its $985.8 million loan to Old GM once Old GM’s Plan of Liquidation went into
                                                      effect on March 31, 2011. As of April 5, 2011, Treasury has received $95 million
                                                      in repayments related to its right to recover proceeds from Old GM under the Plan
                                                      of Liquidation agreed upon on March 31, 2011.621 As of March 31, 2011, the GM
                                                      entities had made approximately $756.7 million in dividend and interest payments
                                                      to Treasury under AIFP.622
                                                                                                                              quarterly report to congress I april 28, 2011                              159




GM IPO Results and GM’s Repurchase of Series A Preferred Shares from
Treasury
In November and December 2010, New GM successfully completed an initial
public offering (“IPO”) in which New GM’s shareholders sold 549.7 million shares
of their common stock for $33.00 per share, or $18.1 billion in gross proceeds.623
New GM also sold 100 million shares of Series B MCP priced at $50.00 per
share, bringing the offering’s total gross proceeds to $23.1 billion.624 As part of the
IPO, Treasury sold a total of 412.3 million common shares for $13.5 billion in net
proceeds (after taking into account underwriting fees associated with the IPO),
reducing its number of shares to 500.1 million and its ownership in New GM from
60.8% to 33.3%.625 In addition to Treasury selling a portion of its common shares
in the IPO, on December 15, 2010, GM repurchased Treasury’s Series A preferred
                                                                                                                                           For more on the results of GM’s November
stock (83.9 million shares) for total proceeds of $2.1 billion.626 The share sale price
                                                                                                                                           2010 IPO, see SIGTARP’s January 2011
included a 2.0% premium to the liquidation price of $25.00 and resulted in a capi-
                                                                                                                                           Quarterly Report, page 163.
tal gain to Treasury of approximately $41.9 million.627
    Table 2.34 shows the four largest holders’ remaining common equity invest-
ments in GM pre- and post-IPO.
    As of February 15, 2011, 1.6 billion shares of GM common stock were out-
standing.628 The breakdown of ownership in GM’s common equity following the
IPO is shown in Figure 2.12.
    In order to recoup its total investment in GM, Treasury will need to
recover an additional $27.1 billion in proceeds. This translates to an average of                                                        Figure 2.12

                                                                                                                                         POST-IPO OWNERSHIP IN NEW GM

                                                                                                                                         Third-Party
                                                                                                                                          Investors
Table 2.34                                                                                                                                                                             United States
                                                                                                                                                                                       Department
Common equity share holdings in GM prior to ipo and post-ipo,                                                                                        39%                     32%       of the
as of 3/31/2011                                                                                                                                                                        Treasury

                                                                             Shares Prior to IPO                           Shares
Financial Institution                                                            (w/o Warrants)                           Post-IPO                                           9%
                                                                                                                                                                                    Canada GEN
                                                                                                                                                            10% 10%
U.S. Department of the Treasury                                                        912,394,068                   500,065,254                                                    Investment
                                                                                                                                                                                    Corporation
Canada GEN Investment Corp.                                                            175,105,932                   140,084,746
                                                                                                                                                   Old GM                UAW VEBA
UAW VEBA Trusta                                                                        262,500,000                   160,150,000               Bondholders               Trust

Old GM Bondholdersb                                                                    150,000,000                   150,000,000
Notes:
a	
   Under the terms of the UST Credit Agreement, on July 10, 2009, the UAW VEBA Trust received a warrant to acquire an additional         Notes: Numbers may not total due to rounding. Ownership
   45,454,545 shares in GM common equity. The warrant is exercisable at any time prior to December 31, 2015, with an exercise price      percentages are shown prior to the exercising of any warrants for
   of $42.31 per share.                                                                                                                  additional shares by the UAW or Old GM bondholders.
b	
   Under the terms of the UST Credit Agreement, on July 10, 2009, the Old GM bondholders received two warrants, each to acquire
   136,363,635 shares in GM common equity. The first tranche of warrants issued to the Old GM bondholders is exercisable at any time     Sources: SEC, “General Motors Company: Amendment No. 9 to
   prior to July 10, 2016, with an exercise price of $10.00 per share. The second tranche of warrants issued to the Old GM bondholders   Form S-1 Registration Statement,” 11/17/2010, www.sec.gov/
   is exercisable at any time prior to July 10, 2019, with an exercise price of $18.33 per share.                                        Archives/edgar/data/1467858/000119312510262471/ds1a.htm
                                                                                                                                         #rom45833_12; SEC, “General Motors Company: Form 10-K,”
Source: SEC, “General Motors Company: Amendment No. 9 to Form S-1 Registration Statement,” 11/17/2010, www.sec.gov/Archives/             3/1/2011, www.sec.gov/Archives/edgar/data/1467858/
edgar/data/1467858/000119312510262471/ds1a.htm#rom45833_12, accessed 1/5/2011.                                                           000119312511051462/d10k.htm.
160   special inspector general I troubled asset relief program




                                             $54.09 per share on its remaining common shares in New GM, not taking into
                                             account dividend, interest, and fee payments received from the GM entities.629 The
                                             break-even price — $54.09 per share — is calculated by dividing the $27.1 billion
                                             that Treasury extended to GM (but that was still outstanding after the IPO and
                                             repurchase of the Series A preferred shares [including a $41.9 million gain]) by
                                             the 500.1 million remaining shares. If the $822.3 million in dividend, interest, and
                                             fee payments received by Treasury is included in this computation, then Treasury
                                             will need to recover an additional $26.2 billion in proceeds, which translates into
                                             a break-even price of $52.45 per share, not taking into account other fees or costs
                                             associated with selling the shares. Treasury and the other selling stockholders are
                                             restricted from selling additional common shares for six months after November
                                             17, 2010, subject to the terms of the lock-up agreements described in the prospec-
                                             tus.630 As of the drafting of this report, Treasury had not made a public statement
                                             articulating its specific plans for the future disposition of its common stock hold-
                                             ings in New GM.

                                             Chrysler
                                             Through October 3, 2010, Treasury had made approximately $12.5 billion avail-
                                             able to Chrysler directly through AIFP in three stages to three corporate entities:
                                             $4.0 billion before bankruptcy to CGI Holding LLC — the parent company of
                                             Old Chrysler (the bankrupt entity) — and Chrysler Financial; $1.9 billion in DIP
                                             financing to Old Chrysler during bankruptcy; and $6.6 billion to New Chrysler,
                                             the company formed post-bankruptcy that purchased most of Old Chrysler’s assets
                                             through a working capital facility.631 As of March 31, 2011, New Chrysler had not
                                             drawn down approximately $2.1 billion of the $6.6 billion post-bankruptcy working
                                             capital facility it received from Treasury.632
                                                 On April 30, 2010, following the bankruptcy court’s approval of the plan of
                                             liquidation for Old Chrysler, the $1.9 billion DIP loan was extinguished without
                                             repayment. In return, Treasury retained the right to recover proceeds from the sale
                                             of assets that were collateral for the DIP loan from a liquidation trust that received
                                             all of Old Chrysler’s remaining assets.633 As of March 31, 2011, Treasury had recov-
                                             ered approximately $48.1 million from asset sales.634 Of the $4.0 billion lent to Old
                                             Chrysler’s parent company, CGI Holding LLC, before bankruptcy, $500.0 million
                                             of the debt was assumed by New Chrysler while the remaining $3.5 billion was
                                             held by CGI Holding LLC.635 Under the terms of this loan agreement, as amended
                                             on July 23, 2009, Treasury was entitled to the greater of approximately $1.4 billion
                                             or 40% of any proceeds that Chrysler Financial paid to its parent company, CGI
                                             Holding LLC, after certain other distributions were made.636 On May 14, 2010,
                                             Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan to CGI
                                             Holding LLC.637
                                                                                                                               quarterly report to congress I april 28, 2011   161




    In consideration for its assistance to Chrysler, Treasury received 9.9% of the
common equity in New Chrysler. Additionally, Treasury holds $7.1 billion in loans,
composed of the $6.6 billion in post-bankruptcy financing (of which $2.1 billion
remains available to be drawn down) and the $500.0 million in debt assumed by
New Chrysler from the original $4.0 billion loan to CGI Holding LLC.638 Table
2.35 provides the status of Treasury’s original investments in the Chrysler entities.
    On July 10, 2009, as part of the AWCP wind-down, Treasury received a pay-
ment from CGI Holding LLC of approximately $280.1 million for principal it had
received through AWCP upon New Chrysler’s exit from bankruptcy.639
    On April 7, 2010, as part of the scheduled termination of ASSP, Treasury
received payment from New Chrysler for the full $123.1 million in principal it
had received through the program as well as $50.3 million in additional fees and
interest.640
    On January 10, 2011, Fiat North America LLC (“Fiat”) automatically increased
its ownership of New Chrysler’s common equity from 20% to 25% by meeting the
performance metric to build a new fuel-efficient engine in the United States.641 Fiat
further increased its ownership of New Chrysler to 30% on April 12, 2011, after
New Chrysler surpassed an international sales and revenue target and reached a
pact to expand its presence through 90% of Fiat dealerships in Latin America.642
Following this increase in Fiat’s ownership stake in New Chrysler, Treasury’s equity
ownership interest in New Chrysler’s common equity decreased from 9.2% to 8.6%,
with the remaining ownership split between the UAW VEBA Trust’s 59.2% and the

Table 2.35

Treasury holdings in the Chrysler entities, AS OF 3/31/2011                                                            ($ BILLIONS)
                                                                                                                      Outstanding
                                                Initial                                                                  Treasury
Original Treasury                         Investment                                                               Investments in
Commitment                                   Amount           Subsequent Transactions                               New Chryslera
                                                              $0.5 transferred to New Chrysler                                    $0.5
Pre-Bankruptcy Loan to
                                                    $4.0      1.9 repaid to Treasury                                               0.0
CGI Holding LLC
                                                              1.6 unpaidb                                                          1.6
                                                              0.05 repaid to Treasury                                              0.0
DIP Financing to Old Chrysler                        1.9
                                                              1.84 unpaid     b
                                                                                                                                 1.84
Loan to New Chrysler                                4.6c      None                                                                 4.6
Total                                                                                                                            $8.5

Notes: Numbers may not total due to rounding.
a	
   This column represents the total dollar value of funding provided to Chrysler that would be required to be paid back in order for
   Treasury to break even on its investments in the company.
b	
   Treasury received a 9.9% common equity stake in New Chrysler upon execution of the $6.642 billion post-bankruptcy loan agreement
   in consideration for loans it had extended to Chrysler.
c	
   As of March 31, 2011, Chrysler had not drawn down approximately $2.07 billion of the $6.642 billion post-bankruptcy loan it received
   from Treasury.

Source: Treasury, Transactions Report, 3/31/2011.
162                 special inspector general I troubled asset relief program




      Figure 2.13
      OWNERSHIP IN NEW CHRYSLER                                      Canadian Government’s 2.2%.643 Figure 2.13 represents the allocation of ownership
      Government of Canada 2%                                        in New Chrysler’s common equity following the increase in Fiat’s ownership.
      United States
                                                                         The ownership percentages shown in Figure 2.13 will change if Fiat meets the
      Department of the                                              final performance goal to produce a 40 mile-per-gallon car and/or exercises op-
      Treasury
                             9%
                                                                     tions to purchase additional equity, which could eventually result in Fiat increasing
                                                                     its ownership interest, which is capped at 49.9% until the loans to the U.S. and
                                                                     Canadian Governments are repaid in full.644 As of March 31, 2011, the Chrysler
             Fiat    30%                      59%       UAW          entities had made approximately $693.7 million in interest payments to Treasury
                                                        VEBA
                                                        Trust        under AIFP.645

                                                                     Automotive Financing Companies
                                                                     Ally Financial/GMAC
      Notes: Numbers may not total due to rounding. Ownership
      percentages are shown prior to Fiat meeting additional         On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
      performance metrics, which would allow it to increase its
      ownership in New Chrysler.
                                                                     from GMAC and received an additional $250 million in preferred shares through
                                                                     warrants that Treasury exercised immediately at a cost of $2,500.646 On the same
      Source: Chrysler Press Release, “Chrysler Group LLC Meets
      Second of Three Performance Events; Fiat Increases Ownership   day, Treasury agreed to lend up to $1 billion to Old GM in order to increase
      to 30 Percent,” 4/12/2011, www.media.chrysler.com/
      newsrelease. do?id=10773&mid=2, accessed 4/12/2011.            Old GM’s ownership interest in GMAC. In January 2009, Old GM borrowed
                                                                     $884 million, which it invested in GMAC.647 In May 2009, Treasury exchanged
                                                                     that $884 million note for a 35.4% common equity ownership in GMAC, thereby
                                                                     giving Treasury the right to appoint two directors to GMAC’s board.648
                                                                         On May 21, 2009, Treasury made an additional investment in GMAC when it
                                                                     purchased $7.5 billion of MCP and received warrants that Treasury immediately
                                                                     exercised for an additional $375.0 million in MCP at an additional cost of
                                                                     approximately $75,000.649 On December 30, 2009, Treasury invested another
                                                                     $3.8 billion in GMAC, consisting of $2.5 billion in trust preferred securities
                                                                     (“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants, which were
                                                                     immediately exercised, to purchase an additional $127.0 million in TRUPS and
                                                                     $62.5 million in MCP at an additional cost of approximately $1,270 and $12,500,
                                                                     respectively.650 Additionally, Treasury converted $3.0 billion of its MCP into GMAC
                                                                     common stock, increasing its common equity ownership from 35.4% to 56.3%.
                                                                     This gave Treasury the right to appoint two additional directors to GMAC’s board,
                                                                     potentially bringing the total number of Treasury-appointed directors to four.651 On
                                                                     May 10, 2010, GMAC changed its name to Ally Financial Inc.652
                                                                         On December 30, 2010, Treasury announced the conversion of $5.5 billion of
                                                                     its MCP in Ally Financial to common equity. This conversion increased Treasury’s
                                                                     ownership stake in Ally Financial’s common equity from 56.3% to 73.8%. Treasury
                                                                     converted the MCP at 1.0 times the book value of Ally Financial’s tangible com-
                                                                     mon equity balance as of September 30, 2010, subject to certain adjustments.653
                                                                     According to Treasury, the conversion aimed to stabilize Ally Financial through
                                                                     the addition of common equity to its capital structure, thereby allowing it easier
                                                                                 quarterly report to congress I april 28, 2011                            163




access to both equity and debt financing in private capital markets. The move was
also intended to facilitate any future efforts on the part of Treasury to reduce its
investment in Ally Financial through the sale of its common equity holdings in
the company.654 As a result, Treasury will no longer receive the quarterly dividend
payments that Ally Financial was required to pay on the $5.5 billion of MCP. On
March 1, 2011, Treasury announced its intention to sell its $2.7 billion in TRUPS
in Ally Financial in a public offering.655 The public offering closed on March 7, 2011,
resulting in approximately $2.7 billion in total proceeds to Treasury.656
    As a result of its conversion of MCP to common stock in Ally Financial, and
for so long as Treasury maintains common equity ownership at or above 70.8%,
Treasury has the right to appoint two additional directors, for a total of six, to Ally
Financial’s board, increasing the size of the board to 11 members.657 On February
28, 2011, Treasury appointed its fourth director to Ally Financial’s board.658 As
of March 31, 2011, Treasury had not exercised its right to fill its remaining two
director positions.659 The conversion of $5.5 billion of Treasury’s MCP diluted the
shares of other existing shareholders in Ally Financial. Following the conversion,
the private equity firm Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%,
third-party investors collectively held 7.6%, an independently managed trust owned
by New GM held 5.9%, and New GM directly held a 4.0% stake in Ally Financial’s
                                                                                            Figure 2.14
common equity.660 Figure 2.14 shows the breakdown of common equity ownership
                                                                                           OWNERSHIP IN ALLY FINANCIAL/GMAC
in Ally Financial as of March 31, 2011.
                                                                                                         New GM 4%
                                                                                             GM Trust
Ally Financial Files S-1 Registration Statement in Preparation for IPO
                                                                                           Third-Party
On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for               Investors              6%
                                                                                                              7%
an IPO with the Securities and Exchange Commission (“SEC”).661 The document
                                                                                           Cerberus       9%                                   United States
includes a prospectus relating to the issuance of Ally Financial common stock.662                                                              Department
                                                                                                                                     74%
The prospectus also outlines certain aspects of Ally Financial’s business operations                                                           of the
                                                                                                                                               Treasury
and risks facing the company.663
    Ally Financial stated that the IPO would consist of “common stock to be sold
by the U.S. Department of the Treasury.”664 As of the drafting of this report, the
number of shares to be offered and the offering’s price range had not been set             Note: Numbers may not total due to rounding.

and are subject to market conditions.665 Treasury agreed to be named as a seller           Source: SEC, “Ally Financial Inc.: Form S-1,” 3/31/2011.

but retained the right to decide whether to sell any of its 73.8% ownership of Ally
Financial’s common stock and in what amounts.666
    As of March 31, 2011, Treasury still held its initial investments of approximate-
ly $14.6 billion in Ally Financial/GMAC, composed of 73.8% of Ally Financial’s
common stock and $5.3 billion in MCP.667 In return for these investments,
Treasury was also granted warrants, which it executed immediately at a cost of
$90,015, to purchase securities with a par value of approximately $688 million:
164   special inspector general I troubled asset relief program




                                            $250 million in preferred shares (which were later converted to MCP) and
                                            $438 million in additional MCP.668 This brought Treasury’s total holdings in Ally
                                            Financial securities to a par value of approximately $15.3 billion, for which it
                                            expended approximately $14.6 billion in TARP funds.669 Table 2.36 summarizes
                                            Treasury’s Ally Financial holdings as of March 31, 2011.
                                                As of March 31, 2011, Ally Financial had made approximately $2.2 billion in
                                            dividend and interest payments to Treasury.670

                                            Chrysler Financial
                                            In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
                                            support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
                                            fully repaid the loan in addition to approximately $7.4 million in interest pay-
                                            ments.671 In connection with the $3.5 billion pre-bankruptcy loan remaining with
                                            CGI Holding LLC, the parent company of Old Chrysler (the bankrupt entity) and
                                            Chrysler Financial, Treasury was entitled to the greater of approximately
                                            $1.4 billion or 40% of any proceeds that Chrysler Financial paid to its parent
                                            company, CGI Holding LLC, after certain other distributions were made.672 On
                                            May 14, 2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 bil-
                                            lion loan to CGI Holding LLC, thereby relinquishing any interest in or claim on
                                            Chrysler Financial.673 Seven months later, on December 21, 2010, TD Bank Group
                                            announced it had agreed to purchase Chrysler Financial from Cerberus, the owner
                                            of CGI Holding LLC, for approximately $6.3 billion.674



                                            Table 2.36

                                             Treasury holdings in Ally Financial (formerly GMAC),
                                             AS OF 3/31/2011 ($ BILLIONS)
                                                                                                                                                                             Total
                                            Mandatorily Convertible Preferred Shares (MCP)                                                                                   $5.9a
                                            Common Equity                                                                                                                     9.4b
                                            Total                                                                                                                         $15.3c
                                            Notes: Numbers may not total due to rounding.
                                            a	
                                               This figure includes three separate tranches of MCP acquired through the exercise of warrants: $250 million in warrants that were ex-
                                               ercised to acquire preferred shares that were later converted to MCP on December 30, 2009; $375 million in MCP warrants exercised
                                               on May 21, 2009; and $63 million in MCP warrants exercised on December 30, 2009.
                                            b	
                                               The dollar value of Treasury’s 73.8% stake in Ally Financial’s common equity is based on the costs to acquire such a stake, including
                                               the conversion of the GM rights loan of $884 million in May 2009, the $3 billion of MCP in December 2009, and the $5.5 billion of
                                               MCP in December 2010.
                                            c	
                                               This figure includes $687.5 million in shares acquired by the exercise of the warrants discussed above. These warrants were exercised
                                               at an aggregate cost of $90,015 to the taxpayer.

                                            Sources: Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.
                                            treasury.gov/press-center/press-releases/Pages/tg1014.aspx, accessed 1/3/2011; Ally Financial, Form 8-K, 1/5/2010, www.sec.gov/
                                            Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 3/22/2011; Treasury Press Release, “Treasury Announces
                                            Pricing of $2.7 Billion of Ally TRuPs,” 3/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1086.aspx, accessed
                                            3/3/2011.
                                                                                quarterly report to congress I april 28, 2011   165




Auto Supplier Support Program (“ASSP”)
On March 19, 2009, Treasury announced a commitment of $5.0 billion to ASSP to
“help stabilize the automotive supply base and restore credit flows in a critical sec-
tor of the American economy.”675 Because of concerns about the auto manufactur-
ers’ ability to pay their invoices, suppliers had not been able to borrow from banks
by using their receivables as collateral. ASSP enabled automotive parts suppliers to
access Government-backed protection for money owed to them for the products
they shipped to manufacturers.
    The total commitment of $5.0 billion was reduced to $3.5 billion on July 8,
2009 — $2.5 billion for GM and $1.0 billion for Chrysler.676 Of the $3.5 billion
reduced commitment to GM and Chrysler, approximately $413.1 million was actu-
ally expended. Because the actual expenditure was lower than initially anticipated,
Treasury reduced its obligation under ASSP to $413.1 million. Treasury received
a total of $413.1 million in ASSP loan repayments — $290.0 million from GM
and approximately $123.1 million from Chrysler.677 Additionally, Treasury received
$115.9 million in fees and interest payments — $65.6 million from GM and
$50.3 million from Chrysler.678 ASSP was terminated on April 5, 2010, for GM and
April 7, 2010, for Chrysler.679 All loans made under this program have been repaid
with interest.

Auto Warranty Commitment Program (“AWCP”)
AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
and GM vehicle warranties during the companies’ restructuring in bankruptcy.680
Treasury obligated $640.7 million to this program — $360.6 million for GM
and $280.1 million for Chrysler.681 On July 10, 2009, the companies fully repaid
Treasury upon their exit from bankruptcy.682
166            special inspector general I troubled asset relief program




                                                      EXECUTIVE COMPENSATION
      Exceptional Assistance Recipients:              TARP recipients are subject to executive compensation restrictions. The original
      Companies that receive assistance               executive compensation rules set forth in Section 111 of EESA were amended in
      under SSFI, TIP, and AIFP. Current              February 2009 in the American Recovery and Reinvestment Act of 2009 (“ARRA”)
      recipients are AIG, Chrysler, GM, and           and have been interpreted and implemented by Treasury regulations and notices.683
      Ally Financial (formerly GMAC).                 On June 10, 2009, Treasury released its Interim Final Rule on TARP Standards for
                                                      Compensation and Corporate Governance (the “Rule”), which “implement[s] the
                                                      ARRA provisions, consolidates all of the executive-compensation-related provisions
                                                      that are specifically directed at TARP recipients into a single rule (superseding
                                                      all prior rules and guidance), and utilizes the discretion granted to the [Treasury]
       For more information on the Rule and           Secretary under the ARRA to adopt additional standards, some of which are adapt-
       a summary of the timeline of TARP              ed from principles set forth” in guidance provided by Treasury in February 2009.684
       executive compensation restrictions, see           The Rule applies to institutions that meet its definition of a TARP recipient as
       SIGTARP’s July 2009 Quarterly Report,          well as any entity that owns at least 50% of any TARP recipient. As long as a TARP
       page 118.
                                                      recipient has an outstanding “obligation” to Treasury (as defined by ARRA, this
       For more information on executive              does not include warrants to purchase common stock), it must abide by the Rule.685
       compensation issues and findings, refer        The Rule also specifically subjects exceptional assistance recipients to enhanced re-
       to SIGTARP audits: “Despite Evolving           strictions designed to “maximize long-term shareholder value and protect taxpayer
       Rules on Executive Compensation,               interests.”686
       SIGTARP Survey Provides Insights                   Some program participants are exempt from the Rule:
       on Compliance,” issued August 19,
       2009, and “Extent of Federal Agencies’
       Oversight of AIG Compensation Varied,          •	 TALF recipients, because they did not directly receive TARP assistance (instead,
       and Important Challenges Remain,”                 TARP funds are available to purchase collateral surrendered to TALF)687
       issued October 14, 2009.                       •	 PPIFs, because they have no employees. In addition, PPIF investors and asset
                                                         managers are exempt because the program’s terms prohibit any single private
                                                         entity from owning more than 9.9% of any such fund and, therefore, fall below
                                                         the 50% ownership threshold688
                                                      •	 Making Home Affordable (“MHA”) program participants, which are statutorily
                                                         exempt
      Senior Executive Officers (“SEOs”):
      “Named executive officers” of TARP
      recipients as defined under Federal se-         Special Master
      curities law, which generally include the       Treasury created the Office of the Special Master for TARP Executive
      principal executive officer, the principal      Compensation on June 15, 2009, and appointed Kenneth R. Feinberg to the posi-
      financial officer, and the next three           tion of Special Master; Mr. Feinberg was succeeded by Ms. Patricia Geoghegan,
      most highly compensated officers.               who became Acting Special Master on September 10, 2010.689 The Special
                                                      Master’s responsibilities include the following:690

                                                      •	 Top 25 Reviews — review and approve compensation structures and payments
                                                         for the five senior executive officers (“SEOs”) and the next 20 most highly paid
                                                         employees at institutions that received exceptional financial assistance
                                                                               quarterly report to congress I april 28, 2011              167




•	 Top 26 through 100 Reviews — review and approve compensation structures                For a discussion of the Special Master
   for the next 75 highest-paid employees at institutions that received exceptional       “Look Back” Review, which was com-
   financial assistance (employees who are not in the top 25 but are executive of-        pleted on July 23, 2010, see SIGTARP’s
                                                                                          October 2010 Quarterly Report, pages
   ficers or among the top 100 most highly compensated employees fall into this
                                                                                          153-154.
   category)
•	 Prior Payment Reviews — review bonuses, retention awards, and other com-
   pensation paid to SEOs and the 20 next most highly compensated employees of
   each entity that received TARP assistance from the date the entity first received         Public Interest: Regulatory standard
   TARP assistance until February 17, 2009, and seek to negotiate reimbursements             that the Special Master is required
                                                                                             to apply in making determinations. It
   where the payment was determined to be inconsistent with the purposes of
                                                                                             refers to the determination of whether
   EESA or TARP, or otherwise contrary to the public interest
                                                                                             TARP-recipient compensation plans are
•	 Interpretation — provide advisory opinions with respect to the Rule’s applica-
                                                                                             aligned with the best interests of the
   tion and whether compensation payments and structures were consistent with                U.S. taxpayer, based on a balancing of
   the purposes of EESA or TARP, or otherwise contrary to the public interest                specific principles set forth in the Rule.

Exceptional Assistance Recipients
As of March 31, 2011, only AIG, Chrysler, GM, and Ally Financial (formerly                For the specific principles used in
                                                                                          reviewing compensation plans, see
GMAC) were still considered exceptional assistance recipients.691 Citigroup and
                                                                                          SIGTARP’s July 2009 Quarterly Report,
Bank of America had been considered exceptional assistance recipients because             pages 122-123.
each participated in TIP, but neither falls under this designation now because of
repayments each made in December 2009.692 Chrysler Financial was released from
all its obligations under the Rule after it repaid its $1.5 billion loan under AIFP
and its parent company, CGI Holding LLC, repaid $1.9 billion of its original
$4.0 billion TARP loan under AIFP to Treasury on May 14, 2010, in full satisfac-
tion of its outstanding obligations to Treasury.693
     On April 1, 2011, the Office of the Special Master issued the following com-
pensation determinations for 2011 concerning 98 executives who were the “Top
25” executives at the four remaining exceptional assistance recipients:694

•	 Compensation packages for the AIG, GM, and Ally Financial CEOs did not in-
   crease and the cash component remained frozen at 2010 levels (as in past years,
   the Chrysler CEO is compensated by Fiat rather than by the taxpayer-assisted
   Chrysler company).
•	 82% of the Top 25 pay packages for 2011 (the same percentage as in 2010), in-
   cluding target incentives, were in the form of stock, thereby “tying the ultimate
   value of the compensation to company performance.”
•	 More than 75% of the Top 25 pay packages limited cash salary to $500,000 or
   less.
•	 The four companies have made more than $36 billion in TARP repayments
   since the Special Master’s March 2010 Top 25 compensation rulings.
168   special inspector general I troubled asset relief program




                                             •	 The overall cash compensation and direct compensation levels for the 98 execu-
                                                tives decreased in 2011 by 18.2% and 1.3%, respectively. Of the 98 executives,
                                                62 individuals were in the Top 25 in 2010 and 2011, and the overall cash com-
                                                pensation and direct compensation levels increased in 2011 by 4.7% and 4.4%,
                                                respectively. Of the 98 executives, 36 individuals were new to the 2011 Top 25,
                                                and overall cash compensation and direct compensation decreased by 39% and
                                                9.6%, respectively, as compared to the cash they received for 2010.695
               TARP OPERATIONS AND
S ec tio n 3
               ADMINISTRATION
170   special inspector general I troubled asset relief program
                                                                                quarterly report to congress I april 28, 2011   171




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.696 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.697 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.



TARP Administrative and Program
Expenditures
According to Treasury, as of March 31, 2011, it had spent $181.1 million on TARP
administrative costs and $572.5 million on programmatic expenditures, for a total
of $753.6 million. As of March 31, 2011, Treasury has obligated $225.7 million
for TARP administrative costs and $798.6 million in programmatic expenditures
for a total of $1.0 billion.698 Treasury reported that it has employed 102 career
civil servants, 116 term appointees, and 34 reimbursable detailees, for a total of
252 full-time employees.699 Table 3.1 provides a summary of the expenditures and
obligations for TARP administrative costs through March 31, 2011. These costs
are categorized as “personnel services” and “non-personnel services,” with a few
exceptions.
    Table 3.2 provides a summary of the programmatic expenditures, which
include costs to hire financial agents and contractors, and obligations through
March 31, 2011.
172   special inspector general I troubled asset relief program




                                             Table 3.1

                                             TARP Administrative expenditures and obligations
                                                                                                             Obligations for Period Expenditures for Period
                                             Budget Object Class Title                                         Ending 3/31/2011         Ending 3/31/2011
                                             Personnel Services
                                                 Personnel Compensation & Services                                        $60,243,480                          $60,027,571
                                             Total Personnel Services                                                    $60,243,480                         $60,027,571


                                             Non-Personnel Services
                                                 Travel & Transportation of Persons                                         $1,043,227                          $1,007,895
                                                 Transportation of Things                                                         11,960                               11,960
                                                 Rents, Communications, Utilities & Misc                                         753,957                             610,107
                                                 Charges
                                                 Printing & Reproduction                                                               395                                 395
                                                 Other Services                                                           162,560,737                          118,413,080
                                                 Supplies & Materials                                                            806,231                             799,444
                                                 Equipment                                                                       232,054                             222,675
                                                 Land & Structures                                                                       —                                   —
                                                 Dividends and Interest                                                                 37                                   37
                                             Total Non-Personnel Services                                              $165,408,598                        $121,065,594
                                             Grand Total                                                               $225,652,078                        $181,093,165

                                             Notes: Numbers affected by rounding. The costs associated with “Other Services” under TARP Administrative Expenditures and Obliga-
                                             tions are composed of administrative services including financial, administrative, IT, and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 4/11/2011.




                                             Current Contractors and
                                             Financial Agents
                                             As of March 31, 2011, Treasury had retained 76 private vendors: 17 financial
                                             agents and 59 contractors, to help administer TARP.700 Table 3.2 lists service pro-
                                             viders retained as of March 31, 2011. Although Treasury informed SIGTARP that
                                             it “does not track” the number of individuals who provide services under its agree-
                                             ments, the number likely dwarfs the 252 that Treasury has identified as working
                                             for OFS.701 For example, on October 14, 2010, the Congressional Oversight Panel
                                             (“COP”) reported that “Fannie Mae alone currently has 600 employees working
                                             to fulfill its TARP commitments.”702 To streamline and expedite contract solicita-
                                             tion, EESA allowed the Treasury Secretary to waive specific Federal Acquisition
                                             Regulations for urgent and compelling circumstances.703
                                                                                              quarterly report to congress I april 28, 2011              173




table 3.2

OFS SERVICE CONTRACTS           (continued)
                                                                                                 Type of                  Obligated       Expended
Date         Vendor                                Purpose                                       Transaction                  Value           Value
                                                   Legal services for the implementation of
10/10/2008   Simpson Thacher & Bartlett MNP LLP                                                  Contract                 $931,090            $931,090
                                                   TARP
10/11/2008   Ennis Knupp & Associates Inc.         Investment and advisory services              Contract                 2,470,242            855,199
             The Bank of New York Mellon
10/14/2008                                         Custodian                                     Financial Agent        40,867,341       30,284,746
             Corporation
10/16/2008   PricewaterhouseCoopers                Internal control services                     Contract               31,017,937       26,803,498
                                                                                                 Interagency
10/17/2008   Turner Consulting Group, Inc.         For process mapping consultant services                                    9,000                 —
                                                                                                 Agreement
10/18/2008   Ernst & Young LLP                     Accounting services                           Contract               14,704,519       11,936,929
                                                   Legal services for the Capital Purchase
10/29/2008   Hughes Hubbard & Reed LLP                                                           Contract                 3,060,921       2,835,357
                                                   Program
                                                   Legal services for the Capital Purchase
10/29/2008   Squire, Sanders & Dempsey LLP                                                       Contract                 5,787,939       2,687,999
                                                   Program
10/31/2008   Lindholm & Associates, Inc.           Human resources services                      Contract                  614,963             614,963
                                                   Legal services related to auto industry
11/7/2008    Sonnenschein Nath & Rosenthal LLP                                                   Contract                 2,722,326       2,702,441
                                                   loans
                                                                                                 Interagency
11/9/2008    Internal Revenue Service              Detailees                                                                 97,239             97,239
                                                                                                 Agreement
                                                                                                 Interagency
11/17/2008   Internal Revenue Service              CSC Systems & Solutions LLC                                                8,095              8,095
                                                                                                 Agreement
             Department of the Treasury ­—                                                       Interagency
11/25/2008                                         Administrative support                                               16,512,820       15,844,623
             Departmental Offices                                                                Agreement
             Alcohol and Tobacco Tax and Trade     IAA - TTB development, management &           Interagency
12/3/2008                                                                                                                    67,489             67,489
             Bureau                                operation of SharePoint                       Agreement
                                                                                                 Interagency
12/5/2008    Washington Post                       Subscription                                                                 395                 —
                                                                                                 Agreement
12/10/2008   Thacher Proffitt & Wood1              Admin action to correct system issue          Contract                        —                  —
                                                   Legal services for the purchase of asset-
12/10/2008   Sonnenschein Nath & Rosenthal LLP                                                   Contract                  249,999             102,769
                                                   backed securities
                                                                                                 Interagency
12/15/2008   Office of Thrift Supervision          Detailees                                                               225,547             164,823
                                                                                                 Agreement
             Department of Housing and Urban                                                     Interagency
12/16/2008                                         Detailees                                                               142,863             124,773
             Development                                                                         Agreement
                                                                                                 Interagency
12/22/2008   Office of Thrift Supervision          Detailees                                                               103,871                  —
                                                                                                 Agreement
12/24/2008   Cushman and Wakefield of VA Inc.      Painting services for TARP offices            Contract                     8,750              8,750
                                                                                                 Interagency
1/6/2009     Securities and Exchange Commission Detailees                                                                    30,416             30,416
                                                                                                 Agreement
1/7/2009     Colonial Parking Inc.                 Lease of parking spaces                       Contract                  275,650             134,146
1/27/2009    Cadwalader Wickersham & Taft LLP      Bankruptcy legal services                     Contract                  409,955             409,955
1/27/2009    Whitaker Brothers Bus Machines Inc.   Paper shredder                                Contract                     3,213              3,213
                                                                                                 Interagency
1/30/2009    Comptroller of the Currency           Detailees                                                               501,118             501,118
                                                                                                 Agreement
                                                                                                                              Continued on next page.
174          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (continued)
                                                                                                     Type of             Obligated      Expended
      Date        Vendor                                Purpose                                      Transaction             Value          Value
                                                        IAA - GAO required by P.L. 110-343 to
                                                                                                     Interagency
      2/2/2009    US Government Accountability Office   conduct certain activities related to TARP                      $7,459,049     $7,459,049
                                                                                                     Agreement
                                                        IAA
                                                                                                     Interagency
      2/3/2009    Internal Revenue Service              Detailees                                                         242,499               —
                                                                                                     Agreement
                                                        Temporary services for document
      2/9/2009    Pat Taylor & Associates, Inc.         production, FOIA assistance, and program Contract                 692,108         692,108
                                                        support
                                                        Initiate interim legal services in support of
      2/12/2009   Locke Lord Bissell & Liddell LLP                                                    Contract            272,243         272,243
                                                        Treasury investments under EESA
      2/18/2009   Fannie Mae                            Homeownership preservation program           Financial Agent   249,431,528    177,331,720
      2/18/2009   Freddie Mac                           Homeownership preservation program           Financial Agent   143,850,119    102,187,739
      2/20/2009   Simpson Thacher & Bartlett MNP LLP Capital Assistance Program (I)                  Contract            2,047,872      1,530,023
                                                                                                     Interagency
      2/20/2009   Financial Clerk U.S. Senate           Congressional Oversight Panel                                    3,394,348      3,394,348
                                                                                                     Agreement
                                                        Capital Assistance Program (II) legal
      2/20/2009   Venable LLP                                                                        Contract            1,394,724      1,394,724
                                                        services
                                                                                                     Interagency
      2/20/2009   Office of Thrift Supervision          Detailees                                                         226,931         189,533
                                                                                                     Agreement
                                                                                                     Interagency
      2/26/2009   Securities and Exchange Commission Detailees                                                             18,531          18,531
                                                                                                     Agreement
                                                                                                     Interagency
      2/27/2009   Pension Benefit Guaranty Corporation Rothschild, Inc.                                                  7,750,000      7,750,000
                                                                                                     Agreement
                                                        Management consulting relating to the
      3/6/2009    The Boston Consulting Group                                                        Contract             991,169         991,169
                                                        auto industry
      3/16/2009   Earnest Partners                      Small business assistance program            Financial Agent     2,550,000      2,087,915
                                                                                                     Interagency
      3/23/2009   Heery International Inc.              Architectural services                                                  —               —
                                                                                                     Agreement
      3/30/2009   Cadwalader Wickersham & Taft LLP      Auto investment legal services               Contract           17,392,786     17,392,786
                                                        SBA initiative legal services — contract
      3/30/2009   Bingham McCutchen LLP                 novated to TOFS-10-D-0001 with Bingham Contract                   149,349         126,631
                                                        McCutchen LLP
                                                        SBA initiative legal services — Contract
      3/30/2009   Bingham McCutchen LLP2                novated from TOFS-09-D-0005 with McKee Contract                   273,006         143,893
                                                        Nelson
      3/30/2009   Haynes and Boone, LLP                 Auto investment legal services               Contract             345,746         345,746
      3/30/2009   Sonnenschein Nath & Rosenthal LLP     Auto investment legal services               Contract            1,834,193      1,834,193
      3/31/2009   FI Consulting Inc.                    Credit reform modeling and analysis          Contract            2,803,505      1,875,091
                                                                                                     Interagency
      4/3/2009    American Furniture Rentals Inc.       Furniture rental 1801                                              35,187          25,808
                                                                                                     Agreement
                                                        Management consulting relating to the
      4/3/2009    The Boston Consulting Group                                                        Contract            4,100,195      4,099,923
                                                        auto industry
      4/17/2009   Herman Miller, Inc.                   Aeron chairs                                 Contract              53,799          53,799
                                                                                                     Interagency
      4/17/2009   Bureau of Engraving and Printing      Detailees                                                          45,822          45,822
                                                                                                     Agreement
      4/21/2009   AllianceBernstein LP                  Asset management services                    Financial Agent    33,288,445     26,886,543
      4/21/2009   FSI Group, LLC                        Asset management services                    Financial Agent    18,016,838     14,714,713
      4/21/2009   Piedmont Investment Advisors, LLC     Asset management services                    Financial Agent     8,522,375      7,086,625
                                                                                                     Interagency
      4/30/2009   Department of State                   Detailees                                                          45,492          45,492
                                                                                                     Agreement
                                                                                                                            Continued on next page.
                                                                                           quarterly report to congress I april 28, 2011             175



OFS SERVICE CONTRACTS          (continued)
                                                                                              Type of                  Obligated       Expended
Date        Vendor                              Purpose                                       Transaction                  Value           Value
                                                                                              Interagency
5/5/2009    Federal Reserve Board               Detailees                                                               $48,422            $48,422
                                                                                              Agreement
            Department of the Treasury —                                                      Interagency
5/13/2009                                       “Making Home Affordable” logo search                                         975              325
            U.S. Mint                                                                         Agreement
                                                Executive search and recruiting services­—
5/14/2009   Knowledgebank Inc.                                                             Contract                     124,340            124,340
                                                chief homeownership officer
                                                Freedom of Information Act (FOIA) analysts
5/15/2009   Phacil, Inc.                        to support the disclosure services, privacy Contract                    103,425             90,301
                                                and Treasury records
                                                                                              Interagency
5/20/2009   Securities and Exchange Commission Detailees                                                                430,000            430,000
                                                                                              Agreement
                                                                                              Interagency
5/22/2009   Department of Justice — ATF         Detailees                                                               243,778            243,740
                                                                                              Agreement
                                                Legal services for work under Treasury’s
5/26/2009   Anderson, McCoy & Orta              Public-Private Investment Fund (PPIF)         Contract                 4,068,834       2,286,996
                                                program
                                               Legal services for work under Treasury’s
5/26/2009   Simpson Thacher & Bartlett MNP LLP Public-Private Investment Fund (PPIF)          Contract                 7,849,026       3,505,917
                                               program
                                                                                              Interagency
6/9/2009    Financial Management Services       Gartner, Inc.                                                             89,436            89,436
                                                                                              Agreement
                                                Federal consulting group (Foresee             Interagency
6/29/2009   Department of the Interior                                                                                    49,000            49,000
                                                Consulting, Inc.)                             Agreement
                                                Payment to liquidate claim — contract         Interagency
7/15/2009   Judicial Watch3                                                                                                1,500             1,500
                                                protest                                       Agreement
                                                Executive search services for the OFS
7/17/2009   Korn/Ferry International                                                          Contract                    75,017            75,017
                                                chief investment officer position
7/30/2009   Cadwalader Wickersham & Taft LLP4   Restructuring legal services                  Contract                 2,049,979       1,278,696
7/30/2009   Debevoise & Plimpton LLP            Restructuring legal services                  Contract                  159,175              1,650
            Fox, Hefter, Swibel, Levin &
7/30/2009                                       Restructuring legal services                  Contract                    84,125            26,493
            Carol, LLP
                                                                                              Interagency
8/10/2009   Department of Justice — ATF         Detailees                                                                 63,218            54,679
                                                                                              Agreement
            National Aeronautics and Space                                                    Interagency
8/10/2009                                       Detailees                                                               140,889            140,889
            Administration (NASA)                                                             Agreement
8/18/2009   Mercer LLC                          Executive compensation data subscription Contract                          3,000             3,000
                                                                                              Interagency
8/25/2009   Department of Justice — ATF         Detailees                                                                 63,494            63,248
                                                                                              Agreement
9/2/2009    Knowledge Mosaic Inc.               SEC filings subscription service              Contract                     5,000             5,000
9/10/2009   Equilar, Inc.                       Executive compensation data subscription Contract                         59,990            59,990
9/11/2009   PricewaterhouseCoopers              PPIP compliance                               Contract                 1,995,269       1,630,781
                                                                                              Interagency
9/18/2009   Treasury Franchise Fund             BPD                                                                     436,054            436,054
                                                                                              Agreement
                                                                                              Interagency
9/30/2009   Immixtechnology Inc.                EnCase eDiscovery ProSuite                                              210,184                 —
                                                                                              Agreement
                                                                                              Interagency
9/30/2009   Immixtechnology Inc.                Guidance Inc.                                                           108,000                 —
                                                                                              Agreement
9/30/2009   NNA INC.                            Newspaper delivery                            Contract                     8,479             8,220
                                                SNL Unlimited, a web-based
9/30/2009   SNL Financial LC                                                                  Contract                  260,000            260,000
                                                financial analytics service
                                                                                                                           Continued on next page.
176          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (continued)
                                                                                                      Type of             Obligated      Expended
      Date         Vendor                                Purpose                                      Transaction             Value          Value
                   Department of the Treasury —                                                       Interagency
      11/9/2009                                          Administrative support                                         $23,682,061    $16,636,521
                   Departmental Offices                                                               Agreement
                                                                                                      Interagency
      12/16/2009   Internal Revenue Service              Detailees                                                          46,202               —
                                                                                                      Agreement
      12/22/2009   Avondale Investments LLC              Asset management services                    Financial Agent     1,562,500        776,630
      12/22/2009   Bell Rock Capital, LLC                Asset management services                    Financial Agent     1,535,000      1,245,708
      12/22/2009   Howe Barnes Hoefer & Arnett, Inc.     Asset management services                    Financial Agent     2,856,438      1,904,146
                                                         Document production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                                          Contract            1,097,205        699,683
                                                         litigation support
      12/22/2009   KBW Asset Management, Inc.            Asset management services                    Financial Agent     4,937,433      4,937,433
      12/22/2009   Lombardia Capital Partners, LLC       Asset management services                    Financial Agent     2,450,000      1,877,501
                   Paradigm Asset Management
      12/22/2009                                         Asset management services                    Financial Agent     2,387,250      1,856,500
                   Co., LLC
                                                         IAA - GAO required by P.L.110-343 to         Interagency
      1/14/2010    US Government Accountability Office                                                                    7,304,722      7,304,722
                                                         conduct certain activities related to TARP   Agreement
                   Association of Government
      1/15/2010                                          CEAR program application                     Contract                5,000           5,000
                   Accountants
                                                                                                      Interagency
      2/16/2010    Internal Revenue Service              Detailees                                                          52,742          52,742
                                                                                                      Agreement
                                                         FNMA IR2 assessment — OFS task order
      2/16/2010    The MITRE Corporation                                                              Contract             777,604         726,465
                                                         on Treasury MITRE contract
                                                                                                      Interagency
      2/18/2010    Treasury Franchise Fund               BPD                                                              1,221,140      1,221,140
                                                                                                      Agreement
      3/8/2010     Qualx Corporation                     FOIA support services                        Contract             510,438         435,771
                   Department of the Treasury —                                                       Interagency
      3/12/2010                                          Administrative support                                            689,599         670,982
                   Departmental Offices                                                               Agreement
      3/17/2010    Ennis Knupp & Associates Inc.         Investment consulting services               Contract            3,037,100        590,000
                                                                                                      Interagency
      3/22/2010    Gartner, Inc.                         Financial management services                                      73,750          73,750
                                                                                                      Agreement
                                                                                                      Interagency
      3/26/2010    Federal Maritime Commission           Detailees                                                         159,141         159,141
                                                                                                      Agreement
      3/29/2010    Morgan Stanley                        Disposition agent services                   Financial Agent    16,685,290     16,685,290
                                                                                                      Interagency
      4/2/2010     Financial Clerk U.S. Senate           Congressional Oversight Panel                                    4,797,556      4,797,556
                                                                                                      Agreement
      4/8/2010     Squire, Sanders & Dempsey LLP         Housing legal services                       Contract            1,229,350        774,012
                                                         Data and document management
      4/22/2010    Digital Management Inc.                                                            Contract                   —               —
                                                         consulting services
                                                         Data and document management
      4/22/2010    MicroLink, LLC                                                                     Contract            4,275,596      2,548,694
                                                         consulting services
                                                         Data and document management
      4/23/2010    RDA Corporation                                                                    Contract            2,468,290              —
                                                         consulting services
                                                                                                      Interagency
      5/4/2010     Internal Revenue Service              Training — Bulux CON 120                                             1,320           1,320
                                                                                                      Agreement
      5/17/2010    Lazard Fréres & Co. LLC               Transaction structuring services             Financial Agent     7,500,000      4,216,667
                                                         Accurint subscription service for
      6/24/2010    Reed Elsevier Inc (dba LexisNexis)                                                 Contract                8,208           8,208
                                                         one year — 4 users
                                                         Financial institution management &
      6/30/2010    The George Washington University                                                   Contract                5,000           5,000
                                                         modeling — training course (J.Talley)
      7/21/2010    Navigant Consulting                   Program compliance support services          Contract             847,416               —
      7/21/2010    Regis and Associates PC               Program compliance support services          Contract            $553,990             $—
                                                                                                                             Continued on next page.
                                                                                           quarterly report to congress I april 28, 2011             177



OFS SERVICE CONTRACTS            (continued)
                                                                                              Type of                  Obligated       Expended
Date         Vendor                               Purpose                                     Transaction                  Value           Value
7/22/2010    Schiff Hardin LLP                    Housing legal services                      Contract                  537,375             97,526
7/22/2010    Ernst & Young LLP                    Program compliance support services         Contract                 1,329,943                —
7/22/2010    PricewaterhouseCoopers               Program compliance support services         Contract                        —                 —
7/27/2010    West Publishing Corporation          Subscription service for 4 users            Contract                     6,722             6,664
8/6/2010     Alston & Bird LLP                    Omnibus procurement for legal services      Contract                 1,285,416             2,277
8/6/2010     Cadwalader Wickersham & Taft LLP     Omnibus procurement for legal services      Contract                 3,789,815           992,237
             Fox, Hefter, Swibel, Levin &
8/6/2010                                          Omnibus procurement for legal services      Contract                  181,200               660
             Carol, LLP
8/6/2010     Haynes and Boone, LLP                Omnibus procurement for legal services      Contract                        —                 —
8/6/2010     Hughes Hubbard & Reed LLP            Omnibus procurement for legal services      Contract                  113,655            107,301
8/6/2010     Love & Long LLP                      Omnibus procurement for legal services      Contract                        —                 —
8/6/2010     Orrick Herrington Sutcliffe LLP      Omnibus procurement for legal services      Contract                        —                 —
             Paul, Weiss, Rifkind, Wharton &
8/6/2010                                          Omnibus procurement for legal services      Contract                 3,565,041           294,118
             Garrison LLP
8/6/2010     Perkins Coie LLP                     Omnibus procurement for legal services      Contract                        —                 —
8/6/2010     Seyfarth Shaw LLP                    Omnibus procurement for legal services      Contract                        —                 —
             Shulman, Rogers, Gandal, Pordy &
8/6/2010                                          Omnibus procurement for legal services      Contract                  313,725                 —
             Ecker, PA
8/6/2010     Sullivan Cove Reign Enterprises JV   Omnibus procurement for legal services      Contract                        —                 —
8/6/2010     Venable LLP                          Omnibus procurement for legal services      Contract                  498,100               190
8/12/2010    Knowledge Mosaic Inc.                SEC filings subscription service            Contract                     5,000             5,000
             Department of Housing and Urban                                                  Interagency
8/30/2010                                         Detailees                                                               29,915            29,915
             Development                                                                      Agreement
                                                  One-year subscription (3 users) to the CQ
                                                  Today Breaking News & Schedules, CQ
9/1/2010     CQ-Roll Call Inc.                                                              Contract                       7,500             7,500
                                                  Congressional & Financial Transcripts, CQ
                                                  Custom Email Alerts
9/17/2010    Bingham McCutchen LLP                SBA 7(a) Security Purchase Program          Contract                    19,975            11,177
                                                  Program operations support services to
                                                  include project management, scanning
9/27/2010    Davis Audrey Robinette                                                           Contract                  636,830            360,875
                                                  and document management and
                                                  correspondence
                                                  GSA task order for procurement
                                                  books — FAR, T&M, Government
9/30/2010    CCH Incorporated                                                                 Contract                     2,430             2,430
                                                  Contracts Reference, World Class
                                                  Contracting
                                                                                              Interagency
10/1/2010    Financial Clerk U.S. Senate          Congressional Oversight Panel                                        5,200,000       2,467,763
                                                                                              Agreement
10/8/2010    Management Concepts Inc.             Training course — CON 217                   Contract                     1,025             1,025
10/8/2010    Management Concepts Inc.             Training course — CON 216                   Contract                     1,025             1,025
10/8/2010    Management Concepts Inc.             Training course — CON 218                   Contract                     2,214             2,214
10/8/2010    Management Concepts Inc.             Training course — 11107705                  Contract                       995              995
10/8/2010    Management Concepts Inc.             Training course — Analytic Boot             Contract                     1,500             1,500
10/8/2010    Management Concepts Inc.             Training course — CON 218                  Contract                      2,214             2,214
10/8/2010    Management Concepts Inc.             Training course — CON 217                  Contract                      1,025             1,025
10/8/2010    Management Concepts Inc.             Training course — CON 218                  Contract                      2,214             2,214
             Hispanic Association of Colleges &
10/14/2010                                        Detailees                                  Contract                     12,975            12,975
             Universities
                                                                                                                           Continued on next page.
178                special inspector general I troubled asset relief program




       OFS SERVICE CONTRACTS                        (continued)
                                                                                                                                          Type of                             Obligated               Expended
      Date                 Vendor                                              Purpose                                                    Transaction                             Value                   Value
                                                                               IAA - GAO required by P.L. 110-343 to                      Interagency
      10/26/2010           US Government Accountability Office                                                                                                              $7,600,000              $2,512,210
                                                                               conduct certain activities related to TARP                 Agreement
                                                                               FNMA IR2 assessment — OFS task order
      11/8/2010            The MITRE Corporation                               on Treasury MITRE contract for cost and     Contract                                           1,007,050                 181,014
                                                                               data validation services related to HAMP FA
      11/18/2010           Greenhill & Co., Inc.                               Structuring and disposition services                       Financial Agent                     7,050,000               2,200,000
                                                                               Acquisition support services — PSD TARP
      12/2/2010            Addx Corporation                                                                            Contract                                                  768,653                         —
                                                                               (action is an order against BPA)
      12/29/2010           Reed Elsevier Inc (dba LexisNexis)                  Accurint subscription services one user                    Contract                                  1,026                       342
                                                                                                                                          Interagency
      1/5/2011             Canon U.S.A. Inc.                                   Administrative support                                                                             12,937                         —
                                                                                                                                          Agreement
      1/18/2011            Perella Weinberg Partners & Co.                     Structuring and disposition services                       Financial Agent                     6,000,000               1,200,000
                                                                                                                                          Interagency
      1/24/2011            Treasury Franchise Fund                             BPD                                                                                            1,092,962                 272,715
                                                                                                                                          Agreement
                           Association of Government
      1/26/2011                                                                CEAR program application                                   Contract                                  5,000                   5,000
                           Accountants
                                                                               Mentor program training (call against IRS
      2/24/2011            ESI International Inc.                                                                                         Contract                                  6,563                        —
                                                                               BPA)
                           Department of the Treasury —                                                                                   Interagency
      2/28/2011                                                                Administrative support                                                                       17,805,529                3,441,742
                           Departmental Offices                                                                                           Agreement
      3/3/2011             Equilar, Inc.                                       Executive compensation data subscription Contract                                                  59,995                  59,995
      3/10/2011            Mercer LLC                                          Executive compensation data subscription Contract                                                    3,600                        —
                                                                                                                                          Interagency
      3/28/2011            Fox News Network LLC5                               Litigation settlement                                                                             121,000                         —
                                                                                                                                          Agreement
      Total                                                                                                                                                            $798,621,647 $572,533,910

      Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several
      Interagency Agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded.
      1	
         Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      2	
         McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      3	
         Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
      4	
         $1.4M de-obligation submitted on 9/30/2010.
      5	
         Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.

      Source: Treasury, response to SIGTARP data call, 4/11/2011.
Se ction 4   SIGtarp recommendations
180   special inspector general I troubled asset relief program
                                                                                   quarterly report to congress I april 28, 2011           181




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
managing Troubled Asset Relief Program (“TARP”) initiatives so that the various
TARP-related programs can be designed or modified to facilitate transparency and
effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
such recommendations in its quarterly reports to Congress and in many of its audit
reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated January 26, 2011 (the “January 2011 Quarterly Report”),
and, in the table at the end of this section, summarizes SIGTARP’s recommenda-
tions from past quarters and notes the extent of implementation. Appendix H:
“Correspondence” includes Treasury’s written responses to recommendations
referenced in this section.


UPDATE ON SIGTARP’S RECOMMENDATIONS
REGARDING CAPITAL PURCHASE PROGRAM
RESTRUCTURINGS AND RECAPITALIZATIONS AND
SMALL BUSINESS LENDING FUND REFINANCINGS
In the January 2011 Quarterly Report, SIGTARP reported one recommendation                        For more information on CPP, see pages
regarding restructurings and recapitalizations under TARP’s Capital Purchase                     102-125 of this report.
Program (“CPP”) and a related recommendation concerning the Small Business
                                                                                                 For more information on SBLF, see pages
Lending Fund (“SBLF”). As discussed more extensively in Section 2: “TARP
                                                                                                 126-131 of this report.
Overview” of this report, CPP recipients in danger of becoming insolvent may pro-
pose to Treasury a restructuring or recapitalization of Treasury’s CPP investment
to make it easier for the institution to attract private capital. After Treasury receives
a restructuring proposal from a CPP institution, it performs due diligence on the
institution. These transactions may result in Treasury taking a haircut on its CPP
investment and Treasury often requires the CPP recipient to raise capital from
private entities before it will consummate the transaction. Treasury has explained to
SIGTARP that it enters into these transactions in an attempt to avoid the total loss
of Treasury’s investment that would occur if the institution failed.
    SIGTARP recommended that Treasury resume its practice of sharing with
SIGTARP, in advance of the transaction, the identity of the candidate and details
of the proposed transaction in order to determine whether the candidate is the
subject of an ongoing criminal investigation by SIGTARP. This recommendation
was based on SIGTARP’s concern that if Treasury did not consult with SIGTARP
to determine whether the CPP participant was currently under investigation for
182   special inspector general I troubled asset relief program




                                             fraud, there existed unwarranted and unnecessary risk of harm both to Treasury’s
                                             decision-making process and to unknowing private investors. Similarly, if a CPP
                                             recipient seeking refinancing and additional funding under the SBLF program is
                                             under investigation for fraud, additional taxpayer dollars may be at risk.
                                                 Each recommendation is discussed below, along with Treasury’s response.

                                             SIGTARP recommends that Treasury, as part of its due diligence concern-
                                             ing any proposed restructuring, recapitalization, or sale of its investment to a
                                             third party, provide to SIGTARP the identity of the CPP institution and the
                                             details of the proposed transaction.
                                                 Treasury has adopted this recommendation, allowing SIGTARP to share infor-
                                             mation about relevant investigations, on a strictly confidential basis, with certain
                                             Treasury personnel so that Treasury can be better informed before engaging in such
                                             transactions.

                                             When a CPP participant applies to refinance into SBLF and seeks additional
                                             taxpayer funds, SIGTARP recommends that Treasury provide to SIGTARP
                                             the identity of the institution and details of the proposed additional SBLF
                                             investment.
                                                Treasury has adopted this recommendation, allowing SIGTARP to share infor-
                                             mation about relevant investigations, on a strictly confidential basis, with certain
                                             Treasury personnel so that Treasury can be better informed before acting on the
                                             application.



                                             Recommendations Regarding Treasury’s
                                             Process for Contracting for
                                             Professional Services Under TARP
                                             The Office of Financial Stability (“OFS”) within Treasury is responsible for ad-
                                             ministering TARP. Included within Treasury’s authorities under the Emergency
                                             Economic Stabilization Act of 2008 is the power to enter into contracts. In addition
                                             to using permanent and interim staff, OFS relies on contractors for legal services.
                                                 On April 14, 2011, SIGTARP released an audit report, “Treasury’s Process for
                                             Contracting for Professional Services under TARP.” The report was issued as part
                                             of SIGTARP’s continuing oversight of TARP and in response to a request from
                                             Senator Tom Coburn, M.D.
                                                 SIGTARP interviewed Treasury officials in OFS and Treasury’s Procurement
                                             Services Division, reviewed relevant Treasury policies and procedures governing
                                             contracts, analyzed Treasury’s contracts with five law firms, and reviewed a sample
                                             of invoices for legal services (“fee bills”) from each of the firms. The five law firms
                                                                                 quarterly report to congress I april 28, 2011   183




are: (1) Cadwalader Wickersham & Taft LLP, (2) Locke Lord Bissell & Liddell LLP,
(3) McKee Nelson LLP (which merged with, and is now, Bingham McCutchen
LLP), (4) Simpson Thacher & Bartlett LLP, and (5) Venable LLP (“Venable”). As of
December 31, 2010, OFS paid these five law firms more than $27 million in legal
fees. The report discusses the results of SIGTARP’s audit of OFS’ contracting pro-
cesses related to Venable and SIGTARP’s audit of fee bills submitted by Venable and
paid by OFS. In addition, SIGTARP’s initial review of other law firms’ contracts and
fee bills suggests that they too raise issues similar to those discussed in SIGTARP’s
report. SIGTARP issued the report so that OFS would have the opportunity to
quickly strengthen its policies, controls, and contracts.
    SIGTARP’s analysis of OFS’ contracting process and fee bill review related to
Venable, as well as SIGTARP’s preliminary review of fee bills and contracts of other
law firms, disclosed areas where OFS can immediately improve its contracting
policies and its controls over payment of outside legal fees. SIGTARP found weak-
nesses in the OFS contract with Venable as well as the OFS policies for review of
Venable’s fee bills. First, OFS contracts for legal services do not adequately describe
how to prepare fee bills or provide adequate information on what costs, services, or
charges are allowable or unallowable. Although OFS legal services contracts incor-
porate several clauses of the Federal Acquisition Regulation (“FAR”) regarding gen-
eral payment and allowable cost information, the mere reference to these clauses
does not appear to have given sufficient guidance either to outside counsel prepar-
ing fee bills or OFS Contracting Officer’s Technical Representatives (“COTRs”)
reviewing those bills to ensure that tax dollars are wisely and appropriately spent.
    Second, OFS’ procedures for reviewing fee bills offer insufficient guidance to
OFS COTRs, resulting in inadequate and inconsistent review of legal fee bills.
Those procedures regarding invoice review simply state that a COTR’s duties may
include reviewing “contractor invoices to ensure costs are allocable to the contract,
allowable pursuant to financial regulations, and reasonable.” They do not provide
specific standards or instructions on how to review the fee bills for accuracy and
reasonableness nor are OFS COTRs separately provided this information as a guide
to perform reviews of the fee bills.
    SIGTARP found that Venable’s bills contained block billing (the combination
of different types of activities in one entry on the invoice), vague and inadequate
descriptions of work, and administrative charges not allowed under the contract.
OFS COTRs did not question any hourly labor charges, including those with vague
and inadequate descriptions of work and those that were block billed. In many in-
stances, OFS could not have adequately assessed the reasonableness of the fees. In
addition, the lack of detailed language in the OFS contract with Venable resulted
in OFS COTRs routinely approving charges for tasks that could be considered
administrative, and thus not reimbursable under a labor-hours contract. Similarly,
when conducting its own audit of Venable’s legal fee bills, SIGTARP was unable to
184   special inspector general I troubled asset relief program




                                             assess the reasonableness of Venable’s fees because of the billing methods allowed
                                             and the lack of adequate detail in many of the fee bills. Using legal fee bill review
                                             standards contained in the Federal Deposit Insurance Corporation’s (“FDIC”)
                                             Outside Counsel Deskbook and standards used by other Federal entities, SIGTARP
                                             questioned $676,840 in fee billings (approximately two-thirds of the total value
                                             of the Venable fee bills SIGTARP reviewed). That SIGTARP questioned these fee
                                             billings does not mean that the fees themselves were unreasonable, only that the
                                             information provided by Venable in the bills was insufficient to allow SIGTARP, or
                                             OFS, to fairly assess their reasonableness.
                                                  SIGTARP continues to believe that OFS’ legal fee bill review practices create an
                                             unacceptable risk that Treasury, and therefore the American taxpayer, is overpaying
                                             for legal services. Because OFS did not question legal fee bills that contained block
                                             billed charges, vague and inadequate descriptions of work performed, and charges
                                             for administrative functions not allowed under the contract, it could not have
                                             conclusively determined that amounts billed and paid were reasonable. To improve
                                             controls over the review and payment of legal fees and related costs with respect
                                             to OFS contracting practices and procedures, SIGTARP, as part of its continuing
                                             oversight of TARP, made the four recommendations listed below. In its response,
                                             Treasury noted that it had been subject to extensive oversight of its general con-
                                             tracting practices, stated that it has implemented “strong and effective processes in
                                             regard to all of its contracts, including those for legal services,” and declared that
                                             “we disagree with the . . . suggestion that our practices have created an ‘unaccept-
                                             able risk’ that Treasury is overpaying for legal services.”
                                                  Treasury has stated its intent to adopt SIGTARP’s recommendations, and OFS
                                             has taken important steps in response to SIGTARP’s recommendations, includ-
                                             ing meeting with FDIC officials to discuss FDIC’s practices for reviewing fee bills,
                                             providing its outside counsel with instructions on submitting invoices, meeting with
                                             and providing training to its COTRs on reviewing invoices, and planning further
                                             follow-up actions with Venable regarding SIGTARP’s findings. These actions, along
                                             with others that OFS will need to take to fully implement SIGTARP’s recommen-
                                             dations, should afford American taxpayers far greater protection and assurance
                                             that they are getting their money’s worth. SIGTARP will continue to monitor OFS’
                                             progress in implementing these recommendations.
                                                  The four recommendations, along with Treasury’s responses, are discussed below.
                                                                                 quarterly report to congress I april 28, 2011   185




First, OFS should adopt the legal fee bill submission standards contained in the
FDIC’s Outside Counsel Deskbook, or establish similarly detailed requirements
for how law firms should prepare legal fee bills and describe specific work per-
formed in the bills, and which costs and fees are allowable and unallowable.

Second, OFS should include in its open legal service contracts detailed re-
quirements for law firms on the preparation and submission of legal fee bills,
or separately provide the instructions to law firms and modify its open con-
tracts, making application of the instructions mandatory.
    With respect to the first two recommendations, Treasury told SIGTARP that
OFS staff has reviewed the FDIC’s Outside Counsel Deskbook, met with mem-
bers of the FDIC legal team who developed and implemented the deskbook, and
reviewed local rules from the U.S. Bankruptcy Court for the District of Delaware.
After its review, OFS adopted portions of each document for use as new submission
and review standards, and distributed this new guidance to all law firms currently
under contract to OFS. The new, more specific OFS guidance prescribing how
legal fee bills should be prepared was included as an appendix to the audit report.
Treasury further stated that OFS will work with Treasury’s Procurement Services
Division to begin modifying base contracts for OFS legal services to include those
standards as well.

Third, OFS should adopt the legal fee bill review standards and procedures
contained in the Federal Deposit Insurance Corporation’s Outside Counsel
Deskbook, or establish similarly specific instructions and guidance for OFS
COTRs to use when reviewing legal fee bills, and incorporate those instruc-
tions and guidance into OFS written policies.
    Treasury stated that OFS held training on its newly adopted guidance prescrib-
ing how legal fee bills should be prepared with OFS COTRs and other staff in-
volved in the review of legal fee bills, and that the OFS COTRs will begin reviewing
invoices in accordance with its new guidance for periods starting with March 2011.
Treasury also stated that it will work to incorporate relevant portions of its training
on the new legal fee bill review standards into written procedures.

Fourth, OFS should review previously paid legal fee bills to identify unreason-
able or unallowable charges, and seek reimbursement for those charges, as
appropriate.
    Treasury stated that OFS is following up with Venable on SIGTARP’s findings
and, in accordance with applicable contract closeout procedures, each contract will
be subject to further review by OFS. According to Treasury, in the event question-
able invoice amounts are identified during such closeouts, OFS intends to seek
additional support or remittance, as appropriate.
 SIGTARP Recommendations Table                    (continued)                                                                                                                          186
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
1    *    Treasury should include language in the automobile industry
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                 X
          role and expressly giving SIGTARP access to relevant docu-
          ments and personnel.
2    *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made substantial
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      efforts to comply with this recommenda-
          recommends that each program participant should (1)                                                                                tion in many of its agreements, there
          acknowledge explicitly the jurisdiction and authority of                                                                           have been exceptions, including in its
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        agreements with servicers in MHA.
          compliance of the conditions contained in the agreement in
          question, (2) establish internal controls with respect to that                          X
          condition, (3) report periodically to the Compliance depart-
          ment of the Office of Financial Stability (“OFS-Compliance”)
          regarding the implementation of those controls and its com-
          pliance with the condition, and (4) provide a signed certifica-
          tion from an appropriate senior official to OFS-Compliance
          that such report is accurate.
3    *    All existing TARP agreements, as well as those governing
          new transactions, should be posted on the Treasury website             X
          as soon as possible.
                                                                                                                                                                                       special inspector general I troubled asset relief program




4    *    Treasury should require all TARP recipients to report on the
                                                                                 X
          actual use of TARP funds.
5    *    Treasury quickly determines its going-forward valuation
                                                                                 X
          methodology.
6    *    Treasury begins to develop an overall investment strategy to
          address its portfolio of stocks and decide whether it intends          X
          to exercise warrants of common stock.
7    *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted mecha-
          consider requiring, before committing TARP funds to the                                                                            nisms that address this recommendation.
          program, that certain minimum underwriting standards and/
                                                                                 X
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
8    *    Agreements with TALF participants should include an
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                           X
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
9    *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                 X
          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10   *    Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
11        Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
12   *    Treasury and the Federal Reserve should provide to SIG-                                                                            On December 1, 2010, the Federal
          TARP, for public disclosure, the identity of the borrowers                                                                         Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *    In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
          particular RMBS do not meet certain baseline underwriting
          criteria or are in categories that have been proven to be
          riddled with fraud, including certain undocumented subprime
          residential mortgages.
14   *    In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15   *    Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted mecha-
          protection provisions, specific to all MBS, before participat-                                                                     nisms that address this recommenda-
                                                                                X
          ing in an expanded TALF, including minimum underwriting                                                                            tion with respect to CMBS, and did not
          standards and other fraud prevention measures.                                                                                     expand TALF to RMBS.
16   *    Treasury should design a robust compliance protocol with
          complete access rights to all TALF transaction participants                                                      X
          for itself, SIGTARP, and other relevant oversight bodies.
17   *    Treasury should not allow Legacy Securities PPIFs to invest
          in TALF unless significant mitigating measures are included           X
          to address these dangers.
18   *    All TALF modeling and decisions, whether on haircuts or any
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X
          TARP funds, and not just potential losses to the Federal
          Reserve.
19   *    Treasury should address the confusion and uncertainty on
          executive compensation by immediately issuing the required            X
                                                                                                                                                                                         quarterly report to congress I april 28, 2011




          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                         187
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not                                                               188
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
20   *    Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *    Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
22   *    Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest PPIF                                                                        recommendation, but has failed to im-
          funds in legacy assets that they hold or manage on behalf                               X                                          pose other significant safeguards.
          of themselves or their clients or (2) conduct PPIF transac-
          tions with entities in which they have invested on behalf of
                                                                                                                                                                                            special inspector general I troubled asset relief program




          themselves or others.
23   *    Treasury should require that all PPIF fund managers (1) have                                                                       Treasury’s agreements with PPIF manag-
          stringent investor-screening procedures, including compre-                                                                         ers include investor-screening procedures
          hensive “Know Your Customer” requirements at least as                                                                              such as “Know Your Customer” require-
          rigorous as that of a commercial bank or retail brokerage                                                                          ments. Treasury has agreed that it will
          operation to prevent money laundering and the participation                                                                        have access to any information in a fund
                                                                                                  X
          of actors prone to abusing the system, and (2) be required                                                                         manager’s possession relating to benefi-
          to provide Treasury with the identities of all the beneficial                                                                      cial owners. However, Treasury did not
          owners of the private interests in the fund so that Treasury                                                                       impose an affirmative requirement that
          can do appropriate diligence to ensure that investors in the                                                                       managers obtain and maintain beneficial
          funds are legitimate.                                                                                                              owner information.
24   *    Treasury should require most-favored-nation clauses,
          PPIF managers to acknowledge that they owe Treasury a
                                                                                 X
          fiduciary duty, and that each manager adopt a robust ethics
          policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation and
          subject property before funding a mortgage modification.                                                                           stated that its program administrator
                                                                                                                                             Fannie Mae conducted a pilot program
                                                                                                                                             to verify owner occupancy. However, as
                                                                                                                                             discussed in Section 2 of this report, the
                                                                                                             X                               residency requirement for HAFA transac-
                                                                                                                                             tions has been significantly loosened so
                                                                                                                                             that the borrower only needs to demon-
                                                                                                                                             strate that he lives in the residence in the
                                                                                                                                             preceding 12 months and Treasury will
                                                                                                                                             not require third party verification of this
                                                                                                                                             requirement.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
26   *    In MHA, Treasury should require a closing-like procedure be                                                                        See discussion in Section 5: “SIGTARP
          conducted that would include (1) a closing warning sheet                                                                           Recommendations” of SIGTARP’s October
          that would warn the applicant of the consequences of fraud;                                                                        2009 Quarterly Report.
          (2) the notarized signature and thumbprint of each partici-
          pant; (3) mandatory collection, copying, and retention of
          copies of identification documents of all participants in the
          transaction; (4) verbal and written warnings regarding hidden                           X
          fees and payments so that applicants are made fully aware
          of them; (5) the benefits to which they are entitled under the
          program (to prevent a corrupt servicer from collecting pay-
          ments from the Government and not passing the full amount
          of the subsidies to the homeowners); and (6) the fact that no
          fee should be charged for the modification.
27        Additional anti-fraud protections should be adopted in MHA                                                                         Treasury stated that its compliance
          to verify the identity of the participants in the transaction                                                                      agent Freddie Mac has developed and
          and to address the potential for servicers to steal from                                                                           implemented procedures to address this
          individuals receiving Government subsidies without applying                                                                        recommendation. Treasury also stated
          them for the benefit of the homeowner.                                                                                             that its program administrator Fannie
                                                                                                             X                               Mae conducted a pilot program to verify
                                                                                                                                             owner occupancy. Treasury has reas-
                                                                                                                                             signed this effort to its compliance agent
                                                                                                                                             Freddie Mac. SIGTARP will continue to
                                                                                                                                             monitor implementation of this recom-
                                                                                                                                             mendation.
28   *    In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s recom-
          the income reported on a mortgage modification application                                                                         mendation and does not require income
          with the income reported on the original loan applications.                                                      X                 reported on the modification application
                                                                                                                                             to be compared to income reported on
                                                                                                                                             the original loan application.
29   *    In MHA, Treasury should require that verifiable, third-party
          information be obtained to confirm an applicant’s income              X
          before any modification payments are made.
30   *    In MHA, Treasury should defer payment of the $1,000 incen-                                                                         Rather than deferring payment of the
          tive to the servicer until after the homeowner has verifiably                                                                      incentive until after the homeowner has
          made a minimum number of payments under the mortgage                                                                               verifiably made a minimum number of
          modification program.                                                                                                              payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *    In MHA, Treasury should proactively educate homeowners
          about the nature of the program, warn them about modifica-
                                                                                X
          tion rescue fraudsters, and publicize that no fee is neces-
          sary to participate in the program.
                                                                                                                                                                                          quarterly report to congress I april 28, 2011




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                          189
 SIGTARP Recommendations Table                    (continued)                                                                                                                                190
                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
32   *    In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administra-
          the names and identifying information for each participant in                                                                      tor, Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains the
          database of such information.                                                                                                      servicers’ and investors’ names and
                                                                                                                                             participating borrowers’ personally
                                                                                                  X
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *    Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this signifi-
          barriers or “walls” between the PPIF managers making                                                                               cant anti-fraud measure designed to pre-
          investment decisions on behalf of the PPIF and those                                                             X                 vent conflicts of interest. This represents
          employees of the fund management company who manage                                                                                a material deficiency in the program.
          non-PPIF funds.
34   *    Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish on a
          and require PPIF managers to disclose to SIGTARP, within                                                                           quarterly basis certain high-level informa-
          seven days of the close of the quarter, all trading activity,                                                                      tion about aggregated purchases by the
          holdings, and valuations so that SIGTARP may disclose                                                                              PPIFs, but not within seven days of the
          such information, subject to reasonable protections, in its                                                      X                 close of the quarter. Treasury has not
                                                                                                                                                                                             special inspector general I troubled asset relief program




          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35        Treasury should define appropriate metrics and an evalua-                                                                          Despite that there has been eighteen
          tion system should be put in place to monitor the effective-                                                                       months of trading by the PPIFs, Treasury
          ness of the PPIF managers, both to ensure they are fulfilling                                                                      still has not specified a benchmark by
          the terms of their agreements and to measure performance.                                                                          which performance of a PPIF can be mea-
                                                                                                                                             sured. Treasury stated that its contractor
                                                                                                                           X
                                                                                                                                             Ennis Knupp has identified a subcontrac-
                                                                                                                                             tor that will assist with providing analytics
                                                                                                                                             and metrics on the PPIF portfolio. SIG-
                                                                                                                                             TARP will continue to monitor Treasury’s
                                                                                                                                             progress in this area.
36   *    The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this recom-
          PPIF manager should be expanded to include a manager’s                                                                             mendation, relying solely on Treasury’s
          performance below a certain standard benchmark, or if                                                                              right to end the investment period after
          Treasury concludes that the manager has materially violated                                                                        12 months. During this time the PPIF
                                                                                                                          X
          compliance or ethical rules.                                                                                                       manager’s performance may continue
                                                                                                                                             to fall below a standard benchmark,
                                                                                                                                             potentially putting significant Government
                                                                                                                                             funds at risk.
37   *    Treasury should require PPIF managers to disclose to Trea-
          sury, as part of the Watch List process, not only information
                                                                                X
          about holdings in eligible assets but also holdings in related
          assets or exposures to related liabilities.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP Recommendations Table                     (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
38        Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund man-
          the private equity interests, and Treasury should have the                                                                         ager’s possession relating to beneficial
          unilateral ability to prohibit participation of private equity                                                                     owners. However, Treasury is not making
          investors.                                                                                                                         an affirmative requirement that manag-
                                                                                                                           X                 ers obtain and maintain beneficial owner
                                                                                                                                             information. Treasury will not adopt the
                                                                                                                                             recommendation to give itself unilateral
                                                                                                                                             ability to deny access to or remove an
                                                                                                                                             investor, stating that such a right would
                                                                                                                                             deter participation.
39   *    Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential over-
          to give a potential TALF security the necessary AAA rating                                                                         rating or rating shopping with the rating
                                                                                 X
          and (2) develop mechanisms to ensure that acceptance of                                                                            agencies, and have agreed to continue to
          collateral in TALF is not unduly influenced by the improper                                                                        develop and enhance risk management
          incentives to overrate that exist among the credit agencies.                                                                       tools and processes, where appropriate.
40   *    Treasury should more explicitly document the vote of each
          Investment Committee member for all decisions related to               X
          the investment of TARP funds.
41   *    Treasury should improve existing control systems to docu-
          ment the occurrence and nature of external phone calls and
          in-person meetings about actual and potential recipients of            X
          funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
42   *    The Secretary of the Treasury should direct the Special
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                 X
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal as-
          sistance provided.
43   *    Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not anticipate
          future decisions to take a substantial ownership position in                                                                       taking a substantial percentage owner-
          financial institutions that would require an advance review                                                                 X      ship position in any other financial institu-
          so that Treasury can be reasonably aware of the obligations                                                                        tion pursuant to EESA.
          and challenges facing such institutions.
44   *    Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
45        Treasury should rectify the confusion that its own state-                                                                          Despite SIGTARP’s repeated highlighting
          ments have caused for HAMP by prominently disclosing                                                                               of this essential transparency and effec-
                                                                                                                                                                                             quarterly report to congress I april 28, 2011




          its goals and estimates (updated over time, as necessary)                                                                          tiveness measure, Treasury has refused
                                                                                                                           X
          of how many homeowners the program will help through                                                                               to disclose clear and relevant goals and
          permanent modifications and report monthly on its progress                                                                         estimates for the program.
          toward meeting that goal.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                             191
                                                                                                                                                                                           192
 SIGTARP Recommendations Table                     (continued)

                                                                                              Partially                    Not
          Recommendation                                                      Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
46        Treasury should develop other performance metrics and                                                                               Although Treasury has increased its
          publicly report against them to measure over time the imple-                                                                        reporting of servicer performance, it has
          mentation and success of HAMP. For example, Treasury                                                                                not identified goals for each metric and
          could set goals and publicly report against those goals for                                                                         measured performance against those
          servicer processing times, modifications as a proportion of                             X                                           goals.
          a servicer’s loans in default, modifications as a proportion
          of foreclosures generally, rates of how many borrowers fall
          out of the program prior to permanent modification, and
          re-default rates.
47        Treasury should undertake a sustained public service
          campaign as soon as possible, both to reach additional bor-
          rowers who could benefit from the program and to arm the                 X
          public with complete, accurate information – this will help to
          avoid confusion and delay, and prevent fraud and abuse.
48        Treasury should reconsider its position that allows servicers
          to substitute alternative forms of income verification based                                                      X
          on subjective determinations by the servicer.
49        Treasury should re-examine HAMP’s structure to ensure that                                                                          Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                         assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                           concerns of negative equity but has not
                                                                                                                                                                                           special inspector general I troubled asset relief program




          resets after the five-year modifications end, and from many                                                                         addressed other factors contained in this
          borrowers being underwater.                                                                                                         recommendation.
50        Treasury should institute careful screening before putting                                                                          Treasury has stated that it has imple-
          additional capital through CDCI into an institution with insuffi-                                                                   mented this recommendation. SIGTARP
                                                                                   X
          cient capital to ensure that the TARP matching funds are not                                                                        will examine Treasury’s implementation of
          flowing into an institution that is on the verge of failure.                                                                        the recommendation.
51        Treasury should develop a robust procedure to audit and                                                                             Treasury has stated that it has imple-
          verify the bona fides of any purported capital raise in CDCI                                                                        mented this recommendation. SIGTARP
                                                                                   X
          and to establish adequate controls to verify the source,                                                                            will examine Treasury’s implementation of
          amount and closing of all claimed private investments.                                                                              the recommendation.
52        Treasury should revise CDCI terms to clarify that Treasury
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                       X
          programs, the terms should be revised to provide expressly
          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
53        Treasury should consider more frequent surveys of a CDCI
          participant’s use of TARP funds than annually as currently
                                                                                                                            X
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
54        Treasury should ensure that more detail is captured by the                                                                          Treasury has indicated that it has imple-
          Warrant Committee meeting minutes. At a minimum, the                                                                                mented this recommendation. Although
          minutes should include the members’ qualitative consider-                                                                           the detail of the minutes has improved,
                                                                                   X
          ations regarding the reasons bids were accepted or rejected                                                                         Treasury is still not identifying how each
          within fair market value ranges.                                                                                                    member of the committee casts his or
                                                                                                                                              her vote.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                            Continued on next page.
 SIGTARP Recommendations Table                     (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
55        Treasury should document in detail the substance of all com-                                                                       Treasury has agreed to document the
          munications with recipients concerning warrant repurchases.                                                                        dates, participants, and subject line of
                                                                                                                           X
                                                                                                                                             calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *    Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this recommenda-
          will be pursued, including the degree and nature of informa-                                                                       tion, including a policy to discuss only
          tion to be shared with repurchasing institutions concerning                                                                        warrant valuation inputs and methodolo-
          Treasury’s valuation of the warrants.                                                                                              gies prior to receiving a bid, generally
                                                                                                                                             to limit discussion to valuation ranges
                                                                                                  X                                          after receiving approval from the Warrant
                                                                                                                                             Committee, and to note the provision of
                                                                                                                                             any added information in the Committee
                                                                                                                                             minutes. However, Treasury believes that
                                                                                                                                             its existing internal controls are sufficient
                                                                                                                                             to ensure adequate consistency in the
                                                                                                                                             negotiation process.
57   *    Treasury should promptly take steps to verify TARP partici-                                                                        Although Treasury largely continues to
          pants’ conformance to their obligations, not only by ensuring                                                                      rely on self-reporting, stating that it only
          that they have adequate compliance procedures but also by                                                                          plans to conduct testing where they have
          independently testing participants’ compliance.                                                                                    particular concerns as to a TARP recipi-
                                                                                                  X
                                                                                                                                             ent’s compliance procedures or testing
                                                                                                                                             results, it has conducted independent
                                                                                                                                             testing of compliance obligations during
                                                                                                                                             two recent compliance reviews.
58        Treasury should develop guidelines that apply consistently                                                                         Treasury states that it intends to develop
          across TARP participants for when a violation is sufficiently                                                                      standard guidelines.
                                                                                                             X
          material to merit reporting, or in the alternative require that
          all violations be reported.
59        For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected participa-                                                                       but not expected participation.
          tion in each and that, after each program is launched, it
          report monthly as to the program’s performance against
          these expectations.
60   *    Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the volun-
          principal reduction program and, irrespective of whether it                                                                        tary nature of the program, providing
          is discretionary or mandatory, consider changes to better                                                                          an explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated bor-                                                                       continue to monitor performance.
          rowers, and address potential conflict of interest issues.
61        Treasury should adopt a uniform appraisal process across
          all HAMP and HAMP-related short-sale and principal reduc-                                                        X
          tion programs consistent with FHA’s procedures.
62        Treasury should reconsider the length of the minimum term                                                                          Treasury plans to maintain the existing
                                                                                                                                                                                             quarterly report to congress I april 28, 2011




          of HAMP’s unemployment forbearance program.                                                                                        minimum term, providing an explanation
                                                                                                                                      X      that on its face seems unpersuasive to
                                                                                                                                             SIGTARP. SIGTARP will continue to moni-
                                                                                                                                             tor performance.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                             193
                                                                                                                                                                                           194
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
63        Treasury should launch a broad-based information campaign,
          including public service announcements in target markets
          that focus on warnings about potential fraud, and include              X
          conspicuous fraud warnings whenever it makes broad public
          announcements about the program.
64        When Treasury considers whether to accept an existing CPP                                                                          Treasury has indicated that it “generally
          participant into SBLF, because conditions for many of the                                                                          agrees with and is implementing this rec-
          relevant institutions have changed dramatically since they                                                                         ommendation.” SIGTARP will continue to
          were approved for CPP, Treasury and the bank regulators                X                                                           monitor Treasury’s progress in this area.
          should conduct a new analysis of whether the applying insti-
          tution is sufficiently healthy and viable to warrant participa-
          tion in SBLF.
65        When Treasury conducts the new analysis of an institution’s                                                                        Treasury has refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are not
                                                                                                                           X
                                                                                                                                             counted as part of their capital base, and
                                                                                                                                             that SBLF “already provides substan-
                                                                                                                                                                                           special inspector general I troubled asset relief program




                                                                                                                                             tial hurdles that CPP recipients must
                                                                                                                                             overcome” that do not apply to other
                                                                                                                                             applicants.
66        Treasury should take steps to prevent institutions that are                                                                        Treasury has refused to adopt this recom-
          refinancing into the SBLF from CPP from securing windfall                                                                          mendation, suggesting that its adoption
          dividend reductions without any relevant increase in lending.                                                                      would subvert the will of Congress and
                                                                                                                           X                 that SIGTARP’s recommendation “may
                                                                                                                                             not be helpful” because “it is unclear that
                                                                                                                                             using this statutorily mandated baseline
                                                                                                                                             will lead to anomalies.”
67   *    Treasury, as part of its due diligence concerning any                                                                              See discussion in this section.
          proposed restructuring, recapitalization, or sale of its CPP
          investment to a third party, should provide to SIGTARP the             X
          identity of the CPP institution and the details of the proposed
          transaction.
68   *    When a CPP participant refinances into SBLF and seeks ad-                                                                          See discussion in this section.
          ditional taxpayer funds, Treasury should provide to SIGTARP
                                                                                 X
          the identity of the institution and details of the proposed
          additional SBLF investment.
69   *    OFS should adopt the legal fee bill submission standards                                                                           See discussion in this section.
          contained in the FDIC’s Outside Counsel Deskbook, or estab-
          lish similarly detailed requirements for how law firms should
                                                                                 X
          prepare legal fee bills and describe specific work performed
          in the bills, and which costs and fees are allowable and
          unallowable.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
 SIGTARP Recommendations Table                    (continued)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
70   *    OFS should include in its open legal service contracts                                                                             See discussion in this section.
          detailed requirements for law firms on the preparation and
          submission of legal fee bills, or separately provide the                                           X
          instructions to law firms and modify its open contracts, mak-
          ing application of the instructions mandatory.
71   *    OFS should adopt the legal fee bill review standards and pro-                                                                      See discussion in this section.
          cedures contained in the FDIC’s Outside Counsel Deskbook,
          or establish similarly specific instructions and guidance
                                                                                                             X
          for OFS COTRs to use when reviewing legal fee bills, and
          incorporate those instructions and guidance into OFS written
          policies.
72   *    OFS should review previously paid legal fee bills to identify                                                                      See discussion in this section.
          unreasonable or unallowable charges, and seek reimburse-                                           X
          ment for those charges, as appropriate.
Note: *Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                               quarterly report to congress I april 28, 2011
                                                                                                                                                                               195
196              special inspector general I troubled asset relief program



      1. 	    See, for example, SIGTARP’s audit report “Factors Affecting Implementation of the Home Affordable Modification Program,” published March
              25, 2010.
      2. 	    In October 2009 Treasury started to encounter challenges with its website counting system, and, as a result, changed to a new system in January
              2010. SIGTARP has calculated the total number of website hits reported herein based on the number reported to SIGTARP as of September
              30, 2009, plus an archived number provided by Treasury for October — December 2009 and information generated from Treasury’s new system
              from January 2010 through March 2011.
      3. 	    Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
              sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, response to
              SIGTARP data call, 4/6/2011.
      4. 	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
      5. 	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
      6. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strat-
              egy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 12/9/2010.
      7. 	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
      8. 	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
      9. 	    Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefingroom/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
      10. 	   GAO, “Office of Financial Stability (Troubled Asset Relief Program) Fiscal Years 2010 and 2009 Financial Statements,” 11/15/2010, www.
              gao.gov/new.items/d11174.pdf, accessed 1/19/2011; Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,”
              11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%20
              15.pdf, accessed 1/17/2011.
      11. 	   Treasury, Section 105(a) Report, 3/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Febru-
              ary%202011%20105(a)%20Report_Final.pdf, accessed 3/14/2010.
      12. 	   Treasury, “TARP: By the Numbers,” 3/11/2011, www.treasury.gov/connect/blog/Pages/TARP-By-the-Numbers.aspx, accessed 3/21/2011.
      13. 	   Congressional Budget Office, “Report on the Troubled Asset Relief Program — March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-
              29-TARP.pdf, accessed 3/30/2011.
      14. 	   Congressional Budget Office, “Report on the Troubled Asset Relief Program — March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-
              29-TARP.pdf, accessed 3/30/2011.
      15. 	   Treasury, “Office of Financial Stability Agency Financial Report—Fiscal Year 2010,” 9/30/2010, www.treasury.gov/initiatives/financial-stability/
              briefingroom/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
      16. 	   Congressional Budget Office, “Report on the Troubled Asset Relief Program — March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-
              29-TARP.pdf, accessed 3/30/2011.
      17. 	   Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%20
              2010%20105(a)%20Report_Final.pdf, accessed 1/17/2011; Helping Families Save Their Homes Act of 2009, P.L. 111-022, 5/20/2009, p. 12.
      18. 	   Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%20
              2010%20105(a)%20Report_Final.pdf, accessed 1/17/2011; Helping Families Save Their Homes Act of 2009, P.L. 111-022, 5/20/2009, p. 12.
      19. 	   Treasury, response to SIGTARP data call, 4/6/2011.
      20. 	   As of March 31, 2011, 165 TARP recipients in various programs had repaid their TARP funds. Under CPP, 158 TARP recipients had repaid a
              total of $179.1 billion. Chrysler, Chrysler Financial LLC, General Motors, and GMAC (now Ally Financial) had repaid TARP funds under AIFP
              totaling $29.6 billion. Under SSFI, AIG had repaid TARP funds totaling $9.1 billion. Under TIP, Bank of America and Citigroup had repaid
              $40.0 billion. Under PPIP, two PPIFs repaid a total of $840.5 million. Treasury and Citigroup had also terminated their agreement under AGP,
              reducing Treasury’s exposure by $5 billion. Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-
              room/reports/tarp-transactions/DocumentsTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf,
              accessed 4/4/2011.
      21. 	   Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
              sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, response to
              SIGTARP data call, 4/6/2011.
      22. 	   Treasury, Transactions Report, 3/31/2011; Treasury, Section 105(a) Report, 12/10/2010; Treasury, Dividends and Interest Report, 3/31/2011; Trea-
              sury, response to SIGTARP data call, 10/18/2010.
      23. 	   Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
              sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, response to
              SIGTARP data call, 4/6/2011.
      24. 	   Treasury, response to SIGTARP data call, 1/4/2011.
      25. 	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
              presscenter/press-releases/Pages/tg48.aspx, accessed 1/17/2011.
      26. 	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
      27. 	   Treasury, “Home Affordable Modification Program — Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 12/9/2010.
      28. 	   Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stabili-
              ty/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
      29. 	   Treasury, response to SIGTARP data call, 4/21/2011.
      30. 	   Treasury, response to SIGTARP data call, 4/21/2011.
      31. 	   Treasury, response to SIGTARP data call, 4/21/2011.
      32. 	   Treasury, response to SIGTARP data call, 4/21/2011.
      33. 	   Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 3/5/2010, www.makinghomeaffordable.gov/docs/
              HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 7/12/2010.
                                                                                              quarterly report to congress I april 28, 2011                  197


34. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, “Update to
      the HFA Hardest Hit Fund Frequently Asked Questions,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/hhf/Docu-
      ments/Hardest20Hit20public20QA20020292010.pdf, accessed 1/17/2011; Treasury, “Housing Finance Agency Innovation Fund for the Hardest
      Hit Housing Markets,” 3/5/2010, www.makinghomeaffordable.gov/docs/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed
      7/12/2010; Treasury Press Release, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to
      Help Homeowners Struggling with Unemployment,” 8/11/2010, ustreas.gov/press/releases/tg823.htm, accessed 1/17/2011.
35. 	 Treasury, response to SIGTARP data call, 4/21/2011.
36. 	 Treasury, response to SIGTARP data call, 4/21/2011.
37. 	 Treasury, response to SIGTARP data call, 4/21/2011.
38. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
39. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Pages/
      capitalpurchaseprogram.aspx, accessed 1/17/2011.
40. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Pages/
      capitalpurchaseprogram.aspx, accessed 1/17/2011.
41. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
42. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
43. 	 Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
      Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 1/17/2011; for date CPP was closed, see
      last investment date in Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-trans-
      actions/DocumentsTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
44. 	 Treasury, response to SIGTARP draft report, 10/8/2010.
45. 	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/Documents/CDCI-
      20FAQs20Updated.pdf, accessed 1/17/2011.
46. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
47. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
48. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 1, 80, 83.
49. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 83-85, 95.
50. 	 Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-Busi-
      ness-Lending-Fund.aspx, accessed 12/21/2010; Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/
      resource-center/sb-programs/Documents/SBLF_Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
51. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 89, 93.
52. 	 Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/AIG/Pages/default.aspx, accessed 1/17/2011.
53. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
54. 	 AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 3/3/2011; Treasury Press Re-
      lease, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/tg996.
      aspx, accessed 3/21/2011.
55. 	 AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 3/3/2011.
56. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 11/18/2011; FRBNY, re-
      sponse to SIGTARP draft report, 1/12/2011; FRBNY, response to SIGTARP draft report, 4/12/2011.
57. 	 AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 3/3/2011.
58. 	 AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 3/3/2011; Treasury, Trans-
      actions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransac-
      tions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
59. 	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011, www.
      treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 3/8/2011; FRBNY, response to SIGTARP draft report, 4/12/2011.
60. 	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
      www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 3/8/2011; AIG, 8-K, 3/1/2011, www.sec.gov/Archives/edgar/
      data/5272/000095012311021398/y90008ae8vk.htm, accessed 3/11/2011.
61. 	 OFS, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
      OFS%20AFR%2009_24.pdf, accessed 7/7/2010.
62. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
63. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
64. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
      sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
65. 	 OFS, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
      OFS%20AFR%2009_24.pdf, accessed 7/7/2010.
66. 	 Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-
      center/press-releases/Pages/hp1358.aspx, accessed 1/17/2011.
198            special inspector general I troubled asset relief program



      67. 	 U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual Financ-
            ing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.pdf,
            accessed 8/19/2010.
      68. 	 Treasury, Section 105(a) Report, 1/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Decem-
            ber%20105(a)%20Report%20FINAL.pdf, accessed 1/17/2011.
      69. 	 Treasury, response to SIGTARP vetting draft, 10/8/2010.
      70. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
            sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      71. 	 Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 8/23/2010.
      72. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
            8/23/2010.
      73. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
      74. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
            8/23/2010; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
            TALF_recent_operations.html, accessed 8/24/2010; FRBNY, response to SIGTARP data call, 4/7/2011.
      75. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
            8/23/2010; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_re-
            cent_operations.html, accessed 8/24/2010; FRBNY, response to SIGTARP data call, 4/7/2011.
      76. 	 Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 8/23/2010.
      77. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
      78. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
      79. 	 Treasury, “Road to Stability — Legacy Securities Public-Private Investment Program,” 10/20/2010, www.treasury.gov/initiatives/financial-stabili-
            ty/investment-programs/ppip/s-ppip/Pages/legacysecurities.aspx, accessed 1/17/2011.
      80. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
            sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, response to
            SIGTARP data call, 4/6/2011.
      81. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
            sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, response to
            SIGTARP data call, 4/6/2011.
      82. 	 Treasury, response to SIGTARP draft report, 10/8/2010.
      83. 	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
            tg58.aspx, accessed 12/8/2010.
      84. 	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Coastal%20Securi-
            ties,%20Inc.pdf, accessed 1/7/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Con-
            tracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 1/7/2011.
      85. 	 Treasury, “Financial Agency Agreement for Asset Management Services for SBA Related Loans and Securities,” 3/16/2009, www.treasury.gov/
            initiatives/financial-stability/about/procurement/faa/Financial_Agency_Agreements/TARP%20FAA%20SBA%20Asset%20Manager%20-%20
            Final%20to%20be%20posted.pdf, accessed 1/17/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities
            Issued by SBA Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Docu-
            ments_Contracts_Agreements/Coastal%20Securities,%20Inc.pdf, accessed 1/17/2011; Treasury, “Master Purchase Agreement for SBA Pooled
            Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/investment-
            programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
            MPA%20(73485877_2).pdf, accessed 1/17/2011.
      86. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/
            aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 1/17/2011.
      87. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
            sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      88. 	 Treasury, Dividends and Interest Report, 4/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Docu-
            mentsDividendsInterest/March%202011%20Dividends%20Interest%20Report.pdf, accessed 4/11/2011.
      89. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
            sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      90. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
            sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      91. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
            sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, response to
            SIGTARP draft report, 1/14/2011.
      92. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
            sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, response
            to SIGTARP draft report, 1/14/2011; Chrysler Press Release, “Chrysler Group LLC Meets First of Three Performance Events; Fiat Increases
            Ownership to 25 Percent,” 1/10/2011, www.media.chrysler.com/newsrelease.do;jsessionid=CAB479D2ABBB2722C14AFD914031F0F2?&id=10
            453&mid=2, accessed 3/4/2011.
      93. 	 Chrysler Press Release, “Chrysler Group LLC Meets Second of Three Performance Events; Fiat Increases Ownership to 30 Percent,” 4/12/2011,
            www.media.chrysler.com/newsrelease.do?id=10773&mid=2, accessed 4/12/2011.
                                                                                              quarterly report to congress I april 28, 2011                  199


94. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
95. 	 Treasury, Transactions Report, 3/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/3-11-11%20Transactions%20Report%20as%20of%203-9-11.pdf, accessed 3/14/2011.
96. 	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
       Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 4/1/2011.
97. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
98. 	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treasury.gov/press-center/press-
       releases/Documents/supplier_support_program_3_18.pdf, accessed 8/23/2010.
99. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
100. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
101. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
102. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Congressional Over-
       sight Panel, “Accounting for the Troubled Asset Relief Program,” 6/10/2010, www.cop.senate.gov/documents/cop-061010-report.pdf, accessed
       8/15/2010.
103. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
104. 	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” no date, www.treasury.gov/press-center/press-releas-
       es/Pages/tg33.aspx, accessed 1/17/2011.
105. 	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 12/9/2010.
106. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” 3/4/2009, www.treasury.gov/press-center/press-releases/Docu-
       ments/housing_fact_sheet.pdf, accessed 7/2/2010.
107. 	 Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010, accessed 10/7/2010.
108. 	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
109. 	 Congressional Budget Office, “Report on the Troubled Asset Relief Program — March 2010,” 3/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-
       17-TARP.pdf, accessed 8/18/2010.
110. 	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
       5/14/2009, www.makinghomeaffordable.gov/news/latest/Pages/pr_051409.aspx, accessed 3/22/2011.
111. 	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
112. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
113. 	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_alterna-
       tives.jsp, accessed 12/19/2010.
114. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
115. 	 Treasury, response to SIGTARP data call, 4/14/2011.
116. 	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing Ad-
       ministration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 8/18/2010; Treasury, “Supplemental
       Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,” 9/17/2010, www.
       hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010; Department of Veterans Affairs, “Revised VA Making Home
       Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circulars/26_10_6.pdf, accessed 9/30/2010.
117. 	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
118. 	 Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/17/2011.
119. 	 Treasury, Daily TARP Update, 4/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
       TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2004.04.2011.pdf, accessed 4/7/2011.
120. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/17/2011.
121. 	 Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.hmpad-
       min.com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 10/5/2010.
122. 	 Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.hmpad-
       min.com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 10/5/2010.
123. 	 Treasury, response to SIGTARP data call, 4/13/2011.
124. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
125. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
200            special inspector general I troubled asset relief program



      126. 	 Treasury, Transactions Report, 4/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/HAMP%20Transactions%20Report%20as%20of%203-30-11.pdf, accessed 4/6/2011.
      127. 	 Treasury, response to SIGTARP data call, 4/22/2011.
      128. 	 Treasury, Transactions Report, 4/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/HAMP%20Transactions%20Report%20as%20of%203-30-11.pdf, accessed 4/6/2011.
      129. 	 Treasury, response to SIGTARP data call, 4/6/2011.
      130. 	 Treasury, response to SIGTARP data call, 4/21/2011.
      131. 	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 12/9/2010.
      132. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
      133. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
      134. 	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.
             gov/docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      135. 	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
             hamp_servicer/sd1009.pdf, accessed 12/9/2010.
      136. 	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
             hamp_servicer/sd1009.pdf, accessed 12/9/2010.
      137. 	 Treasury, “Supplemental Directive 10-11: Making Home Affordable Program — Dodd-Frank Certification,” 9/21/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/sd1011.pdf, accessed 12/2/2010.
      138. 	 Treasury, “Supplemental Directive 10-11: Making Home Affordable Program — Dodd-Frank Certification,” 9/21/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/sd1011.pdf, accessed 12/2/2010.
      139. 	 Treasury, “Supplemental Directive 10-16: Making Home Affordable Program — Policy Update,” 11/23/2010, www.hmpadmin.com/portal/pro-
             grams/docs/hamp_servicer/sd1016.pdf, accessed 12/22/2010.
      140. 	 Treasury, “Supplemental Directive 11-01: Making Home Affordable Program — Dodd-Frank Certification, Internal Quality Assurance and Verifi-
             cation of Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 2/28/2011.
      141. 	 Treasury, “Supplemental Directive 11-01: Making Home Affordable Program — Dodd-Frank Certification, Internal Quality Assurance and Verifi-
             cation of Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 2/28/2011.
      142. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd0901.pdf, accessed 7/2/2010.
      143. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/22/2010.
      144. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 3/22/2011.
      145. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 3/22/2011.
      146. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 3/22/2011.
      147. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/
             Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      148. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/22/2010.
      149. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/
             Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      150. 	 Treasury, response to SIGTARP data call, 4/22/2011.
      151. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/
             Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      152. 	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
             hamp_servicer/sd1009.pdf, accessed 9/7/2010.
      153. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/
             Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      154. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/
             Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
      155. 	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
             Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 2/28/2011.
      156. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
      157. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 2.0,” 9/22/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_20.pdf, accessed 9/30/2010.
      158. 	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
             hamp_servicer/sd1009.pdf, accessed 9/7/2010.
      159. 	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
             hamp_servicer/sd1009.pdf, accessed 9/7/2010.
      160. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd0901.pdf, accessed 7/12/2010.
                                                                                           quarterly report to congress I april 28, 2011               201


161. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 2.0,” 9/22/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_20.pdf, accessed 9/30/2010.
162. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
163. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
164. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
       www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
165. 	 Treasury, response to SIGTARP data call, 4/14/2011.
166. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Documents
       TARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
167. 	 Treasury, response to SIGTARP data call, 4/22/2011.
168. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
       11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
169. 	 FHFA, response to SIGTARP draft report, 1/12/2011.
170. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
       11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
171. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
       11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
172. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
       11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
173. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
       11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
174. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
       11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
175. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
       11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
176. 	 American Banker, “Lender Tie to Borrower Aid: How a Fox was Sent to Guard HAMP House,” 12/20/2010, www.americanbanker.com/news/
       how-a-fox-was-sent-to-guard-the-hamp-house-1030121-1.html, accessed 1/4/2011.
177. 	 Treasury, response to SIGTARP data call, 4/21/2011.
178. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/22/2010.
179. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
       11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
180. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
181. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
182. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
183. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
184. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
185. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
186. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
187. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
188. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
189. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
190. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
191. 	 Fannie Mae, response to SIGTARP draft report, 4/11/2011.
192. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
193. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
194. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
195. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
202            special inspector general I troubled asset relief program



      196. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
      197. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
             portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
      198. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
      199. 	 Treasury, response to SIGTARP draft report, 1/12/2011.
      200. 	 Treasury, response to SIGTARP draft report, 1/12/2011.
      201. 	 Treasury, “Supplemental Directive 10-15: Making Home Affordable Program — Case Escalation Process/Dodd-Frank Act NPV Notices,”
             11/3/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1015.pdf, accessed 12/13/2010.
      202. 	 Treasury, response to SIGTARP draft report, 4/21/2011.
      203. 	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
             Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 2/28/2011.
      204. 	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
             Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 2/28/2011.
      205. 	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
             Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 2/28/2011.
      206. 	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
             Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 2/28/2011.
      207. 	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
             Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 2/28/2011.
      208. 	 Treasury, “Making Home Affordable Program Handbook for Servicer of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
      209. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
             docs/hafa/sd0909r.pdf, accessed 3/29/2010.
      210. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
             docs/hafa/sd0909r.pdf, accessed 3/29/2010.
      211. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
             docs/hafa/sd0909r.pdf, accessed 3/29/2010; Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2009,
             www.hmpadmin.com/portal/news/docs/2009/hampupdate113009.pdf, accessed 1/19/2011.
      212. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
             com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      213. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
             com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      214. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
             portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
      215. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
             com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      216. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
             portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
      217. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
             com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      218. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
             com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      219. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
             com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      220. 	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
             com/portal/programs/docs/hafa/sd1018.pdf, accessed 1/4/2011.
      221. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 1/4/2010.
      222. 	 Treasury, response to SIGTARP data call, 4/24/2011.
      223. 	 Treasury, response to SIGTARP data call, 4/21/2011.
      224. 	 Treasury, “Making Home Affordable Program Handbook for Servicer of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
      225. 	 Treasury, “Making Home Affordable Program Handbook for Servicer of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
             portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
      226. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
             portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
      227. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
             portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
      228. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
             portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
      229. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
             portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
      230. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
             portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
                                                                                        quarterly report to congress I april 28, 2011             203


231. 	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
       portal/programs/docs/second_lien/sd0905r.pdf, accessed 3/28/2010.
232. 	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
       portal/programs/docs/second_lien/sd0905r.pdf, accessed 10/10/2010.
233. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
234. 	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
       portal/programs/docs/second_lien/sd0905r.pdf, accessed 3/28/2010.
235. 	 Treasury, response to SIGTARP data call, 4/22/2011.
236. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural Hous-
       ing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
237. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural Hous-
       ing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
238. 	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
       Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 3/29/2010.
239. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural Hous-
       ing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
240. 	 Treasury, response to SIGTARP data call, 4/22/2011.
241. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
       circulars/26_10_6.pdf, accessed 9/30/2010.
242. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
       circulars/26_10_6.pdf, accessed 9/30/2010.
243. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural Hous-
       ing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
244. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
       circulars/26_10_6.pdf, accessed 9/30/2010.
245. 	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
       press-center/press-releases/Pages/tg614.aspx, accessed 1/17/2011.
246. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
       hamp_servicer/sd1004.pdf, accessed 6/1/2010.
247. 	 Treasury, response to SIGTARP data call, 4/21/2011.
248. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
       hamp_servicer/sd1004.pdf, accessed 6/1/2010.
249. 	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com//
       portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 4/12/2011.
250. 	 Treasury, “Supplemental Directive 10-16: Making Home Affordable Program — Policy Update,” 11/23/2010, www.hmpadmin.com/portal/pro-
       grams/docs/hamp_servicer/sd1016.pdf, accessed 12/22/2010.
251. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
       hamp_servicer/sd1004.pdf, accessed 6/1/2010.
252. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
253. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
       hamp_servicer/sd1004.pdf, accessed 6/1/2010.
254. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
       hamp_servicer/sd1004.pdf, p. 4, accessed 6/1/2010.
255. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
       hamp_servicer/sd1004.pdf, accessed 6/1/2010.
256. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.0,” 12/2/2010, www.hmpadmin.com/
       portal/programs/docs/hamp_servicer/mhahandbook_30.pdf, accessed 12/6/2010.
257. 	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.
       gov/docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
258. 	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_ser-
       vicer/praoverviewnongse.pdf, accessed 6/3/2010.
259. 	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_ser-
       vicer/praoverviewnongse.pdf, accessed 6/3/2010.
260. 	 Treasury, response to SIGTARP data call, 4/22/2011.
261. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2010, www.hmpadmin.com/portal/
       programs/docs/hamp_servicer/sd0901.pdf, accessed 7/2/2010.
262. 	 Treasury, “Supplemental Directive 10-14: MHA Program — Principal Reduction Alternative Update,” 12/22/2010, www.hmpadmin.com/portal/
       programs/docs/hamp_servicer/sd1014.pdf, accessed 12/22/2010.
263. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
       programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
264. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
       programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
265. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
204            special inspector general I troubled asset relief program



             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      266. 	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010, www.
             hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 12/22/2010.
      267. 	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010, www.
             hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 12/22/2010.
      268. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      269. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      270. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      271. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      272. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      273. 	 Treasury, “Supplemental Directive 10-09: Making Home Affordable Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/por-
             tal/programs/docs/hamp_servicer/sd1009.pdf, accessed 9/7/2010.
      274. 	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010, www.
             hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 12/22/2010.
      275. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      276. 	 Treasury, response to SIGTARP data call, 4/22/2011.
      277. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      278. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      279. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
             programs/docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      280. 	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program ­— Principal Reduction Alternative Update,” 12/22/2010, www.
             hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 12/22/2010.
      281. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      282. 	 Treasury, response to SIGTARP data call, 10/22/2010; Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, ac-
             cessed 10/5/2010.
      283. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      284. 	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 9/14/2010;
             Treasury, “Supplemental Directive 10-12: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) Effective Date,”
             9/24/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1012.pdf, accessed 9/25/2010.
      285. 	 Treasury, response to SIGTARP data call, 4/21/2011.
      286. 	 Treasury, Daily TARP Update, 4/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
             TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2004.04.2011.pdf, accessed 4/7/2011.
      287. 	 Treasury, response to SIGTARP data call, 4/21/2011.
      288. 	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 9/14/2010;
             HUD, response to SIGTARP draft, 1/10/2011.
      289. 	 HUD, response to SIGTARP vetting draft, 1/19/2011.
      290. 	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 9/14/2010;
             Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, www.makinghomeaffordable.gov/news/
             latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/22/2011.
      291. 	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support FHA
             Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf, accessed
             12/9/2010.
      292. 	 HUD, response to SIGTARP draft report, 1/10/2011.
      293. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      294. 	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support FHA
             Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf, accessed
             12/9/2010.
      295. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      296. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010; HUD, response to SIGTARP draft report, 3/31/2011.
      297. 	 HUD, response to SIGTARP draft report, 1/19/2011.
      298. 	 HUD, response to SIGTARP draft report, 1/12/2011.
                                                                                             quarterly report to congress I april 28, 2011                205


299. 	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support FHA
       Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf, accessed
       8/20/2010.
300. 	 Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.gov/news/latest/Pages/pr_03052010.aspx, accessed
       4/12/2011.
301. 	 Treasury, “First Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets Guidelines for Proposal Submission,” www.
       treasury.gov/initiatives/financial-stability/housing-programs/hhf/Documents/HFA%20Proposal%20Guidelines%20-%201st%20Rd.pdf, accessed
       4/14/2011.
302. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/17/2011.
303. 	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-center/
       press-releases/Pages/tg618.aspx, accessed 1/18/2011.
304. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/17/2011.
305. 	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
       with Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, ac-
       cessed 1/18/2011.
306. 	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
       with Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, ac-
       cessed 1/18/2011.
307. 	 Treasury, Section 105(a) Report, 9/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/August%20
       2010%20105(a)%20Report_final_9%2010%2010.pdf, accessed 9/13/2010.
308. 	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
       with Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, ac-
       cessed 1/18/2011.
309. 	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
       with Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, ac-
       cessed 1/18/2011.
310. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/17/2011.
311. 	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Docu-
       ments/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/6/2010.
312. 	 Treasury, response to SIGTARP data call, 4/6/2011.
313. 	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
       6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 6/24/2010.
314. 	 Treasury, response to SIGTARP data call, 4/11/2011.
315. 	 OFS conference call, 3/19/2009.
316. 	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/invest-
       mentprograms/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/17/2011.
317. 	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/invest-
       ment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/17/2011.
318. 	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/invest-
       mentprograms/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/17/2011.
319. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/5/2011.
320. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/5/2011; Treasury, “Invest-
       ment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/
       cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/17/2011; Treasury, Cumulative Dividends, Interest and Distributions Report as of March 31,
       2010, 4/8/2011, www.FinancialStability.gov/latest/reportsanddocs.html, accessed 4/8/2011.
321. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/5/2011.
322. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/5/2011.
323. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/5/2011.
324. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/5/2011.
325. 	 Treasury, Dividends and Interest Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
       DocumentsDividendsInterest/March%202011%20Dividends%20Interest%20Report.pdf, accessed 4/4/2011.
326. 	 Treasury, response to SIGTARP vetting draft, 1/11/2011; Treasury, response to SIGTARP data call, 1/12/2011; Treasury, Dividends and Inter-
       est Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Pages/default.aspx, accessed
       4/13/2011; Treasury and SIGTARP, Methodology for Missed Dividends & Interest, 12/31/2011.
327. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stabili-
       ty/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
206             special inspector general I troubled asset relief program



      328. 	 Treasury, response to SIGTARP data call, 10/6/2010; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
             no date, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20
             Sheet.pdf, accessed 1/17/2011.
      329. 	 Treasury, “Frequently Asked Questions, Missed Dividend (or Interest), Payments and Director Nomination,” no date, www.treasury.gov/initia-
             tives/financial-stability/investment-programs/cpp/Documents/CPP%20Directors%20FAQs.pdf, accessed 1/17/2011; Treasury, response to SIG-
             TARP data call, 4/6/2011.
      330. 	 Treasury, response to SIGTARP data call, 4/6/2011.
      331. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stabili-
             ty/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
      332. 	 Treasury, responses to SIGTARP data call, 1/10/2011 and 4/6/2011.
      333. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stabili-
             ty/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
      334. 	 Treasury, response to SIGTARP data call, 4/6/2011.
      335. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stabili-
             ty/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
      336. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stabili-
             ty/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
      337. 	 OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stabili-
             ty/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 1/17/2011.
      338. 	 Treasury, response to SIGTARP data call, 4/6/2011.
      339. 	 Treasury, response to SIGTARP data call, 1/12/2011 and 4/8/2011; Treasury, Dividends and Interest Report, 12/31/2010, www.treasury.gov/initia-
             tives/financial-stability/briefing-room/reports/dividends-interest/Pages/default.aspx, accessed 4/13/2011.
      340. 	 Treasury, Dividends and Interest Report, 12/31/2010; SIGTARP, CPP-Related Missed Dividend & Interest Payments, 12/31/2010; Treasury and
             SIGTARP, Methodology for Missed Dividends & Interest, 12/31/2011.
      341. 	 Treasury, Dividends and Interest Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Docu-
             mentsDividendsInterest/March%202011%20Dividends%20Interest%20Report.pdf, accessed 4/4/2011.
      342. 	 Treasury, “Decoder,” no date, www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed 1/17/2011.
      343. 	 Treasury, Warrant Disposition Report, 6/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
             TARP%20Warrant%20Disposition%20Report%20v4.pdf, accessed 1/17/2011.
      344. 	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
             press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011.
      345. 	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
             press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011.
      346. 	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
             press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011; Treasury, Transactions Report, 10/8/2010, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-8-10%20Transactions%20Report%20
             as%20of%2010-6-10.pdf, accessed 1/17/2011; Treasury, response to SIGTARP data call, 4/6/2011.
      347. 	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
             press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011; Treasury, response to SIGTARP data call, 4/6/2011.
      348. 	 Treasury, response to SIGTARP data call, 1/11/2011.
      349. 	 Treasury, response to SIGTARP data call, 1/11/2011.
      350. 	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
             press-center/press-releases/Pages/200962612255225533.aspx, accessed 1/17/2011.
      351. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
             www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 1/17/2011.
      352. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 2/18/2010, www.treasury.gov/press-
             center/press-releases/Pages/tg415.aspx, accessed 1/17/2011.
      353. 	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 2/18/2010, www.treasury.gov/press-
             center/press-releases/Pages/tg415.aspx, accessed 1/17/2011.
      354. 	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 2/14/2011; Treasury, Section 105(a) Report, 1/31/2011,
             www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARP%20105(a)%20Report%20January%202011 _final.
             pdf, accessed 1/14/2011.
      355. 	 Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/
             press-center/press-releases/Pages/tg1033.aspx, accessed 1/15/2011; Treasury, Section 105(a) report, 1/31/2011, www.treasury.gov/initia-
             tives/financial-stability/briefing-room/reports/105/Documents105/TARP%20105(a)%20Report%20January%202011 _final.pdf, accessed
             1/14/2011; Citigroup Preliminary Prospectus — CPP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/
             y89178b7e424b7.htm, accessed 3/3/2011; Citigroup, Preliminary Prospectus — TIP & AGP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/
             data/831001/000095012311004665/y89177b7e424b7.htm, accessed 3/3/2011.
      356. 	 Treasury, response to SIGTARP data call, 4/6/2011; Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVEST-
             MENT.pdf, accessed 4/5/2011.
      357. 	 OFS conference call, 3/19/2010; Treasury, response to SIGTARP data call, 10/8/2010.
      358. 	 OFS conference call, 3/19/2010.
      359. 	 Treasury, response to SIGTARP draft report, 1/14/2011.
                                                                                             quarterly report to congress I april 28, 2011                207


360. 	 OFS conference call, 3/19/2010.
361. 	 OFS conference call, 3/19/2010.
362. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
363. 	 Treasury, Section 105(a) Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
       September105(a)report_FINAL.pdf, accessed 4/22/2011; Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-
       stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf,
       accessed 1/17/2011; Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.treasury.gov/press-
       center/press-releases/Pages/tg615.aspx, accessed 1/17/2011.
364. 	 Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the Over-
       sight and Government Reform Committee,” 12/17/2009, www.treasury.gov/press-center/press-releases/Pages/tg453.aspx, accessed 1/17/2011.
365. 	 Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.treasury.gov/press-center/press-releases/
       Pages/tg615.aspx, accessed 1/17/2011.
366. 	 Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock,”
       12/10/2010, www.treasury.gov/press-center/press-releases/Pages/tg1000.aspx, accessed 1/17/2011; Treasury Press Release, “Treasury Announces
       Pricing of Citigroup Common Stock Offering,” 12/7/2010, www.treasury.gov/press-center/press-releases/Pages/TG995.aspx, accessed 1/17/2011;
       Treasury, Section 105(a) Report, 11/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Novem-
       ber%20105%28a%29%20FINAL.pdf, accessed 1/17/2011.
367. 	 Treasury, Transactions Report, 12/31/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011; Treasury, Section 105(a) Report,
       1/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARP%20105(a)%20Report%20January%20
       2011_final.pdf, accessed 1/14/2011; Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,”
       1/14/2011, www.treasury.gov/press-center/press-releases/Pages/tg1023.aspx, accessed 1/18/2011.
368. 	 Treasury, Section 105(a) Report, 1/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARP%20
       105(a)%20Report%20January%202011_final.pdf, accessed 1/14/2011; Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/
       financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%20
       2-8-11.pdf, accessed 1/14/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,”
       1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 1/15/2011.
369. 	 Treasury, Section 105(a) Report, 1/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARP%20
       105(a)%20Report%20January%202011_final.pdf, accessed 4/16/2011.
370. 	 Treasury, Transactions Report, 3/24/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/3-25-11%20Transactions%20Report%20as%20of%203-24-11_INVESTMENT.pdf, accessed 4/4/2011.
371. 	 Treasury, Transactions Report, 3/30/2011,www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
       Transactions/4-01-11%20Transactions%20Report%20as%20of%203-30-11_INVESTMENT.pdf, accessed 4/4/2011.
372. 	 Federal Reserve, Institutions Acquired by Metropolitan Bank Group, Inc., no date, www.ffiec.gov/nicpubweb/nicweb/AcquisitionForm.
       aspx?parID_RSSD=1204627&parDT_END=99991231[4/4/2011 12:14:10 PM], accessed 4/4/2011.
373. 	 Treasury, Transactions Report, 3/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
       Transactions/3-3-11%20Transactions%20Report%20as%20of%203-2-11.pdf, accessed 3/28/2011.
374. 	 Federal Reserve, “Actions Taken By the Federal Reserve Bank of Dallas Under Delegated Authority,” 3/7/2011, www.federalreserve.gov/infolet-
       ters/list.cfm?whichdistrict=11&whichyear=2011, accessed 3/28/2011.
375. 	 Treasury, Transactions Report, 3/24/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/3-25-11%20Transactions%20Report%20as%20of%203-24-11_INVESTMENT.pdf, accessed 3/28/2011.
376. 	 Treasury, Transactions Report, 3/14/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/3-15-11%20Transactions %20Report%20as%20of%203-14-11.pdf, accessed 3/17/2011.
377. 	 First Community Bank Corporation of America, Schedule 14a Information, 3/17/2011, www.sec.gov/Archives/edgar/
       data/1082564/000119312511069263/ddefm14a.htm, accessed 3/18/2011.
378. 	 First Community Bank Corporation of America, Schedule 14a Information, 3/17/2011, www.sec.gov/Archives/edgar/
       data/1082564/000119312511069263/ddefm14a.htm, accessed 3/17/2011.
379. 	 Treasury, Transactions Report, 3/14/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/3-15-11%20Transactions%20Report%20as%20of%203-14-11.pdf, accessed 3/17/2011; First Community Bank Corporation
       of America, Schedule 14a Information, 3/17/2011, www.sec.gov/Archives/edgar/data/1082564/000119312511069263/ddefm14a.htm, accessed
       3/17/2011; Treasury, response to SIGTARP data call, 4/6/2011.
380. 	 Treasury, Transactions Report, 3/9/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
       Transactions/3-11-11%20Transactions%20Report%20as%20of%203-9-11.pdf, accessed 3/16/2011.
381. 	 District Court, City and County of Denver, Colorado, 9/10/2010, www.dora.state.co.us/securities/pdf_forms/enforcement/yost-complaint.pdf,
       accessed 3/16/2010; Federal Reserve System, National Information Center, www.ffiec.gov/nicpubweb/nicweb/InstitutionHistory.aspx?parID_
       RSSD=3022601&parDT END=20080925, accessed 3/16/2011.
382. 	 Treasury, Transactions Report, 3/9/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
       Transactions/3-11-11%20Transactions%20Report%20as%20of%203-9-11.pdf, accessed 3/16/2011; Treasury, response to SIGTARP data call,
       4/6/2011.
383. 	 Treasury, Transactions Report, 11/25/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/TransactionReport-11172008.pdf, accessed 2/25/2011; Treasury, Transactions Report, 2/22/2011, www.treasury.gov/initia-
       tives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/2-22-11%20Transactions%20Report%20as%20
       of%202-17-11.pdf, accessed 2/24/2011; Treasury, Transactions Report, 11/24/2009, www.treasury.gov/initiatives/financial-stability/briefing-
       room/reports/tarp-transactions/DocumentsTARPTransactions/11-27-09%20Transactions%20Report%20as%20of%2011-24-09.pdf, accessed
       2/28/2011.
208            special inspector general I troubled asset relief program




      384. 	 Treasury, “Community Development Financial Institution Fund,” no date, www.cdfifund.gov/news_events/AWARDLIST_CDFI_2010_PABook-
             let.pdf, accessed 3/23/2011; Treasury, Transactions Report, 2/22/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
             tarp-transactions/DocumentsTARPTransactions/2-22-11%20Transactions%20Report%20as%20of%202-17-11.pdf, accessed 2/24/2011; Federal
             Reserve, National Information Center, www.ffiec.gov/nicpubweb/nicweb/OrgHierarchySearchForm.aspx?parID_RSSD=26176&parDT_
             END=99991231, accessed 3/23/2011.
      385. 	 Broadway Financial Corporation, 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/1001171/000119312511039152/d8k.htm, accessed
             2/25/2011.
      386. 	 Treasury, Transactions Report, 2/2/1010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/12-2-10%20Transactions%20Report%20as%20of%2012-1-10.pdf, accessed 2/23/2011; Treasury, Securities Purchase Agreement,
             1/16/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cpp/Documents_Contracts_Agreements/Treaty%20Oak%20Ban-
             corp,%20Inc.pdf, accessed 3/23/2011; Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.
             gov/initiatives/financial-stability/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 3/31/2011.
      387. 	 FDIC and Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.fdic.gov/bank/individual/enforce-
             ment/2010-02-34.pdf, accessed 2/24/2011.
      388. 	 Fort Worth Business Press, “Shareholders Approve Sale of Treaty Bank to Fort Worth Investors,” www.timesleader.com/FwBp/news/breaking/
             Shareholders-approve-sale-of-Treaty-Oak-bank-to-Fort-Worth-investors.html, accessed 2/23/2011; Bloomberg Businessweek, 3/28/2011, invest-
             ing.businessweek.com/research/stocks/private/snapshot.asp?privcapId=112643572, accessed 3/28/2011; Treaty Oak Bank Press Release, “Carlile
             appoints new Treaty Oak president,” 3/7/2011, www.treatyoakbank.com/press_march7_2011.htm, accessed 3/28/2011.
      389. 	 Treasury, Transactions Report, 2/22/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/2-22-11%20Transactions%20Report%20as%20of%202-17-11.pdf, accessed 2/22/2011; Treasury, response to SIGTARP data
             call, 4/6/2011.
      390. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/8/2011.
      391. 	 Federal Reserve, Actions Taken By the Federal Reserve Bank of Atlanta Under Delegated Authority, 1/13/2011, www.federalreserve.gov/Releases/
             H2/20110115/delactions.htm, accessed 4/8/2011.
      392. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/8/2011.
      393. 	 Treasury, Transactions Report, 3/2/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/3-3-11%20Transactions%20Report%20as%20of%203-2-11.pdf, accessed 3/8/2011.
      394. 	 Cadence Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm, accessed 3/8/2011.
      395. 	 Cadence Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm, accessed 3/8/2011.
      396. 	 Treasury, Transactions Report, 12/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/12-16-10%20Transactions%20Report%20as%20of%2012-15-10.pdf, accessed 1/17/2011.
      397. 	 Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000055/form8-k.htm, accessed
             12/21/2010.
      398. 	 Treasury, Transactions Report, 2/22/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/2-22-11%20Transactions%20Report%20as%20of%202-17-11.pdf, accessed 2/22/2011; Central Pacific Financial Corp., 8-K,
             2/22/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 2/22/2011.
      399. 	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/invest-
             ment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 1/17/2011.
      400. 	 Treasury, Transactions Report,www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransac-
             tions/3-11-11%20Transactions%20Report%20as%20of%203-9-11.pdf, accessed 3/13/2011.
      401. 	 Federal Reserve Board Press Release, “Written agreement with Legacy Bancorp and Legacy Bank,” 5/5/2010, www.federalreserve.gov/newsev-
             ents/press/enforcement/20100505b.htm, accessed 3/14/2011; Board of Governors of the Federal Reserve System, Written Agreement by and
             among Legacy Bancorp, Inc. Milwaukee, Wisconsin, Legacy Bank, Milwaukee, Wisconsin, Federal Reserve Bank of Chicago, Chicago, Illinois
             and State of Wisconsin Department of Financial Institutions, Madison, Wisconsin, 5/5/2010, www.federalreserve.gov/newsevents/press/enforce-
             ment/enf20100505b1.pdf, accessed 3/14/2011.
      402. 	 Federal Reserve Board Press Release, “Board issues enforcement actions with Farmers State Bank, Legacy Bank, and Progressive Growth
             Corp.,” 11/18/2010, www.federalreserve.gov/newsevents/press/enforcement/20101118a.htm, accessed 3/14/2011; Board of Governors of the
             Federal Reserve System, In the Matter of Legacy Bank, 11/16/2010, www.federalreserve.gov/newsevents /press/enforcement/enf20101118b1.
             pdf, accessed 3/14/2011.
      403. 	 FDIC Press Release, “Seaway Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,”
             3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.htm, accessed 3/14/2011.
      404. 	 FDIC Press Release, “Seaway Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,”
             3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.htm, accessed 3/14/2011.
      405. 	 FDIC Press Release, “Seaway Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,”
             3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.htm, accessed 3/14/2011.
      406. 	 Treasury, response to SIGTARP conference call, 12/3/2010; Treasury, response to SIGTARP data call, 4/8/2010.
      407. 	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
             Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/17/2011; Treasury, Section 105(a) Report,
             3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, ac-
             cessed 1/18/2011; Small Business Jobs Act, P.L. 111-240, 9/27/2010.
      408. 	 Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-Busi-
             ness-Lending-Fund.aspx, accessed 12/21/2010.
      409. 	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
             remarks-president-small-business-initiatives-landover-md, accessed 1/18/2011.
                                                                                               quarterly report to congress I april 28, 2011                  209


410. 	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/Documents/CDCI-
       20FAQs20Updated.pdf, accessed 1/18/2011; Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/
       financial-stability/investment-programs/cdci/Pages/comdev.aspx, accessed 1/18/2011; Treasury, Section 105(a) Report, 3/10/2010, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 1/18/2011; Treasury
       Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community Development
       Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20Release%209-30-10.pdf,
       accessed 1/18/2011.
411. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/default.aspx, accessed
       1/18/2011.
412. 	 Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/
       Pages/comdev.aspx, accessed 1/18/2011.
413. 	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institu-
       tions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/18/2011.
414. 	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community Develop-
       ment Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20Release%209-30-
       10.pdf, accessed 1/18/2011.
415. 	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institu-
       tions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/17/2011.
416. 	 Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/
       Pages/comdev.aspx, accessed 1/18/2011; Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no date, www.
       treasury.gov/initiatives/financial-stability/investment-programs/cdci/Documents/Bank20Thrift20CDCI20Application20Updated20Form.pdf, ac-
       cessed 1/18/2011.
417. 	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities — Term Sheet,” no date, www.treasury.gov/ini-
       tiatives/financial-stability/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed 1/18/2011;
       Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities — Term Sheet,” no date, www.treasury.
       gov/initiatives/financial-stability/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed 1/18/2011.
418. 	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institu-
       tions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/18/2011.
419. 	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/cdci/Documents/CDCI-
       20FAQs20Updated.pdf, accessed 1/18/2011; Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for
       Community Development Financial Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/18/2011.
420. 	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial Institu-
       tions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 1/18/2011.
421. 	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community Develop-
       ment Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20Release%209-30-
       10.pdf, accessed 1/18/2011; Treasury OFS, response to SIGTARP data call, 10/7/2010.
422. 	 Treasury, Transactions Report, 9/30/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/9-30-10%20Transactions%20Report%20as%20of%209-28-10.pdf, accessed 1/18/2011.
423. 	 Treasury, Dividends and Interest Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Pages/
       default.aspx, accessed 4/8/2011; Treasury, response to SIGTARP data call, 1/12/2011.
424. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 1, p. 83.
425. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
426. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 81.
427. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
       Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
428. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
       Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
429. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
       Getting_Started_Guide_Final.pdf, accessed 1/19/2011.
430. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
431. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
432. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
433. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87; Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms
       for Current CPP and CDCI Participants,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_
       Final.pdf, accessed 1/18/2011.
434. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
       Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
435. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
       Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
436. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
       Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
437. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
       Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
438. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
       Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
210            special inspector general I troubled asset relief program



      439. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      440. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      441. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      442. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      443. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      444. 	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 89, 93; TARP Standards for Compensation and Corporate Governance, 31 C.F.R. Part 30
             6/15/2010.
      445. 	 Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-Busi-
             ness-Lending-Fund.aspx, accessed 12/21/2010.
      446. 	 Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-Busi-
             ness-Lending-Fund.aspx, accessed 12/21/2010; Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/
             resource-center/sb-programs/Documents/SBLF_Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      447. 	 Treasury response to vetting draft, 4/8/2011.
      448. 	 Treasury, “Application Instructions”, 3/28/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_%20Application_%203-28-11.
             pdf, accessed 3/31/2011.
      449. 	 Treasury, response to SIGTARP data call, 4/8/2011.
      450. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      451. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      452. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      453. 	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
             Getting_Started_Guide_Final.pdf, accessed 1/18/2011.
      454. 	 Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms for Current CPP and CDCI Participants,” no date, www.
             treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf, accessed 12/21/2010; Treasury,
             “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_
             Started_Guide_Final.pdf, accessed 1/18/2011.
      455. 	 GAO, “Troubled Asset Relief Program One Year Later, Actions Are Needed to Address Remaining Transparency and Accountability Challenges,”
             October 2009, www.gao.gov/new.items/d1016.pdf, accessed 1/19/2011.
      456. 	 Treasury, response to SIGTARP data call, 10/8/2010.
      457. 	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
             105report.pdf, accessed 1/18/2011.
      458. 	 Treasury, Transactions Report, 1/18/2011, www.treasury.gov/iniatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/1-18-11%20Transactions%20Report%20as%20of%201-13-11.pdf, accessed 1/18/2011; Treasury, “Securities Exchange Agreement,”
             4/17/2009, www.treasury.gov/iniatives/financial-stability/investment-programs/AIG/Documents/Series.E.Securities.Exchange.Agreement.pdf,
             accessed 4/21/2011; Treasury, “Securities Purchase Agreement,” 4/17/2009, www.treasury.gov/iniatives/financial-stability/investment-programs/
             AIG/Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed 4/21/2011.
      459. 	 FRBNY, response to SIGTARP vetting draft, 1/19/2011; Treasury, response to SIGTARP vetting draft, 1/19/2011.
      460. 	 Treasury Press Release, “Treasury Announces Completion of the American International Group Recapitalization Transaction,” 1/14/2011, www.
             treasury.gov/press-center/press-releases/Pages/tg1024.aspx, accessed 3/3/2011.
      461. 	 Treasury, response to SIGTARP data call, 1/11/2011.
      462. 	 AIG, “Certificate of Designations of Series E Fixed Rate Non-Cumulative Perpetual Preferred Stock of American International Group, Inc.,”
             4/17/2009, www.sec.gov/Archives/edgar/data/5272/000095012309006777/y76448exv3w1.htm, accessed 4/21/2011.
      463. 	 Treasury Press Release, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.treasury.gov/press-center/press-releases/
             Pages/tg623.aspx, accessed 1/18/2011.
      464. 	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
             FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
             pdf, accessed 1/18/2011; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
             1/18/2011.
      465. 	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affect-
             ing_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/18/2011.
      466. 	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affect-
             ing_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/18/2011.
      467. 	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affect-
             ing_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 1/18/2011.
      468. 	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/18/2011; FRBNY, “Maiden Lane Trans-
             actions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 4/21/2011.
      469. 	 FRBNY Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.newyorkfed.org/news-
             events/news/markets/2011/an110330.html, accessed 3/31/2011.
                                                                                            quarterly report to congress I april 28, 2011                211


470. 	 FRBNY, “Factors Affecting Reserve Balances,” 3/31/2011, http://www.federalreserve.gov/releases/h41/Current/h41.pdf, accessed 4/7/2011.
471. 	 FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII_recent_bidlistoffering.html, accessed 4/13/2011;
       FRBNY, Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/mlII_bidlistoffering.html, accessed 4/15/2011; FRBNY
       Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.newyorkfed.org/newsevents/
       news/markets/2011/an110330.html, accessed 3/31/2011.
472. 	 Treasury Press Release, “U.S. Treasury and Federal Reserve Board Announce Participation in AIG Restructuring Plan,” 3/8/2009, www.treasury.
       gov/press-center/press-releases/Pages/tg44.aspx, accessed 3/22/2011.
473. 	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/18/2011.
474. 	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/18/2011.
475. 	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 1/18/2011.
476. 	 FRBNY, “Factors Affecting Reserve Balances,” 12/30/2010, www.federalreserve.gov/releases/h41/20101230/, accessed 3/11/2011.
477. 	 FRBNY, response to SIGTARP vetting draft, 1/19/2011.
478. 	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 3/8/2011.
479. 	 AIG, “AIG Enters into Agreement to Sell Star and Edison Life Companies,” 9/30/2010, www.aigcorporate.com/newsroom/index.html, accessed
       12/9/2010.
480. 	 AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/data/5272/000104746911001283/a2202141z10-k.htm, accessed 3/31/2011.
481. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011.
482. 	 AIG, 8-K, 2/9/2011, www.sec.gov/Archives/edgar/data/5272/000095012311010653/y89586e8vk.htm, accessed 3/31/2011.
483. 	 Treasury, response to SIGTARP data call, 2/22/2011; Treasury, Transactions Report, 2/18/2011, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/2-18-11%20Transactions%20Report%20as%20of%202-16-11.pdf, ac-
       cessed 3/7/2011.
484. 	 AIG, 8-K, 10/22/2010, www.sec.gov/Archives/edgar/data/5272/000095012310095032/y87334e8vk.htm, accessed 12/22/2010; AIG, “AIG Raises
       Nearly $37 Billion in Two Transactions to Repay Government,” 11/1/2010, http://ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81U
       Amrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 12/9/2010.
485. 	 AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/18/2011.
486. 	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
       www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 3/2/2011; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/
       data/5272/000095012311021398/y90008ae8vk.htm, accessed 3/11/2011.
487. 	 AIG, “AIG Enters into Agreement to Sell Nan Shan to Taiwan-Based Consortium Led by the Ruentex Group,” 1/12/2011, http://ir.aigcorporate.
       com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp2GDwAh4Ju2qNKZiaQ+LC4eLA/wD8wJ898T+OGLtuOD53u0EV2e/b6wq8HG-
       wkVuaVQ==, accessed 1/18/2011.
488. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011; AIG, 8-K,
       1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 3/8/2011.
489. 	 FRBNY, “Master Transaction Agreement,” 12/8/2010, www.ny.frb.org/aboutthefed/aig/pdf/master_transaction_agreement.pdf, accessed 3/8/2011.
490. 	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 3/8/2011;
       FRBNY, response to SIGTARP vetting draft, 1/19/2011.
491. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011; Treasury, response
       to SIGTARP draft report, 1/19/2011.
492. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011.
493. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011.
494. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011; FRBNY, response to
       SIGTARP vetting draft, 1/19/2011.
495. 	 Treasury, Transactions Report, 2/18/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/2-18-11%20Transactions%20Report%20as%20of%202-16-11.pdf, accessed 3/7/2011.
496. 	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
       www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 3/8/2011; AIG, 8-K 3/2/2011, www.sec.gov/Archives/edgar/
       data/5272/000095012311021398/y90008ae8vk.htm, accessed 3/11/2011.
497. 	 AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 1/18/2011.
498. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011.
499. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011; AIG, “10-Q,
       11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 3/31/2011.
500. 	 SIGTARP, “AIG Repayment Plan Briefing,” 10/6/2010.
501. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011;Treasury, Section
       105(a) Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20105(a)%20
       Report%20FINAL.pdf, accessed 1/11/2011.
502. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011.
503. 	 ILFC, 8-K, 1/31/2011, www.sec.gov/Archives/edgar/data/714311/000095012311007162/v58475e8vk.htm, accessed 3/4/2011.
504. 	 ILFC Press Release, “ILFC Enters into $1.3 Billion Committed Secured Loan with Right to Upsize — Diverse Group of Global Banks to Partici-
       pate,”3/31/2011, http://207.45.187.42/~ilfc01/viewArticle.php?id=294, accessed 4/6/2011.
505. 	 Treasury, response to SIGTARP data call, 4/6/2011.
506. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011.
507. 	 SIGTARP, “AIG Repayment Plan Briefing,” 10/6/2010.
508. 	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 4/15/2011.
509. 	 AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/data/5272/000104746911001283/a2202141z10-k.htm, accessed 3/31/2011.
510. 	 OMB, “Fiscal Year 2012 Analytical Perspectives Budget of the US Government,” 2/1/2010, www.whitehouse.gov/sites/default/files/omb/budget/
       fy2012/assets/spec.pdf, accessed 3/9/2011.
212            special inspector general I troubled asset relief program



      511. 	 CBO, “Report on the Troubled Asset Relief Program—March 2011,” 3/30/2011, www.cbo.gov/doc.cfm?index=12118, accessed 3/31/2011.
      512. 	 Treasury, “Treasury, Federal Reserve and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treasury.gov/press-center/press-
             releases/Pages/hp1356.aspx, accessed 1/18/2011; Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-
             stability/investment-programs/tip/Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 1/18/2011.
      513. 	 Treasury, “Guidelines for Targeted Investment Program,” 11/20/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/tip/
             Pages/targetedinvestmentprogram.aspx, accessed 1/18/2011.
      514. 	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Decem-
             ber%20105(a)_final_1-11-10.pdf, accessed 1/18/2011.
      515. 	 Treasury, “Warrant Disposition Report,” 8/4/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
             TARP_WRRTDISP_80310.pdf, accessed 1/18/2011.
      516. 	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 2/14/2011.
      517. 	 Treasury, “Exchange Agreement,” 6/9/2011, www.treasury.gov/initiatives/financial-stability/investment-programs/agp/Documents/
             Citigroup%20Exchange%20Agreement.pdf, accessed 2/14/2011; Citigroup, 424(b)(7), 1/24/2011, http://sec.gov/Archives/edgar/
             data/831001/000095012311004665/y89177b7e424b7.htm, accessed 2/14/2011.
      518. 	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 1/18/2011; Citigroup,
             10-Q, 6/30/2009, www.citigroup.com/citi/fin/data/q0902c.pdf?ieNocache=21, accessed 1/18/2011.
      519. 	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
             Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/14/2011.
      520. 	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/agp/Documents/
             Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 1/18/2011.
      521. 	 Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg876.
             aspx, accessed 1/18/2011.
      522. 	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
             Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 1/14/2011.
      523. 	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 2/14/2011.
      524. 	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Decem-
             ber%20105(a)_final_1-11-10.pdf, accessed 1/18/2011.
      525. 	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 1/17/2011.
      526. 	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/agp/Documents/
             BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 1/17/2011.
      527. 	 Federal Reserve, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit protection provided for
             TALF,” 7/20/2010, www.federalreserve.gov/newsevents/press/monetary/20100720a.htm, accessed 3/22/2011.
      528. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm, accessed
             3/23/2011.
      529. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
      530. 	 Treasury, “Legacy Securities Program,” 7/23/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-ppip/Pages/legacy-
             securities.aspx, accessed 3/23/2011; Treasury, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private
             Investment Fund,” 12/22/2009, www.treasury.gov/press-center/press-releases/Pages/tg457.aspx, accessed 3/22/2011.
      531. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 4/4/2011.
      532. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 4/4/2011.
      533. 	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
             11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 3/23/2011.
      534. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
             cessed 3/23/2011.
      535. 	 Federal Reserve Press Release, “Federal Reserve announces expansion of eligible collateral under The Term Asset-Backed Securities Loan
             Facility (TALF),” 5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 3/23/2011; Federal Reserve Press
             Release, “Federal Reserve announces that certain high-quality commercial mortgage-backed securities will become eligible collateral under The
             Term Asset-Backed Securities Loan Facility (TALF),” 5/19/2009, www.federalreserve.gov/newsevents/press/monetary/20090519b.htm, accessed
             3/23/2011.
      536. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
             3/22/2011.
      537. 	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” 3/2010, www.federalreserve.gov/monetarypolicy/clbs_lendingfacili-
             ties_201003.htm, accessed 3/23/2011.
      538. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
             3/23/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.
             html, accessed 3/23/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/
             markets/TALF_Terms_print.html, accessed 3/23/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.
             org/markets/cmbs_operations.html, accessed 3/23/2011.
      539. 	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      540. 	 FRBNY, response to SIGTARP draft report, 1/11/2011.
      541. 	 FRBNY, 2009 Annual Report, 6/2010, www.newyorkfed.org/aboutthefed/annual/annual09/annual.pdf, accessed 3/23/2011.
                                                                                          quarterly report to congress I april 28, 2011               213


542. 	 Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
       protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
       monetary/20100720a.htm, accessed 3/23/2011; FRBNY, response to SIGTARP data call, 7/12/2010.
543. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
544. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
545. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 3/23/2011.
546. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
       html, accessed 3/23/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/
       markets/TALF_Terms_print.html, accessed 3/23/2011.
547. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 3/23/2011.
548. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 3/23/2011.
549. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 3/23/2011.
550. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 3/23/2011.
551. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
552. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
       html, accessed 3/23/2011.
553. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 3/23/2011.
554. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
       html, accessed 3/23/2011.
555. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 3/23/2011; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
       12/2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 3/23/2011.
556. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
       html, accessed 3/23/2011.
557. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
       html, accessed 3/23/2011.
558. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
       html, accessed 3/23/2011.
559. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 3/23/2011.
560. 	 FRBNY, response to SIGTARP draft report, 7/9/2010.
561. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
       3/23/2011.
562. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
563. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
       3/23/2011.
564. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
565. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm, accessed
       3/23/2011.
566. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
567. 	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 4/7/2011.
568. 	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
       States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
       Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Documents_Contracts_Agreements/SPV-Sec-Agt.pdf,
       accessed 3/23/2011; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
569. 	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/20100701, note 8, accessed
       3/23/2011.
570. 	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
       States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
       Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Documents_Contracts_Agreements/SPV-Sec-Agt.pdf,
       accessed 3/23/2011.
571. 	 FRBNY, response to SIGTARP data call, 4/7/2011.
572. 	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 3/30/2011, www.federalreserve.gov/releases/h41/20110331/, accessed 4/8/2011.
573. 	 Federal Reserve, response to SIGTARP draft report, 10/7/2010.
574. 	 Formation Date: Federal Reserve, “TALF LLC, Financial Statements for the Period February 4, 2009, to December 31, 2009, and Independent
       Auditors’ Report,” p. 7, 4/21/2010, www.federalreserve.gov/monetarypolicy/files/BSTTALFLLCfinstmt2009.pdf, accessed 3/23/2011; Amounts:
       FRBNY, response to SIGTARP data call, 4/7/2011.
575. 	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
576. 	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
       aspx, accessed 3/23/2011.
214             special inspector general I troubled asset relief program



      577. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
             www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 3/23/2011.
      578. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/
             ppip/s-ppip/Documents/AB%20Complete%20LPA%20 (redacted).pdf, accessed 3/23/2011.
      579. 	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-ppip/Pages/legacyse-
             curities.aspx, accessed 3/23/2011.
      580. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/
             ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 3/23/2011.
      581. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
             www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 3/23/2011.
      582. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
             www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 3/23/2011.
      583. 	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
             gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 3/23/2011; Treasury, “Amended and Restated Limited Partner-
             ship Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/s-ppip/Documents/AB%20Complete%20
             LPA%20(redacted).pdf, accessed 3/23/2011.
      584. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/
             ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 3/23/2011.
      585. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/
             ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 3/23/2011.
      586. 	 Treasury, response to SIGTARP data call, 4/6/2011.
      587. 	 PPIF Monthly Performance Reports submitted by each PPIF manager, March 2011, received 4/15/2011; Treasury, “Public-Private Investment
             Program,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/Pages/publicprivatefund.aspx, accessed 3/23/2011.
      588. 	 Treasury, response to SIGTARP data call, 4/6/2011; Treasury, Transactions Report, 4/14/2011, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/tarp-transactions/pages/default.aspx, accessed 4/12/2011.
      589. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/
             ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 3/23/2011.
      590. 	 Treasury, Transactions Report, 4/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/default.aspx,
             accessed 3/23/2011; Treasury, response to SIGTARP data call, 10/7/2010.
      591. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/
             ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 3/23/2011.
      592. 	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
             www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 3/23/2011.
      593. 	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/ppip/Pages/pub-
             licprivatefund.aspx, accessed 3/2/2011.
      594. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended June 30, 2010,” 7/19/2010, www.treasury.
             gov/initiatives/financial-stability/investment-programs/ppip/s-ppip/Documents/111.pdf, p. 8, accessed 3/23/2011; Treasury, response to SIGTARP
             data call, 10/7/2010.
      595. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended June 30, 2010,” 7/19/2010, www.treasury.
             gov/initiatives/financial-stability/investment-programs/ppip/s-ppip/Documents/111.pdf, p. 8, accessed 3/23/2011.
      596. 	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, http://frwebgate.access.gpo.gov/
             cgi-bin/getdoc.cgi?dbname=111_cong_senate_committee_prints&docid=f:51601.pdf, accessed 4/8/2011.
      597. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx, ac-
             cessed 1/17/2011; SBA, “Q&A for Small Business Owners,” no date, www.sba.gov/idc/groups/public/documents/sba_homepage/recovery_act_
             faqs.pdf, accessed 1/17/2011.
      598. 	 Treasury, Transactions Report, 4/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      599. 	 Treasury, Section 105(a) Report — July 2010, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Docu-
             ments105/July%202010%20105(a)%20Report_Final.pdf, accessed 1/17/2011.
      600. 	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
             www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Coastal%20Securi-
             ties,%20Inc.pdf, accessed 1/17/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
             Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/investment-programs/cbli/Small-Business/Documents_Con-
             tracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 1/17/2011.
      601. 	 Treasury, Section 105(a) Report, 8/10/2009, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/
             Documents105/105areport_072009.pdf, accessed 1/17/2011; OFS, response to SIGTARP draft report, 1/11/2011.
      602. 	 Treasury, Transactions Report, 4/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
             Transactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 1/17/2011.
      603. 	 Treasury, Dividends and Interest Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Pages/
             default.aspx, accessed 4/13/2011.
      604. 	 Treasury, “Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/investment-programs/aifp/Pages/au-
             toprogram.aspx, accessed 9/2/2009.
      605. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
                                                                                              quarterly report to congress I april 28, 2011                 215


606. 	 Treasury, response to SIGTARP vetting draft, 10/8/2009; Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-
       stability/briefing-room/reports/105/Documents105/April%202010%20105(a)%20report_final.pdf, accessed 6/1/2010.
607. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
608. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
609. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, “Office
       of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/
       reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 11/17/2010; Treasury, response to SIGTARP data call,
       4/6/2011.
610. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, Dividends
       and Interest Report, 4/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInter-
       est/March%202011%20Dividends%20Interest%20Report.pdf, accessed 4/11/2011.
611. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury Press
       Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-center/press-
       releases/Pages/tg1014.aspx, accessed 1/3/2011; Treasury Press Release, “Treasury Announces Pricing of $2.7 Billion of Ally TRuPs,” 3/2/2011,
       www.treasury.gov/press-center/press-releases/Pages/tg1086.aspx, accessed 3/3/2011; SEC, “General Motors Company: Form 10-K,” 3/1/2011,
       www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/12/2011; Chrysler Press Release, “Chrysler Group
       LLC Meets Second of Three Performance Events; Fiat Increases Ownership to 30 Percent,” 4/12/2011, www.media.chrysler.com/newsrelease.
       do?id=10773&mid=2, accessed 4/12/2011.
612. 	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
       www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 1/17/2011.
613. 	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.financialstability.gov/roadtostability/autoprogram.html, accessed 8/15/2010;
       Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
614. 	 Treasury, Dividends and Interest Report, 4/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Docu-
       mentsDividendsInterest/March%202011%20Dividends%20Interest%20Report.pdf, accessed 4/11/2011.
615. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
616. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
617. 	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_In-
       sight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 8/17/2010.
618. 	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 3/2/2011.
619. 	 General Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 3/11/2011.
620. 	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_In-
       sight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 8/17/2010.
621. 	 Treasury, Transactions Report, 4/6/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARP-
       Transactions/4-08-11%20Transactions%20Report%20as%20of%204-06-11_INVESTMENT.pdf, accessed 4/4/2011.
622. 	 Treasury, Dividends and Interest Report, 4/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Docu-
       mentsDividendsInterest/March%202011%20Dividends%20Interest%20Report.pdf, accessed 4/11/2011.
623. 	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 3/2/2011.
624. 	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 3/2/2011.
625. 	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 3/2/2011; Treasury
       Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
       Proceeds from GM IPO to $13.5 Billion,” www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, 12/2/2010, accessed 12/3/2010.
626. 	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
       www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 1/17/2011.
627. 	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
       www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 1/17/2011.
628. 	 General Mortors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 4/1/2011.
629. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; General Motors Com-
       pany, Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510262471/
       ds1a.htm#rom45833_12, accessed 12/13/2010.
630. 	 General Motors Company, 424B1, 11/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510263635/d424b1.htm, pp. 256–257,
       accessed 1/20/2011.
631. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
632. 	 Treasury, response to SIGTARP data call, 4/6/2011.
633. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
       2010%20105(a)%20report_final.pdf, accessed 12/9/2010.
634. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
216             special inspector general I troubled asset relief program




             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      635. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      636. 	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
             gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 4/13/2011; Treasury, Transactions Report, 3/31/2011, www.treasury.
             gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/4-04-11%20Transactions%20Report%20
             as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      637. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      638. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, “Office
             of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/
             reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 11/17/2010.
      639. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
      640. 	 Treasury, response to SIGTARP data call, 7/9/2010; Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVEST-
             MENT.pdf, accessed 4/4/2011.
      641. 	 Chrysler Press Release, “Chrysler Group LLC Meets First of Three Performance Events; Fiat Increases Ownership to 25 Percent,” 1/10/2011,
             www.media.chrysler.com/newsrelease.do;jsessionid=CAB479D2ABBB2722C14AFD914031F0F2?&id=10453&mid=2, accessed 3/4/2011.
      642. 	 Chrysler Press Release, “Chrysler Group LLC Meets Second of Three Performance Events; Fiat Increases Ownership to 30 Percent,” 4/12/2011,
             www.media.chrysler.com/newsrelease.do?id=10773&mid=2, accessed 4/12/2011.
      643. 	 Chrysler Press Release, “Chrysler Group LLC Meets Second of Three Performance Events; Fiat Increases Ownership to 30 Percent,” 4/12/2011,
             www.media.chrysler.com/newsrelease.do?id=10773&mid=2, accessed 4/12/2011.
      644. 	 Chrysler Press Release, “Chrysler Group LLC Meets Second of Three Performance Events; Fiat Increases Ownership to 30 Percent,” 4/12/2011,
             www.media.chrysler.com/newsrelease.do?id=10773&mid=2, accessed 4/12/2011; Chrysler Group LLC, “Chrysler Group LLC 2009 Audited
             Financial Statement,” 4/21/2010, www.chryslergroupllc.com/news/archive/2010/04/21/2009_audited_financial_statement, accessed 10/18/2010.
      645. 	 Treasury, Dividends and Interest Report, 4/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Docu-
             mentsDividendsInterest/March%202011%20Dividends%20Interest%20Report.pdf, accessed 4/11/2011.
      646. 	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 9/29/2010.
      647. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
             2010%20105(a)%20report_final.pdf, accessed 12/9/2010.
      648. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
             2010%20105(a)%20report_final.pdf, accessed 12/9/2010.
      649. 	 Ally Financial, 8-K, 5/22/1010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 4/1/2011; Treasury, Section
             105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20105(a)%20
             report_final.pdf, accessed 12/9/2010.
      650. 	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 3/11/2011.
      651. 	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
             2010%20105(a)%20report_final.pdf, accessed 12/9/2010.
      652. 	 Ally Financial, 8-K, 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 8/15/2010.
      653. 	 Treasury, Section 105(a) Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
             December105(a)%20report_FINAL_v4.pdf, accessed 3/11/2011.
      654. 	 Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
             center/press-releases/Pages/tg1014.aspx, accessed 1/3/2011.
      655. 	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TRuPs,” 3/1/2011, www.treasury.gov/press-center/press-
             releases/Pages/tg1081.aspx, accessed 3/1/2011.
      656. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
             sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury Press Re-
             lease, “Treasury: With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011, www.treasury.
             gov/press-center/press-releases/Pages/tg1096.aspx, accessed 3/23/2011.
      657. 	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 3/11/2011.
      658. 	 Treasury Press Release, “Treasury Names Appointee to Ally Board of Directors,” 2/28/2011, www.treasury.gov/press-center/press-releases/Pages/
             tg1080.aspx, accessed 2/28/2011.
      659. 	 Treasury, response to SIGTARP data call, 4/6/2011.
      660. 	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
             htm, accessed 4/4/2011.
      661. 	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
             Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 4/1/2011.
      662. 	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
             htm, accessed 4/1/2011.
      663. 	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
             htm, accessed 4/1/2011.
      664. 	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
                                                                                              quarterly report to congress I april 28, 2011                 217


       Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 4/1/2011.
665. 	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
       Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 4/1/2011.
666. 	 Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in Ally Financial Inc.’s Registration Statement for
       its Initial Public Offering,” 3/31/2011, www.treasury.gov/press-center/press-releases/Pages/tg1124.aspx, accessed 4/1/2011; Treasury, Trans-
       actions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransac-
       tions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
667. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Ally Financial, 10-K,
       2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 3/11/2011.
668. 	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 3/11/2011; Ally Financial, 8-K,
       5/22/1010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 3/11/2011; Ally Financial, 10-K, 2/27/2009, www.
       sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 3/11/2011; Treasury, “Office of Financial Stability:
       Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
       Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/14/2011.
669. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Ally Financial, 10-K,
       2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 9/29/2010; Ally Financial, 8-K,
       5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 3/11/2011; Ally Financial, 8-K, 1/5/2010, www.
       sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 3/11/2011.
670. 	 Treasury, Dividends and Interest Report, 4/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/Docu-
       mentsDividendsInterest/March%202011%20Dividends%20Interest%20Report.pdf, accessed 4/11/2011.
671. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011; Treasury, Dividends
       and Interest Report, 11/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsIn-
       terest/October%202010%20Dividends%20&%20Interest%20Report.pdf, accessed 1/17/2011.
672. 	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
       gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 4/13/2011; Treasury, Transactions Report, 3/31/2011, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/4-04-11%20Transactions%20Report%20
       as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
673. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
674. 	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.gpo.
       gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 4/13/2011.
675. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.financialstability.gov/latest/auto3_18.html, ac-
       cessed 12/9/2010.
676. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
677. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
678. 	 Treasury, response to SIGTARP data call, 7/9/2010.
679. 	 Congressional Oversight Panel, “Accounting for the Troubled Asset Relief Program,” 6/10/2010, www.gpo.gov/fdsys/pkg/CPRT-111JPRT56698/
       pdf/CPRT-111JPRT56698.pdf, accessed 4/12/2011.
680. 	 Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stabili-
       ty/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 1/14/2011.
681. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
682. 	 Treasury, Transactions Report, 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Document-
       sTARPTransactions/4-04-11%20Transactions%20Report%20as%20of%203-31-11_INVESTMENT.pdf, accessed 4/4/2011.
683. 	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
684. 	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
       press-center/press-releases/Pages/tg165.aspx, accessed 1/17/2011; Treasury, “TARP Standards for Compensation and Corporate Governance,”
       6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/17/2011.
685. 	 Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releas-
       es/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/17/2011.
686. 	 Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releas-
       es/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/17/2011.
687. 	 Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releas-
       es/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 1/17/2011.
688. 	 Treasury Press Release, “Legacy Securities Public-Private Investment Program,” 7/8/2009, www.treas.tpaq.treasury.gov/press/releases/reports/
       legacy_securities_faqs.pdf, accessed 9/13/2010.
689. 	 Treasury, response to SIGTARP data call, 10/6/2010; Financial Stability Oversight Board, “Quarterly Report to Congress,” 9/30/2010, www.trea-
       sury.gov/initiatives/financial-stability/about/Oversight/FSOB/Reports/FINSOB%20Quarterly%20Report%20(093010).pdf, accessed 1/19/2011.
690. 	 Treasury Press Release, “Special Master for Executive Compensation,” 9/4/2009, www.treasury.gov/press-center/press-releases/Pages/tg329.aspx,
       accessed 1/17/2011.
691. 	 Treasury, response to SIGTARP data call, 4/6/2011.
218            special inspector general I troubled asset relief program



      692. 	 Treasury, “Determination Regarding Citigroup’s December 23, 2009, TARP Repayment — Citigroup,” 12/23/2009, www.treasury.gov/initiatives/
             financialstability/about/Industry_Oversight/executive-compensation/Documents/20091223%20Citigroup%20Supplemental%20Determina-
             tion%20Letter.pdf, accessed 1/17/2011.
      693. 	 Treasury Press Release, “Chrysler Financial Parent Company Repays $1.9 Billion in Settlement of Original Chrysler Loan,” 5/17/2010, www.
             treasury.gov/press-center/press-releases/Pages/tg700.aspx, accessed 1/17/2011; Transactions Report, 11/18/2010, www.treasury.gov/initiatives/
             financialstability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/11-18-10%20Transactions%20Report%20as%20of%20
             11-16-10.pdf, accessed 1/17/2011.
      694. 	 Treasury Press Release, “Fact Sheet: Acting Special Master Issues 2011 Compensation Determinations for ‘Top 25’ Executives at Four Compa-
             nies that Received Exceptional TARP Assistance,” 4/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1126.aspx, accessed 4/4/2011.
      695. 	 Treasury Press Release, “Fact Sheet: Acting Special Master Issues 2011 Compensation Determinations for ‘Top 25’ Executives at Four Compa-
             nies that Received Exceptional TARP Assistance,” 4/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1126.aspx, accessed 4/4/2011.
      696. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      697. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      698. 	 Treasury, response to SIGTARP data call, 4/11/2011.
      699. 	 Treasury, response to SIGTARP data call, 4/6/2011.
      700. 	 Treasury, response to SIGTARP data call, 4/11/2011.
      701. 	 Treasury, response to SIGTARP data call, 4/11/2011.
      702. 	 Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, http://cybercemetery.unt.edu/
             archive/cop/20110401233834/http://cop.senate.gov/reports/library/report-101410-cop.cfm, accessed 10/18/2010.
      703. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
                                                                                           glossary I Appendix A I april 28, 2011      219




glossary
This appendix provides a glossary of terms that are used in the context of this report.

504 Community Development Loan Program: SBA pro-                    Community Development Financial Institutions
gram combining Government-guaranteed loans with private-            (“CDFIs”): Financial institutions eligible for Treasury
sector mortgages to provide loans of up to $10 million for          funding to serve urban and rural low-income communi-
community development.                                              ties through the CDFI Fund. CDFIs were created in 1994
                                                                    by the Riegle Community Development and Regulatory
7(a) Loan Program: SBA loan program guaranteeing a per-
                                                                    Improvement Act. These entities must be certified by
centage of loans for small businesses that cannot otherwise
                                                                    Treasury; certification confirms that they target at least 60%
obtain conventional loans at reasonable terms.
                                                                    of their lending and other economic development activities to
Asset-Backed Securities (“ABS”): Bonds backed by a port-            areas underserved by traditional financial institutions.
folio of consumer or corporate loans, e.g., credit card, auto, or
                                                                    Cumulative Preferred Stock: Stock requiring a defined
small-business loans. Financial companies typically issue ABS
                                                                    dividend payment. If the company does not pay the dividend
backed by existing loans in order to fund new loans for their
                                                                    on schedule, it still owes the missed dividend to the preferred
customers.
                                                                    stock’s owner.
Auction Agent: Firms (such as investment banks) that buy a
                                                                    Custodian Bank: Bank holding the collateral and managing
series of securities from an institution for resale.
                                                                    accounts for FRBNY; for TALF the custodian is Bank of New
Bank Holding Company: Company that owns and/or con-                 York Mellon.
trols one or more U.S. bank.
                                                                    Debt: Investment in a business that is required to be paid
C Corporation: “For-profit” corporate form organized under          back to the investor, usually with interest.
subsection C of the Internal Revenue Service code and
                                                                    Debtor-in-Possession (“DIP”): Company operating under
recognized as a separate taxpaying entity. The C corporation
                                                                    Chapter 11 bankruptcy protection that technically still owns
pays federal and state income taxes on earnings prior to any
                                                                    its assets but is operating them to maximize the benefit to its
distribution of earnings to shareholders. Dividends paid to
                                                                    creditors.
shareholders by the corporation are taxed to each shareholder
individually.                                                       Deeds-in-Lieu of Foreclosure: Instead of going through
                                                                    foreclosure, the borrower voluntarily surrenders the deed to
Call Reports: Reports of Condition and Income that are re-
                                                                    the home to the lender as satisfaction of the unpaid mortgage
quired to be filed quarterly with financial regulatory authori-
                                                                    balance.
ties by insured depository institutions operating in the United
States. These reports, which generally contain a balance            Deficiency Judgment: Court order authorizing a lender to
sheet, an income statement, and supporting schedules, are           collect all or part of an unpaid and outstanding debt resulting
commonly referred to as Call Reports.                               from the borrower’s default on the mortgage note securing a
                                                                    debt. A deficiency judgment is rendered after the foreclosed
Collateral: Asset pledged by a borrower to a lender until a
                                                                    or repossessed property is sold when the proceeds are insuf-
loan is repaid. Generally, if the borrower defaults on the loan,
                                                                    ficient to repay the full mortgage debt.
the lender gains ownership of the pledged asset and may sell
it to satisfy the debt. In TALF, the ABS or CMBS that is pur-       Direct Private Placement: Sale of securities to investors
chased with the proceeds from the TALF loan is the collateral       that meet minimum net worth and sophistication require-
that is posted with FRBNY.                                          ments, thereby receiving an exemption from normal SEC
                                                                    registration requirements.
Commercial Mortgage-Backed Securities (“CMBS”):
Bonds backed by one or more mortgages on commercial real            Due Diligence: Appropriate level of attention or care a rea-
estate (e.g., office buildings, rental apartments, hotels).         sonable person should take before entering into an agreement
                                                                    or a transaction with another party. In finance, often refers to
Common Stock: Equity ownership entitling an individual to
                                                                    the process of conducting an audit or review of the institution
share in corporate earnings and voting rights.
                                                                    before initiating a transaction.
220           Appendix a I glossary I april 28, 2011




      Dutch Auction: For a Treasury warrant auction (which has            before the date that Treasury granted preliminary CPP par-
      multiple bidders bidding for different quantities of the asset)     ticipation approval.
      the accepted price is set at the lowest bid of the group of high
                                                                          FICO Credit Score: Used by lenders to assess an applicant’s
      bidders whose collective bids fulfill the amount offered by
                                                                          credit risk and whether to extend a loan. It is determined
      Treasury. As an example, three investors place bids to own a
                                                                          by the Fair Isaac Corporation (“FICO”) using mathematical
      portion of 100 shares offered by the issuer:
                                                                          models based on an applicant’s payment history, level of in-
      •	 Bidder A wants 50 shares at $4/share                             debtedness, types of credit used, length of credit history, and
      •	 Bidder B wants 50 shares at $3/share                             newly extended credit.
      •	 Bidder C wants 50 shares at $2/share                             Haircut: Difference between the value of the collateral and
                                                                          the amount of the loan (the loan amount is less than the col-
      The seller selects Bidders A and B as the two highest bidders,      lateral value).
      and their collective bids consume the 100 shares offered. The
      winning price is $3, which is what both bidders pay per share.      Home Price Index: An index of price projections in 110
      Bidder C’s bid is not filled.                                       local housing markets that is used for all HPDP calculations
                                                                          related to home price. The projections are updated quarterly
      Equity: Investment that represents an ownership interest in a       with new data and based on both long-term and short-term
      business.                                                           trends, adjusted for seasonal effects.
      Equity Capital Facility: Commitment to invest equity capital        Illiquid Assets: Assets that cannot be quickly converted to
      in a firm under certain future conditions. An equity facility       cash.
      when drawn down is an investment that increases the pro-
      vider’s ownership stake in the company. The investor may be         Investors: Owners of mortgage loans or bonds backed by
      able to recover the amount invested by selling their ownership      mortgage loans who receive interest and principal payments
      stake to other investors at a later date.                           from monthly mortgage payments. Servicers manage the cash
                                                                          flow from these payments and distribute them to investors
      Equity Share Agreement: Agreement that a homeowner will             according to Pooling and Servicing Agreements (“PSAs”).
      share future increases in home value with a mortgage investor
      or other party. In the context of mortgage loan modifications,      Legacy Securities: Real estate-related securities originally
      the investor may reduce the borrower’s UPB in return for the        issued before 2009 that remained on the balance sheets
      right to share in a portion of any future rise in the home’s val-   of financial institutions because of pricing difficulties that
      ue. An equity share agreement thus may provide the mortgage         resulted from market disruption.
      investor with a prospect of recovering its full investment, even    Letter of Credit: Letter from a bank guaranteeing that a
      if it provides a principal reduction to the borrower. The agree-    buyer’s payment to a seller will be received on time and for
      ment may also provide an immediate benefit to an “underwa-          the correct amount. In the event that the payment is not
      ter” borrower, yet still offer that borrower some prospect of       made, the issuing bank is required to cover the full or remain-
      benefitting from future home price appreciation.                    ing amount of the obligation.
      Exceptional Assistance Recipients: Companies receiving              Limited Partnership: Partnership in which there is at least
      assistance under SSFI, TIP, and AIFP. Current recipients are        one partner whose liability is limited to the amount invested
      AIG, Chrysler, GM, and Ally Financial (formerly GMAC).              (limited partner) and at least one partner whose liability ex-
      Excess Spread: Funds left over after required payments and          tends beyond monetary investment (general partner).
      other contractual obligations have been met. In TALF it is          Loan Servicers: Companies that perform administrative
      the difference between the periodic amount of interest paid         tasks on monthly mortgage payments until the loan is repaid.
      out by the collateral and the amount of interest charged by         These tasks include billing, tracking, and collecting monthly
      FRBNY on the non-recourse loan provided to the borrower to          payments; maintaining records of payments and balances;
      purchase the collateral.                                            allocating and distributing payment collections to investors
      Exercise Price: Preset price at which the warrant holder            in accordance with each mortgage loan’s governing docu-
      may purchase each share. For warrants issued through CPP,           mentation; following up on delinquencies; and initiating
      this was based on the average stock price during the 20 days        foreclosures.
                                                                                          glossary I Appendix A I april 28, 2011    221




Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio            only after payments due to holders of debt and depositors.
that mortgage lenders examine before approving a mortgage;            It typically confers no voting rights. Preferred stock also has
calculated by dividing the outstanding amount of the loan by          priority over common stock in the distribution of assets when
the value of the collateral backing the loan. Loans with high         a bankrupt company is liquidated.
LTV ratios are generally seen as higher risk because the bor-
                                                                      Pro Forma: In finance, refers to the presentation of hypo-
rower has less of an equity stake in the property.
                                                                      thetical financial information assuming that certain events
Mandatorily Convertible Preferred Shares (“MCP”):                     will happen.
Preferred share that can be converted to common stock at the
                                                                      Pro Rata: Refers to dividing something among a group of
issuer’s discretion if specific criteria are met by a certain date.
                                                                      participants according to the proportionate share that each
Mutual Depository Institution: Any U.S. bank, U.S. savings            participant holds as a part of the whole.
association, bank holding company or savings and loan hold-
                                                                      Public Interest: Regulatory standard that the Special Master
ing company organized in a mutual form. Savings associations
                                                                      is required to apply in making determinations. It refers to the
organized as mutual institutions issue no capital stock and
                                                                      determination of whether TARP-recipient compensation plans
therefore have no stockholders. Mutual savings associations
                                                                      are aligned with the best interests of the U.S. taxpayer, based
build capital almost exclusively through retained earnings.
                                                                      on a balancing of specific principles set forth in the Rule.
Nationally Recognized Statistical Rating Organizations
                                                                      Qualifying Financial Institutions (“QFIs”): Private and
(“NRSROs”): Credit rating agency registered with the SEC.
                                                                      public U.S.-controlled banks, savings associations, bank hold-
Credit rating agencies provide their opinion on the creditwor-
                                                                      ing companies, certain savings and loan holding companies,
thiness of companies and the financial obligations issued by
                                                                      and mutual organizations.
companies. The ratings distinguish between investment grade
and non-investment grade equity and debt obligations.                 Revolving Credit Facility: Line of credit for which bor-
                                                                      rowers pay a commitment fee, allowing them to repeatedly
Net Present Value (“NPV”) Test: Compares the money
                                                                      draw down funds up to a guaranteed maximum amount. The
generated by modifying the terms of the mortgage with the
                                                                      amount of available credit decreases and increases as funds
amount an investor can reasonably expect to recover in a
                                                                      are borrowed and then repaid.
foreclosure sale.
                                                                      Risk-Weighted Assets: Risk-based measure of total assets
Non-Agency Residential Mortgage-Backed Securities                     held by a financial institution. Assets are assigned broad risk
(“non-agency RMBS”): Financial instrument backed by a                 categories. The amount in each risk category is then multi-
group of residential real estate mortgages (i.e., home mortgag-       plied by a risk factor associated with that category. The sum of
es for residences with up to four dwelling units) not guaran-         the resulting weighted values from each of the risk categories
teed or owned by a Government-sponsored enterprise (Fannie            is the bank’s total risk-weighted assets.
Mae, Freddie Mac) or a Government agency.
                                                                      SBA Pool Certificates: Ownership interest in a bond backed
Non-Cumulative Preferred Stock: Preferred stock with                  by SBA guaranteed loans.
a defined dividend, without the obligation to pay missed
dividends.                                                            Senior Executive Officers (“SEOs”): “Named executive of-
                                                                      ficer” of a TARP recipient as defined under Federal securities
Non-Recourse Loan: Secured loan in which the borrower is              law, which generally include the principal executive officer,
relieved of the obligation to repay the loan upon surrendering        the principal financial officer, and the next three most highly
the collateral.                                                       compensated officers.
Obligations: Definite commitments that create a legal liabil-         Senior Preferred Stock: Shares that give the stockholder
ity for the Government to pay funds.                                  priority dividend and liquidation claims over junior preferred
                                                                      and common stockholders.
Pool Assemblers: Firms authorized to create and market
pools of SBA guaranteed loans.                                        Senior Subordinated Debentures: Debt instrument ranking
                                                                      below senior debt but above equity with regard to investors’
Preferred Stock: Equity ownership that usually pays a fixed
                                                                      claims on company assets or earnings. Senior debt holders are
dividend before distributions for common stock owners but
222         Appendix a I glossary I april 28, 2011




 paid in full before subordinated debt holders are paid. There        establish that he or she can make lower monthly mortgage
 may be additional distinctions of priority among subordinated        payments and qualify for a permanent modification.
 debt holders.
                                                                      Trust Preferred Securities (“TRUPS”): Securities that have
 Servicing Advances: If borrowers’ payments are not made              both equity and debt characteristics, created by establishing a
 promptly and in full, servicers are not contractually obligated      trust and issuing debt to it.
 to advance the required monthly payment amount in full to
                                                                      Undercapitalized: Condition in which a financial institution
 the investor. Once a borrower becomes current or the prop-
                                                                      does not meet its regulator’s requirements for sufficient capi-
 erty is sold or acquired through foreclosure, the servicer is
                                                                      tal to operate under a defined level of adverse conditions.
 repaid all advanced funds.
                                                                      Underemployment: Condition in which laborers are em-
 Short Sales: Sale of a home for less than the unpaid mort-
                                                                      ployed at less than full-time or at jobs inadequate with respect
 gage balance. A borrower sells the home and the lender col-
                                                                      to their training or economic needs.
 lects the proceeds as full satisfaction of the unpaid mortgage
 balance, thus avoiding the foreclosure process.                      Underwater Mortgage: Mortgage loan on which a home-
                                                                      owner owes more than the home is worth, typically as a result
 Skin in the Game: Equity stake in an investment; down pay-
                                                                      of a decline in the home’s value.
 ment; the amount an investor can lose.
                                                                      Endnotes:
 Special Purpose Vehicles (“SPV”): Off-balance-sheet legal            Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” no date, www.treasury.gov/
                                                                      initiatives/financial-stability/investment-programs/sbli/Pages/unlockingCreditforSmallBusinesses.
 entity that holds transferred assets presumptively beyond            aspx, accessed 1/20/2011.
 the reach of the entities providing the assets, and is legally       FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
                                                                      card_securitization/glossary.html, accessed 4/8/2009.
 isolated.
                                                                      Board of Governors of the the Federal Reserve System, “Bank Holding Companies,” no date, www.
                                                                      fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
 Subchapter S-Corporation (“S corporation”): Corporate                1/20/2011.
 form that passes corporate income, losses, deductions, and           Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
                                                                      org, accessed 1/28/2009.
 credit through to shareholders for Federal tax purposes.
                                                                      Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
 Shareholders of S-corporations report the flow-through of            1/18/2011.
 income and losses on their personal tax returns and are taxed        U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                      sfh/buying/glossary.cfm, accessed 4/8/2009.
 at their individual income tax rates.                                IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/businesses/small/article/0,,id=106572,00.
                                                                      html, accessed 4/8/2009.
 Subordinated Debt: Loan (or security) that ranks below other         GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of Government Assistance Pro-
 loans (or securities) with regard to claims on assets or earnings.   vided to AIG and Description of Recent Execution of Recapitalization Plan,” 1/20/2011,
                                                                      www.gao.gov/new.items/d1146.pdf, accessed 1/20/2011. Treasury, “Supplemental Directive 10-
                                                                      14: Making Home Affordable Program - Principal Reduction Alternative Update,” 10/15/2010, www.
 Synthetic ABS: Security deriving its value and cash flow             hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 1/19/2011.
 from sources other than conventional debt, equities, or com-         Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
                                                                      www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 1/18/2011.
 modities — for example, credit derivatives.
                                                                      GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                      on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.pdf,
 Systemically Significant: Term referring to any financial            accessed 10/20/2010.
 institution whose failure would impose significant losses on         Making Home Affordable base NPV model documentation v4.0, updated 10/1/2010. www.hmpadmin.
                                                                      com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv4.pdf, pp. 23-24.
 creditors and counterparties, call into question the financial
                                                                      FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 3/21/2011.
 strength of similar institutions, disrupt financial markets,         U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
 raise borrowing costs for households and businesses, and             www.census.gov/hhes/www/rfs/glossary.html#l, accessed 10/20/2010.

 reduce household wealth (also commonly used to describe              Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                      1/18/2011, as changed by SIGTARP.
 institutions “too big to fail”).                                     Treasury, “Examinations of Mutual Savings Associations,” 11/1/2001, www.ots.treas.gov/_
                                                                      files/25153.pdf, accessed 1/20/2011.
 TALF Agent: Financial institution that is party to the TALF          SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 10/20/2010.
 Master Loan and Security Agreement and that occasion-                SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                      3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_
 ally acts as an agent for the borrower. TALF agents include          Home_Affordable_Modification_Program.pdf, accessed 3/28/2010.
 primary and nonprimary broker-dealers.                               GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
                                                                      special.pubs/d06382sp.pdf, p. 7-3, accessed 10/20/2010.
 Trial Modification: Under HAMP, a period of at least                 Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” no date, www.treasury.gov/
                                                                      initiatives/financial-stability/investment-programs/sbli/Pages/unlockingCreditforSmallBusinesses.
 three months during which a borrower is given a chance to            aspx, accessed 1/20/2011.
                                                                                                      glossary I Appendix A I april 28, 2011   223




Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
1/18/2011.
Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
1/18/2011.
Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and Govern-
ment Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.aspx,
accessed 1/18/2011.
Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
1/18/2011.
FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
rules/2000-4600.html, accessed 1/20/2011.
SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, www.sba.gov/idc/
groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 9/25/2010.
Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 1/18/2011.
FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
card_securitization/glossary.html, accessed 10/212010.
Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
1/18/2011.
FRBNY, “TALF FAQ’s,” 9/1/2009, www.newyorkfed.org/markets/talf_faq.html, accessed 9/1/2009.
SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_
Home_Affordable_Modification_Program.pdf, accessed 3/28/2010.
Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
1/18/2011.
224              Appendix B I Acronyms and abbreviations I April 28, 2011




      Acronyms and Abbreviations

      2MP                  Second Lien Modification Program                  Community        Community Bancorp LLC
      ABS                  asset-backed securities                           COP              Congressional Oversight Panel
      AGP                  Asset Guarantee Program                           COTR             contracting officer’s technical representative
                           American International Assurance Co., Ltd.; AIA   CPP 	            Capital Purchase Program
      AIA
                           Group Limited
                                                                             Delphi           Delphi Automotive LLP
      AIA SPV              AIA Aurora LLC
                                                                             DIP              debtor-in-possession
      AIFP                 Automotive Industry Financing Program
                                                                                              Dodd-Frank Wall Street Reform and Consumer
                                                                             Dodd-Frank Act
      AIG                  American International Group, Inc.                                 Protection Act
      AIG Trust            AIG Credit Facility Trust                         DTI              debt-to-income ratio
      ALICO                American Life Insurance Company                   Edison           AIG Edison Life Insurance Company
      ALICO SPV            ALICO Holdings LLC                                EESA             Emergency Economic Stabilization Act of 2008
      Ally Financial       Ally Financial Inc.                               Fannie Mae       Federal National Mortgage Association
      ARM                  adjustable rate mortgage                          FAR              Federal Acquisition Regulation
      ARRA                 American Recovery and Reinvestment Act of 2009    FBI              Federal Bureau of Investigation
      ASSP                 Auto Supplier Support Program                     FCB              First Community Bank of America
      AWCP                 Auto Warranty Commitment Program                  FCBA             First Community Bank Corporation of America
      Bank of                                                                FBHC             FBHC Holding Company
                           Bank of America Corp.
      America
                                                                             FDIC             Federal Deposit Insurance Corporation
      BHC                  bank holding company
                                                                                              Federal Deposit Insurance Corporation Office of
                                                                             FDIC OIG
      Broadway             Broadway Financial Corp.                                           Inspector General
      Broadway Bank        Broadway Federal Bank, F.S.B.                     FFETF            Financial Fraud Enforcement Task Force
      Cadence              Cadence Financial Corporation                     FHA              Federal Housing Administration
      CAP                  Capital Assistance Program                        FHA2LP           Federal Housing Administration Second Lien Program
      Capital Bank         Capital Bank Corporation                          FHFA             Federal Housing Finance Agency
      Carlile              Carlile Bancshares Inc.                                            Federal Housing Finance Agency Office of the
                                                                             FHFA OIG
                                                                                              Inspector General
      CBO                  Congressional Budget Office
                                                                             Fiat             Fiat North America LLC
      CDCI                 Community Development Capital Initiative
                                                                             Fidelity         Fidelity Resources Company
      CDFI                 Community Development Financial Institution
                                                                             FinCEN           Financial Crimes Enforcement Network
      Central Pacific      Central Pacific Financial Corp.
                                                                             FirstCity        FirstCity Bank
      CEO                  chief executive officer
                                                                             Flatirons        Flatirons Bank
      Cerberus             Cerberus Capital Management, L.P.
                                                                             FRBNY            Federal Reserve Bank of New York
      Chrysler             Chrysler Holding LLC
                                                                                              Federal Reserve Board Office of the Inspector
      Chrysler                                                               FRB OIG
                           Chrysler Financial Services Americas LLC                           General
      Financial
                                                                             Freddie Mac      Federal Home Loan Mortgage Corporation
      Citigroup            Citigroup, Inc.
                                                                             FTC              Federal Trade Commission
      CMBS                 commercial mortgage-backed securities
                                                                             Galleria         Galleria USA, Inc.
      Coastal
                           Coastal Securities, Inc.
      Securities                                                             GAO              Government Accountability Office
      Colonial             The Colonial BancGroup, Inc.                      GM               General Motors Company
                                                                                 Acronyms and abbreviations I Appendix B I april 28, 2011            225




GMAC             GMAC Inc.                                               QFI                 qualifying financial institution
GSE              Government-sponsored enterprise                                             Rural Development Home Affordable Modification
                                                                         RD-HAMP
                                                                                             Program
HAFA             Home Affordable Foreclosure Alternatives program
                                                                         RHS                 Rural Housing Service
HAMP             Home Affordable Modification Program
                                                                         RMA                 request for modification and affidavit
HFA              Housing Finance Agency
                                                                         RMBS                residential mortgage-backed securities
HHF              Hardest Hit Fund
                                                                                             Interim Final Rule on TARP Standards for
HPDP             Home Price Decline Protection program                   The Rule
                                                                                             Compensation and Corporate Governance
HPF              Homeownership Preservation Foundation
                                                                         SBA                 Small Business Administration
HSC              HAMP Solution Center
                                                                         SBLF                Small Business Lending Fund
HUD              Department of Housing and Urban Development
                                                                         SEC                 Securities and Exchange Commission
                 Department of Housing and Urban Development
HUD OIG                                                                  Secret Service      Secret Service
                 Office of the Inspector General
                                                                         SEO                 senior executive officer
ILFC             International Lease Finance Corporation
                                                                         Shay Financial      Shay Financial Services, Inc.
IPO              initial public offering
                                                                                             Special Inspector General for the Troubled Asset
IRS              Internal Revenue Service                                SIGTARP
                                                                                             Relief Program
                 Internal Revenue Service Criminal Investigation
IRS-CI                                                                   SPA                 Servicer Participation Agreement
                 Division
                                                                                             Office of the Special Master for TARP Executive
Legacy           Legacy Bancorp, Inc.                                    Special Master
                                                                                             Compensation
LPS              Lender Processing Services
                                                                         SPV                 special purpose vehicle
LTV              loan-to-value ratio
                                                                         SSFI                Systemically Significant Failing Institutions program
MBS              mortgage-backed securities
                                                                         Star                AIG Star Life Insurance Co., Ltd.
MCP              mandatorily convertible preferred shares
                                                                         TALF                Term Asset-Backed Securities Loan Facility
Metropolitan     Metropolitan Bank Group, Inc.
                                                                         TARP                Troubled Asset Relief Program
MHA              Making Home Affordable program
                                                                         TBW                 Taylor, Bean and Whitaker Mortgage Corporation
Nan Shan         Nan Shan Life Insurance Company Ltd.
                                                                         TCW                 The TCW Group, Inc.
NC Bancorp       NC Bancorp, Inc.
                                                                         TIP                 Targeted Investment Program
New Chrysler     Chrysler Group LLC
                                                                         TOTAL               FHA TOTAL Scorecard
NHMC             Nations Housing Modification Center
                                                                         TPP                 trial period plan
North American   North American Financial Holdings, Inc.
                                                                         Treasury            Department of the Treasury
The Notice       Notice 2010-2
                                                                         Treaty Oak          Treaty Oak Bancorp, Inc.
NPV              net present value
                                                                         TRUPS               trust preferred securities
NRSRO            nationally recognized statistical rating organization
                                                                         UAW                 United Auto Workers
Old Chrylser     Chrysler Group LLC
                                                                         UCSB                Unlocking Credit for Small Businesses
OFS              Office of Financial Stability
                                                                         UP                  Home Affordable Unemployment Program
OMB              Office of Management and Budget
                                                                         UPB                 unpaid principal balance
Omni             Omni National Bank
                                                                         USDA                Department of Agriculture
Orion            Orion Bank
                                                                         USPIS               Postal Inspection Service
PPIF             Public-Private Investment Fund
                                                                         VA                  Department of Veterans Affairs
PPIP             Public-Private Investment Program
                                                                         VEBA                UAW Retiree Medical Benefits Trust
PRA              Principal Reduction Alternative program
                                                                         Veritex             Veritex Holdings
PSA              Pooling and Servicing Agreement
QA               quality assurance
226            Appendix C I Reporting Requirements I april 28, 2011




      Reporting Requirements
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
      data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.

           EESA        EESA Reporting                                                                                                             SIGTARP
       #   Section     Requirement           Treasury Response to SIGTARP Data Call                                                               Report Section
       1   Section     A description of      Treasury’s authority to make new financial commitments under TARP ended on October 3,                Section 2:
           121(c)(A)   the categories of     2010.                                                                                                “TARP Overview”
                       troubled assets
                       purchased or          Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-               Appendix D:
                       otherwise procured    stability/Pages/default.aspx website, as of 3/31/2011:                                               “Transaction
                       by the Treasury                                                                                                            Detail”
                       Secretary.
                                             CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                             financial system by providing capital to viable financial institutions of all sizes throughout the
                                             nation. With a strengthened capital base, financial institutions have an increased capacity to
                                             lend to U.S. businesses and consumers and to support the U.S. economy.
                                             SSFI: Systemically Significant Failing Institution Program (SSFI) was established to provide
                                             stability and prevent disruptions to financial markets from the failure of institutions that are
                                             critical to the functioning of the nation’s financial system.
                                             AGP: The Asset Guarantee Program (AGP) provides government assurances for assets held
                                             by financial institutions that are critical to the functioning of the nation’s financial system,
                                             which face a risk of losing the critical confidence that is needed for them to continue to lend
                                             to other banks.
                                             TIP: Treasury created the Targeted Investment Program (TIP) to stabilize the financial sys-
                                             tem by making investments in institutions that are critical to the functioning of the financial
                                             system. This program focuses on the complex relationships and reliance of institutions
                                             within the financial system. Investments made through the TIP seek to avoid significant mar-
                                             ket disruptions resulting from the deterioration of one financial institution that can threaten
                                             other financial institutions and impair broader financial markets and pose a threat to the
                                             overall economy.
                                             TALF: The TALF is designed to increase credit availability and support economic activity
                                             by facilitating renewed issuance of consumer and small business ABS at more normal
                                             interest rate spreads… Under the TALF, the Federal Reserve Bank of New York (FRBNY) will
                                             provide non-recourse funding to any eligible borrower owning eligible collateral... The U.S.
                                             Treasury’s Troubled Assets Relief Program (TARP) may purchase $4.3 billion of subordi-
                                             nated debt in an SPV created by the FRBNY. The SPV will purchase and manage any assets
                                             received by the FRBNY in connection with any TALF loans. Residual returns from the SPV will
                                             be shared between the FRBNY and the U.S. Treasury.
                                             PPIP: The Legacy Securities Public-Private Investment Program (“S-PPIP”) is designed to
                                             purchase troubled legacy securities that are central to the problems currently impacting the
                                             U.S. financial system. Under this program, Treasury will invest equity and debt in multiple
                                             Public-Private Investment Funds (“PPIFs”) established with private sector fund managers and
                                             private sector investors for the purpose of purchasing eligible assets. PPIF managers will
                                             invest in securities backed directly by mortgages that span the residential credit spectrum
                                             (e.g., prime, Alt-A, subprime mortgages) as well as the commercial mortgage market.
                                             CDCI: In February 2010, Treasury announced the Community Development Capital Initiative
                                             (CDCI) to improve access to credit for small businesses. Through this TARP program, Trea-
                                             sury will invest lower-cost capital in Community Development Financial Institutions (CDFIs)
                                             that lend to small businesses in the country’s hardest-hit communities.
                                                                                              Reporting Requirements I Appendix C I april 28, 2011           227



    EESA        EESA Reporting                                                                                                           SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                           Report Section
                                        SBLF: [SBLF] was established on September 27, 2010, to allow Treasury to make capital
                                        investments in eligible institutions in order to increase the availability of credit for small
                                        businesses.
                                        UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                        SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                        securities to ensure that community banks and credit unions feel confident in extending new
                                        loans to local businesses.
                                        AIFP: The objective of [AIFP] is to prevent a significant disruption of the American auto-
                                        motive industry, which would pose a systemic risk to financial market stability and have
                                        a negative effect on the economy of the United States... [Through AIFP, Treasury has
                                        provided] loans or equity investments to General Motors, GMAC, Chrysler, and Chrysler
                                        Financial in order to avoid a disorderly bankruptcy of one or more auto companies; such an
                                        event would pose a systemic risk to the country’s financial system. Treasury’s loans to the
                                        automobile industry forged a path for these companies to go through orderly restructurings
                                        and achieve viability.
                                        ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                        confidence they need to continue shipping parts, pay their employees and continue their
                                        operations.
                                        AWCP: The Treasury Department announced an innovative new program to give consumers
                                        who are considering new car purchases the confidence that even while Chrysler and GM
                                        were restructuring in bankruptcy, their warrantees will be honored. This program is part
                                        of the Administration’s broader program to stabilize the auto industry and stand behind a
                                        restructuring effort that will result in stronger, more competitive and viable American car
                                        companies.
                                        HAMP (a program under MHA): The Home Affordable Modification Program has a simple
                                        goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                        communities. This program will bring together lenders, investors, servicers, borrowers,
                                        and the government, so that all stakeholders share in the cost of ensuring that responsible
                                        homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                        million at-risk borrowers in all segments of the mortgage market, reducing foreclosures,
                                        and helping to avoid further downward pressures on overall home prices.
2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on                       Appendix D:
    121(c)(B)   troubled assets         October 3, 2010.                                                                                 “Transaction
                purchased in each                                                                                                        Detail”
                such category           Information on all transactions as well as additional information about these programs and
                described under         related purchases is available in the transaction reports and monthly 105(a) reports posted
                Section 121(c)(A).      at www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx.
                                        Information regarding all transactions through the end of March 2011 is available at the
                                        aforementioned link in a transaction report dated April 4, 2011.
3   Section     An explanation of       Treasury’s authority to make new financial commitments under TARP ended on                       Section 2: “TARP
    121(c)(C)   the reasons the         October 3, 2010.                                                                                 Overview”
                Treasury Secretary
                deemed it neces-                                                                                                         Appendix C:
                sary to purchase                                                                                                         “Reporting
                each such troubled                                                                                                       Requirements”
                asset.                                                                                                                   of prior SIGTARP
                                                                                                                                         Quarterly Reports
                                                                                                                                         to Congress
4   Section     A listing of each       See #2.                                                                                          See #2
    121(c)(D)   financial institution
                from which such
                troubled assets
                were purchased.
228           Appendix C I Reporting Requirements I april 28, 2011




          EESA        EESA Reporting                                                                                                          SIGTARP
      #   Section     Requirement            Treasury Response to SIGTARP Data Call                                                           Report Section
      5   Section     A listing of and       On January 18, 2011, the Treasury engaged Perella Weinberg Partners LP (Perella Wein-            Section 2:
          121(c)(E)   detailed biographi-    berg) as a financial agent to provide certain services relating to the management and dispo-     “Public-Private
                      cal information on     sition of Ally Financial investments acquired pursuant to the Emergency Economic Stability       Investment
                      each person or         Act of 2008 (EESA). Perella Weinberg is a global financial services firm providing corporate     Program”
                      entity hired to man-   advisory and asset management services.
                      age such troubled                                                                                                       Appendix C:
                      assets.                Perella Weinberg, acting as the Treasury’s transaction structuring agent, will perform vari-     “Reporting
                                             ous services related to the management and disposition of such investments, including:           Requirements”
                                             •	 Analyzing, reviewing and documenting financial, corporate, and business information           of prior SIGTARP
                                                related to potential transactions,                                                            Quarterly Reports
                                             •	 Reporting on the potential performance of designated investments and their disposition        to Congress
                                                given a range of market scenarios and transaction structure,
                                             •	 Analyzing and reviewing disposition alternatives and structures including the use of
                                                underwriters, brokers or other capital market advisors for the best means and structure
                                                to dispose of assets, and,
                                             •	 Maintaining a compliance program designed to detect and prevent violations of Federal
                                                securities laws, and identifying, documenting, and enforcing controls to mitigate conflicts
                                                of interest.
                                             Additionally, Perella Weinberg is required to permit the Treasury’s internal and external
                                             auditors, or other governmental oversight entities, to audit books and records related to
                                             their services provided to the Treasury under the terms of their Financial Agency Agreement
                                             (FAA) with the Treasury. The FAA is available on [Treasury’s] website at www.treasury.gov/
                                             initiatives/financial-stability/about/procurement/faa/Financial_Agency_Agreements/Web-
                                             site%20FAA_Perella%20Weinberg.pdf


      6   Section     A current estimate     The transaction reports capture detailed information about troubled asset purchases, price       Table C.1;
          121(c)(F)   of the total amount    paid, and the amount of troubled assets currently on Treasury’s books. The latest transac-       Section 2: “TARP
                      of troubled assets     tion reports are available on Treasury’s website at www.treasury.gov/initiatives/financial-      Overview”
                      purchased pursuant     stability/briefing- room/reports/Pages/Home.aspx. Information regarding all transactions
                      to any program         through the end of March 2011 is available at the aforementioned link in a transaction           Appendix D:
                      established under      report dated April 4, 2011.                                                                      “Transaction
                      Section 101, the                                                                                                        Detail”
                      amount of troubled     Treasury published its most recent valuation of TARP investments as of February 28, 2011,
                      assets on the          on March 10, 2011, in its February 105(a) report that is available at the following link:
                      books of Treasury,     www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/default.
                      the amount of          aspx
                      troubled assets        Information on the repayments of Treasury’s investments under the CPP and proceeds from
                      sold, and the profit   the sale of warrants are available within Treasury’s press releases, transactions reports and
                      and loss incurred      Section 105(a) Monthly Congressional Reports at the following links:
                      on each sale or
                      disposition of each    www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/press-releases.aspx
                      such troubled
                                             www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx
                      asset.
      7   Section     A listing of the       Treasury’s authority to make new financial commitments under TARP ended on                       Section 2:
          121(c)(G)   insurance contracts    October 3, 2010. As such, Treasury cannot issue any new insurance contracts after this           “TARP Overview”
                      issued under Sec-      date.
                      tion 102.                                                                                                               Section 2:
                                                                                                                                              “Targeted Invest-
                                                                                                                                              ment Program and
                                                                                                                                              Asset Guarantee
                                                                                                                                              Program”
                                                                                                                    Reporting Requirements I Appendix C I april 28, 2011                             229


Table C.1
     EESA             EESA Reporting                                                                                                                                      SIGTARP
 # Section            Requirement                  Treasury Response to SIGTARP Data Call                                                                                 Report Section
 8      Section       A detailed state-            Treasury’s authority to make new financial commitments under TARP ended on                                             Table C.1;
        121(f)        ment of all pur-             October 3, 2010.                                                                                                       Section 2:
                      chases, obligations,                                                                                                                                “TARP Overview”
                      expenditures, and            Treasury provides information about TARP obligations, expenditures and revenues in
                      revenues associ-             separate transaction reports available on Treasury’s public website at www.treasury.gov/                               Section 3: “TARP
                      ated with any pro-           initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding                           Operations and
                      gram established             all transactions through the end of March 2011 is available at the aforementioned link in a                            Administration”
                      by the Secretary of          transaction report dated April 4, 2011.
                                                                                                                                                                          Appendix D:
                      the Treasury under           Information on obligations and expenditures is also available in the TARP budget as of                                 “Transaction
                      Sections 101 and             April 1, 2011.                                                                                                         Detail”
                      102.
 Sources: Treasury, response to SIGTARP data call, 4/6/2011; Program Descriptions: Treasury, “Programs,” www.treasury.gov/initiatives/financial-stability/investment-programs/Pages/default.aspx,
 accessed 4/7/2011; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 4/7/2011; AWCP: “Obama
 Administration’s New Warrantee Commitment Program,” no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 4/7/2011; TALF: Federal Reserve, “Term
 Asset-Backed Securities Loan Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 4/7/2011; SBLF: Small
 Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Making Home Affordable Updated Detailed Description Update,” 3/26/2010, www.treasury.gov/initiatives/financial-stability/housing-programs/
 mha/Pages/default.aspx, accessed 4/7/2011.			
 			




 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 3/31/2011 ($ BILLIONS)
                                                                                                                                                                                 On Treasury’s
                                                                                                                 Obligationsa                                 Expendedb                Booksc
Capital Purchase Program (“CPP”)                                                                                      $204.89                                    $204.89                  $25.80
Systemically Significant Failing Institutions (“SSFI”)                                                                   69.84                                      67.84                   58.69
Home Affordable Modification Program (“HAMP”)                                                                            45.62                                        1.36                    1.36
Targeted Investment Program (“TIP”)                                                                                      40.00                                      40.00                      —
Automotive Industry Financing Program (“AIFP”)                                                                           81.76                                      79.69                   50.12
Asset Guarantee Program (“AGP”)                                                                                            5.00                                         —                      —
Consumer and Business Lending Initiative (“CBLI”)
     Term Asset-Backed Securities Loan Facility (“TALF”)                                                                   4.30                                       0.10                    0.10
     Small Business Lending Program                                                                                         —                                           —                      —
     Unlocking Credit for Small Businesses (“UCSB”)                                                                        0.37                                       0.37                    0.37
     Community Development Capital Initiative (“CDCI”)                                                                     0.57                                       0.21                    0.21
Legacy Securities Public-Private Investment Program (“PPIP”)                                                             22.41                                      16.03                   15.19
Total                                                                                                                $474.75                                    $410.49                 $151.83
Notes: Numbers affected by rounding.
a
  For purposes of this table, “Obligations” refers to “Face Value Obligations” on the Treasury TARP/Financial Stability Plan Budget Table (“TARP Budget”) as of 4/4/2011.
b
  “Expended” refers to “Face Value Disbursed/Outlays,” defined as “TARP cash that has left the Treasury, according to the TARP Budget.”
c
  “On Treasury’s Books” calculated as “Face Value Disbursed/Outlays” net of repayments per the Transactions Report if they do not appear to be already netted out.

Sources: Repayments data: Treasury, Transactions Report, 3/31/2011; Treasury, Transactions Report — Housing Programs, 3/30/2011; all other data: Treasury, response to
SIGTARP data call, 4/6/2011.
table d.1

 CPP Transaction Detail, as oF 3/31/2011                                            (continued)                                                                                                                                                                                                   230


                                                                                        Capital         Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                    Investment                 Investment    Repayment       Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                    Description                   Amount          Date         Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             1st Constitution Bancorp,      Preferred Stock w/
12/23/2008                                                           $12,000,000     10/27/2010     $12,000,000           —                                                    $8.50                   $40.80          $7.77       231,782             $0.73              IN      $1,106,667
             Cranbury, NJ4, g               Warrants
             1st Enterprise Bank, Los       Preferred Stock w/
2/13/2009                                                             $4,400,000
             Angeles, CA2, c                Exercised Warrants
                                                                                                                                                                                                                                                                                    $834,265
             1st Enterprise Bank, Los
12/11/2009                                  Preferred Stock           $6,000,000
             Angeles, CA2, 10a, c
             1st FS Corporation,            Preferred Stock w/
11/14/2008                                                           $16,369,000                                                                                               $0.45                    $2.29          $8.87       276,815            ($8.42)          OUT        $1,229,949
             Hendersonville, NC             Warrants
             1st Source Corporation,        Preferred Stock w/
1/23/2009                                                           $111,000,000     12/29/2010    $111,000,000           —      3/9/2011        R         $3,750,000         $20.04                 $502.46                                                                     $10,730,000
             South Bend, IN4, m             Warrants
             1st United Bancorp, Inc.,      Preferred Stock w/
3/13/2009                                                            $10,000,000     11/18/2009     $10,000,000           —    11/18/2009        R           $500,000                                                                                                               $370,903
             Boca Raton, FL2, 4, 7          Exercised Warrants
             AB&T Financial Corporation,    Preferred Stock w/
1/23/2009                                                             $3,500,000                                                                                               $2.25                    $6.00          $6.55        80,153            ($4.30)          OUT          $360,694
             Gastonia, NC                   Warrants
                                            Preferred Stock w/
1/30/2009    Adbanc, Inc, Ogallala, NE2                              $12,720,000                                                                                                                                                                                                  $1,415,365
                                            Exercised Warrants
             Alarion Financial Services,    Preferred Stock w/
1/23/2009                                                             $6,514,000                                                                                                                                                                                                    $731,777
             Inc., Ocala, FL2               Exercised Warrants
             Alaska Pacific Bancshares,     Preferred Stock w/
2/6/2009                                                              $4,781,000                                                                                               $7.80                    $5.10          $4.08       175,772             $3.72              IN        $485,792
             Inc., Juneau, AK               Warrants
                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I april 28, 2011




             Alliance Bancshares, Inc.,     Preferred Stock w/
6/26/2009                                                             $2,986,000                                                                                                                                                                                                    $266,212
             Dalton, GA2                    Exercised Warrants
             Alliance Financial Corporation, Preferred Stock w/
12/19/2008                                                           $26,918,000      5/13/2009     $26,918,000           —     6/17/2009        R           $900,000         $33.35                 $158.25                                                                        $538,360
             Syracuse, NY4                   Warrants
                                            Subordinated
             Alliance Financial Services
6/26/2009                                   Debentures w/            $12,000,000                                                                                                                                                                                                    $388,742
             Inc., Saint Paul, MN8
                                            Exercised Warrants
             Allied First Bancorp, Inc.,    Preferred Stock w/
4/24/2009                                                             $3,652,000                                                                                                                                                                                                    $359,986
             Oswego, IL2                    Exercised Warrants
             Alpine Banks of Colorado,      Preferred Stock w/
3/27/2009                                                            $70,000,000                                                                                                                                                                                                  $6,231,166
             Glenwood Springs, CO2          Exercised Warrants
             AMB Financial Corp., Munster, Preferred Stock w/
1/30/2009                                                             $3,674,000                                                                                                                                                                                                    $408,864
             IN2                           Exercised Warrants
             AmeriBank Holding Company, Preferred Stock w/
3/6/2009                                                              $2,492,000                                                                                                                                                                                                    $263,776
             Collinsville, OK2          Exercised Warrants
             American Express Company,      Preferred Stock w/
1/9/2009                                                           $3,388,890,000     6/17/2009   $3,388,890,000          —     7/29/2009        R      $340,000,000          $45.20              $54,345.86                                                                     $74,367,308
             New York, NY4                  Warrants
             American Premier Bancorp,      Preferred Stock w/
5/29/2009                                                             $1,800,000      1/26/2011      $1,800,000           —     1/26/2011        R            $90,000                                                                                                               $162,682
             Arcadia, CA2, 4, 7             Exercised Warrants
             American State Bancshares,     Preferred Stock w/
1/9/2009                                                              $6,000,000                                                                                                                                                                                                    $686,700
             Inc., Great Bend, KS2          Exercised Warrants
                                            Preferred Stock w/
11/21/2008 Ameris Bancorp, Moultrie, GA                              $52,000,000                                                                                              $10.16                 $241.46          $11.17       698,554            ($1.01)          OUT        $5,806,667
                                            Warrants
             AmeriServ Financial, Inc,      Preferred Stock w/
12/19/2008                                                           $21,000,000                                                                                               $2.37                   $50.26          $2.40     1,312,500            ($0.03)          OUT        $2,263,333
             Johnstown, PA                  Warrants
                                            Subordinated
             AmFirst Financial Services,
8/21/2009                                   Debentures w/             $5,000,000                                                                                                                                                                                                    $622,260
             Inc., McCook, NE8
                                            Exercised Warrants
             Anchor BanCorp Wisconsin       Preferred Stock w/
1/30/2009                                                           $110,000,000                                                                                               $0.99                   $21.47          $2.23     7,399,103            ($1.24)          OUT                  —
             Inc., Madison, WI              Warrants
             Annapolis Bancorp, Inc.,       Preferred Stock w/
                                                                                                                                                                                                                                                                                    $832,183
1/30/2009    Annapolis, MD                  Warrants                  $8,152,000                                                                                               $4.40                   $17.35          $4.08       299,706             $0.32              IN
           Associated Banc-Corp, Green Preferred Stock w/
                                                                                                                                                                                                                                                                                 $58,625,000
11/21/2008 Bay, WI                     Warrants                     $525,000,000                                                                                              $14.85               $2,572.81          $19.77     3,983,308            ($4.92)          OUT
           Atlantic Bancshares, Inc.,       Preferred Stock w/                                                                                                                                                                                                                      $122,725
12/29/2009 Bluffton, SC2, 10                Exercised Warrants        $2,000,000
             Avenue Financial Holdings, Inc., Preferred Stock w/                                                                                                                                                                                                                    $793,157
2/27/2009    Nashville, TN2                   Exercised Warrants      $7,400,000

                                                                                                                                                                                                                                                                      Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                                    (continued)


                                                                                                Capital          Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                             Investment                Investment    Repayment        Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                            Description                  Amount          Date          Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
              BancIndependent, Inc.,                 Preferred Stock w/                                                                                                                                                                                                                    $2,210,460
3/13/2009     Sheffield, AL2                         Exercised Warrants      $21,100,000
              Bancorp Financial, Inc.,               Preferred Stock w/                                                                                                                                                                                                                    $1,150,559
7/10/2009     Oak Brook, IL2, 10                     Exercised Warrants      $13,669,000
           Bancorp Rhode Island, Inc.,               Preferred Stock w/                                                                                                                                                                                                                      $941,667
12/19/2008 Providence, RI4                           Warrants                $30,000,000      8/05/2009      $30,000,000           —     9/30/2009        R         $1,400,000         $30.87                 $144.72
              BancPlus Corporation, Ridge-           Preferred Stock w/                                                                                                                                                                                                                    $4,207,399
2/20/2009     land, MS2, 4, 7, 30 - 9/29/2010, 30a   Exercised Warrants      $48,000,000      9/29/2010      $48,000,000           —     9/29/2010        R         $2,400,000
                                                     Preferred Stock w/                                                                                                                                                                                                                      $874,907
4/3/2009      BancStar, Inc., Festus, MO2            Exercised Warrants       $8,600,000
           BancTrust Financial Group,                Preferred Stock w/
                                                                                                                                                                                                                                                                                           $5,388,889
12/19/2008 Inc., Mobile, AL                          Warrants                $50,000,000                                                                                                $2.46                   $44.23         $10.26       730,994            ($7.80)          OUT
              Bank Financial Services, Inc.,         Preferred Stock w/                                                                                                                                                                                                                        $82,202
8/14/2009     Eden Prarie, MN2                       Exercised Warrants       $1,004,000
              Bank of America Corporation, Preferred Stock w/
1/9/2009      Charlotte, NC1a, 1b, 4, c    Warrants                       $10,000,000,000    12/09/2009   $10,000,000,000          —     3/03/2010        A      $124,228,646
                                                                                                                                                                                       $13.33             $134,915.00                                                                   $1,293,750,000
           Bank of America Corporation, Preferred Stock w/
10/28/2008 Charlotte, NC1b, 4, c        Warrants                          $15,000,000,000    12/09/2009   $15,000,000,000          —     3/03/2010        A      $186,342,969
              Bank of Commerce, Charlotte, Preferred Stock w/                                                                                                                                                                                                                                $340,171
1/16/2009     NC2                          Exercised Warrants                 $3,000,000
           Bank of Commerce Holdings,                Preferred Stock w/
                                                                                                                                                                                                                                                                                           $1,914,861
11/14/2008 Redding, CA                               Warrants                $17,000,000                                                                                                $4.21                   $71.53          $6.29       405,405            ($2.08)          OUT
              Bank of George, Las Vegas,             Preferred Stock w/                                                                                                                                                                                                                      $279,991
3/13/2009     NV2                                    Exercised Warrants       $2,672,000
              Bank of Marin Bancorp,                 Preferred Stock w/                                                                                                                                                                                                                      $451,111
12/5/2008     Novato, CA4, k                         Warrants                $28,000,000      3/31/2009      $28,000,000           —                                                   $37.32                 $197.83          $27.17       154,610            $10.16              IN
              Bank of the Carolinas                  Preferred Stock w/
                                                                                                                                                                                                                                                                                           $1,039,677
4/17/2009     Corporation, Mocksville, NC            Warrants                $13,179,000                                                                                                $2.28                    $8.88          $4.16       475,204            ($1.88)          OUT
           Bank of the Ozarks, Inc.,                 Preferred Stock w/                                                                                                                                                                                                                    $3,354,167
12/12/2008 Little Rock, AR4                          Warrants                $75,000,000     11/04/2009      $75,000,000           —    11/24/2009        R         $2,650,000         $43.71                 $747.14
              Bankers’ Bank of the West              Preferred Stock w/                                                                                                                                                                                                                      $717,532
1/30/2009     Bancorp, Inc., Denver, CO2             Exercised Warrants      $12,639,000
              BankFirst Capital Corporation, Preferred Stock w/                                                                                                                                                                                                                            $1,741,124
1/23/2009     Macon, MS2                     Exercised Warrants              $15,500,000
              BankGreenville, Greenville,            Preferred Stock w/                                                                                                                                                                                                                      $109,303
2/13/2009     SC2                                    Exercised Warrants       $1,000,000
           Banner Corporation, Walla                 Preferred Stock w/
                                                                                                                                                                                                                                                                                          $13,846,667
11/21/2008 Walla, WA                                 Warrants               $124,000,000                                                                                                $2.36                 $270.04          $10.89     1,707,989            ($8.53)          OUT
              Banner County Ban                      Preferred Stock w/                                                                                                                                                                                                                        $87,784
2/6/2009      Corporation, Harrisburg, NE2           Exercised Warrants         $795,000
              Bar Harbor Bankshares, Bar             Preferred Stock w/                                                                                                                                                                                                                    $1,036,514
1/16/2009     Harbor, ME5, 9                         Warrants                $18,751,000      2/24/2010      $18,751,000           —     7/28/2010        R           $250,000         $30.24                 $115.82
           BB&T Corp., Winston-Salem,                Preferred Stock w/                                                                                                                                                                                                                   $92,703,517
11/14/2008 NC4                                       Warrants              $3,133,640,000     6/17/2009    $3,133,640,000          —     7/22/2009        R        $67,010,402         $27.45              $19,103.58
              BCB Holding Company, Inc.,             Preferred Stock w/                                                                                                                                                                                                                      $173,508
4/3/2009      Theodore, AL2                          Exercised Warrants       $1,706,000
           BCSB Bancorp, Inc.,                       Preferred Stock w/                                                                                                                                                                                                                    $1,129,500
12/23/2008 Baltimore, MD4                            Warrants                $10,800,000      1/26/2011      $10,800,000           —                                                   $13.25                   $42.29          $8.83       183,465             $4.42              IN
              Beach Business Bank,                   Preferred Stock w/
1/30/2009                                                                     $6,000,000                                                                                                                                                                                                     $667,625
              Manhattan Beach, CA2                   Exercised Warrants
              Berkshire Bancorp, Inc.,               Preferred Stock w/
6/12/2009                                                                     $2,892,000                                                                                                                                                                                                     $145,826
              Wyomissing, PA2                        Exercised Warrants
           Berkshire Hills Bancorp, Inc.,            Preferred Stock w/
12/19/2008                                                                   $40,000,000      5/27/2009      $40,000,000           —     6/24/2009        R         $1,040,000         $20.83                 $294.02                                                                        $877,778
           Pittsfield, MA4                           Warrants
              Bern Bancshares, Inc.,                 Preferred Stock w/
2/13/2009                                                                       $985,000                                                                                                                                                                                                     $107,799
              Bern, KS2                              Exercised Warrants
                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I april 28, 2011




                                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                                           231
                                                                                                                                                                                                                                                                                                232
 CPP Transaction Detail, as oF 3/31/2011                                           (continued)


                                                                                       Capital        Capital   Remaining          Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                       Investment             Investment    Repayment      Repayment      Capital    Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                       Description               Amount          Date        Amount6      Amount           Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             Birmingham Bloomfield
                                          Preferred Stock w/
4/24/2009    Bancshares, Inc, Birmingham,                             $1,635,000
                                          Exercised Warrants
             MI2, c
                                                                                                                                                                                                                                                                                  $262,184
           Birmingham Bloomfield
12/18/2009 Bancshares, Inc, Birmingham, Preferred Stock               $1,744,000
           MI2, 10a, c
                                               Subordinated
             Biscayne Bancshares, Inc.,
6/19/2009                                      Debentures w/          $6,400,000                                                                                                                                                                                                  $865,081
             Coconut Grove, FL8, 10
                                               Exercised Warrants
             Blackhawk Bancorp, Inc.,          Preferred Stock w/
3/13/2009                                                            $10,000,000                                                                                                                                                                                                $1,047,611
             Beloit, WI2                       Exercised Warrants
             Blackridge Financial, Inc.,       Preferred Stock w/
5/22/2009                                                             $5,000,000                                                                                                                                                                                                  $471,576
             Fargo, ND2                        Exercised Warrants
             Blue Ridge Bancshares, Inc.,      Preferred Stock w/
3/6/2009                                                             $12,000,000                                                                                                                                                                                                  $942,850
             Independence, MO2                 Exercised Warrants
             Blue River Bancshares, Inc.,      Preferred Stock w/
3/6/2009                                                              $5,000,000                                                                                                                                                                                                  $529,105
             Shelbyville, IN2                  Exercised Warrants
             Blue Valley Ban Corp,             Preferred Stock w/
12/5/2008                                                            $21,750,000                                                                                             $7.50                   $21.32         $29.37       111,083           ($21.87)          OUT          $211,458
             Overland Park, KS                 Warrants
             BNB Financial Services            Preferred Stock w/
4/17/2009                                                             $7,500,000                                                                                                                                                                                                  $440,542
                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I april 28, 2011




             Corporation, New York, NY2        Exercised Warrants
             BNC Bancorp, Thomasville,         Preferred Stock w/
12/5/2008                                                            $31,260,000                                                                                             $8.14                   $73.75          $8.63       543,337            ($0.49)          OUT        $3,429,917
             NC                                Warrants
             BNC Financial Group, Inc.,        Preferred Stock w/
2/27/2009                                                             $4,797,000                                                                                                                                                                                                  $514,185
             New Canaan, CT2                   Exercised Warrants
             BNCCORP, Inc., Bismarck,          Preferred Stock w/
1/16/2009                                                            $20,093,000                                                                                                                                                                                                  $909,542
             ND2                               Exercised Warrants
             BOH Holdings, Inc., Houston,      Preferred Stock w/
3/6/2009                                                             $10,000,000                                                                                                                                                                                                $1,058,208
             TX2                               Exercised Warrants
                                               Subordinated
             Boscobel Bancorp, Inc,
5/15/2009                                      Debentures w/          $5,586,000                                                                                                                                                                                                  $468,624
             Boscobel, WI8
                                               Exercised Warrants
                                               Preferred Stock w/                    1/13/2010    $50,000,000 $104,000,000
             Boston Private Financial          Warrants
11/21/2008                                                          $154,000,000                                              2/1/2011         A         $6,352,500          $7.07                 $540.21                                                                     $11,022,222
             Holdings, Inc., Boston, MA4       Preferred Stock w/
                                                                                     6/16/2010   $104,000,000           —
                                               Warrants

                                                                                     2/23/2011    $15,000,000   $8,864,000
             Bridge Capital Holdings,          Preferred Stock w/
12/23/2008                                                           $23,864,000                                                                                             $9.34                 $136.99                                                                      $2,613,582
             San Jose, CA4                     Warrants
                                                                                     3/16/2011     $8,864,000           —

             Bridgeview Bancorp, Inc.,         Preferred Stock w/
12/19/2008                                                           $38,000,000                                                                                                                                                                                                $2,393,156
             Bridgeview, IL2                   Exercised Warrants
           Broadway Financial
11/14/2008 Corporation, Los Angeles, CA3a Preferred Stock             $9,000,000
             - 11/24/2009, c
                                                                                                                                                                             $2.35                    $4.10                                                                       $810,417
             Broadway Financial
12/4/2009    Corporation, Los Angeles,         Preferred Stock        $6,000,000
             CA3, 10a, c
                                               Subordinated
             Brogan Bankshares, Inc.,
5/15/2009                                      Debentures w/          $2,400,000                                                                                                                                                                                                  $352,380
             Kaukauna, WI8
                                               Exercised Warrants
             Brotherhood Bancshares, Inc., Preferred Stock w/
7/17/2009                                                            $11,000,000                                                                                                                                                                                                  $945,878
             Kansas City, KS2              Exercised Warrants
             Business Bancshares, Inc.,        Preferred Stock w/
4/24/2009                                                            $15,000,000                                                                                                                                                                                                $1,478,313
             Clayton, MO2                      Exercised Warrants

                                           2   Preferred Stock w/
3/13/2009    Butler Point, Inc., Catlin, IL                            $607,000                                                                                                                                                                                                     $63,530
                                               Exercised Warrants
             C&F Financial Corporation,        Preferred Stock w/
1/9/2009                                                             $20,000,000                                                                                            $22.98                   $71.82         $17.91       167,504             $5.07              IN      $2,100,000
             West Point, VA                    Warrants
             Cache Valley Banking
12/18/2009                                     Preferred Stock        $4,640,000
             Company, Logan, UT2, 10a
                                                                                                                                                                                                                                                                                  $825,796
           Cache Valley Banking                Preferred Stock w/
12/23/2008                                                            $4,767,000
           Company, Logan, UT2                 Exercised Warrants

                                                                                                                                                                                                                                                                    Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                            (continued)


                                                                                        Capital         Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                      Investment               Investment    Repayment       Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                     Description                 Amount          Date         Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
              Cadence Financial Corpor-       Preferred Stock w/
1/9/2009                                                             $44,000,000       3/4/2011     $38,000,000           —                                         —                                                                                                             $3,984,063
              ation, Starkville, MS33, m      Warrants
              California Bank of Commerce, Preferred Stock w/
2/27/2009                                                             $4,000,000                                                                                                                                                                                                    $428,733
              Lafayette, CA2               Exercised Warrants
              California Oaks State Bank,     Preferred Stock w/
1/23/2009                                                             $3,300,000      12/8/2010      $3,300,000           —     12/8/2010        R           $165,000                                                                                                               $337,219
              Thousand Oaks, CA2, 4, 7        Exercised Warrants
              Calvert Financial Corporation, Preferred Stock w/
1/23/2009                                                             $1,037,000                                                                                                                                                                                                    $116,515
              Ashland, MO2                   Exercised Warrants
              CalWest Bancorp, Rancho         Preferred Stock w/
1/23/2009                                                             $4,656,000                                                                                                                                                                                                    $396,164
              Santa Margarita, CA2            Exercised Warrants
           Capital Bancorp, Inc.,             Preferred Stock w/
12/23/2008                                                            $4,700,000     12/30/2010      $4,700,000           —    12/30/2010        R           $235,000                                                                                                               $517,281
           Rockville, MD2, 4, 7               Exercised Warrants
           Capital Bank Corporation,          Preferred Stock w/
12/12/2008                                                           $41,279,000      1/28/2011     $41,279,000           —                     —                              $3.80                 $324.87           $8.26       749,619            ($4.46)          OUT        $3,973,104
           Raleigh, NC35                      Warrants
              Capital Commerce Bancorp,       Preferred Stock w/
4/10/2009                                                             $5,100,000                                                                                                                                                                                                    $304,973
              Inc., Milwaukee, WI2            Exercised Warrants
           Capital One Financial              Preferred Stock w/
11/14/2008                                                         $3,555,199,000     6/17/2009   $3,555,199,000          —     12/3/2009        A      $148,731,030          $51.96              $23,832.18                                                                    $105,174,638
           Corporation, McLean, VA4           Warrants
           Capital Pacific Bancorp,           Preferred Stock w/
12/23/2008                                                            $4,000,000                                                                                                                                                                                                    $467,489
           Portland, OR2                      Exercised Warrants
                                              Subordinated
              Cardinal Bancorp II, Inc.,
10/23/2009                                    Debentures w/           $6,251,000                                                                                                                                                                                                    $687,708
              Washington, MO8
                                              Exercised Warrants
              Carolina Bank Holdings, Inc.,   Preferred Stock w/
1/9/2009                                                             $16,000,000                                                                                               $3.85                   $13.04          $6.71       357,675            ($2.86)          OUT        $1,480,000
              Greensboro, NC                  Warrants
              Carolina Trust Bank,            Preferred Stock w/
2/6/2009                                                              $4,000,000                                                                                               $3.19                    $8.08          $6.90        86,957            ($3.71)          OUT          $405,000
              Lincolnton, NC                  Warrants
              Carrollton Bancorp,             Preferred Stock w/
2/13/2009                                                             $9,201,000                                                                                               $4.50                   $11.58          $6.72       205,379            ($2.22)          OUT          $922,656
              Baltimore, MD                   Warrants
              Carver Bancorp, Inc, New
1/16/2009                                     Preferred Stock        $18,980,000      8/27/2010     $18,980,000           —                     —                                                                                                                                 $1,531,581
              York, NY3, 4, 30 - 8/27/2010
              Cascade Financial Corporation, Preferred Stock w/
11/21/2008                                                           $38,970,000                                                                                               $0.42                    $5.15          $6.77       863,442            ($6.35)          OUT        $1,428,900
              Everett, WA                    Warrants
              Cathay General Bancorp, Los     Preferred Stock w/
12/5/2008                                                           $258,000,000                                                                                              $17.05               $1,340.45          $20.96     1,846,374            ($3.91)          OUT       $28,308,333
              Angeles, CA                     Warrants
              Catskill Hudson Bancorp, Inc, Preferred Stock w/
2/27/2009                                                             $3,000,000
              Rock Hill, NY2, c             Exercised Warrants
                                                                                                                                                                                                                                                                                    $533,981
              Catskill Hudson Bancorp, Inc, Preferred Stock w/
12/22/2009                                                            $3,500,000
              Rock Hill, NY2, 10a, c        Exercised Warrants
                                              Preferred Stock w/
5/29/2009     CB Holding Corp., Aledo, IL2                            $4,114,000                                                                                                                                                                                                    $271,580
                                              Exercised Warrants
              CBB Bancorp, Cartersville,      Preferred Stock w/
2/20/2009                                                             $2,644,000
              GA2, c                          Exercised Warrants
                                                                                                                                                                                                                                                                                    $385,009
           CBB Bancorp, Cartersville,
12/29/2009                                    Preferred Stock         $1,753,000
           GA2, 10a, c
              CBS Banc-Corp., Russellville,   Preferred Stock w/
3/27/2009                                                            $24,300,000                                                                                                                                                                                                  $1,500,930
              AL2                             Exercised Warrants
           Cecil Bancorp, Inc., Elkton,       Preferred Stock w/
12/23/2008                                                           $11,560,000                                                                                               $2.59                    $9.58          $6.63       261,538            ($4.04)          OUT          $516,989
           MD                                 Warrants
              CedarStone Bank, Lebanon,       Preferred Stock w/
2/6/2009                                                              $3,564,000                                                                                                                                                                                                    $393,296
              TN2                             Exercised Warrants
              Center Bancorp, Inc., Union,    Preferred Stock w/
1/9/2009                                                             $10,000,000                                                                                               $9.59                 $156.23           $8.65        86,705             $0.94              IN      $1,050,000
              NJ                              Warrants
              Center Financial Corporation,   Preferred Stock w/
12/12/2008                                                           $55,000,000                                                                                               $7.34                 $292.82           $9.54       432,390            ($2.20)          OUT        $5,981,250
              Los Angeles, CAb                Warrants
                                              Preferred Stock w/
5/1/2009      CenterBank, Milford, OH2, b                             $2,250,000                                                                                                                                                                                                    $219,443
                                              Exercised Warrants
                                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I april 28, 2011




           Centerstate Banks of Florida       Preferred Stock w/
11/21/2008                                                           $27,875,000      9/30/2009     $27,875,000           —    10/28/2009        R           $212,000          $7.00                 $210.19                                                                      $1,196,303
           Inc., Davenport, FL5, 9            Warrants

                                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                                  233
                                                                                                                                                                                                                                                                                                         234
 CPP Transaction Detail, as oF 3/31/2011                                                 (continued)


                                                                                             Capital          Capital    Remaining          Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                     Investment                     Investment    Repayment        Repayment       Capital    Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                     Description                       Amount          Date          Amount6       Amount           Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             Centra Financial Holdings,      Preferred Stock w/
1/16/2009                                                                 $15,000,000      3/31/2009      $15,000,000            —    4/15/2009         R           $750,000                                                                                                               $172,938
             Inc., Morgantown, WV2, 4, 7     Exercised Warrants
             Central Bancorp, Inc.,          Preferred Stock w/
2/27/2009                                                                 $22,500,000                                                                                                                                                                                                    $2,411,625
             Garland, TX2                    Exercised Warrants
             Central Bancorp, Inc.,          Preferred Stock w/
12/5/2008                                                                 $10,000,000                                                                                                                                                                                                    $1,097,222
             Somerville, MA                  Warrants
             Central Bancshares,             Preferred Stock w/
1/30/2009                                                                   $5,800,000                                                                                                                                                                                                     $645,371
             Inc., Houston, TX2              Exercised Warrants
             Central Community               Preferred Stock w/
2/20/2009                                                                 $22,000,000                                                                                                                                                                                                    $2,381,347
             Corporation, Temple, TX2        Exercised Warrants
             Central Federal Corporation,    Preferred Stock w/
12/5/2008                                                                   $7,225,000                                                                                                $1.30                    $5.37          $3.22       336,568            ($1.92)          OUT          $612,118
             Fairlawn, OH                    Warrants
             Central Jersey Bancorp,         Preferred Stock w/
12/23/2008                                                                $11,300,000     11/24/2010      $11,300,000            —    12/1/2010         R           $319,659                                                                                                             $1,084,486
             Oakhurst, NJ4                   Warrants
             Central Pacific Financial       Common Stock w/
1/9/2009                                                                 $135,000,000                                                                                                $20.80                 $824.70          $10.00        79,288            $10.80              IN      $2,362,500
             Corp., Honolulu, HI37, l        Warrants
             Central Valley Community        Preferred Stock w/
1/30/2009                                                                  $7,000,000                                                                                                 $6.15                  $58.37           $6.64        79,067            ($0.49)          OUT          $714,583
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I april 28, 2011




             Bancorp, Fresno, CA             Warrants
             Central Virginia Bankshares,    Preferred Stock w/
1/30/2009                                                                 $11,385,000                                                                                                 $1.55                    $4.07          $6.48       263,542            ($4.93)          OUT          $450,656
             Inc., Powhatan, VA              Warrants
             Centric Financial Corporation, Preferred Stock w/
12/18/2009                                                                  $6,056,000                                                                                                                                                                                                     $369,717
             Harrisburg, PA2, 10            Exercised Warrants
             Centrix Bank & Trust, Bedford, Preferred Stock w/
2/6/2009                                                                    $7,500,000                                                                                                                                                                                                     $827,719
             NH2                            Exercised Warrants
             Centrue Financial Corporation, Preferred Stock w/
1/9/2009                                                                  $32,668,000                                                                                                 $0.50                    $3.02          $9.64       508,320            ($9.14)          OUT          $571,690
             St. Louis, MO                  Warrants
                                             Subordinated
             Century Financial Services
6/19/2009                                    Debentures w/                $10,000,000                                                                                                                                                                                                    $1,389,011
             Corporation, Santa Fe, NM8
                                             Exercised Warrants
                                             Subordinated
             Chambers Bancshares, Inc.,
5/29/2009                                    Debentures w/                $19,817,000                                                                                                                                                                                                    $2,845,008
             Danville, AR8
                                             Exercised Warrants
             Chicago Shore Corporation,      Preferred Stock w/
7/31/2009                                                                   $7,000,000                                                                                                                                                                                                     $588,146
             Chicago, IL2                    Exercised Warrants
           CIT Group Inc., New York,
12/31/2008                                   Contingent Value Rights    $2,330,000,000      2/8/2010                —            —                                                   $42.55               $8,530.23                                                                     $43,687,500
           NY16
           Citigroup Inc., New York,         Common Stock w/
10/28/2008                                                             $25,000,000,000                 $25,000,000,000           —    1/25/2011         A        $54,621,849          $4.42             $128,704.10                                                                    $932,291,667
           NY11, 23 - 5/26/2010              Warrants
             Citizens & Northern             Preferred Stock w/
1/16/2009                                                                 $26,440,000       8/4/2010      $26,440,000            —     9/1/2010         R           $400,000         $16.81                 $204.76                                                                      $2,049,100
             Corporation, Wellsboro, PA4     Warrants
           Citizens Bancorp, Nevada          Preferred Stock w/
12/23/2008                                                                $10,400,000                                                                                                                                                                                                      $223,571
           City, CA2                         Exercised Warrants
             Citizens Bancshares Co.,        Preferred Stock w/
5/29/2009                                                                 $24,990,000                                                                                                                                                                                                      $628,033
             Chillicothe, MO2                Exercised Warrants
             Citizens Bancshares
3/6/2009     Corporation, Atlanta, GA3, 4,   Preferred Stock                $7,462,000     8/13/2010        $7,462,000           —                     —                                                                                                                                   $535,813
             30 - 8/13/2010


             Citizens Bank & Trust           Preferred Stock w/
3/20/2009                                                                   $2,400,000                                                                                                                                                                                                       $85,383
             Company, Covington, LA2         Exercised Warrants
             Citizens Commerce
                                             Preferred Stock w/
2/6/2009     Bancshares, Inc.,                                              $6,300,000                                                                                                                                                                                                     $180,259
                                             Exercised Warrants
             Versailles, KY2
             Citizens Community Bank,        Preferred Stock w/
12/23/2008                                                                  $3,000,000                                                                                                                                                                                                     $350,617
             South Hill, VA2                 Exercised Warrants
           Citizens First Corporation,       Preferred Stock w/
12/19/2008                                                                  $8,779,000     2/16/2011        $2,212,308   $6,566,692                                                   $8.27                   $16.28          $5.18       254,218             $3.09              IN        $946,489
           Bowling Green, KY4                Warrants
             Citizens Republic Bancorp,      Preferred Stock w/
12/12/2008                                                               $300,000,000                                                                                                 $0.89                 $353.41           $2.56    17,578,125            ($1.67)          OUT       $13,875,000
             Inc., Flint, MI                 Warrants
             Citizens South Banking          Preferred Stock w/
12/12/2008                                                                $20,500,000                                                                                                 $4.45                  $51.22           $7.17       450,314            ($2.72)          OUT        $2,229,375
             Corporation, Gastonia, NCg      Warrants

                                                                                                                                                                                                                                                                             Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                             (continued)


                                                                                         Capital         Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                       Investment               Investment    Repayment       Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                       Description                 Amount          Date         Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             City National Bancshares
4/10/2009                                      Preferred Stock         $9,439,000                                                                                                                                                                                                    $281,859
             Corporation, Newark, NJ2, 3

                                                                                      12/30/2009    $200,000,000 $200,000,000
             City National Corporation,        Preferred Stock w/
11/21/2008                                                           $400,000,000                                                                          $18,500,000         $57.05               $3,031.47                                                                     $23,916,667
             Beverly Hills, CA4                Warrants
                                                                                        3/3/2010    $200,000,000           —

             Clover Community                  Preferred Stock w/
3/27/2009                                                              $3,000,000                                                                                                                                                                                                    $267,050
             Bankshares, Inc., Clover, SC2     Exercised Warrants
             Coastal Banking Company,          Preferred Stock w/
12/5/2008                                                              $9,950,000                                                                                               $1.65                    $4.27          $7.26       205,579            ($5.61)          OUT          $967,361
             Inc., Fernandina Beach, FL        Warrants
             CoastalSouth Bancshares,          Preferred Stock w/
8/28/2009                                                             $16,015,000                                                                                                                                                                                                  $1,235,449
             Inc., Hilton Head Island, SC2, 10 Exercised Warrants
           CoBiz Financial Inc., Denver,       Preferred Stock w/
12/19/2008                                                            $64,450,000                                                                                               $6.95                 $256.30          $10.79       895,968            ($3.84)          OUT        $6,946,278
           CO                                  Warrants
             Codorus Valley Bancorp,           Preferred Stock w/
1/9/2009                                                              $16,500,000                                                                                              $10.83                   $44.87          $9.38       263,859             $1.45              IN      $1,732,500
             Inc., York, PA                    Warrants
             ColoEast Bankshares, Inc.,        Preferred Stock w/
2/13/2009                                                             $10,000,000                                                                                                                                                                                                  $1,093,028
             Lamar, CO2                        Exercised Warrants
             Colonial American Bank,           Preferred Stock w/
3/27/2009                                                                $574,000                                                                                                                                                                                                      $43,313
             West Conshohocken, PA2            Exercised Warrants
             Colony Bankcorp, Inc.,            Preferred Stock w/
1/9/2009                                                              $28,000,000                                                                                               $4.15                   $35.04          $8.40       500,000            ($4.25)          OUT        $2,940,000
             Fitzgerald, GA                    Warrants
             Columbia Banking System,          Preferred Stock w/
11/21/2008                                                            $76,898,000      8/11/2010     $76,898,000           —     9/1/2010         R         $3,301,647         $19.17                 $756.75                                                                      $6,621,772
             Inc., Tacoma, WA4, 9              Warrants
             Columbine Capital Corp.,          Preferred Stock w/
2/27/2009                                                              $2,260,000                                                                                                                                                                                                    $242,235
             Buena Vista, CO2                  Exercised Warrants
                                               Preferred Stock w/
11/14/2008 Comerica Inc., Dallas, TX4                               $2,250,000,000     3/17/2010   $2,250,000,000          —     5/6/2010         A      $183,673,472          $36.72               $6,503.33                                                                    $150,937,500
                                               Warrants
             Commerce National Bank,           Preferred Stock w/
1/9/2009                                                               $5,000,000      10/7/2009      $5,000,000           —                                                    $9.20                   $24.10          $8.60        87,209             $0.60              IN          $36,111
             Newport Beach, CA4                Warrants
                                               Subordinated
             Commonwealth Bancshares,
5/22/2009                                      Debentures w/          $20,400,000                                                                                                                                                                                                  $2,961,955
             Inc., Louisville, KY8
                                               Exercised Warrants
             Commonwealth Business             Preferred Stock w/
1/23/2009                                                              $7,701,000                                                                                                                                                                                                    $340,423
             Bank, Los Angeles, CA2            Exercised Warrants
             Community 1st Bank,               Preferred Stock w/
1/16/2009                                                              $2,550,000                                                                                                                                                                                                    $139,020
             Roseville, CA2                    Exercised Warrants
             Community Bancshares of           Preferred Stock w/
3/6/2009                                                                 $500,000                                                                                                                                                                                                      $52,911
             Kansas, Inc., Goff, KS2           Exercised Warrants
             Community Bancshares of
                                               Preferred Stock w/
9/11/2009    Mississippi, Inc., Brandon,                              $52,000,000      9/29/2010     $52,000,000           —    9/29/2010         R         $2,600,000                                                                                                             $2,975,700
                                               Exercised Warrants
             MS2, 4, 7, 30 - 9/29/2010, 30a
             Community Bancshares,             Preferred Stock w/
7/24/2009                                                              $3,872,000                                                                                                                                                                                                    $317,962
             Inc., Kingman, AZ2, 10            Exercised Warrants
             Community Bank of the Bay,
1/16/2009                                      Preferred Stock         $1,747,000      9/29/2010      $1,747,000           —                     —                                                                                                                                     $76,189
             Oakland, CA3, 4, 30 - 9/29/2010
             Community Bank Shares of          Preferred Stock w/
5/29/2009                                                             $19,468,000                                                                                              $11.00                   $36.42          $7.56       386,270             $3.44              IN      $1,665,595
             Indiana, Inc., New Albany, IN     Warrants
             Community Bankers Trust           Preferred Stock w/
12/19/2008                                                            $17,680,000                                                                                               $1.16                   $24.91          $3.40       780,000            ($2.24)          OUT        $1,242,511
             Corporation, Glen Allen, VA       Warrants
             Community Business Bank,          Preferred Stock w/
2/27/2009                                                              $3,976,000                                                                                                                                                                                                    $426,196
             West Sacramento, CA2              Exercised Warrants
           Community Financial                 Preferred Stock w/
12/19/2008                                                            $12,643,000                                                                                               $3.14                   $13.70          $5.40       351,194            ($2.26)          OUT        $1,362,635
           Corporation, Staunton, VA           Warrants
             Community Financial Shares,       Preferred Stock w/
5/15/2009                                                              $6,970,000                                                                                                                                                                                                    $569,865
             Inc., Glen Ellyn, IL2             Exercised Warrants
             Community First Bancshares        Preferred Stock w/
3/20/2009                                                             $20,000,000                                                                                                                                                                                                  $2,074,028
             Inc., Union City, TN2             Exercised Warrants
             Community First Bancshares,       Preferred Stock w/
                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I april 28, 2011




4/3/2009                                                              $12,725,000                                                                                                                                                                                                  $1,294,515
             Inc., Harrison, AR2               Exercised Warrants

                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                   235
                                                                                                                                                                                                                                                                                                    236
 CPP Transaction Detail, as oF 3/31/2011                                              (continued)


                                                                                          Capital         Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                        Investment               Investment    Repayment       Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                        Description                 Amount          Date         Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             Community First Inc.,              Preferred Stock w/
2/27/2009                                                              $17,806,000                                                                                                                                                                                                  $1,908,453
             Columbia, TN2                      Exercised Warrants
             Community Holding Company
                                       Preferred Stock w/
2/6/2009     of Florida, Inc., Miramar                                  $1,050,000                                                                                                                                                                                                    $115,426
                                       Exercised Warrants
             Beach, FL2
             Community Investors                Preferred Stock w/
12/23/2008                                                              $2,600,000                                                                                                                                                                                                    $303,868
             Bancorp, Inc., Bucyrus, OH2        Exercised Warrants
             Community Partners Bancorp, Preferred Stock w/
1/30/2009                                                               $9,000,000                                                                                               $4.97                  $37.88           $4.33       311,972             $0.64              IN        $918,750
             Middletown, NJg             Warrants
           Community Pride Bank                 Subordinated
11/13/2009 Corporation, Ham Lake,               Debentures w/           $4,400,000                                                                                                                                                                                                    $448,253
           MN8, 10                              Exercised Warrants
             Community Trust Financial          Preferred Stock w/
1/9/2009                                                               $24,000,000                                                                                                                                                                                                  $2,746,800
             Corporation, Ruston, LA2           Exercised Warrants
           Community West                       Preferred Stock w/
12/19/2008                                                             $15,600,000                                                                                               $4.67                   $27.90          $4.49       521,158             $0.18              IN      $1,681,333
           Bancshares, Goleta, CA               Warrants
             Congaree Bancshares,               Preferred Stock w/
1/9/2009                                                                $3,285,000                                                                                                                                                                                                    $152,159
             Inc., Cayce, SC2                   Exercised Warrants
             Corning Savings and Loan           Preferred Stock w/
2/13/2009                                                                 $638,000                                                                                                                                                                                                      $69,753
             Association, Corning, AR2          Exercised Warrants
                                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I april 28, 2011




             Country Bank Shares,               Preferred Stock w/
1/30/2009                                                               $7,525,000                                                                                                                                                                                                    $837,268
             Inc., Milford, NE2                 Exercised Warrants
             Covenant Financial                 Preferred Stock w/
6/5/2009                                                                $5,000,000                                                                                                                                                                                                    $257,361
             Corporation, Clarksdale, MS2       Exercised Warrants
             Crazy Woman Creek                  Preferred Stock w/
2/20/2009                                                               $3,100,000                                                                                                                                                                                                    $335,553
             Bancorp, Inc., Buffalo, WY2        Exercised Warrants
             Crescent Financial                 Preferred Stock w/
1/9/2009                                                               $24,900,000                                                                                               $4.05                   $39.14          $4.48       833,705            ($0.43)          OUT        $2,303,250
             Corporation, Cary, NC              Warrants
             Crosstown Holding Company, Preferred Stock w/
1/23/2009                                                              $10,650,000                                                                                                                                                                                                  $1,196,414
             Blaine, MN2                Exercised Warrants

                                            2   Preferred Stock w/
3/27/2009    CSRA Bank Corp., Wrens, GA                                 $2,400,000                                                                                                                                                                                                    $180,940
                                                Exercised Warrants

                                                                                        8/26/2009     $97,500,000 $32,500,000
             CVB Financial Corp, Ontario,       Preferred Stock w/
12/5/2008                                                             $130,000,000                                               10/28/2009        R         $1,307,000          $9.31                 $987.58                                                                      $4,739,583
             CA4, 9                             Warrants
                                                                                         9/2/2009     $32,500,000           —

             D.L. Evans Bancorp, Burley,        Preferred Stock w/
2/27/2009                                                              $19,891,000                                                                                                                                                                                                  $2,132,064
             ID2                                Exercised Warrants
                                                Subordinated
             Deerfield Financial
5/15/2009                                       Debentures w/           $2,639,000                                                                                                                                                                                                    $387,483
             Corporation, Deerfield, WI8
                                                Exercised Warrants
                                                Preferred Stock w/
12/4/2009    Delmar Bancorp, Delmar, MD2                                $9,000,000                                                                                                                                                                                                    $587,238
                                                Exercised Warrants
             DeSoto County Bank, Horn           Preferred Stock w/
2/13/2009                                                               $1,173,000
             Lake, MS2, c                       Exercised Warrants
                                                                                                                                                                                                                                                                                      $213,309
           DeSoto County Bank, Horn
12/29/2009                                      Preferred Stock         $1,508,000
           Lake, MS2, 10a, c
                                                Subordinated
             Diamond Bancorp, Inc.,
5/22/2009                                       Debentures w/          $20,445,000                                                                                                                                                                                                  $2,968,429
             Washington, MO8
                                                Exercised Warrants
             Dickinson Financial
                                                Preferred Stock w/
1/16/2009    Corporation II, Kansas City,                             $146,053,000                                                                                                                                                                                                  $2,631,197
                                                Exercised Warrants
             MO2
             Discover Financial Services,       Preferred Stock w/
3/13/2009                                                            $1,224,558,000     4/21/2010   $1,224,558,000          —      7/7/2010        R      $172,000,000          $24.12              $13,145.40                                                                     $67,690,844
             Riverwoods, IL4                    Warrants
             DNB Financial Corporation,         Preferred Stock w/
1/30/2009                                                              $11,750,000                                                                                               $9.70                  $25.86           $9.46       186,311             $0.24              IN      $1,199,479
             Downingtown, PA                    Warrants
                                                Subordinated
             Duke Financial Group, Inc.,
6/19/2009                                       Debentures w/          $12,000,000                                                                                                                                                                                                    $408,316
             Minneapolis, MN8
                                                Exercised Warrants
             Eagle Bancorp, Inc.,               Preferred Stock w/
12/5/2008                                                              $38,235,000     12/23/2009     $15,000,000 $23,235,000                                                   $14.05                 $277.18           $7.44       385,434             $6.61              IN      $3,336,896
             Bethesda, MD5, b                   Warrants
             East West Bancorp,                 Preferred Stock w/
12/5/2008                                                             $306,546,000     12/29/2010    $306,546,000           —     1/26/2011        R        $14,500,000         $21.96               $3,263.17          $15.15     1,517,555             $6.81              IN     $31,676,420
             Pasadena, CA4, 9                   Warrants

                                                                                                                                                                                                                                                                        Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                           (continued)


                                                                                       Capital        Capital   Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                       Investment             Investment    Repayment      Repayment      Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                      Description               Amount          Date        Amount6      Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
              Eastern Virginia Bankshares,     Preferred Stock w/
1/9/2009                                                             $24,000,000                                                                                            $3.60                  $21.52           $9.63       373,832            ($6.03)          OUT        $2,220,000
              Inc., Tappahannock, VA           Warrants
              ECB Bancorp, Inc.,               Preferred Stock w/
1/16/2009                                                            $17,949,000                                                                                           $12.20                  $34.77          $18.57       144,984            ($6.37)          OUT        $1,867,195
              Engelhard, NC                    Warrants
              Emclaire Financial Corp.,        Preferred Stock w/
12/23/2008                                                            $7,500,000                                                                                           $17.25                  $25.13          $22.45        50,111            ($5.20)          OUT          $804,167
              Emlenton, PA                     Warrants
              Encore Bancshares Inc.,          Preferred Stock w/
12/5/2008                                                            $34,000,000                                                                                           $12.14                 $139.61          $14.01       364,026            ($1.87)          OUT        $3,730,556
              Houston, TX                      Warrants
              Enterprise Financial Services    Preferred Stock w/
12/19/2008                                                           $35,000,000                                                                                           $14.07                 $210.04          $16.20       324,074            ($2.13)          OUT        $3,772,222
              Corp., St. Louis, MO             Warrants
              Enterprise Financial Services    Preferred Stock w/
6/12/2009                                                             $4,000,000                                                                                                                                                                                                 $365,150
              Group, Inc., Allison Park, PA2   Exercised Warrants
              Equity Bancshares, Inc.,         Preferred Stock w/
1/30/2009                                                             $8,750,000                                                                                                                                                                                                 $973,712
              Wichita, KS2                     Exercised Warrants
           Exchange Bank, Santa                Preferred Stock w/
12/19/2008                                                           $43,000,000                                                                                                                                                                                               $4,465,669
           Rosa, CA2                           Exercised Warrants
                                               Subordinated
              F & C Bancorp, Inc., Holden,
5/22/2009                                      Debentures w/          $2,993,000                                                                                                                                                                                                 $434,649
              MO8, c
                                               Exercised Warrants
              F & M Bancshares, Inc.,          Preferred Stock w/
1/30/2009                                                             $4,609,000
              Trezevant, TN2, c                Exercised Warrants
                                                                                                                                                                                                                                                                                 $738,121
              F & M Bancshares, Inc.,
11/6/2009                                      Preferred Stock        $3,535,000
              Trezevant, TN2, 10a
              F & M Financial Corporation,     Preferred Stock w/
2/6/2009                                                             $17,000,000                                                                                                                                                                                               $1,876,163
              Salisbury, NC2                   Exercised Warrants
              F&M Financial Corporation,       Preferred Stock w/
2/13/2009                                                            $17,243,000                                                                                                                                                                                               $1,884,681
              Clarksville, TN2                 Exercised Warrants
              F.N.B. Corporation,              Preferred Stock w/
1/9/2009                                                            $100,000,000     9/9/2009    $100,000,000          —                                                   $10.54               $1,265.00          $11.52       651,042            ($0.98)          OUT        $3,333,333
              Hermitage, PA4, b                Warrants
              Farmers & Merchants
                                               Preferred Stock w/
3/6/2009      Bancshares, Inc., Houston,                             $11,000,000                                                                                                                                                                                               $1,164,030
                                               Exercised Warrants
              TX2
              Farmers & Merchants
                                               Preferred Stock w/
3/20/2009     Financial Corporation,                                   $442,000                                                                                                                                                                                                    $45,819
                                               Exercised Warrants
              Argonia, KS2
                                               Preferred Stock w/
1/23/2009     Farmers Bank, Windsor, VA2                              $8,752,000                                                                                                                                                                                                 $983,191
                                               Exercised Warrants
              Farmers Capital Bank             Preferred Stock w/
1/9/2009                                                             $30,000,000                                                                                            $7.51                   $55.66         $20.09       223,992           ($12.58)          OUT        $3,150,000
              Corporation, Frankfort, KY       Warrants
                                               Subordinated
              Farmers Enterprises,
6/19/2009                                      Debentures w/         $12,000,000                                                                                                                                                                                               $1,666,816
              Inc., Great Bend, KS8
                                               Exercised Warrants
              Farmers State Bankshares,        Preferred Stock w/
3/20/2009                                                              $700,000                                                                                                                                                                                                    $73,447
              Inc., Holton, KS2                Exercised Warrants
                                               Subordinated
              FBHC Holding Company,
12/29/2009                                     Debentures w/          $3,035,000     3/9/2011       $650,000           —                                                                                                                                                         $154,592
              Boulder, CO8, 10, 38
                                               Exercised Warrants
              FC Holdings, Inc., Houston,      Preferred Stock w/
6/26/2009                                                            $21,042,000                                                                                                                                                                                                 $156,090
              TX2                              Exercised Warrants
              FCB Bancorp, Inc., Louisville,   Preferred Stock w/
12/19/2008                                                            $9,294,000                                                                                                                                                                                               $1,091,897
              KY2                              Exercised Warrants
                                               Preferred Stock w/
12/19/2008 FFW Corporation, Wabash, IN2                               $7,289,000                                                                                                                                                                                                 $856,209
                                               Exercised Warrants
                                               Subordinated
              Fidelity Bancorp, Inc, Baton
5/29/2009                                      Debentures w/          $3,942,000                                                                                                                                                                                                 $565,900
              Rouge, LA8
                                               Exercised Warrants
           Fidelity Bancorp, Inc.,             Preferred Stock w/
12/12/2008                                                            $7,000,000                                                                                            $9.10                   $27.86          $8.65       121,387             $0.45              IN        $761,250
           Pittsburgh, PA                      Warrants
           Fidelity Federal Bancorp,           Preferred Stock w/
11/13/2009                                                            $6,657,000                                                                                                                                                                                                         —
           Evansville, IN2, 10                 Exercised Warrants
           Fidelity Financial Corporation, Preferred Stock w/
12/19/2008                                                           $36,282,000                                                                                                                                                                                               $4,262,309
                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I april 28, 2011




           Wichita, KS2                    Exercised Warrants
           Fidelity Southern Corporation, Preferred Stock w/
12/19/2008                                                           $48,200,000                                                                                            $8.00                  $86.21           $3.05     2,370,512             $4.95              IN      $5,194,889
           Atlanta, GAg                   Warrants

                                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                                               237
 CPP Transaction Detail, as oF 3/31/2011                                                          (continued)
                                                                                                                                                                                                                                                                                                                238


                                                                                                      Capital         Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                               Investment                    Investment    Repayment       Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date           Institution                             Description                      Amount          Date         Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
               Fifth Third Bancorp,                    Preferred Stock w/
12/31/2008                                                                       $3,408,000,000      2/2/2011   $3,408,000,000          —    03/16/2011        R      $280,025,936          $13.89              $12,743.46                                                                    $355,946,667
               Cincinnati, OH4, m                      Warrants

                                                                                                    2/23/2011     $12,505,000 $25,010,000
               Financial Institutions, Inc.,           Preferred Stock w/
12/23/2008                                                                         $37,515,000                                                                                              $17.52                 $235.22          $14.88       378,175             $2.64              IN      $4,192,649
               Warsaw, NY4                             Warrants
                                                                                                    3/30/2011     $25,010,000           —

               Financial Security                      Preferred Stock w/
2/13/2009                                                                           $5,000,000                                                                                                                                                                                                    $546,514
               Corporation, Basin, WY2                 Exercised Warrants
                                                       Subordinated
               Financial Services of Winger,
7/31/2009                                              Debentures w/                $3,742,000                                                                                                                                                                                                    $468,035
               Inc., Winger, MN8, 10
                                                       Exercised Warrants
               First Advantage Bancshares              Preferred Stock w/
5/22/2009                                                                           $1,177,000                                                                                                                                                                                                    $111,032
               Inc., Coon Rapids, MN2                  Exercised Warrants
               First Alliance Bancshares,              Preferred Stock w/
6/26/2009                                                                           $3,422,000                                                                                                                                                                                                    $305,118
               Inc., Cordova, TN2                      Exercised Warrants
               First American Bank                     Subordinated
7/24/2009      Corporation, Elk Grove                  Debentures w/               $50,000,000                                                                                                                                                                                                  $6,537,225
               Village, IL8                            Exercised Warrants
               First American International
                                                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I april 28, 2011




3/13/2009      Corp., Brooklyn,                        Preferred Stock             $17,000,000      8/13/2010     $17,000,000           —                     —                                                                                                                                 $1,204,167
               NY3, 4, 30 - 8/13/2010
                                                       Preferred Stock w/
1/9/2009       First Bancorp, Troy, NC                                             $65,000,000                                                                                              $13.26                 $223.06          $15.82       616,308            ($2.56)          OUT        $6,825,000
                                                       Warrants
                                                       Mandatorily Convertible
               First BanCorp, San Juan,
1/16/2009                                              Preferred Stock w/         $424,174,000                                                                                               $5.00                 $106.52           $0.73     5,842,259            ($4.27)          OUT        $6,611,111
               PR28 - 7/20/2010, i
                                                       Warrants
               First BancTrust Corporation,            Preferred Stock w/
2/20/2009                                                                           $7,350,000                                                                                                                                                                                                    $795,676
               Paris, IL2                              Exercised Warrants
               First Bank of Charleston, Inc., Preferred Stock w/
2/6/2009                                                                            $3,345,000                                                                                                                                                                                                    $369,117
               Charleston, WV2                 Exercised Warrants
               First Bankers Trustshares, Inc., Preferred Stock w/
1/16/2009                                                                          $10,000,000                                                                                                                                                                                                  $1,133,903
               Quincy, IL2                      Exercised Warrants
                                          Preferred Stock w/
                                                   2
12/31/2008 First Banks, Inc., Clayton, MO                                         $295,400,000                                                                                                                                                                                                  $6,037,238
                                          Exercised Warrants
               First Busey Corporation,                Preferred Stock w/
3/6/2009                                                                          $100,000,000                                                                                               $5.08                 $439.91          $13.07       573,833            ($7.99)          OUT        $9,708,333
               Urbana, ILb                             Warrants
               First Business Bank, N.A., San Preferred Stock w/
4/10/2009                                                                           $2,211,000
               Diego, CA2, c                  Exercised Warrants
                                                                                                                                                                                                                                                                                                  $342,326
               First Business Bank, N.A., San
12/11/2009                                    Preferred Stock                       $2,032,000
               Diego, CA2, 10a, c
               First California Financial Group, Preferred Stock w/
12/19/2008                                                                         $25,000,000                                                                                               $3.75                 $105.64           $6.26       599,042            ($2.51)          OUT        $2,694,444
               Inc, Westlake Village, CA         Warrants
               First Capital Bancorp, Inc.,            Preferred Stock w/
4/3/2009                                                                           $10,958,000                                                                                               $3.83                   $11.38          $6.55       250,947            ($2.72)          OUT        $1,022,747
               Glen Ellen, VA                          Warrants
               First Choice Bank, Cerritos,            Preferred Stock w/
2/13/2009                                                                           $2,200,000      9/24/2010      $2,200,000           —     9/24/2010        R           $110,000
               CA2, 4, 7, 30 - 9/24/2010, 30a, c       Exercised Warrants
                                                                                                                                                                                                                                                                                                  $300,643
               First Choice Bank, Cerritos,
12/22/2009                                             Preferred Stock              $2,836,000      9/24/2010      $2,836,000           —                     —
               CA2, 4, 10a, 30 - 9/24/2010, c
               First Citizens Banc Corp,               Preferred Stock w/
1/23/2009                                                                          $23,184,000                                                                                               $4.18                   $32.22          $7.41       469,312            ($3.23)          OUT        $2,389,240
               Sandusky, OH                            Warrants
               First Colebrook Bancorp, Inc., Preferred Stock w/
3/20/2009                                                                           $4,500,000                                                                                                                                                                                                    $466,657
               Colebrook, NH2                 Exercised Warrants
               First Community Bancshares,             Preferred Stock w/
5/15/2009                                                                          $14,800,000                                                                                                                                                                                                    $604,950
               Inc, Overland Park, KS2, b              Exercised Warrants
           First Community Bank
                                                       Preferred Stock w/
12/23/2008 Corporation of America,                                                 $10,685,000                                                                                               $0.30                    $1.64          $7.02       228,312            ($6.72)          OUT          $744,982
                                                       Warrants
           Pinellas Park, FL39- 3/11/2011
               First Community Bankshares              Preferred Stock w/
11/21/2008                                                                         $41,500,000       7/8/2009     $41,500,000           —                                                   $14.18                 $253.38          $35.26        88,273           ($21.08)          OUT        $1,308,403
               Inc., Bluefield, VA5                    Warrants
           First Community Corporation, Preferred Stock w/
11/21/2008                                                                         $11,350,000                                                                                               $6.73                   $22.03          $8.69       195,915            ($1.96)          OUT        $1,267,417
           Lexington, SC                Warrants
               First Community Financial               Preferred Stock w/
12/11/2009                                                                         $22,000,000                                                                                                                                                                                                  $1,412,156
               Partners, Inc., Joliet, IL2             Exercised Warrants

                                                                                                                                                                                                                                                                                    Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                                 (continued)


                                                                                             Capital        Capital   Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                         Investment                 Investment    Repayment      Repayment      Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                        Description                   Amount          Date        Amount6      Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
              First Defiance Financial           Preferred Stock w/
12/5/2008                                                                  $37,000,000                                                                                           $14.34                 $139.44          $10.08       550,595             $4.26              IN      $4,059,722
              Corp., Defiance, OH                Warrants
              First Eagle Bancshares,            Subordinated
9/11/2009     Inc., Hanover Park, IL4, 8, 30 -   Debentures w/              $7,500,000     9/17/2010     $7,500,000          —    9/17/2010         R           $375,000                                                                                                               $639,738
              9/17/2010, 30a
                                                 Exercised Warrants
              First Express of Nebraska,         Preferred Stock w/
2/6/2009                                                                    $5,000,000                                                                                                                                                                                                 $551,813
              Inc., Gering, NE2                  Exercised Warrants
              First Federal Bancshares of        Preferred Stock w/
3/6/2009                                                                   $16,500,000                                                                                            $2.72                   $13.18          $7.69       321,847            ($4.97)          OUT          $570,625
              Arkansas, Inc., Harrison, AR       Warrants
              First Financial Bancorp,           Preferred Stock w/
12/23/2008                                                                 $80,000,000     2/24/2010    $80,000,000          —     6/2/2010         A         $3,116,284         $16.69                 $968.87                                                                      $4,677,778
              Cincinnati, OH5, 9                 Warrants
                                                 Subordinated
              First Financial Bancshares,
6/12/2009                                        Debentures w/              $3,756,000                                                                                                                                                                                                 $510,550
              Inc., Lawrence, KS8, 10
                                                 Exercised Warrants
              First Financial Holdings Inc.,     Preferred Stock w/
12/5/2008                                                                  $65,000,000                                                                                           $11.31                 $186.92          $20.17       241,696            ($8.86)          OUT        $7,131,944
              Charleston, SCb                    Warrants
              First Financial Service
                                                 Preferred Stock w/
1/9/2009      Corporation, Elizabethtown,                                  $20,000,000                                                                                            $3.61                  $17.06          $13.89       215,983           ($10.28)          OUT        $1,600,000
                                                 Warrants
              KY
              First Freedom Bancshares,          Preferred Stock w/
12/22/2009                                                                  $8,700,000                                                                                                                                                                                                 $525,990
              Inc., Lebanon, TN2, 10             Exercised Warrants
              First Gothenburg Bancshares, Preferred Stock w/
2/27/2009                                                                   $7,570,000                                                                                                                                                                                                 $811,711
              Inc., Gothenburg, NE2        Exercised Warrants
              First Guaranty Bancshares,         Preferred Stock w/
8/28/2009                                                                  $20,699,000                                                                                                                                                                                               $1,650,754
              Inc., Hammond, LA2                 Exercised Warrants
           First Horizon National
                                                 Preferred Stock w/
11/14/2008 Corporation, Memphis,                                          $866,540,000    12/22/2010   $866,540,000          —     3/9/2011         R        $79,700,000         $11.21               $2,954.07                                                                     $91,227,406
                                                 Warrants
           TN4, g, o
              First Independence
8/28/2009                                        Preferred Stock            $3,223,000                                                                                                                                                                                                 $235,906
              Corporation, Detroit, MI2, 3
              First Intercontinental Bank,       Preferred Stock w/
3/13/2009                                                                   $6,398,000                                                                                                                                                                                                 $670,279
              Doraville, GA2                     Exercised Warrants
           First Litchfield Financial            Preferred Stock w/
12/12/2008                                                                 $10,000,000      4/7/2010    $10,000,000          —     4/7/2010         R         $1,488,046                                                                                                               $659,722
           Corporation, Litchfield, CT4          Warrants
              First M&F Corporation,             Preferred Stock w/
2/27/2009                                                                  $30,000,000     9/29/2010    $30,000,000          —                                                    $4.08                   $37.40          $8.77       513,113            ($4.69)          OUT        $2,383,333
              Kosciusko, MS4, 30 - 9/29/2010     Warrants
              First Manitowoc Bancorp,           Preferred Stock w/
1/16/2009                                                                  $12,000,000     5/27/2009    $12,000,000          —    5/27/2009         R           $600,000                                                                                                               $237,983
              Inc., Manitowoc, WI2, 4, 7         Exercised Warrants
              First Menasha Bancshares,          Preferred Stock w/
2/13/2009                                                                   $4,797,000                                                                                                                                                                                                 $524,353
              Inc., Neenah, WI2                  Exercised Warrants
                                                 Preferred Stock w/
                                                                           $69,600,000                                                                                                                                                                                              $10,069,444
              First Merchants Corporation,       Warrants
2/20/2009                                                                                                                                                                         $8.26                 $213.64          $17.55       991,453            ($9.29)          OUT
              Muncie, IN27                       Trust Preferred
                                                                           $46,400,000                                                                                                                                                                                               $1,450,000
                                                 Securities w/ Warrants
              First Midwest Bancorp, Inc.,       Preferred Stock w/
12/5/2008                                                                 $193,000,000                                                                                           $11.79                 $878.86          $22.18     1,305,230           ($10.39)          OUT       $21,176,389
              Itasca, IL                         Warrants
              First National Corporation,        Preferred Stock w/
3/13/2009                                                                  $13,900,000                                                                                                                                                                                               $1,456,180
              Strasburg, VA2                     Exercised Warrants
              First NBC Bank Holding             Preferred Stock w/
3/20/2009                                                                  $17,836,000                                                                                                                                                                                               $1,849,652
              Company, New Orleans, LA2          Exercised Warrants
              First Niagara Financial Group, Preferred Stock w/
11/21/2008                                                                $184,011,000     5/27/2009   $184,011,000          —    6/24/2009         R         $2,700,000         $13.58               $2,842.73                                                                      $4,753,618
              Lockport, NY5, 9               Warrants
              First Northern Community           Preferred Stock w/
3/13/2009                                                                  $17,390,000                                                                                            $4.50                  $41.02           $7.39       352,977            ($2.89)          OUT        $1,671,372
              Bancorp, Dixon, CA                 Warrants
           First PacTrust Bancorp, Inc.,         Preferred Stock w/
11/21/2008                                                                 $19,300,000    12/15/2010    $19,300,000          —     1/5/2011         R         $1,003,227         $15.91                 $154.79          $10.31       280,795             $5.60              IN      $1,994,333
           Chula Vista, CA4                      Warrants
              First Place Financial Corp.,       Preferred Stock w/
3/13/2009                                                                  $72,927,000                                                                                            $2.23                  $37.85           $2.98     3,670,822            ($0.75)          OUT        $7,009,095
              Warren, OH                         Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                                     239
 CPP Transaction Detail, as oF 3/31/2011                                                  (continued)                                                                                                                                                                                                 240


                                                                                              Capital        Capital   Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                          Investment                 Investment    Repayment      Repayment      Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                         Description                   Amount          Date        Amount6      Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
              First Priority Financial Corp.,     Preferred Stock w/
2/20/2009                                                                    $4,579,000
              Malvern, PA2, c                     Exercised Warrants
                                                                                                                                                                                                                                                                                        $761,839
           First Priority Financial Corp.,
12/18/2009                                        Preferred Stock            $4,596,000
           Malvern, PA2, 10a, c
              First Reliance Bancshares,          Preferred Stock w/
3/6/2009                                                                    $15,349,000                                                                                                                                                                                               $1,624,166
              Inc., Florence, SC2                 Exercised Warrants
              First Resource Bank, Exton,         Preferred Stock w/
1/30/2009                                                                    $2,600,000
              PA2, c                              Exercised Warrants
                                                                                                                                                                                                                                                                                        $431,639
           First Resource Bank, Exton,
12/11/2009                                        Preferred Stock            $2,417,000
           PA2, 10a, c
              First Security Group, Inc.,         Preferred Stock w/
1/9/2009                                                                    $33,000,000                                                                                            $0.89                   $14.61          $6.01       823,627            ($5.12)          OUT        $1,402,500
              Chattanooga, TN                     Warrants
                                         Preferred Stock w/
12/23/2008 First Sound Bank, Seattle, WA                                     $7,400,000                                                                                            $0.12                    $0.25          $9.73       114,080            ($9.61)          OUT          $330,944
                                         Warrants
                                                  Subordinated
              First South Bancorp, Inc.,
7/17/2009                                         Debentures w/             $50,000,000                                                                                                                                                                                               $6,618,777
              Lexington, TN8
                                                  Exercised Warrants
              First Southern Bancorp, Inc.,       Preferred Stock w/
1/30/2009                                                                   $10,900,000     6/16/2010    $10,900,000          —     6/16/2010        R           $545,000                                                                                                               $818,468
              Boca Raton, FL2, 4, 7               Exercised Warrants
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I april 28, 2011




              First Southwest
                                             Preferred Stock w/
3/6/2009      Bancorporation, Inc., Alamosa,                                 $5,500,000                                                                                                                                                                                                 $207,327
                                             Exercised Warrants
              CO2
              First State Bank of Mobeetie,       Preferred Stock w/
2/27/2009                                                                     $731,000      4/14/2010      $731,000           —     4/14/2010        R            $37,000                                                                                                                 $45,087
              Mobeetie, TX2, 4, 7                 Exercised Warrants
              First Texas BHC, Inc., Fort         Preferred Stock w/
3/6/2009                                                                    $13,533,000                                                                                                                                                                                               $1,432,134
              Worth, TX2                          Exercised Warrants
                                                  Subordinated
              First Trust Corporation, New
6/5/2009                                          Debentures w/             $17,969,000                                                                                                                                                                                               $1,046,896
              Orleans, LA8
                                                  Exercised Warrants
              First ULB Corp., Oakland,           Preferred Stock w/
1/23/2009                                                                    $4,900,000     4/22/2009     $4,900,000          —     4/22/2009        R           $245,000                                                                                                                 $66,021
              CA2, 4, 7                           Exercised Warrants
              First United Corporation,           Preferred Stock w/
1/30/2009                                                                   $30,000,000                                                                                            $3.09                  $19.05          $13.79       326,323           ($10.70)          OUT        $2,312,500
              Oakland, MD                         Warrants
              First Vernon Bancshares, Inc., Preferred Stock w/
6/12/2009                                                                    $6,000,000     9/29/2010     $6,000,000          —     9/29/2010        R           $245,000                                                                                                               $417,770
              Vernon, AL2, 7, 10, 30 - 9/29/2010, 30a Exercised Warrants
              First Western Financial, Inc.,      Preferred Stock w/
2/6/2009                                                                     $8,559,000
              Denver, CO2, c                      Exercised Warrants
                                                                                                                                                                                                                                                                                      $1,644,260
           First Western Financial, Inc.,
12/11/2009                                        Preferred Stock           $11,881,000
           Denver, CO2, 10a, c
              Firstbank Corporation, Alma,        Preferred Stock w/
1/30/2009                                                                   $33,000,000                                                                                            $6.30                   $49.21          $8.55       578,947            ($2.25)          OUT        $3,368,750
              MI                                  Warrants
              FirstMerit Corporation,             Preferred Stock w/
1/9/2009                                                                   $125,000,000     4/22/2009   $125,000,000          —     5/27/2009        R         $5,025,000         $17.07               $1,856.69                                                                      $1,788,194
              Akron, OH4                          Warrants
              Flagstar Bancorp, Inc., Troy,       Preferred Stock w/
1/30/2009                                                                  $266,657,000                                                                                            $1.50                 $830.43           $6.20     6,451,379            ($4.70)          OUT       $27,221,235
              MI                                  Warrants
              Florida Bank Group, Inc.,           Preferred Stock w/
7/24/2009                                                                   $20,471,000                                                                                                                                                                                               $1,180,793
              Tampa, FL2                          Exercised Warrants
              Florida Business BancGroup,         Preferred Stock w/
2/20/2009                                                                    $9,495,000                                                                                                                                                                                               $1,027,813
              Inc., Tampa, FL2                    Exercised Warrants
           Flushing Financial Corporation, Preferred Stock w/
12/19/2008                                                                  $70,000,000    10/28/2009    $70,000,000          —    12/30/2009        R           $900,000         $14.90                 $466.85                                                                      $3,004,167
           Lake Success, NY5, 9            Warrants
              FNB Bancorp, South San              Preferred Stock w/
2/27/2009                                                                   $12,000,000                                                                                                                                                                                               $1,286,200
              Francisco, CA2                      Exercised Warrants
              FNB United Corp., Asheboro,         Preferred Stock w/
2/13/2009                                                                   $51,500,000                                                                                            $0.31                    $3.48          $3.50     2,207,143            ($3.20)          OUT        $2,589,305
              NC                                  Warrants
              Foresight Financial Group, Inc., Preferred Stock w/
5/15/2009                                                                   $15,000,000                                                                                                                                                                                               $1,430,625
              Rockford, IL2                    Exercised Warrants
              Fort Lee Federal Savings            Preferred Stock w/
5/22/2009                                                                    $1,300,000                                                                                                                                                                                                   $87,185
              Bank, Fort Lee, NJ2                 Exercised Warrants
              Fortune Financial Corporation, Preferred Stock w/
4/3/2009                                                                     $3,100,000                                                                                                                                                                                                 $315,374
              Arnold, MO2                    Exercised Warrants
              FPB Bancorp, Inc., Port St.         Preferred Stock w/
12/5/2008                                                                    $5,800,000                                                                                            $0.31                    $0.64          $4.75       183,158            ($4.44)          OUT          $273,889
              Lucie, FL                           Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                         (continued)


                                                                                     Capital        Capital   Remaining           Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                     Investment             Investment    Repayment      Repayment      Capital     Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                     Description               Amount          Date        Amount6      Amount            Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             FPB Financial Corp.,            Preferred Stock w/
1/23/2009                                                                         12/16/2009     $1,000,000   $2,240,000
             Hammond, LA2, 4, 7, c           Exercised Warrants
                                                                    $3,240,000                                                                                                                                                                                                   $221,722
             FPB Financial Corp.,            Preferred Stock w/
1/23/2009                                                                          6/16/2010     $2,240,000           —     6/16/2010         R           $162,000
             Hammond, LA2, 4, c              Exercised Warrants
             Franklin Bancorp, Inc.,         Preferred Stock w/
5/22/2009                                                           $5,097,000                                                                                                                                                                                                   $480,748
             Washington, MO2                 Exercised Warrants
                                             Subordinated
             Freeport Bancshares, Inc.,
5/8/2009                                     Debentures w/          $3,000,000                                                                                                                                                                                                   $445,368
             Freeport, IL8
                                             Exercised Warrants
                                             Subordinated
             Fremont Bancorporation,
6/26/2009                                    Debentures w/         $35,000,000                                                                                                                                                                                                 $4,804,455
             Fremont, CA8
                                             Exercised Warrants
             Fresno First Bank, Fresno,      Preferred Stock w/
1/23/2009                                                           $1,968,000                                                                                                                                                                                                   $187,635
             CA2                             Exercised Warrants
                                             Subordinated
             Frontier Bancshares, Inc.,
4/24/2009                                    Debentures w/                        11/24/2009     $1,600,000   $1,400,000
             Austin, TX4, 7, 8m, c
                                             Exercised Warrants
                                                                    $3,000,000                                                                                                                                                                                                   $258,192
                                             Subordinated
             Frontier Bancshares, Inc.,
4/24/2009                                    Debentures w/                         10/6/2010     $1,400,000           ­­—   10/6/2010         R           $150,000
             Austin, TX4, 8, c
                                             Exercised Warrants
             Fulton Financial Corporation,   Preferred Stock w/
12/23/2008                                                        $376,500,000     7/14/2010   $376,500,000           —      9/8/2010         R        $10,800,000         $11.11               $2,212.43                                                                     $29,335,625
             Lancaster, PA4                  Warrants
             Gateway Bancshares, Inc.,       Preferred Stock w/
5/8/2009                                                            $6,000,000                                                                                                                                                                                                   $578,608
             Ringgold, GA2                   Exercised Warrants
             Georgia Commerce
                                             Preferred Stock w/
2/6/2009     Bancshares, Inc., Atlanta,                             $8,700,000     2/16/2011     $8,700,000           —     2/16/2011         R           $435,000                                                                                                               $961,471
                                             Exercised Warrants
             GA2, 4, 7
             Georgia Primary Bank,           Preferred Stock w/
5/1/2009                                                            $4,500,000                                                                                                                                                                                                           —
             Atlanta, GA2                    Exercised Warrants
             Germantown Capital
                                             Preferred Stock w/
3/6/2009     Corporation, Inc.,                                     $4,967,000                                                                                                                                                                                                   $525,721
                                             Exercised Warrants
             Germantown, TN2
             Gold Canyon Bank, Gold          Preferred Stock w/
6/26/2009                                                           $1,607,000                                                                                                                                                                                                     $53,860
             Canyon, AZ2, 10                 Exercised Warrants
             Goldwater Bank, N.A.,           Preferred Stock w/
1/30/2009                                                           $2,568,000                                                                                                                                                                                                   $145,750
             Scottsdale, AZ2                 Exercised Warrants
             Grand Capital Corporation,      Preferred Stock w/
4/24/2009                                                           $4,000,000                                                                                                                                                                                                   $394,217
             Tulsa, OK2                      Exercised Warrants
                                             Subordinated
             Grand Financial Corporation,
9/25/2009                                    Debentures w/          $2,443,320                                                                                                                                                                                                   $284,682
             Hattiesburg, MS8
                                             Exercised Warrants
             Grand Mountain Bancshares,      Preferred Stock w/
5/29/2009                                                           $3,076,000                                                                                                                                                                                                           —
             Inc., Granby, CO2               Exercised Warrants
             GrandSouth Bancorporation,      Preferred Stock w/
1/9/2009                                                            $9,000,000
             Greenville, SC2, c              Exercised Warrants
                                                                                                                                                                                                                                                                               $1,402,169
             GrandSouth Bancorporation,
12/11/2009                                   Preferred Stock        $6,319,000
             Greenville, SC2, 10a, c
                                          Subordinated
             Great River Holding Company,
7/17/2009                                 Debentures w/             $8,400,000                                                                                                                                                                                                   $759,575
             Baxter, MN8
                                          Exercised Warrants
             Great Southern Bancorp,         Preferred Stock w/
12/5/2008                                                          $58,000,000                                                                                             $21.45                 $288.59           $9.57       909,091            $11.88              IN      $6,363,889
             Springfield, MO                 Warrants
           Green Bankshares, Inc.,           Preferred Stock w/
12/23/2008                                                         $72,278,000                                                                                              $2.79                   $36.80         $17.06       635,504           ($14.27)          OUT        $5,942,858
           Greeneville, TN                   Warrants
             Green Circle Investments,       Preferred Stock w/
2/27/2009                                                           $2,400,000                                                                                                                                                                                                   $257,240
             Inc., Clive, IA2                Exercised Warrants
             Green City Bancshares, Inc.,    Preferred Stock w/
2/27/2009                                                            $651,000      7/14/2010      $651,000            —     7/14/2010         R            $33,000                                                                                                                 $49,037
             Green City, MO2, 4, 7           Exercised Warrants
             Greer Bancshares                Preferred Stock w/
1/30/2009                                                           $9,993,000                                                                                                                                                                                                   $975,831
             Incorporated, Greer, SC2        Exercised Warrants
                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I april 28, 2011




                                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                                               241
 CPP Transaction Detail, as oF 3/31/2011                                               (continued)                                                                                                                                                                                                    242


                                                                                           Capital         Capital    Remaining          Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                         Investment               Investment    Repayment       Repayment       Capital    Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date            Institution                      Description                 Amount          Date         Amount6       Amount           Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
                Gregg Bancshares, Inc.,          Preferred Stock w/
2/13/2009                                                                  $825,000                                                                                                                                                                                                       $45,190
                Ozark, MO2                       Exercised Warrants
                Guaranty Bancorp, Inc.,          Preferred Stock w/
2/20/2009                                                                $6,920,000                                                                                                                                                                                                     $749,042
                Woodsville, NH2                  Exercised Warrants
                Guaranty Capital Corporation, Subordinated
9/25/2009                                                               $14,000,000      7/30/2010     $14,000,000            —                     —                                                                                                                                   $913,299
                Belzoni, MS3, 4, 8, 30 - 7/30/2010 Debentures
                Guaranty Federal Bancshares, Preferred Stock w/
1/30/2009                                                               $17,000,000                                                                                                $6.01                   $15.99          $5.55       459,459             $0.46              IN      $1,735,417
                Inc., Springfield, MO        Warrants
                GulfSouth Private Bank,          Preferred Stock w/
9/25/2009                                                                $7,500,000                                                                                                                                                                                                     $757,380
                Destin, FL10, 21                 Exercised Warrants
                Gulfstream Bancshares, Inc.,     Preferred Stock w/
6/26/2009                                                                $7,500,000                                                                                                                                                                                                     $668,760
                Stuart, FL2                      Exercised Warrants
                Hamilton State Bancshares,       Preferred Stock w/
2/20/2009                                                                $7,000,000                                                                                                                                                                                                     $757,702
                Hoschton, GA2                    Exercised Warrants
           Hampton Roads Bankshares,             Common Stock w/
12/31/2008                                                              $80,347,000                                                                                                $0.84                 $701.13           $0.40     1,325,858             $0.44              IN      $2,510,844
           Inc., Norfolk, VA31 - 9/30/2010, i    Warrants
                Harbor Bankshares
7/17/2009                                      Preferred Stock           $6,800,000                                                                                                                                                                                                     $282,744
                Corporation, Baltimore, MD2, 3
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I april 28, 2011




                Hartford Financial Services      Preferred Stock w/
6/26/2009                                                             $3,400,000,000     3/31/2010   $3,400,000,000           —     9/21/2010        A      $713,687,430          $26.93              $11,976.69                                                                    $129,861,111
                Group, Inc., Hartford, CT4       Warrants
                Haviland Bancshares, Inc.,       Preferred Stock w/
3/13/2009                                                                  $425,000     12/29/2010        $425,000            —    12/29/2010        R            $21,000                                                                                                                 $41,524
                Haviland, KS2, 4, 7              Exercised Warrants
           Hawthorn Bancshares, Inc.,            Preferred Stock w/
12/19/2008                                                              $30,255,000                                                                                                $9.03                  $40.40          $17.10       265,471            ($8.07)          OUT        $3,260,817
           Lee’s Summit, MOg                     Warrants
                HCSB Financial Corporation,      Preferred Stock w/
3/6/2009                                                                $12,895,000                                                                                                $1.25                    $4.67         $21.09        91,714           ($19.84)          OUT        $1,090,702
                Loris, SC                        Warrants
                Heartland Bancshares, Inc.,      Preferred Stock w/
9/11/2009                                                                $7,000,000                                                                                                                                                                                                     $543,949
                Franklin, IN2, 10                Exercised Warrants
           Heartland Financial USA, Inc., Preferred Stock w/
12/19/2008                                                              $81,698,000                                                                                               $17.00                 $279.11          $20.10       609,687            ($3.10)          OUT        $8,805,229
           Dubuque, IA                    Warrants
                Heritage Bankshares, Inc.,       Preferred Stock w/
9/25/2009                                                               $10,103,000      3/16/2011      $2,606,000    $7,497,000                                                                                                                                                        $750,692
                Norfolk, VA2, 4, 10              Exercised Warrants
           Heritage Commerce Corp.,              Preferred Stock w/
11/21/2008                                                              $40,000,000                                                                                                $4.65                 $121.98          $12.96       462,963            ($8.31)          OUT        $1,466,667
           San Jose, CA                          Warrants
                Heritage Financial Corporation, Preferred Stock w/
11/21/2008                                                              $24,000,000     12/22/2010     $24,000,000            —                                                   $14.17                 $221.96          $13.04       138,037             $1.13              IN      $2,503,333
                Olympia, WA4, b                 Warrants
                Heritage Oaks Bancorp, Paso Preferred Stock w/
3/20/2009                                                               $21,000,000                                                                                                $3.49                   $87.54          $5.15       611,650            ($1.66)          OUT          $947,916
                Robles, CA                  Warrants
           HF Financial Corp., Sioux             Preferred Stock w/
11/21/2008                                                              $25,000,000       6/3/2009     $25,000,000            —     6/30/2009        R           $650,000         $11.16                  $77.89                                                                        $666,667
           Falls, SD4                            Warrants
                Highlands Bancorp, Inc.
                                                 Preferred Stock w/
5/8/2009        (Highlands State Bank),                                  $3,091,000
                                                 Exercised Warrants
                Vernon, NJ2, 13 - 8/31/2010, c
                                                                                                                                                                                                                                                                                        $374,585
           Highlands Bancorp, Inc.
12/22/2009 (Highlands State Bank),               Preferred Stock         $2,359,000
           Vernon, NJ2, 10a, 13 - 8/31/2010, c
                Highlands Independent          Preferred Stock w/
3/6/2009                                                                 $6,700,000                                                                                                                                                                                                     $617,712
                Bancshares, Inc., Sebring, FL2 Exercised Warrants
                Hilltop Community Bancorp,       Preferred Stock w/
1/30/2009                                                                $4,000,000      4/21/2010      $4,000,000            —     4/21/2010        R           $200,000                                                                                                               $267,050
                Inc., Summit, NJ2, 4, 7          Exercised Warrants
           HMN Financial, Inc.,                  Preferred Stock w/
12/23/2008                                                              $26,000,000                                                                                                $2.75                  $12.07           $4.68       833,333            ($1.93)          OUT        $2,462,778
           Rochester, MN                         Warrants
                Home Bancshares, Inc.,           Preferred Stock w/
1/16/2009                                                               $50,000,000                                                                                               $22.75                 $647.85          $23.66       158,472            ($0.91)          OUT        $5,201,389
                Conway, ARf                      Warrants
                Hometown Bancorp of              Preferred Stock w/
2/20/2009                                                                $3,250,000                                                                                                                                                                                                     $351,880
                Alabama, Inc., Oneonta, AL2      Exercised Warrants
                Hometown Bancshares, Inc.,       Preferred Stock w/
2/13/2009                                                                $1,900,000                                                                                                                                                                                                     $207,675
                Corbin, KY2                      Exercised Warrants
                HomeTown Bankshares              Preferred Stock w/
9/18/2009                                                               $10,000,000                                                                                                                                                                                                     $351,326
                Corporation, Roanoke, VA2, 10    Exercised Warrants
           HopFed Bancorp, Hopkinsville, Preferred Stock w/
12/12/2008                                                              $18,400,000                                                                                                $9.20                  $67.49          $11.10       248,692            ($1.90)          OUT        $2,001,000
           KYg                           Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                                      (continued)


                                                                                                  Capital          Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                               Investment                Investment    Repayment        Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                              Description                  Amount          Date          Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
              Horizon Bancorp, Michigan                Preferred Stock w/
12/19/2008                                                                     $25,000,000     11/10/2010        $6,250,000 $18,750,000                                                  $27.30                   $90.20         $17.68       212,104             $9.62              IN      $2,611,979
              City, IN4                                Warrants
              Howard Bancorp, Inc., Ellicott Preferred Stock w/
2/27/2009                                                                       $5,983,000                                                                                                                                                                                                     $641,251
              City, MD2                      Exercised Warrants
              HPK Financial Corporation,               Preferred Stock w/
5/1/2009                                                                        $4,000,000
              Chicago, IL2, c                          Exercised Warrants
                                                                                                                                                                                                                                                                                               $720,139
           HPK Financial Corporation,                  Preferred Stock w/
11/13/2009                                                                      $5,000,000
           Chicago, IL2, 10a, c                        Exercised Warrants
              Huntington Bancshares,                   Preferred Stock w/
11/14/2008                                                                   $1,398,071,000    12/22/2010    $1,398,071,000          —     1/19/2011        R        $49,100,000          $6.64               $5,739.39           $8.90    23,562,994            ($2.26)          OUT      $147,185,809
              Columbus, OH4                            Warrants
              Hyperion Bank, Philadelphia,             Preferred Stock w/
2/6/2009                                                                        $1,552,000                                                                                                                                                                                                     $171,356
              PA2                                      Exercised Warrants
                                                       Preferred Stock w/
9/18/2009     IA Bancorp, Inc., Iselin, NJ2, 10                                 $5,976,000                                                                                                                                                                                                     $443,498
                                                       Exercised Warrants
              IBC Bancorp, Inc.,                       Subordinated
5/15/2009                                                                       $4,205,000      9/10/2010        $4,205,000          —                     —                                                                                                                                   $427,216
              Chicago, IL3, 4, 8, 30 - 9/10/2010       Debentures
              Iberiabank Corporation,                  Preferred Stock w/
12/5/2008                                                                      $90,000,000      3/31/2009      $90,000,000           —     5/20/2009        R         $1,200,000         $60.13               $1,617.32                                                                      $1,450,000
              Lafayette, LA5, 9                        Warrants

                                                   2   Preferred Stock w/
3/27/2009     IBT Bancorp, Inc., Irving, TX                                     $2,295,000                                                                                                                                                                                                     $235,605
                                                       Exercised Warrants
              IBW Financial Corporation,
3/13/2009     Washington, DC2, 3a - 11/13/2009,        Preferred Stock          $6,000,000       9/3/2010        $6,000,000          —                     —                                                                                                                                   $453,067
              30 - 9/3/2010, 4


                                                       Preferred Stock w/
3/6/2009      ICB Financial, Ontario, CA2                                       $6,000,000                                                                                                                                                                                                     $634,925
                                                       Exercised Warrants

                                              2        Preferred Stock w/
1/16/2009     Idaho Bancorp, Boise, ID                                          $6,900,000                                                                                                                                                                                                     $124,306
                                                       Exercised Warrants
              Illinois State Bancorp, Inc.,            Preferred Stock w/
5/22/2009                                                                       $6,272,000
              Chicago, IL2, c                          Exercised Warrants
                                                                                                                                                                                                                                                                                               $826,501
           Illinois State Bancorp, Inc.,               Preferred Stock w/
12/29/2009                                                                      $4,000,000
           Chicago, IL2, 10a, c                        Exercised Warrants
              Independence Bank, East                  Preferred Stock w/
1/9/2009                                                                        $1,065,000                                                                                                                                                                                                     $121,842
              Greenwich, RI2                           Exercised Warrants
              Independent Bank Corp.,                  Preferred Stock w/
1/9/2009                                                                       $78,158,000      4/22/2009      $78,158,000           —     5/27/2009        R         $2,200,000         $27.01                 $574.12                                                                      $1,118,094
              Rockland, MA4                            Warrants
                                         Mandatorily Convertible
           Independent Bank Corporation,
12/12/2008                               Preferred Stock w/                    $74,426,000                                                                                                $3.20                  $25.97           $7.23       346,154            ($4.03)          OUT        $2,430,000
           Ionia, MI22, I, j
                                         Warrants
                                                       Preferred Stock w/
4/24/2009     Indiana Bank Corp., Dana, IN2                                     $1,312,000                                                                                                                                                                                                     $129,369
                                                       Exercised Warrants
           Indiana Community Bancorp,                  Preferred Stock w/
12/12/2008                                                                     $21,500,000                                                                                               $15.55                   $53.20         $17.09       188,707            ($1.54)          OUT        $2,338,125
           Columbus, IN                                Warrants
              Integra Bank Corporation,                Preferred Stock w/
2/27/2009                                                                      $83,586,000                                                                                                $0.28                    $5.89          $1.69     7,418,876            ($1.41)          OUT        $1,950,340
              Evansville, IN                           Warrants
              Intermountain Community                  Preferred Stock w/
12/19/2008                                                                     $27,000,000                                                                                                $1.45                   $12.19          $6.20       653,226            ($4.75)          OUT        $1,222,500
              Bancorp, Sandpoint, ID                   Warrants
              International Bancshares                 Preferred Stock w/
12/23/2008                                                                    $216,000,000                                                                                               $18.34               $1,241.65          $24.43     1,326,238            ($6.09)          OUT       $23,160,000
              Corporation, Laredo, TX                  Warrants
              Intervest Bancshares                     Preferred Stock w/
12/23/2008                                                                     $25,000,000                                                                                                $2.55                   $53.87          $5.42       691,882            ($2.87)          OUT        $1,118,056
              Corporation, New York, NY                Warrants
              Investors Financial Corporation Subordinated
5/8/2009      of Pettis County, Inc., Sedalia, Debentures w/                    $4,000,000                                                                                                                                                                                                     $174,325
              MO8                              Exercised Warrants
           JPMorgan Chase & Co., New                   Preferred Stock w/
10/28/2008                                                                  $25,000,000,000     6/17/2009   $25,000,000,000          —    12/10/2009        A      $950,318,243          $46.10             $183,639.81                                                                    $795,138,889
           York, NY4                                   Warrants
              Katahdin Bankshares Corp.,               Preferred Stock w/
1/30/2009                                                                      $10,449,000                                                                                                                                                                                                   $1,162,587
              Houlton, ME2                             Exercised Warrants
                                                       Preferred Stock w/
11/14/2008 KeyCorp, Cleveland, OH4                                           $2,500,000,000     3/30/2011    $2,500,000,000          —                                                    $8.88               $8,443.97          $10.64    35,244,361            ($1.76)          OUT      $297,222,222
                                                       Warrants
              Kirksville Bancorp, Inc.,                Preferred Stock w/
                                                                                                                                                                                                                                                                                                             Transaction detail I Appendix D I april 28, 2011




3/20/2009                                                                         $470,000                                                                                                                                                                                                       $48,825
              Kirksville, MO2                          Exercised Warrants
              KS Bancorp, Inc., Smithfield,            Preferred Stock w/
8/21/2009                                                                       $4,000,000                                                                                                                                                                                                     $323,367
              NC2                                      Exercised Warrants

                                                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                                                             243
                                                                                                                                                                                                                                                                                                          244
 CPP Transaction Detail, as oF 3/31/2011                                                      (continued)


                                                                                                  Capital        Capital   Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                                Investment               Investment    Repayment      Repayment      Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date            Institution                             Description                 Amount          Date        Amount6      Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
                Lafayette Bancorp, Inc.,                  Preferred Stock w/
2/20/2009                                                                        $1,998,000     9/29/2010     $1,998,000          —     9/29/2010        R           $100,000
                Oxford, MS2, 4, 7, 30 - 9/29/2010, 30a, c Exercised Warrants
                                                                                                                                                                                                                                                                                            $267,134
           Lafayette Bancorp, Inc.,
12/29/2009                                              Preferred Stock          $2,453,000     9/29/2010     $2,453,000          —                     —
           Oxford, MS2, 4, 10a, 30 - 9/29/2010, c

                                                                                                 8/4/2010    $20,000,000 $39,000,000
                 Lakeland Bancorp, Inc., Oak            Preferred Stock w/                                                                                                                                                                                                     OUT
2/6/2009                                                                        $59,000,000                                                                                           $10.38                 $263.81           $9.32       949,571            ($4.03)                     $5,529,306
                 Ridge, NJ4                             Warrants                                                                                                                                                                                                               OUT
                                                                                                3/16/2011    $20,000,000 $19,000,000

                 Lakeland Financial Corporation, Preferred Stock w/
2/27/2009                                                                       $56,044,000      6/9/2010    $56,044,000          —                                                   $22.68                 $367.35          $21.20       198,269             $1.48              IN      $3,596,156
                 Warsaw, IN5                     Warrants
           Layton Park Financial Group,                 Preferred Stock w/
12/18/2009                                                                       $3,000,000                                                                                                                                                                                                 $189,388
           Milwaukee, WI2                               Exercised Warrants

                                              4         Preferred Stock w/
1/9/2009         LCNB Corp., Lebanon, OH                                        $13,400,000    10/21/2009    $13,400,000          —                                                   $11.70                   $78.27          $9.26       217,063             $2.44              IN        $524,833
                                                        Warrants
           Leader Bancorp, Inc.,                        Preferred Stock w/
12/23/2008                                                                       $5,830,000    11/24/2010     $5,830,000          —    11/24/2010        R           $292,000                                                                                                               $609,961
           Arlington, MA2, 4, 7                         Exercised Warrants
                Legacy Bancorp, Inc.,
1/30/2009                                               Preferred Stock          $5,498,000                                                                                                                                                                                                 $355,079
                Milwaukee, WI3, 25
                 Liberty Bancshares, Inc.,              Preferred Stock w/
1/23/2009                                                                       $57,500,000                                                                                                                                                                                               $6,459,007
                 Jonesboro, AR2                         Exercised Warrants
                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I april 28, 2011




                 Liberty Bancshares, Inc.,              Preferred Stock w/
2/13/2009                                                                       $21,900,000                                                                                                                                                                                               $2,393,731
                 Springfield, MO2                       Exercised Warrants
                 Liberty Bancshares, Inc., Fort Preferred Stock w/
12/4/2009                                                                        $6,500,000                                                                                                                                                                                                 $410,216
                 Worth, TX2, 10                 Exercised Warrants
                 Liberty Financial Services, Inc.,
2/6/2009                                             Preferred Stock             $5,645,000     9/24/2010     $5,645,000          —                     —                                                                                                                                   $461,009
                 New Orleans, LA3, 4, 30 - 9/24/2010
                 Liberty Shares, Inc., Hinesville, Preferred Stock w/
2/20/2009                                                                       $17,280,000                                                                                                                                                                                               $1,399,560
                 GA2                               Exercised Warrants
                 Lincoln National Corporation,          Preferred Stock w/
7/10/2009                                                                      $950,000,000     6/30/2010   $950,000,000          —     9/16/2010        A      $216,620,887          $30.04               $9,486.60                                                                     $46,180,555
                 Radnor, PA4                            Warrants
                                        Preferred Stock w/
12/12/2008 LNB Bancorp Inc., Lorain, OH                                         $25,223,000                                                                                            $5.69                  $44.87           $6.74       561,343            ($1.05)          OUT        $2,743,002
                                        Warrants

                                                    2   Preferred Stock w/
2/6/2009        Lone Star Bank, Houston, TX                                      $3,072,000                                                                                                                                                                                                         —
                                                        Exercised Warrants
           LSB Corporation, North                       Preferred Stock w/
12/12/2008                                                                      $15,000,000    11/18/2009    $15,000,000          —    12/16/2009        R           $560,000                                                                                                               $700,000
           Andover, MA4                                 Warrants
                M&F Bancorp, Inc., Durham,
6/26/2009                                               Preferred Stock         $11,735,000     8/20/2010    $11,735,000          —                     —                                                                                                                                   $674,763
                NC2, 3, 4, 10, 30 - 8/20/2010
                 M&T Bank Corporation,                  Preferred Stock w/
12/23/2008                                                                     $600,000,000                                                                                                                                   $73.86     1,218,522            $14.61              IN     $71,908,333
                 Buffalo, NYd                           Warrants
           M&T Bank Corporation                                                                                                                                                       $88.47              $10,646.21
                                         Preferred Stock w/
11/14/2008 (Provident Bancshares Corp.),                                       $151,500,000                                                                                                                                   $55.76       407,542            $32.71              IN      $9,489,792
                                         Warrants
           Baltimore, MD
                 Mackinac Financial Corporation,Preferred Stock w/
4/24/2009                                                                       $11,000,000                                                                                            $6.02                   $20.59          $4.35       379,310             $1.67              IN        $994,583
                 Manistique, MI                 Warrants
                 Madison Financial Corporation, Preferred Stock w/
3/13/2009                                                                        $3,370,000                                                                                                                                                                                                 $169,422
                 Richmond, KY2                  Exercised Warrants

                                               2, 4     Preferred Stock w/
12/23/2008 Magna Bank, Memphis, TN                                              $13,795,000    11/24/2009     $3,455,000 $10,340,000                                                                                                                                                      $1,400,682
                                                        Exercised Warrants
           Mainline Bancorp, Inc.,                      Preferred Stock w/
12/29/2009                                                                       $4,500,000                                                                                                                                                                                                 $276,588
           Ebensburg, PA2                               Exercised Warrants
                 MainSource Financial Group,            Preferred Stock w/
1/16/2009                                                                       $57,000,000                                                                                           $10.01                 $201.56          $14.95       571,906            ($4.94)          OUT        $5,929,583
                 Inc., Greensburg, IN                   Warrants
                 Manhattan Bancorp, El                  Preferred Stock w/
12/5/2008                                                                        $1,700,000     9/16/2009     $1,700,000          —    10/14/2009        R            $63,364          $5.40                  $21.54                                                                          $66,347
                 Segundo, CA4                           Warrants
                                                        Subordinated
                Manhattan Bancshares, Inc.,
6/19/2009                                               Debentures w/            $2,639,000                                                                                                                                                                                                 $366,572
                Manhattan, IL8
                                                        Exercised Warrants
                 Marine Bank & Trust Company, Preferred Stock w/
3/6/2009                                                                         $3,000,000                                                                                                                                                                                                 $235,713
                 Vero Beach, FL2              Exercised Warrants
                 Market Bancorporation, Inc.,           Preferred Stock w/
2/20/2009                                                                        $2,060,000                                                                                                                                                                                                 $138,778
                 New Market, MN2                        Exercised Warrants

                                                                                                                                                                                                                                                                              Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                                    (continued)


                                                                                                Capital      Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                         Investment                    Investment    Repayment    Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date           Institution                       Description                      Amount          Date      Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
                                                 Subordinated
               Market Street Bancshares,
5/15/2009                                        Debentures w/               $20,300,000                                                                                                                                                                                               $2,980,548
               Inc., Mt. Vernon, IL8
                                                 Exercised Warrants
               Marquette National                Preferred Stock w/
12/19/2008                                                                   $35,500,000                                                                                                                                                                                               $4,170,462
               Corporation, Chicago, IL2         Exercised Warrants
           Marshall & Ilsley Corporation,        Preferred Stock w/
11/14/2008                                                                 $1,715,000,000                                                                                           $7.99               $4,235.65          $18.62    13,815,789           ($10.63)          OUT      $193,175,694
           Milwaukee, WI                         Warrants
               Maryland Financial Bank,          Preferred Stock w/
3/27/2009                                                                     $1,700,000                                                                                                                                                                                                   $81,841
               Towson, MD2                       Exercised Warrants
                                                 Preferred Stock w/
12/5/2008      MB Financial Inc., Chicago, ILb                              $196,000,000                                                                                           $20.96               $1,130.94          $29.05       506,024            ($8.09)          OUT       $21,505,556
                                                 Warrants
           McLeod Bancshares, Inc.,              Preferred Stock w/
11/20/2009                                                                    $6,000,000                                                                                                                                                                                                 $404,208
           Shorewood, MN2                        Exercised Warrants
               Medallion Bank,                   Preferred Stock w/
2/27/2009                                                                    $11,800,000
               Salt Lake City, UT2, c            Exercised Warrants
                                                                                                                                                                                                                                                                                       $1,826,730
           Medallion Bank,                       Preferred Stock w/
12/22/2009                                                                    $9,698,000
           Salt Lake City, UT2, 10a, c           Exercised Warrants
               Mercantile Bank Corporation,      Preferred Stock w/
5/15/2009                                                                    $21,000,000                                                                                            $9.74                   $83.74          $5.11       616,438             $4.63              IN      $1,050,000
               Grand Rapids, MI                  Warrants
               Mercantile Capital Corp.,         Preferred Stock w/
2/6/2009                                                                      $3,500,000                                                                                                                                                                                                 $386,269
               Boston, MA2                       Exercised Warrants
               Merchants and Manufacturers Preferred Stock w/
6/19/2009                                                                     $3,510,000                                                                                                                                                                                                 $316,774
               Bank Corporation, Joliet, IL2 Exercised Warrants
               Merchants and Planters            Preferred Stock w/
3/6/2009                                                                      $1,881,000                                                                                                                                                                                                 $199,041
               Bancshares, Inc., Toone, TN2      Exercised Warrants
                                                 Preferred Stock w/
2/13/2009      Meridian Bank, Devon, PA2, c                                   $6,200,000
                                                 Exercised Warrants
                                                                                                                                                                                                                                                                                       $1,050,738
12/11/2009 Meridian Bank, Devon, PA2, 10a, c Preferred Stock                  $6,335,000

               Metro City Bank, Doraville,       Preferred Stock w/
1/30/2009                                                                     $7,700,000                                                                                                                                                                                                 $856,786
               GA2                               Exercised Warrants
               MetroCorp Bancshares, Inc.,       Preferred Stock w/
1/16/2009                                                                    $45,000,000                                                                                            $6.65                   $88.41          $8.75       771,429            ($2.10)          OUT        $4,139,688
               Houston, TX                       Warrants
               Metropolitan Bank Group, Inc., Preferred Stock w/
6/26/2009                                                                    $74,706,000                                                                                                                                                                                               $3,454,185
               Chicago, IL2, 41 - 3/30/2011   Exercised Warrants
               Metropolitan Bank Group, Inc.
                                             Preferred Stock w/
6/26/2009      (NC Bancorp, Inc.), Chicago,                                   $7,186,000                                                                                                                                                                                                 $332,256
                                             Exercised Warrants
               IL2, 41 - 3/30/2011
               Metropolitan Capital Bancorp, Preferred Stock w/
4/10/2009                                                                     $2,040,000
               Inc., Chicago, IL2, c         Exercised Warrants
                                                                                                                                                                                                                                                                                         $350,494
           Metropolitan Capital Bancorp,
11/20/2009                               Preferred Stock                      $2,348,000
           Inc., Chicago, IL2, 10a, c
               Mid Penn Bancorp, Inc.,           Preferred Stock w/
12/19/2008                                                                   $10,000,000                                                                                            $8.89                   $30.94         $20.52        73,099           ($11.63)          OUT        $1,077,778
               Millersburg, PA                   Warrants
               Middleburg Financial              Preferred Stock w/
1/30/2009                                                                    $22,000,000     12/23/2009   $22,000,000          —                                                   $17.75                 $122.92          $15.85       104,101             $1.90              IN        $986,944
               Corporation, Middleburg, VA5      Warrants
               Midland States Bancorp, Inc., Preferred Stock w/
1/23/2009                                                                    $10,189,000     12/23/2009   $10,189,000          —    12/23/2009        R           $509,000                                                                                                               $508,989
               Effingham, IL2, 4, 7          Exercised Warrants
               MidSouth Bancorp, Inc.,           Preferred Stock w/
1/9/2009                                                                     $20,000,000                                                                                           $14.46                 $140.70          $14.37       104,384             $0.09              IN      $2,100,000
               Lafayette, LAb                    Warrants
               Midtown Bank & Trust              Preferred Stock w/
2/27/2009                                                                     $5,222,000                                                                                                                                                                                                 $275,105
               Company, Atlanta, GA2             Exercised Warrants
                                                 Mandatorily Convertible
               Midwest Banc Holdings, Inc.,
12/5/2008                                        Preferred Stock w/          $89,388,000                                                                                            $0.01                    $0.19          $0.31     4,282,020            ($0.31)          OUT          $824,289
               Melrose Park, IL14, 20, i
                                                 Warrants
               Midwest Regional Bancorp,         Preferred Stock w/
2/13/2009                                                                       $700,000     11/10/2009     $700,000           —    11/10/2009        R            $35,000                                                                                                                 $28,294
               Inc., Festus, MO2, 4, 7           Exercised Warrants
               MidWestOne Financial Group,       Preferred Stock w/
2/6/2009                                                                     $16,000,000                                                                                           $14.84                 $127.98          $12.08       198,675             $2.76              IN      $1,620,000
               Inc., Iowa City, IA               Warrants
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I april 28, 2011




               Mid-Wisconsin Financial           Preferred Stock w/
2/20/2009                                                                    $10,000,000                                                                                                                                                                                               $1,082,431
               Services, Inc., Medford, WI2      Exercised Warrants
               Millennium Bancorp, Inc.,         Preferred Stock w/
4/3/2009                                                                      $7,260,000                                                                                                                                                                                                 $343,053
               Edwards, CO2                      Exercised Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                                                       245
                                                                                                                                                                                                                                                                                                    246
 CPP Transaction Detail, as oF 3/31/2011                                             (continued)


                                                                                         Capital          Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                      Investment                Investment    Repayment        Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                     Description                  Amount          Date          Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
              Mission Community Bancorp,
1/9/2009                                      Preferred Stock           $5,116,000                                                                                                                                                                                                    $537,180
              San Luis Obispo, CA3
           Mission Valley Bancorp, Sun
12/23/2008                                    Preferred Stock           $5,500,000     8/20/2010       $5,500,000           —                     —                                                                                                                                   $456,042
           Valley, CA3, 4, 30 - 8/20/2010
           Monadnock Bancorp, Inc.,           Preferred Stock w/
12/19/2008                                                              $1,834,000                                                                                                                                                                                                    $190,517
           Peterborough, NH2                  Exercised Warrants
              Monarch Community Bancorp, Preferred Stock w/
2/6/2009                                                                $6,785,000                                                                                               $1.54                    $3.15          $3.90       260,962            ($2.36)          OUT          $262,919
              Inc., Coldwater, MI        Warrants
              Monarch Financial Holdings,     Preferred Stock w/
12/19/2008                                                            $14,700,000     12/23/2009      $14,700,000           —     2/10/2010        R           $260,000          $8.39                  $50.05                                                                        $743,167
              Inc., Chesapeake, VA5, 9        Warrants
              Moneytree Corporation,          Preferred Stock w/
3/13/2009                                                               $9,516,000                                                                                                                                                                                                    $996,941
              Lenoir City, TN2                Exercised Warrants
              Monument Bank, Bethesda,        Preferred Stock w/
1/30/2009                                                               $4,734,000                                                                                                                                                                                                    $526,811
              MD2                             Exercised Warrants
           Morgan Stanley, New York,          Preferred Stock w/
10/28/2008                                                         $10,000,000,000     6/17/2009   $10,000,000,000          —     8/12/2009        R      $950,000,000          $27.32              $42,226.67                                                                    $318,055,555
           NY4                                Warrants
              Morrill Bancshares, Inc.,       Preferred Stock w/
1/16/2009                                                             $13,000,000                                                                                                                                                                                                   $1,474,074
                                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I april 28, 2011




              Merriam, KS2                    Exercised Warrants
              Moscow Bancshares, Inc.,        Preferred Stock w/
1/23/2009                                                               $6,216,000                                                                                                                                                                                                    $698,284
              Moscow, TN2                     Exercised Warrants
              Mountain Valley Bancshares,     Preferred Stock w/
9/25/2009                                                               $3,300,000                                                                                                                                                                                                    $249,792
              Inc., Cleveland, GA2            Exercised Warrants
              MS Financial, Inc., Kingwood,   Preferred Stock w/
3/27/2009                                                               $7,723,000                                                                                                                                                                                                    $477,009
              TX2                             Exercised Warrants
           MutualFirst Financial, Inc.,       Preferred Stock w/
12/23/2008                                                            $32,382,000                                                                                                $9.20                   $64.27          $7.77       625,135             $1.43              IN      $3,472,070
           Muncie, IN                         Warrants
              Naples Bancorp, Inc.,           Preferred Stock w/
3/27/2009                                                               $4,000,000                                                                                                                                                                                                    $356,067
              Naples, FL2                     Exercised Warrants
              Nara Bancorp, Inc., Los         Preferred Stock w/
11/21/2008                                                            $67,000,000                                                                                                $9.62                 $365.40           $9.64       521,266            ($0.02)          OUT        $7,481,667
              Angeles, CAb                    Warrants
              National Bancshares, Inc.,      Preferred Stock w/
2/27/2009                                                             $24,664,000                                                                                                                                                                                                   $2,307,492
              Bettendorf, IA2                 Exercised Warrants
           National Penn Bancshares,          Preferred Stock w/
12/12/2008                                                           $150,000,000      3/16/2011     $150,000,000           —                                                    $7.74               $1,171.44          $15.30       735,294            ($7.56)          OUT       $16,958,333
           Inc., Boyertown, PA4, b            Warrants
                                              Subordinated
              Nationwide Bankshares, Inc.,
12/11/2009                                    Debentures w/             $2,000,000    12/29/2010       $2,000,000           —    12/29/2010        R           $100,000                                                                                                               $176,190
              West Point, NE4, 7, 8
                                              Exercised Warrants
           NCAL Bancorp, Los Angeles,         Preferred Stock w/
12/19/2008                                                            $10,000,000                                                                                                                                                                                                   $1,174,778
           CA2                                Exercised Warrants
                                              Subordinated
              NEMO Bancshares Inc.,
6/19/2009                                     Debentures w/             $2,330,000                                                                                                                                                                                                    $323,754
              Madison, MO8
                                              Exercised Warrants
              New Hampshire Thrift
                                              Preferred Stock w/
1/16/2009     Bancshares, Inc., Newport,                              $10,000,000                                                                                               $13.21                   $76.27          $8.14       184,275             $5.07              IN      $1,040,278
                                              Warrants
              NH
              New York Private Bank &
                                              Preferred Stock w/
1/9/2009      Trust Corporation, New                                 $267,274,000                                                                                                                                                                                                  $30,589,566
                                              Exercised Warrants
              York, NY2
           NewBridge Bancorp,                 Preferred Stock w/
12/12/2008                                                            $52,372,000                                                                                                $4.96                   $77.65          $3.06     2,567,255             $1.90              IN      $5,695,455
           Greensboro, NC                     Warrants
           Nicolet Bankshares, Inc.,          Preferred Stock w/
12/23/2008                                                            $14,964,000                                                                                                                                                                                                   $1,748,837
           Green Bay, WI2                     Exercised Warrants
              North Central Bancshares,       Preferred Stock w/
1/9/2009                                                              $10,200,000                                                                                               $16.55                   $22.36         $15.43        99,157             $1.12              IN      $1,071,000
              Inc., Fort Dodge, IA            Warrants
              Northeast Bancorp,              Preferred Stock w/
12/12/2008                                                              $4,227,000                                                                                              $14.50                   $50.83          $9.33        67,958             $5.17              IN        $459,687
              Lewiston, ME                    Warrants
              Northern State Bank,            Preferred Stock w/
5/15/2009                                                               $1,341,000
              Closter, NJ2, c                 Exercised Warrants
                                                                                                                                                                                                                                                                                      $199,128
           Northern State Bank,
12/18/2009                                    Preferred Stock           $1,230,000
           Closter, NJ2, 10a, c
              Northern States Financial       Preferred Stock w/
2/20/2009                                                             $17,211,000                                                                                                $1.48                    $6.33          $4.42       584,084            ($2.94)          OUT          $418,323
              Corporation, Waukegan, IL       Warrants
              Northern Trust Corporation,     Preferred Stock w/
11/14/2008                                                          $1,576,000,000     6/17/2009    $1,576,000,000          —     8/26/2009        R        $87,000,000         $50.75              $12,287.34                                                                     $46,623,333
              Chicago, IL4                    Warrants

                                                                                                                                                                                                                                                                        Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                             (continued)


                                                                                         Capital        Capital   Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                         Investment             Investment    Repayment      Repayment      Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                         Description               Amount          Date        Amount6      Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             Northway Financial, Inc.,           Preferred Stock w/
1/30/2009                                                              $10,000,000                                                                                                                                                                                               $1,112,708
             Berlin, NH2                         Exercised Warrants
             Northwest Bancorporation,           Preferred Stock w/
2/13/2009                                                              $10,500,000                                                                                                                                                                                                 $575,430
             Inc., Spokane, WA2                  Exercised Warrants
             Northwest Commercial Bank,          Preferred Stock w/
2/13/2009                                                               $1,992,000                                                                                                                                                                                                 $217,803
             Lakewood, WA2                       Exercised Warrants
             Oak Ridge Financial Services, Preferred Stock w/
1/30/2009                                                               $7,700,000                                                                                            $4.60                    $8.26          $7.05       163,830            ($2.45)          OUT          $786,042
             Inc., Oak Ridge, NC           Warrants
             Oak Valley Bancorp, Oakdale, Preferred Stock w/
12/5/2008                                                              $13,500,000                                                                                            $5.99                   $46.21          $5.78       350,346             $0.21              IN      $1,481,250
             CA                           Warrants
             OceanFirst Financial Corp.,         Preferred Stock w/
1/16/2009                                                              $38,263,000    12/30/2009    $38,263,000          —     2/3/2010         R           $430,797         $13.95                 $262.86                                                                      $1,828,122
             Toms River, NJ5, 9                  Warrants
             Ojai Community Bank, Ojai,          Preferred Stock w/
1/30/2009                                                               $2,080,000                                                                                                                                                                                                 $203,103
             CA2                                 Exercised Warrants
             Old Line Bancshares, Inc.,          Preferred Stock w/
12/5/2008                                                               $7,000,000     7/15/2009     $7,000,000          —     9/2/2009         R           $225,000          $9.37                  $36.47                                                                        $213,889
             Bowie, MD4                          Warrants
           Old National Bancorp,                 Preferred Stock w/
12/12/2008                                                            $100,000,000     3/31/2009   $100,000,000          —     5/8/2009         R         $1,200,000         $10.72               $1,015.55                                                                      $1,513,889
           Evansville, IN4                       Warrants
             Old Second Bancorp, Inc.,           Preferred Stock w/
1/16/2009                                                              $73,000,000                                                                                            $1.00                  $14.06          $13.43       815,339           ($12.43)          OUT        $5,769,028
             Aurora, IL                          Warrants
             Omega Capital Corp.,                Preferred Stock w/
4/17/2009                                                               $2,816,000                                                                                                                                                                                                   $50,311
             Lakewood, CO2                       Exercised Warrants
             One Georgia Bank, Atlanta,          Preferred Stock w/
5/8/2009                                                                $5,500,000                                                                                                                                                                                                         —
             GA2                                 Exercised Warrants
                                                 Subordinated
             OneFinancial Corporation,
6/5/2009                                         Debentures w/         $17,300,000                                                                                                                                                                                               $2,378,993
             Little Rock, AR8, 10
                                                 Exercised Warrants
             OneUnited Bank, Boston,
12/19/2008                                       Preferred Stock       $12,063,000                                                                                                                                                                                                   $93,823
             MA2, 3
             Oregon Bancorp, Inc.,               Preferred Stock w/
4/24/2009                                                               $3,216,000                                                                                                                                                                                                 $316,983
             Salem, OR2                          Exercised Warrants
                                                 Subordinated
             OSB Financial Services, Inc.,
5/1/2009                                         Debentures w/          $6,100,000                                                                                                                                                                                                 $930,338
             Orange, TX8
                                                 Exercised Warrants
             Pacific Capital Bancorp,           Common Stock w/
11/21/2008                                                            $195,045,000                                                                                           $29.64                 $975.22          $20.00        15,120             $9.64              IN      $2,107,397
             Santa Barbara, CA29 - 9/24/2010, i Warrants
           Pacific City Financial        Preferred Stock w/
12/19/2008                                                             $16,200,000                                                                                                                                                                                                 $358,065
           Corporation, Los Angeles, CA2 Exercised Warrants
           Pacific Coast Bankers’
                                                 Preferred Stock w/
12/23/2008 Bancshares, San Francisco,                                  $11,600,000                                                                                                                                                                                               $1,355,718
                                                 Exercised Warrants
           CA2
             Pacific Coast National         Preferred Stock w/
1/16/2009                                                               $4,120,000     2/11/2010             —           —                                                                                                                                                           $18,088
             Bancorp, San Clemente, CA2, 19 Exercised Warrants
           Pacific Commerce Bank,                Preferred Stock w/
12/23/2008                                                              $4,060,000                                                                                                                                                                                                 $387,223
           Los Angeles, CA2                      Exercised Warrants
             Pacific International Bancorp,      Preferred Stock w/
12/12/2008                                                              $6,500,000                                                                                                                                                                                                 $300,625
             Seattle, WA                         Warrants
             Park Bancorporation, Inc.,          Preferred Stock w/
3/6/2009                                                               $23,200,000                                                                                                                                                                                               $2,455,043
             Madison, WI2                        Exercised Warrants
           Park National Corporation,            Preferred Stock w/
12/23/2008                                                            $100,000,000                                                                                           $66.82               $1,028.96          $65.97       227,376             $0.85              IN     $10,722,222
           Newark, OH                            Warrants
             Parke Bancorp, Inc., Sewell,        Preferred Stock w/
1/30/2009                                                              $16,288,000                                                                                            $9.17                  $40.73           $7.41       329,757             $1.76              IN      $1,662,733
             NJg                                 Warrants
             Parkvale Financial                  Preferred Stock w/
12/23/2008                                                             $31,762,000                                                                                            $9.75                  $54.42          $12.66       376,327            ($2.91)          OUT        $3,405,592
             Corporation, Monroeville, PA        Warrants
             Pascack Bancorp, Inc.
                                                 Preferred Stock w/
2/6/2009     (Pascack Community Bank),                                  $3,756,000                                                                                                                                                                                                 $414,558
                                                 Exercised Warrants
             Westwood, NJ2, 13 - 2/10/2010
           Patapsco Bancorp, Inc.,               Preferred Stock w/
12/19/2008                                                              $6,000,000                                                                                                                                                                                                 $377,867
           Dundalk, MD2                          Exercised Warrants
             Pathfinder Bancorp, Inc.,           Preferred Stock w/
                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I april 28, 2011




9/11/2009                                                               $6,771,000                                                                                           $10.15                   $25.22          $6.58       154,354             $3.57              IN        $483,374
             Oswego, NY                          Warrants

                                             2   Preferred Stock w/
3/27/2009    Pathway Bancorp, Cairo, NE                                 $3,727,000                                                                                                                                                                                                   $77,852
                                                 Exercised Warrants

                                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                                                 247
                                                                                                                                                                                                                                                                                                          248
 CPP Transaction Detail, as oF 3/31/2011                                                       (continued)


                                                                                                   Capital      Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                               Investment                 Investment    Repayment    Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                               Description                   Amount          Date      Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             Patriot Bancshares, Inc.,                 Preferred Stock w/
12/19/2008                                                                       $26,038,000                                                                                                                                                                                              $2,704,136
             Houston, TX2                              Exercised Warrants
             Patterson Bancshares, Inc,                Preferred Stock w/
4/17/2009                                                                         $3,690,000                                                                                                                                                                                                $166,508
             Patterson, LA2                            Exercised Warrants

                                                                                                  1/6/2010    $7,172,000 $21,513,000
             Peapack-Gladstone Financial Preferred Stock w/
1/9/2009                                                                         $28,685,000                                                                                          $13.26                 $116.99          $28.63       150,296           ($15.37)          OUT        $2,631,411
             Corporation, Gladstone, NJ4, g Warrants
                                                                                                  3/2/2011    $7,172,000 $14,341,000

             Peninsula Bank Holding Co.,               Preferred Stock w/
1/30/2009                                                                         $6,000,000                                                                                           $7.10                   $13.14         $11.02        81,670            ($3.92)          OUT          $633,943
             Palo Alto, CA                             Warrants
             Penn Liberty Financial Corp.,             Preferred Stock w/
4/17/2009                                                                         $9,960,000                                                                                                                                                                                                $992,154
             Wayne, PA2                                Exercised Warrants
                                         Preferred Stock w/
                                                   2
2/13/2009    Peoples Bancorp, Lynden, WA                                         $18,000,000                                                                                                                                                                                              $1,967,450
                                         Exercised Warrants
             Peoples Bancorp Inc.,                     Preferred Stock w/
1/30/2009                                                                        $39,000,000      2/2/2011   $21,000,000 $18,000,000                                                  $12.02                 $126.73          $18.66       313,505            ($6.64)          OUT        $3,943,333
             Marietta, OH4                             Warrants
             Peoples Bancorp of North                  Preferred Stock w/
12/23/2008                                                                       $25,054,000                                                                                           $6.68                   $37.01         $10.52       357,234            ($3.84)          OUT        $2,686,346
             Carolina, Inc., Newton, NC                Warrants
                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I april 28, 2011




             Peoples Bancorporation,                   Preferred Stock w/
4/24/2009                                                                        $12,660,000                                                                                                                                                                                              $1,247,696
             Inc., Easley, SC2                         Exercised Warrants
             Peoples Bancshares of TN,                 Preferred Stock w/
3/20/2009                                                                         $3,900,000                                                                                                                                                                                                $404,435
             Inc, Madisonville, TN2                    Exercised Warrants
             PeoplesSouth Bancshares,                  Preferred Stock w/
3/6/2009                                                                         $12,325,000                                                                                                                                                                                              $1,304,198
             Inc., Colquitt, GA2                       Exercised Warrants
             PFSB Bancorporation, Inc.,                Preferred Stock w/
9/11/2009                                                                         $1,500,000                                                                                                                                                                                                $116,207
             Pigeon Falls, WI2, 10                     Exercised Warrants
             PGB Holdings, Inc., Chicago,
2/6/2009                                               Preferred Stock            $3,000,000     8/13/2010    $3,000,000          —                     —                                                                                                                                   $227,917
             IL3, 4, 30 - 8/13/2010
             Pierce County Bancorp,                    Preferred Stock w/
1/23/2009                                                                         $6,800,000                                                                                                                                                                                                $207,948
             Tacoma, WA2, 25                           Exercised Warrants
             Pinnacle Bank Holding
                                                       Preferred Stock w/
3/6/2009     Company, Inc., Orange                                                $4,389,000                                                                                                                                                                                                $284,999
                                                       Exercised Warrants
             City, FL2
             Pinnacle Financial Partners,              Preferred Stock w/
12/12/2008                                                                       $95,000,000                                                                                          $16.54                 $562.21          $26.64       267,455           ($10.10)          OUT       $10,331,250
             Inc., Nashville, TNb                      Warrants
           Plains Capital Corporation,                 Preferred Stock w/
12/19/2008                                                                       $87,631,000                                                                                                                                                                                             $10,294,783
           Dallas, TX2                                 Exercised Warrants
                                                       Subordinated
             Plato Holdings Inc., Saint
7/17/2009                                              Debentures w/              $2,500,000                                                                                                                                                                                                $327,020
             Paul, MN8, 10
                                                       Exercised Warrants
                                                       Preferred Stock w/
1/30/2009    Plumas Bancorp, Quincy, CA                                          $11,949,000                                                                                           $2.15                   $10.27          $7.54       237,712            ($5.39)          OUT          $622,344
                                                       Warrants
                                                       Trust Preferred
12/5/2008    Popular, Inc., San Juan, PR12                                      $935,000,000                                                                                           $2.92               $2,987.48           $6.70    20,932,836            ($3.78)          OUT       $89,734,028
                                                       Securities w/ Warrants
             Porter Bancorp Inc.,                      Preferred Stock w/
11/21/2008                                                                       $35,000,000                                                                                           $7.89                  $89.01          $15.88       330,561            ($7.99)          OUT        $3,908,333
             Louisville, KYg                           Warrants
             Prairie Star Bancshares, Inc.,            Preferred Stock w/
4/3/2009                                                                          $2,800,000                                                                                                                                                                                                $132,253
             Olathe, KS2                               Exercised Warrants
             Premier Bancorp, Inc.,                    Subordinated
5/8/2009                                                                          $6,784,000     8/13/2010    $6,784,000          —                     —                                                                                                                                   $660,215
             Wilmette, IL3, 4, 8, 30 - 8/13/2010       Debentures
             Premier Bank Holding                      Preferred Stock w/
3/20/2009                                                                         $9,500,000                                                                                                                                                                                                $467,413
             Company, Tallahassee, FL2                 Exercised Warrants
             Premier Financial Bancorp,                Preferred Stock w/
10/2/2009                                                                        $22,252,000                                                                                           $7.10                   $56.35          $5.31       628,588             $1.79              IN        $967,344
             Inc., Huntington, WV                      Warrants
                                                       Subordinated
             Premier Financial Corp,
5/22/2009                                              Debentures w/              $6,349,000                                                                                                                                                                                                $522,263
             Dubuque, IA8
                                                       Exercised Warrants

                                                                                                                                                                                                                                                                              Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                                  (continued)


                                                                                              Capital      Capital   Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                            Investment               Investment    Repayment    Repayment      Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                            Description                 Amount          Date      Amount6      Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             Premier Service Bank,                  Preferred Stock w/
2/20/2009                                                                   $4,000,000                                                                                                                                                                                                  $54,500
             Riverside, CA2                         Exercised Warrants
             PremierWest Bancorp,                   Preferred Stock w/
2/13/2009                                                                  $41,400,000                                                                                           $2.19                  $21.98          $56.95       109,039           ($54.76)          OUT        $1,046,500
             Medford, ORg, j                        Warrants
           Presidio Bank, San Francisco, Preferred Stock w/
11/20/2009                                                                 $10,800,000                                                                                                                                                                                                        —
           CA2, 10                       Exercised Warrants
             Princeton National Bancorp,            Preferred Stock w/
1/23/2009                                                                  $25,083,000                                                                                           $5.39                   $17.93         $24.27       155,025           ($18.88)          OUT        $2,271,405
             Inc., Princeton, IL                    Warrants
             Private Bancorporation, Inc.,          Preferred Stock w/
2/27/2009                                                                   $4,960,000
             Minneapolis, MN2, c                    Exercised Warrants
                                                                                                                                                                                                                                                                                      $607,215
             Private Bancorporation, Inc.,
12/29/2009                                          Preferred Stock         $3,262,000
             Minneapolis, MN2, 10a, c
             PrivateBancorp, Inc.,                  Preferred Stock w/
1/30/2009                                                                 $243,815,000                                                                                          $15.29               $1,091.06          $28.35       645,013           ($13.06)          OUT       $24,889,448
             Chicago, ILb                           Warrants
             Providence Bank, Rocky                 Preferred Stock w/
10/2/2009                                                                   $4,000,000                                                                                                                                                                                                $295,458
             Mount, NC2, 10                         Exercised Warrants
             Provident Community
                                                    Preferred Stock w/
3/13/2009    Bancshares, Inc., Rock Hill,                                   $9,266,000                                                                                           $0.75                    $1.34          $7.77       178,880            ($7.02)          OUT          $543,091
                                                    Warrants
             SC
             PSB Financial Corporation,             Preferred Stock w/
2/27/2009                                                                   $9,270,000      9/29/2010   $9,270,000          —    9/29/2010         R           $464,000                                                                                                               $802,802
             Many, LA2, 4, 7, 30 - 9/29/2010, 30a   Exercised Warrants
             Puget Sound Bank, Bellevue,            Preferred Stock w/
1/16/2009                                                                   $4,500,000                                                                                                                                                                                                $510,257
             WA2                                    Exercised Warrants
             Pulaski Financial Corp, Creve          Preferred Stock w/
1/16/2009                                                                  $32,538,000                                                                                           $7.50                   $82.19          $6.27       778,421             $1.23              IN      $3,384,856
             Coeur, MO                              Warrants
                                                    Preferred Stock w/
2/13/2009    QCR Holdings, Inc., Moline, IL                                $38,237,000                                                                                           $8.40                   $39.53         $10.99       521,888            ($2.59)          OUT        $3,834,322
                                                    Warrants
           Randolph Bank & Trust                    Preferred Stock w/
10/30/2009                                                                  $6,229,000                                                                                                                                                                                                $438,443
           Company, Asheboro, NC2                   Exercised Warrants
             RCB Financial Corporation,             Preferred Stock w/
6/19/2009                                                                   $8,900,000                                                                                                                                                                                                $776,654
             Rome, GA2, 10                          Exercised Warrants
             Redwood Capital Bancorp,               Preferred Stock w/
1/16/2009                                                                   $3,800,000                                                                                                                                                                                                $430,883
             Eureka, CA2                            Exercised Warrants
             Redwood Financial Inc.,                Preferred Stock w/
1/9/2009                                                                    $2,995,000                                                                                                                                                                                                $342,826
             Redwood Falls, MN2                     Exercised Warrants
             Regent Bancorp, Inc.,                  Preferred Stock w/
3/6/2009                                                                    $9,982,000                                                                                                                                                                                                $784,282
             Davie, FL2                             Exercised Warrants
             Regent Capital Corporation,            Preferred Stock w/
2/27/2009                                                                   $2,655,000                                                                                                                                                                                                $284,616
             Nowata, OK2                            Exercised Warrants
           Regents Bancshares, Inc.,                Preferred Stock w/
10/23/2009                                                                 $12,700,000                                                                                                                                                                                                $877,513
           Vancouver, WA2, 10                       Exercised Warrants
             Regional Bankshares, Inc.,             Preferred Stock w/
2/13/2009                                                                   $1,500,000                                                                                                                                                                                                $163,955
             Hartsville, SC2                        Exercised Warrants
             Regions Financial Corporation, Preferred Stock w/
11/14/2008                                                               $3,500,000,000                                                                                          $7.26               $9,132.47          $10.88    48,253,677            ($3.62)          OUT      $394,236,111
             Birmingham, AL                 Warrants
             Reliance Bancshares, Inc.,             Preferred Stock w/
2/13/2009                                                                  $40,000,000                                                                                                                                                                                              $3,827,111
             Frontenac, MO2                         Exercised Warrants
             Ridgestone Financial Services, Preferred Stock w/
2/27/2009                                                                  $10,900,000                                                                                                                                                                                                $277,224
             Inc., Brookfield, WI2          Exercised Warrants
             Rising Sun Bancorp, Rising             Preferred Stock w/
1/9/2009                                                                    $5,983,000                                                                                                                                                                                                $195,637
             Sun, MD2                               Exercised Warrants
                                                    Subordinated
             River Valley Bancorporation,
6/12/2009                                           Debentures w/          $15,000,000                                                                                                                                                                                              $2,107,988
             Inc., Wausau, WI8
                                                    Exercised Warrants
                                                    Subordinated
             Riverside Bancshares, Inc.,
5/15/2009                                           Debentures w/           $1,100,000                                                                                                                                                                                                $161,508
             Little Rock, AR8
                                                    Exercised Warrants
             Rogers Bancshares, Inc.,               Preferred Stock w/
1/30/2009                                                                  $25,000,000                                                                                                                                                                                                $738,021
             Little Rock, AR2                       Exercised Warrants
             Royal Bancshares of
                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 28, 2011




                                                    Preferred Stock w/
2/20/2009    Pennsylvania, Inc., Narberth,                                 $30,407,000                                                                                           $1.80                   $21.84          $4.13     1,104,370            ($2.33)          OUT          $358,971
                                                    Warrants
             PA
                                                    Preferred Stock w/
1/16/2009    S&T Bancorp, Indiana, PA                                     $108,676,000                                                                                          $21.57                 $603.68          $31.53       517,012            ($9.96)          OUT       $11,305,323
                                                    Warrants

                                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                                    249
                                                                                                                                                                                                                                                                                                  250
 CPP Transaction Detail, as oF 3/31/2011                                              (continued)


                                                                                          Capital        Capital   Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                          Investment             Investment    Repayment      Repayment      Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                          Description               Amount          Date        Amount6      Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             Saigon National Bank,                Preferred Stock w/
12/23/2008                                                               $1,549,000                                                                                                                                                                                                         —
             Westminster, CA2                     Exercised Warrants
             Salisbury Bancorp, Inc.,             Preferred Stock w/
3/13/2009                                                                $8,816,000                                                                                           $26.82                   $45.27         $22.93        57,671             $3.89              IN        $847,316
             Lakeville, CT                        Warrants

                                                                                        7/21/2010    $41,547,000 $41,547,000
             Sandy Spring Bancorp, Inc.,          Preferred Stock w/
12/5/2008                                                               $83,094,000                                             2/23/2011        R         $4,450,000         $18.46                 $447.29          $19.13       651,547            ($0.67)          OUT        $7,593,868
             Olney, MD4                           Warrants
                                                                                       12/15/2010    $41,547,000          —

             Santa Clara Valley Bank, N.A., Preferred Stock w/
2/13/2009                                                                $2,900,000                                                                                                                                                                                                 $158,928
             Santa Paula, CA2               Exercised Warrants
           Santa Lucia Bancorp,                   Preferred Stock w/
12/19/2008                                                               $4,000,000                                                                                            $0.80                    $1.60         $15.75        38,107           ($14.95)          OUT          $331,111
           Atascadero, CAg                        Warrants
             SBT Bancorp, Inc., Simsbury, Preferred Stock w/
3/27/2009                                                                $4,000,000                                                                                                                                                                                                 $410,567
             CT2                          Exercised Warrants
             SCBT Financial Corporation,          Preferred Stock w/
1/16/2009                                                               $64,779,000     5/20/2009    $64,779,000          —     6/24/2009        R         $1,400,000         $33.28                 $464.56                                                                      $1,115,639
             Columbia, SC4                        Warrants
             Seacoast Banking Corporation Preferred Stock w/
12/19/2008                                                              $50,000,000                                                                                            $1.58                 $147.74           $6.36       589,623            ($4.78)          OUT          $388,889
             of Florida, Stuart, FLb      Warrants
                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I april 28, 2011




             Seacoast Commerce Bank,              Preferred Stock w/
12/23/2008                                                               $1,800,000                                                                                                                                                                                                 $210,370
             Chula Vista, CA2                     Exercised Warrants
             Security Bancshares of Pulaski Preferred Stock w/
2/13/2009                                                                $2,152,000                                                                                                                                                                                                 $235,292
             County, Inc., Waynesville, MO2 Exercised Warrants
             Security Business Bancorp,           Preferred Stock w/
1/9/2009                                                                 $5,803,000                                                                                                                                                                                                 $664,126
             San Diego, CA2                       Exercised Warrants
             Security California Bancorp,         Preferred Stock w/
1/9/2009                                                                 $6,815,000                                                                                                                                                                                                 $780,025
             Riverside, CA2                       Exercised Warrants
             Security Capital Corporation,
                                                  Preferred Stock w/
6/26/2009    Batesville, MS2, 4, 7, 10,                                 $17,388,000     9/29/2010    $17,388,000          —     9/29/2010        R           $522,000                                                                                                             $1,153,111
             30 - 9/29/2010, 30a                  Exercised Warrants

           Security Federal Corporation, Preferred Stock w/
12/19/2008                                                              $18,000,000     9/29/2010    $18,000,000          —                                                   $10.92                   $32.15         $19.57       137,966            ($8.65)          OUT        $1,600,000
           Aiken, SC4, 30 - 9/29/2010    Warrants
             Security State Bancshares,           Preferred Stock w/
2/20/2009                                                               $12,500,000                                                                                                                                                                                               $1,353,038
             Inc., Charleston, MO2                Exercised Warrants
                                                  Subordinated
             Security State Bank Holding-
5/1/2009                                          Debentures w/         $10,750,000                                                                                                                                                                                               $1,414,005
             Company, Jamestown, ND8
                                                  Exercised Warrants
             Severn Bancorp, Inc.,                Preferred Stock w/
11/21/2008                                                              $23,393,000                                                                                            $4.45                   $44.80          $6.30       556,976            ($1.85)          OUT        $2,612,219
             Annapolis, MD                        Warrants
             Shore Bancshares, Inc.,              Preferred Stock w/
1/9/2009                                                                $25,000,000     4/15/2009    $25,000,000          —                                                    $9.75                   $82.32         $21.68       172,970           ($11.93)          OUT          $333,333
             Easton, MD4                          Warrants
                                                  Subordinated
             Signature Bancshares, Inc.,
6/26/2009                                         Debentures w/          $1,700,000    12/15/2010     $1,700,000          —    12/15/2010        R            $85,000                                                                                                               $209,588
             Dallas, TX4, 7, 8
                                                  Exercised Warrants
             Signature Bank, New York,            Preferred Stock w/
12/12/2008                                                             $120,000,000     3/31/2009   $120,000,000          —     3/10/2010        A        $11,320,751         $56.40               $2,289.45                                                                      $1,816,667
             NY4                                  Warrants
             Somerset Hills Bancorp,              Preferred Stock w/
1/16/2009                                                                $7,414,000     5/20/2009     $7,414,000          —     6/24/2009        R           $275,000          $8.80                  $47.73                                                                        $127,686
             Bernardsville, NJ4                   Warrants
             Sonoma Valley Bancorp,               Preferred Stock w/
2/20/2009                                                                $8,653,000                                                                                                                                                                                                 $347,164
             Sonoma, CA2, 25                      Exercised Warrants
             Sound Banking Company,               Preferred Stock w/
1/9/2009                                                                 $3,070,000                                                                                                                                                                                                 $351,456
             Morehead City, NC2                   Exercised Warrants
             South Financial Group, Inc.,         Preferred Stock w/
12/5/2008                                                              $347,000,000     9/30/2010   $130,179,219          —     9/30/2010        R           $400,000                                                                                                            $16,386,111
             Greenville, SC26 - 9/30/2010         Warrants
             SouthCrest Financial Group,          Preferred Stock w/
7/17/2009                                                               $12,900,000                                                                                                                                                                                                 $933,494
             Inc., Fayetteville, GA2              Exercised Warrants
             Southern Bancorp, Inc.,
1/16/2009                                         Preferred Stock       $11,000,000      8/6/2010    $11,000,000          —                     —                                                                                                                                   $855,556
             Arkadelphia, AR3, 4, 30 - 8/6/2010
             Southern Community Financial Preferred Stock w/
12/5/2008                                                               $42,750,000                                                                                            $1.46                   $24.58          $3.95     1,623,418            ($2.49)          OUT        $4,156,250
             Corp., Winston-Salem, NC     Warrants
             Southern First Bancshares,           Preferred Stock w/
2/27/2009                                                               $17,299,000                                                                                            $7.99                  $27.63           $7.85       363,609             $0.14              IN      $1,701,069
             Inc., Greenville, SCg                Warrants

                                                                                                                                                                                                                                                                      Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                               (continued)


                                                                                           Capital         Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                     Investment                   Investment    Repayment       Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                     Description                     Amount          Date         Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
             Southern Heritage
                                             Preferred Stock w/
5/15/2009    Bancshares, Inc., Cleveland,                                $4,862,000                                                                                                                                                                                                    $463,698
                                             Exercised Warrants
             TN2
             Southern Illinois Bancorp,      Preferred Stock w/
1/23/2009                                                                $5,000,000                                                                                                                                                                                                    $561,653
             Inc., Carmi, IL2                Exercised Warrants
             Southern Missouri Bancorp,      Preferred Stock w/
12/5/2008                                                                $9,550,000                                                                                              $22.32                   $46.83         $12.53       114,326             $9.79              IN      $1,047,847
             Inc., Poplar Bluff, MO          Warrants
             SouthFirst Bancshares, Inc.,    Preferred Stock w/
6/12/2009                                                                $2,760,000                                                                                                                                                                                                    $251,954
             Sylacauga, AL2                  Exercised Warrants
             Southwest Bancorp, Inc.,        Preferred Stock w/
12/5/2008                                                               $70,000,000                                                                                              $14.19                 $275.83          $14.92       703,753            ($0.73)          OUT        $7,680,556
             Stillwater, OK                  Warrants
             Sovereign Bancshares, Inc.,     Preferred Stock w/
3/13/2009                                                               $18,215,000                                                                                                                                                                                                  $1,908,267
             Dallas, TX2                     Exercised Warrants
             Spirit BankCorp, Inc., Bristow, Preferred Stock w/
3/27/2009                                                               $30,000,000                                                                                                                                                                                                  $2,261,750
             OK2                             Exercised Warrants
             St. Johns Bancshares, Inc.,     Preferred Stock w/
3/13/2009                                                                $3,000,000                                                                                                                                                                                                    $314,283
             St. Louis, MO2                  Exercised Warrants
             Standard Bancshares, Inc.,      Preferred Stock w/
4/24/2009                                                               $60,000,000                                                                                                                                                                                                  $5,913,250
             Hickory Hills, IL2              Exercised Warrants
             State Bancorp, Inc., Jericho,   Preferred Stock w/
12/5/2008                                                               $36,842,000                                                                                              $10.39                 $175.35          $11.87       465,569            ($1.48)          OUT        $4,042,386
             NY                              Warrants
             State Bankshares, Inc.,         Preferred Stock w/
1/16/2009                                                               $50,000,000      8/12/2009     $12,500,000 $37,500,000                                                                                                                                                       $4,726,806
             Fargo, ND2, 4                   Exercised Warrants
             State Capital Corporation,
                                             Preferred Stock w/
2/13/2009    Greenwood, MS2, 4, 7,                                      $15,000,000      9/29/2010     $15,000,000           —     9/29/2010        R           $750,000                                                                                                             $1,330,709
             30 - 9/29/2010, 30a             Exercised Warrants

           State Street Corporation,         Preferred Stock w/
10/28/2008                                                            $2,000,000,000     6/17/2009   $2,000,000,000          —      7/8/2009        R        $60,000,000         $44.94              $22,568.42                                                                     $63,611,111
           Boston, MA5, 9                    Warrants
                                             Subordinated
             Stearns Financial Services,
6/26/2009                                    Debentures w/              $24,900,000                                                                                                                                                                                                  $3,418,016
             Inc., St. Cloud, MN8
                                             Exercised Warrants
                                             Subordinated
             Steele Street Bank
9/25/2009                                    Debentures w/              $11,019,000                                                                                                                                                                                                  $1,241,863
             Corporation, Denver, CO8, 10
                                             Exercised Warrants
           StellarOne Corporation,           Preferred Stock w/
12/19/2008                                                              $30,000,000                                                                                              $14.15                 $325.01          $14.87       302,623            ($0.72)          OUT        $3,233,333
           Charlottesville, VA               Warrants
           Sterling Bancorp, New York,       Preferred Stock w/
12/23/2008                                                              $42,000,000                                                                                              $10.01                 $308.97          $12.19       516,817            ($2.18)          OUT        $4,503,333
           NY                                Warrants
             Sterling Bancshares, Inc.,      Preferred Stock w/
12/12/2008                                                             $125,198,000       5/5/2009    $125,198,000           —      6/9/2010        A         $3,007,891          $8.61                 $878.67                                                                      $2,486,571
             Houston, TX4                    Warrants
             Sterling Financial Corporation, Common Stock w/
12/5/2008                                                              $303,000,000                                                                                              $16.75               $1,037.13          $13.20        97,541             $3.55              IN      $6,733,333
             Spokane, WA24, i                Warrants
             Stewardship Financial
                                             Preferred Stock w/
1/30/2009    Corporation, Midland Park,                                 $10,000,000                                                                                               $5.94                  $34.75          $11.24       133,475            ($5.30)          OUT        $1,020,833
                                             Warrants
             NJg

             Stockmens Financial                                                         1/14/2011      $4,000,000 $11,568,000
                                             Preferred Stock w/
2/6/2009     Corporation, Rapid City,                                   $15,568,000                                                3/16/2011        R           $778,000                                                                                                             $1,755,554
                                             Exercised Warrants
             SD2, 4, 7                                                                   3/16/2011     $11,568,000           —

             Stonebridge Financial Corp.,    Preferred Stock w/
1/23/2009                                                               $10,973,000                                                                                                                                                                                                    $634,609
             West Chester, PA2               Exercised Warrants
                                             Subordinated
             Suburban Illinois Bancorp,
6/19/2009                                    Debentures w/              $15,000,000                                                                                                                                                                                                  $2,083,520
             Inc., Elmhurst, IL8
                                             Exercised Warrants
           Summit State Bank, Santa          Preferred Stock w/
12/19/2008                                                               $8,500,000                                                                                               $6.98                   $33.12          $5.33       239,212             $1.65              IN        $916,111
           Rosa, CA                          Warrants
             Sun Bancorp, Inc., Vineland,    Preferred Stock w/
1/9/2009                                                                $89,310,000       4/8/2009     $89,310,000           —     5/27/2009        R         $2,100,000          $3.48                 $262.36                                                                      $1,103,971
             NJ4                             Warrants
           SunTrust Banks, Inc., Atlanta, Preferred Stock w/
11/14/2008                                                            $3,500,000,000     3/30/2011   $3,500,000,000          —                                                                                           $44.15    11,891,280           ($15.31)          OUT
           GA4, c                         Warrants
                                                                                                                                                                                 $28.84              $15,449.30                                                                    $567,986,111
           SunTrust Banks, Inc., Atlanta, Preferred Stock w/
12/31/2008                                                            $1,350,000,000     3/30/2011   $1,350,000,000          —                                                                                           $33.70     6,008,902            ($4.86)          OUT
           GA4, c                         Warrants
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I april 28, 2011




             Superior Bancorp Inc.,          Trust Preferred
12/5/2008                                                               $69,000,000                                                                                               $0.35                    $4.40          $5.38     1,923,792            ($5.03)          OUT        $4,983,333
             Birmingham, AL17                Securities w/ Warrants
             Surrey Bancorp, Mount Airy,     Preferred Stock w/
1/9/2009                                                                 $2,000,000     12/29/2010      $2,000,000           —    12/29/2010        R           $100,000                                                                                                               $214,972
             NC2, 4, 7                       Exercised Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                                     251
                                                                                                                                                                                                                                                                                                       252
 CPP Transaction Detail, as oF 3/31/2011                                                (continued)


                                                                                            Capital          Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                         Investment                Investment    Repayment        Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date         Institution                         Description                  Amount          Date          Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury

                                                                                          4/21/2010     $200,000,000 $100,000,000
             Susquehanna Bancshares,             Preferred Stock w/
12/12/2008                                                              $300,000,000                                                 1/19/2011        R         $5,269,179          $9.35               $1,215.25          $14.86     3,028,264            ($5.51)          OUT       $23,722,222
             Inc, Lititz, PA4                    Warrants
                                                                                         12/22/2010     $100,000,000           —

                                                 Preferred Stock w/
4/10/2009    SV Financial, Inc., Sterling, IL2                            $4,000,000                                                                                                                                                                                                     $402,694
                                                 Exercised Warrants
           SVB Financial Group, Santa            Preferred Stock w/
12/12/2008                                                              $235,000,000     12/23/2009     $235,000,000           —     6/16/2010        R         $6,820,000         $56.93               $2,420.15                                                                     $12,109,028
           Clara, CA5, 9                         Warrants
                                                 Subordinated
             Sword Financial Corporation,
5/8/2009                                         Debentures w/           $13,644,000                                                                                                                                                                                                   $2,025,490
             Horicon, WI8
                                                 Exercised Warrants
             Synovus Financial Corp.,            Preferred Stock w/
12/19/2008                                                              $967,870,000                                                                                                $2.40               $1,884.66           $9.36    15,510,737            ($6.96)          OUT      $104,314,878
             Columbus, GA                        Warrants
                                                 Preferred Stock w/
1/16/2009    Syringa Bancorp, Boise, ID2                                  $8,000,000                                                                                                                                                                                                     $253,122
                                                 Exercised Warrants
           Taylor Capital Group,                 Preferred Stock w/
11/21/2008                                                              $104,823,000                                                                                               $10.51                 $188.18          $10.75     1,462,647            ($0.24)          OUT       $11,705,236
           Rosemont, IL                          Warrants
                                                 Subordinated
             TCB Corporation,
8/28/2009                                        Debentures w/            $9,720,000                                                                                                                                                                                                   $1,154,622
             Greenwood, SC8, 10
                                                 Exercised Warrants
             TCB Holding Company, Texas
                                        Preferred Stock w/
1/16/2009    Community Bank,                                             $11,730,000                                                                                                                                                                                                     $690,832
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I april 28, 2011




                                        Exercised Warrants
             The Woodlands, TX2
             TCF Financial Corporation,          Preferred Stock w/
11/14/2008                                                              $361,172,000      4/22/2009     $361,172,000           —    12/15/2009        A         $9,599,964         $15.86               $2,490.26                                                                      $7,925,719
             Wayzata, MN4                        Warrants
           TCNB Financial Corp.,                 Preferred Stock w/
12/23/2008                                                                $2,000,000                                                                                                                                                                                                     $233,744
           Dayton, OH2                           Exercised Warrants
           Tennessee Commerce                    Preferred Stock w/
12/19/2008                                                               $30,000,000                                                                                                $4.90                   $59.75          $9.75       461,538            ($4.85)          OUT        $3,233,333
           Bancorp, Inc., Franklin, TN           Warrants
             Tennessee Valley Financial     Preferred Stock w/
12/23/2008                                                                $3,000,000                                                                                                                                                                                                     $146,242
             Holdings, Inc., Oak Ridge, TN2 Exercised Warrants
             Texas Capital Bancshares, Inc., Preferred Stock w/
1/16/2009                                                                $75,000,000      5/13/2009      $75,000,000           —     3/11/2010        A         $6,709,061         $25.99                 $964.66                                                                      $1,218,750
             Dallas, TX4                     Warrants
             Texas National Bancorporation, Preferred Stock w/
1/9/2009                                                                  $3,981,000      5/19/2010        $3,981,000          —     5/19/2010        R           $199,000                                                                                                               $295,308
             Jacksonville, TX2, 4, 7        Exercised Warrants
             The ANB Corporation,                Preferred Stock w/
8/7/2009                                                                 $20,000,000                                                                                                                                                                                                   $1,659,222
             Terrell, TX2                        Exercised Warrants
           The Bancorp, Inc.,                    Preferred Stock w/
12/12/2008                                                               $45,220,000      3/10/2010      $45,220,000           —      9/8/2010        R         $4,753,985          $9.23                 $306.40                                                                      $2,813,689
           Wilmington, DE5, 9                    Warrants
             The Bank of Currituck,              Preferred Stock w/
2/6/2009                                                                  $4,021,000      12/3/2010        $1,742,850          —                       -                                                                                                                                 $169,834
             Moyock, NC2, 34                     Exercised Warrants
             The Bank of Kentucky
                                                 Preferred Stock w/
2/13/2009    Financial Corporation,                                      $34,000,000     12/22/2010      $17,000,000 $17,000,000                                                   $20.50                 $152.36          $18.56       274,784             $1.94              IN      $3,284,305
                                                 Warrants
             Crestview Hills, KY4
           The Bank of New York Mellon           Preferred Stock w/
10/28/2008                                                             $3,000,000,000     6/17/2009    $3,000,000,000          —      8/5/2009        R      $136,000,000          $29.87              $37,096.63                                                                     $95,416,667
           Corporation, New York, NY4            Warrants
             The Baraboo Bancorporation, Preferred Stock w/
1/16/2009                                                                $20,749,000                                                                                                                                                                                                   $2,352,652
             Baraboo, WI2                Exercised Warrants
           The Connecticut Bank and              Preferred Stock w/
12/19/2008                                                                 $5,448,000                                                                                               $7.25                   $25.86          $4.65       175,742             $2.60              IN        $408,600
           Trust Company, Hartford, CT           Warrants
             The Elmira Savings Bank,            Preferred Stock w/
12/19/2008                                                                 $9,090,000                                                                                              $17.25                   $33.12         $11.70       116,538             $5.55              IN        $979,700
             FSB, Elmira, NY                     Warrants
             The First Bancorp, Inc.,            Preferred Stock w/
1/9/2009                                                                 $25,000,000                                                                                               $15.25                 $149.24          $16.60       225,904            ($1.35)          OUT        $2,625,000
             Damariscotta, ME                    Warrants
             The First Bancshares, Inc.,         Preferred Stock w/
2/6/2009                                                                  $5,000,000      9/29/2010        $5,000,000          —                                                    $8.60                   $26.37         $13.71        54,705            ($5.11)          OUT          $411,806
             Hattiesburg, MS4, 30 - 9/29/2010    Warrants
             The Freeport State Bank,            Preferred Stock w/
2/6/2009                                                                    $301,000                                                                                                                                                                                                        $8,610
             Harper, KS2                         Exercised Warrants
             The Goldman Sachs Group,            Preferred Stock w/
10/28/2008                                                            $10,000,000,000     6/17/2009   $10,000,000,000          —     7/22/2009        R    $1,100,000,000         $158.60              $82,552.46                                                                    $318,055,555
             Inc., New York, NY4                 Warrants
             The Landrum Company,                Preferred Stock w/
5/22/2009                                                                $15,000,000                                                                                                                                                                                                   $1,414,729
             Columbia, MO2                       Exercised Warrants
             The Little Bank, Incorporated, Preferred Stock w/
12/23/2008                                                                $7,500,000                                                                                                                                                                                                     $876,542
             Kinston, NC2                   Exercised Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                                      (continued)


                                                                                                  Capital         Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                                Investment               Investment    Repayment       Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date           Institution                              Description                 Amount          Date         Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
               The PNC Financial Services               Preferred Stock w/
12/31/2008                                                                   $7,579,200,000     2/10/2010   $7,579,200,000          —     4/29/2010        A      $324,195,686          $62.99              $33,101.75                                                                    $421,066,667
               Group Inc., Pittsburgh, PA4              Warrants
               The Private Bank of California, Preferred Stock w/
2/20/2009                                                                       $5,450,000                                                                                                                                                                                                    $590,014
               Los Angeles, CA2                Exercised Warrants
               The Queensborough Company, Preferred Stock w/
1/9/2009                                                                       $12,000,000                                                                                                                                                                                                    $882,900
               Louisville, GA2            Exercised Warrants
                                                        Subordinated
               The State Bank of Bartley,
9/4/2009                                                Debentures w/           $1,697,000                                                                                                                                                                                                    $199,292
               Bartley, NE8, 10
                                                        Exercised Warrants
               The Victory Bancorp, Inc.,               Preferred Stock w/
12/11/2009                                                                      $1,505,000
               Limerick, PA2, 10a, c                    Exercised Warrants
               The Victory Bancorp, Inc.                                                                                                                                                                                                                                                      $150,210
                                                        Preferred Stock w/
2/27/2009      (The Victory Bank), Limerick,                                      $541,000
                                                        Exercised Warrants
               PA2, 13 - 12/4/2009, c
               Three Shores Bancorporation,
                                                    Preferred Stock w/
1/23/2009      Inc. (Seaside National Bank &                                    $5,677,000                                                                                                                                                                                                    $637,729
                                                    Exercised Warrants
               Trust), Orlando, FL2, 13 - 12/4/2009
               TIB Financial Corp, Naples,              Preferred Stock w/
12/5/2008                                                                      $37,000,000      9/30/2010     $12,119,637           —     9/30/2010        R            $40,000         $19.36                 $228.79                                                                      $1,284,722
               FL32 - 9/30/2010                         Warrants
           Tidelands Bancshares, Inc,                   Preferred Stock w/
12/19/2008                                                                     $14,448,000                                                                                               $0.69                    $2.95          $3.79       571,821            ($3.10)          OUT        $1,195,973
           Mt. Pleasant, SC                             Warrants
               Tifton Banking Company,                  Preferred Stock w/
4/17/2009                                                                       $3,800,000                                                                                                                                                                                                    $223,208
               Tifton, GA2, 25a                         Exercised Warrants
           Timberland Bancorp, Inc.,                    Preferred Stock w/
12/23/2008                                                                     $16,641,000                                                                                               $5.61                   $39.52          $6.73       370,899            ($1.12)          OUT          $952,236
           Hoquiam, WA                                  Warrants
               Titonka Bancshares, Inc,                 Preferred Stock w/
4/3/2009                                                                        $2,117,000                                                                                                                                                                                                    $215,395
               Titonka, IA2                             Exercised Warrants
               Todd Bancshares, Inc.,                   Preferred Stock w/
2/6/2009                                                                        $4,000,000                                                                                                                                                                                                    $441,450
               Hopkinsville, KY2                        Exercised Warrants
                                                        Preferred Stock w/
12/12/2008 TowneBank, Portsmouth, VA                                           $76,458,000                                                                                              $15.66                 $437.90          $21.31       538,184            ($5.65)          OUT        $8,314,808
                                                        Warrants
               Treaty Oak Bancorp, Inc.,
1/16/2009                                               Warrants                $3,268,000      2/15/2011        $500,000           —                                                    $0.20                    $0.60          $0.21     3,098,341            ($0.01)          OUT          $192,415
               Austin, TX2, 36
               Triad Bancorp, Inc.,                     Preferred Stock w/
3/27/2009                                                                       $3,700,000                                                                                                                                                                                                    $379,775
               Frontenac, MO2                           Exercised Warrants
           Tri-County Financial                         Preferred Stock w/
12/19/2008                                                                     $15,540,000                                                                                                                                                                                                  $1,825,605
           Corporation, Waldorf, MD2                    Exercised Warrants
               Trinity Capital Corporation,             Preferred Stock w/
3/27/2009                                                                      $35,539,000                                                                                                                                                                                                  $2,195,131
               Los Alamos, NM2                          Exercised Warrants
               Tri-State Bank of Memphis,
4/3/2009                                                Preferred Stock         $2,795,000      8/13/2010      $2,795,000           —                      —                                                                                                                                  $190,215
               Memphis, TN2, 3, 4, 30 - 8/13/2010
               TriState Capital Holdings, Inc., Preferred Stock w/
2/27/2009                                                                      $23,000,000                                                                                                                                                                                                  $2,469,393
               Pittsburgh, PA2                  Exercised Warrants
               TriSummit Bank,                          Preferred Stock w/
4/3/2009                                                                        $2,765,000
               Kingsport, TN2, c                        Exercised Warrants
                                                                                                                                                                                                                                                                                              $524,290
           TriSummit Bank,
12/22/2009                                              Preferred Stock         $4,237,000
           Kingsport, TN2, 10a, g, c
               Trustmark corporation,                   Preferred Stock w/
11/21/2008                                                                    $215,000,000      12/9/2009    $215,000,000           —    12/30/2009        R        $10,000,000         $23.42               $1,497.19                                                                     $11,287,500
               Jackson, MS4                             Warrants
               Two Rivers Financial Group,              Preferred Stock w/
5/29/2009                                                                      $12,000,000                                                                                                                                                                                                  $1,119,067
               Burlington, IA2                          Exercised Warrants
           U.S. Bancorp, Minneapolis,                   Preferred Stock w/
11/14/2008                                                                   $6,599,000,000     6/17/2009   $6,599,000,000          —     7/15/2009        R      $139,000,000          $26.43              $50,888.80                                                                    $195,220,417
           MN4                                          Warrants

                                                    2   Preferred Stock w/
8/7/2009       U.S. Century Bank, Miami, FL                                    $50,236,000                                                                                                                                                                                                    $745,312
                                                        Exercised Warrants
               UBT Bancshares, Inc.,                    Preferred Stock w/
1/30/2009                                                                       $8,950,000                                                                                                                                                                                                    $996,334
               Marysville, KS2                          Exercised Warrants
           UCBH Holdings, Inc., San                     Preferred Stock w/
11/14/2008                                                                    $298,737,000                                                                                               $0.01                    $1.21          $5.71     7,847,732            ($5.70)          OUT        $7,509,920
                                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I april 28, 2011




           Francisco, CA14                              Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                                                            253
                                                                                                                                                                                                                                                                                                 254
 CPP Transaction Detail, as oF 3/31/2011                                            (continued)


                                                                                        Capital        Capital   Remaining          Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                       Investment              Investment    Repayment      Repayment      Capital    Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date           Institution                     Description                Amount          Date        Amount6      Amount           Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
               Umpqua Holdings Corp.,          Preferred Stock w/
11/14/2008                                                           $214,181,000     2/17/2010   $214,181,000           —     3/31/2010        R         $4,500,000         $11.44               $1,310.82                                                                     $13,475,555
               Portland, OR5, 9                Warrants
               Union Bank & Trust Company, Preferred Stock w/
5/1/2009                                                               $3,194,000
               Oxford, NC2, c              Exercised Warrants
                                                                                                                                                                                                                                                                                   $485,022
               Union Bank & Trust Company,
12/18/2009                                 Preferred Stock             $2,997,000
               Oxford, NC2, 10a, c
               Union Financial Corporation,    Preferred Stock w/
12/29/2009                                                             $2,179,000                                                                                                                                                                                                  $129,469
               Albuquerque, NM2, 10            Exercised Warrants

               Union First Market Bankshares
               Corporation (Union Bankshares Preferred Stock w/
12/19/2008                                                            $59,000,000    11/18/2009    $59,000,000           —    12/23/2009        R           $450,000         $11.25                 $292.65                                                                      $1,821,889
               Corporation), Bowling Green, Warrants
               VA5, 9, 18

               Union First Market Bankshares
               Corporation
2/6/2009                                     Preferred Stock          $33,900,000                                                                                                                                                                                                $4,615,373
               (First Market Bank, FSB),
               Bowling Green, VA18

               United American Bank, San       Preferred Stock w/
2/20/2009                                                              $8,700,000                                                                                                                                                                                                          —
               Mateo, CA2                      Exercised Warrants
               United Bancorp, Inc.,           Preferred Stock w/
1/16/2009                                                             $20,600,000                                                                                             $3.75                   $47.50          $9.92       311,492            ($6.17)          OUT        $2,142,972
               Tecumseh, MI                    Warrants
                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I april 28, 2011




           United Bancorporation of
                                               Preferred Stock w/
12/23/2008 Alabama, Inc.,                                             $10,300,000      9/3/2010    $10,300,000           —                                                    $5.00                   $11.63         $14.27       108,264            ($9.27)          OUT          $872,639
                                               Warrants
           Atmore, AL 4, 30 - 9/3/2010, g
                                               Subordinated
               United Bank Corporation,
5/22/2009                                      Debentures w/          $14,400,000                                                                                                                                                                                                $2,090,791
               Barnesville, GA8
                                               Exercised Warrants
               United Community Banks, Inc., Preferred Stock w/
12/5/2008                                                            $180,000,000                                                                                             $2.33                 $203.01          $12.28     1,099,542            ($9.95)          OUT       $17,500,000
               Blairsville, GAf              Warrants
               United Financial Banking        Preferred Stock w/
1/16/2009                                                              $5,658,000    12/15/2010     $3,000,000   $2,658,000                                                                                                                                                        $616,581
               Companies, Inc., Vienna, VA2, 4 Exercised Warrants
                                                Preferred Stock w/
12/5/2008      Unity Bancorp, Inc., Clinton, NJ                       $20,649,000                                                                                             $6.95                   $50.19          $4.05       764,778             $2.90              IN      $2,265,655
                                                Warrants
               Universal Bancorp, Bloomfield, Preferred Stock w/
5/22/2009                                                              $9,900,000                                                                                                                                                                                                  $933,721
               IN2                            Exercised Warrants
               University Financial Corp, Inc., Subordinated
6/19/2009                                                             $11,926,000     7/30/2010    $11,926,000           —                     —                                                                                                                                 $1,022,886
               St. Paul, MN3, 4, 8, 30 - 7/30/2010 Debentures
               US Metro Bank, Garden           Preferred Stock w/
2/6/2009                                                               $2,861,000                                                                                                                                                                                                  $315,738
               Grove, CA2                      Exercised Warrants
               Uwharrie Capital Corp,          Preferred Stock w/
12/23/2008                                                            $10,000,000                                                                                                                                                                                                $1,168,722
               Albemarle, NC2                  Exercised Warrants
               Valley Commerce Bancorp,        Preferred Stock w/
1/30/2009                                                              $7,700,000                                                                                                                                                                                                  $856,786
               Visalia, CA2                    Exercised Warrants
               Valley Community Bank,          Preferred Stock w/
1/9/2009                                                               $5,500,000                                                                                                                                                                                                  $629,476
               Pleasanton, CA2                 Exercised Warrants
           Valley Financial Corporation,       Preferred Stock w/
12/12/2008                                                            $16,019,000                                                                                             $4.87                   $22.87          $6.97       344,742            ($2.10)          OUT          $941,117
           Roanoke, VA                         Warrants
           Valley Financial Group, Ltd.,       Preferred Stock w/
12/18/2009                                                             $1,300,000                                                                                                                                                                                                    $82,068
           1st State Bank, Saginaw, MI2        Exercised Warrants

                                                                                       6/3/2009    $75,000,000 $225,000,000
               Valley National Bancorp,        Preferred Stock w/
11/14/2008                                                           $300,000,000     9/23/2009   $125,000,000 $100,000,000    5/18/2010        A         $5,571,592         $13.96               $2,255.78                                                                     $12,979,167
               Wayne, NJ4                      Warrants
                                                                                     12/23/2009   $100,000,000           —

               Veritex Holdings, Inc.
                                             Preferred Stock w/
6/26/2009      (Fidelity Resources Company),                           $3,000,000                                                                                                                                                                                                  $284,762
                                             Exercised Warrants
               Dallas, TX2, 40 - 3/23/2011
               Village Bank and Trust Financial Preferred Stock w/
5/1/2009                                                              $14,738,000                                                                                             $2.95                   $12.50          $4.43       499,029            ($1.48)          OUT        $1,318,232
               Corp, Midlothian, VA             Warrants
           Virginia Commerce Bancorp,          Preferred Stock w/
12/12/2008                                                            $71,000,000                                                                                             $5.74                 $166.97           $3.95     2,696,203             $1.79              IN      $7,721,250
           Arlington, VA                       Warrants
               Virginia Company Bank,          Preferred Stock w/
6/12/2009                                                              $4,700,000                                                                                                                                                                                                  $415,182
               Newport News, VA2, 10           Exercised Warrants

                                                                                                                                                                                                                                                                     Continued on next page.
 CPP Transaction Detail, as oF 3/31/2011                                                   (continued)


                                                                                               Capital          Capital    Remaining         Final                                Stock Price   Market Capitalization    Strike Price       Current   Amount “In the                          Interest/
Purchase                                            Investment                Investment    Repayment        Repayment       Capital   Disposition            Final Disposition         as of      as of 3/31/2011              as of   Outstanding Money” or “Out of   In or Out of   Dividends Paid
Date          Institution                           Description                  Amount          Date          Amount6       Amount          Date    Note15          Proceeds     3/31/2011              (in millions)   3/31/2011a       Warrantsa     the Money”e     the Moneye         to Treasury
              Vision Bank - Texas,                  Preferred Stock w/
4/24/2009                                                                    $1,500,000                                                                                                                                                                                                     $147,832
              Richardson, TX2                       Exercised Warrants
           VIST Financial Corp.,                    Preferred Stock w/
12/19/2008                                                                  $25,000,000                                                                                                $8.65                  $56.82          $10.19       367,984            ($1.54)          OUT        $2,694,444
           Wyomissing, PAh                          Warrants
              W.T.B. Financial Corporation,         Preferred Stock w/
1/30/2009                                                                  $110,000,000                                                                                                                                                                                                  $12,239,791
              Spokane, WA2                          Exercised Warrants
           Wachusett Financial Services, Preferred Stock w/
12/11/2009                                                                  $12,000,000                                                                                                                                                                                                     $757,335
           Inc., Clinton, MA2, 10        Exercised Warrants
           Wainwright Bank & Trust                  Preferred Stock w/
12/19/2008                                                                  $22,000,000     11/24/2009      $22,000,000           —    12/16/2009        R           $568,700                                                                                                             $1,023,611
           Company, Boston, MA4                     Warrants
              Washington Banking Company, Preferred Stock w/
1/16/2009                                                                   $26,380,000      1/12/2011      $26,380,000           —      3/2/2011        R         $1,625,000         $14.10                 $216.20                                                                      $2,623,344
              Oak Harbor, WA4, 9, b, n    Warrants
           Washington Federal, Inc.,                Preferred Stock w/
11/14/2008                                                                 $200,000,000      5/27/2009     $200,000,000           —      3/9/2010        A        $15,623,222         $17.34               $1,948.69                                                                      $5,361,111
           Seattle, WA4                             Warrants
           WashingtonFirst Bankshares,
10/30/2009                                          Preferred Stock          $6,842,000
           Inc., Reston, VA2, 10a, c
              WashingtonFirst Bankshares,                                                                                                                                                                                                                                                 $1,180,003
                                                    Preferred Stock w/
1/30/2009     Inc. (WashingtonFirst Bank),                                   $6,633,000
                                                    Exercised Warrants
              Reston, VA2, 13 - 10/30/2009, c
              Waukesha Bankshares, Inc.,            Preferred Stock w/
6/26/2009                                                                    $5,625,000                                                                                                                                                                                                     $485,041
              Waukesha, WI2, 10                     Exercised Warrants

                                                                                              3/3/2010     $100,000,000 $300,000,000
              Webster Financial Corporation, Preferred Stock w/
11/21/2008                                                                 $400,000,000     10/13/2010     $100,000,000 $200,000,000                                                  $21.43               $1,867.84          $18.28     3,282,276             $3.15              IN     $36,944,444
              Waterbury, CT4                 Warrants
                                                                                            12/29/2010     $200,000,000           —

              Wells Fargo & Company, San            Preferred Stock w/
10/28/2008                                                               $25,000,000,000    12/23/2009   $25,000,000,000          —     5/20/2010        A      $849,014,998          $31.71             $167,416.02                                                                   $1,440,972,222
              Francisco, CA4                        Warrants
                                           Preferred Stock w/
                                                4
12/5/2008     WesBanco, Inc., Wheeling, WV                                  $75,000,000       9/9/2009      $75,000,000           —    12/23/2009        R           $950,000         $20.71                 $550.66                                                                      $2,854,167
                                           Warrants
              West Bancorporation, Inc.,            Preferred Stock w/
12/31/2008                                                                  $36,000,000                                                                                                $7.98                 $138.88          $11.39       474,100            ($3.41)          OUT        $3,825,000
              West Des Moines, IA                   Warrants

                                                                                              9/2/2009      $41,863,000 $41,863,000
              Westamerica Bancorporation, Preferred Stock w/
2/13/2009                                                                   $83,726,000                                                                                               $51.37               $1,490.24          $50.92       246,640             $0.45              IN      $2,755,981
              San Rafael, CA4             Warrants
                                                                                            11/18/2009      $41,863,000           —

           Western Alliance
                                                    Preferred Stock w/
11/21/2008 Bancorporation, Las Vegas,                                      $140,000,000                                                                                                $8.22                 $675.43          $13.34       787,107            ($5.12)          OUT       $15,633,333
                                                    Warrants
           NVb
           Western Community
                                                    Preferred Stock w/
12/23/2008 Bancshares, Inc., Palm                                            $7,290,000                                                                                                                                                                                                     $554,083
                                                    Exercised Warrants
           Desert, CA2
              Western Illinois Bancshares           Preferred Stock w/
12/23/2008                                                                   $6,855,000
              Inc., Monmouth, IL2, c                Exercised Warrants
                                                                                                                                                                                                                                                                                          $1,058,736
           Western Illinois Bancshares
12/29/2009                                          Preferred Stock          $4,567,000
           Inc., Monmouth, IL2, 10a, c
              Western Reserve Bancorp, Inc, Preferred Stock w/
5/15/2009                                                                    $4,700,000                                                                                                                                                                                                     $448,263
              Medina, OH2                   Exercised Warrants
              White River Bancshares                Preferred Stock w/
2/20/2009                                                                   $16,800,000                                                                                                                                                                                                   $1,589,583
              Company, Fayetteville, AR2            Exercised Warrants
              Whitney Holding Corporation,          Preferred Stock w/
12/19/2008                                                                 $300,000,000                                                                                               $13.62               $1,316.30          $17.10     2,631,579            ($3.48)          OUT       $32,333,333
              New Orleans, LA                       Warrants
           Wilmington Trust Corporation, Preferred Stock w/
12/12/2008                                                                 $330,000,000                                                                                                $4.52                 $411.19          $26.66     1,856,714           ($22.14)          OUT       $35,887,500
           Wilmington, DE                Warrants
              Wilshire Bancorp, Inc., Los           Preferred Stock w/
12/12/2008                                                                  $62,158,000                                                                                                $4.90                 $144.44           $9.82       949,460            ($4.92)          OUT        $6,759,683
              Angeles, CA                           Warrants
           Wintrust Financial Corporation, Preferred Stock w/
12/19/2008                                                                 $250,000,000     12/22/2010     $250,000,000           —      2/8/2011        A        $25,964,061         $36.75               $1,284.05                                                                     $25,104,167
           Lake Forest, IL4                Warrants

                                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                                          255
 CPP Transaction Detail, as oF 3/31/2011                                                        (continued)                                                                                                                                                                                                                                       256

                                                                                                       Capital                 Capital      Remaining              Final                                     Stock Price    Market Capitalization       Strike Price         Current   Amount “In the                                 Interest/
Purchase                                       Investment                        Investment         Repayment               Repayment         Capital        Disposition                Final Disposition          as of       as of 3/31/2011                 as of     Outstanding Money” or “Out of          In or Out of   Dividends Paid
Date           Institution                     Description                          Amount               Date                 Amount6         Amount               Date      Note15            Proceeds      3/31/2011               (in millions)      3/31/2011a         Warrantsa     the Money”e            the Moneye         to Treasury
               Worthington Financial Holdings, Preferred Stock w/
5/15/2009                                                                        $2,720,000                                                                                                                                                                                                                                          $259,420
               Inc., Huntsville, AL2           Exercised Warrants
               WSFS Financial Corporation,     Preferred Stock w/
1/23/2009                                                                      $52,625,000                                                                                                                        $47.10                   $404.68            $45.08         175,105                  $2.02               IN       $5,423,299
               Wilmington, DE                  Warrants
               Yadkin Valley Financial         Preferred Stock w/
1/16/2009                                                                                                                                                                                                          $2.24                    $36.46
               Corporation, Elkin, NCc         Warrants                        $36,000,000                                                                                                                                                                    $13.99         385,990                ($11.75)            OUT
                                                                                                                                                                                                                                                                                                                                   $4,782,227
               Yadkin Valley Financial         Preferred Stock w/
7/24/2009                                                                                                                                                                                                          $2.24                    $36.46
               Corporation, Elkin, NCc         Warrants                        $13,312,000                                                                                                                                                                     $7.30         273,534                 ($5.46)            OUT
                                               Preferred Stock w/                                                                                                                                                                                                                                                                    $480,131
4/24/2009      York Traditions Bank, York, PA2 Exercised Warrants                $4,871,000

           Zions Bancorporation, Salt          Preferred Stock w/
                                                                                                                                                                                                                                                                                                                                $157,694,444
11/14/2008 Lake City, UT                       Warrants                     $1,400,000,000                                                                                                                        $23.06                 $4,220.37            $36.27       5,789,909                ($13.21)            OUT

                                                                                                  Total Capital
                                                                                                   Repayment
                                             Total Purchase Amount* $204,943,827,320                Amount**       $179,091,932,014

                                                                                              Total Losses***       ($2,578,099,294)


                                                                              Total Treasury CPP Investment                                               Total Warrant
                                                                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I april 28, 2011




                                                                                        Amount Outstanding          $23,273,796,012                      Proceeds****                  $7,433,206,477


Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numeric notes were taken verbatim from Treasury’s 4/4/2011 Transactions Report. All amounts and totals reflect cumulative receipts since inception through 3/31/2011.

*	    Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
**	   Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common Stock Disposition”
      on following pages) and (ii) the amount of $363,290,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
***	Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26 and 32), but excludes investment amounts for institutions that
      have pending receivership or bankruptcy proceedings (see Notes 14 and 25).
****	 Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

1a
  	 This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this transac-
      tion under the CPP was funded on 1/9/2009.
1b
   	 The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and $124,228,646. Proceeds
      from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
 	Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
 	 To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a
  	 Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
 	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
 	Redemption pursuant to a qualified equity offering.
6
 	 This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
 	 The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
 	Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
 	In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10	
      This institution participated in the expansion of CPP for small banks.
10a
    	 This institution received an additional investment through the expansion of CPP for small banks.
11
   	 Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate Cumulative
      Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series M. On 9/11/2009,
      Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   	On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   	 This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   	As of the date of this report, this institution is in bankruptcy proceedings.
15
   	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
16
   	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by Contingent Value Rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to hold-
      ers of CVRs were not met.
17
      On 12/11/2009, Treasury exchanged its Series A Preferred Stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate equivalent to
      those of Treasury’s original investment.
19
   	On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   	On 3/8/2010, Treasury exchanged its $84,784,000 of Preferred Stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends. Subject
      to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   	On 3/30/2010, Treasury exchanged its $7,500,000 of Subordinated Debentures in GulfSouth Private Bank for an equivalent amount of Preferred Stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of Preferred Stock in Independent Bank Corporation (Independent) for $74,426,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid
      dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
   	 Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On April
      26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion of the sale
      under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale).
      Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on September 30, 2010
      (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain parameters up to 1,500,000,000 shares of common stock
      from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price. On December 6, 2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares.
      See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during those periods.
24
   	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of Preferred Stock in Sterling Financial Corporation (Sterling) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010. Since Sterling
      also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
   	As of the date of this report, the banking subsidiary of this institution has been placed in receivership and the subsidiary’s assets and liabilities were ordered to be sold to another bank.
 Endnotes, continued
25a
    	As of the date of this report, this institution has been placed in receivership and the assets and liabilities were ordered to be sold to another bank.
26
   	On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the Preferred Stock and $400,000 for the Warrants, pursuant to the terms of the agreement
     between Treasury and TD entered into on 5/18/2010.
27
   	On 6/30/2010, Treasury exchanged $46,400,000 of its Series A Preferred Stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28
   	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of Preferred Stock in First BanCorp for $424,174,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
     unpaid dividends. Subject to the fulfillment by First BanCorp of certain conditions, including those related to its capital plan, the MCP may be converted to common stock. First BanCorp has agreed to have Treasury observers attend board of directors meetings.
29
   	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of Preferred Stock in Pacific Capital for $195,045,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial
     investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
     common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30
   	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a
    	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31
   	On 9/30/2010, Treasury completed the exchange of its $ 80,347,000 of Preferred Stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
     8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32
   	On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the Preferred Stock and $40,000 for the Warrants, pursuant to the terms of the agree-
     ment between Treasury and NAFH entered into on 9/24/2010.
33
   	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all Preferred Stock and Warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
     entered into on 10/29/2010.
34
   	On 12/3/2010, Treasury completed the sale of all Preferred Stock (including the Preferred Stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury
     and Currituck entered into on 11/5/2010.
35
   	 Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all Preferred Stock and Warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
     closing of the sale also occurred on 1/28/2011.
36
   	On 2/15/2011, Treasury completed the sale of all Preferred Stock (including the Preferred Stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
     payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.
37
   	On 2/18/2011, Treasury completed the exchange of its $135,000,000 of Preferred Stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
38
   	On 3/9/2011, Treasury completed the sale of all Subordinated Debentures (including the Subordinated Debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement
     between Treasury and FBHC entered into on 3/9/2011.
39
   	 Treasury entered into an agreement on 3/11/2011 with First Community Bank Corporation of America (FCBCA) for the sale of all Preferred Stock and Warrants issued by FCBCA for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment
     of defined acquisition expenses, debts, liabilities and distributions to other classes of security holders, which payments are not to exceed $3.58 million. Closing of the sale is subject to certain conditions including completion of the acquisition and merger of FCBCA by Community Bank of Manatee, a
     Florida chartered commercial bank.
40
   	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of
     an agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
41
   	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series
     of preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror
     entered into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
	
a
  	According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” Thus, the
     strike price presented reflects these adjustments provided by Treasury. It appears that Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 10/3/2010.
b
  	According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
  	 Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.
d
  	According to Treasury, M&T acquired Provident, therefore “warrant details changed as per the conversion ratio.” The previous investment in Provident now reflects M&T market data above.
e
  	 When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
f
  	According to Treasury, these institutions’ warrant was modified via Qualified Equity Offerings and Stock Dividend.
g
  	According to Treasury, these institutions’ warrants were increased via Stock Dividend.
h
  	According to Treasury, these institutions warrants were increased via Stock Issuance.
i
 	According to Treasury, these institutions converted their warrants from Preferred to Manditorily Convertible Preferred.
j
 	According to Treasury, these institutions executed a 1 to 10 reverse stock split.
k
  	According to Treasury, these institutions’ warrants increased via cash dividend.
l
 	According to Treasury, these institutions executed a 1 to 20 reverse stock split.
m
   	According to Treasury, these institutions’ warrants were sold back to Original QFI.
n
  	According to Treasury, these institutions’ warrants were sold back to Original QFI and QFI had a QEO.
n
  	According to Treasury, these institutions’ warrants were sold back to Original QFI and QFI had a stock dividend adjustment.

Sources: Treasury, Transactions Report, 3/31/2011; Treasury, Dividend and Interest Report, 3/31/2011; Treasury, responses to SIGTARP data call, 4/6/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/4/2011.
                                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                                                    257
                                                                                                                                                                                                                                                                 258
Table D.2

CPP — Citigroup, Inc. Common Stock Disposition, as of 3/31/2011
Note       Date                                      Pricing Mechanism6                     Number of Shares                                        Proceeds7
1          4/26/2010 – 5/26/2010                                   $4.1217                     1,500,000,000                                  $6,182,493,158
2          5/26/2010 – 6/30/2010                                   $3.8980                     1,108,971,857                                  $4,322,726,825
3          7/23/2010 – 9/30/2010                                   $3.9090                     1,500,000,000                                  $5,863,489,587
4          10/19/2010 – 12/6/2010                                  $4.2609                     1,165,928,228                                  $4,967,921,811
5          12/6/2010                                               $4.3500                     2,417,407,607                                $10,515,723,090
                                                                                               Total Proceeds                              $31,852,354,471

Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numbered notes taken verbatim from 4/4/2011 Transactions Report.

1
  On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain param-
  eters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion
  of the sale under this authority occurred on 5/26/2010.
2
  On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to 1,500,000,000
  shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion of the sale under this author-
  ity occurred on 6/30/2010.
3
  On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain param-
  eters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale). Completion
  of the sale under this authority occurred on 9/30/2010.
4
  On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
  parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
  which plan was terminated on 12/6/2010.
5
  On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the fulfill-
  ment of certain closing conditions.
6
  The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
7
                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I april 28, 2011




  Amount represents the gross proceeds to Treasury.


Source: Treasury, Transactions Report, 3/31/2011.



    Table D.3

     CDCI Program Transaction detail, as of 3/31/2011                                                                   (continued)
                                                   Seller                                                                               Purchase Details                                             Disposition Details

                                                                                                                                                      Additional    Investment      Pricing                                Remaining        Dividend/Interest
    Note   Purchase Date   Name of Institution                                  Investment Description               Amount from CPP                 Investment        Amount    Mechanism    Date          Amount Investment Amount        Paid to Treasurya

           9/24/2010       Alternatives Federal Credit Union, Ithaca, NY        Subordinated Debentures                              —                        —     $2,234,000          Par                                                          $17,500
           9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL    Subordinated Debentures                              —                        —     $5,457,000          Par                                                          $69,546
           9/24/2010       Atlantic City Federal Credit Union, Lander, WY       Subordinated Debentures                              —                        —     $2,500,000          Par                                                          $19,583
           9/24/2010       Bainbridge Bancshares, Inc., Bainbridge, GA          Preferred Stock                                      —                        —     $3,372,000          Par                                                          $26,414
           9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                Subordinated Debentures                              —                        —     $3,297,000          Par                                                          $38,612
    1, 2   9/29/2010       BancPlus Corporation, Ridgeland, MS                  Preferred Stock                           $50,400,000              $30,514,000     $80,914,000          Par                                                         $611,350
           9/29/2010       BankAsiana, Palisades Park, NJ                       Preferred Stock                                      —                        —     $5,250,000          Par                                                          $39,667
           9/29/2010       Bethex Federal Credit Union, Bronx, NY               Subordinated Debentures                              —                        —      $502,000           Par                                                           $3,793
           9/29/2010       Border Federal Credit Union, Del Rio, TX             Subordinated Debentures                              —                        —     $3,260,000          Par                                                          $24,631
           9/24/2010       Brewery Credit Union, Milwaukee, WI                  Subordinated Debentures                              —                        —     $1,096,000          Par                                                           $8,585
                           Brooklyn Cooperative Federal Credit Union,
           9/30/2010                                                            Subordinated Debentures                              —                        —      $300,000           Par                                                           $2,250
                           Brooklyn, NY
                           Buffalo Cooperative Federal Credit Union, Buffalo,
           9/24/2010                                                            Subordinated Debentures                              —                        —      $145,000           Par                                                           $1,136
                           NY
           9/24/2010       Butte Federal Credit Union, Biggs, CA                Subordinated Debentures                              —                        —     $1,000,000          Par                                                           $7,833
           9/29/2010       Carter Federal Credit Union, Springhill, LA          Subordinated Debentures                              —                        —     $6,300,000          Par                                                          $47,600
    1      8/27/2010       Carver Bancorp, Inc, New York, NY                    Preferred Stock                           $18,980,000                         —    $18,980,000          Par                                                          $82,247
           9/17/2010       CFBanc Corporation, Washington, DC                   Preferred Stock                                      —                        —     $5,781,000          Par                                                          $47,533
    1      8/13/2010                                                                                                       $7,462,000                         —             —           Par
                           Citizens Bancshares Corporation, Atlanta, GA         Preferred Stock                                                                                                                                                     $111,454
    2a     9/17/2010                                                                                                                 —              $4,379,000     $11,841,000          Par
                           Community Bancshares of Mississippi, Inc.,
    1      9/29/2010                                                            Preferred Stock                           $54,600,000                         —    $54,600,000          Par                                                         $412,533
                           Brandon, MS
    1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA               Preferred Stock                            $1,747,000               $2,313,000      $4,060,000          Par                                                          $30,676
                           Community First Guam Federal Credit Union,
           9/24/2010                                                            Subordinated Debentures                              —                        —     $2,650,000          Par                                                          $20,758
                           Hagatna, GU
           9/29/2010       Community Plus Federal Credit Union, Rantoul, IL     Subordinated Debentures                              —                        —      $450,000           Par                                                           $3,400
                           Cooperative Center Federal Credit Union,
           9/24/2010                                                            Subordinated Debentures                              —                        —     $2,799,000          Par                                                          $21,926
                           Berkeley, CA
           9/29/2010       D.C. Federal Credit Union, Washington, DC            Subordinated Debentures                              —                        —     $1,522,000          Par                                                          $11,500

                                                                                                                                                                                                                                       Continued on next page.
 CDCI Program Transaction detail, as of 3/31/2011                                                       (continued)
                                               Seller                                                               Purchase Details                                           Disposition Details

                                                                                                                                Additional    Investment      Pricing                                Remaining        Dividend/Interest
Note   Purchase Date   Name of Institution                                  Investment Description    Amount from CPP          Investment        Amount    Mechanism    Date          Amount Investment Amount        Paid to Treasurya

                       East End Baptist Tabernacle Federal Credit Union,
       9/29/2010                                                            Subordinated Debentures                —                   —         $7,000           Par                                                               $53
                       Bridgeport, CT
                       Episcopal Community Federal Credit Union, Los
       9/29/2010                                                            Subordinated Debentures                —                   —       $100,000           Par                                                             $756
                       Angeles, CA
       9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA     Subordinated Debentures                —                   —      $8,044,000          Par                                                          $63,011
       9/29/2010       Faith Based Federal Credit Union, Oceanside, CA      Subordinated Debentures                —                   —        $30,000           Par                                                             $227
       9/29/2010       Fidelis Federal Credit Union, New York, NY           Subordinated Debentures                —                   —        $14,000           Par                                                             $106
1      8/13/2010       First American International Corp., Brooklyn, NY     Preferred Stock               $17,000,000                  —     $17,000,000          Par                                                         $171,889
1      9/24/2010       First Choice Bank, Cerritos, CA                      Preferred Stock                $5,146,000                  —      $5,146,000          Par                                                          $40,310

1      9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL       Subordinated Debentures        $7,875,000                  —      $7,875,000          Par                                                         $100,363

       9/29/2010       First Legacy Community Credit Union, Charlotte, NC Subordinated Debentures                  —                   —      $1,000,000          Par                                                           $7,556

1      9/29/2010       First M&F Corporation, Kosciusko, MS                 Preferred Stock               $30,000,000                  —     $30,000,000          Par                                                         $226,667

1      9/29/2010       First Vernon Bancshares, Inc., Vernon, AL            Preferred Stock                $6,245,000                  —      $6,245,000          Par                                                          $15,959

       9/29/2010       Freedom First Federal Credit Union, Roanoke, VA      Subordinated Debentures                —                   —      $9,278,000          Par                                                          $70,100
                       Gateway Community Federal Credit Union,
       9/24/2010                                                            Subordinated Debentures                —                   —      $1,657,000          Par                                                          $12,980
                       Missoula, MT
       9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY Subordinated Debentures                   —                   —       $300,000           Par                                                           $2,467
       9/29/2010       Greater Kinston Credit Union, Kinston, NC            Subordinated Debentures                —                   —       $350,000           Par                                                           $2,644
1      7/30/2010       Guaranty Capital Corporation, Belzoni, MS            Subordinated Debentures       $14,000,000                  —     $14,000,000          Par                                                         $235,083
       9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA   Subordinated Debentures                —                   —       $100,000           Par                                                             $756
       9/17/2010       Hope Federal Credit Union, Jackson, MS               Subordinated Debentures                —                   —      $4,520,000          Par                                                          $37,164
1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                       Subordinated Debentures        $4,205,000          $3,881,000     $8,086,000          Par                                                         $107,926
1      9/3/2010        IBW Financial Corporation, Washington, DC            Preferred Stock                $6,000,000                  —      $6,000,000          Par                                                          $54,000
                       Independent Employers Group Federal Credit Union,
       9/29/2010                                                         Subordinated Debentures                   —                   —       $698,000           Par                                                           $5,274
                       Hilo, HI
       9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS             Subordinated Debentures                —                   —      $3,154,000          Par                                                          $43,998
1      9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                  Preferred Stock                $4,551,000                  —      $4,551,000          Par                                                          $34,385
                       Liberty County Teachers Federal Credit Union,
       9/24/2010                                                            Subordinated Debentures                —                   —       $435,000           Par                                                           $3,408
                       Liberty, TX
1, 2   9/24/2010       Liberty Financial Services, Inc., New Orleans, LA    Preferred Stock                $5,645,000          $5,689,000    $11,334,000          Par                                                          $88,783
                       Lower East Side People’s Federal Credit Union,
       9/24/2010                                                            Subordinated Debentures                —                   —       $898,000           Par                                                           $7,034
                       New York, NY
1      8/20/2010       M&F Bancorp, Inc., Durham, NC                        Preferred Stock               $11,735,000                  —     $11,735,000          Par                                                         $114,090
1      8/20/2010                                                                                           $5,500,000                  —                          Par
                       Mission Valley Bancorp, Sun Valley, CA               Preferred Stock                                                                                                                                    $91,354
2a     9/24/2010                                                                                                   —           $4,836,000    $10,336,000          Par
                       Neighborhood Trust Federal Credit Union, New
       9/24/2010                                                            Subordinated Debentures                —                   —       $283,000           Par                                                           $2,217
                       York, NY
                       North Side Community Federal Credit Union,
       9/29/2010                                                            Subordinated Debentures                —                   —       $325,000           Par                                                           $2,456
                       Chicago, IL
                       Northeast Community Federal Credit Union, San
       9/24/2010                                                            Subordinated Debentures                —                   —       $350,000           Par                                                           $2,742
                       Francisco, CA
       9/29/2010       Opportunities Credit Union, Burlington, VT           Subordinated Debentures                —                   —      $1,091,000          Par                                                           $8,243
1      8/13/2010       PGB Holdings, Inc., Chicago, IL                      Preferred Stock                $3,000,000                  —      $3,000,000          Par                                                          $30,333
       9/24/2010       Phenix Pride Federal Credit Union, Phenix City, AL   Subordinated Debentures                —                   —       $153,000           Par                                                           $1,199

1      8/13/2010       Premier Bancorp, Inc., Wilmette, IL                  Subordinated Debentures        $6,784,000                  —      $6,784,000          Par                                                                $0

       9/24/2010       Prince Kuhio Federal Credit Union, Honolulu, HI      Subordinated Debentures                —                   —       $273,000           Par                                                           $2,139

1      9/29/2010       PSB Financial Corporation, Many, LA                  Preferred Stock                $9,734,000                  —      $9,734,000          Par                                                          $73,546

       9/24/2010       Pyramid Federal Credit Union, Tucson, AZ             Subordinated Debentures                —                   —      $2,500,000          Par                                                          $19,583

                       Renaissance Community Development Credit Union,
       9/29/2010                                                       Subordinated Debentures                     —                   —        $31,000           Par                                                             $234
                       Somerset, NJ

       9/24/2010       Santa Cruz Community Credit Union, Santa Cruz, CA Subordinated Debentures                   —                   —      $2,828,000          Par                                                          $22,153

1      9/29/2010       Security Capital Corporation, Batesville, MS         Preferred Stock               $17,910,000                  —     $17,910,000          Par                                                         $135,320
                                                                                                                                                                                                                                           Transaction detail I Appendix D I april 28, 2011




1, 2   9/29/2010       Security Federal Corporation, Aiken, SC              Preferred Stock               $18,000,000          $4,000,000    $22,000,000          Par                                                         $166,222

       9/29/2010       Shreveport Federal Credit Union , Shreveport, LA     Subordinated Debentures                —                   —      $2,646,000          Par                                                          $19,992

1, 2   8/6/2010        Southern Bancorp, Inc., Arkadelphia, AR              Preferred Stock               $11,000,000        $22,800,000     $33,800,000          Par                                                         $354,900

                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                           259
                                                                                                                                                                                                                                                                                           260
    CDCI Program Transaction detail, as of 3/31/2011                                                                   (continued)
                                                  Seller                                                                               Purchase Details                                                                           Disposition Details

                                                                                                                                                     Additional                 Investment             Pricing                                           Remaining     Dividend/Interest
Note     Purchase Date     Name of Institution                                 Investment Description               Amount from CPP                 Investment                     Amount           Mechanism          Date               Amount Investment Amount     Paid to Treasurya

                           Southern Chautauqua Federal Credit Union,
         9/29/2010                                                             Subordinated Debentures                              —                        —                  $1,709,000                  Par                                                                $12,912
                           Lakewood, NY
         9/29/2010         Southside Credit Union, San Antonio, TX             Subordinated Debentures                              —                        —                  $1,100,000                  Par                                                                 $8,311

1        9/29/2010         State Capital Corporation, Greenwood, MS            Preferred Stock                           $15,750,000                         —                $15,750,000                   Par                                                               $119,000

1, 2     9/29/2010        The First Bancshares, Inc., Hattiesburg, MS          Preferred Stock                             $5,000,000             $12,123,000                 $17,123,000                   Par                                                               $129,374
         9/29/2010        The Magnolia State Corporation, Bay Springs, MS      Subordinated Debentures                              —                        —                  $7,922,000                  Par                                                                $92,775
                          Thurston Union of Low-Income People (TULIP)
         9/24/2010                                                             Subordinated Debentures                              —                        —                     $75,000                  Par                                                                   $588
                          Cooperative Credit Union, Olympia, WA
         9/24/2010        Tongass Federal Credit Union, Ketchikan, AK          Subordinated Debentures                              —                        —                  $1,600,000                  Par                                                                $12,533
1        8/13/2010        Tri-State Bank of Memphis, Memphis, TN               Preferred Stock                             $2,795,000                        —                  $2,795,000                  Par                                                                $28,261
                          Tulane-Loyola Federal Credit Union, New
         9/24/2010                                                             Subordinated Debentures                              —                        —                    $424,000                  Par                                                                 $3,321
                          Orleans, LA
                          Union Baptist Church Federal Credit Union, Fort
         9/24/2010                                                             Subordinated Debentures                              —                        —                     $10,000                  Par                                                                     $78
                          Wayne, IN
                          Union Settlement Federal Credit Union, New
         9/29/2010                                                             Subordinated Debentures                              —                        —                    $295,000                  Par                                                                 $2,229
                          York, NY
                          United Bancorporation of Alabama, Inc.,
1        9/3/2010                                                              Preferred Stock                           $10,300,000                         —                $10,300,000                   Par                                                                $92,700
                          Atmore, AL
                          UNITEHERE Federal Credit Union (Workers United
         9/29/2010                                                             Subordinated Debentures                              —                        —                     $57,000                  Par                                                                   $431
                          Federal Credit Union), New York, NY
1, 2     7/30/2010        University Financial Corp, Inc., St. Paul, MN        Subordinated Debentures                   $11,926,000              $10,189,000                 $22,115,000                   Par                                                               $371,348
                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I april 28, 2011




         9/24/2010        UNO Federal Credit Union, New Orleans, LA            Subordinated Debentures                              —                        —                    $743,000                  Par                                                                 $5,820
         9/29/2010        Vigo County Federal Credit Union, Terre Haute, IN    Subordinated Debentures                              —                        —                  $1,229,000                  Par                                                                 $9,286
         9/24/2010        Virginia Community Capital, Inc., Christiansburg, VA Subordinated Debentures                              —                        —                  $1,915,000                  Par                                                                $15,001

                                                                                                                                                                                                                                 Total Capital
                                                                                                                                               Total Purchase
                                                                                                                                                                            $570,073,000                                         Repayment                        —
                                                                                                                                                      Amount
                                                                                                                                                                                                                                 Amount

                                                                                                                                                                                                                                 Total Treasury
                                                                                                                                                                                                                                 CDCI Invest-           $570,073,000
                                                                                                                                                                                                                                 ment Amount

Notes: Numbers affected by rounding. Data as of 3/31/2011. Numbered notes are taken verbatim from Treasury’s 4/4/2011 Transactions Report.

1
  This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
  Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
   Treasury made an additional investment in this institution after the time it entered the CDCI program.
a
   For the purpose of this table, income (dividends and interest) are presented in aggregate for each CDCI participant.


Source: Treasury, Transactions Report, 3/31/2011; Treasury, Dividends and Interest Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/6/2011.
Table D.4

  AIFP TRANSACTION DETAIL, AS OF 3/31/2011                                                  (continued)
                                                                                                                                                           Treasury Investment After
                                                     Initial Investment                                            Exchange/Transfer/Other Details         Exchange/Transfer/Other                                                                                  Payment or Disposition1
                                                                                                                                                                                                                                                                                 Remaining
                           Trans-                                                                                                                                                                                                                              Remaining        Investment          Dividend/
                           action                                                                                                                                                              Amount/                                             Amount/    Investment          Amount/     Interest Paid to
               Date        Type       Seller         Description                  Amount    Note          Date            Type            Amount    Note   Obligor    Note Description         Equity %         Date         Type    Note          Proceeds   Description         Equity %          Treasurya
                                                                                                                 Exchange for
                                                     Preferred Stock w/                                            convertible
               12/29/2008 Purchase GMAC                                    $5,000,000,000          12/30/2009                      $5,000,000,000                            Convertible
                                                     Exercised Warrants                                             preferred                              GMAC       21,
                                                                                                                                                                              Preferred $5,937,500,000
                                                                                                                        stock                              (Ally)     22
                                                                                                                                                                                 Stock
                                                                                                                         Partial
                                                                                                                    conversion
                                                     Convertible
                                                                                                                  of preferred
               5/21/2009   Purchase GMAC             Preferred Stock w/    $7,500,000,000   22     12/30/2009                      $3,000,000,000
                                                                                                                      stock for
                                                     Exercised Warrants
                                                                                                                      common
                                                                                                                          stock
GMAC (Ally),
                                                                                                                  Partial                                  GMAC               Common                                                                                                          $2,202,940,632
Detroit, MI                                                                                                                                                           3,26                       73.8%
                                                                                                           conversion of                                   (Ally)               Stock
                                                     Convertible
                                                                                            22,                preferred
               12/30/2009 Purchase GMAC              Preferred Stock w/    $1,250,000,000       12/30/2010                         $5,500,000,000   26
                                                                                            26                 stock for
                                                     Exercised Warrants
                                                                                                               common
                                                                                                                   stock
                                                                                                                  Exchange for
                                                     Trust Preferred                                             amended and                                                      Trust
                                                                                                                                                           GMAC
               12/30/2009 Purchase GMAC               Securities w/        $2,540,000,000           3/1/2011     restated Trust    $2,670,000,000   27                27      Preferred $2,670,000,000      3/2/2011 Disposition      28     $2,667,000,000         None                —
                                                                                                                                                           (Ally)
                                                     Exercised Warrants                                               Preferred                                               Securities
                                                                                                                     Securities
                                                                                                              Exchange for
                                      General Motors
               12/29/2008 Purchase                   Debt Obligation        $884,024,131    2      5/29/2009 equity interest        $884,024,131    3
                                      Corporation
                                                                                                                   in GMAC
                                                                                                                    Exchange
                                                                                                                 for preferred
                                      General Motors Debt Obligation w/
               12/31/2008 Purchase                                        $13,400,000,000          7/10/2009     and common $13,400,000,000         7
                                      Corporation    Additional Note
                                                                                                                 stock in New
                                                                                                                           GM
                                                                                                                    Exchange
                                                                                                                 for preferred                             General    10,
                                      General Motors Debt Obligation w/                                                                                                       Preferred
               4/22/2009   Purchase                                        $2,000,000,000   4      7/10/2009     and common        $2,000,000,000   7      Motors     11,               $2,100,000,000 12/15/2010 Repayment                  $2,139,406,778         None                —
                                      Corporation    Additional Note                                                                                                             Stock
                                                                                                                      stock in                             Company    24
                                                                                                                      New GM
                                                                                                                    Exchange                                                                                               Partial                              Common
                                                                                                                 for preferred                             General    10,                                 11/18/2010                  25    $11,743,303,903                          36.9%
                                      General Motors Debt Obligation w/                                                                                                       Common                                   disposition                                Stock
               5/20/2009   Purchase                                        $4,000,000,000   5      7/10/2009     and common        $4,000,000,000   7      Motors     11,                       60.8%
                                      Corporation    Additional Note                                                                                                            Stock                                    Partial                                Common
                                                                                                                      stock in                             Company    25                                  11/26/2010                  25     $1,761,495,577                          33.3%
                                                                                                                      New GM                                                                                         disposition                                  Stock
                                                                                                                                                                                                                           Partial                                  Debt
General                                                                                                                                                                                                    7/10/2009                          $360,624,198                  $6,711,864,407
                                                                                                                                                                                                                       repayment                               Obligation
Motors,b,c                                                                                                                                                                                                                                                                                     $756,714,508
Detroit, MI                                                                                                                                                                                                                Partial                                  Debt
                                                                                                                    Exchange                                                                              12/18/2009                         $1,000,000,000                 $5,711,864,407
                                                                                                                                                           General                                                     repayment                               Obligation
                                                                                                                 for preferred
                                      General Motors Debt Obligation w/                                                                                    Motors     11,          Debt                               Partial                                       Debt
               5/27/2009   Purchase                                         $360,624,198    6      7/10/2009     and common         $360,624,198    7                                    $7,072,488,605 1/21/2010                              $35,084,421                  $5,676,779,986
                                      Corporation    Additional Note                                                                                       Holdings   12      Obligation                          repayment                                    Obligation
                                                                                                                      stock in
                                                                                                                                                           LLC
                                                                                                                      New GM                                                                                             Partial                                    Debt
                                                                                                                                                                                                           3/31/2010                         $1,000,000,000                 $4,676,779,986
                                                                                                                                                                                                                     repayment                                 Obligation

                                                                                                                                                                                                           4/20/2010 Repayment               $4,676,779,986         None                —

                                                                                                                    Exchange
                                                                                                                 for preferred
                                      General Motors Debt Obligation w/
               6/3/2009    Purchase                                       $30,100,000,000   8      7/10/2009     and common $22,041,706,310         9
                                      Corporation    Additional Note
                                                                                                                 stock in New
                                                                                                                           GM
                                                                                                                   Transfer of
                                                                                                   7/10/2009      debt to New      $7,072,488,605   9
                                                                                                                           GM
                                                                                                                                                           Motors
                                                                                                                   Debt left at                                                    Debt                                    Partial                                  Debt
                                                                                                   7/10/2009                        $985,805,085    9      Liquidation 29                  $985,805,085 3/31/2011                              $50,000,000                   $935,805,085
                                                                                                                      Old GM                                                  Obligation                               Repayment                               Obligation
                                                                                                                                                           Company

                                                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                                                 261
  AIFP TRANSACTION DETAIL, AS OF 3/31/2011                                                 (continued)                                                                                                                                                                                                         262
                                                                                                                                                     Treasury Investment After
                                                   Initial Investment                                            Exchange/Transfer/Other Details     Exchange/Transfer/Other                                                                                      Payment or Disposition1
                                                                                                                                                                                                                                                                                Remaining
                         Trans-                                                                                                                                                                                                                              Remaining         Investment         Dividend/
                         action                                                                                                                                                         Amount/                                               Amount/       Investment           Amount/    Interest Paid to
             Date        Type       Seller         Description                   Amount    Note         Date           Type         Amount    Note   Obligor    Note Description        Equity %          Date        Type     Note           Proceeds      Description          Equity %         Treasurya

                                                                                                                                                                                                                                                         Debt Obligation
                                                   Debt Obligation w/                                                                                                                                                Partial
             1/16/2009   Purchase Chrysler FinCo                          $1,500,000,000   13                                                                                                       3/17/2009                               $3,499,055     w/ Additional   $1,496,500,945
                                                   Additional Note                                                                                                                                               repayment
                                                                                                                                                                                                                                                                   Note

                                                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                                                     Partial
                                                                                                                                                                                                    4/17/2009                              $31,810,122     w/ Additional   $1,464,690,823
                                                                                                                                                                                                                 repayment
                                                                                                                                                                                                                                                                   Note

Chrysler
                                                                                                                                                                                                                                                         Debt Obligation
FinCo,                                                                                                                                                                                                               Partial
                                                                                                                                                                                                    5/18/2009                              $51,136,084     w/ Additional   $1,413,554,739      $7,405,894
Farmington                                                                                                                                                                                                       repayment
                                                                                                                                                                                                                                                                   Note
Hills, MI

                                                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                                                     Partial
                                                                                                                                                                                                    6/17/2009                              $44,357,710     w/ Additional   $1,369,197,029
                                                                                                                                                                                                                 repayment
                                                                                                                                                                                                                                                                   Note

                                                                                                                                                                                                    7/14/2009 Repayment                 $1,369,197,029 Additional Note                 —

                                                                                                                                                                                                    7/14/2009 Repayment*                   $15,000,000            None                 —

                                                                                                                                                                            Debt
                                                                                                                 Transfer of                                           Obligation
                                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I april 28, 2011




                                    Chrysler       Debt Obligation w/                                                                                Chrysler                                                Termina-
             1/2/2009    Purchase                                         $4,000,000,000          6/10/2009     debt to New    $500,000,000   19                20             w/ $3,500,000,000 5/14/2010                              $1,900,000,000            None                 —
                                    Holding        Additional Note                                                                                   Holding                                                 tion and
                                                                                                                    Chrysler                                           additional                                               20
                                                                                                                                                                            note                           settlement
                                                                                                                                                                                                             payment
                                    Chrysler       Debt Obligation w/
             4/29/2009   Purchase                                                     —    14
                                    Holding        Additional Note

                                    Chrysler       Debt Obligation w/
             4/29/2009   Purchase                                          $280,130,642    15                                                                                                       7/10/2009 Repayment                  $280,130,642             None                 —
                                    Holding        Additional Note


                                                                                                                Completion                           Old Carco         Rights to                             Proceeds                                          Right to
                                                   Debt Obligation w/
             5/1/2009    Purchase Old Chrysler                            $1,888,153,580   16     4/30/2010 of bankruptcy ($1,888,153,580)    23     Liquidation 23     Recover             N/A 5/10/2010 from sale of                     $30,544,528          recover              N/A
                                                   Additional Note
Chrylser,c                                                                                                     proceeding;                           Trust             Proceeds                              collateral                                       proceeds
Auburn                                                                                                      transfer of col-                                                                                                                                                                $693,709,634
Hills, MI                                                                                                   lateral security                                                                                     Proceeds                                      Right to
                                                   Debt Obligation w/                                         to liquidation
             5/20/2009   Purchase Old Chrysler                                        —    17                                                                                                        9/9/2010 from sale of                  $9,666,784          recover              N/A
                                                   Additional Note                                                     trust                                                                                     collateral                                   proceeds

                                                                                                                                                                                                                 Proceeds                                      Right to
                                                                                                                                                                                                   12/29/2010 from sale of                  $7,844,409          recover              N/A
                                                                                                                                                                                                                 collateral                                   proceeds
                                                                                                                                                                            Debt
                                                   Debt Obligation w/                                            Issuance of                         Chrysler          Obligation
             5/27/2009   Purchase New Chrysler     Additional Note,       $6,642,000,000   18     6/10/2009    equity in New             —           Group      19             w/ $7,142,000,000
                                                   Equity                                                           Chrysler                         LLC               additional
                                                                                                                                                                            note
                                                                                                                                                     Chrysler
                                                                                                                                                                        Common
                                                                                                                                                     Group                                 9.9%
                                                                                                                                                                          equity
                                                                                                                                                     LLC
                                                                                                                                                                                                           Additional Note
                                                                                                                                                                                                               Proceeds*                  $15,000,000

                                    Total Initial Investment Amount     $81,344,932,551                                                                                                                    Total Payments             $29,161,881,226
                                                                                                                                                                                                            Total Treasury
                                                                                                                                                                                                       Investment Amount              $48,694,897,745
     AIFP TRANSACTION DETAIL, AS OF 3/31/2011                                                     (continued)

Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numbered notes were taken verbatim from Treasury’s 4/4/2011 Transactions Report.
GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to Section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to Section 363 of the Bankruptcy Code.

1	
   Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2	
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3	
   Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See footnote 22.)
4	
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5	
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6	
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed by the new
   GM, as explained in footnote 10.
7	
   On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8	
   Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had been disbursed by
   Treasury.
9	
   On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a separate
   credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
   In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM.
11	
   Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company” on an equal
   basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
   Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13	
   The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14	
   This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15	
   The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16	
   This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of 6/30/2009, Trea-
   sury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrylser DIP Loan.
17	
   This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had terminated.
18	
   This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion. The total
   loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new Chrysler was completed,
   Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19	
   Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20	
   Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment of $1.9
   billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21	
   Amount of the Treasury investment after exchange includes the exercised warrants from Treasury’s initial investment.
22	
   Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23	
   On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to a liquidation
   trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24	
   On October 27, 2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock. The repur-
   chase was completed on 12/15/2010.
25	
   On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were 11,743,303,903. On 11/26/2010, the underwrit-
   ers exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total $13,504,799,480.
26	
   On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500 of convertible preferred stock.
27	
   On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury received all
   outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28	
   On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the accumulated
   and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29	
   On March 31, 2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were transferred to liquida-
   tion trusts. Under the Plan of Liquidation, Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
a
   For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b	
   According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c	
   This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 3/31/2011; Treasury, Dividends and Interest Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/6/2011.
                                                                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                                                                                       263
                                                                                                                                                                                                                                                                                                                                          264
Table D.5

 ASSP Transaction Detail, as of 3/31/2011
                   Seller                                                                                                              Adjustment Details                                                           Repayment4
                                                                 Investment                                                                                      Adjusted                                                                  Remaining                        Dividends/
                                                  Transaction    Description                 Investment   Pricing Adjustment                Adjustment         Investment                                                                 Investment                     Interest Paid
Note   Date       Institution Name                Type                                          Amount Mechanism        Date3                  Amount             Amount             Date                 Type                            Description         Amount       to Treasury
                                                                                                                                                                             11/20/2009       Partial repayment     Debt Obligation w/ Additional Note   $140,000,000
1,3               GM Supplier Receivables LLC,                   Debt Obligation w/                                       7/8/2009 ($1,000,000,000) $2,500,000,000            2/11/2010       Partial repayment     Debt Obligation w/ Additional Note   $100,000,000
       4/9/2009                                   Purchase                             $3,500,000,000             N/A                                                                                           5
                                                                                                                                                                                                                                                                         $21,629,701
                  Wilmington, DE                                 Additional Note                                                                                               3/4/2010            Repayment                           Additional Note    $50,000,000
1,6                                                                                                                                                         $290,000,000       4/5/2010               Payment6                                  None      $56,541,893
2,3               Chrysler Receivables SPV LLC,                  Debt Obligation w/                                       7/8/2009     ($500,000,000) $1,000,000,000           3/9/2010            Repayment5                          Additional Note   $123,076,735
       4/9/2009                                 Purchase                               $1,500,000,000             N/A                                                                                                                                                    $10,320,229
2,7               Wilmington, DE                                 Additional Note                                                                            $123,076,735       4/7/2010               Payment7                                  None      $44,533,054
                                                                  Initial Total       $5,000,000,000                                    Adjusted Total      $413,076,735                                                          Total Repayments $413,076,735
                                                                                                                                        Total Proceeds
                                                                                                                                       from Additional      $101,074,947
                                                                                                                                                 Notes

Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numbered notes were taken verbatim from Treasury’s 4/4/2011 Transactions Report.
1
  The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed
  on 4/9/2009, but was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009,
  but was made effective as of 4/7/2009. Chyrsler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
  Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
                                                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I april 28, 2011




4
  Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
  All outstanding principal drawn under the credit agreement was repaid.
6
  Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2009, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds
  disbursed under the loan, all of which have been repaid.
7
  Treasury’s commitment was $1 billion (see note 3). As of 4/7/2009, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds
  disbursed under the loan, all of which have been repaid.

Sources: Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/11/2011.




Table D.6

 TIP Transaction Detail, as of 3/31/2011
                                                                                                                                                           Treasury Investment
                                                                                                                                                                Remaining
                       Seller                                                                                            Capital Repayment Details       After Capital Repayment            Final Disposition                                                                    Market and Warrants Data
                                                                                                                                                                                                                                                                                             Amount “In
                                                                                                                                              Capital Remaining         Remaining          Final              Final                                          Market              Outstanding the Money” In or Out           Dividends/
                                           Transaction    Investment                    Investment        Pricing Capital Repayment        Repayment    Capital           Capital    Disposition        Disposition         Final Disposition   Stock Capitalization    Strike       Warrant   or “Out of  of the      Interest Paid to
 Note Date             Institution Name    Type           Description                      Amount      Mechanism             Amount             Date2   Amount         Description        Date3         Description                Proceeds     Price   (in millions)    Price        Shares the Money” Money a               Treasury
                                                          Trust Preferred
                       Citigroup Inc.,                    Securities w/
 1      12/31/2008     New York, NY        Purchase       Warrants                $20,000,000,000               Par     $20,000,000,000 12/23/2009                —       Warrants   1/25/2011 A           Warrants           $190,386,428      $4.42 $128,701.10 $10.61 188,501,414              ($5.88)       OUT $1,568,888,889
                       Bank of America
                       Corporation,                       Preferred Stock w/
        1/16/2009      Charlotte, NC       Purchase       Warrants                $20,000,000,000               Par     $20,000,000,000     12/9/2009             —       Warrants    3/3/2010 A           Warrants     $1,255,639,099.00 $13.33           $134,915                                                   $1,435,555,556

                                                                                                      Total Capital
                                                           Total Investment $40,000,000,000            Repayment $40,000,000,000                                                                                                                 Total Warrant Proceeds $1,446,025,527
                                                                                   Total Treasury TIP Investment
                                                                                                         Amount                      $—

 Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numbered notes were taken verbatim from Treasury’s 4/4/2011 Transactions Report.
 1
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock,
   Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
 2
   Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
 3
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
 a
   When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

 Sources: Treasury, Transactions Report, 3/31/2011; Treasury, Dividends and Interest Report, 3/31/2011, Treasury, response to SIGTARP data call, 4/6/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/4/2011.
Table D.7

    AGP Transaction Detail, as of 3/31/2011
                           Initial Investmentb                                                 Premium                Exchange/Transfer/Other Details                                                            Payment or Disposition                                                          Market and Warrants Data
                                                                                                                                                                                                                                                                                                                                 Dividends/
                                                                                                                                                                                                         Remaining            Remaining                      Market               Outstanding Amount “In the       In or Out        Interest
                  Institution Transaction                     Guarantee                                                     Descrip-                                                             Payment Premium               Premium       Stock    Capitalization       Strike     Warrant Money” or “Out          of the         Paid to
Note      Date    Name        Type        Description              Limit Description            Amount      Date       Type     tion             Amount       Date Payment Type                   Amount     Desc               Amount       Price      (in millions)       Price      Shares  of the Money”        Money a        Treasury



                                                                                                                   Exchange
                                                                                                                                  Trust                                                                 Trust
                                                                                                                   preferred                                    Partial cancel-
                                                                                                                              Preferred                                                             Preferred
                                                                                                          06/09/       stock                            12/23/ lation for early
                                                                                                                              Securities $4,034,000,000                         ($1,800,000,000.00) Securities $2,234,000,000
                                                                                                            2009    for trust                             2009 termination of
                                                                                                                                     w/                                                                    w/
                                                                                                                   preferred                                        guarantee
                                                                                                                               Warrants                                                              Warrants
              Citigroup                                                     Preferred                              securities
1,2,3, 01/16/                            Master
              Inc.,New Guarantee                         $5,000,000,000     Stock w/ $4,034,000,000
4,5    2009                              Agreement
              York,NY                                                       Warrants
                                                                                                                 Exchange                                                                                                                   $4.42      $128,701.10                                                             $442,964,764
                                                                                                                                                      09/30/
                                                                                                                      trust     Trust                                  Disposition    $2,246,000,000.00      Warrants                 —
                                                                                                                                                        2010
                                                                                                                 preferred Preferred
                                                                                                          09/29/
                                                                                                                 securities Securities $2,246,000,000
                                                                                                            2010                                      01/25/              Warrant
                                                                                                                  for trust        w/                                                       $67,197,045          None                 —
                                                                                                                 preferred Warrants                     2011              Auction
                                                                                                                 securities
                 Citigroup
          12/23/                      Termination
3                Inc.,New Termination             ($5,000,000,000)
          2009                        Agreement
                 York,NY
                                         Total                        $—                                                                                          Total Proceeds          $446,000,000


Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numbered notes taken verbatim from 4/4/2011 Transactions Report.
1	
   In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2	
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock Series
   G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3	
   On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP Trust Preferred
   Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity Guarantee Program.
4	
   On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc. paid the
   outstanding accrued and unpaid dividends.
5	
   On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
a	
   When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
b	
   AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.

Sources: Treasury, Transactions Report, 3/31/2011; Treasury, Dividends and Interest Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/6/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/4/2011.




    Table D.8


    TALF Transaction Detail, as of 3/31/2011
                          Seller
                                                        Transaction                                                                               Pricing               Adjusted                 Adjusted
    Note Date             Institution                   Type           Investment Description                   Investment Amount              Mechanism         Investment Date       Investment Amount

    1-2      3/3/2009     TALF LLC, Wilmington, DE Purchase            Debt Obligation w/ Additional Note          $20,000,000,000                     N/A            7/19/2010           $4,300,000,000


                                                                                                     TOTAL         $4,300,000,000

    Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numbered notes were taken verbatim from Treasury’s 4/4/2011 Transactions Report.
    1
      The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York. The amount of $20,000,000,000 represents the maximum loan amount. The
      loan will be incrementally funded.
    2
      On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan
      amount to $4,300,000,000.

    Source: Treasury, Transactions Report, 3/31/2011.
                                                                                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                                                                               265
                                                                                                                                                                                                                                                                                                                                      266
Table D.9

    SSFI (AIG) Transaction Detail, as of 3/31/2011
                      Seller              Purchase Detail                                                                                                                                       Exchange Details                                                                       Warrants and Market Data

                                                                                                                                                                                                                                          Market                                    Amount “In the                       Dividends/
                                          Transaction     Investment                      Investment   Pricing                         Transaction               Investment             Investment       Pricing                   Capitalization       Strike      Outstanding   Money” or “Out of    In or Out of   Interest Paid
Note Date             Institution         Type            Description                        Amount Mechanism                  Date          Type                Description               Amount     Mechanism        Stock Price   (in millions)       Price   Warrant Shares        the Money”     the Money a       to Treasury
                                                          Preferred Stock                                                                                 Preferred Stock w/
1      11/25/2008 AIG, New York, NY Purchase                                      $40,000,000,000              Par      4/17/2009         Exchange                                 $40,000,000,000              Par        $35.14         63,136       $50.00        2,689,938             ($14.86)            Out              —
                                                          w/ Warrants                                                                                               Warrants
                                                          Preferred Stock                                               See table below for exchange/transfer details in connection with the recapitalization
2,3    4/17/2009      AIG, New York, NY Purchase                                  $29,835,000,000              Par                                                                                                         $35.14         63,136     $0.00002              150              $35.14              IN              —
                                                          w/ Warrants                                                   conducted on 1/14/2011.
                                                          Total                  $69,835,000,000                                                                  Final Disposition
                                                                                                                                                                Transaction                                               Pricing
                                                                                                                               Date    Investment                                        Proceeds
                                                                                                                                                                      Type                                             Mechanism
                                                                                                                                           Warrants
                                                                                                                                          (Series E)
                                                                                                                                           Warrants
                                                                                                                                          (Series F)




                                                                                  Treasury Holdings
                                                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I april 28, 2011




            Recapitalization                                                                                                                                   Final Disposition
                                                                                  Post-Recapitalization

                     Investment           Transaction         Pricing             Investment      Investment                                    Transaction                           Pricing      Remaining Recap
Note Date                                                                                                                                Date                       Proceeds8
                     Description          Type                Mechanism           Description     Amount                                              Type                         Mechanism     Investment Amount

                                          Exchange            Par                 Preferred
                                                                                  Stock           $2,000,000,000
                                                                                  (Series G)

                                                                                                                                  2/14/2011        Payment      $185,726,192              Par
                                                                                  AIA Preferred
                                                                                                  $16,916,603,568                  3/8/2011        Payment $5,511,067,614                 Par    $11,163,976,429
                                                                                  Units
                     Preferred Stock      Exchange            N/A
4,7,8 1/14/2011
                     (Series F)                                                                                                   3/15/2011        Payment       $55,833,333              Par

                                                                                  ALICO Junior                                    2/14/2011        Payment $2,009,932,072                 Par
                                                                                  Preferred       $3,375,328,432                                                                                                 —
                                                                                  Interests                                        3/8/2011        Payment $1,383,888,037                 Par

                                          Exchange            N/A                                 167,623,733
                     Preferred Stock                                              Common
5      1/14/2011                          Exchange                                                924,546,133
                     (Series E)                                                   Stock
                     Common Stock
6      1/14/2011                          Transfer                                                562,868,096
                     (non-TARP)

                                                                                                                                                       Total   $9,146,447,248

Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numbered notes were taken verbatim from Treasury’s 4/4/2011 Transactions Report.
1
  On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In
addition, in order for AIG to fully redeem the Series E Preferred Shares, it has an additional obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares
due to Treasury through and including the exchange date.
2
  The investment price reflects Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
  This transaction does not include AIG’s commitment fee of an additional $165 million to be paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on
12/17/2010. Additional payments are scheduled to be made in accordance with the Amended and Restated Purchase Agreement, dated as of 1/14/2011, between AIG and Treasury.
4
  This transaction does not include AIG’s commitment fee of an additional $165 million to be paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on
12/17/2010. Additional payments are scheduled to be made in accordance with the Amended and Restated Purchase Agreement, dated as of 1/14/2011, between AIG and Treasury.
5
  On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual
Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
  On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal
Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s
Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
  The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
  Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

Sources: Treasury, Transactions Report, 3/31/2011; Treasury, Dividend and Interest Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/6/2011; Market Data: Capital IQ, Inc. (a division of Standard
& Poor’s), www.capitaliq.com, accessed 4/4/2011.
Table D.10

  UCSB TRANSACTION DETAIL, AS OF 3/31/2011
                                                                                          1
                                                                       Purchase Details                                                                                           Settlement Details               Final Disposition
                                                                                                                                                                                                               Life-to-date      Current                     Dividend/
                                                                                              Purchase Face       Pricing              Settlement    Investment                   Senior Security      Trade      Principal        Face    Disposition Interest Paid to
Trade Date   Investment Description                   Institution Name       CUSIP                 Amount3     Mechanism TBA or PMF3         Date     Amount 2, 3   TBA or PMF3     Proceeds 4         Date     Received 1       Amount      Amount 5         Treasury

3/19/2010    Floating Rate SBA 7a security due 2025   Coastal Securities     83164KYN7         $4,070,000.00      107.75     —          3/24/2010    $4,377,249         —                    $2,184                                                          $124,276

3/19/2010    Floating Rate SBA 7a security due 2022   Coastal Securities     83165ADC5         $7,617,617.00         109     —          3/24/2010    $8,279,156         —                    $4,130                                                          $262,680

3/19/2010    Floating Rate SBA 7a security due 2022   Coastal Securities     83165ADE1         $8,030,000.00     108.875     —          3/24/2010    $8,716,265         —                    $4,348                                                          $273,918

4/8/2010     Floating Rate SBA 7a security due 2034   Coastal Securities     83165AD84        $23,500,000.00     110.502     —          5/28/2010   $26,041,643         —                   $12,983                                                          $726,075

4/8/2010     Floating Rate SBA 7a security due 2016   Coastal Securities     83164KZH9         $8,900,014.00       107.5     —          4/30/2010    $9,598,523         —                    $4,783                                                          $297,302

5/11/2010    Floating Rate SBA 7a security due 2020   Coastal Securities     83165AEE0        $10,751,382.00     106.806     —          6/30/2010   $11,511,052         —                    $5,741                                                          $224,869

5/11/2010    Floating Rate SBA 7a security due 2035   Coastal Securities     83164K2Q5        $12,898,996.00      109.42     —          6/30/2010   $14,151,229         —                    $7,057                                                          $305,166

5/11/2010    Floating Rate SBA 7a security due 2033   Coastal Securities     83165AED2         $8,744,333.00     110.798     —          6/30/2010    $9,717,173         —                    $4,844                                                          $234,958

5/25/2010    Floating Rate SBA 7a security due 2029   Coastal Securities     83164K3B7         $8,417,817.00     110.125     —          7/30/2010    $9,294,363         —                    $4,635                                                          $174,158

5/25/2010    Floating Rate SBA 7a security due 2033   Coastal Securities     83165AEK6        $17,119,972.00     109.553     —          7/30/2010   $18,801,712         —                    $9,377                                                          $328,608

6/17/2010    Floating Rate SBA 7a security due 2020   Coastal Securities     83165AEQ3        $34,441,059.00     110.785     —          8/30/2010   $38,273,995         —                   $19,077                                                          $726,125

6/17/2010    Floating Rate SBA 7a security due 2034   Coastal Securities     83165AEP5        $28,209,085.00     112.028     —          8/30/2010   $31,693,810         —                   $15,801                                                          $559,765

7/14/2010    Floating Rate SBA 7a security due 2020   Coastal Securities     83164K3Y7         $6,004,156.00     106.625     —          9/30/2010    $6,416,804         —                    $3,200                                                           $75,945

7/14/2010    Floating Rate SBA 7a security due 2025   Coastal Securities     83164K4J9         $6,860,835.00     108.505     —          9/30/2010    $7,462,726         —                    $3,722                                                           $94,337

7/14/2010    Floating Rate SBA 7a security due 2034   Coastal Securities     83165AE42        $13,183,361.00      111.86     —          9/30/2010   $14,789,302         —                    $7,373                                                          $218,158

7/29/2010    Floating Rate SBA 7a security due 2017   Coastal Securities     83164K4E0         $2,598,386.00     108.438     —          9/30/2010    $2,826,678         —                    $1,408                                                           $45,878

7/29/2010    Floating Rate SBA 7a security due 2034   Coastal Securities     83164K4M2         $9,719,455.00      106.75     —         10/29/2010   $10,394,984         —                    $5,187                                                           $83,124

8/17/2010    Floating Rate SBA 7a security due 2020   Coastal Securities     83165AEZ3         $8,279,048.00     110.198     —          9/30/2010    $9,150,989         —                    $4,561                                                          $138,891

8/17/2010    Floating Rate SBA 7a security due 2019   Coastal Securities     83165AFB5         $5,000,000.00     110.088     —         10/29/2010    $5,520,652         —                    $2,752                                                           $69,077

8/17/2010    Floating Rate SBA 7a security due 2020   Coastal Securities     83165AE91        $10,000,000.00     110.821     —         10/29/2010   $11,115,031         —                    $5,541                                                          $140,100

8/31/2010    Floating Rate SBA 7a security due 2020   Shay Financial         83165AEW0         $9,272,482.00     110.515     —          9/29/2010   $10,277,319         —                    $5,123                                                          $157,138

8/31/2010    Floating Rate SBA 7a security due 2024   Shay Financial         83165AFA7        $10,350,000.00     112.476     —         10/29/2010   $11,672,766         —                    $5,820                                                          $134,390

8/31/2010    Floating Rate SBA 7a security due 2020   Coastal Securities     83164K5H2         $6,900,000.00     105.875     —         11/30/2010    $7,319,688         —                    $3,652                                                           $44,134

9/14/2010    Floating Rate SBA 7a security due 2020   Shay Financial         83165AFC3         $8,902,230.00     111.584     —         10/29/2010    $9,962,039         —                    $4,966                                                          $121,650

9/14/2010    Floating Rate SBA 7a security due 2021   Shay Financial         83165AFK5         $8,050,000.00     110.759     —         11/30/2010    $8,940,780         —                    $4,458                                                           $76,149

9/14/2010    Floating Rate SBA 7a security due 2029   Coastal Securities     83164K5F6         $5,750,000.00       106.5     —         11/30/2010    $6,134,172         —                    $3,061                                                           $32,234

9/14/2010    Floating Rate SBA 7a security due 2026   Coastal Securities     83164K5L3         $5,741,753.00       110.5     —         11/30/2010    $6,361,173         —                    $3,172                                                           $51,138

9/28/2010    Floating Rate SBA 7a security due 2035   Coastal Securities     83164K5M1         $3,450,000.00     110.875     —         11/30/2010    $3,834,428         —                    $1,912                                                           $28,616

9/28/2010    Floating Rate SBA 7a security due 2034   Coastal Securities     83165AFT6        $11,482,421.00     113.838     —         12/30/2010   $13,109,070         —                    $6,535                                                           $78,043

                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                          267
                                                                                                                                                                                                                                                                                                                                                     268
     UCSB TRANSACTION DETAIL, AS OF 3/31/2011
                                                                                                                 1
                                                                                              Purchase Details                                                                                                                           Settlement Details                      Final Disposition
                                                                                                                                                                                                                                                                            Life-to-date         Current                        Dividend/
                                                                                                                         Purchase Face         Pricing                           Settlement           Investment                         Senior Security      Trade            Principal           Face       Disposition Interest Paid to
Trade Date         Investment Description                                    Institution Name       CUSIP                     Amount3       Mechanism TBA or PMF3                      Date            Amount 2, 3   TBA or PMF3           Proceeds 4         Date           Received 1          Amount         Amount 5         Treasury

9/28/2010          Floating Rate SBA 7a security due 2034                    Shay Financial         83165AFM1            $13,402,491.00         113.9      —                    11/30/2010          $15,308,612            —                        $7,632                                                                          $133,797

9/28/2010          Floating Rate SBA 7a security due 2035                    Shay Financial         83165AFQ2            $14,950,000.00       114.006      —                    12/30/2010          $17,092,069            —                        $8,521                                                                           $99,258

                                                                                                                                                                                       Total                           Total Senior                                                                 Total
                                                                                                    Total Purchase
                                                                                                                         $332,596,893                                            Investment       $368,145,452           Security                $183,555                                     Disposition                $—               $—
                                                                                                    Face Amount
                                                                                                                                                                                   Amount*                              Proceeds                                                               Proceeds

Notes: Numbers affected by rounding. Data as of 3/31/2011. Numbered notes were taken verbatim from Treasury’s 4/4/2011 Transactions Report.

*	Subject to adjustment
1	
   The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at http://www.treasury.gov/initiatives/financial—stability/Pages/default.aspx.
2	
   Investment Amount is stated after giving effect to factor and, if applicable, the purchase of accrued principal and interest.
3	
   If a purchase is listed as TBA, or To—Be—Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as PMF, or
   Prior—Month—Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior—month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor (on or about
   the 11th business day of each month).
4	
   In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product of (A)
   0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase Agreement.
5	
   Disposition Amount is stated after giving effect, if applicable, to sale of accrued principal and interest.

Source: Treasury, Transactions Report, 3/31/2011, Treasury, Dividends and Interest Report, 3/31/2011, Response to SIGTARP data call, 4/6/2011.



Table D.11
                                                                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I april 28, 2011




     PPIP Transaction Detail, as of 3/31/2011                                                                (Continued)
                                                                                                                                                                                                                                                 Investment after Capital
                                                                                                                                                                          3
                                              Seller                                                                                                Adjusted Investment          Final Investment Amount7        Capital Repayment Details             Repayment                           Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                         Interest/
                                                                        Transaction        Investment                             Pricing                                                                        Repayment       Repayment                                                                                           Distributions
Note    Date             Institution             City             State Type               Description     Investment Amount   Mechanism           DateAmount                 Date                    Amount          Date          Amount            Amount Description          Date          Description    Proceeds          Paid to Treasury
                                                                                           Debt
                                                                                           Obligation w/
                         AG GECC PPIF                                                      Contingent
2,6     10/30/2009       Master Fund, L.P.                                              
                                             Wilmington DE                 Purchase        Proceeds           $2,222,222,222          Par     3/22/2010 $2,542,675,000          7/16/2010      $2,486,550,000                                                                                                                       $82,787,534

                         AG GECC PPIF                                                      Membership
1,6     10/30/2009       Master Fund, L.P.                                              
                                             Wilmington DE                 Purchase        Interest           $1,111,111,111          Par     3/22/2010 $1,271,337,500          7/16/2010      $1,243,275,000
                                                                                           Debt
                         AllianceBernstein                                                 Obligation w/
                         Legacy Securities                                                 Contingent
2,6     10/2/2009        Master Fund, L.P. Wilmington             DE        Purchase       Proceeds           $2,222,222,222          Par     3/22/2010 $2,488,875,000          7/16/2010      $2,300,847,000                                                                                                                      $113,106,621
                         AllianceBernstein
                         Legacy Securities                                                 Membership
1,6     10/2/2009        Master Fund, L.P. Wilmington             DE        Purchase       Interest           $1,111,111,111          Par     3/22/2010 $1,244,437,500          7/16/2010      $1,150,423,500
                                                                                           Debt
                                                                                           Obligation w/
                         Blackrock PPIF,                                                   Contingent
2,6     10/2/2009        L.P.                    Wilmington       DE        Purchase       Proceeds           $2,222,222,222          Par     3/22/2010 $2,488,875,000          7/16/2010      $1,389,960,000                                                                                                                       $15,389,626

                         Blackrock PPIF,                                                   Membership
1,6     10/2/2009        L.P.                    Wilmington       DE        Purchase       Interest           $1,111,111,111          Par     3/22/2010 $1,244,437,500          7/16/2010       $694,980,000
                         Invesco Legacy
                         Securities Master                                                 Membership
1,6     9/30/2009        Fund, L.P.        Wilmington             DE        Purchase       Interest           $1,111,111,111          Par    03/22/2010 $1,244,437,500          7/16/2010       $856,000,000
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                                                                             w/ Contingent
                                                                                                                                                                                                                 2/18/2010       $4,888,718   $1,707,111,282 Proceeds
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                                                                             w/ Contingent
                                                                                                                                                                                                                 4/15/2010       $7,066,434   $1,700,044,848 Proceeds
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                                                                             w/ Contingent
                                                                                                                                                                                                                 9/15/2010      $60,022,674   $1,640,022,174 Proceeds
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                           Debt                                                                                                                                                              w/ Contingent                                                         $310,633,053
                         Invesco Legacy                                                                                                                                                                         11/15/2010     $132,928,628   $1,507,093,546 Proceeds
                                                                                           Obligation w/
2,6     9/30/2009        Securities Master Wilmington             DE        Purchase                          $2,222,222,222          Par     3/22/2010 $2,488,875,000          7/16/2010      $1,712,000,000
                                                                                           Contingent                                                                                                                                                        Debt Obligation
                         Fund, L.P.
                                                                                           Proceeds                                                                                                                                                          w/ Contingent
                                                                                                                                                                                                                12/14/2010      $31,689,230   $1,475,404,316 Proceeds
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                                                                             w/ Contingent
                                                                                                                                                                                                                 1/14/2010      $27,355,590   $1,448,048,726 Proceeds
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                                                                             w/ Contingent
                                                                                                                                                                                                                 2/14/2011      $92,300,138   $1,355,748,588 Proceeds
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                                                                             w/ Contingent
                                                                                                                                                                                                                 3/14/2011     $128,027,536   $1,227,721,052 Proceeds


                                                                                                                                                                                                                                                                                                                         Continued on next page.
    PPIP Transaction Detail, as of 3/31/2011                                                     (Continued)
                                                                                                                                                                                                                                                 Investment after Capital
                                                                                                                                                                     3
                                          Seller                                                                                               Adjusted Investment           Final Investment Amount7        Capital Repayment Details                 Repayment                          Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                         Interest/
                                                               Transaction     Investment                               Pricing                                                                             Repayment          Repayment                                                                                             Distributions
Note    Date             Institution        City         State Type            Description     Investment Amount     Mechanism                DateAmount                 Date                    Amount          Date             Amount               Amount Description          Date        Description    Proceeds           Paid to Treasury
                         Marathon Legacy                                       Debt
                         Securities Public-                                    Obligation w/
                         Private Investment                                    Contingent
2,6     11/25/2009       Partnership, L.P. Wilmington    DE      Purchase      Proceeds           $2,222,222,222             Par       3/22/2010 $2,488,875,000             7/16/2010      $949,100,000
                                                                                                                                                                                                                                                                                                                                    $13,809,654
                         Marathon Legacy
                         Securities Public-
                         Private Investment                                    Membership
1,6     11/25/2009       Partnership, L.P. Wilmington    DE      Purchase      Interest           $1,111,111,111             Par       3/22/2010 $1,244,437,500             7/16/2010      $474,550,000
                                                                               Debt
                                                                               Obligation w/
                         Oaktree PPIP                                          Contingent
2,6     12/18/2009       Fund, L.P.         Wilmington   DE      Purchase      Proceeds           $2,222,222,222             Par       3/22/2010 $2,488,875,000             7/16/2010     $2,321,568,200                                                                                                                             $2,410,838

                         Oaktree PPIP                                          Membership
1,6     12/18/2009       Fund, L.P.         Wilmington   DE      Purchase      Interest           $1,111,111,111             Par       3/22/2010 $1,244,437,500             7/16/2010     $1,160,784,100
                                                                               Debt
                         RLJ Western Asset                                     Obligation w/
                         Public/Private                                        Contingent
2,6     11/4/2009        Master Fund, L.P. Wilmington    DE      Purchase      Proceeds           $2,222,222,222             Par       3/22/2010 $2,488,875,000             7/16/2010     $1,241,156,516                                                                                                                            $68,604,131
                         RLJ Western Asset
                         Public/Private                                        Membership
1,6     11/4/2009        Master Fund, L.P. Wilmington    DE      Purchase      Interest           $1,111,111,111             Par       3/22/2010 $1,244,437,500             7/16/2010      $620,578,258
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                                                                             w/ Contingent
                                                                               Debt                                                                                                                         1/11/2010        $34,000,000        $166,000,000 Proceeds                          N/A
                         UST/TCW Senior
                                                                               Obligation w/
2,4,5   9/30/2009        Mortgage Securi- Wilmington     DE      Purchase                         $2,222,222,222             Par        1/4/2010       $200,000,000                        $200,000,000
                                                                               Contingent                                                                                                                                                                                         1/29/2010 Distribution           $502,302
                         ties Fund, L.P.                                                                                                                                                                                                                      Contingent
                                                                               Proceeds                                                                                                                     1/12/2010      $166,000,000                     —
                                                                                                                                                                                                                                                              Proceeds                      Final                                      $342,176
                                                                                                                                                                                                                                                                                  2/24/2010 Distribution                $1,223

                         UST/TCW Senior                                                                                                                                                                                                                                           1/29/2010 Distribution        $20,091,872
                                                                               Membership                                                                                                                                                                       Membership
1,4,5   9/30/2009        Mortgage Securi- Wilmington     DE      Purchase                         $1,111,111,111             Par        1/4/2010       $156,250,000                        $156,250,000     1/15/2010      $156,250,000                     —
                                                                               Interest                                                                                                                                                                         Interest                    Final
                         ties Fund, L.P.
                                                                                                                                                                                                                                                                                  2/24/2010 Distribution            $48,922
                         Wellington Manage-                                    Debt
                         ment Legacy                                           Obligation w/
                         Securities PPIF                                       Contingent
2,6     10/1/2009        Master Fund, LP Wilmington      DE      Purchase      Proceeds           $2,222,222,222             Par       3/22/2010 $2,524,075,000             7/16/2010     $2,298,974,000
                                                                                                                                                                                                                                                                                                                                    $47,006,054
                         Wellington Manage-
                         ment Legacy
                         Securities PPIF                                       Membership
1,6     10/1/2009        Master Fund, LP Wilmington      DE      Purchase      Interest           $1,111,111,111             Par       3/22/2010 $1,262,037,500             7/16/2010     $1,149,487,000



                                                                               Initial                                                                                   Total Final
                                                                                                                                                                                                           Total Capital                                                                       Total
                                                                               Investment       $30,000,000,000                                                          Investment     $22,406,483,574                    $840,528,948                                                                        $20,644,319
                                                                                                                                                                                                            Repayment                                                                          Proceeds
                                                                               Amount                                                                                    Amount

Notes: Numbers may not total due to rounding. Data as of 3/31/2011. Numbered notes were taken verbatim from Treasury’s 4/4/2011 Transactions Report.
1
 	The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
 	The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
 	Adjusted to show Treasury’s maximum obligations to a fund.
4
 	On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
 	Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
 	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for the
  $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
 	Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.

Sources: Treasury, Transactions Report, 3/31/2011; Treasury, Dividends and Interest Report, 3/31/2011; Treasury, response to SIGTARP data call, 4/6/2011.
                                                                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                                                                                     269
table d.12                                                                                                                                                                                                                                                                                 270

HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                    (CONTINUED)

            Servicer Modifying Borrowers’ Loans                             Cap of Incentive                                              Adjustment Details                                                                             Non-GSE Incentive Payments
                                                                         Payments on Behalf
                                                                           of Borrowers and                                                                                                                                                                                        Total
                                                                              to Servicers &                                       Cap                                                                         Market                       Lenders/                           Non-GSE
            Name of                       Transaction   Investment        Lenders/Investors Pricing         Adjustment      Adjustment        Adjusted                                                  Capitalization      Borrowers       Investors      Servicers           Incentive
Date        Institution                   Type          Description                   (Cap)1 Mechanism Note Date               Amount             Cap    Reason for Adjustment                            (in Millions)      Incentive     Incentives     Incentives          Payments

                                                                                                            6/12/2009     $284,590,000    $660,590,000   Updated portfolio data from servicer

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     $121,910,000    $782,500,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009    $131,340,000    $913,840,000
                                                                                                                                                         initial cap

                                                                                                            3/26/2010    ($355,530,000)   $558,310,000   Updated portfolio data from servicer

                                                                                                            7/14/2010     $128,690,000    $687,000,000   Updated portfolio data from servicer

                                                                                                            9/30/2010       $4,000,000    $691,000,000   Initial FHA-HAMP cap and initial FHA-2LP cap
                                                        Financial
            Select Portfolio Servicing,                 Instrument for                                      9/30/2010      $59,807,784    $750,807,784   Updated portfolio data from servicer
4/13/2009                                 Purchase                           $376,000,000 N/A                                                                                                                             $12,576,586    $32,265,642    $33,071,969       $77,914,197
            Salt Lake City, UT                          Home Loan
                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I april 28, 2011




                                                        Modifications                                       11/16/2010       ($700,000)   $750,107,784   Transfer of cap due to servicing transfer

                                                                                                            12/15/2010     $64,400,000    $814,507,784   Updated portfolio data from servicer

                                                                                                            1/6/2011             ($639)   $814,507,145   Updated portfolio data from servicer

                                                                                                            1/13/2011      ($2,300,000)   $812,207,145   Transfer of cap due to servicing transfer

                                                                                                            2/16/2011         $100,000    $812,307,145   Transfer of cap due to servicing transfer

                                                                                                            3/16/2011       $3,600,000    $815,907,145   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                            3/30/2011            ($735)   $815,906,410
                                                                                                                                                         reallocation

                                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                               (CONTINUED)

            Servicer Modifying Borrowers’ Loans                        Cap of Incentive                                                Adjustment Details                                                                             Non-GSE Incentive Payments
                                                                    Payments on Behalf
                                                                      of Borrowers and                                                                                                                                                                                          Total
                                                                         to Servicers &                                        Cap                                                                          Market                       Lenders/                           Non-GSE
            Name of                  Transaction   Investment        Lenders/Investors Pricing         Adjustment       Adjustment         Adjusted                                                  Capitalization      Borrowers       Investors      Servicers           Incentive
Date        Institution              Type          Description                   (Cap)1 Mechanism Note Date                Amount              Cap    Reason for Adjustment                            (in Millions)      Incentive     Incentives     Incentives          Payments

                                                                                                       6/12/2009    ($991,580,000)   $1,079,420,000   Updated portfolio data from servicer

                                                                                                                                                      Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009    $1,010,180,000   $2,089,600,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009   ($105,410,000)   $1,984,190,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & 2MP
                                                                                                       3/26/2010    ($199,300,000)   $1,784,890,000
                                                                                                                                                      initial cap

                                                                                                                                                      Transfer of cap to Service One, Inc. due to
                                                                                                       4/19/2010        ($230,000)   $1,784,660,000
                                                                                                                                                      servicing transfer

                                                                                                                                                      Transfer of cap to Specialized Loan
                                                                                                       5/14/2010      ($3,000,000)   $1,781,660,000
                                                                                                                                                      Servicing, LLC due to servicing transfer

                                                                                                                                                      Transfer of cap to multiple servicers due to
                                                                                                       6/16/2010     ($12,280,000)   $1,769,380,000
                                                                                                                                                      servicing transfer

                                                                                                       7/14/2010    ($757,680,000)   $1,011,700,000   Updated portfolio data from servicer

                                                                                                                                                      Transfer of cap to multiple servicers due to
                                                                                                       7/16/2010      ($7,110,000)   $1,004,590,000
                                                   Financial                                                                                          servicing transfer
            CitiMortgage, Inc.,                    Instrument for
4/13/2009                            Purchase                          $2,071,000,000 N/A                                                             Transfer of cap to multiple servicers due to                     $14,356,611    $37,965,429    $38,221,808       $90,543,847
            O’Fallon, MO                           Home Loan                                           8/13/2010      ($6,300,000)    $998,290,000
                                                   Modifications                                                                                      servicing transfer

                                                                                                                                                      Transfer of cap to multiple servicers due to
                                                                                                       9/15/2010      ($8,300,000)    $989,990,000
                                                                                                                                                      servicing transfer

                                                                                                       9/30/2010      $32,400,000    $1,022,390,000   Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                       9/30/2010     $101,287,484    $1,123,677,484   Updated portfolio data from servicer

                                                                                                       10/15/2010     ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer

                                                                                                       11/16/2010     ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer

                                                                                                       1/6/2011             ($981)   $1,119,076,503   Updated portfolio data from servicer

                                                                                                       1/13/2011     ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer

                                                                                                       2/16/2011      ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer

                                                                                                       3/16/2011     ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                       3/30/2011          ($1,031)   $1,073,475,472
                                                                                                                                                      reallocation

                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                        271
                                                                                                                                                                                                                                                                                         272
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                               (CONTINUED)

            Servicer Modifying Borrowers’ Loans                        Cap of Incentive                                                  Adjustment Details                                                                            Non-GSE Incentive Payments
                                                                    Payments on Behalf
                                                                      of Borrowers and                                                                                                                                                                                           Total
                                                                         to Servicers &                                         Cap                                                                          Market                       Lenders/                           Non-GSE
            Name of                  Transaction   Investment        Lenders/Investors Pricing         Adjustment        Adjustment          Adjusted                                                 Capitalization      Borrowers       Investors      Servicers           Incentive
Date        Institution              Type          Description                   (Cap)1 Mechanism Note Date                 Amount               Cap    Reason for Adjustment                           (in Millions)      Incentive     Incentives     Incentives          Payments

                                                                                                       6/17/2009     ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer

                                                                                                                                                        Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009        $65,070,000    $2,475,080,000
                                                                                                                                                        initial cap

                                                                                                                                                        Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009    $1,213,310,000    $3,688,390,000
                                                                                                                                                        initial cap

                                                                                                                                                        Transfer of cap (from Wachovia) due to
                                                                                                       2/17/2010     $2,050,236,344    $5,738,626,344
                                                                                                                                                        merger

                                                                                                                                                        Transfer of cap (from Wachovia) due to
                                                                                                       3/12/2010            $54,767    $5,738,681,110
                                                                                                                                                        merger

                                                                                                       3/19/2010      $668,108,890     $6,406,790,000   Initial 2MP cap

                                                                                                       3/26/2010      $683,130,000     $7,089,920,000   Updated portfolio data from servicer
                                                   Financial
                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I april 28, 2011




            Wells Fargo Bank, NA,                  Instrument for                                      7/14/2010    ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer
4/13/2009                            Purchase                          $2,873,000,000 N/A                                                                                                                 $168,471      $14,314,746    $57,004,340    $53,200,035      $124,519,121
            Des Moines, IA                         Home Loan
                                                   Modifications                                       9/30/2010     ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer

                                                                                                                                                        Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                       9/30/2010      $344,000,000     $5,108,351,172
                                                                                                                                                        and initial RD-HAMP

                                                                                                                                                        Transfer of cap (from Wachovia) due to
                                                                                                       12/3/2010         $8,413,225    $5,116,764,397
                                                                                                                                                        merger

                                                                                                       12/15/2010       $22,200,000    $5,138,964,397   Updated portfolio data from servicer

                                                                                                       1/6/2011             ($6,312)   $5,138,958,085   Updated portfolio data from servicer

                                                                                                       1/13/2011         ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer

                                                                                                       3/16/2011         ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer

                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                       3/30/2011            ($7,171)   $5,138,750,914
                                                                                                                                                        reallocation

                                                                                                       6/12/2009      $384,650,000     $1,017,650,000   Updated portfolio data from servicer

                                                                                                                                                        Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009     $2,537,240,000    $3,554,890,000
                                                                                                                                                        initial cap

                                                                                                                                                        Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009   ($1,679,520,000)   $1,875,370,000
                                                                                                                                                        initial cap

                                                                                                       3/26/2010      $190,180,000     $2,065,550,000   Updated portfolio data from servicer

                                                                                                                                                        Transfer of cap from Wilshire Credit
                                                                                                       5/14/2010         $1,880,000    $2,067,430,000
                                                                                                                                                        Corporation due to servicing transfer

                                                   Financial                                           7/14/2010     ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer
            GMAC Mortgage, Inc.,                   Instrument for
4/13/2009                            Purchase                           $633,000,000 N/A                                                                                                                                 $7,747,806    $32,160,958    $26,231,652       $66,140,416
            Ft. Washington, PA                     Home Loan                                           8/13/2010        ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                                                                        Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                       9/30/2010      $119,200,000     $1,301,400,000
                                                                                                                                                        and initial 2MP cap

                                                                                                       9/30/2010      $216,998,139     $1,518,398,139   Updated portfolio data from servicer

                                                                                                       12/15/2010         ($500,000)   $1,517,898,139   Updated portfolio data from servicer

                                                                                                       1/6/2011             ($1,734)   $1,517,896,405   Updated portfolio data from servicer

                                                                                                       3/16/2011          ($100,000)   $1,517,796,405   Transfer of cap due to servicing transfer

                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                       3/30/2011            ($2,024)   $1,517,794,381
                                                                                                                                                        reallocation

                                                                                                                                                                                                                                                               Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                               (CONTINUED)

            Servicer Modifying Borrowers’ Loans                        Cap of Incentive                                                  Adjustment Details                                                                             Non-GSE Incentive Payments
                                                                    Payments on Behalf
                                                                      of Borrowers and                                                                                                                                                                                            Total
                                                                         to Servicers &                                         Cap                                                                           Market                       Lenders/                           Non-GSE
            Name of                  Transaction   Investment        Lenders/Investors Pricing         Adjustment        Adjustment          Adjusted                                                  Capitalization      Borrowers       Investors      Servicers           Incentive
Date        Institution              Type          Description                   (Cap)1 Mechanism Note Date                 Amount               Cap    Reason for Adjustment                            (in Millions)      Incentive     Incentives     Incentives          Payments

                                                                                                       6/17/2009      $225,040,000      $632,040,000    Updated portfolio data from servicer

                                                                                                                                                        Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009      $254,380,000      $886,420,000
                                                                                                                                                        initial cap

                                                                                                                                                        Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                        initial cap

                                                                                                       3/26/2010      ($57,720,000)    $1,184,410,000   Updated portfolio data from servicer

                                                                                                                                                        Transfer of cap to Ocwen Financial
                                                                                                       6/16/2010     ($156,050,000)    $1,028,360,000
                                                                                                                                                        Corporation, Inc. due to servicing transfer

                                                                                                       7/14/2010     ($513,660,000)     $514,700,000    Updated portfolio data from servicer

                                                                                                                                                        Transfer of cap due to multiple servicing
                                                                                                       7/16/2010      ($22,980,000)     $491,720,000
                                                   Financial                                                                                            transfers
            Saxon Mortgage Services,               Instrument for
4/13/2009                            Purchase                           $407,000,000 N/A               9/15/2010         $1,800,000     $493,520,000    Transfer of cap due to servicing transfer                         $9,416,403    $19,564,235    $25,634,453       $54,615,091
            Inc., Irving, TX                       Home Loan
                                                   Modifications
                                                                                                       9/30/2010         $9,800,000     $503,320,000    Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                       9/30/2010      $116,222,668      $619,542,668    Updated portfolio data from servicer

                                                                                                       10/15/2010          $100,000     $619,642,668    Transfer of cap due to servicing transfer

                                                                                                       12/15/2010        $8,900,000     $628,542,668    Updated portfolio data from servicer

                                                                                                       1/6/2011               ($556)    $628,542,112    Updated portfolio data from servicer

                                                                                                       1/13/2011         $2,300,000     $630,842,112    Transfer of cap due to servicing transfer

                                                                                                       3/16/2011           $700,000     $631,542,112    Transfer of cap due to servicing transfer

                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                       3/30/2011              ($654)    $631,541,458
                                                                                                                                                        reallocation

                                                   Financial
            Chase Home Finance, LLC,               Instrument for
4/13/2009                            Purchase                          $3,552,000,000 N/A        2     7/31/2009    ($3,552,000,000)               —    Termination of SPA
            Iselin, NJ                             Home Loan
                                                   Modifications

                                                                                                       6/12/2009     ($105,620,000)     $553,380,000    Updated portfolio data from servicer

                                                                                                                                                        Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009      $102,580,000      $655,960,000
                                                                                                                                                        initial cap

                                                                                                                                                        Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009     $277,640,000      $933,600,000
                                                                                                                                                        initial cap

                                                                                                       3/26/2010        $46,860,000     $980,460,000    Updated portfolio data from servicer

                                                                                                                                                        Transfer of cap from Saxon Mortgage
                                                                                                       6/16/2010      $156,050,000     $1,136,510,000
                                                                                                                                                        Services, Inc. due to servicing transfer

                                                   Financial                                           7/14/2010     ($191,610,000)     $944,900,000    Updated portfolio data from servicer
            Ocwen Financial
                                                   Instrument for
4/16/2009   Corporation, Inc.,       Purchase                           $659,000,000 N/A                                                                Transfer of cap from Saxon Mortgage               $1,106.00      $11,825,475    $34,276,406    $30,818,265       $76,920,146
                                                   Home Loan                                           7/16/2010        $23,710,000     $968,610,000
            West Palm Beach, FL                                                                                                                         Services, Inc. due to servicing transfer
                                                   Modifications

                                                                                                       9/15/2010           $100,000     $968,710,000    Initial FHA-HAMP cap

                                                                                                       9/30/2010         $3,742,740     $972,452,740    Updated portfolio data from servicer

                                                                                                       10/15/2010     $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer

                                                                                                       1/6/2011             ($1,020)   $1,143,251,720   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I april 28, 2011




                                                                                                       2/16/2011           $900,000    $1,144,151,720   Transfer of cap due to servicing transfer

                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                       3/30/2011            ($1,114)   $1,144,150,606
                                                                                                                                                        reallocation

                                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                                          273
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                               (CONTINUED)                                                                                                                                                                                       274

            Servicer Modifying Borrowers’ Loans                        Cap of Incentive                                                  Adjustment Details                                                                            Non-GSE Incentive Payments
                                                                    Payments on Behalf
                                                                      of Borrowers and                                                                                                                                                                                           Total
                                                                         to Servicers &                                         Cap                                                                          Market                       Lenders/                           Non-GSE
            Name of                  Transaction   Investment        Lenders/Investors Pricing         Adjustment        Adjustment          Adjusted                                                 Capitalization      Borrowers       Investors      Servicers           Incentive
Date        Institution              Type          Description                   (Cap)1 Mechanism Note Date                 Amount               Cap    Reason for Adjustment                           (in Millions)      Incentive     Incentives     Incentives          Payments

                                                                                                       6/12/2009         $5,540,000     $804,440,000    Updated portfolio data from servicer

                                                                                                                                                        Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009      $162,680,000      $967,120,000
                                                                                                                                                        initial cap

                                                                                                                                                        Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009     $665,510,000     $1,632,630,000
                                                                                                                                                        initial cap

                                                                                                       1/26/2010      $800,390,000     $2,433,020,000   Initial 2MP cap
4/17/2009                                          Financial
as amended Bank of America, N.A.,                  Instrument for                                      3/26/2010     ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                     Purchase                           $798,900,000 N/A                                                                                                              $136,129.00        $2,385,888     $9,359,162     $7,779,094       $19,524,144
on         Simi Valley, CA                         Home Loan
1/26/2010                                          Modifications                                       7/14/2010     ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer

                                                                                                                                                        Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                       9/30/2010        $95,300,000    $1,332,200,000
                                                                                                                                                        and initial RD-HAMP

                                                                                                       9/30/2010      $222,941,084     $1,555,141,084   Updated portfolio data from servicer

                                                                                                       1/6/2011             ($2,199)   $1,555,138,885   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I april 28, 2011




                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                       3/30/2011            ($2,548)   $1,555,136,337
                                                                                                                                                        reallocation

                                                                                                       6/12/2009     $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer

                                                                                                                                                        Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009     ($717,420,000)    $4,465,420,000
                                                                                                                                                        initial cap

                                                                                                                                                        Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009    $2,290,780,000    $6,756,200,000
                                                                                                                                                        initial cap

                                                                                                       1/26/2010      $450,100,000     $7,206,300,000   Initial 2MP cap

                                                                                                       3/26/2010      $905,010,000     $8,111,310,000   Updated portfolio data from servicer

                                                                                                                                                        Transfer of cap from Wilshire Credit
                                                                                                       4/19/2010        $10,280,000    $8,121,590,000
                                                                                                                                                        Corporation due to servicing transfer

                                                                                                                                                        Transfer of cap from Wilshire Credit
4/17/2009                                          Financial                                           6/16/2010      $286,510,000     $8,408,100,000
           Countrywide Home                                                                                                                             Corporation due to servicing transfer
as amended                                         Instrument for
           Loans Servicing LP,       Purchase                          $1,864,000,000 N/A                                                                                                                               $20,250,620    $56,852,231    $54,663,143      $131,765,994
on                                                 Home Loan
           Simi Valley, CA                                                                             7/14/2010    ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
1/26/2010                                          Modifications
                                                                                                                                                        Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                       9/30/2010      $105,500,000     $6,726,300,000
                                                                                                                                                        and initial RD-HAMP

                                                                                                       9/30/2010     ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer

                                                                                                       12/15/2010     $236,000,000     $6,347,772,638   Updated portfolio data from servicer

                                                                                                       1/6/2011             ($8,012)   $6,347,764,626   Updated portfolio data from servicer

                                                                                                       2/16/2011         $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer

                                                                                                       3/16/2011           $100,000    $6,349,664,626   Transfer of cap due to servicing transfer

                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                       3/30/2011            ($9,190)   $6,349,655,436
                                                                                                                                                        reallocation

                                                                                                                                                                                                                                                               Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                              Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                     Total
                                                                            to Servicers &                                       Cap                                                                        Market                     Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment      Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date               Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                          6/12/2009     $128,300,000    $447,300,000   Updated portfolio data from servicer

                                                                                                                                                       Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009      $46,730,000    $494,030,000
                                                                                                                                                       initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009    $145,820,000    $639,850,000
                                                                                                                                                       initial cap

                                                                                                          3/26/2010     ($17,440,000)   $622,410,000   Updated portfolio data from servicer

                                                                                                          7/14/2010     ($73,010,000)   $549,400,000   Updated portfolio data from servicer
                                                      Financial
            Home Loan Services, Inc.,                 Instrument for                                      9/30/2010       $6,700,000    $556,100,000   Initial FHA-2LP cap
4/20/2009                               Purchase                           $319,000,000 N/A                                                                                                                            $169,858     $2,440,768      $3,698,607         $6,309,233
            Pittsburgh, PA                            Home Loan
                                                      Modifications                                       9/30/2010     ($77,126,410)   $478,973,590   Updated portfolio data from servicer

                                                                                                          12/15/2010   ($314,900,000)   $164,073,590   Updated portfolio data from servicer

                                                                                                          1/6/2011             ($233)   $164,073,357   Updated portfolio data from servicer

                                                                                                          2/16/2011      ($1,900,000)   $162,173,357   Transfer of cap due to servicing transfer

                                                                                                          3/16/2011        ($400,000)   $161,773,357   Transfer of cap due to servicing transfer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($278)   $161,773,079
                                                                                                                                                       reallocation

                                                                                                          6/12/2009      $87,130,000    $453,130,000   Updated portfolio data from servicer

                                                                                                                                                       Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009    ($249,670,000)   $203,460,000
                                                                                                                                                       initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009    $119,700,000    $323,160,000
                                                                                                                                                       initial cap

                                                                                                          3/26/2010      $52,270,000    $375,430,000   Updated portfolio data from servicer

                                                                                                                                                       Transfer of cap to Countrywide Home Loans
                                                                                                          4/19/2010     ($10,280,000)   $365,150,000
                                                                                                                                                       due to servicing transfer

                                                                                                                                                       Transfer of cap to GMAC Mortgage, Inc. due
                                                                                                          5/14/2010      ($1,880,000)   $363,270,000
                                                      Financial                                                                                        to servicing transfer
            Wilshire Credit
                                                      Instrument for
4/20/2009   Corporation,                Purchase                           $366,000,000 N/A                                                            Transfer of cap to Countrywide Home Loans                              —       $490,394      $1,167,000         $1,657,394
                                                      Home Loan                                           6/16/2010    ($286,510,000)    $76,760,000
            Beaverton, OR                                                                                                                              due to servicing transfer
                                                      Modifications

                                                                                                          7/14/2010      $19,540,000     $96,300,000   Updated portfolio data from servicer

                                                                                                                                                       Transfer of cap to Green Tree Servicing LLC
                                                                                                          7/16/2010        ($210,000)    $96,090,000
                                                                                                                                                       due to servicing transfer

                                                                                                          8/13/2010        ($100,000)    $95,990,000   Transfer of cap due to servicing transfer

                                                                                                          9/30/2010      $68,565,782    $164,555,782   Updated portfolio data from servicer

                                                                                                          1/6/2011             ($247)   $164,555,535   Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($294)   $164,555,241
                                                                                                                                                       reallocation

                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                      275
                                                                                                                                                                                                                                                                                       276
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                              Adjustment Details                                                                           Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                      Total
                                                                            to Servicers &                                       Cap                                                                        Market                      Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment      Adjustment        Adjusted                                                 Capitalization     Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date               Amount             Cap    Reason for Adjustment                           (in Millions)     Incentive     Incentives     Incentives          Payments

                                                                                                          6/17/2009     ($64,990,000)    $91,010,000   Updated portfolio data from servicer

                                                                                                                                                       Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009     $130,780,000    $221,790,000
                                                                                                                                                       initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009   ($116,750,000)   $105,040,000
                                                                                                                                                       initial cap

                                                                                                          3/26/2010      $13,080,000    $118,120,000   Updated portfolio data from servicer

                                                                                                          7/14/2010     ($24,220,000)    $93,900,000   Updated portfolio data from servicer

                                                                                                                                                       Transfer of cap from Wilshire Credit
                                                                                                          7/16/2010         $210,000     $94,110,000
                                                      Financial                                                                                        Corporation due to servicing transfer
            Green Tree Servicing LLC,                 Instrument for
4/24/2009                               Purchase                           $156,000,000 N/A                                                                                                                             $101,039       $237,228        $404,762           $743,029
            Saint Paul, MN                            Home Loan                                           8/13/2010       $2,200,000     $96,310,000   Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                          9/10/2010      $34,600,000    $130,910,000   Initial 2MP cap

                                                                                                          9/30/2010       $5,600,000    $136,510,000   Initial FHA-2LP cap and FHA-HAMP
                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I april 28, 2011




                                                                                                          9/30/2010      $10,185,090    $146,695,090   Updated portfolio data from servicer

                                                                                                          10/15/2010        $400,000    $147,095,090   Transfer of cap due to servicing transfer

                                                                                                          1/6/2011             ($213)   $147,094,877   Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($250)   $147,094,627
                                                                                                                                                       reallocation

                                                                                                          6/17/2009     ($63,980,000)   $131,020,000   Updated portfolio data from servicer

                                                                                                                                                       Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009      $90,990,000    $222,010,000
                                                                                                                                                       initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $57,980,000    $279,990,000
                                                                                                                                                       initial cap

                                                                                                          3/26/2010      $74,520,000    $354,510,000   Updated portfolio data from servicer

                                                      Financial                                           7/14/2010     ($75,610,000)   $278,900,000   Updated portfolio data from servicer
            Carrington Mortgage
                                                      Instrument for
4/27/2009   Services, LLC,              Purchase                           $195,000,000 N/A                                                                                                                            $1,650,247     $6,296,247     $5,248,319       $13,194,813
                                                      Home Loan                                           8/13/2010       $1,100,000    $280,000,000   Transfer of cap due to servicing transfer
            Santa Ana, CA
                                                      Modifications
                                                                                                          9/30/2010       $3,763,685    $283,763,685   Updated portfolio data from servicer

                                                                                                          12/15/2010        $300,000    $284,063,685   Updated portfolio data from servicer

                                                                                                          1/6/2011             ($325)   $284,063,360   Updated portfolio data from servicer

                                                                                                          1/13/2011       $2,400,000    $286,463,360   Transfer of cap due to servicing transfer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($384)   $286,462,976
                                                                                                                                                       reallocation

                                                                                                          6/17/2009    ($338,450,000)   $459,550,000   Updated portfolio data from servicer

                                                                                                                                                       Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009     ($11,860,000)   $447,690,000
                                                                                                                                                       initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $21,330,000    $469,020,000
                                                                                                                                                       initial cap

                                                      Financial                                           3/26/2010       $9,150,000    $478,170,000   Updated portfolio data from servicer
            Aurora Loan Services, LLC,                Instrument for
5/1/2009                               Purchase                            $798,000,000 N/A                                                                                                                            $4,755,316    $13,610,110    $12,318,931        $30,684,357
            Littleton, CO                             Home Loan                                           7/14/2010     ($76,870,000)   $401,300,000   Updated portfolio data from servicer
                                                      Modifications
                                                                                                          9/1/2010          $400,000    $401,700,000   Initial FHA-HAMP cap

                                                                                                          9/30/2010      ($8,454,269)   $469,715,731   Updated portfolio data from servicer

                                                                                                          1/6/2011             ($342)   $469,715,389   Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($374)   $469,715,015
                                                                                                                                                       reallocation

                                                                                                                                                                                                                                                             Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                              Adjustment Details                                                                           Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                      Total
                                                                            to Servicers &                                       Cap                                                                        Market                      Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment      Adjustment        Adjusted                                                 Capitalization     Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date               Amount             Cap    Reason for Adjustment                           (in Millions)     Incentive     Incentives     Incentives          Payments

                                                                                                          6/12/2009      $16,140,000    $117,140,000   Updated portfolio data from servicer

                                                                                                                                                       Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009     $134,560,000    $251,700,000
                                                                                                                                                       initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $80,250,000    $331,950,000
                                                                                                                                                       initial cap

                                                                                                          3/26/2010      $67,250,000    $399,200,000   Updated portfolio data from servicer

                                                                                                          7/14/2010     ($85,900,000)   $313,300,000   Updated portfolio data from servicer

                                                                                                          8/13/2010         $100,000    $313,400,000   Transfer of cap due to servicing transfer

                                                      Financial                                                                                        Initial FHA-HAMP cap, initial FHA-2LP cap,
            Nationstar Mortgage LLC,                  Instrument for                                      9/30/2010       $2,900,000    $316,300,000
5/28/2009                               Purchase                           $101,000,000 N/A                                                            initial RD-HAMP, and initial 2MP cap                            $2,639,561    $7,880,079      $8,303,721       $18,823,362
            Lewisville, TX                            Home Loan
                                                      Modifications
                                                                                                          9/30/2010      $33,801,486    $350,101,486   Updated portfolio data from servicer

                                                                                                          11/16/2010        $700,000    $350,801,486   Transfer of cap due to servicing transfer

                                                                                                          12/15/2010      $1,700,000    $352,501,486   Updated portfolio data from servicer

                                                                                                          1/6/2011             ($363)   $352,501,123   Updated portfolio data from servicer

                                                                                                          2/16/2011         $900,000    $353,401,123   Transfer of cap due to servicing transfer

                                                                                                          3/16/2011      $29,800,000    $383,201,123   Transfer of cap due to servicing transfer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($428)   $383,200,695
                                                                                                                                                       reallocation

                                                                                                                                                       Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009      ($1,860,000)    $17,540,000
                                                                                                                                                       initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $27,920,000     $45,460,000
                                                                                                                                                       initial cap

                                                                                                          3/26/2010      ($1,390,000)    $44,070,000   Updated portfolio data from servicer

                                                      Financial
                                                                                                          7/14/2010     ($13,870,000)    $30,200,000   Updated portfolio data from servicer
            Residential Credit                        Instrument for
6/12/2009                               Purchase                             $19,400,000 N/A                                                                                                                            $162,289       $551,448        $594,348         $1,308,085
            Solutions, Fort Worth, TX                 Home Loan
                                                                                                                                                       Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                      Modifications                                       9/30/2010         $400,000     $30,600,000
                                                                                                                                                       and initial 2MP cap

                                                                                                          9/30/2010         $586,954     $31,186,954   Updated portfolio data from servicer

                                                                                                          1/6/2011              ($34)    $31,186,920   Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($37)    $31,186,883
                                                                                                                                                       reallocation

                                                                                                                                                       Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009      $13,070,000     $29,590,000
                                                                                                                                                       initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009    $145,510,000    $175,100,000
                                                                                                                                                       initial cap

                                                      Financial                                           3/26/2010    ($116,950,000)    $58,150,000   Updated portfolio data from servicer
            CCO Mortgage,                             Instrument for
6/17/2009                               Purchase                             $16,520,000 N/A                                                                                                                            $241,484       $746,078        $593,617         $1,581,178
            Glen Allen, VA                            Home Loan                                           7/14/2010     ($23,350,000)    $34,800,000   Updated portfolio data from servicer
                                                      Modifications
                                                                                                          9/30/2010       $7,846,346     $42,646,346   Updated portfolio data from servicer

                                                                                                          1/6/2011              ($46)    $42,646,300   Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($55)    $42,646,245
                                                                                                                                                       reallocation
                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I april 28, 2011




                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                       277
                                                                                                                                                                                                                                                                                     278
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                             Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                    Total
                                                                            to Servicers &                                      Cap                                                                        Market                     Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                                                                      Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009    ($11,300,000)   $45,700,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009   ($42,210,000)    $3,490,000
                                                                                                                                                      initial cap

                                                                                                          3/26/2010     $65,640,000    $69,130,000    Updated portfolio data from servicer

                                                      Financial                                           4/9/2010     ($14,470,000)   $54,660,000    Updated portfolio data from servicer
            RG Mortgage Corporation,                  Instrument for
6/17/2009                            Purchase                               $57,000,000 N/A                                                                                                                           $164,853       $227,582        $401,334           $793,769
            San Juan, PR                              Home Loan                                           7/14/2010     ($8,860,000)   $45,800,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                          9/30/2010     ($4,459,154)   $41,340,846    Updated portfolio data from servicer

                                                                                                          12/15/2010    ($4,300,000)   $37,040,846    Updated portfolio data from servicer

                                                                                                          1/6/2011             ($51)   $37,040,795    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I april 28, 2011




                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($65)   $37,040,730
                                                                                                                                                      reallocation

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $2,020,000     $2,790,000
                                                      Financial                                                                                       initial cap
            First Federal Savings and                 Instrument for
6/19/2009                               Purchase                               $770,000 N/A
            Loan, Port Angeles, WA                    Home Loan                                           3/26/2010     $11,370,000    $14,160,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                          5/26/2010    ($14,160,000)             —    Termination of SPA

                                                                                                                                                      Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009        $330,000       $870,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009    $16,490,000    $17,360,000
                                                                                                                                                      initial cap

                                                                                                          3/26/2010    ($14,260,000)    $3,100,000    Updated portfolio data from servicer
                                                      Financial
            Wescom Central Credit                     Instrument for                                      7/14/2010     ($1,800,000)    $1,300,000    Updated portfolio data from servicer
6/19/2009                               Purchase                               $540,000 N/A                                                                                                                            $88,546       $353,607        $205,613           $647,765
            Union, Anaheim, CA                        Home Loan
                                                      Modifications                                       7/30/2010      $1,500,000     $2,800,000    Updated portfolio data from servicer

                                                                                                          9/30/2010      $1,551,668     $4,351,668    Updated portfolio data from servicer

                                                                                                          1/6/2011              ($2)    $4,351,666    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($2)    $4,351,664
                                                                                                                                                      reallocation

                                                                                                                                                      Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009        ($10,000)       $20,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009       $590,000       $610,000
                                                                                                                                                      initial cap
                                                      Financial
            Citizens First Wholesale
                                                      Instrument for                                      3/26/2010       ($580,000)       $30,000    Updated portfolio data from servicer
6/26/2009   Mortgage Company,           Purchase                                $30,000 N/A
                                                      Home Loan
            The Villages, FL
                                                      Modifications
                                                                                                          7/14/2010         $70,000       $100,000 Updated portfolio data from servicer

                                                                                                          9/30/2010         $45,056       $145,056    Updated portfolio data from servicer

                                                                                                          2/17/2011       ($145,056)             —    Termination of SPA

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $2,180,000     $2,250,000
                                                                                                                                                      initial cap

                                                                                                          3/26/2010       ($720,000)    $1,530,000    Updated portfolio data from servicer
                                                      Financial
                                                                                                          7/14/2010       ($430,000)    $1,100,000    Updated portfolio data from servicer
            Technology Credit Union,                  Instrument for
6/26/2009                               Purchase                                $70,000 N/A                                                                                                                              $7,500       $34,626         $20,917            $63,043
            San Jose, CA                              Home Loan
                                                      Modifications                                       9/30/2010         $60,445     $1,160,445    Updated portfolio data from servicer

                                                                                                          1/6/2011              ($1)    $1,160,444    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($1)    $1,160,443
                                                                                                                                                      reallocation

                                                                                                                                                                                                                                                           Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                (CONTINUED)

            Servicer Modifying Borrowers’ Loans                         Cap of Incentive                                                  Adjustment Details                                                                           Non-GSE Incentive Payments
                                                                     Payments on Behalf
                                                                       of Borrowers and                                                                                                                                                                                          Total
                                                                          to Servicers &                                         Cap                                                                          Market                      Lenders/                           Non-GSE
            Name of                   Transaction   Investment        Lenders/Investors Pricing         Adjustment        Adjustment          Adjusted                                                 Capitalization     Borrowers       Investors      Servicers           Incentive
Date        Institution               Type          Description                   (Cap)1 Mechanism Note Date                 Amount               Cap    Reason for Adjustment                           (in Millions)     Incentive     Incentives     Incentives          Payments

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                        9/30/2009      $315,170,000      $610,150,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009       $90,280,000     $700,430,000
                                                                                                                                                         initial cap

                                                                                                        3/26/2010      ($18,690,000)     $681,740,000    Updated portfolio data from servicer

                                                                                                        7/14/2010     ($272,640,000)     $409,100,000    Updated portfolio data from servicer
                                                    Financial
            National City Bank,                     Instrument for                                                                                       Initial FHA-HAMP cap, Initial FHA-2LP cap,
6/26/2009                             Purchase                           $294,980,000 N/A               9/30/2010        $80,600,000     $489,700,000                                                                     $412,043     $1,380,475      $1,157,469         $2,949,988
            Miamisburg, OH                          Home Loan                                                                                            and initial 2MP cap
                                                    Modifications
                                                                                                        9/30/2010        $71,230,004     $560,930,004    Updated portfolio data from servicer

                                                                                                        1/6/2011               ($828)    $560,930,004    Updated portfolio data from servicer

                                                                                                        2/16/2011           $200,000     $561,130,004    Transfer of cap due to servicing transfer

                                                                                                        3/16/2011         ($100,000)     $561,030,004    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                        3/30/2011              ($981)    $561,029,023
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                        9/30/2009      $723,880,000     $1,357,890,000
                                                                                                                                                         initial cap


                                                    Financial                                                                                            Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009     $692,640,000     $2,050,530,000
            Wachovia Mortgage, FSB,                 Instrument for                                                                                       initial cap
7/1/2009                              Purchase                           $634,010,000 N/A         3                                                                                                                              —        $76,890        $162,000           $238,890
            Des Moines, IA                          Home Loan
                                                    Modifications                                                                                        Transfer of cap (to Wells Fargo Bank) due
                                                                                                        2/17/2010    ($2,050,236,344)        $293,656
                                                                                                                                                         to merger

                                                                                                                                                         Transfer of cap (to Wells Fargo Bank) due
                                                                                                        3/12/2010           ($54,767)        $238,890
                                                                                                                                                         to merger

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                        9/30/2009        $23,850,000      $68,110,000
                                                                                                                                                         initial cap


                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009       $43,590,000     $111,700,000
                                                                                                                                                         initial cap


                                                                                                        3/26/2010        $34,540,000     $146,240,000    Updated portfolio data from servicer


                                                                                                        5/7/2010          $1,010,000     $147,250,000    Initial 2MP cap
                                                    Financial
            Bayview Loan Servicing,                 Instrument for
7/1/2009                              Purchase                             $44,260,000 N/A              7/14/2010      ($34,250,000)     $113,000,000    Updated portfolio data from servicer                            $1,489,995     $3,949,210     $4,016,067         $9,455,272
            LLC, Coral Gables, FL                   Home Loan
                                                    Modifications

                                                                                                        9/30/2010           $600,000     $113,600,000    Initial FHA-2LP cap


                                                                                                        9/30/2010       ($15,252,303)     $98,347,697    Updated portfolio data from servicer

                                                                                                        1/6/2011                ($70)     $98,347,627    Updated portfolio data from servicer


                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                        3/30/2011               ($86)     $98,347,541
                                                                                                                                                         reallocation


                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                         279
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                               (CONTINUED)                                                                                                                                                                                280

            Servicer Modifying Borrowers’ Loans                        Cap of Incentive                                             Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                    Payments on Behalf
                                                                      of Borrowers and                                                                                                                                                                                    Total
                                                                         to Servicers &                                      Cap                                                                        Market                     Lenders/                           Non-GSE
            Name of                  Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution              Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments


                                                                                                                                                   Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009        $150,000       $250,000
                                                                                                                                                   initial cap


                                                                                                                                                   Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009       $130,000       $380,000
                                                                                                                                                   initial cap
                                                   Financial
                                                                                                       3/26/2010         $50,000       $430,000    Updated portfolio data from servicer
            Lake National Bank,                    Instrument for
7/10/2009                            Purchase                               $100,000 N/A                                                                                                                             $1,000          $1,992         $2,000             $4,992
            Mentor, OH                             Home Loan
                                                   Modifications                                       7/14/2010        ($30,000)      $400,000    Updated portfolio data from servicer

                                                                                                       9/30/2010         $35,167       $435,167    Updated portfolio data from servicer

                                                                                                       1/6/2011              ($1)      $435,166    Updated portfolio data from servicer

                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                       3/30/2011             ($1)      $435,165
                                                                                                                                                   reallocation

                                                                                                                                                   Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009        ($10,000)      $860,000
                                                                                                                                                   initial cap
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I april 28, 2011




                                                                                                                                                   Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009       $250,000     $1,110,000
                                                                                                                                                   initial cap

                                                   Financial                                           3/26/2010        ($10,000)    $1,100,000    Updated portfolio data from servicer
            IBM Southeast Employees’
                                                   Instrument for
7/10/2009   Federal Credit Union,    Purchase                               $870,000 N/A                                                                                                                              $1,000         $6,939         $8,000            $15,939
                                                   Home Loan                                           7/14/2010      ($400,000)       $700,000    Updated portfolio data from servicer
            Delray Beach, FL
                                                   Modifications
                                                                                                       9/30/2010        $170,334       $870,334    Updated portfolio data from servicer

                                                                                                       1/6/2011              ($1)      $870,333 Updated portfolio data from servicer

                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                       3/30/2011             ($1)      $870,332
                                                                                                                                                   reallocation

                                                                                                                                                   Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009     $18,530,000    $42,010,000
                                                                                                                                                   initial cap

                                                                                                                                                   Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009    $24,510,000    $66,520,000
                                                                                                                                                   initial cap

                                                                                                       3/26/2010     $18,360,000    $84,880,000    Updated portfolio data from servicer
                                                   Financial
            MorEquity, Inc.,                       Instrument for                                      7/14/2010    ($22,580,000)   $62,300,000    Updated portfolio data from servicer
7/17/2009                            Purchase                             $23,480,000 N/A                                                                                                                          $342,841      $2,305,003     $1,975,821         $4,623,665
            Evansville, IN                         Home Loan
                                                   Modifications                                       9/30/2010     ($8,194,261)   $54,105,739    Updated portfolio data from servicer

                                                                                                       1/6/2011             ($37)   $54,105,702    Updated portfolio data from servicer

                                                                                                       3/16/2011    ($29,400,000)   $24,705,702    Transfer of cap due to servicing transfer

                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                       3/30/2011            ($34)   $24,705,668
                                                                                                                                                   reallocation

                                                                                                                                                   Updated portfolio data from servicer & HPDP
                                                                                                       9/30/2009    ($36,240,000)   $18,230,000
                                                                                                                                                   initial cap

                                                                                                                                                   Updated portfolio data from servicer & HAFA
                                                                                                       12/30/2009    $19,280,000    $37,510,000
                                                                                                                                                   initial cap

                                                                                                       3/26/2010      $2,470,000    $39,980,000    Updated portfolio data from servicer
                                                   Financial
            PNC Bank, National                                                                         7/14/2010    ($17,180,000)   $22,800,000    Updated portfolio data from servicer
                                                   Instrument for
7/17/2009   Association,             Purchase                             $54,470,000 N/A                                                                                                          $33,070.00       $11,583        $25,947         $33,000            $70,530
                                                   Home Loan
            Pittsburgh, PA
                                                   Modifications                                       9/30/2010     $35,500,000    $58,300,000    Initial FHA-2LP cap and initial 2MP cap

                                                                                                       9/30/2010     $23,076,191    $81,376,191    Updated portfolio data from servicer

                                                                                                       1/6/2011            ($123)   $81,376,068    Updated portfolio data from servicer

                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                       3/30/2011           ($147)   $81,375,921
                                                                                                                                                   reallocation

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                    (CONTINUED)

            Servicer Modifying Borrowers’ Loans                             Cap of Incentive                                                Adjustment Details                                                                           Non-GSE Incentive Payments
                                                                         Payments on Behalf
                                                                           of Borrowers and                                                                                                                                                                                        Total
                                                                              to Servicers &                                       Cap                                                                          Market                      Lenders/                           Non-GSE
            Name of                       Transaction   Investment        Lenders/Investors Pricing         Adjustment      Adjustment          Adjusted                                                 Capitalization     Borrowers       Investors      Servicers           Incentive
Date        Institution                   Type          Description                   (Cap)1 Mechanism Note Date               Amount               Cap    Reason for Adjustment                           (in Millions)     Incentive     Incentives     Incentives          Payments

                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         ($90,000)         $80,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                        Financial                                           12/30/2009         $50,000         $130,000
                                                                                                                                                           initial cap
            Farmers State Bank,                         Instrument for
7/17/2009                                 Purchase                               $170,000 N/A
            West Salem, OH                              Home Loan
                                                                                                            3/26/2010         $100,000         $230,000    Updated portfolio data from servicer
                                                        Modifications
                                                                                                            7/14/2010        ($130,000)        $100,000    Updated portfolio data from servicer

                                                                                                            9/30/2010          $45,056         $145,056    Updated portfolio data from servicer


                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009         $890,000       $2,300,000
                                                                                                                                                           initial cap


                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $1,260,000       $3,560,000
                                                                                                                                                           initial cap
                                                        Financial
                                                                                                            3/26/2010         ($20,000)      $3,540,000    Updated portfolio data from servicer
                                                        Instrument for
7/17/2009   ShoreBank, Chicago, IL        Purchase                              $1,410,000 N/A                                                                                                                               $49,915       $153,906        $143,165           $346,986
                                                        Home Loan
                                                        Modifications                                       7/14/2010        ($240,000)      $3,300,000    Updated portfolio data from servicer

                                                                                                            9/30/2010         $471,446       $4,031,446    Updated portfolio data from servicer

                                                                                                            1/6/2011               ($3)      $4,031,443    Updated portfolio data from servicer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011              ($4)      $4,031,439
                                                                                                                                                           reallocation

                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009     ($53,670,000)   $1,218,820,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009    $250,450,000    $1,469,270,000
                                                                                                                                                           initial cap

                                                                                                            3/26/2010     $124,820,000    $1,594,090,000   Updated portfolio data from servicer

                                                                                                            7/14/2010    ($289,990,000)   $1,304,100,000   Updated portfolio data from servicer
                                                        Financial
            American Home Mortgage                      Instrument for                                      9/30/2010       $1,690,508    $1,305,790,508   Updated portfolio data from servicer
7/22/2009                                 Purchase                          $1,272,490,000 N/A                                                                                                                             $8,579,747    $39,336,123    $31,984,506       $79,900,376
            Servicing, Inc, Coppell, TX                 Home Loan
                                                        Modifications                                       10/15/2010        $300,000    $1,306,090,508   Transfer of cap due to servicing transfer

                                                                                                            11/16/2010       ($100,000)   $1,305,990,508   Transfer of cap due to servicing transfer

                                                                                                            1/6/2011           ($1,173)   $1,305,989,335   Updated portfolio data from servicer

                                                                                                            2/16/2011        ($500,000)   $1,305,489,335   Transfer of cap due to servicing transfer

                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011          ($1,400)   $1,305,487,935
                                                                                                                                                           reallocation

                                                                                                                                                           Updated portfolio data from servicer & HPDP
                                                                                                            9/30/2009       $1,780,000       $5,990,000
                                                                                                                                                           initial cap

                                                                                                                                                           Updated portfolio data from servicer & HAFA
                                                                                                            12/30/2009      $2,840,000       $8,830,000
                                                                                                                                                           initial cap

                                                        Financial                                           3/26/2010       $2,800,000      $11,630,000    Updated portfolio data from servicer
            Mortgage Center, LLC,                       Instrument for
7/22/2009                                 Purchase                              $4,210,000 N/A                                                                                                                               $19,039        $53,562         $74,365           $146,966
            Southfield, MI                              Home Loan                                           7/14/2010      ($5,730,000)      $5,900,000    Updated portfolio data from servicer
                                                        Modifications
                                                                                                            9/30/2010       $2,658,280       $8,558,280    Updated portfolio data from servicer

                                                                                                            1/6/2011              ($12)      $8,558,268    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I april 28, 2011




                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                            3/30/2011             ($14)      $8,558,254
                                                                                                                                                           reallocation

                                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                                           281
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)                                                                                                                                                                                282

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                             Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                    Total
                                                                            to Servicers &                                      Cap                                                                        Market                     Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                                                                      Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009      ($490,000)       $370,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $6,750,000     $7,120,000
                                                                                                                                                      initial cap
                                                      Financial
            Mission Federal Credit                    Instrument for                                      3/26/2010     ($6,340,000)      $780,000    Updated portfolio data from servicer
7/22/2009                               Purchase                               $860,000 N/A                                                                                                                             $7,667        $28,711         $26,000            $62,378
            Union, San Diego, CA                      Home Loan
                                                      Modifications                                       7/14/2010      ($180,000)       $600,000 Updated portfolio data from servicer

                                                                                                          9/30/2010        $125,278       $725,278    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($1)      $725,277
                                                                                                                                                      reallocation

                                                                                                                                                      Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009     ($1,530,000)    $4,930,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009       $680,000     $5,610,000
                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I april 28, 2011




                                                                                                                                                      initial cap

                                                                                                          3/26/2010      $2,460,000     $8,070,000    Updated portfolio data from servicer
                                                      Financial
                                                      Instrument for
7/29/2009   First Bank, St. Louis, MO   Purchase                              $6,460,000 N/A              7/14/2010     ($2,470,000)    $5,600,000    Updated portfolio data from servicer                             $78,775       $400,385        $433,826           $912,986
                                                      Home Loan
                                                      Modifications
                                                                                                          9/30/2010      $2,523,114     $8,123,114    Updated portfolio data from servicer

                                                                                                          1/6/2011              ($2)    $8,123,112    Updated portfolio data from servicer


                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($2)    $8,123,110
                                                                                                                                                      reallocation


                                                                                                                                                      Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009        ($60,000)    $1,030,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $1,260,000     $2,290,000
                                                                                                                                                      initial cap

                                                      Financial                                           3/26/2010      $2,070,000     $4,360,000    Updated portfolio data from servicer
            Purdue Employees Federal
                                                      Instrument for
7/29/2009   Credit Union,            Purchase                                 $1,090,000 N/A
                                                      Home Loan                                           7/14/2010     ($3,960,000)      $400,000 Updated portfolio data from servicer
            West Lafayette, IN
                                                      Modifications
                                                                                                          9/30/2010        $180,222       $580,222    Updated portfolio data from servicer

                                                                                                          1/6/2011              ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($1)      $580,220
                                                                                                                                                      reallocation

                                                                                                                                                      Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009    ($37,700,000)   $47,320,000
                                                                                                                                                      initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009    $26,160,000    $73,480,000
                                                                                                                                                      initial cap
                                                      Financial
            Wachovia Bank, N.A.,                      Instrument for                                      3/26/2010      $9,820,000    $83,300,000    Updated portfolio data from servicer
7/29/2009                               Purchase                             $85,020,000 N/A
            Charlotte, NC                             Home Loan
                                                      Modifications                                       7/14/2010    ($46,200,000)   $37,100,000    Updated portfolio data from servicer

                                                                                                          9/30/2010    ($28,686,775)    $8,413,225    Updated portfolio data from servicer

                                                                                                          12/3/2010     ($8,413,225)             —    Termination of SPA

                                                                                                                                                                                                                                                           Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                 (CONTINUED)

            Servicer Modifying Borrowers’ Loans                          Cap of Incentive                                                  Adjustment Details                                                                             Non-GSE Incentive Payments
                                                                      Payments on Behalf
                                                                        of Borrowers and                                                                                                                                                                                            Total
                                                                           to Servicers &                                         Cap                                                                           Market                       Lenders/                           Non-GSE
            Name of                    Transaction   Investment        Lenders/Investors Pricing         Adjustment        Adjustment          Adjusted                                                  Capitalization      Borrowers       Investors      Servicers           Incentive
Date        Institution                Type          Description                   (Cap)1 Mechanism Note Date                 Amount               Cap    Reason for Adjustment                            (in Millions)      Incentive     Incentives     Incentives          Payments

                                                                                                                                                          Updated portfolio data from servicer & HPDP
                                                                                                         9/30/2009      ($14,850,000)    $2,684,870,000
                                                                                                                                                          initial cap

                                                                                                                                                          Updated portfolio data from servicer & HAFA
                                                                                                         12/30/2009    $1,178,180,000    $3,863,050,000
                                                                                                                                                          initial cap

                                                                                                                                                          Updated portfolio data from servicer & 2MP
                                                                                                         3/26/2010     $1,006,580,000    $4,869,630,000
                                                                                                                                                          initial cap

                                                     Financial                                           7/14/2010    ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer
            J.P.Morgan Chase Bank,                   Instrument for
7/31/2009                              Purchase                          $2,699,720,000 N/A                                                                                                              $185,034.00       $30,096,090    $48,693,378    $72,233,401      $151,022,869
            NA, Lewisville, TX                       Home Loan                                                                                            Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                     Modifications                                       9/30/2010        $72,400,000    $3,007,800,000
                                                                                                                                                          and initial RD-HAMP

                                                                                                         9/30/2010      $215,625,536     $3,223,425,536   Updated portfolio data from servicer

                                                                                                         1/6/2011             ($3,636)   $3,223,421,900   Updated portfolio data from servicer

                                                                                                         3/16/2011         ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                         3/30/2011            ($3,999)   $3,223,317,901
                                                                                                                                                          reallocation

                                                                                                                                                          Updated portfolio data from servicer & HPDP
                                                                                                         9/30/2009           ($10,000)    $707,370,000
                                                                                                                                                          initial cap

                                                                                                                                                          Updated portfolio data from servicer & HAFA
                                                                                                         12/30/2009     $502,430,000     $1,209,800,000
                                                                                                                                                          initial cap

                                                                                                                                                          Updated portfolio data from servicer & 2MP
                                                                                                         3/26/2010     ($134,560,000)    $1,075,240,000
                                                                                                                                                          initial cap

                                                                                                         7/14/2010     ($392,140,000)     $683,100,000    Updated portfolio data from servicer

                                                                                                                                                          Transfer of cap to Saxon Mortgage
                                                                                                         7/16/2010         ($630,000)     $682,470,000
                                                                                                                                                          Services, Inc.
                                                     Financial
            EMC Mortgage                             Instrument for                                      9/30/2010        $13,100,000     $695,570,000    Initial FHA-HAMP cap and initial FHA-2LP cap
7/31/2009                               Purchase                          $707,380,000 N/A                                                                                                                                  $7,328,912    $10,917,929    $15,997,081       $34,243,922
            Corporation, Lewisville, TX              Home Loan
                                                     Modifications
                                                                                                         9/30/2010        ($8,006,457)    $687,563,543    Updated portfolio data from servicer

                                                                                                         10/15/2010        ($100,000)     $687,463,543    Transfer of cap due to servicing transfer

                                                                                                         12/15/2010       ($4,400,000)    $683,063,543    Updated portfolio data from servicer

                                                                                                         1/6/2011               ($802)    $683,062,741    Updated portfolio data from servicer

                                                                                                         2/16/2011          ($900,000)    $682,162,741    Transfer of cap due to servicing transfer

                                                                                                         3/16/2011        ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer

                                                                                                                                                          Updated due to quarterly assessment and
                                                                                                         3/30/2011              ($925)    $678,161,816
                                                                                                                                                          reallocation

                                                                                                                                                          Updated portfolio data from servicer & HPDP
                                                                                                         9/30/2009           $180,000         $600,000
                                                                                                                                                          initial cap

                                                                                                                                                          Updated portfolio data from servicer & HAFA
                                                     Financial                                           12/30/2009         ($350,000)        $250,000
                                                                                                                                                          initial cap
            Lake City Bank,                          Instrument for
8/5/2009                               Purchase                               $420,000 N/A                                                                                                                                          —           $502          $3,000             $3,502
            Warsaw, IN                               Home Loan                                           3/26/2010            $20,000         $270,000    Updated portfolio data from servicer
                                                     Modifications
                                                                                                         7/14/2010           ($70,000)        $200,000    Updated portfolio data from servicer

                                                                                                         9/30/2010            $90,111         $290,111    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I april 28, 2011




                                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                                            283
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)                                                                                                                                                                                     284

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                                Adjustment Details                                                                            Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                         Total
                                                                            to Servicers &                                       Cap                                                                           Market                      Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment      Adjustment          Adjusted                                                  Capitalization     Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date               Amount               Cap    Reason for Adjustment                            (in Millions)     Incentive     Incentives     Incentives          Payments

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009         $290,000         $430,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009        $210,000         $640,000
                                                                                                                                                         initial cap

                                                      Financial                                           3/26/2010         $170,000         $810,000    Updated portfolio data from servicer
            Oakland Municipal Credit                  Instrument for
8/5/2009                                Purchase                               $140,000 N/A                                                                                                                                       —          $3,568         $6,500            $10,068
            Union, Oakland, CA                        Home Loan                                           7/14/2010         ($10,000)        $800,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                          9/30/2010         ($74,722)        $725,278    Updated portfolio data from servicer

                                                                                                          1/6/2011               ($1)        $725,277    Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                          3/30/2011              ($1)        $725,276
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009    ($121,190,000)    $552,810,000
                                                                                                                                                         initial cap
                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I april 28, 2011




                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009    ($36,290,000)    $516,520,000
                                                                                                                                                         initial cap

                                                                                                          3/26/2010     $199,320,000     $715,840,000    Updated portfolio data from servicer

                                                                                                          7/14/2010    ($189,040,000)    $526,800,000    Updated portfolio data from servicer
                                                      Financial
            HomEq Servicing,                          Instrument for                                      9/30/2010      $38,626,728     $565,426,728    Updated portfolio data from servicer
8/5/2009                                Purchase                           $674,000,000 N/A                                                                                                                                       —      $3,036,319     $5,272,500         $8,308,819
            North Highlands, CA                       Home Loan
                                                      Modifications                                       10/15/2010   ($170,800,000)    $394,626,728    Transfer of cap due to servicing transfer

                                                                                                          12/15/2010    ($22,200,000)    $372,426,728    Updated portfolio data from servicer

                                                                                                          1/6/2011             ($549)    $372,426,179    Updated portfolio data from servicer

                                                                                                          2/16/2011        ($900,000)    $371,526,179    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($653)    $371,525,526
                                                                                                                                                         reallocation

                                                                                                                                                         Updated portfolio data from servicer & HPDP
                                                                                                          9/30/2009     $313,050,000    $1,087,950,000
                                                                                                                                                         initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009    $275,370,000    $1,363,320,000
                                                                                                                                                         initial cap

                                                                                                          3/26/2010     $278,910,000    $1,642,230,000   Updated portfolio data from servicer

                                                                                                          7/14/2010    ($474,730,000)   $1,167,500,000   Updated portfolio data from servicer

                                                                                                          8/13/2010        ($700,000)   $1,166,800,000   Transfer of cap to due to servicing transfer
                                                      Financial
            Litton Loan Servicing LP,                 Instrument for                                      9/15/2010      ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer
8/12/2009                               Purchase                           $774,900,000 N/A                                                                                                                               $6,625,051    $19,184,782    $17,200,572        $43,010,405
            Houston, TX                               Home Loan
                                                      Modifications                                       9/30/2010    ($115,017,236)   $1,050,782,764   Updated portfolio data from servicer

                                                                                                          10/15/2010       ($800,000)   $1,049,982,764   Transfer of cap due to servicing transfer

                                                                                                          12/15/2010        $800,000    $1,050,782,764   Updated portfolio data from servicer

                                                                                                          1/6/2011           ($1,286)   $1,050,781,478   Updated portfolio data from servicer

                                                                                                          3/16/2011       $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                          3/30/2011          ($1,470)   $1,059,580,008
                                                                                                                                                         reallocation

                                                                                                                                                                                                                                                                Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                (CONTINUED)

            Servicer Modifying Borrowers’ Loans                         Cap of Incentive                                             Adjustment Details                                                                           Non-GSE Incentive Payments
                                                                     Payments on Behalf
                                                                       of Borrowers and                                                                                                                                                                                     Total
                                                                          to Servicers &                                      Cap                                                                         Market                     Lenders/                           Non-GSE
            Name of                   Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                  Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution               Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                            (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                                                                    Updated portfolio data from servicer & HPDP
                                                                                                        9/30/2009     ($1,200,000)    $5,010,000
                                                                                                                                                    initial cap

                                                                                                                                                    Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009    $30,800,000    $35,810,000
                                                                                                                                                    initial cap

                                                                                                        3/26/2010     $23,200,000    $59,010,000    Updated portfolio data from servicer

                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due
                                                                                                        6/16/2010      $2,710,000    $61,720,000
                                                                                                                                                    to servicing transfer

                                                                                                        7/14/2010    ($18,020,000)   $43,700,000    Updated portfolio data from servicer

                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due
                                                                                                        7/16/2010      $6,680,000    $50,380,000
                                                                                                                                                    to servicing transfer

                                                                                                        8/13/2010      $2,600,000    $52,980,000    Transfer of cap to due to servicing transfer
                                                    Financial
                                                                                                        9/15/2010      ($100,000)    $52,880,000    Transfer of cap to due to servicing transfer
            PennyMac Loan Services,                 Instrument for
8/12/2009                             Purchase                              $6,210,000 N/A                                                                                                                           $195,401       $555,952        $579,201         $1,330,554
            LLC, Calasbasa, CA                      Home Loan
                                                    Modifications                                       9/30/2010        $200,000    $53,080,000    Initial FHA-HAMP cap and 2MP initial cap

                                                                                                        9/30/2010     ($1,423,197)   $51,656,803    Updated portfolio data from servicer

                                                                                                        11/16/2010     $1,400,000    $53,056,803    Transfer of cap due to servicing transfer

                                                                                                        12/15/2010     ($100,000)    $52,956,803    Updated portfolio data from servicer

                                                                                                        1/6/2011             ($72)   $52,956,731    Updated portfolio data from servicer

                                                                                                        1/13/2011      $4,100,000    $57,056,731    Transfer of cap due to servicing transfer

                                                                                                        2/16/2011       ($100,000)   $56,956,731    Transfer of cap due to servicing transfer

                                                                                                        3/16/2011      $4,000,000    $60,956,731    Transfer of cap due to servicing transfer

                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                        3/30/2011            ($94)   $60,956,637
                                                                                                                                                    reallocation

                                                                                                                                                    Updated portfolio data from servicer & HPDP
                                                                                                        9/30/2009    ($25,510,000)    $4,220,000
                                                                                                                                                    initial cap

                                                                                                                                                    Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009       $520,000     $4,740,000
                                                                                                                                                    initial cap

                                                                                                        3/26/2010      $4,330,000     $9,070,000    Updated portfolio data from servicer

                                                                                                                                                    Transfer of cap from CitiMortgage, Inc. due
                                                                                                        4/19/2010        $230,000     $9,300,000
                                                                                                                                                    to servicing transfer

                                                                                                        5/19/2010        $850,000    $10,150,000    Initial 2MP cap

                                                                                                        7/14/2010       ($850,000)    $9,300,000    Updated portfolio data from servicer

                                                                                                        9/15/2010        $100,000     $9,400,000    Transfer of cap to due to servicing transfer
                                                    Financial
            Servis One, Inc.,                       Instrument for                                      9/30/2010        $100,000     $9,500,000    Initial FHA-HAMP cap
8/12/2009                             Purchase                             $29,730,000 N/A                                                                                                                               $917          $2,709         $2,000             $5,626
            Titusville, PA                          Home Loan
                                                    Modifications
                                                                                                        9/30/2010     $16,755,064    $26,255,064    Updated portfolio data from servicer

                                                                                                        10/15/2010       $100,000    $26,355,064    Transfer of cap due to servicing transfer

                                                                                                        12/15/2010       $100,000    $26,455,064    Updated portfolio data from servicer

                                                                                                        1/6/2011             ($40)   $26,455,024    Updated portfolio data from servicer

                                                                                                        1/13/2011        $300,000    $26,755,024    Transfer of cap due to servicing transfer

                                                                                                        2/16/2011        $100,000    $26,855,024    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 28, 2011




                                                                                                        3/16/2011      $2,200,000    $29,055,024    Transfer of cap due to servicing transfer

                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                        3/30/2011            ($52)   $29,054,972
                                                                                                                                                    reallocation

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    285
                                                                                                                                                                                                                                                                                         286
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                                Adjustment Details                                                                           Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                        Total
                                                                            to Servicers &                                        Cap                                                                         Market                      Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment       Adjustment         Adjusted                                                 Capitalization     Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date                Amount              Cap    Reason for Adjustment                           (in Millions)     Incentive     Incentives     Incentives          Payments


                                                                                                          10/2/2009     $145,800,000     $814,240,000    HPDP initial cap


                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009   $1,355,930,000   $2,170,170,000
                                                                                                                                                         initial cap

                                                                                                          3/26/2010     $121,180,000    $2,291,350,000   Updated portfolio data from servicer
                                                      Financial
            OneWest Bank, Pasadena,                   Instrument for                                      7/14/2010    ($408,850,000)   $1,882,500,000   Updated portfolio data from servicer
8/28/2009                               Purchase                           $668,440,000 N/A                                                                                                                              $7,730,462    $26,968,402    $20,623,676       $55,322,540
            CA                                        Home Loan
                                                      Modifications
                                                                                                          9/30/2010       $5,500,000    $1,888,000,000   2MP initial cap

                                                                                                          9/30/2010     ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer

                                                                                                          1/6/2011           ($2,282)   $1,836,256,555   Updated portfolio data from servicer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                          3/30/2011          ($2,674)   $1,836,253,881
                                                                                                                                                         reallocation
                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I april 28, 2011




                                                                                                          10/2/2009          $70,000         $370,000    HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009      $2,680,000       $3,050,000
                                                                                                                                                         initial cap
                                                      Financial
            Stanford Federal Credit                   Instrument for                                      3/26/2010         $350,000       $3,400,000    Updated portfolio data from servicer
8/28/2009                               Purchase                               $300,000 N/A
            Union, Palo Alto, CA                      Home Loan
                                                      Modifications                                       7/14/2010      ($1,900,000)      $1,500,000    Updated portfolio data from servicer

                                                                                                          9/30/2010      ($1,209,889)        $290,111    Updated portfolio data from servicer

                                                                                                          3/23/2011        ($290,111)               —    Termination of SPA

                                                                                                          10/2/2009         $130,000         $700,000    HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009       ($310,000)        $390,000
                                                                                                                                                         initial cap

                                                                                                          3/26/2010       $2,110,000       $2,500,000    Updated portfolio data from servicer
                                                      Financial
            RoundPoint Mortgage                                                                           7/14/2010       $8,300,000      $10,800,000    Updated portfolio data from servicer
                                                      Instrument for
8/28/2009   Servicing Corporation,      Purchase                               $570,000 N/A                                                                                                                                      —        $47,617         $64,000           $111,617
                                                      Home Loan
            Charlotte, NC                                                                                 9/30/2010       $5,301,172      $16,101,172    Updated portfolio data from servicer
                                                      Modifications

                                                                                                          1/6/2011              ($22)     $16,101,150    Updated portfolio data from servicer

                                                                                                          3/16/2011        ($400,000)     $15,701,150    Transfer of cap due to servicing transfer

                                                                                                                                                         Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($25)     $15,701,125
                                                                                                                                                         reallocation

                                                                                                          10/2/2009         $130,000         $690,000    HPDP initial cap

                                                                                                                                                         Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009      $1,040,000       $1,730,000
                                                                                                                                                         initial cap

                                                      Financial                                           3/26/2010      ($1,680,000)         $50,000    Updated portfolio data from servicer
                                                      Instrument for
9/2/2009    Horicon Bank, Horicon, WI   Purchase                               $560,000 N/A                                                                                                                                   $917          $3,030         $3,917             $7,863
                                                      Home Loan                                           5/12/2010       $1,260,000       $1,310,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                          7/14/2010      ($1,110,000)        $200,000    Updated portfolio data from servicer

                                                                                                          9/30/2010         $100,000         $300,000    Initial RD-HAMP

                                                                                                          9/30/2010          ($9,889)        $290,111    Updated portfolio data from servicer

                                                                                                                                                                                                                                                               Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                   (CONTINUED)

             Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                             Adjustment Details                                                                           Non-GSE Incentive Payments
                                                                        Payments on Behalf
                                                                          of Borrowers and                                                                                                                                                                                     Total
                                                                             to Servicers &                                      Cap                                                                        Market                      Lenders/                           Non-GSE
             Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                 Capitalization     Borrowers       Investors      Servicers           Incentive
Date         Institution                 Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                           (in Millions)     Incentive     Incentives     Incentives          Payments


                                                                                                           10/2/2009      $1,310,000      $7,310,000   HPDP initial cap


                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                           12/30/2009    ($3,390,000)     $3,920,000
                                                                                                                                                       initial cap

                                                                                                           3/26/2010        $410,000      $4,330,000   Updated portfolio data from servicer

                                                                                                           7/14/2010      ($730,000)      $3,600,000   Updated portfolio data from servicer

                                                                                                           9/15/2010      $4,700,000      $8,300,000   Transfer of cap due to servicing transfer
                                                       Financial
9/2/2009 as Vantium Capital, Inc.dba
                                                       Instrument for                                      9/30/2010        $117,764      $8,417,764   Updated portfolio data from servicer
amended on Acqura Loan Services,         Purchase                              $6,000,000 N/A        10                                                                                                                   $1,000          $2,568         $1,000             $4,568
                                                       Home Loan
8/27/2010 Plano, TX
                                                       Modifications                                       11/16/2010       $800,000      $9,217,764   Transfer of cap due to servicing transfer

                                                                                                           12/15/2010     $2,700,000     $11,917,764   Updated portfolio data from servicer

                                                                                                           1/6/2011             ($17)    $11,917,747   Updated portfolio data from servicer

                                                                                                           1/13/2011        $700,000     $12,617,747   Transfer of cap due to servicing transfer

                                                                                                           2/16/2011      $1,800,000     $14,417,747   Transfer of cap due to servicing transfer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011            ($19)    $14,417,728
                                                                                                                                                       reallocation

                                                                                                           10/2/2009        $280,000      $1,530,000   HPDP initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                           12/30/2009     ($750,000)       $780,000
                                                                                                                                                       initial cap

                                                                                                           3/26/2010        $120,000       $900,000    Updated portfolio data from servicer
                                                       Financial
             Central Florida Educators
                                                       Instrument for
9/9/2009     Federal Credit Union,       Purchase                              $1,250,000 N/A              7/14/2010      ($300,000)       $600,000    Updated portfolio data from servicer                                $4,750       $28,032         $34,000            $66,782
                                                       Home Loan
             Lake Mary, FL
                                                       Modifications
                                                                                                           9/30/2010        $270,334       $870,334    Updated portfolio data from servicer

                                                                                                           1/6/2011              ($1)      $870,333 Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011             ($1)      $870,332
                                                                                                                                                       reallocation

                                                                                                           10/2/2009     $24,920,000    $139,140,000   HPDP initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                           12/30/2009    $49,410,000    $188,550,000
                                                                                                                                                       initial cap

                                                                                                           3/26/2010     $41,830,000    $230,380,000   Updated portfolio data from servicer
                                                       Financial
             U.S. Bank National
                                                       Instrument for
9/9/2009     Association,                Purchase                           $114,220,000 N/A               7/14/2010    ($85,780,000)   $144,600,000   Updated portfolio data from servicer                            $1,537,911     $6,901,715     $5,989,527       $14,429,153
                                                       Home Loan
             Owensboro, KY
                                                       Modifications
                                                                                                           9/30/2010     $36,574,444    $181,174,444   Updated portfolio data from servicer

                                                                                                           1/6/2011            ($160)   $181,174,284   Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011           ($172)   $181,174,112
                                                                                                                                                       reallocation

                                                                                                           10/2/2009        $950,000      $5,300,000   HPDP initial cap

                                                                                                                                                       Updated portfolio data from servicer & HAFA
                                                                                                           12/30/2009     $5,700,000     $11,000,000
                                                                                                                                                       initial cap

                                                       Financial                                           3/26/2010        $740,000     $11,740,000   Updated portfolio data from servicer
             CUC Mortgage                              Instrument for
9/9/2009                                 Purchase                              $4,350,000 N/A              7/14/2010     ($1,440,000)    $10,300,000   Updated portfolio data from servicer                                $7,083       $24,900         $28,417            $60,400
             Corporation, Albany, NY                   Home Loan
                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I april 28, 2011




                                                       Modifications
                                                                                                           9/30/2010     ($6,673,610)     $3,626,390   Updated portfolio data from servicer

                                                                                                           1/6/2011              ($5)     $3,626,385   Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011             ($6)     $3,626,379
                                                                                                                                                       reallocation

                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                       287
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                (CONTINUED)                                                                                                                                                                                288

            Servicer Modifying Borrowers’ Loans                         Cap of Incentive                                             Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                     Payments on Behalf
                                                                       of Borrowers and                                                                                                                                                                                    Total
                                                                          to Servicers &                                      Cap                                                                        Market                     Lenders/                           Non-GSE
            Name of                   Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution               Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments


                                                                                                        10/2/2009        $460,000     $2,530,000    HPDP initial cap

                                                                                                                                                    Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009     $2,730,000     $5,260,000
                                                                                                                                                    initial cap

                                                    Financial                                           3/26/2010     $13,280,000    $18,540,000    Updated portfolio data from servicer
            ORNL Federal Credit                     Instrument for
9/11/2009                             Purchase                              $2,070,000 N/A                                                                                                                                 —              —          $2,000             $2,000
            Union, Oak Ridge, TN                    Home Loan                                           7/14/2010    ($13,540,000)    $5,000,000    Updated portfolio data from servicer
                                                    Modifications
                                                                                                        9/30/2010      $1,817,613     $6,817,613    Updated portfolio data from servicer

                                                                                                        1/6/2011             ($10)    $6,817,603    Updated portfolio data from servicer

                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                        3/30/2011            ($12)    $6,817,591
                                                                                                                                                    reallocation

                                                                                                        10/2/2009         $60,000       $310,000    HPDP initial cap
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I april 28, 2011




                                                                                                                                                    Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009       ($80,000)      $230,000
                                                    Financial                                                                                       initial cap
            Allstate Mortgage
                                                    Instrument for
9/11/2009   Loans & Investments, Inc., Purchase                              $250,000 N/A               3/26/2010        $280,000       $510,000    Updated portfolio data from servicer                               $1,623         $4,938         $4,623            $11,184
                                                    Home Loan
            Ocala, FL
                                                    Modifications
                                                                                                        7/14/2010      ($410,000)       $100,000 Updated portfolio data from servicer


                                                                                                        9/30/2010         $45,056       $145,056    Updated portfolio data from servicer

                                                                                                        10/2/2009         $70,000       $350,000    HPDP initial cap

                                                                                                                                                    Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009       $620,000       $970,000
                                                                                                                                                    initial cap

                                                    Financial                                           3/26/2010        $100,000     $1,070,000    Updated portfolio data from servicer
            Metropolitan National                   Instrument for
9/11/2009                             Purchase                               $280,000 N/A
            Bank, Little Rock, AR                   Home Loan                                           7/14/2010       ($670,000)      $400,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                        9/30/2010         $35,167       $435,167    Updated portfolio data from servicer

                                                                                                        1/6/2011              ($1)      $435,166    Updated portfolio data from servicer

                                                                                                        1/26/2011       ($435,166)             —    Termination of SPA

                                                                                                        10/2/2009      $6,010,000    $33,520,000    HPDP initial cap

                                                                                                                                                    Updated portfolio data from servicer & HAFA
                                                                                                        12/30/2009   ($19,750,000)   $13,770,000
                                                                                                                                                    initial cap

                                                                                                        3/26/2010     ($4,780,000)    $8,990,000    Updated portfolio data from servicer
                                                    Financial
            Franklin Credit                                                                             7/14/2010     ($2,390,000)    $6,600,000    Updated portfolio data from servicer
                                                    Instrument for
9/11/2009   Management Corporation,   Purchase                             $27,510,000 N/A                                                                                                                           $31,073       $188,581        $305,656           $525,309
                                                    Home Loan
            Jersey City, NJ                                                                             9/30/2010      $2,973,670     $9,573,670    Updated portfolio data from servicer
                                                    Modifications

                                                                                                        1/6/2011              ($3)    $9,573,667    Updated portfolio data from servicer

                                                                                                        2/16/2011     ($1,800,000)    $7,773,667    Transfer of cap due to servicing transfer

                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                        3/30/2011             ($6)    $7,773,661
                                                                                                                                                    reallocation

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                            Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                   Total
                                                                            to Servicers &                                     Cap                                                                        Market                     Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment    Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date             Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                          10/2/2009        $90,000       $500,000    HPDP initial cap

                                                                                                                                                     Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009    $1,460,000     $1,960,000
                                                                                                                                                     initial cap

                                                                                                          3/26/2010      $160,000      $2,120,000    Updated portfolio data from servicer
                                                      Financial
            Bay Federal Credit Union,                 Instrument for
9/16/2009                               Purchase                               $410,000 N/A               7/14/2010     ($120,000)     $2,000,000    Updated portfolio data from servicer
            Capitola, CA                              Home Loan
                                                      Modifications
                                                                                                          9/30/2010    ($1,419,778)      $580,222    Updated portfolio data from servicer

                                                                                                          1/6/2011             ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($1)      $580,220
                                                                                                                                                     reallocation


                                                                                                          10/2/2009      $960,000      $5,350,000    HPDP initial cap


                                                                                                                                                     Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009   ($3,090,000)    $2,260,000
                                                                                                                                                     initial cap

                                                                                                          3/26/2010      $230,000      $2,490,000    Updated portfolio data from servicer
                                                      Financial
            AMS Servicing, LLC,                       Instrument for                                      7/14/2010     $5,310,000     $7,800,000    Updated portfolio data from servicer
9/23/2009                               Purchase                              $4,390,000 N/A
            Buffalo, NY                               Home Loan
                                                      Modifications                                       9/30/2010      $323,114      $8,123,114    Updated portfolio data from servicer

                                                                                                          1/6/2011            ($12)    $8,123,102    Updated portfolio data from servicer

                                                                                                          3/16/2011      $600,000      $8,723,102    Transfer of cap due to servicing transfer

                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011           ($16)    $8,723,086
                                                                                                                                                     reallocation

                                                                                                          10/2/2009        $90,000       $480,000    HPDP initial cap

                                                                                                                                                     Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $940,000      $1,420,000
                                                                                                                                                     initial cap

                                                                                                          3/26/2010     ($980,000)       $440,000    Updated portfolio data from servicer
                                                      Financial
            Schools Financial Credit                  Instrument for
9/23/2009                               Purchase                               $390,000 N/A               7/14/2010     ($140,000)       $300,000    Updated portfolio data from servicer                               $2,000       $14,102          $8,000            $24,102
            Union, Sacramento, CA                     Home Loan
                                                      Modifications
                                                                                                          9/30/2010     $1,150,556     $1,450,556    Updated portfolio data from servicer

                                                                                                          1/6/2011             ($2)    $1,450,554    Updated portfolio data from servicer

                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($2)    $1,450,552
                                                                                                                                                     reallocation

                                                                                                          10/2/2009        $60,000       $290,000    HPDP initial cap

                                                                                                                                                     Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009      ($10,000)      $280,000
                                                      Financial                                                                                      initial cap
            Glass City Federal Credit                 Instrument for
9/23/2009                               Purchase                               $230,000 N/A                                                                                                                             $2,000         $1,594         $4,000             $7,594
            Union, Maumee, OH                         Home Loan                                           3/26/2010      $130,000        $410,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                          7/14/2010     ($110,000)       $300,000 Updated portfolio data from servicer

                                                                                                          9/30/2010        ($9,889)      $290,111    Updated portfolio data from servicer

                                                                                                          10/2/2009        $10,000        $40,000    HPDP initial cap

                                                                                                                                                     Updated portfolio data from servicer & HAFA
                                                                                                          12/30/2009     $120,000        $160,000
                                                                                                                                                     initial cap
                                                      Financial
            Central Jersey Federal
                                                      Instrument for                                      3/26/2010        $10,000       $170,000 Updated portfolio data from servicer
9/23/2009   Credit Union,               Purchase                                $30,000 N/A
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 28, 2011




                                                      Home Loan
            Woodbridge, NJ
                                                      Modifications                                       7/14/2010       ($70,000)      $100,000    Updated portfolio data from servicer

                                                                                                          9/30/2010        $45,056       $145,056    Updated portfolio data from servicer

                                                                                                          10/29/2010    ($145,056)              —    Termination of SPA

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    289
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                   (CONTINUED)                                                                                                                                                                               290

             Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                            Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                        Payments on Behalf
                                                                          of Borrowers and                                                                                                                                                                                   Total
                                                                             to Servicers &                                     Cap                                                                        Market                     Lenders/                           Non-GSE
             Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment    Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date         Institution                 Type          Description                   (Cap)1 Mechanism Note Date             Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments


                                                                                                           10/2/2009        $60,000       $300,000    HPDP initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                           12/30/2009     $350,000        $650,000
                                                                                                                                                      initial cap
                                                       Financial
             Yadkin Valley Bank,                       Instrument for                                      3/26/2010     $1,360,000     $2,010,000    Updated portfolio data from servicer
9/23/2009                                Purchase                               $240,000 N/A                                                                                                               $37.00       $2,000           $696          $9,000            $11,696
             Elkin, NC                                 Home Loan
                                                       Modifications                                       7/14/2010    ($1,810,000)      $200,000    Updated portfolio data from servicer

                                                                                                           9/30/2010      $235,167      $2,245,167    Updated portfolio data from servicer

                                                                                                           1/6/2011             ($1)    $2,245,166    Updated portfolio data from servicer

                                                                                                           10/2/2009      $100,000        $540,000    HPDP initial cap

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                           12/30/2009       $20,000       $560,000
                                                       Financial                                                                                      initial cap
                                                       Instrument for
9/25/2009    SEFCU, Albany, NY           Purchase                               $440,000 N/A
                                                       Home Loan                                           3/26/2010     ($290,000)       $270,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I april 28, 2011




                                                       Modifications
                                                                                                           7/14/2010       ($70,000)      $200,000    Updated portfolio data from servicer

                                                                                                           9/30/2010       ($54,944)      $145,056 Updated portfolio data from servicer

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                           12/30/2009    $1,030,000     $1,600,000
                                                                                                                                                      initial cap

                                                                                                           3/26/2010     ($880,000)       $720,000    Updated portfolio data from servicer

                                                       Financial
                                                                                                           7/14/2010     ($320,000)       $400,000 Updated portfolio data from servicer
             Great Lakes Credit Union,                 Instrument for
10/14/2009                               Purchase                               $570,000 N/A                                                                                                                                 —          $1,222         $2,000             $3,222
             North Chicago, IL                         Home Loan
                                                                                                           9/30/2010      $180,222        $580,222    Updated portfolio data from servicer
                                                       Modifications

                                                                                                           1/6/2011             ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                           3/30/2011            ($1)      $580,220
                                                                                                                                                      reallocation

                                                                                                                                                      Updated portfolio data from servicer & HAFA
                                                                                                           12/30/2009   ($2,900,000)    $1,960,000
                                                                                                                                                      initial cap

                                                       Financial                                           3/26/2010    ($1,600,000)      $360,000    Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                              $4,860,000 N/A
             Corporation, Tulsa, OK                    Home Loan                                           7/14/2010     ($260,000)       $100,000 Updated portfolio data from servicer
                                                       Modifications
                                                                                                           9/30/2010        $45,056       $145,056    Updated portfolio data from servicer

                                                                                                           3/9/2011      ($145,056)              —    Termination of SPA

                                                                                                           1/22/2010        $20,000       $430,000    Updated HPDP cap & HAFA initial cap

                                                                                                           3/26/2010      $400,000        $830,000    Updated portfolio data from servicer

                                                       Financial                                           7/14/2010     ($430,000)       $400,000 Updated portfolio data from servicer
           United Bank Mortgage
                                                       Instrument for
10/21/2009 Corporation, Grand            Purchase                               $410,000 N/A                                                                                                                             $9,592       $22,100         $28,141            $59,833
                                                       Home Loan                                           9/30/2010      $180,222        $580,222    Updated portfolio data from servicer
           Rapids, MI
                                                       Modifications
                                                                                                           1/6/2011             ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                           3/30/2011            ($1)      $580,220
                                                                                                                                                      reallocation

                                                                                                                                                                                                                                                           Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

             Servicer Modifying Borrowers’ Loans                          Cap of Incentive                                             Adjustment Details                                                                         Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                   Total
                                                                            to Servicers &                                      Cap                                                                      Market                      Lenders/                           Non-GSE
             Name of                    Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                               Capitalization     Borrowers       Investors      Servicers           Incentive
Date         Institution                Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                         (in Millions)     Incentive     Incentives     Incentives          Payments

                                                                                                          1/22/2010      $4,370,000     $98,030,000   Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010     $23,880,000    $121,910,000   Updated portfolio data from servicer

                                                                                                          7/14/2010    ($16,610,000)   $105,300,000   Updated portfolio data from servicer
                                                      Financial
           Bank United, Miami                         Instrument for                                      9/30/2010      $1,751,033    $107,051,033   Updated portfolio data from servicer
10/23/2009                              Purchase                            $93,660,000 N/A                                                                                                                         $1,026,017    $4,506,107      $3,661,344         $9,193,468
           Lakes, FL                                  Home Loan
                                                      Modifications                                       1/6/2011             ($77)   $107,050,956   Updated portfolio data from servicer

                                                                                                          3/16/2011     ($9,900,000)    $97,150,956   Transfer of cap due to servicing transfer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($88)    $97,150,868
                                                                                                                                                      reallocation

                                                                                                          1/22/2010         $40,000       $800,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010      ($760,000)        $40,000    Updated portfolio data from servicer

                                                                                                          5/12/2010      $2,630,000      $2,670,000   Updated portfolio data from servicer
                                                      Financial
             IC Federal Credit Union,                 Instrument for                                      7/14/2010      ($770,000)      $1,900,000   Updated portfolio data from servicer
10/23/2009                              Purchase                               $760,000 N/A                                                                                                                             $1,917         $5,603         $7,000            $14,520
             Fitchburg, MA                            Home Loan
                                                      Modifications                                       9/30/2010        $565,945      $2,465,945   Updated portfolio data from servicer

                                                                                                          1/6/2011              ($4)     $2,465,941   Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($4)     $2,465,937
                                                                                                                                                      reallocation

                                                      Financial
           Harleysville National
                                                      Instrument for
10/28/2009 Bank & Trust Company,        Purchase                              $1,070,000 N/A              4/21/2010     ($1,070,000)             —    Termination of SPA
                                                      Home Loan
           Harleysville, PA
                                                      Modifications

                                                      Financial
           Members Mortgage
                                                      Instrument for
10/28/2009 Company, Inc,                Purchase                               $510,000 N/A               4/21/2010       ($510,000)             —    Termination of SPA
                                                      Home Loan
           Woburn, MA
                                                      Modifications

                                                                                                          1/22/2010         $10,000        $80,000    Updated HPDP cap & HAFA initial cap

                                                      Financial
                                                                                                          3/26/2010         $10,000        $90,000    Updated portfolio data from servicer
             DuPage Credit Union,                     Instrument for
10/30/2009                              Purchase                                $70,000 N/A                                                                                                                             $1,000         $8,026         $2,500            $11,526
             Naperville, IL                           Home Loan
                                                                                                          7/14/2010         $10,000       $100,000    Updated portfolio data from servicer
                                                      Modifications

                                                                                                          9/30/2010         $45,056       $145,056    Updated portfolio data from servicer

                                                                                                          1/22/2010         $40,000       $740,000 Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010         $50,000       $790,000    Updated portfolio data from servicer

                                                      Financial                                           7/14/2010      $1,310,000      $2,100,000   Updated portfolio data from servicer
             Los Alamos National                      Instrument for
11/6/2009                               Purchase                               $700,000 N/A                                                                                                                              $277          $1,858         $8,474            $10,608
             Bank, Los Alamos, NM                     Home Loan                                           9/30/2010         $75,834      $2,175,834   Updated portfolio data from servicer
                                                      Modifications
                                                                                                          1/6/2011              ($3)     $2,175,831   Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($4)     $2,175,827
                                                                                                                                                      reallocation

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                    291
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                   (CONTINUED)                                                                                                                                                                                292

             Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                             Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                        Payments on Behalf
                                                                          of Borrowers and                                                                                                                                                                                    Total
                                                                             to Servicers &                                      Cap                                                                        Market                     Lenders/                           Non-GSE
             Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date         Institution                 Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                           1/22/2010        $890,000    $19,850,000    Updated HPDP cap & HAFA initial cap

                                                                                                           3/26/2010      $3,840,000    $23,690,000    Updated portfolio data from servicer

                                                                                                           7/14/2010     ($2,890,000)   $20,800,000    Updated portfolio data from servicer

                                                       Financial                                           9/30/2010      $9,661,676    $30,461,676    Updated portfolio data from servicer
             Quantum Servicing                         Instrument for
11/18/2009                               Purchase                            $18,960,000 N/A                                                                                                                                  —          $1,046         $1,000             $2,046
             Corporation, Tampa, FL                    Home Loan                                           1/6/2011             ($46)   $30,461,630    Updated portfolio data from servicer
                                                       Modifications
                                                                                                           1/13/2011      $1,600,000    $32,061,630    Transfer of cap due to servicing transfer

                                                                                                           2/16/2011      $1,400,000    $33,461,630    Transfer of cap due to servicing transfer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011            ($58)   $33,461,572
                                                                                                                                                       reallocation

                                                                                                           1/22/2010         $80,000     $1,750,000    Updated HPDP cap & HAFA initial cap

                                                                                                           3/26/2010        $330,000     $2,080,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I april 28, 2011




                                                       Financial                                           7/14/2010     ($1,080,000)    $1,000,000    Updated portfolio data from servicer
             Hillsdale County National                 Instrument for
11/18/2009                               Purchase                              $1,670,000 N/A                                                                                                                             $5,143         $6,526        $19,788            $31,457
             Bank, Hillsdale, MI                       Home Loan                                           9/30/2010        $160,445     $1,160,445    Updated portfolio data from servicer
                                                       Modifications
                                                                                                           1/6/2011              ($1)    $1,160,444    Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011             ($2)    $1,160,442
                                                                                                                                                       reallocation

                                                                                                           1/22/2010                        $20,000    Updated HPDP cap & HAFA initial cap

                                                       Financial
                                                                                                           3/26/2010        ($10,000)       $10,000    Updated portfolio data from servicer
             QLending, Inc.,                           Instrument for
11/18/2009                               Purchase                                $20,000 N/A
             Coral Gables, FL                          Home Loan
                                                                                                           7/14/2010         $90,000       $100,000    Updated portfolio data from servicer
                                                       Modifications

                                                                                                           9/30/2010         $45,056       $145,056    Updated portfolio data from servicer

                                                                                                           1/22/2010        $950,000    $21,310,000    Updated HPDP cap & HAFA initial cap

                                                                                                           3/26/2010    ($17,880,000)    $3,430,000    Updated portfolio data from servicer

                                                                                                                                                       Transfer of cap from CitiMortgage, Inc. due
                                                                                                           6/16/2010      $1,030,000     $4,460,000
                                                                                                                                                       to servicing transfer

                                                                                                           7/14/2010     ($1,160,000)    $3,300,000    Updated portfolio data from servicer

                                                       Financial                                           8/13/2010        $800,000     $4,100,000    Transfer of cap due to servicing transfer
             Marix Servicing, LLC,                     Instrument for
11/25/2009                               Purchase                             $20,360,000 N/A                                                                                                                           $12,875       $123,470        $193,977           $330,322
             Phoenix, AZ                               Home Loan                                           9/30/2010        $200,000     $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP
                                                       Modifications
                                                                                                           9/30/2010      $1,357,168     $5,657,168    Updated portfolio data from servicer

                                                                                                           1/6/2011              ($1)    $5,657,167    Updated portfolio data from servicer

                                                                                                           3/16/2011      $5,700,000    $11,357,167    Transfer of cap due to servicing transfer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011             ($6)   $11,357,161
                                                                                                                                                       reallocation

                                                       Financial
           Home Financing
                                                       Instrument for
11/25/2009 Center, Inc,                  Purchase                               $230,000 N/A               4/21/2010       ($230,000)             —    Termination of SPA
                                                       Home Loan
           Coral Gables, FL
                                                       Modifications

                                                                                                                                                                                                                                                            Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

             Servicer Modifying Borrowers’ Loans                          Cap of Incentive                                             Adjustment Details                                                                      Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                Total
                                                                            to Servicers &                                      Cap                                                                    Market                     Lenders/                           Non-GSE
             Name of                    Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                             Capitalization    Borrowers       Investors      Servicers           Incentive
Date         Institution                Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                       (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                          1/22/2010         $50,000     $1,330,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010      $1,020,000     $2,350,000    Updated portfolio data from servicer

                                                      Financial                                           7/14/2010      ($950,000)     $1,400,000    Updated portfolio data from servicer
             First Keystone Bank,                     Instrument for
11/25/2009                              Purchase                              $1,280,000 N/A                                                                                                                        $2,776          $3,423         $8,718            $14,917
             Media, PA                                Home Loan                                           9/30/2010         $50,556     $1,450,556    Updated portfolio data from servicer
                                                      Modifications
                                                                                                          1/6/2011              ($2)    $1,450,554    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($2)    $1,450,552
                                                                                                                                                      reallocation

                                                                                                          1/22/2010         $10,000       $390,000    Updated HPDP cap & HAFA initial cap

                                                      Financial
             Community Bank &                                                                             3/26/2010        $520,000       $910,000    Updated portfolio data from servicer
                                                      Instrument for
12/4/2009    Trust Company, Clarks      Purchase                               $380,000 N/A
                                                      Home Loan
             Summit, PA                                                                                   7/14/2010      ($810,000)       $100,000    Updated portfolio data from servicer
                                                      Modifications

                                                                                                          9/30/2010         $45,056       $145,056    Updated portfolio data from servicer

                                                                                                          1/22/2010        $440,000     $9,870,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010     $14,480,000    $24,350,000    Updated portfolio data from servicer
                                                      Financial
             Idaho Housing and Finance                Instrument for
12/4/2009                              Purchase                               $9,430,000 N/A              5/26/2010    ($24,200,000)      $150,000    Updated portfolio data from servicer                           $2,922         $3,229         $5,922            $12,073
             Association, Boise, ID                   Home Loan
                                                      Modifications
                                                                                                          7/14/2010        $150,000       $300,000    Updated portfolio data from servicer

                                                                                                          9/30/2010         ($9,889)      $290,111    Updated portfolio data from servicer

                                                                                                          1/22/2010         $10,000       $370,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010        $850,000     $1,220,000    Updated portfolio data from servicer

                                                                                                          7/14/2010      ($120,000)     $1,100,000    Updated portfolio data from servicer
                                                      Financial
             Spirit of Alaska Federal
                                                      Instrument for                                      9/30/2010        $100,000     $1,200,000    Initial FHA-HAMP cap
12/9/2009    Credit Union,              Purchase                               $360,000 N/A
                                                      Home Loan
             Fairbanks, AK
                                                      Modifications
                                                                                                          9/30/2010        $105,500     $1,305,500    Updated portfolio data from servicer

                                                                                                          1/6/2011              ($2)    $1,305,498    Updated portfolio data from servicer

                                                                                                          2/17/2011     ($1,305,498)             —    Termination of SPA

                                                                                                          1/22/2010         $70,000     $1,660,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010       ($290,000)    $1,370,000    Updated portfolio data from servicer

                                                      Financial                                           7/14/2010       ($570,000)      $800,000    Updated portfolio data from servicer
             American Eagle Federal
                                                      Instrument for
12/9/2009    Credit Union,              Purchase                              $1,590,000 N/A
                                                      Home Loan                                           9/30/2010         $70,334       $870,334    Updated portfolio data from servicer
             East Hartford, CT
                                                      Modifications
                                                                                                          1/6/2011              ($1)      $870,333    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($1)      $870,332
                                                                                                                                                      reallocation

                                                                                                          1/22/2010         $90,000     $1,970,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010      $1,110,000     $3,080,000    Updated portfolio data from servicer

                                                      Financial                                           7/14/2010     ($1,180,000)    $1,900,000    Updated portfolio data from servicer
             Silver State Schools
                                                      Instrument for
12/9/2009    Credit Union,              Purchase                              $1,880,000 N/A                                                                                                                       $11,595        $69,292         $38,845           $119,731
                                                      Home Loan                                           9/30/2010        $275,834     $2,175,834    Updated portfolio data from servicer
             Las Vegas, NV
                                                      Modifications
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I april 28, 2011




                                                                                                          1/6/2011              ($2)    $2,175,832    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($3)    $2,175,829
                                                                                                                                                      reallocation

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 293
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                (CONTINUED)                                                                                                                                                                           294

            Servicer Modifying Borrowers’ Loans                         Cap of Incentive                                            Adjustment Details                                                                      Non-GSE Incentive Payments
                                                                     Payments on Behalf
                                                                       of Borrowers and                                                                                                                                                                               Total
                                                                          to Servicers &                                     Cap                                                                    Market                     Lenders/                           Non-GSE
            Name of                   Transaction   Investment        Lenders/Investors Pricing         Adjustment    Adjustment        Adjusted                                             Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution               Type          Description                   (Cap)1 Mechanism Note Date             Amount             Cap    Reason for Adjustment                       (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                        1/22/2010      $140,000      $3,080,000    Updated HPDP cap & HAFA initial cap

                                                                                                        3/26/2010     $6,300,000     $9,380,000    Updated portfolio data from servicer

                                                    Financial                                           7/14/2010    ($1,980,000)    $7,400,000    Updated portfolio data from servicer
            Fidelity Homestead
                                                    Instrument for
12/9/2009   Savings Bank, New         Purchase                              $2,940,000 N/A
                                                    Home Loan                                           9/30/2010    ($6,384,611)    $1,015,389    Updated portfolio data from servicer
            Orleans, LA
                                                    Modifications
                                                                                                        1/6/2011             ($1)    $1,015,388    Updated portfolio data from servicer

                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                        3/30/2011            ($2)    $1,015,386
                                                                                                                                                   reallocation

                                                                                                        1/22/2010        $10,000       $240,000    Updated HPDP cap & HAFA initial cap

                                                                                                        3/26/2010      $440,000        $680,000    Updated portfolio data from servicer
                                                    Financial
            Bay Gulf Credit Union,                  Instrument for                                      7/14/2010       ($80,000)      $600,000 Updated portfolio data from servicer
12/9/2009                             Purchase                               $230,000 N/A
            Tampa, FL                               Home Loan
                                                    Modifications                                       9/30/2010       ($19,778)      $580,222    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I april 28, 2011




                                                                                                        10/15/2010    ($580,222)                   Termination of SPA
                                                                                                                                              —

                                                                                                        1/22/2010      $290,000      $6,450,000    Updated HPDP cap & HAFA initial cap

                                                                                                        3/26/2010        $40,000     $6,490,000    Updated portfolio data from servicer

                                                    Financial                                           7/14/2010    ($2,890,000)    $3,600,000    Updated portfolio data from servicer
            The Golden 1 Credit Union,              Instrument for
12/9/2009                              Purchase                             $6,160,000 N/A                                                                                                                        $2,275      $105,466         $85,275           $193,016
            Sacramento, CA                          Home Loan                                           9/30/2010      $606,612      $4,206,612    Updated portfolio data from servicer
                                                    Modifications
                                                                                                        1/6/2011             ($4)    $4,206,608    Updated portfolio data from servicer

                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                        3/30/2011            ($4)    $4,206,604
                                                                                                                                                   reallocation

                                                                                                        1/22/2010      $100,000      $2,350,000    Updated HPDP cap & HAFA initial cap

                                                                                                        3/26/2010     ($740,000)     $1,610,000    Updated portfolio data from servicer

                                                    Financial                                           7/14/2010     ($710,000)       $900,000    Updated portfolio data from servicer
            Sterling Savings Bank,                  Instrument for
12/9/2009                             Purchase                              $2,250,000 N/A                                                                                                                        $8,000       $30,429         $37,500            $75,929
            Spokane, WA                             Home Loan                                           9/30/2010      $550,556      $1,450,556    Updated portfolio data from servicer
                                                    Modifications
                                                                                                        1/6/2011             ($1)    $1,450,555    Updated portfolio data from servicer

                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                        3/30/2011            ($1)    $1,450,554
                                                                                                                                                   reallocation

                                                                                                        1/22/2010        $20,000       $330,000    Updated HPDP cap & HAFA initial cap

                                                                                                        3/26/2010      $820,000      $1,150,000    Updated portfolio data from servicer

                                                    Financial                                           7/14/2010     ($350,000)       $800,000 Updated portfolio data from servicer
           HomeStar Bank &
                                                    Instrument for
12/11/2009 Financial Services,        Purchase                               $310,000 N/A                                                                                                                          $583          $1,571         $3,917             $6,071
                                                    Home Loan                                           9/30/2010        $70,334       $870,334    Updated portfolio data from servicer
           Manteno, IL
                                                    Modifications
                                                                                                        1/6/2011             ($1)      $870,333    Updated portfolio data from servicer

                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                        3/30/2011            ($1)      $870,332
                                                                                                                                                   reallocation

                                                                                                        1/22/2010        $20,000       $390,000    Updated HPDP cap & HAFA initial cap
                                                    Financial
           Glenview State Bank,                     Instrument for                                      3/26/2010     $1,250,000     $1,640,000    Updated portfolio data from servicer
12/11/2009                            Purchase                               $370,000 N/A
           Glenview, IL                             Home Loan
                                                    Modifications
                                                                                                        5/26/2010    ($1,640,000)             —    Termination of SPA

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

             Servicer Modifying Borrowers’ Loans                          Cap of Incentive                                            Adjustment Details                                                                      Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                               Total
                                                                            to Servicers &                                     Cap                                                                    Market                     Lenders/                           Non-GSE
             Name of                    Transaction   Investment        Lenders/Investors Pricing         Adjustment    Adjustment        Adjusted                                             Capitalization    Borrowers       Investors      Servicers           Incentive
Date         Institution                Type          Description                   (Cap)1 Mechanism Note Date             Amount             Cap    Reason for Adjustment                       (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                          1/22/2010        $30,000       $630,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010      $400,000      $1,030,000    Updated portfolio data from servicer

                                                      Financial                                           7/14/2010     ($330,000)       $700,000    Updated portfolio data from servicer
             Verity Credit Union,                     Instrument for
12/11/2009                              Purchase                               $600,000 N/A
             Seattle, WA                              Home Loan
                                                                                                          9/30/2010        $25,278       $725,278    Updated portfolio data from servicer
                                                      Modifications

                                                                                                          1/6/2011             ($1)      $725,277 Updated portfolio data from servicer

                                                                                                          2/17/2011     ($725,277)              —    Termination of SPA

                                                                                                          1/22/2010        $30,000       $660,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010      $800,000      $1,460,000    Updated portfolio data from servicer

                                                      Financial                                           7/14/2010     ($360,000)     $1,100,000    Updated portfolio data from servicer
             Hartford Savings Bank,                   Instrument for
12/11/2009                              Purchase                               $630,000 N/A
             Hartford, WI                             Home Loan                                           9/30/2010        $60,445     $1,160,445    Updated portfolio data from servicer
                                                      Modifications
                                                                                                          1/6/2011             ($2)    $1,160,443    Updated portfolio data from servicer

                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($2)    $1,160,441
                                                                                                                                                     reallocation

                                                      Financial
             The Bryn Mawr Trust Co.,                 Instrument for
12/11/2009                              Purchase                               $150,000 N/A               4/21/2010     ($150,000)              —    Termination of SPA
             Bryn Mawr, PA                            Home Loan
                                                      Modifications

                                                                                                          1/22/2010        $30,000       $650,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010     ($580,000)        $70,000    Updated portfolio data from servicer

                                                      Financial                                           7/14/2010     $1,430,000     $1,500,000    Updated portfolio data from servicer
             Citizens 1st National Bank,              Instrument for
12/16/2009                               Purchase                              $620,000 N/A                                                                                                                          $833          $3,206         $5,917             $9,956
             Spring Valley, IL                        Home Loan                                           9/30/2010        $95,612       $745,612    Updated portfolio data from servicer
                                                      Modifications
                                                                                                          1/6/2011             ($2)      $745,610    Updated portfolio data from servicer

                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($3)      $745,607
                                                                                                                                                     reallocation

                                                                                                          1/22/2010        $10,000       $180,000    Updated HPDP cap & HAFA initial cap

                                                                                                          3/26/2010        $30,000       $210,000    Updated portfolio data from servicer
                                                      Financial
             Golden Plains Credit Union,              Instrument for
12/16/2009                               Purchase                              $170,000 N/A               7/14/2010       ($10,000)      $200,000    Updated portfolio data from servicer
             Garden City, KS                          Home Loan
                                                      Modifications
                                                                                                          9/30/2010        $90,111       $290,111    Updated portfolio data from servicer

                                                                                                          2/17/2011     ($290,111)              —    Termination of SPA

                                                      Financial                                           1/22/2010      $160,000      $3,620,000    Updated HPDP cap & HAFA initial cap
           First Federal Savings
                                                      Instrument for
12/16/2009 and Loan Association of      Purchase                              $3,460,000 N/A
                                                      Home Loan
           Lakewood, Lakewood, OH                                                                         4/21/2010    ($3,620,000)             —    Termination of SPA
                                                      Modifications

                                                                                                          1/22/2010        $20,000       $460,000    Updated HPDP cap & HAFA initial cap

                                                      Financial                                           3/26/2010     $1,430,000     $1,890,000    Updated portfolio data from servicer
             Sound Community Bank,                    Instrument for
12/16/2009                              Purchase                               $440,000 N/A
             Seattle, WA                              Home Loan                                           7/14/2010     ($390,000)     $1,500,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I april 28, 2011




                                                                                                          9/8/2010     ($1,500,000)             —    Termination of SPA

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                295
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                   (CONTINUED)                                                                                                                                                                           296

             Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                            Adjustment Details                                                                      Non-GSE Incentive Payments
                                                                        Payments on Behalf
                                                                          of Borrowers and                                                                                                                                                                               Total
                                                                             to Servicers &                                     Cap                                                                    Market                     Lenders/                           Non-GSE
             Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment    Adjustment        Adjusted                                             Capitalization    Borrowers       Investors      Servicers           Incentive
Date         Institution                 Type          Description                   (Cap)1 Mechanism Note Date             Amount             Cap    Reason for Adjustment                       (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                           1/22/2010        $30,000       $730,000    Updated HPDP cap & HAFA initial cap

                                                                                                           3/26/2010     $1,740,000     $2,470,000    Updated portfolio data from servicer

                                                       Financial                                           7/14/2010    ($1,870,000)      $600,000    Updated portfolio data from servicer
             Horizon Bank, NA,                         Instrument for
12/16/2009                               Purchase                               $700,000 N/A
             Michigan City, IN                         Home Loan                                           9/30/2010      $850,556      $1,450,556    Updated portfolio data from servicer
                                                       Modifications
                                                                                                           1/6/2011             ($2)    $1,450,554    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                           3/30/2011            ($2)    $1,450,552
                                                                                                                                                      reallocation

                                                                                                           1/22/2010        $40,000       $800,000    Updated HPDP cap & HAFA initial cap

                                                                                                           3/26/2010      $140,000        $940,000    Updated portfolio data from servicer

                                                       Financial                                           7/14/2010     ($140,000)       $800,000 Updated portfolio data from servicer
             Park View Federal Savings                 Instrument for
12/16/2009                               Purchase                               $760,000 N/A                                                                                                                         $2,000       $11,087          $9,000            $22,087
             Bank, Solon, OH                           Home Loan
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I april 28, 2011




                                                                                                           9/30/2010        $70,334       $870,334    Updated portfolio data from servicer
                                                       Modifications
                                                                                                           1/6/2011             ($1)      $870,333    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                           3/30/2011            ($1)      $870,332
                                                                                                                                                      reallocation

                                                                                                           1/22/2010      $200,000      $4,430,000    Updated HPDP cap & HAFA initial cap

                                                                                                           3/26/2010    ($1,470,000)    $2,960,000    Updated portfolio data from servicer

                                                       Financial                                           7/14/2010    ($1,560,000)    $1,400,000    Updated portfolio data from servicer
                                                       Instrument for
12/23/2009 Iberiabank, Sarasota, FL      Purchase                              $4,230,000 N/A                                                                                                                            —        $10,502         $15,000            $25,502
                                                       Home Loan                                           9/30/2010     $5,852,780     $7,252,780    Updated portfolio data from servicer
                                                       Modifications
                                                                                                           1/6/2011            ($11)    $7,252,769    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                           3/30/2011           ($13)    $7,252,756
                                                                                                                                                      reallocation

                                                                                                           1/22/2010        $20,000       $360,000    Updated HPDP cap & HAFA initial cap

                                                                                                           3/26/2010     ($320,000)        $40,000    Updated portfolio data from servicer

                                                       Financial                                           7/14/2010      $760,000        $800,000    Updated portfolio data from servicer
             Grafton Suburban Credit                   Instrument for
12/23/2009                               Purchase                               $340,000 N/A
             Union, North Grafton, MA                  Home Loan                                           9/30/2010       ($74,722)      $725,278    Updated portfolio data from servicer
                                                       Modifications
                                                                                                           1/6/2011             ($1)      $725,277    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                           3/30/2011            ($1)      $725,276
                                                                                                                                                      reallocation

                                                                                                           1/22/2010             —         $60,000    Updated HPDP cap & HAFA initial cap

                                                       Financial
           Eaton National Bank &                                                                           3/26/2010        $90,000       $150,000    Updated portfolio data from servicer
                                                       Instrument for
12/23/2009 Trust Company,                Purchase                                $60,000 N/A
                                                       Home Loan
           Eaton, OH                                                                                       7/14/2010        $50,000       $200,000    Updated portfolio data from servicer
                                                       Modifications

                                                                                                           9/30/2010       ($54,944)      $145,056    Updated portfolio data from servicer

                                                                                                           1/22/2010             —        $110,000    Updated HPDP cap & HAFA initial cap


                                                       Financial                                           3/26/2010       ($20,000)       $90,000    Updated portfolio data from servicer
             Tempe Schools Credit                      Instrument for
12/23/2009                               Purchase                               $110,000 N/A               7/14/2010        $10,000       $100,000    Updated portfolio data from servicer
             Union, Tempe, AZ                          Home Loan
                                                       Modifications
                                                                                                           9/30/2010        $45,056       $145,056    Updated portfolio data from servicer

                                                                                                           12/8/2010     ($145,056)              —    Termination of SPA

                                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                   (CONTINUED)

            Servicer Modifying Borrowers’ Loans                            Cap of Incentive                                             Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                        Payments on Behalf
                                                                          of Borrowers and                                                                                                                                                                                    Total
                                                                             to Servicers &                                      Cap                                                                        Market                     Lenders/                           Non-GSE
            Name of                      Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                  Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                           3/26/2010        $480,000       $740,000    Updated portfolio data from servicer

                                                                                                           7/14/2010      ($140,000)       $600,000    Updated portfolio data from servicer
                                                       Financial
            Fresno County Federal                      Instrument for                                      9/30/2010        ($19,778)      $580,222    Updated portfolio data from servicer
1/13/2010                                Purchase                               $260,000 N/A                                                                                                                                  —          $1,631         $3,000             $4,631
            Credit Union, Fresno, CA                   Home Loan
                                                       Modifications                                       1/6/2011              ($1)      $580,221    Updated portfolio data from servicer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011             ($1)      $580,220
                                                                                                                                                       reallocation

                                                                                                           3/26/2010        $610,000       $850,000    Updated portfolio data from servicer

                                                                                                           7/14/2010         $50,000       $900,000    Updated portfolio data from servicer
                                                       Financial
            Roebling Bank,                             Instrument for
1/13/2010                                Purchase                               $240,000 N/A               9/30/2010        ($29,666)      $870,334    Updated portfolio data from servicer
            Roebling, NJ                               Home Loan
                                                       Modifications
                                                                                                           1/6/2011              ($1)      $870,333    Updated portfolio data from servicer

                                                                                                           3/23/2011      ($870,333)              —    Termination of SPA

                                                                                                           3/26/2010        $150,000       $290,000 Updated portfolio data from servicer

                                                       Financial
                                                                                                           7/14/2010         $10,000       $300,000    Updated portfolio data from servicer
            First National Bank of                     Instrument for
1/13/2010                                Purchase                               $140,000 N/A
            Grant Park, Grant Park, IL                 Home Loan
                                                                                                           9/30/2010         ($9,889)      $290,111    Updated portfolio data from servicer
                                                       Modifications

                                                                                                           1/26/2011      ($290,111)              —    Termination of SPA


                                                                                                           3/26/2010    ($51,240,000)   $12,910,000    Updated portfolio data from servicer


                                                                                                                                                       Transfer of cap from CitiMortgage, Inc. due
                                                                                                           5/14/2010      $3,000,000    $15,910,000
                                                                                                                                                       to servicing transfer


                                                                                                                                                       Transfer of cap from CitiMortgage, Inc. due
                                                                                                           6/16/2010      $4,860,000    $20,770,000
                                                                                                                                                       to servicing transfer


                                                                                                           7/14/2010      $3,630,000    $24,400,000    Updated portfolio data from servicer


                                                                                                                                                       Transfer of cap from CitiMortgage, Inc. due
                                                                                                           7/16/2010        $330,000    $24,730,000
                                                                                                                                                       to servicing transfer
                                                       Financial
            Specialized Loan
                                                       Instrument for
1/13/2010   Servicing, LLC, Highlands    Purchase                             $64,150,000 N/A              8/13/2010        $700,000    $25,430,000    Transfer of cap due to servicing transfer                       $111,137       $396,629        $423,470           $931,236
                                                       Home Loan
            Ranch, CO
                                                       Modifications
                                                                                                           9/15/2010        $200,000    $25,630,000    Transfer of cap due to servicing transfer

                                                                                                           9/30/2010     ($1,695,826)   $23,934,174    Updated portfolio data from servicer

                                                                                                           11/16/2010       $200,000    $24,134,174    Transfer of cap due to servicing transfer

                                                                                                           1/6/2011             ($32)   $24,134,142    Updated portfolio data from servicer

                                                                                                           1/13/2011      $1,500,000    $25,634,142    Transfer of cap due to servicing transfer

                                                                                                           3/16/2011      $7,100,000    $32,734,142    Transfer of cap due to servicing transfer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                           3/30/2011            ($36)   $32,734,106
                                                                                                                                                       reallocation

                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                      297
                                                                                                                                                                                                                                                                                   298
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                           Cap of Incentive                                             Adjustment Details                                                                        Non-GSE Incentive Payments
                                                                       Payments on Behalf
                                                                         of Borrowers and                                                                                                                                                                                  Total
                                                                            to Servicers &                                      Cap                                                                      Market                     Lenders/                           Non-GSE
            Name of                     Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                               Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                 Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                         (in Millions)    Incentive     Incentives     Incentives          Payments


                                                                                                          3/26/2010      $8,680,000     $9,450,000    Updated portfolio data from servicer


                                                                                                          7/14/2010     ($8,750,000)      $700,000    Updated portfolio data from servicer
                                                      Financial
            Greater Nevada Mortgage                   Instrument for                                      9/30/2010        $170,334       $870,334    Updated portfolio data from servicer
1/13/2010                               Purchase                               $770,000 N/A                                                                                                                          $10,583        $27,885         $31,750            $70,219
            Services, Carson City, NV                 Home Loan
                                                      Modifications                                       1/6/2011              ($1)      $870,333    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($1)      $870,332
                                                                                                                                                      reallocation


                                                      Financial                                           3/26/2010     $12,190,000    $15,240,000    Updated portfolio data from servicer
            Digital Federal Credit                    Instrument for
1/15/2010                               Purchase                              $3,050,000 N/A
            Union, Marlborough, MA                    Home Loan
                                                      Modifications
                                                                                                          5/14/2010    ($15,240,000)             —    Termination of SPA
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I april 28, 2011




                                                                                                          3/26/2010      ($730,000)       $230,000    Updated portfolio data from servicer

                                                                                                          7/14/2010        $370,000       $600,000    Updated portfolio data from servicer

                                                                                                          9/30/2010        $200,000       $800,000 Initial FHA-HAMP cap and initial 2MP cap
                                                      Financial
            iServe Residential Lending,               Instrument for                                      9/30/2010      ($364,833)       $435,167    Updated portfolio data from servicer
1/29/2010                               Purchase                               $960,000 N/A
            LLC, San Diego, CA                        Home Loan
                                                      Modifications                                       11/16/2010       $100,000       $535,167    Transfer of cap due to servicing transfer

                                                                                                          1/6/2011              ($1)      $535,166    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($1)      $535,165
                                                                                                                                                      reallocation

                                                                                                          3/26/2010        $160,000       $700,000 Updated portfolio data from servicer

                                                      Financial                                           9/30/2010         $25,278       $725,278    Updated portfolio data from servicer
                                                      Instrument for
1/29/2010   United Bank, Griffin, GA    Purchase                               $540,000 N/A
                                                      Home Loan                                           1/6/2011              ($1)      $725,277    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011             ($1)      $725,276
                                                                                                                                                      reallocation

                                                      Financial                                           7/14/2010      $4,440,000     $5,500,000    Updated portfolio data from servicer
            Urban Trust Bank, Lake                    Instrument for
3/3/2010                                Purchase                              $1,060,000 N/A
            Mary, FL                                  Home Loan
                                                                                                          9/24/2010     ($5,500,000)             —    Termination of SPA
                                                      Modifications


                                                                                                          5/26/2010        $120,000    $28,160,000    Initial 2MP cap

                                                                                                          7/14/2010    ($12,660,000)   $15,500,000    Updated portfolio data from servicer

                                                                                                          9/30/2010        $100,000    $15,600,000    Initial FHA-HAMP cap
                                                      Financial
            iServe Servicing, Inc.,                   Instrument for
3/5/2010                                Purchase                             $28,040,000 N/A              9/30/2010     ($3,125,218)   $12,474,782    Updated portfolio data from servicer
            Irving, TX                                Home Loan
                                                      Modifications
                                                                                                          11/16/2010       $800,000    $13,274,782    Transfer of cap due to servicing transfer

                                                                                                          1/6/2011             ($20)   $13,274,762    Updated portfolio data from servicer

                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($24)   $13,274,738
                                                                                                                                                      reallocation

                                                                                                          7/14/2010    ($44,880,000)   $15,900,000    Updated portfolio data from servicer

                                                      Financial                                           9/30/2010      $1,071,505    $16,971,505    Updated portfolio data from servicer
            Navy Federal Credit Union,                Instrument for
3/10/2010                              Purchase                              $60,780,000 N/A                                                                                                                           $7,000       $71,680         $77,500           $156,180
            Vienna, VA                                Home Loan                                           1/6/2011             ($23)   $16,971,482    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($26)   $16,971,456
                                                                                                                                                      reallocation

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                 (CONTINUED)

            Servicer Modifying Borrowers’ Loans                          Cap of Incentive                                             Adjustment Details                                                                          Non-GSE Incentive Payments
                                                                      Payments on Behalf
                                                                        of Borrowers and                                                                                                                                                                                    Total
                                                                           to Servicers &                                      Cap                                                                        Market                     Lenders/                           Non-GSE
            Name of                    Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                                 Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                           (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                          7/14/2010      $400,000        $700,000    Updated portfolio data from servicer

                                                     Financial                                            9/30/2010        $25,278       $725,278    Updated portfolio data from servicer
            Vist Financial Corp,                     Instrument for
3/10/2010                              Purchase                               $300,000 N/A
            Wyomissing, PA                           Home Loan                                            1/6/2011             ($1)      $725,277    Updated portfolio data from servicer
                                                     Modifications
                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($1)      $725,276
                                                                                                                                                     reallocation

                                                                                                          7/14/2010      $300,000        $600,000 Updated portfolio data from servicer


                                                     Financial                                            9/30/2010       ($19,778)      $580,222    Updated portfolio data from servicer
            Midwest Bank and
                                                     Instrument for
4/14/2010   Trust Co.,                 Purchase                               $300,000 N/A
                                                     Home Loan
            Elmwood Park, IL                                                                              1/6/2011             ($1)      $580,221    Updated portfolio data from servicer
                                                     Modifications

                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($1)      $580,220
                                                                                                                                                     reallocation


                                                                                                          7/14/2010     ($150,000)     $6,400,000    Updated portfolio data from servicer


                                                     Financial                                            9/15/2010     $1,600,000     $8,000,000    Transfer of cap due to servicing transfer
            Wealthbridge Mortgage                    Instrument for
4/14/2010                              Purchase                              $6,550,000 N/A
            Corp, Beaverton, OR                      Home Loan                                            9/30/2010    ($4,352,173)    $3,647,827    Updated portfolio data from servicer
                                                     Modifications
                                                                                                          1/6/2011             ($5)    $3,647,822    Updated portfolio data from servicer

                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($6)    $3,647,816
                                                                                                                                                     reallocation

                                                     Financial                                            5/26/2010        $30,000        $40,000    Updated FHA-HAMP cap
            Aurora Financial                         Instrument for
5/21/2010                              Purchase                                $10,000 N/A         4, 8                                                                                                                 $3,867             —          $3,867             $7,734
            Group, Inc., Marlton, NJ                 Home Loan
                                                                                                          9/30/2010      $250,111        $290,111    Updated portfolio data from servicer
                                                     Modifications

                                                                                                                                                     Transfer of cap from CitiMortgage, Inc. due
                                                                                                          6/16/2010     $3,680,000     $3,680,000
                                                                                                                                                     to servicing transfer

                                                                                                          8/13/2010     $3,300,000     $6,980,000    Transfer of cap due to servicing transfer


                                                     Financial                                            9/30/2010     $3,043,831    $10,023,831    Updated portfolio data from servicer
            Selene Financial, L.P.,                  Instrument for
6/16/2010                              Transfer                                      — N/A         9      10/15/2010    $1,400,000    $11,423,831    Transfer of cap due to servicing transfer                          $1,750         $7,467         $3,000            $12,217
            Houston, TX                              Home Loan
                                                     Modifications
                                                                                                          1/6/2011            ($17)   $11,423,814    Updated portfolio data from servicer

                                                                                                          3/16/2011     $2,100,000    $13,523,814    Transfer of cap due to servicing transfer

                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011           ($24)   $13,523,790
                                                                                                                                                     reallocation

                                                                                                          9/30/2010     $1,585,945     $2,465,945    Updated portfolio data from servicer
                                                     Financial
            Suburban Mortgage
                                                     Instrument for
8/4/2010    Company of New Mexico,     Purchase                               $880,000 N/A                1/6/2011             ($4)    $2,465,941    Updated portfolio data from servicer
                                                     Home Loan
            Albuquerque, NM
                                                     Modifications
                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                          3/30/2011            ($4)    $2,465,937
                                                                                                                                                     reallocation

                                                                                                          9/30/2010     $1,040,667     $1,740,667    Updated portfolio data from servicer
                                                     Financial
            Bramble Savings Bank,                    Instrument for                                       1/6/2011             ($2)    $1,740,665    Updated portfolio data from servicer
8/20/2010                              Purchase                               $700,000 N/A
            Cincinanati, OH                          Home Loan
                                                     Modifications                                                                                   Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I april 28, 2011




                                                                                                          3/30/2011            ($3)    $1,740,662
                                                                                                                                                     reallocation

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    299
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                    (CONTINUED)                                                                                                                                                                             300

            Servicer Modifying Borrowers’ Loans                             Cap of Incentive                                            Adjustment Details                                                                        Non-GSE Incentive Payments
                                                                         Payments on Behalf
                                                                           of Borrowers and                                                                                                                                                                                 Total
                                                                              to Servicers &                                     Cap                                                                      Market                     Lenders/                           Non-GSE
            Name of                       Transaction   Investment        Lenders/Investors Pricing         Adjustment    Adjustment        Adjusted                                               Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                   Type          Description                   (Cap)1 Mechanism Note Date             Amount             Cap    Reason for Adjustment                         (in Millions)    Incentive     Incentives     Incentives          Payments

                                                                                                             9/30/2010    $2,181,334     $3,481,334    Updated portfolio data from servicer

                                                        Financial
                                                                                                             1/6/2011            ($5)    $3,481,329    Updated portfolio data from servicer
            Pathfinder Bank,                            Instrument for
8/25/2010                                 Purchase                              $1,300,000 N/A                                                                                                                              —           $525          $1,000             $1,525
            Oswego, NY                                  Home Loan
                                                        Modifications                                                                                  Updated due to quarterly assessment and
                                                                                                             3/30/2011           ($6)    $3,481,323
                                                                                                                                                       reallocation


                                                                                                             9/30/2010    $7,014,337    $11,314,337    Updated portfolio data from servicer
                                                        Financial
            First Financial Bank, N.A.,                 Instrument for                                       1/6/2011           ($17)   $11,314,320    Updated portfolio data from servicer
8/27/2010                                 Purchase                              $4,300,000 N/A
            Terre Haute, ID                             Home Loan
                                                        Modifications                                                                                  Updated due to quarterly assessment and
                                                                                                             3/30/2011          ($20)   $11,314,300
                                                                                                                                                       reallocation

                                                                                                             9/30/2010       $45,056       $145,056 Updated portfolio data from servicer
                                                        Financial
            RBC Bank (USA), Raleigh,                    Instrument for                                       1/6/2011        $34,944       $180,000    Updated portfolio data from servicer
9/1/2010                                  Purchase                               $100,000 N/A         4, 8
            NC                                          Home Loan
                                                        Modifications                                                                                  Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I april 28, 2011




                                                                                                             3/30/2011       $40,000       $220,000
                                                                                                                                                       reallocation

                                                                                                             9/30/2010    $5,168,169     $8,268,169    Updated portfolio data from servicer
                                                        Financial
            Fay Servicing, LLC,                         Instrument for                                       1/6/2011           ($12)    $8,268,157    Updated portfolio data from servicer
9/3/2010                                  Purchase                              $3,100,000 N/A
            Chicago, IL                                 Home Loan
                                                        Modifications                                                                                  Updated due to quarterly assessment and
                                                                                                             3/30/2011          ($15)    $8,268,142
                                                                                                                                                       reallocation

                                                                                                             9/15/2010    $1,000,000     $1,000,000    Transfer of cap due to servicing transfer

                                                                                                             9/30/2010     $450,556      $1,450,556    Updated portfolio data from servicer

                                                        Financial                                            1/6/2011            ($2)    $1,450,554    Updated portfolio data from servicer
            Vericrest Financial, Inc.,                  Instrument for
9/15/2010                                 Purchase                                      — N/A         9                                                                                                                     —          $5,218        $14,000            $19,218
            Oklahoma City, OK                           Home Loan                                            2/16/2011    $3,000,000     $4,450,554    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                             3/16/2011   $10,200,000    $14,650,554    Transfer of cap due to servicing transfer

                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                             3/30/2011          ($24)   $14,650,530
                                                                                                                                                       reallocation


                                                                                                             9/30/2010     $180,222        $580,222    Updated portfolio data from servicer
                                                        Financial
            Midwest Community Bank,                     Instrument for
9/15/2010                           Purchase                                     $400,000 N/A                1/6/2011            ($1)      $580,221 Updated portfolio data from servicer
            Freeport, IL                                Home Loan
                                                        Modifications
                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                             3/30/2011           ($1)      $580,220
                                                                                                                                                       reallocation

                                                        Financial
                                                                                                             9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
            American Finance House                      Instrument for
9/24/2010                                 Purchase                               $100,000 N/A
            LARIBA, Pasadena, CA                        Home Loan
                                                        Modifications                                        2/2/2011     ($145,056)              —    Termination of SPA


                                                                                                             9/30/2010     $856,056      $2,756,056    Updated portfolio data from servicer
                                                        Financial
                                                        Instrument for
9/24/2010   Centrue Bank, Ottawa, IL      Purchase                              $1,900,000 N/A
                                                        Home Loan                                            1/6/2011            ($4)    $2,756,052    Updated portfolio data from servicer
                                                        Modifications
                                                                                                             3/9/2011    ($2,756,052)             —    Termination of SPA

                                                        Financial
                                                                                                             9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                   Instrument for
9/30/2010                                 Purchase                               $100,000 N/A
            Columbia, SC                                Home Loan
                                                        Modifications                                        3/23/2011    ($145,056)              —    Termination of SPA

                                                        Financial
            Amarillo National Bank,                     Instrument for
9/30/2010                                 Purchase                               $100,000 N/A         4, 8   9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
            Amarillo, TX                                Home Loan
                                                        Modifications

                                                                                                                                                                                                                                                          Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                   (CONTINUED)

            Servicer Modifying Borrowers’ Loans                            Cap of Incentive                                             Adjustment Details                                                                      Non-GSE Incentive Payments
                                                                        Payments on Behalf
                                                                          of Borrowers and                                                                                                                                                                                Total
                                                                             to Servicers &                                      Cap                                                                    Market                     Lenders/                           Non-GSE
            Name of                      Transaction   Investment        Lenders/Investors Pricing         Adjustment     Adjustment        Adjusted                                             Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                  Type          Description                   (Cap)1 Mechanism Note Date              Amount             Cap    Reason for Adjustment                       (in Millions)    Incentive     Incentives     Incentives          Payments

                                                       Financial
            American Financial
                                                       Instrument for
9/30/2010   Resources Inc.,              Purchase                               $100,000 N/A         4, 8    9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
                                                       Home Loan
            Parsippany, NJ
                                                       Modifications

                                                                                                             9/30/2010     $765,945      $2,465,945    Updated portfolio data from servicer
                                                       Financial
            Banco Popular de Puerto                    Instrument for                                4, 5,   1/6/2011            ($3)    $2,465,942    Updated portfolio data from servicer
9/30/2010                                Purchase                              $1,700,000 N/A
            Rico, San Juan, PR                         Home Loan                                     8
                                                       Modifications                                                                                   Updated due to quarterly assessment and
                                                                                                             3/30/2011           ($4)    $2,465,938
                                                                                                                                                       reallocation

                                                       Financial
            Capital International
                                                       Instrument for
9/30/2010   Financial, Inc., Coral       Purchase                               $100,000 N/A         4, 8    9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
                                                       Home Loan
            Gables, FL
                                                       Modifications

                                                                                                             9/30/2010     $360,445      $1,160,445    Updated portfolio data from servicer
                                                       Financial
            Citizens Community Bank,                   Instrument for
9/24/2010                                Purchase                               $800,000 N/A                 1/6/2011            ($2)    $1,160,443    Updated portfolio data from servicer
            Freeburg, IL                               Home Loan
                                                       Modifications
                                                                                                             3/23/2011   ($1,160,443)             —    Termination of SPA

                                                                                                             9/30/2010     $901,112      $2,901,112    Updated portfolio data from servicer
                                                       Financial
            Community Credit Union of                  Instrument for                                        1/6/2011            ($4)    $2,901,108    Updated portfolio data from servicer
9/30/2010                             Purchase                                 $2,000,000 N/A        6
            Florida, Rockledge, FL                     Home Loan
                                                       Modifications                                                                                   Updated due to quarterly assessment and
                                                                                                             3/30/2011           ($5)    $2,901,103
                                                                                                                                                       reallocation

                                                       Financial
            CU Mortgage Services, Inc.,                Instrument for
9/30/2010                               Purchase                                $100,000 N/A         4, 8    9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
            New Brighton, MN                           Home Loan
                                                       Modifications

                                                       Financial
            First Federal Bank of Florida,             Instrument for
9/30/2010                                  Purchase                             $100,000 N/A         4, 8    9/30/2010       $45,056       $145,056 Updated portfolio data from servicer
            Lake City, FL                              Home Loan
                                                       Modifications

                                                       Financial
            First Mortgage Coporation,                 Instrument for
9/30/2010                              Purchase                                 $100,000 N/A         4, 8    9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
            Diamond Bar, CA                            Home Loan
                                                       Modifications

                                                                                                             9/30/2010     $180,222        $580,222    Updated portfolio data from servicer
                                                       Financial
            First Safety Bank,                         Instrument for
9/30/2010                                Purchase                               $400,000 N/A                 1/6/2011            ($1)      $580,221    Updated portfolio data from servicer
            Cincinnati, OH                             Home Loan
                                                       Modifications
                                                                                                             3/23/2011    ($580,221)              —    Termination of SPA

                                                                                                             9/30/2010     $360,445      $1,160,445    Updated portfolio data from servicer
                                                       Financial
            Flagstar Capital Markets                   Instrument for                                        1/6/2011            ($2)    $1,160,443    Updated portfolio data from servicer
9/30/2010                                Purchase                               $800,000 N/A         7, 8
            Corporation, Troy, MI                      Home Loan
                                                       Modifications                                                                                   Updated due to quarterly assessment and
                                                                                                             3/30/2011           ($2)    $1,160,441
                                                                                                                                                       reallocation

                                                                                                             9/30/2010     $765,945      $2,465,945    Updated portfolio data from servicer
                                                       Financial
            Franklin Savings,                          Instrument for                                        1/6/2011            ($4)    $2,465,941    Updated portfolio data from servicer
9/30/2010                                Purchase                              $1,700,000 N/A        4
            Cincinnati, OH                             Home Loan
                                                       Modifications                                                                                   Updated due to quarterly assessment and
                                                                                                             3/30/2011           ($4)    $2,465,937
                                                                                                                                                       reallocation

                                                       Financial
            Gateway Mortgage Group,                    Instrument for
9/30/2010                                Purchase                               $100,000 N/A         4, 8    9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
            LLC, Tulsa, OK                             Home Loan
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I april 28, 2011




                                                       Modifications

                                                       Financial                                             9/30/2010       $45,056       $145,056    Updated portfolio data from servicer
            GFA Federal Credit Union,                  Instrument for
9/30/2010                                Purchase                               $100,000 N/A
            Gardner, MA                                Home Loan
                                                                                                             3/23/2011    ($145,056)              —    Termination of SPA
                                                       Modifications

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  301
HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                 (CONTINUED)                                                                                                                                                                          302

            Servicer Modifying Borrowers’ Loans                          Cap of Incentive                                           Adjustment Details                                                                      Non-GSE Incentive Payments
                                                                      Payments on Behalf
                                                                        of Borrowers and                                                                                                                                                                              Total
                                                                           to Servicers &                                     Cap                                                                   Market                     Lenders/                           Non-GSE
            Name of                    Transaction   Investment        Lenders/Investors Pricing         Adjustment    Adjustment       Adjusted                                             Capitalization    Borrowers       Investors      Servicers           Incentive
Date        Institution                Type          Description                   (Cap)1 Mechanism Note Date             Amount            Cap    Reason for Adjustment                       (in Millions)    Incentive     Incentives     Incentives          Payments

                                                     Financial
            Guaranty Bank, Saint                     Instrument for
9/30/2010                              Purchase                               $100,000 N/A         4, 8   9/30/2010      $45,056       $145,056    Updated portfolio data from servicer
            Paul, MN                                 Home Loan
                                                     Modifications

                                                                                                          9/30/2010     $135,167       $435,167    Updated portfolio data from servicer
                                                     Financial
            James B. Nutter &                        Instrument for                                       1/6/2011           ($1)      $435,166    Updated portfolio data from servicer
9/24/2010                            Purchase                                 $300,000 N/A         4, 8
            Company, Kansas City, MO                 Home Loan
                                                     Modifications                                                                                 Updated due to quarterly assessment and
                                                                                                          3/30/2011          ($1)      $435,165
                                                                                                                                                   reallocation

                                                                                                          9/30/2010     $450,556     $1,450,556    Updated portfolio data from servicer
                                                     Financial
            Liberty Bank and Trust Co,               Instrument for                                       1/6/2011           ($2)    $1,450,554    Updated portfolio data from servicer
9/30/2010                              Purchase                              $1,000,000 N/A
            New Orleans, LA                          Home Loan
                                                     Modifications                                                                                 Updated due to quarterly assessment and
                                                                                                          3/30/2011          ($2)    $1,450,552
                                                                                                                                                   reallocation

                                                                                                          9/30/2010     $315,389     $1,015,389    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I april 28, 2011




                                                     Financial
                                                     Instrument for                                       1/6/2011           ($1)    $1,015,388    Updated portfolio data from servicer
9/30/2010   M&T Bank, Buffalo, NY      Purchase                               $700,000 N/A         4, 8                                                                                           $10,651
                                                     Home Loan
                                                     Modifications                                                                                 Updated due to quarterly assessment and
                                                                                                          3/30/2011          ($1)    $1,015,387
                                                                                                                                                   reallocation

                                                                                                          9/30/2010     $630,778     $2,030,778    Updated portfolio data from servicer

                                                     Financial
                                                                                                          1/6/2011           ($3)    $2,030,775    Updated portfolio data from servicer
            Magna Bank,                              Instrument for
9/30/2010                              Purchase                              $1,400,000 N/A        5
            Germantown, TN                           Home Loan
                                                     Modifications                                                                                 Updated due to quarterly assessment and
                                                                                                          3/30/2011          ($3)    $2,030,772
                                                                                                                                                   reallocation


                                                                                                          9/30/2010     $225,278       $725,278    Updated portfolio data from servicer
                                                     Financial
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                               $500,000 N/A                1/6/2011           ($1)      $725,277    Updated portfolio data from servicer
            Lexena, KS                               Home Loan
                                                     Modifications
                                                                                                          3/9/2011     ($725,277)             —    Termination of SPA

                                                     Financial
            Marsh Associates, Inc.,                  Instrument for
9/30/2010                              Purchase                               $100,000 N/A         4, 8   9/30/2010      $45,056       $145,056    Updated portfolio data from servicer
            Charlotte, NC                            Home Loan
                                                     Modifications

                                                                                                          9/30/2010   $49,915,806   $93,415,806    Updated portfolio data from servicer

                                                     Financial
            Midland Mortgage                                                                              1/6/2011         ($125)   $93,415,681    Updated portfolio data from servicer
                                                     Instrument for
9/30/2010   Company,                   Purchase                             $43,500,000 N/A        4, 5                                                                                                        $256,577              —        $273,775           $530,352
                                                     Home Loan
            Oklahoma City, OK
                                                     Modifications                                                                                 Updated due to quarterly assessment and
                                                                                                          3/30/2011        ($139)   $93,415,542
                                                                                                                                                   reallocation


                                                     Financial
            Schmidt Mortgage                         Instrument for
9/30/2010                            Purchase                                 $100,000 N/A         4, 8   9/30/2010      $45,056       $145,056    Updated portfolio data from servicer
            Company, Rocky River, OH                 Home Loan
                                                     Modifications

                                                     Financial
            Stockman Bank of                         Instrument for
9/30/2010                              Purchase                               $100,000 N/A         4, 8   9/30/2010      $45,056       $145,056    Updated portfolio data from servicer
            Montana, Miles City, MT                  Home Loan
                                                     Modifications

                                                                                                          9/30/2010     $270,334       $870,334    Updated portfolio data from servicer
                                                     Financial
            University First Federal
                                                     Instrument for
9/30/2010   Credit Union,              Purchase                               $600,000 N/A                1/6/2011           ($1)      $870,333    Updated portfolio data from servicer
                                                     Home Loan
            Salt Lake City, UT
                                                     Modifications
                                                                                                          2/17/2011    ($870,333)             —    Termination of SPA

                                                     Financial
            Weststar Mortgage, Inc.,                 Instrument for
9/30/2010                              Purchase                               $100,000 N/A         4, 8   9/30/2010      $45,056       $145,056    Updated portfolio data from servicer
            Woodbridge, VA                           Home Loan
                                                     Modifications

                                                                                                                                                                                                                                                    Continued on next page.
 HAMP TRANSACTION DETAIL, AS OF 3/30/2011                                                         (CONTINUED)

             Servicer Modifying Borrowers’ Loans                             Cap of Incentive                                                                 Adjustment Details                                                                                  Non-GSE Incentive Payments
                                                                          Payments on Behalf
                                                                            of Borrowers and                                                                                                                                                                                                                     Total
                                                                               to Servicers &                                                     Cap                                                                                Market                           Lenders/                               Non-GSE
             Name of                      Transaction    Investment        Lenders/Investors Pricing         Adjustment                    Adjustment              Adjusted                                                   Capitalization       Borrowers          Investors         Servicers            Incentive
Date         Institution                  Type           Description                   (Cap)1 Mechanism Note Date                             Amount                   Cap     Reason for Adjustment                            (in Millions)       Incentive        Incentives        Incentives           Payments

                                                                                                                     12/15/2010            $5,000,000           $5,000,000     Updated portfolio data from servicer

                                                                                                                     1/6/2011                      ($7)         $4,999,993     Updated portfolio data from servicer

                                                         Financial
                                                                                                                     2/16/2011               $500,000           $5,499,993     Transfer of cap due to servicing transfer
             Statebridge Company, LLC,                   Instrument for
12/15/2010                             Purchase                                              — N/A            9
             Denver, CO                                  Home Loan
                                                                                                                     3/16/2011               $100,000           $5,599,993     Transfer of cap due to servicing transfer
                                                         Modifications

                                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                     3/30/2011                     ($9)         $5,599,984
                                                                                                                                                                               reallocation


                                                         Financial                                                   12/15/2010            $4,300,000           $4,300,000     Updated portfolio data from servicer
              Scotiabank de Puerto Rico,                 Instrument for
12/15/2010                               Purchase                                            — N/A            9                                                                                                                                      $23,264           $70,954           $40,092             $134,311
              San Juan, PR                               Home Loan
                                                                                                                     1/6/2011                      ($4)         $4,299,996     Updated portfolio data from servicer
                                                         Modifications



                                                        Total Initial Cap $23,831,570,000                 Total Cap Adjustments $6,065,316,273                                                                                        Totals $168,917,606 $482,113,181 $485,971,648                 $1,137,002,435

                                                                                     Total Cap                                     $29,896,886,273

Notes: Numbers affected by rounding. Data as of 3/30/2011. Numbered notes and definitions were taken verbatim from Treasury’s 4/1/2011 Transactions Report.

1	
    The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the
    program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2	
    On 7/31/2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3	
    Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4	
    Initial cap amount only includes FHA-HAMP.
5	
    Initial cap amount includes RD-HAMP.
6	
    Initial cap amount includes 2MP.
7	
    Initial cap amount includes FHA-2LP.
8	
    Initial cap does not include HAMP.
9	
    This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
   	The amendment reflects a change in the legal name of the institution.

“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program.

Sources: Treasury, Transactions Report — Housing Programs, 3/30/2011; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 4/13/2011.
                                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                                                         303
                                                                                                                                                                                                                                             304
Table D.13

    HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/30/2011                                                            (CONTINUED)

                      Seller

                                                                                               Transaction                                          Initial Investment   Additional Investment        Investment                 Pricing
Note     Trade Date   Name of Institution                                                      Type          Investment Description                            Amount                  Amount            Amount1              Mechanism

         6/23/2010                                                                                           Financial Instrument for HHF Program      $102,800,000                        —                                          N/A

2        9/23/2010    Nevada Affordable Housing Assistance Corporation, Reno, NV               Purchase      Financial Instrument for HHF Program                  —             $34,056,581      $194,026,240                        N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $57,169,659                                          N/A

         6/23/2010                                                                                           Financial Instrument for HHF Program      $699,600,000                        —                                          N/A

2        9/23/2010    CalHFA Mortgage Assistance Corporation, Sacramento, CA                   Purchase      Financial Instrument for HHF Program                  —            $476,257,070     $1,975,334,096                       N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $799,477,026                                          N/A

         6/23/2010                                                                                           Financial Instrument for HHF Program      $418,000,000                        —                                          N/A

2        9/23/2010    Florida Housing Finance Corporation, Tallahassee, FL                     Purchase      Financial Instrument for HHF Program                  —            $238,864,755     $1,057,839,136                       N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $400,974,381                                          N/A

         6/23/2010                                                                                           Financial Instrument for HHF Program      $125,100,000                        —                                          N/A
                                                                                                                                                                                                                                             Appendix D I Transaction Detail I april 28, 2011




                      Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ   Purchase                                                                                           $267,766,006
3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $142,666,006                                          N/A

         6/23/2010                                                                                           Financial Instrument for HHF Program      $154,500,000                        —                                          N/A

2        9/23/2010    Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI Purchase      Financial Instrument for HHF Program                  —            $128,461,559      $498,605,738                        N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $215,644,179                                          N/A

         8/3/2010                                                                                            Financial Instrument for HHF Program      $159,000,000                        —                                          N/A

2        9/23/2010    North Carolina Housing Finance Agency, Raleigh, NC                       Purchase      Financial Instrument for HHF Program                  —            $120,874,221      $482,781,786                        N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $202,907,565                                          N/A

         8/3/2010                                                                                            Financial Instrument for HHF Program      $172,000,000                        —                                          N/A

2        9/23/2010    Ohio Homeowner Assistance LLC, Columbus, OH                              Purchase      Financial Instrument for HHF Program                  —            $148,728,864      $570,395,099                        N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $249,666,235                                          N/A

         8/3/2010                                                                                            Financial Instrument for HHF Program       $88,000,000                        —                                          N/A

2        9/23/2010    Oregon Affordable Housing Assistance Corporation, Salem, OR              Purchase      Financial Instrument for HHF Program                  —             $49,294,215      $220,042,786                        N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $82,748,571                                          N/A

         8/3/2010                                                                                            Financial Instrument for HHF Program       $43,000,000                        —                                          N/A

2        9/23/2010    Rhode Island Housing and Mortgage Finance Corporation, Providence, RI    Purchase      Financial Instrument for HHF Program                  —             $13,570,770       $79,351,573                        N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $22,780,803                                          N/A

         8/3/2010                                                                                            Financial Instrument for HHF Program      $138,000,000                        —                                          N/A

2        9/23/2010    SC Housing Corp, Columbia, SC                                            Purchase      Financial Instrument for HHF Program                  —             $58,772,347      $295,431,547                        N/A

3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $98,659,200                                          N/A

         9/23/2010                                                                                           Financial Instrument for HHF Program       $60,672,471                        —                                          N/A
                      Alabama Housing Finance Authority, Montgomery, AL                        Purchase                                                                                           $162,521,345
3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —            $101,848,874                                          N/A

         9/23/2010                                                                                           Financial Instrument for HHF Program       $55,588,050                        —                                          N/A
                      Kentucky Housing Corporation, Frankfort, KY                              Purchase                                                                                           $148,901,875
3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $93,313,825                                          N/A

         9/23/2010                                                                                           Financial Instrument for HHF Program       $38,036,950                        —                                          N/A
                      Mississippi Home Corporation, Jackson, MS                                Purchase                                                                                           $101,888,323
3        9/29/2010                                                                                           Financial Instrument for HHF Program                  —             $63,851,373                                          N/A

                                                                                                                                                                                                                   Continued on next page.
    HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 3/30/2011                                                                                                   (CONTINUED)

                                               Seller

                                                                                                                                Transaction                                                               Initial Investment            Additional Investment       Investment      Pricing
Note              Trade Date                   Name of Institution                                                              Type              Investment Description                                             Amount                           Amount           Amount1   Mechanism

                  9/23/2010                                                                                                                       Financial Instrument for HHF Program                        $126,650,987                                —                            N/A
                                               GHFA Affordable Housing, Inc., Atlanta, GA                                       Purchase                                                                                                                         $339,255,819
3                 9/29/2010                                                                                                                       Financial Instrument for HHF Program                                     —                    $212,604,832                           N/A

                  9/23/2010                                                                                                                       Financial Instrument for HHF Program                          $82,762,859                               —                            N/A
                                               Indiana Housing and Community Development Authority, Indianapolis, IN            Purchase                                                                                                                         $221,694,139
3                 9/29/2010                                                                                                                       Financial Instrument for HHF Program                                     —                    $138,931,280                           N/A

                  9/23/2010                                                                                                                       Financial Instrument for HHF Program                        $166,352,726                                —                            N/A
                                               Illinois Housing Development Authority, Chicago, IL                              Purchase                                                                                                                         $445,603,557
3                 9/29/2010                                                                                                                       Financial Instrument for HHF Program                                     —                    $279,250,831                           N/A

                  9/23/2010                                                                                                                       Financial Instrument for HHF Program                        $112,200,637                                —                            N/A
                                               New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                      Purchase                                                                                                                         $300,548,144
3                 9/29/2010                                                                                                                       Financial Instrument for HHF Program                                     —                    $188,347,507                           N/A

                  9/23/2010                                                                                                                       Financial Instrument for HHF Program                           $7,726,678                               —                            N/A
                                               District of Columbia Housing Finance Agency, Washington, DC                      Purchase                                                                                                                          $20,697,198
3                 9/29/2010                                                                                                                       Financial Instrument for HHF Program                                     —                     $12,970,520                           N/A

                  9/23/2010                                                                                                                       Financial Instrument for HHF Program                          $81,128,260                               —                            N/A
                                               Tennessee Housing Development Agency, Nashville, TN                              Purchase                                                                                                                         $217,315,593
3                 9/29/2010                                                                                                                       Financial Instrument for HHF Program                                     —                    $136,187,333                           N/A

                                                                                                                                                                                                                                Total Investment Amount         $7,600,000,000


Notes: Numbers affected by rounding. Data as of 3/30/2011. Numbered note is taken verbatim from Treasury’s 4/1/2011 Transactions Report — Housing Programs.

1
    The purchase will be incrementally funded up to the investment amount.
2
    On 9/23/2010, Treasury provided additional investment to this HFA and substituted its investment for an amended and restated financial instrument.
3
    On 9/29/2010, Treasury provided additional investment to this HFA and substituted its investment for an amended and restated financial instrument.

Source: Treasury, Transactions Report —­Housing Programs, 3/30/2011.




Table D.14

    FHA Short Refinance Program, AS OF 3/30/2011
                              Seller
Note         Trade Date       Name                                            Transaction Type             Investment Description                                              Investment Amount            Pricing Mechanism
1            9/3/2010         Citigroup, Inc., New York, NY                   Purchase                     Facility Purchase Agreement, dated as of 9/3/2010,                     $8,117,000,000                            N/A
                                                                                                           between the U.S. Department of the Treasury and
                                                                                                           Citibank, N.A
                                                                                                           TOTAL INVESTMENT                                                      $8,117,000,000

Notes: Numbers affected by rounding. Data as of 3/30/2011. Numbered notes are taken verbatim from Treasury’s 4/1/2011 Transactions Report.

1
    On 9/3/2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the “L/C Facility Agreement”), which allows Treasury to demand from Citigroup the issuance of an up
    to $8 billion, 10-year letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from
    time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage
    of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report-Housing Programs, 3/30/2011.
                                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I april 28, 2011
                                                                                                                                                                                                                                                                                              305
306           Appendix E I Cross-Reference of Report to the Inspector General Act of 1978 | april 28, 2011




      Cross-Reference of Report to the Inspector General
      Act of 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

  Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                               Report Reference
  Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies      Section 1: “The Office of the SIGTARP”
  5(a)(1)    deficiencies... ”                                       from SIGTARP audits and investigations.      Section 4: “SIGTARP Recommendations”
             “Description of recommendations for corrective ac-
  Section                                                            List recommendations from SIGTARP            Section 1: “The Office of the SIGTARP”
             tion…with respect to significant problems, abuses,
  5(a)(2)                                                            audits and investigations.                   Section 4: “SIGTARP Recommendations”
             or deficiencies... ”
             “Identification of each significant recommendation      List all instances of incomplete correc-
  Section
             described in previous semiannual reports on which       tive action from previous semiannual         Section 4: “SIGTARP Recommendations”
  5(a)(3)
             corrective action has not been completed...”            reports.
             “A summary of matters referred to prosecutive
  Section                                                            List status of SIGTARP investigations
             authorities and the prosecutions and convictions                                                     Section 1: “The Office of the SIGTARP”
  5(a)(4)                                                            referred to prosecutive authorities.
             which have resulted... ”
             “A summary of each report made to the [Treasury
                                                                     List TARP oversight reports by Treasury,
  Section    Secretary] under section 6(b)(2)... ” (instances                                                     Appendix G: “Key Oversight Reports and
                                                                     FSOB, SEC, GAO, COP, OMB, CBO,
  5(a)(5)    where information requested was refused or not                                                       Testimonies”
                                                                     Federal Reserve, FDIC, and SIGTARP.
             provided)
             “A listing, subdivided according to subject matter,
  Section    of each audit report issued...” showing dollar value
                                                                     List SIGTARP audits.                         Section 1: “The Office of the SIGTARP”
  5(a)(6)    of questioned costs and recommendations that
             funds be put to better use.
  Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                  Section 1: “The Office of the SIGTARP”
  5(a)(7)    report... ”                                             SIGTARP audits.
                                                                                                                  As detailed in Section 1: “The Office of the
             “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
  Section                                                                                                         SIGTARP,” SIGTARP has made significant findings
             reports and the total dollar value of questioned        value of questioned costs from SIGTARP
  5(a)(8)                                                                                                         in its audit reports. However, to date SIGTARP’s
             costs... ”                                              audits.
                                                                                                                  audits have not included questioned costs findings.
                                                                                                                  As detailed in Section 1: “The Office of the
             “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
  Section                                                                                                         SIGTARP,” SIGTARP has made important findings in
             reports and the dollar value of recommendations         value of funds put to better use by
  5(a)(9)                                                                                                         its audit reports. However, to date SIGTARP’s audits
             that funds be put to better use by management...”       management from SIGTARP audits.
                                                                                                                  have not included funds put to better use findings.
             “A summary of each audit report issued before
             the commencement of the reporting period for
             which no management decision has been made by           Provide a synopsis of significant
  Section                                                                                                         Section 1: “The Office of the SIGTARP”
             the end of reporting period, an explanation of the      SIGTARP audit reports in which recom-
  5(a)(10)                                                                                                        Section 4: “SIGTARP Recommendations”
             reasons such management decision has not been           mendations by SIGTARP are still open.
             made, and a statement concerning the desired
             timetable for achieving a management decision...”
                                                                                                                  As detailed in Section 1: “The Office of the
                                                                                                                  SIGTARP,” and Section 4: “SIGTARP Recommenda-
                                                                     Explain audit reports in which significant   tions,” SIGTARP has made noteworthy recom-
  Section    “A description and explanation of the reasons for
                                                                     revisions have been made to manage-          mendations in its audit reports, and the majority
  5(a)(11)   any significant revised management decision...”
                                                                     ment decisions.                              of these recommendations have been agreed to.
                                                                                                                  To date, no management decisions have been
                                                                                                                  revised.
             “Information concerning any significant manage-                                                      See discussion in Section 1: “The Office of the
  Section                                                            Provide information where management
             ment decision with which the Inspector General is in                                                 SIGTARP,” and Section 4: “SIGTARP Recommenda-
  5(a)(12)                                                           disagreed with a SIGTARP audit finding.
             disagreement...”                                                                                     tions.”
                                                                       public announcements of audits I Appendix F I april 28, 2011    307




PUBLIC ANNOUNCEMENTS OF                                            GAO3
AUDITS                                                             Ongoing Audits
This appendix provides an announcement of new and ongo-            •	 AIG indicators briefing will be provided to Hill staff in
ing public audits by the agencies listed below. See Appendix          April and a report will be issued in June or July with further
G: “Key Oversight Reports and Testimonies” for a listing of           updates.
published reports. Italic style indicates narrative taken verba-   •	 Short correspondence to accompany results of a survey of
tim from the agencies’ responses to SIGTARP’s data call.              homeowner counselors. Likely to be issued in May 2011.
•	 U.S. Department of Treasury Inspector General                   •	 Auto industry program: ongoing oversight of program and
   (“Treasury OIG”)                                                   analysis of community impacts of restructuring of auto com-
•	 Federal Reserve Board Office of Inspector General                  panies. Expected issuance at the end of April 2011.
   (“Federal Reserve OIG”)                                         •	 Further update of CPP with expected issuance later in the
•	 Government Accountability Office (“GAO”)                           year.
•	 Federal Deposit Insurance Corporation (“FDIC OIG”)
                                                                   FDIC OIG4
Treasury OIG      1
                                                                   Ongoing Audits
Ongoing Audits                                                     •	 None
•	 None
                                                                   Endnotes
Federal Reserve OIG                                                 	 Treasury OIG, response to SIGTARP data call, 3/30/2011.
                                                                   1
                             2
                                                                   2
                                                                    	 Federal Reserve OIG, response to SIGTARP data call, 3/31/2011.
Ongoing Audits                                                     3
                                                                    	 GAO, response to SIGTARP data call, 3/31/2011.
•	 None                                                            4
                                                                    	 FDIC OIG, response to SIGTARP data call, 4/1/2011.
308             Appendix g I key oversights and testimonies I april 28, 2011




      KEY OVERSIGHT REPORTS AND TESTIMONIES
      This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See prior
      SIGTARP quarterly reports for lists of prior oversight reports and testimonies.


      U.S. DEPARTMENT OF THE TREASURY (Treasury)
      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively; promot-
      ing economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury advises the
      President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial institutions.
      OVERSIGHT REPORTS
      Treasury, Transactions Report, 1/1/2011 — 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/
      default.aspx, accessed 4/5/2011. (released weekly)
      Treasury, Section 105(a) Report, 1/10/2011 — 3/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/default.aspx,
      accessed 4/5/2011.
      Treasury, Dividends and Interest Reports, 1/10/2011 — 3/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-inter-
      est/Pages/default.aspx, accessed 4/5/2011.

      Treasury, “Daily TARP Update,” 2/9/2011 — 3/31/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
      Pages/default.aspx?page=1, accessed 4/20/2011.

      Treasury, “Citizen’s Report on the Troubled Asset Relief Program (“TARP”),” 2/14/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/agency_reports/Documents/OFS%20CR_2010_Feb11_last.pdf, accessed 4/5/2011.

      Treasury, “Making Home Affordable Program Reports,” 3/2/2011 — 4/1/2011, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
      Pages/default.aspx, accessed 4/5/2011.
      RECORDED TESTIMONY
      Treasury, “Written Testimony of Chief of Homeownership Preservation Office Phyllis Caldwell,” 2/16/2011, www.treasury.gov/press-center/press-releases/
      Pages/tg1065.aspx, accessed 4/5/2011.
      Treasury, “Acting Assistant Secretary Timothy G. Massad Written Testimony Before the Congressional Oversight Panel,” 3/4/2011, www.treasury.gov/
      press-center/press-releases/Pages/tg1091.aspx, accessed on 4/25/2011.
      Treasury, “Written Testimony by Acting Assistant Secretary Timothy G. Massad Before the Senate Committee on Banking, Housing and Urban Affairs,”
      3/17/2011, www.treasury.gov/press-center/press-releases/Pages/tg1108.aspx, accessed 4/5/2011.
      Treasury, “Written Testimony by Acting Assistant Secretary for the Office of Financial Stability Timothy G. Massad Before the House Committee on Oversight
      and Government Reform ,” 3/30/2011, www.treasury.gov/press-center/press-releases/Pages/tg1120.aspx, accessed 4/5/2011.


      FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
      ROLES AND MISSION
      FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
      •	 policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
         classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
      •	 the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers.
         In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any
         suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
      OVERSIGHT REPORTS
      None.
      RECORDED TESTIMONY
      None
                                                                                     key oversights and testimonies I Appendix g I april 28, 2011             309




SECURITIES AND EXCHANGE COMMISSION (SEC)

ROLES AND MISSION

SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive actions
to address the extraordinary challenges caused by the current credit crisis:
•	 aggressively combating fraud and market manipulation through enforcement actions
•	 taking swift action to stabilize financial markets
•	 enhancing transparency in financial disclosure.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
None


GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION

GAO is tasked with performing ongoing oversight of TARP’s performance, including:
•	 evaluating the characteristics of asset purchases and the disposition of assets acquired
•	 assessing TARP’s efficiency in using the funds
•	 evaluating compliance with applicable laws and regulations
•	 assessing the efficiency of contracting procedures
•	 auditing TARP’s annual financial statements and internal controls
•	 submitting reports to Congress at least every 60 days.

OVERSIGHT REPORTS

GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of Government Assistance Provided to AIG and Description of Recent Execution of
Recapitalization Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 4/5/2011.

GAO, “Actions Needed by Treasury to Address Challenges in Implementing Making Home Affordable Programs,” 3/2/2011, www.gao.gov/new.items/
d11338t.pdf, accessed 4/5/2011.

GAO, “Troubled Asset Relief Program: Status of Programs and Implementation of GAO Recommendations,” 3/17/2011, www.gao.gov/new.items/d11476t.
pdf, accessed 4/5/2011.
GAO, “Troubled Asset Relief Program: Treasury Continues to Face Implementation Challenges and Data Weaknesses in Its Making Home Affordable Pro-
gram,” 3/17/2011, www.gao.gov/new.items/d11288.pdf, accessed 4/5/2011.

RECORDED TESTIMONY

GAO, “Actions Needed by Treasury to Address Challenges in Implementing Making Home Affordable Programs,” Mathew J. Scirè before the Subcommittee
on Insurance, Housing, and Community Opportunity, Committee on Financial Services, House of Representatives, Washington, D.C., 3/2/2011, www.gao.
gov/new.items/d11338t.pdf, accessed 4/20/2011.

GAO, “Troubled Asset Relief Program: Status of Programs and Implementation of GAO Recommendations,” Thomas J. McCool before the Committee on
Banking, Housing, and Urban Affairs, U.S. Senate, Washington, D.C., 3/17/2011, www.gao.gov/new.items/d11476t.pdf, accessed 4/20/2011.
310             Appendix g I key oversights and testimonies I april 28, 2011




      CONGRESSIONAL OVERSIGHT PANEL (COP)
      ROLES AND MISSION
      COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP is
      required to produce the following reports to Congress:
      •	 regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial markets/
         financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximization of benefits
         for taxpayers
      •	 a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its effective-
         ness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for improvement
         regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to the regulatory
         system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
      OVERSIGHT REPORTS
      COP, “January Oversight Report—An Update on TARP Support for the Domestic Automotive Industry,” 1/13/2011, http://cybercemetery.unt.edu/archive/
      cop/20110402010325/http:/cop.senate.gov/documents/cop-011311-report.pdf, accessed 4/20/2011.

      COP, “February Oversight Report—Executive Compensation Restrictions in the Troubled Asset Relief Program,” February 2011, http://frwebgate.access.
      gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_senate_committee_prints&docid=f:63750.pdf, accessed 4/5/2011.

      COP, “March Oversight Report—The Final Report of the Congressional Oversight Panel,” March 2011, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.
      cgi?dbname=112_senate_hearings&docid=f:64832.pdf, accessed 4/5/2011.

      RECORDED TESTIMONY

      COP, “Commercial Real Estate’s Impact on Bank Stability,” 2/4/2011, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=112_senate_
      hearings&docid=f:65083.pdf, accessed 4/5/2011.

      COP, “An Overall Assessment of TARP and Financial Stability,” 3/4/2011, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=112_senate_
      hearings&docid=f:65276.pdf, accessed 4/5/2011.

      COP, “TARP Oversight: Evaluating Returns on Taxpayer Investments,” Ted Kaufman before the U.S. Senate Committee on Banking, Washington, D.C.,
      3/17/2011, http://cybercemetery.unt.edu/archive/cop/20110401232036/http://cop.senate.gov/documents/testimony-031711-kaufman.pdf, accessed
      4/5/2011.


      OFFICE OF MANAGEMENT AND BUDGET (OMB)
      ROLES AND MISSION

      OMB’s predominant mission is to assist the President in overseeing the preparation of the Federal budget and to supervise its administration in Executive
      Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and procedures,
      assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony, and proposed
      legislation are consistent with the President’s Budget and with Administration policies.

      In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of these
      areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and to reduce
      any unnecessary burdens on the public.
      OVERSIGHT REPORTS

      OMB, “The President’s Budget for Fiscal Year 2012,”no date, www.whitehouse.gov/omb/budget, accessed 4/20/2011.

      RECORDED TESTIMONY

      None
                                                                                         key oversights and testimonies I Appendix g I april 28, 2011                 311




CONGRESSIONAL BUDGET OFFICE (CBO)
ROLES AND MISSION
CBO’s mandate is to provide Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array of
programs covered by the Federal budget and the information and estimates required for the Congressional budget process.

CBO assists the House and Senate Budget Committees and Congress more generally by preparing reports and analyses. In accordance with CBO’s
mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.

OVERSIGHT REPORTS
CBO, “Report on the Troubled Asset Relief Program-March 2011,” 3/29/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf, accessed on
4/5/2011.
RECORDED TESTIMONY
None


FEDERAL RESERVE BOARD (Federal Reserve)
ROLES AND MISSION
Federal Reserve’s duties fall into four general areas:
•	 conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
   prices, and moderate long-term interest rates
•	 supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the credit
   rights of consumers
•	 maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
•	 providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating the
   nation’s payments system.
OVERSIGHT REPORTS

Federal Reserve, “Audit of the Board’s Processing of Applications for the Capital Purchase Program under the Troubled Asset Relief Program,” 9/2010,
www.federalreserve.gov/oig/oig_rpt_2009.htm, accessed on 4/5/2011.

RECORDED TESTIMONY
Federal Reserve, “Commercial Real Estate,” Patrick M. Parkinson, Before the Congressional Oversight Panel, Washington, D.C., 2/4/2011,
www.federalreserve.gov/newsevents/testimony/parkinson20110204a.htm, accessed on 4/20/2011.
Federal Reserve, “Term Asset-Backed Securities Loan Facility,” William R. Nelson, Deputy Director, Division of Monetary Affairs, Before the Congressional
Oversight Panel, U.S. Congress, Washington, D.C., 3/4/2011, www.federalreserve.gov/newsevents/testimony/nelson20110304a.htm, accessed on
4/5/2011.


FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
ROLES AND MISSION
FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring deposits,
examining and supervising financial institutions, and managing receiverships.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
FDIC, “The Current State of Commercial Real Estate Finance and Its Relationship to the Overall Stability of the Financial System,” Sandra Thompson, Before the
Congressional Oversight Panel, Washington, D.C., 2/4/2011, http://fdic.gov/news/news/speeches/chairman/spfeb0411.html, accessed 4/20/2011.
FDIC, “Temporary Liquidity Guarantee Program,” Jason C. Cave, Before the Congressional Oversight Panel, Washington, D.C., 3/4/2011, http://fdic.gov/
news/news/speeches/chairman/spmar411.html, accessed 4/20/2011.
312             Appendix g I key oversights and testimonies I april 28, 2011




      FEDERAL DEPOSIT INSURANCE CORPORATION OFFICE OF THE INSPECTOR GENERAL (FDIC OIG)
      ROLES AND MISSION

      The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud, waste,
      and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.

      OVERSIGHT REPORTS
      FDIC OIG, “Recapitalization and Resolution Efforts Associated with ShoreBank, Chicago, Illinois,” 3/8/2011, www.fdicig.gov/reports11/11-001EV.pdf,
      accessed on 4/5/2011.
      RECORDED TESTIMONY
      None


      SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
      ROLES AND MISSION

      Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of the
      purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”).

      SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
      coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

      OVERSIGHT REPORTS
      SIGTARP, Quarterly Report to Congress, 1/26/2011, www.sigtarp.gov/reports/congress/2011/January2011_Quarterly_Report_to_Congress.pdf,
      accessed 4/5/2011.

      SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20Financial%20
      Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 4/5/2011.

      SIGTARP, “Treasury’s Process for Contracting for Professional Services under TARP,” 4/14/2011, www.sigtarp.gov/reports/audit/2011/Treasury’s%20Pro-
      cess%20for%20Contracting%20for%20Professional%20Services%20under%20TARP%2004_14_11.pdf, accessed 4/20/2011.

      RECORDED TESTIMONY
      SIGTARP, Statement of Neil Barofsky, Before the House Committee on Oversight and Government Reform, 1/26/2011, www.sigtarp.gov/reports/
      testimony/2011/Testimony%20Before%20the%20House%20Committee%20on%20Oversight%20and%20Government%20Reform_1_26_2011.pdf,
      accessed on 4/5/2011.
      SIGTARP, Statement of Neil Barofsky, Before the House Committee on Financial Services Subcommittee on Insurance, Housing and Community Opportunity,
      Washington D.C., 3/2/2011, www.sigtarp.gov/reports/testimony/2011/Testimony%20Before%20the%20House%20Committee%20on%20Financial%20
      Services%20Subcommittee%20on%20Insurance,%20Housing,%20and%20Community%20Opportunity.pdf, accessed on 4/5/2011.
      SIGTARP, Statement of Neil Barofsky, Before the Senate Committee on Banking, Housing, and Urban Development, Washington D.C., 3/17/2011, www.
      sigtarp.gov/reports/testimony/2011/Testimony%20Before%20the%20Senate%20Committee%20on%20Banking,%20Housing%20and%20Urban%20Devel-
      opment.pdf, accessed on 4/5/2011.

      SIGTARP, Statement of Neil Barofsky, Before the Committee on Oversight and Government Reform Subcommittee on TARP, Financial Services, Bailouts of
      Public and Private Programs, Washington D.C., 3/30/2011, www.sigtarp.gov/reports/testimony/2011/Testimony%20Before%20the%20Committee%20
      on%20Oversight%20and%20Government%20Reform%20Subcommittee%20on%20TARP%20Financial%20Services%20and%20Bailouts%20on%20Public%20
      and%20Private%20Programs.pdf, accessed on 4/5/2011.

      Note: Italic style indicates verbatim narrative taken from source documents.

      Sources: Treasury, www.treasury.gov, accessed 4/5/2011; Treasury Inspector General, www.treas.gov, accessed 4/5/2011; Financial Stability Oversight Board, www.treas.gov, accessed 4/5/2011; SEC,
      www.sec.gov, accessed 4/5/2011; GAO, www.gao.gov, accessed 4/5/2011; COP, www.cop.senate.gov, accessed 4/5/2011; OMB, www.whitehouse.gov, accessed 4/5/2011; CBO, www.cbo.gov,
      accessed 4/5/2011; Federal Reserve Board, www.federalreserve.gov, accessed 4/5/2011; FDIC, www.fdic.gov, accessed 4/5/2011; FDIC OIG, www.fdicoig.gov, accessed 4/1/2011; SIGTARP,
      www.sigtarp.gov, accessed 4/5/2011; FDIC, response to SIGTARP data call, 4/1/2011; GAO, response to SIGTARP data call, 3/31/2011, Treasury, response to SIGTARP data call, 4/6/2011.
                                                                                     correspondence I Appendix h I april 28, 2011   313




correspondence
This appendix provides a copy of the following correspondence:

 Correspondence
 Date          From             To              Regarding
 4/7/2011      Treasury         SIGTARP         Response to SIGTARP’s Interim Audit on Contracting for Professional Services
 4/15/2011     Treasury         SIGTARP         Response to SIGTARP January 2011 Quarterly Report to Congress
 4/18/2011     Treasury         SIGTARP         Status Update on Recommendations in the SIGTARP Quarterly Report
314   Appendix h I correspondence I april 28, 2011
correspondence I Appendix h I april 28, 2011   315
316   Appendix h I correspondence I april 28, 2011
correspondence I Appendix h I april 28, 2011   317
318   Appendix h I correspondence I april 28, 2011
correspondence I Appendix h I april 28, 2011   319
organizational chart                                                                                                                                                                                                                                        320


ORGANIZATIONAL CHART




                                                                                                           Special Inspector General
                                                                                                            Christy Romero (Acting)

                                                                                                                                                                                                     EEO Program
                                                                                                                                                                                                       Manager
                                                                                                                                                                                                     Josui Watson
                                                                                                                 Deputy Special
                                                                                                               Inspector General
                                                                                                                Christy Romero
                                     Chief of Staff                                                                                     Senior Policy Advisor                       Chief Counsel
                                     Geoff Moulton                                                                                              Vacant                         Roderick Fillinger
                                                                                                                                                                                                                                                            Appendix I I organizational chart I april 28, 2011




                                                                                                                                                                   Communications               Director of
                                      Deputy Chief                                                                                                                    Director              Congressional Affairs
                                        of Staff
                                                                                                                                                                     Kristine Belisle           Lori Hayman
                                  Mia Levine (Acting)


                         Deputy SIG –                                                                             Deputy SIG –                                                                               Deputy SIG –
                        Investigations                                                                               Audit                                                                                    Operations
                         Scott Rebein                                                                               Kurt Hyde                                                                                     Cathy Alix


                         Special Agent in                                                                           Assistant                                                                                Assistant Deputy
                            Charge                                                                              Deputy SIG – Audit                                                                           SIG – Operations
                          John Mulvaney                                                                        Clayton Boyce (Acting)                                                                         Dr. Eileen Ennis



 Chief Investigative                         Chief HQ Operations                                                                                                        ADSIG − Special             ADSIG − HR
                          Investigators                                                                                                                                                                                    ADSIG − CIO     ADSIG − CFO
      Counsel
                                                      Vacant                                                                                                               Programs
                                                                                                                                                                                                    Sally Ruble                AJ Germek   Deborah Mathis
 Richard Rosenfeld                                                                                                                                                       Lynn Perkoski


                                              Hotline Supervisor
  Attorney Advisors
                                               Camille Wright
                                                                        Director              Director               Director                Director              Director

                                                  Analysts         Shannon Williams          Alisa Davis          Brenda James             Craig Meklir           Eric Mader



                                              Cyber Forensics      Auditors & Analysts   Auditors & Analysts    Auditors & Analysts     Auditors & Analysts   Auditors & Analysts




Note: SIGTARP organizational chart as of 3/31/2011.
                        SIGTARP: Quarterly Report to Congress | April 28, 2011
                                                                                                            CT
                                                                                                       INSPE OR GE
                                                                                                AL                        N
                                                                                              CI




                                                                                                                          ER
                                                                                         E
                                                                                        SP




                                                                                                                             A L
                                                                                       TRO




                                                                                                                               M
                                                                                                                               RA
                                                                                        UB
                                                                                             LE




                                                                                                                          OG
                                                                                                  D
                                                                                                      ASS                 PR
                                                                                                            E T R ELIEF




SIGTARP
SIG-QR-11-02
                         Q2
                        2011
                                                                                 SIGTARP                                            Office of the Special Inspector General
                                                                                                                                    for the Troubled Asset Relief Program
                                                                                 Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                                April 28, 2011
www.SIGTARP.gov
